<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
        Prepared Statement of the Academy of Radiology Research
    This statement is submitted on behalf of the Academy of Radiology 
Research, an alliance of 23 scientific and professional societies with 
a membership of more than 40,000 radiologists, imaging scientists, and 
allied professionals. The Academy is also supported by national 
organizations representing more than 100,000 radiologic technologists.
    In addition, I am also representing the Coalition for Imaging and 
Biomedical Engineering Research (CIBR). CIBR is a permanent coalition 
of radiology, imaging, and bioengineering societies; imaging equipment 
and medical device manufacturers; and patient advocacy groups. What 
unites all of these diverse groups is the common recognition that new 
imaging and biomedical engineering techniques and technologies can 
transform medical science and produce dramatic improvements in the 
detection, diagnosis, and treatment of a broad range of diseases and 
conditions.
    The purpose of my statement is to urge the Appropriations Committee 
and Congress to make an investment this year that will foster 
innovation in imaging and produce a new revolution in medical science 
and health care driven by technology development. Recognizing the 
significant budgetary challenges we face at present, it is critical 
that the Federal Government take full advantage of the scientific 
opportunities that offer the best prospects for improving the 
capability of physicians to diagnose and treat a broad range of 
diseases and conditions. Imaging is one such area of scientific 
opportunity. For that reason, we request that the committee increase 
the appropriation in fiscal year 2008 to $350 million for the National 
Institute of Biomedical Imaging and Bioengineering (NIBIB), the newest 
Institute at the National Institutes of Health and the primary home for 
basic research in imaging at the NIH.
    The NIBIB is not the sole home for imaging research at the NIH. 
Indeed, the National Cancer Institute was the primary supporter of 
imaging in the years before the NIBIB was established. With strong 
support from NCI Director John E. Niederhuber and leadership from Dr. 
Dan Sullivan, the NCI Cancer Imaging Program continues to grow and push 
the boundaries of knowledge. I hope that the committee will support the 
growth of NCI initiatives in areas such as imaging as a biomarker for 
drug development, the development of new image-guided ablative 
therapies, and computer-assisted methods of combining imaging and other 
clinical data.
    While the extramural community strongly supports imaging research 
programs at the NCI and other Institutes, the NIBIB is the Institute 
charged with developing new imaging techniques and technologies with 
broad clinical and research applications. Investing in the NIBIB yields 
dividends for all of the other Institutes in the form of new tools for 
studying the specific diseases that constitute the missions of those 
Institutes. It also pays large dividends for patients, who will benefit 
from new imaging techniques that improve medical care and reduce the 
need for more invasive, painful, and expensive procedures.
    A good example is the first grant made by the NIBIB in 2002--a 
Bioengineering Research Partnership award to a multi-institutional 
group led by Dr. James Duncan of Yale University. With this support 
from the NIBIB, Dr. Duncan and his team have been developing new, 
image-guided surgical techniques for treating patients with certain, 
severe forms of epilepsy. The results have been dramatic. A patient who 
has undergone this surgery recently told the House Medical Technology 
Caucus that the number of seizures she suffered daily dropped from more 
than 30 to zero. After years enduring a severe disability that affected 
virtually every area of activity, she was suddenly given her life back.
    As with many imaging research projects, however, the longer-term 
payoff will be much greater. This research is producing data from the 
brain that is helping scientists to understand brain structure and 
function in general. Moreover, this new information about the brain 
will improve our understanding of Parkinson's Disease, autism, 
Alzheimer's Disease, dementia, and other disorders. Finally, the 
techniques developed with this grant could have much broader 
applications, such as the use of imaging to guide cancer therapy to 
destroy tumors or to deliver drugs to precise locations in the brain in 
order to treat a variety of neurological disorders. Thus, a project to 
improve the lives of epilepsy patients will eventually produce new 
treatments for many more people with a range of neurological disorders. 
This is typical of NIBIB and imaging initiatives.
    The NIBIB, is different from other Institutes. As NIBIB Director 
Roderic I. Pettigrew has observed, ``In other Institutes they utilize 
tools. In this Institute, we discover tools.'' These tools are used by 
investigators at the other Institutes both to improve our understanding 
of disease processes and as a principal component in new therapies. 
Optical imaging, for example, is an emerging technology that uses light 
waves to produce high-quality images. Based on early research, the use 
of optical imaging to diagnose and treat breast cancer appears to be 
especially promising. This technology may allow physicians to 
investigate large sections of tissue rapidly for cancerous growths, to 
guide surgery to remove tumors, and to scan effectively for additional 
disease. As optical imaging develops, physicians and scientists will 
have a new tool with applications to a wide spectrum of diseases. It 
also promises to be safer and less expensive than earlier technologies.
    The last Congress overwhelmingly approved the National Institutes 
of Health Reform Act of 2007, which called for a renewed emphasis on 
trans-NIH research and a special focus on research at the nexus of the 
physical and life sciences. NIBIB is well positioned to make good on 
Congress's intent in both areas. The NIBIB, by its nature, is perhaps 
the most collaborative and interdisciplinary of all the Institutes and 
Centers at the NIH. In its first years, the NIBIB has pioneered 
collaborative projects with other Institutes to develop new techniques 
with applications to specific diseases. NIBIB is also NIH's most 
prominent ``bridge'' to the physical sciences. Three examples clearly 
illustrate NIBIB's unique collaborative roll.

                       IMAGE GUIDED INTERVENTION

    Despite its prominence in modern-day medicine, surgery remains in a 
relatively primitive state. Although improvements in surgical 
techniques abound, costs are high, invasive procedures are still the 
norm, and surgeons continue to rely on pre-operative images. 
Significant improvements to the current state of surgery are well 
within our reach. Highly exacting image-guided intervention could 
potentially minimize invasiveness, greatly reducing patient recovery 
time and the costs associated with it. With the acquisition and use of 
real-time (moving) 3D images, surgeons will move far beyond pre-op 
images to observe blood flow patterns, identify clot risks and ``see'' 
brain, nervous and electrical functions during surgery. Other advances 
bridging nano and imaging technologies together could permit surgeons 
to visualize and operate at the cellular level. In general, with 
additional research, surgical tools will be smaller, less expensive, 
and easier to manipulate.
    The field of image-guided interventions is at a critical juncture. 
The NIBIB leads the Interagency IGI Group, a trans-agency special 
interest group including representation from seven Federal agencies as 
well as 13 NIH Institutes and Centers. The need to support further 
research and development in IGI was documented at a January 2006 
retreat of the Interagency IGI group. NIBIB-support has already led to 
major advances in this area and the Institute is poised to lead the 
technological advances that will revolutionize IGI in the future.

                  IMAGING AT THE POINT OF PATIENT CARE

    Medical imaging is critical for quality health care. Yet, 
sophisticated imaging services remain widely unavailable to many 
patients in small clinics and hospitals in rural and low-income 
communities. The development of low cost, portable imaging devices 
could extend point of care , modern diagnostic imaging techniques to 
millions of underserved Americans. Recent advances in miniaturization 
of electronic hardware and improved software may allow the development 
of widely available low-cost ultrasound devices to diagnose 
complications of pregnancy, hemorrhage associated with trauma, renal 
obstructions and other significant medical conditions. Similar advances 
in optical imaging may herald wider access to optical probes capable of 
early detection of cervical cancers. Additionally, advances in the 
electronic transmission of images can allow specialists located 
thousands of miles away to evaluate these point of care images and 
prescribe appropriate clinical treatment for millions of underserved 
patients.
    Reduction of health disparities through new and affordable medical 
technologies is an explicit goal in NIBIB's Strategic Plan, and the 
Institute was established with this as one of its primary research 
initiatives. NIBIB has been a steady proponent of this research and 
recently launched a new initiative to develop low-cost imaging 
subsystems which attracted the attention of the Gates Foundation, as 
low-cost technologies are mutual priorities for both organizations. 
NIBIB is also spearheading the creation of a network of point-of-care 
research centers. Given NIBIB's strategic priority for developing low-
cost imaging technologies, its leadership in this field, and its focus 
on point-of-patient-care technologies, NIBIB is ideally suited to lead 
a new major program to bring the benefits of advanced imaging 
technologies to all Americans.

                           TISSUE ENGINEERING

    The rapid development of transplant medicine along with the aging 
of the baby boomer generation have caused increased demand for tissues 
and organs far exceeding the available donor organs. As of May 2006, 
there were over 90,000 people on the waiting list for donor organs. 
Many of these individuals will die before a suitable organ can be 
found. By providing tissues and organs ``on demand,'' regenerative 
medicine will improve the quality of life for individuals and reduce 
healthcare costs. A recent report by the Department of Health and Human 
Services (2020: A New Vision--A Future for Regenerative Medicine http:/
/www.hhs.gov/reference/newfuture.shtml) underscores the need for a 
cohesive Federal initiative in this area. The NIBIB is poised to lead 
this initiative into the future.
    Tissue Engineering is the cornerstone of regenerative medicine. It 
involves the growth and engineering of living, functional, tissues and 
organs. The long-range goal of tissue engineering is to use these 
tissues and organs to restore, maintain, or enhance function lost due 
to age, disease, damage or congenital defects. Tissue engineering has 
already seen some spectacular human successes, including nearly-
complete regeneration of a severed finger and a functional bladder 
grown ex-vivo, as well as animal studies where motor function has been 
largely restored in a rat with a damaged spinal cord. Despite these 
successes, much still needs to be done to better understand why tissue 
regeneration starts and stops and to develop technologies to grow and 
preserve larger quantities of tissue.
    Clearly tissue engineering is an emerging multidisciplinary field 
at the interface of the life and physical sciences. Thus, it is no 
surprise that NIBIB exerts a leadership role in the Multi-Agency Tissue 
Engineering working group for the President's National Science and 
Technology Council. Given its pivotal role in this area, NIBIB requires 
additional resources to fund the science necessary to accelerate 
advances in this critical area of biomedical science.
    The current budget proposals for fiscal year 2008 do not measure up 
to the scientific opportunities in imaging. To be sure, these are 
stringent budgetary times. In such circumstances, the unique 
collaborative role of NIBIB offers the valuable potential for synergies 
with other NIH Institutes and other agencies of government that will 
stretch the value of scarce research dollars and expand the 
translational potential of the joint studies that are undertaken. 
Surely this is what Congress had in mind when it placed so much 
emphasis on breaking down the barriers separating the various 
Institutes, and disciplines at NIH. The NIBIB can only realize its vast 
collaborative and translational potential if it grows at a reasonable 
rate. As the newest of the NIH Institutes, it did not share in the 
doubling of the NIH budget that ended just as the new century began.
    Failure to invest adequately in the NIBIB will have at least two 
negative consequences. First, scientific opportunities to improve 
diagnosis and treatment of a wide range of diseases will be, at best, 
delayed and could be lost. NIBIB Director Rod Pettigrew has proposed a 
program of ``quantum'' projects designed to produce major breakthroughs 
in health care and medical science. Without additional resources, this 
initiative will surely be postponed or scaled back. Moreover, advanced 
research in other Institutes aimed at specific diseases will be set 
back by the delay in developing leading-edge imaging techniques that 
enable advanced research.
    Second, it will discourage the large group of researchers who have 
been attracted to the NIH for the first time. Scientists in fields such 
as physics, mathematics, and computer science have been drawn to the 
NIBIB as a home for research that ties together the physical and 
biological sciences. Congress clearly sees such interdisciplinary 
research as the future of biomedical science, but that future could be 
delayed significantly if top scientists are discouraged from even 
submitting applications because funds are not available to support good 
research.
    For these reasons, I hope that the committee will increase the 2008 
appropriation for the NIBIB to $350 million and consider a multi-year 
plan to build toward a budget that will enable the Institute to fulfill 
its collaborative mission.
    The Congress created the NIBIB in 2000 to be different from the 
other Institutes. It is different because its primary mission is 
technology development. It is different because it does not focus on a 
single disease or organ system; instead, it is charged with developing 
new technologies with broad applications to many diseases and 
conditions. It is different because its foundation in the physical 
sciences separates it from the Institutes based on the biological 
sciences.
    To a significant extent because of these differences, the NIBIB 
represents the future of interdisciplinary, team-driven biomedical 
science that is changing health care. I hope that the Congress will 
provide the resources needed to fulfill its promise.
                                 ______
                                 
             Prepared Statement of the AIDS Action Council

    I am pleased to submit this testimony to the members of this 
committee on the importance of increased funding for the fiscal year 
2008 HIV/AIDS portfolio. Since 1984, AIDS Action Council has worked to 
enhance HIV prevention programs, research protocols, and care and 
treatment services at the community, State, and Federal level. AIDS 
Action's goals are to ensure effective, evidence-based HIV care, 
treatment, and prevention services; to encourage the continuing pursuit 
of a cure and a vaccine for HIV infection; and to support the 
development of a public health system which ensures that its services 
are available to all those in need. On behalf of AIDS Action Council's 
diverse membership, comprising community-based HIV/AIDS service 
organizations, prevention services, public health departments, and 
education and training programs, I bring your attention to issues 
impacting funding for fiscal year 2008.
    Despite the good news of improved treatments, which have made it 
possible for people with HIV disease to lead longer and healthier 
lives, stark realities remain:
  --There are between 1.1 and 1.2 million people living with HIV in the 
        United States.
  --Half a million HIV positive people in the United States do not 
        receive regular medical care including treatment for their 
        disease.
  --Between 200,000 and 300,000 people in the United States do not know 
        that they are HIV positive.
  --There are at least 40,000 preventable, new HIV infections each 
        year. Approximately half of these infections occur in youth 
        aged 13-24
  --Between 14,000-16,000 people die from HIV related causes each year.
  --While African Americans comprise only 12 percent of the United 
        States population, they account for approximately half (49 
        percent) of those infected with HIV/AIDS and 70 percent of new 
        HIV infections each year.
  --HIV was the #1 cause of death for Black women, aged 25-34, in 2004 
        the most recent year we for which have data.
  --According to a CDC study released in 2005, 46 percent of urban 
        African American men who have sex with men (MSM) were HIV-
        positive.
  --70 percent of HIV positive people depend on Federal programs to 
        receive HIV treatment, care, and services.
    The Federal Government's commitment to funding research, 
prevention, and care and treatment for those living with HIV is 
critical. Despite this commitment, we are not doing enough. We need 
more prevention, more treatment and care and more research to slow and 
eventually reverse this epidemic.
    AIDS Action Council concurs with many in the HIV community that 
increased support for HIV care and treatment, research, and prevention 
are critical. The community has come together under the umbrella of the 
AIDS Budget and Appropriations Coalition with the community funding 
request for the HIV domestic portfolio for fiscal year 2008. The 
numbers requested represent that community work. These requests have 
been submitted to the committee.
    The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act, 
administered by the Health Resources and Services Administration (HRSA) 
and funded by this subcommittee, provides services to more than 533,000 
people living with and affected by HIV throughout the United States and 
its territories. It is the single largest source of Federal funding 
solely focused on the delivery of HIV services. CARE Act programs have 
been critical to reducing the impact of the domestic HIV epidemic. Yet 
in recent years, CARE Act funding has decreased through across-the-
board rescissions. The rescissions in fiscal year 2005 and fiscal year 
2006 that were executed on all non-defense and non-homeland security 
discretionary spending during the final negotiations of the bills had a 
devastating impact on the HIV/AIDS portfolio in general, and on the 
Ryan White CARE Act in particular.
    Now in its 17th year, the Ryan White CARE Act was reauthorized by 
the 109th Congress. The changes made by reauthorization, combined with 
the late enactment of fiscal year 2007 funding, has created the 
potential for crisis within the CARE Act. It is AIDS Action's hope that 
this subcommittee will recognize and address the true funding needs of 
the care programs within the domestic HIV/AIDS portfolio and make 
significant increases in all aspects of the HIV funding portfolio.
    Five new jurisdictions were added to Ryan White CARE Act's Title I 
as transitional grant areas (TGAs), but no new funding was added for 
the Title I grantees in fiscal year 2007. Some of the services provided 
under Title I include physician visits, laboratory services, case 
management, home-based and hospice care, and substance abuse and mental 
health services. With the new reauthorization these services will be 
even more dedicated towards funding core medical services and to 
ensuring the ability of patients to adhere to treatment. These services 
are critical to ensuring patients have access to, and can effectively 
utilize, life-saving therapies. AIDS Action along with the HIV/AIDS 
community recommends funding Title I at $840.4 million.
    Title II of the CARE Act ensures a foundation for HIV related 
health care services in each State and territory, including the 
critically important AIDS Drug Assistance Program (ADAP) and Emerging 
Communities Program. Title II base grants (excluding ADAP and Emerging 
Communities) was the only program to receive an increase from 
$331,000,000 in fiscal year 2006 to $406,000,000 in fiscal year 2007 
for a total increase of $75,800,000. AIDS Action along with the HIV/
AIDS community recommends funding for Title II base grants at $463.4 
million.
    The AIDS Drug Assistance Program (ADAP) provides medications for 
the treatment of individuals with HIV who do not have access to 
Medicaid or other health insurance. According to the National ADAP 
Monitoring Project, approximately 96,404 clients received medications 
through ADAP in June 2005. The President recommends an increase of 
$25.4 million for the critical AIDS Drug Assistance Program (ADAP) in 
his fiscal year 2008 budget. However this amount is far too low. AIDS 
Action along with the HIV/AIDS community recommends an increase of 
$232.9 million for ADAP for fiscal year 2008. This request is derived 
from a pharmacoeconomic model to estimate the amount of funding needed 
to treat ADAP eligible individuals in upcoming Federal and State fiscal 
years.
    Title III of the Ryan White CARE Act awards grants to community-
based clinics and medical centers, hospitals, public health 
departments, and universities in 22 States and the District of Columbia 
under the Early Intervention Services program. These grants are 
targeted toward new and emerging sub-populations impacted by the HIV 
epidemic in urban and rural settings. Title III funds are particularly 
needed in rural areas where the availability of HIV care and treatment 
is still relatively new. AIDS Action, along with the HIV/AIDS 
community, requests is an increase of $87,800,000.
    Title IV of the Ryan White CARE Act awards grants under the 
Comprehensive Family Services Program to provide comprehensive care for 
HIV positive women, infants, children, and youth, as well as their 
affected families. These grants fund the planning of services that 
provide comprehensive HIV care and treatment and the strengthening of 
the safety net for HIV positive individuals and their families. AIDS 
Action and the HIV/AIDS community request is an increase of 
$46,400,000.
    Under Part F, the AIDS Education and Training Centers (AETCs) are 
the training arm of the Ryan White CARE Act; they train the healthcare 
providers, including the doctors, advanced practice nurses, physicians' 
assistants, nurses, oral health professionals, and pharmacists. The 
role of the AETCs is invaluable in ensuring that such education is 
available to healthcare providers who are being asked to treat the 
increasing numbers of HIV positive patients who depend on them for 
care. Additionally, the AETCs have been tasked with providing training 
on Hepatitis B and C to CARE Act grantees and to ensure inclusion of 
culturally competent programs for and about HIV and Native Americans 
and Alaska Natives. However no funding was added for additional 
materials, training of staff, or programs. AIDS Action and the HIV/AIDS 
community request a $15.3 million increase for this program.
    Also under Part F, Dental care is another crucial part of the 
spectrum of services needed by people living with HIV disease. 
Unfortunately oral health is one of the first aspects of health care to 
be neglected by those who cannot afford, or do not have access to, 
proper medical care removing an opportunity to catch early infections 
of HIV. AIDS Action and the HIV/AIDS community request a $5.9 million 
increase for this program.
    AIDS Action and the HIV/AIDS community estimate that the entire 
Ryan White CARE Act portfolio needs $2,794,300,000 for fiscal year 2008 
to address the true needs of the over 1 million people that the Centers 
for Disease Control and Prevention (CDC) estimates are living with HIV 
in the United States. The fiscal year 2007 funding that was allocated 
was just over $2 billion ($2,112,000,000). This is a significant 
shortfall from the actual needs of people living with HIV.
    The Minority AIDS Initiative directly benefits racial and ethnic 
minority communities with grants to provide technical assistance and 
infrastructure support and strengthen the capacity of minority 
community based organizations to deliver high-quality HIV health care 
and supportive services. HIV/AIDS in the United States continues to 
disproportionately affect communities of color. The Minority AIDS 
Initiative provides services across every service category in the CARE 
Act and was authorized for inclusion within the CARE Act for the first 
time in the 2006 CARE Act reauthorization. It additionally funds other 
programs throughout HHS. AIDS Action and the HIV/AIDS community request 
a total of $610 million for the Minority AIDS Initiative.
    The Housing Opportunities for People with AIDS (HOPWA) program, 
administered by the U.S. Department of Housing and Urban Development 
(HUD), is another integral program in the HIV care system. Stable 
housing is absolutely critical to the ability of people living with HIV 
to access and adhere to an effective HIV treatment plan. Stable housing 
plays a key role in HIV prevention; lack of housing is a known risk 
factor for HIV. Although HOPWA is not part of the Labor, Health and 
Human Services Appropriations bill, AIDS Action urges all 
Appropriations Committee members to support this critical program. AIDS 
Action requests that $454,000,000 should be appropriated to the HOPWA 
program for fiscal year 2008.
    According to CDC estimates contained in the agency's December 2005 
HIV/AIDS Surveillance Report, 956,019 cumulative cases of AIDS have 
been diagnosed in the United States, with a total of 518,037 deaths 
since the beginning of the epidemic. As funding has remained 
essentially flat for more than 6 years, new infections also have 
stubbornly remained at the level of 40,000 per year. Dr. David 
Holtgrave, chair of the Johns Hopkins Bloomberg School Department of 
Health, Behavior and Society, has convincingly shown that there is a 
strong correlation between the lack of funding increases and the 
failure to reduce the number of new HIV infections. Therefore, AIDS 
Action Council estimates that the CDC HIV/AIDS, STD, and TB prevention 
programs will need $1,597.3 million in fiscal year 2008 to address the 
true unmet needs of prevention in HIV/AIDS, STDs, and TB.
    Research on preventing, treating and ultimately curing HIV is vital 
to the domestic control of the disease. The United States must continue 
to take the lead in the research and development of new medicines to 
treat current and future strains of HIV. Primary prevention of new HIV 
infections must remain a high priority in the field of research. It is 
essential that NIH continues its groundbreaking research to secure a 
prevention vaccine and continue to research promising treatment 
vaccines that may help HIV positive people maintain optimal health. 
Research on microbicides [gels, creams or other substances that prevent 
the sexual transmission of HIV and other sexually transmitted 
infections (STIs) when applied topically] for vaginal and anal sexual 
intercourse is also critical. Continued research on new medications for 
drug resistant strains of HIV is also critical. Finally, behavioral 
research to increase knowledge of sexual behavior and research to help 
individuals delay the initiation of sexual relations, limit the number 
of sexual partners, limit high-risk behaviors related to alcohol and 
substance use and move from drug use to drug treatment are all 
critically important. NIH's Office of AIDS Research is critical in 
supporting all of these research arenas. AIDS Action requests that the 
National Institutes of Health AIDS portfolio be funded at $3.2 billion 
for fiscal year 2008 an increase of $300 million over fiscal year 2007.
    HIV is a continuing health crisis in the United States. On behalf 
of all HIV positive Americans, and those affected by the disease, AIDS 
Action Council urges you to increase funding in each of these areas of 
the domestic HIV/AIDS portfolio. Help us save lives by allocating 
increased funds to address the HIV epidemic in the United States.
                                 ______
                                 
              Prepared Statement of the Alpha-1 Foundation

    Agency Recommendations:
    1. NIH: The Alpha-1 Foundation requests an allocation in the budget 
to enable the NIH, NHLBI to focus additional research leading to a 
better understanding of Alpha-1, including improved management and 
therapeutic approaches. The Foundation observes that much can be 
learned by studying the biology of Alpha-1, a human model of 
environment-gene interaction, which will inform Chronic Obstructive 
Pulmonary Disease (COPD) and liver cirrhosis, both of which are major 
public health concerns. The Foundation requests cooperation between 
NHLBI, NIDDK, NHGRI, and other institutes to enhance targeted 
detection, raise public awareness about Alpha-1 and provide appropriate 
information to health professionals. The Foundation recommends 
achieving these goals through use of the NHLBI Rare Lung Diseases 
Consortium and the COPD Clinical Research Network.
    2. NIH: The Foundation commends NHLBI for their national launch of 
the COPD Awareness and Education Campaign titled ``COPD Learn More 
Breathe Better'' and recommends that NHLBI continue to enhance its 
portfolio of research and education on the fourth leading cause of 
death in the United States, Chronic Obstructive Pulmonary Disease 
(COPD), including genetic risk factors such as Alpha-1 Antitrypsin 
Deficiency.
    3. NIH: The Alpha-1 Foundation notes that the severe adult-onset 
lung disease caused by Alpha-1 stems directly from the protein 
secretion abnormality in the livers and lungs of affected individuals. 
Alpha-1 has also been shown to be a risk factor for hepatitis C and B 
infection. The Foundation requests that NIDDK collaborate with NHLBI, 
NCI and other institutes to enhance its research portfolio, encourage 
detection, raise public awareness and provide appropriate information 
to health professionals. The Foundation encourages the use of the NIDDK 
Cholestatic Liver Disease Consortium to achieve these goals.
    4. NIH: The Foundation notes that given the link between 
environmental factors and the onset of Alpha-1 related COPD, the 
committee encourages NIEHS to develop research initiatives to explore 
gene environment interaction research and develop support for public 
private partnerships.
    5. CDC: The Foundation requests that CDC develop a program to 
promote early detection of Alpha-1 so that individuals can engage in 
preventative health measures and receive appropriate therapies which 
significantly improve their health status. The Foundation requests a 
public private partnership to actively support Alpha-1 targeted 
detection efforts that utilize public and professional education 
regarding chronic obstructive lung disease, both genetic and tobacco 
related.

                               DISCLOSURE

    Title: Rare Lung Disease Clinical Research Network Grant #1 U54 
RR019498-01
    Principal Investigator: Bruce C. Trapnell, M.D., University of 
Cincinnati Medical School
    Dates: 09/01/03 through 08/31/08
    Total Costs--$5,520,790
    The Foundation receives a small percentage of this grant as the 
coordinating center.
    Thank you for the opportunity to submit testimony for the record on 
behalf of the Alpha-1 Foundation.
                         the alpha-1 foundation
    The Alpha-1 Foundation is a national not-for-profit organization 
dedicated to providing the leadership and resources that will result in 
increased research, improved health, worldwide detection and a cure for 
Alpha-1 Antitrypsin (Alpha-1) Deficiency. The Foundation has built the 
research infrastructure with private investment, funding over 
$28,000,000 in grants from basic to social science, establishing a 
national patient registry, tissue and Biobank, translational 
laboratory, assisting in fast track development of new therapeutics, 
and stimulating the involvement of the scientific community. The 
Foundation has invested the resources to support clinical research 
uniquely positioning ourselves for a perfect private public 
partnership. There is a lack of awareness of the insidious nature of 
the early symptoms of the lung and liver disease associated with this 
genetic condition by both medical care providers and the public. It is 
our hope that the Federal Government will leverage the Foundation's 
investment with support for a national Alpha-1 targeted detection 
program.

                ALPHA-1 IS SERIOUS AND LIFE THREATENING

    Alpha-1 is the leading genetic risk factor for Chronic Obstructive 
Pulmonary Disease (COPD) and is often misdiagnosed as such. Alpha-1 
afflicts an estimated 100,000 individuals in the United States with 
fewer than 5 percent accurately diagnosed. These are people who know 
they are sick and as yet have not put a name to their malady. Although 
Alpha-1 testing is recommended for those with COPD this standard of 
care is not being implemented. In addition, an estimated 20 million 
Americans are the undetected carriers of the Alpha-1 gene and may pass 
the gene on to their children. Of these 20 million carriers, 7-8 
million may be at risk for lung or liver disease.
    The pulmonary impairment of Alpha-1 causes disability and loss of 
employment during the prime of life (20-40 years old), frequent 
hospitalizations, family disorganization, and the suffering known only 
to those unable to catch their breath. Fully half of those diagnosed 
require supplemental oxygen. Lung transplantation, with all its 
associated risks and costs, is the most common final option. Alpha-1 is 
the primary cause of liver transplantation in infants and an increasing 
cause in adults. Alpha-1 liver disease currently has no specific 
treatment aside from transplantation. The cost to these families in 
time, energy and money is high and often devastating. Alpha-1 also 
causes liver cancer.
    Alpha-1 is a progressive and devastating disorder that in the 
absence of proper diagnosis and therapy leads to premature death; in 
spite of the availability of therapeutics for lung disease and 
preventative health measures that can be life-prolonging. It is 
estimated that untreated individuals can have their life expectancy 
foreshortened by 20 or more years. Yet early detection, the avoidance 
of environmental risk factors and pulmonary rehabilitation can 
significantly improve health.

                            ALPHA-1 AND COPD

    As the forth leading cause of death, COPD is a major public health 
concern. Data indicates that not all individuals who smoke develop lung 
disease leading many to conclude that COPD has significant genetic and 
environmental risk factors. As the most significant genetic risk factor 
for COPD, Alpha-1 has much to tell us about the pathogenesis of lung 
disease. Discoveries and advances made in Alpha-1 will impact the 
larger 12-24 million individuals living with COPD.

                               DETECTION

    The Alpha-1 Foundation conducted a pilot program in the State of 
Florida where we garnered the knowledge and experience necessary to 
launch an awareness and National Targeted Detection Program (NTDP). The 
goals of the NTDP are to educate the medical community and people with 
COPD and liver disease, alerting them that Alpha-1 may be an underlying 
factor of their disease; and stimulating testing for Alpha-1. This 
effort will uncover a significant number of people who would benefit 
from early diagnosis, treatment and preventative health measures.
    The Foundation distributes the American Thoracic Society/European 
Respiratory Society (ATS/ERS) ``Standards for the Diagnosis and 
Management of Individuals with Alpha-1 Antitrypsin Deficiency'' to 
physicians, nurses and respiratory therapists. Additionally, health 
care practitioners and the COPD community are being targeted through 
press releases, newsletter articles and various website postings.
    The national implementation of the NTDP is enhanced through the 7 
Clinical Resource Network Centers of the National Heart, Lung, Blood 
Institute of the National Institutes of Health; 51 Foundation 
affiliated Clinical Resource Centers; large pulmonary practices and 
various teaching hospitals and universities. The NTDP also employs a 
direct to consumer approach targeted to people with COPD.
    The Alpha-1 Foundation's Ethical Legal and Social Issues (ELSI) 
Working Group endorsed the recommendations of the ATS/ERS Standards 
Document which recommends testing symptomatic individuals or siblings 
of those who are diagnosed with Alpha-1. Early diagnosis in Alpha-1 can 
significantly impact disease outcomes by allowing individuals to seek 
appropriate therapies, and engage in essential life planning. 
Unfortunately, seeking a genetic test may lead to discrimination 
against individuals who have no control over their inherited condition. 
The absence of Federal protective legislation has caused the ELSI to 
recommend against population screening and genetic testing in the 
neonatal population. The Foundation is encouraged that the House has 
passed the Genetic Information Nondiscrimination Act of 2007 out of 
committee and may soon take this measure up on the House floor.
    The Alpha-1 Coded Testing (ACT) Trial, funded by the Alpha-1 
Foundation and conducted at the Medical University of South Carolina 
offers a free and confidential finger-stick test that can be completed 
at home. The results are mailed directly to the participants. The ACT 
Trial has offered individuals the opportunity to receive confidential 
test results since September 2001.

                            ALPHA-1 RESEARCH

    The Alpha-1 Foundation believes that significant Federal investment 
in medical research is critical to improving the health of the American 
people and specifically those affected with Alpha-1. The support of 
this subcommittee has made a substantial difference in improving the 
public's health and well-being.
    The Foundation requests that the National Institutes of Health 
increase the investment in Alpha-1 Antitrypsin (AAT) Deficiency and 
that the Centers for Disease Control and Prevention initiate a Federal 
partnership with the Alpha-1 community to achieve the following goals:
  --Promotion of basic science and clinical research related to the AAT 
        protein and AAT Deficiency;
  --Funding to attract and train the best young clinicians for the care 
        of individuals with AAT Deficiency;
  --Support for outstanding established scientists to work on problems 
        within the field of AAT research;
  --Development of effective therapies for the clinical manifestations 
        of AAT Deficiency;
  --Expansion of awareness and targeted detection to promote early 
        diagnosis and treatment.
                                 ______
                                 
           Prepared Statement of the Alzheimer's Association

    Chairman Harkin, ranking member Specter and members of the 
subcommittee, thank you for the opportunity to submit testimony 
regarding funding for key programs that address the enormous 
demographic and economic impact that Alzheimer's disease presents to 
our society.
    Last month, the Alzheimer's Association released a comprehensive 
report indicating that Alzheimer's is much more pervasive than we 
thought. The report confirms that more than 5 million people in the 
United States are living with Alzheimer's disease today, including 
200,000 or more under the age of 65. This is a 10 percent increase from 
previous estimates, but it is only the tip of the iceberg. By mid-
century, as many as 16 million Americans will have the disease. We will 
see half a million new cases of Alzheimer's this year alone. That means 
someone in America is developing Alzheimer's disease every 72 seconds!
    The report also sheds new light on dramatic shift in mortality 
among Americans. A diagnosis of Alzheimer's is a death sentence and 
death rates for Alzheimer's a rising dramatically, up nearly 33 percent 
in just 4 years while other leading causes of death--heart disease, 
stroke, breast and prostate cancer--are declining. Alzheimer's is the 
seventh leading cause of death for people of all ages and the fifth 
leading cause of death for people age 65 and older. The absence of 
effective disease modifying drugs, coupled with the aging of the baby 
boomers, makes Alzheimer's the health care crisis of the 21st century.
    Alzheimer's already costs the Nation $148 billion a year. Medicare 
alone spent $91 billion on beneficiaries with the disease in 2005 and 
Medicaid spent another $21 billion. By 2015 those two programs will be 
spending more than $210 billion just on people with Alzheimer's. The 
disease is also overwhelming health and long term care systems: 25 
percent of elderly hospital patients, 47 percent of nursing home 
residents, and at least 50 percent of people in assisted living and 
adult day care have Alzheimer's or another dementia.
    The impact of Alzheimer's on American families is just as 
devastating. Today at least 10 million family members provide unpaid 
care. In Iowa, these caregivers are providing nearly 81 million hours 
of care a year; in Pennsylvania, almost 375 million hours. Nationwide, 
the work Alzheimer caregivers are doing is valued at nearly $83 billion 
and consumes 8.5 billion hours annually.
    Alzheimer's disease is exploding into an epidemic that will 
undermine all of our best efforts to control health care costs, assure 
access to quality care, and protect the retirement security of 
generations to come. This is the reality of Alzheimer's disease. It is 
not a pretty picture. But it is a picture that we can change. Today, 
there is real hope that we can get Alzheimer's under control, that we 
will find the ways to prevent millions from ever getting the disease, 
and that for those who do get it; we can change it from a death 
sentence to a manageable chronic illness.
    Today, the Alzheimer research community can report genuine, 
tangible, quantifiable hope for effective prevention and treatment of 
Alzheimer's disease. Within the next 3 years, it is very likely that we 
will have disease-modifying drugs that could fundamentally change the 
nature of Alzheimer's. If we succeed, for millions of Americans, a 
diagnosis of Alzheimer's disease will no longer be a death sentence but 
the beginning of a manageable chronic illness.
    The drugs being tested are very different from the ones now on the 
market. Current drugs treat the symptoms of Alzheimer's but leave the 
underlying disease untouched. While they do help some patients 
temporarily, the predictable progression to death continues along the 
cruel path we know too well. The new drugs are designed to attack the 
disease directly. Results to date are very encouraging. These drugs are 
safe. Patients tolerate them well. And they appear to show significant 
positive impact, slowing the progression of the disease. Higher doses 
or combination drugs might arrest the process completely. One of the 
drugs currently in clinical trials could go to the Food and Drug 
Administration for review as early as this fall.
    The other exciting news is that scientists are rapidly gaining 
knowledge about genetic and other risk factors of Alzheimer's disease, 
and developing techniques to detect early changes in the brain well 
before symptoms appear. These discoveries will let the medical 
community identify persons at risk of Alzheimer's, diagnose pre-
symptomatic disease, and begin treatment in time to prevent development 
of dementia altogether.
    All of this good news is the direct result of your decision to 
double funding for the National Institutes of Health. The influx of 
resources moved Alzheimer research from a backwater of obscurity to 
perhaps the single most visible, most competitive, and most exciting 
field in the neurosciences. This is the key to drug discovery. Drug 
development does not start or end with pharmaceutical companies. It 
begins at NIH-funded laboratories at academic health centers, where 
scientists uncover the molecular basis of disease, identify treatment 
strategies, and develop the research methods and techniques that make 
clinical investigation possible. Clinical trials depend on the 
expertise of NIH-funded investigators, and many require direct NIH 
funding because the drugs under investigation are not protected by 
patent.
    The emphasis on the fundamental role of NIH funding is critical 
because there is still so much work to be done. We are right to be 
excited about treatments that attack the amyloid plaques, one of the 
primary hallmarks of Alzheimer's disease. But they will not likely be 
the complete answer. Like cancer and heart disease, Alzheimer's is a 
complex puzzle. Solving it will involve multiple strategies. There are 
already a number of other potential targets for intervention--including 
the chemical basis of the tangles in the brain that are the other 
hallmark of Alzheimer's, the relationship between heart and vascular 
disease and Alzheimer's, the connection to Type 2 diabetes, the role of 
nerve growth factors, and the interaction of environment, life style 
choices, and genetics in the development of disease.
    If science can validate the prevailing wisdom about amyloid, and if 
researchers can refine these other theories, then every major 
pharmaceutical company will begin bringing new drugs into human 
clinical trials. That will not happen, however, unless Congress 
provides the funds to sustain the Alzheimer research enterprise. 
Despite its devastating consequences, research on Alzheimer's disease 
remains seriously under-funded.
    In 2003, annual NIH funding of Alzheimer research peaked at $658 
million. The scientific community is living off the results of that 
investment, but we now risk losing that momentum. Since 2003, there has 
been a slow, steady decline in funding--down to $643 million this year 
and even less if Congress approves the President's fiscal 2008 budget 
request. In constant dollars, the drop is devastating--a 14 percent 
decline in overall funding at the National Institute on Aging (NIA) 
alone.
    This is happening at a time when the scientific opportunities have 
never been greater. There are more highly promising avenues of inquiry 
to explore than ever before. And researchers now have research tools at 
their disposal, involving genetics and imaging, that can help get 
better, quicker answers. But scientists cannot use those tools without 
adding funds to existing projects.
    The slow down in funding is already having an impact in the 
Alzheimer research community. NIA is funding less than 18 percent of 
the most highly rated investigator-initiated projects it receives--down 
from a 30 percent success rate in 2003. What is more, the first-year 
grants that are awarded are funded at 18 percent below the level 
recommended by NIA's own independent review panels. There are no 
inflationary adjustments in the out-years or for existing projects. 
This means that most scientific opportunities are left on the table, 
and the successful ones are being seriously under-funded. It also means 
that some of the most promising clinical trials--the way to translate 
basic research findings into effective treatments--will be delayed or 
scrapped altogether. Conversations within the Alzheimer research 
community confirm that we are at risk of losing a generation of 
scientists, young investigators who are either choosing less 
traditional careers or are leaving research altogether. These brilliant 
minds are our greatest resource, and we should be applying them to our 
most difficult problems. Only money will bring them back.
    These budget cuts are not just killing research projects. They are 
killing the minds of millions of Americans. And they are killing our 
chances of getting health care spending under control. If we let the 
disease continue on its current trajectory, in less than 25 years 
Medicare will be spending almost $400 billion on 10 percent of its 
beneficiaries--those with Alzheimer's. That is almost as much as we are 
spending in the entire Medicare program for all beneficiaries today.
    We can cut that spending dramatically--saving over $50 billion 
annually--within just 5 years of even modest breakthroughs that would 
delay the onset of Alzheimer's and slow its progression. And we can 
also save millions of families from devastation. Within 20 years of a 
breakthrough, there would be 3.7 million fewer cases of Alzheimer's in 
the United States than there are today--in spite of the rapid aging of 
the baby boomers. And among those who would still develop the disease, 
most would never progress beyond the mild stages of the disease and 
could continue to live productively with their families in the 
community.
    We cannot win this fight against Alzheimer's without an all-out 
commitment from Congress and from every relevant part of the Federal 
Government--especially NIH and the Food and Drug Administration (FDA). 
The Alzheimer's Association is working closely with all these agencies 
to maximize our mutual efforts within the limits imposed by existing 
law and resources. We are proud of our longstanding partnership with 
the National Institute on Aging and the tremendous commitment of Dr. 
Richard Hodes and his dedicated staff. We are also gratified by the 
response of the Food and Drug Administration to our Effective 
Treatments Initiative, to increase its focus on Alzheimer's and to 
bring patients and caregivers into the drug review process.
    Mr. Chairman and subcommittee members--we are in a race against 
time. With every year that passes, we risk losing that race. The 
Alzheimer's Association respectfully requests that you provide 
sufficient resources for NIH in the fiscal year 2008 Labor/HHS/
Education Appropriations bill so that funding for Alzheimer research 
can be increased by $125 million. The Association also seeks continued 
support for proven programs that are serving hundreds of thousands of 
Alzheimer families, including $1 million for the 24/7 Alzheimer's Call 
Center and $12 million for the Alzheimer's Disease Matching Grants to 
States Program administered by the Administration on Aging. Services 
provided by the Call Center include access to professional clinicians 
who provide decision-making support, crisis assistance and education on 
issues caregivers face every day. The Call Center also provides 
referrals to local community programs and services. The Alzheimer's 
Disease Matching Grants to States Program provides funds to States for 
the development of innovative and cost effective programs that 
influence broader healthcare systems and provide community-based 
services for those with Alzheimer's and their caregivers. The program 
has a special emphasis on reaching hard-to-reach and underserved people 
such as minorities, low income persons, and those living in rural/
frontier communities. 38 States, including Iowa, are currently 
participating in the program.
    In addition, we urge you to increase funding for the Centers for 
Disease Control & Prevention (CDC) Brain Health Initiative to $3 
million. Since fiscal year 2005, Congress has provided approximately 
$1.6 million annually to the CDC to develop and implement the first 
single-focused effort on brain health promotion. As a result of this 
initial support, the CDC and the Alzheimer's Association have begun 
collaborating on a multi-faceted approach to brain health that includes 
both programmatic and public health research components. This 
Initiative is currently focused on four primary activities: development 
of a Roadmap to Maintaining Cognitive Health, implementation of 
community demonstration programs, creation of communication linkages 
with the public, and elevation of brain health research. Increasing 
support for this Initiative to $3 million would allow for broader 
dissemination of the Roadmap to Maintaining Cognitive Health, provide 
funds to expand the community demonstration projects to other high 
risk, underserved populations, specifically the Hispanic/Latino 
population and support the development of a strategic initiative for 
early detection and secondary prevention of Alzheimer's disease, 
including consideration of appropriate screening/diagnostic tools, 
needed education strategies, and appropriate follow up to diagnosis.
    We urge Congress to add the funding we need to break through the 
finish line ahead of the baby boomers who are nipping at our heels. The 
funding for Alzheimer research and care programs that we seek requires 
a modest investment in total Federal budget terms but it has the 
potential for enormous returns--in reduced health and long-term care 
costs to Federal and State budgets and in improved quality of life for 
millions of American families.
    Thank you again for the opportunity to submit this testimony for 
the record.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians

    The 93,800 members of the American Academy of Family Physicians are 
grateful for this opportunity to submit for the record our 
recommendations for Federal fiscal year 2008 to the Senate 
Appropriations Subcommittee on Labor, Health and Human Services, and 
Education.
    The American Academy of Family Physicians (AAFP) is one of the 
largest national medical organizations, representing family physicians, 
family medicine residents, and medical students nationwide. Founded in 
1947, our mission has been to preserve and promote the science and art 
of family medicine and to ensure high-quality, cost-effective health 
care for patients of all ages. We believe that Federal spending policy 
can help to transform health care to achieve optimal health for 
everyone.
    We recommend that, as an essential part of that policy, the fiscal 
year 2008 Appropriations bill to fund the Departments of Labor, Health 
and Human Services and Education should restore funding for health 
professions training programs, increase our investment in the Agency 
for Healthcare Research and Quality and continue support for rural 
health programs.
     health resources & services administration--health professions
    For the last 40 years, the health professions training programs 
authorized under Title VII of the Public Health Services Act have 
evolved in order to meet our Nation's changing health care workforce 
needs.
    Section 747 of Title VII, the Primary Care Medicine and Dentistry 
Cluster, is aimed at increasing the number of primary care physicians 
(family physicians, general internists and pediatricians) as well as 
the number of highly-skilled health care professionals to provide care 
to the underserved. Section 747 offers competitive grants for family 
medicine training programs in medical schools and in residency 
programs.
    The value of these grants extends far beyond the medical schools 
that receive them. The United States lags behind other countries in its 
focus on primary care. However, the evidence shows that countries with 
primary care-based health systems have population health outcomes that 
are better than those of the United States at lower costs.\1\  Health 
Professions Grants are one important tool to help refocus this Nation's 
health system on primary care.
---------------------------------------------------------------------------
    \1\ Starfield B, et al. The effects of specialist supply on 
populations' health: assessing the evidence. Health Affairs. 15 March 
2005.
---------------------------------------------------------------------------
Disease Prevention
    First of all, Federal support of Title VII, section 747 for primary 
care training is critical to increase the number of family physicians 
whose specialty emphasizes a broad range of skills in caring for the 
whole patient regardless of age, gender or medical condition. Primary 
care provided by family physicians looks to a patient's total health 
needs and is strongly oriented toward preventing illness and injury.
Chronic Care Management
    Second, primary care is ideally suited to managing chronic disease. 
Regrettably, nearly one in five Americans lacks access to primary 
medical care for regular and on-going care. A recent study ``found 56 
million Americans of all income levels, race and ethnicity, and 
insurance status have inadequate access to a primary care physician due 
to shortages of these physicians in their communities.'' \2\
---------------------------------------------------------------------------
    \2\ National Association of Community Health Centers, The Robert 
Graham Center. Access Denied: A Look at America's Medically 
Disenfranchised. March 2007.
---------------------------------------------------------------------------
Lower Costs
    Americans with a ``medical home'' to provide primary care for such 
basic needs as treating ear infections, controlling high blood 
pressure, or managing diabetes have better health outcomes at a lower 
cost of care.\3\  Without adequate numbers and distribution of primary 
care physicians, we cannot provide the quality of preventive care 
designed to avoid costlier services in hospital emergency departments.
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
Primary Care Physician Shortages
    Support for family medicine training programs is needed to address 
insufficient access to primary care services which is caused by both an 
overall shortage and an uneven distribution of physicians. Family 
medicine is a critical part of the solution to providing high-quality, 
affordable and accessible health care to everyone.
    On March 15, 2007, the annual National Resident Matching Program 
announced results showing the number of medical students choosing 
careers in family medicine remains stagnant, raising concerns the 
primary care physician workforce will not be adequate to meet the needs 
of an aging population with an increased prevalence of chronic disease.
    The AAFP's 2006 Family Physician Workforce Reform report called for 
a workforce of 139,531 family physicians, or a ratio of 41.6 family 
physicians per 100,000 U.S. population by 2020. To meet that demand, 
our medical education system must produce 4,439 new family physicians 
annually.
    In the 2007 National Resident Matching Program 2,313 applicants 
matched to family medicine residency positions compared with 2,318 in 
2006. Also down was the total number and percentage of U.S. students 
who match to family medicine: 1,107 or 7.8 percent of participating 
U.S. graduates matched to family medicine this year, compared to 1,132 
or 8.1 percent in 2006. This year, there were 106 fewer family medicine 
residency positions offered than in 2006.
    Last fall, the AAFP Congress of Delegates, in recognition of the 
need for more family physicians to meet the escalating health care 
needs of the American people, called for preferential funding for 
section 747 as well as those training programs that produce physicians 
from underrepresented minorities, or those whose graduates practice in 
underserved communities or serve rural and inner-city populations.
    In opposition to funding for Health Professions Grants, the 
administration cited an Office of Management and Budget 2002 Program 
Assessment Rating Tool (PART) assessment of Title VII that called the 
program ineffective. In fact, data show that medical schools and 
primary care residency programs funded by Title VII section 747 do 
disproportionately serve as the medical education pipeline that 
produces physicians who go on to work in Community Health Centers and 
participate in the National Health Service Corps to treat underserved 
populations.\4\ 
---------------------------------------------------------------------------
    \4\ University of California, San Francisco.
---------------------------------------------------------------------------
    In order to achieve a valid OMB PART analysis, the Health 
Professions program must be given clear goals and objectives. The 
Advisory Committee on Training in Primary Care Medicine and Dentistry 
called for by the Health Professions Education Partnership Act of 1998 
has proposed steps to clarify, in the authorizing law, the purpose and 
objectives of Title VII, section 747. AAFP is working with the 
authorizing committees to ensure that the reauthorization addresses 
these recommendations.
    Although the Title VII programs intended to support the preparation 
of an effective, diverse primary care workforce have been repeatedly 
targeted for elimination in Presidential budget requests, the committee 
has provided appropriations for these important accounts. The final 
spending resolution for fiscal year 2007 provided $184.75 million, a 
27.2 percent increase above the fiscal year 2006 level for all of Title 
VII. The Primary Medicine and Dentistry Cluster, section 747, received 
an increase of 19.6 percent from the fiscal year 2006 level to $48.85 
million. However, this level falls far short of the appropriation of 
$92 million provided in fiscal year 2003.
    The AAFP is committed to a high level of support for education in 
family medicine residency programs and family medicine departments and 
divisions in medical schools.
    We hope that the committee will make an adequate investment in a 
well-prepared primary care workforce in order to provide improved 
health care at a reduced cost.
    AAFP recommends an increase in the fiscal year 2008 appropriation 
bill for the Health Professions Training Programs authorized under 
Title VII of the Public Health Services Act. We respectfully suggest 
that the committee provide at least $300 million for Title VII, 
including $92 million for the section 747, the Primary Care Medicine 
and Dentistry Cluster, which will restore this vital program to its 
fiscal year 2003 level.

               AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    The mission of the Agency for Healthcare Research and Quality 
(AHRQ)--to improve the quality, safety, efficiency, and effectiveness 
of health care for all Americans--closely mirrors AAFP's own mission. 
AHRQ has a unique responsibility for research to inform decision-making 
and improve clinical care. In addition to AHRQ's charge to evaluate 
health care practice cost-effectiveness, the agency is engaged in the 
effort to advance personalized health care with the Health Information 
Technology Initiative.
Health Information Technology
    The initial work by AHRQ to facilitate the adoption of health 
information technology is important to improve patient safety by 
reducing medical errors and to avoid costly duplication of services. 
AAFP recognizes that health information technology, used effectively, 
can transform health care. It is vital that AHRQ, as the lead Federal 
agency, have the necessary resources to promote standards for 
portability and interoperability which ensure that health data is 
appropriately available and privacy protected.
Comparative Clinical Effectiveness Research
    According to the Centers for Medicare and Medicaid Services' 
National Health Statistics Group, health care spending will double to 
$4.1 trillion and account for 20 percent of every dollar spent by 2016. 
Our Nation must invest in the study of health care practice in order to 
improve outcomes and minimize unnecessary costs. One important tool to 
accomplish this is AHRQ's analysis of clinical effectiveness and 
appropriateness of health services and treatments. This practical 
research will improve Federal programs such as Medicare, Medicaid and 
SCHIP as well as privately-financed health care.
    AAFP recommends an increase in the fiscal year 2008 appropriation 
bill for the Agency for Healthcare Research and Quality (AHRQ). We 
respectfully suggest that the committee provide at least $350 million 
for AHRQ, an increase of $31 million above the fiscal year 2007 level.

                         RURAL HEALTH PROGRAMS

    Family physicians provide the majority of care for America's 
underserved and rural populations.\5\  Despite efforts to meet 
shortages in rural areas, there continues to be a shortage of 
physicians. Studies, whether they be based on the demand to hire 
physicians by hospitals and physician groups or based on the number of 
individuals per physician in a rural area, all indicate a need for 
additional physicians in rural areas. Continued funding for rural 
programs is vital to provide adequate health care services to America's 
rural citizens. We support the Federal Office of Rural Health Policy; 
Area Health Education Centers; the Community and Migrant Health Center 
Program; and the NHSC. State rural health offices, funded through the 
National Health Services Corps budget, help States implement these 
programs so that rural residents benefit as much as urban patients.
---------------------------------------------------------------------------
    \5\ U.S. Department of Health and Human Services, Centers for 
Disease Control and Prevention, National Center for Health Statistics, 
Division of Data Services. National ambulatory medical care survey.
---------------------------------------------------------------------------
                                 ______
                                 
        Prepared Statement of the American Academy of Pediatrics

    This statement is endorsed by: Ambulatory Pediatric Association and 
Society for Adolescent Medicine.
    There can be no denying that there have been numerous and 
significant successes in improving the health and well-being of 
America's children and adolescents, from even just decades ago. Infant 
and child mortality rates have been radically lowered. The number of 2-
year-olds who have received the recommended series of immunizations is 
at an all-time high, while vaccine-preventable diseases such as 
measles, pertussis, and diphtheria have decreased by over 98 percent. 
Teen pregnancy rates have declined by 28 percent over the last decade. 
Still, despite these successes, far too many children and adolescents 
in America continue to suffer from disease, injury, abuse, racial and 
ethnic health disparities, or lack of access to quality care. In 
addition, more than 9 million children and adolescents through the age 
18 remain uninsured. Clearly there remains much work to do.
    As clinicians we not only diagnose and treat our patients, we must 
also promote strong preventive interventions to improve the overall 
health and well-being of all infants, children, adolescents and young 
adults. The AAP, SAM and APA have identified three key priorities 
within this committee's jurisdiction that are at the heart of improving 
the health and well-being of America's children and adolescents: access 
to health care, quality of health care, and immunizations. A chart at 
the end of this statement will offer funding recommendations for other 
programs of importance to the child and adolescent community.

                                 ACCESS

    We believe that all children, adolescents and young adults should 
have full access to comprehensive, age-appropriate, quality health 
care. From the ability to receive primary care from a pediatrician 
trained in the unique needs of children and adolescents, to timely 
access, to pediatric medical subspecialists and pediatric surgical 
specialists, America's children and adolescents deserve access to 
quality pediatric care in a medical home. Given the recent cuts to the 
Medicaid program and fiscal belt-tightening in the States, 
discretionary programs now more than ever provide a vital health care 
safety net for America's most vulnerable children and youth.
    Maternal and Child Health Block Grant.--The Maternal and Child 
Health (MCH) Block Grant Program at the Health Resources and Services 
Administration (HRSA) is the only Federal program exclusively dedicated 
to improving the health of all mothers and children. Nationwide, the 
MCH Block Grant Program provides preventive and primary care services 
to over 32 million women, infants, children, adolescents and children 
with special health care needs. In addition, the MCH Block Grant 
Program supports community programs around the country in their efforts 
to reduce infant mortality, prevent injury and violence, expand access 
to oral health care, and address racial and ethnic health disparities. 
Moreover, the MCH Block Grant Program includes efforts dedicated to 
addressing interdisciplinary training, services and research for 
adolescents' physical and mental health care needs, and supports 
programs for vulnerable adolescent populations, including health care 
initiatives for incarcerated and minority adolescents, and violence and 
suicide prevention. It also plays an important role in the 
implementation of the State Children's Health Insurance Program 
(SCHIP). One of the many successful MCH Block Grant programs is the 
Healthy Tomorrows Partnership for Children Program, a public/private 
collaboration between the MCH Bureau and the American Academy of 
Pediatrics. Established in 1989, Healthy Tomorrows has supported over 
150 family-centered, community-based initiatives in almost all States, 
including Ohio, Wisconsin, New York, California, Rhode Island, and 
Maryland. These initiatives have addressed issues such as access to 
oral and mental health care, obesity, injury prevention, and enhanced 
clinical services for chronic conditions such as asthma. To continue to 
foster these and other community-based solutions for local health 
problems, in fiscal year 2008 we strongly support an increase in 
funding for the MCH Block Grant Program to $750 million.
    Family Planning Services.--The family planning program, Title X of 
the Public Health Services Act, ensures that all teens have 
confidential access to valuable family planning resources. For every 
dollar spent on family planning through Title X, $3 is saved in 
pregnancy-related and newborn care costs to Medicaid. Title X--which 
does not provide funding for abortion services--provides critically 
needed preventive care services like pap tests, breast exams, and STI 
tests to millions of adolescents and women. But over 9.5 million cases 
of sexually transmitted infection (STIs) (almost half the total number) 
are in 15-24 year olds, and over 30 percent of women will become 
pregnant at least once before age 20. Teen pregnancy rates continue to 
vary between racial and ethnic groups, and nearly half (48 percent) of 
all teens say that they want more information from--and increased 
access to--sexual health care services. Responsible sexual decision-
making, beginning with abstinence, is the surest way to protect against 
sexually transmitted infections and pregnancy. However, for adolescent 
patients who are already sexually active, confidential contraceptive 
services, screening and prevention strategies should be available. We 
therefore support a funding level in fiscal year 2008 of $385 million 
for Title X of the Public Health Service Act.
    Mental Health.--It is estimated that over 13 million children and 
adolescents have a mental health problem such as depression, ADHD, or 
an eating disorder, and for as many as 6 million this problem may be 
significant enough to impact school attendance, interrupt social 
interactions, and disrupt family life. Despite these statistics, the 
National Institute of Mental Health (NIMH) estimates that 75-80 percent 
of these children fail to receive mental health specialty services, due 
to stigma and the lack of affordability of care and availability of 
specialists. Grants through the Children's Mental Health Services 
program have been instrumental in achieving decreased utilization of 
inpatient services, improvement in school attendance and lower law 
enforcement contact for children and adolescents. We recommend that 
$112 million be allocated in fiscal year 2008 for the Mental Health 
Services for Children program to continue these improvements for 
children and adolescents with mental health problems.
    Child Abuse and Neglect.--Recent research from the CDC's Adverse 
Childhood Experiences study and others demonstrates that childhood 
trauma may contribute significantly to the development of numerous 
adult health conditions, including alcoholism, drug abuse, heart 
disease and more. However, few Federal resources are dedicated to 
bringing the medical profession into full partnership with law 
enforcement, the judiciary, and social workers, in preventing, 
detecting, and treating child abuse and neglect. We urge the 
subcommittee to provide an increase of $10 million in fiscal year 2008 
for the Center for Disease Control and Prevention's National Center for 
Injury Prevention and Control to establish a network of consortia to 
link and leverage health care professionals and resources to address--
and ultimately prevent--child maltreatment. We also support the 
recommendation of the National Child Abuse Coalition to fund the Child 
Abuse Prevention and Treatment Act program at $200 million.
    Health Professions Education and Training.--Critical to building a 
pediatric workforce to care for tomorrow's children and adolescents are 
the Training Grants in Primary Care Medicine and Dentistry, found in 
Title VII of the Public Health Service Act. These grants are the only 
Federal support targeted to the training of primary care professionals. 
They provide funding for innovative pediatric residency training, 
faculty development and post-doctoral programs throughout the country. 
For example, a pediatrician in New Jersey stated the following: 
``Reduction in Title VII funding would negatively impact all areas of 
our current activities, including recruitment of under-represented 
minority trainees and faculty, cultural competency initiatives, 
clinical experiences for aspiring health professionals and patient care 
for thousands of underserved urban infants, children and adolescents.''
    Through the continuing efforts of this subcommittee, Title VII has 
provided a vital source of funding for critically important programs 
that educate and train tomorrow's generalist pediatricians in a variety 
of settings to be culturally competent and to meet the special health 
care needs of their communities. We recommend fiscal year 2008 funding 
of at least $40 million for General Internal Medicine/General 
Pediatrics. We also join with the Health Professions and Nursing 
Education Coalition in supporting an appropriation of at least $550 
million in total funding for Titles VII and VIII. We support the 
administration's increase in funding for Community Health Centers, a 
key component with Title VII to ensuring an adequate distribution of 
health care providers across the country; but we emphasize the need for 
continued support of the training and education opportunities through 
Title VII for health care professionals, including pediatricians, who 
provide care for our Nation's communities.
    Independent Children's Teaching Hospitals.--Equally important to 
the future of pediatric education and research is the dilemma faced by 
independent children's teaching hospitals. In addition to providing 
critical care to the Nation's children, independent children's 
hospitals play a significant role in training tomorrow's pediatricians 
and pediatric subspecialists. Children's hospitals train 30 percent of 
all pediatricians, half of all pediatric subspecialists, and the 
majority of pediatric researchers. However, children's hospitals 
qualify for very limited Medicare support, the primary source of 
funding for graduate medical education in other inpatient environments. 
As a bipartisan Congress has recognized in the last several years, 
equitable funding for Children's Hospitals Graduate Medical Education 
(CHGME) is needed to continue the education and research programs in 
these child- and adolescent-centered settings. Since 2000, CHGME 
hospitals accounted for nearly 87 percent of the growth in pediatric 
subspecialty training programs and 68 percent of the growth in 
pediatric subspecialty fellows trained. We are extremely disappointed 
in the 63 percent reduction in funding proposed by the administration 
for the CHGME program, and join with the National Association of 
Children's Hospitals to restore funding to $330 million for the CHGME 
program in fiscal year 2007. The support for independent children's 
hospitals should not come, however, at the expense of valuable Title 
VII and VIII programs, including grant support for primary care 
training.

                                QUALITY

    Access to health care is only the first step in protecting the 
health of all children and youth. We must ensure that the care provided 
is of the highest quality. Robust Federal support for the wide array of 
quality improvement initiatives, including research, is needed if this 
goal is to be achieved.
    Emergency Services for Children.--One program that assists local 
communities in providing quality care to children in distress is the 
Emergency Medical Services for Children (EMSC) grant program. There are 
approximately 30 million child and adolescent visits to the Nation's 
emergency departments every year. Children under the age of 3 years 
account for most of these visits. Up to 20 percent of children needing 
emergency care have underlying medical conditions such as asthma, 
diabetes, sickle-cell disease, low birth weight, and bronchopulmonary 
dysplasia. In 2006, the Institute of Medicine's report Emergency Care 
for Children: Growing Pains acknowledged the many achievements of the 
EMSC program in improving pediatric emergency care and recommended that 
it be funded at $37.5 million. In order to assist local communities in 
providing the best emergency care to children, we once again reject the 
administration's proposed elimination of the EMSC program and strongly 
urge that the EMSC program be maintained and adequately funded at $25 
million in fiscal year 2008
    Agency for Healthcare Research and Quality.--Quality of care rests 
on quality research--for new detection methods, new treatments, new 
technology and new applications of science. As the lead Federal agency 
on quality of care research, the Agency for Healthcare Research and 
Quality (AHRQ) provides the scientific basis to improve the quality of 
care, supports emerging critical issues in health care delivery and 
addresses the particular needs of priority populations, such as 
children. Substantial gaps still remain in what we know about health 
care needs for children and adolescents and how we can best address 
those needs. Children are often excluded from research that could 
address these issues. The AAP and endorsing organizations strongly 
support AHRQ's objective to encourage researchers to include children 
and adolescents as part of their research populations. We also support 
increasing AHRQ's efforts to build pediatric health services research 
capacity through career and faculty development awards and strong 
practice-based research networks. Additionally, AHRQ is focusing on 
initiatives in community and rural hospitals to reduce medical errors 
and to improve patient safety through innovative use of information 
technology--an initiative that we hope would include children's 
hospitals as well. Through its research and quality agenda, AHRQ 
continues to provide policymakers, health care professionals and 
patients with critical information needed to improve health care and 
health disparities. We join with the Friends of AHRQ to recommend 
funding of $350 million for AHRQ in fiscal year 2008.
    National Institutes of Health.--Over the years, NIH has made 
dramatic strides that directly impact the quality of life for infants, 
children and adolescents through biomedical and behavioral research. 
For example, NIH research has led to successfully decreasing infant 
death rates by over 70 percent, increasing the survival rates from 
respiratory distress syndrome, and dramatically reducing the 
transmission of HIV from infected mother to fetus and infant from 25 
percent to just 1.5 percent. NIH is engaged in a comprehensive research 
initiative to address and explain the reasons for a major public health 
dilemma--the increasing number of obese and overweight children and 
adults in this country. Today U.S. teenagers are more overweight than 
young people in many other developed countries. And the Newborn 
Screening Initiative is moving forward to improve availability, 
accessibility, and quality of genetic tests for rare conditions that 
can be uncovered in newborns. The pediatric community applauds the 
prior commitment of Congress to maintain adequate funding for the NIH. 
We remain concerned, however, that the cumulative effect of several 
years of flat funding will stall or even set back the gains that were 
made under the years of the NIH's budget doubling. We urge you to begin 
to restore the funding lost over these last years. We support the 
recommendation of the Ad Hoc Group for Medical Research for a funding 
level in fiscal year 2008 of $30.8 billion an increase of 6.7 percent 
over the fiscal year 2007 joint resolution for the NIH In addition, to 
ensure ongoing and adequate child and adolescent focused research, such 
as the National Children's Study (NCS) led by the National Institute 
for Child Health and Human Development (NICHD), we join with the 
Friends of NICHD Coalition in requesting $1,337.8 billion in fiscal 
year 2008. Moreover we recommend that the NCS be adequately funded in 
fiscal year 2008 at $110.9 million to allow for the continued 
implementation of the NCS and bring us closer to the first results from 
this landmark study. We are greatly disappointed by the 
administration's failure to include the NCS in its budget proposal 
2008. This large longitudinal study, authorized in the Children's 
Health Act of 2000, will provide critical research and information on 
major causes of childhood illnesses such as premature birth, asthma, 
obesity, preventable injury, autism, development delay, mental illness, 
and learning disorders.
    We commend this committee's ongoing efforts to make pediatric 
research a priority at the highest level of the NIH. We urge continued 
Federal support of NIH efforts to increase pediatric biomedical and 
behavioral research, including such proven programs as targeted 
training and education opportunities and loan repayment. We recommend 
continued interest in and support for the Pediatric Research Initiative 
in the Office of the NIH Director and sufficient funding to continue 
the pediatric training grant and pediatric loan repayment programs both 
enacted in the Children's Health Act of 2000. This would ensure that we 
have adequately trained pediatric researchers in multiple disciplines 
that will not come at the expense of other important programs.
    Finally, as clinicians, we know first-hand the considerable 
benefits for children and society in securing properly studied and 
dosed medications. Proper pediatric safety and dosing information 
reduces medical errors and adverse events, ultimately improving 
children's health and reducing health care costs. But there is little 
market incentive for drug companies to study generic or off-patent 
drugs--older drugs that are widely used therapies for children. The 
Research Fund for the Study of Drugs, created as part of the Best 
Pharmaceuticals for Children Act of 2002, provides support for these 
critical pediatric testing needs, but unfortunately is currently funded 
at an amount sufficient to test only a fraction of the NIH and FDA-
designated ``priority'' drugs. Therefore, we urge the subcommittee to 
provide the NIH with sufficient funding to fund the study of generic 
(off-patent) drugs for pediatric use.

                              IMMUNIZATION

    Pediatricians, working alongside public health professionals and 
other partners, have brought the United States its highest immunization 
coverage levels in history--over 92 percent of children received all 
vaccinations by school age in 2004-2005. We attribute this, in part, to 
the Vaccines for Children (VFC) Program, and encourage Congress to 
maintain its commitment to ensuring the program's viability. The VFC 
program combines the efforts of public health and private pediatricians 
and other health care professionals to accomplish and sustain vaccine 
coverage goals for both today's and tomorrow's vaccines. It removes 
vaccine cost as a barrier to immunization for some and reinforces the 
concept of vaccine delivery in a ``medical home.'' Additional section 
317 funding is necessary to provide the pneumococcal conjugate vaccine 
(PCV-7), a vaccine that prevents an infection of the brain covering, 
blood infections and approximately 7 million ear infections a year, to 
those remaining States that currently do not provide it. Increased 
section 317 funding also is needed to purchase the influenza vaccine--
now recommended for children between the ages of 6 months and 5 years 
of age. This age cohort is increasingly susceptible to serious 
infection and the risk of hospitalization. And an increase in funding 
is needed to purchase the recently recommended rotavirus vaccine, 
tetanus-diptheria-pertussis (Tdap) vaccine for adolescents and the 
meningococcal conjugate vaccine (MCV). Meningococcal disease is a 
serious illness, caused by bacteria, with 10-15 percent of cases fatal 
and another 10-15 percent of cases resulting in permanent hearing loss, 
mental retardation, or loss of limbs. And additional funding is 
important to provide the HPV vaccine recommended by the ACIP.
    The public health infrastructure that now supports our national 
immunization efforts must not be jeopardized with insufficient funding. 
For example, adolescents continue to be adversely affected by vaccine-
preventable diseases (e.g., chicken pox, hepatitis B, measles and 
rubella). Comprehensive adolescent immunization activities at the 
national, State, and local levels are needed to achieve national 
disease elimination goals. States and communities continue to be 
financially strapped and therefore, many continue to divert funds and 
health professionals from routine immunization clinics in order to 
accommodate anti-bioterrorism initiatives or now pandemic influenza. 
Moreover, continued investment in the CDC's immunization activities 
must be made to avoid the reoccurrence of childhood vaccine shortages 
by providing and adequately funding a national 6 month stockpile for 
all routine childhood vaccines--stockpiles of sufficient size to insure 
that significant and unexpected interruptions in manufacturing do not 
result in shortages for children.
    While the ultimate goal of immunizations clearly is eradication of 
disease, the immediate goal must be prevention of disease in 
individuals or groups. To this end, we strongly believe that CDC's 
efforts must be sustained. In fiscal year 2008, we recommend an overall 
increase in funding to $802.4 million $257.5 million over the 
President's request to ensure that the CDC's National Immunization 
Program has the funding necessary to accommodate vaccine price 
increases, new disease preventable vaccines coming on the market, 
global immunization initiatives--including funds for polio eradication 
and the elimination of measles and rubella--and to continue to 
implement the recommendations developed by the IOM.

                               CONCLUSION

    We appreciate the opportunity to provide our recommendations for 
the coming fiscal year. As this subcommittee is once again faced with 
difficult choices and multiple priorities we know that as in the past 
years, you will not forget America's children and adolescents.
                                 ______
                                 
   Prepared Statement of the American Academy of Physician Assistants

    On behalf of the more than 60,000 clinically practicing physician 
assistants in the United States, the American Academy of Physician 
Assistants is pleased to submit comments on fiscal year 2008 
appropriations for Physician Assistant (PA) educational programs that 
are authorized through Title VII of the Public Health Service Act.
    A member of the Health Professions and Nursing Education Coalition 
(HPNEC), the Academy supports the HPNEC recommendation to provide at 
least $300 million for Title VII programs in fiscal year 2008, 
including a minimum of $7 million to support PA educational programs. 
This would fund the programs at the 2005 funding level, not accounting 
for inflation.
    The Academy believes that the recommended restoration in funding 
for Title VII health professions programs is well justified. A review 
of PA graduates from 1990-2004 reveals that graduates from Title VII 
supported programs were 67 percent more likely to be from 
underrepresented minority backgrounds and 49 percent more likely to 
work in a Rural Health Clinic than graduates of programs that weren't 
supported by Title VII funding.
    Title VII safety net programs are essential to the training of 
primary health care professionals and provide increased access to care 
by promoting health care delivery in medically underserved communities. 
Title VII funding for PA programs is especially important since it is 
the only Federal funding available to these programs, on a competitive 
application basis.
    The Academy is extremely concerned with the administration's 
proposal to eliminate funding for most Title VII programs, including 
training programs in primary care medicine and dentistry. These 
programs are designed to help meet the health care delivery needs of 
the Nation's Health Professional Shortage Areas (HPSAs). By definition, 
the Nation's more than 5,500 HPSAs experience shortages in the primary 
care workforce that the market alone can't address. In addition, the 
Health Resources and Services Administration (HRSA) predicts that there 
will be a need for over 11,000 health care professionals to implement 
the President's Community Health Center (CHC) Initiative. The increased 
funding for these CHCs will provide medical care to approximately 6 
million people in the United States. Title VII serves as crucial 
funding for the pipeline of health professionals that serve CHCs today.
    We wish to thank the members of this subcommittee for your 
historical role in supporting funding for the health professions 
programs, and we hope that we can count on your support to restore 
funding to these important programs in fiscal year 2008 to the fiscal 
year 2005 funding level.

               OVERVIEW OF PHYSICIAN ASSISTANT EDUCATION

    The typical PA program consists of 26 months of instruction, and 
the typical student has a bachelor's degree and about 4 years of prior 
health care experience. The first phase of the program consists of more 
than 400 hours in classroom and laboratory instruction in the basic 
sciences, over 75 hours in pharmacology, approximately 175 hours in 
behavioral sciences, and almost 580 hours of clinical medicine.
    The second year of PA education consists of clinical rotations, 
which typically includes more than 2,000 hours or 50-55 weeks of 
clinical education, divided between primary care medicine and various 
specialties. During clinical rotations, PA students work directly under 
the supervision of physician preceptors, participating in the full 
range of patient care activities, including patient assessment and 
diagnosis, development of treatment plans, patient education, and 
counseling. All PA educational programs are accredited by the 
Accreditation Review Commission on Education for the Physician 
Assistant.
    After graduation from an accredited PA program, physician 
assistants must pass a national certifying examination jointly 
developed by the National Board of Medical Examiners and the 
independent National Commission on Certification of Physician 
Assistants. To maintain certification, PAs must log 100 continuing 
medical education credits every 2 years, and they must take a 
recertification exam every 6 years.

                      PHYSICIAN ASSISTANT PRACTICE

    Physician assistants are licensed health care professionals 
educated to practice medicine as delegated by and with the supervision 
of a physician. In all States, physicians may delegate to PAs those 
medical duties that are within the physician's scope of practice and 
the PA's training and experience and are allowed by law. Physicians may 
also delegate prescriptive privileges to the PAs they supervise. PAs 
are located in almost all health care settings and medical and surgical 
specialties. Sixteen percent of all PAs practice in non-metropolitan 
areas where they may be the only full-time providers of care (State 
laws stipulate the conditions for remote supervision by a physician). 
Approximately 48 percent of PAs work in urban and inner city areas. 
Approximately 38 percent of PAs are in primary care. In 2006, an 
estimated 231 million patient visits were made to PAs and approximately 
286 million medications were prescribed or recommended by PAs.

     CRITICAL ROLE OF TITLE VII PUBLIC HEALTH SERVICE ACT PROGRAMS

    A growing number of Americans lack access to primary care either 
because they are uninsured, underinsured, or they live in a community 
with an inadequate supply or distribution of providers. The growth in 
the uninsured U.S. population increased from approximately 32 million 
in the early 1990s to almost 47 million today. The role of Title VII 
programs is to alleviate these problems by supporting educational 
programs that train more health professionals in fields experiencing 
shortages, improving the geographic distribution of health 
professionals, and increasing access to care in underserved 
communities.
    Title VII programs are the only Federal educational programs that 
are designed to address the supply and distribution imbalances in the 
health professions. Since the establishment of Medicare, the costs of 
physician residencies, nurse training, and some allied health 
professions training have been paid through Graduate Medical Education 
(GME) funding. However, GME has never been available to support PA 
education. Furthermore, GME was not intended to generate a supply of 
providers who are willing to work in the Nation's medically underserved 
communities. That is the purpose of the Title VII Public Health Service 
Act programs.
    In addition, as evidence indicates that race and ethnicity 
correlate to persistent health disparities among U.S. populations, it 
is essential to increase the diversity of health care professionals. 
Title VII programs seek to recruit students who are from underserved 
minority and disadvantaged populations. This is particularly important, 
as studies have found that those from disadvantaged regions of the 
country are three to five times more likely to return to underserved 
areas to provide care.

              TITLE VII SUPPORT OF PA EDUCATIONAL PROGRAMS

    Targeted Federal support for PA educational programs is authorized 
through section 747 of the Public Health Service Act. The program was 
reauthorized in the 105th Congress through the Health Professions 
Education Partnerships Act of 1998, Public Law 105-392, which 
streamlined and consolidated the Federal health professions education 
programs. Support for PA education is now considered within the broader 
context of training in primary care medicine and dentistry.
    Public Law 105-392 reauthorized awards and grants to schools of 
medicine and osteopathic medicine, as well as colleges and 
universities, to plan, develop, and operate accredited programs for the 
education of physician assistants with priority given to training 
individuals from disadvantaged communities. The funds ensure that PA 
students from all backgrounds have continued access to an affordable 
education and encourage PAs, upon graduation, to practice in 
underserved communities. These goals are accomplished by funding PA 
educational programs that have a demonstrated track record of (1) 
placing PA students in health professional shortage areas; (2) exposing 
PA students to medically underserved communities during the clinical 
rotation portion of their training; and (3) recruiting and retaining 
students who are indigenous to communities with unmet health care 
needs.
    The PA programs' success is linked to their ability to creatively 
use Title VII funds to enhance existing educational programs. For 
example, PA programs in Texas use Title VII funds to create new 
clinical rotation sites in rural and underserved areas, including new 
sites in border communities, and to establish non-clinical rural 
rotations to help students understand the challenges faced by rural 
communities. One Texas program uses Title VII funds for the development 
of Web based and distant learning technology, so students can remain at 
clinical practice sites. A PA program in New York, where over 90 
percent of the students are ethnic minorities, uses Title VII funding 
to focus on primary care training for underserved urban populations by 
linking with community health centers, which expands the pool of 
qualified minority role models that engage in clinical teaching, 
mentoring, and preceptorship for PA students. Several other PA programs 
have been able to use Title VII grants to leverage additional resources 
to assist students with the added costs of housing and travel that 
occur during relocation to rural areas for clinical training.
    Without Title VII funding, many of these special PA training 
initiatives would not be possible. Institutional budgets and student 
tuition fees simply do not provide sufficient funding to meet the 
special, unmet needs of medically underserved areas or disadvantaged 
students. The need is very real, and Title VII is critical in meeting 
that need.
    need for increased title vii support for pa educational programs
    Increased Title VII support for educating PAs to practice in 
underserved communities is particularly important given the market 
demand for physician assistants. Without Title VII funding to expose 
students to underserved sites during their training, PA students are 
far more likely to practice in the communities where they were raised 
or attended school. Title VII funding is a critical link in addressing 
the natural geographic maldistribution of health care providers by 
exposing students to underserved sites during their training, where 
they frequently choose to practice following graduation. Currently, 31 
percent of PAs met their first clinical employer through their clinical 
rotations.
    The supply of physician assistants is inadequate to meet the needs 
of society, and the demand for PAs is expected to increase. A 2006 
article in the Journal of the American Medical Association (JAMA) 
concluded that the Federal Government should augment the use of 
physician assistants as physician substitutes, particularly in urban 
CHCs where the proportional use of physicians is higher. The article 
suggested that this could be accomplished by adequately funding Title 
VII programs. Additionally, the Bureau of Labor Statistics projects 
that the number of available PA jobs will increase 49 percent between 
2004 and 2014. Title VII funding has provided a crucial pipeline of 
trained PAs to underserved areas.
    Despite the increased demand for PAs, funding has not 
proportionately increased for Title VII programs that are designed to 
educate and place PAs in underserved communities. Nor has Title VII 
support for PA education kept pace with increases in the cost of 
educating PAs. A review of PA program budgets from 1984 through 2004 
indicates an average annual increase of 7 percent, a total increase of 
256 percent over the past 20 years, yet Federal support has decreased.

              RECOMMENDATIONS ON FISCAL YEAR 2008 FUNDING

    The American Academy of Physician Assistants urges members of the 
Appropriations Committee to consider the inter-dependency of all public 
health agencies and programs when determining funding for fiscal year 
2008. For instance, while it is important to fund clinical research at 
the National Institutes of Health (NIH) and to have an infrastructure 
at the Centers for Disease Control and Prevention (CDC) that ensures a 
prompt response to an infectious disease outbreak or bioterrorist 
attack, the good work of both of these agencies will go unrealized if 
HRSA is inadequately funded. HRSA administers the ``people'' programs, 
such as Title VII, that bring the results of cutting edge research at 
NIH to patients through providers such as PAs who have been educated in 
Title VII-funded programs. Likewise, training is the key to emergency 
preparedness, and Title VII, section 747, is the ideal mechanism for 
educating primary care providers in public health competencies that 
ensures the CDC has an adequate supply of health care providers to 
report, track, and contain disease outbreaks.
    The Academy respectfully requests that Title VII health professions 
programs receive $300 million in funding for fiscal year 2008, 
including a minimum of $7 million to support PA educational programs. 
Thank you for the opportunity to present the American Academy of 
Physician Assistants' views on fiscal year 2008 appropriations.
                                 ______
                                 
   Prepared Statement of the American Association for Cancer Research

                           EXECUTIVE SUMMARY

    The American Association for Cancer Research (AACR) would like to 
thank Members for their support of National Institutes of Health (NIH) 
and National Cancer Institute (NCI) research on the biology, treatment 
and prevention of the more than 200 diseases called cancer. The AACR, 
with more than 25,000 members worldwide, represents and supports 
scientists by publishing respected, peer-reviewed scientific journals, 
hosting international scientific conferences, and awarding millions of 
dollars in research grants. Together, we have made great strides in the 
war on cancer, but much remains to be done. One in four deaths in 
America this year will be caused by cancer. Cancer-related deaths will 
increase dramatically as the baby boom generation ages, and we must be 
prepared to prevent, treat, and manage the impending wave of new 
cancers.
    Cancer is no longer a death sentence thanks to decades of research 
and development made possible by strong commitments from Congress and 
the American people, but now that commitment is wavering. After 
expanding capacity during the NIH budget doubling, researchers at 
hospitals and universities across the country now face shrinking 
budgets. Promising young researchers, unable to secure grants, turn to 
other careers. This disruption of the research pipeline will slow the 
development of new treatments and set back America's biomedical 
leadership for decades to come.
    We are at the vanguard of a revolution in healthcare, where 
personalized treatment will improve health, reduce harmful side 
effects, and lower costs. We have the opportunity to build upon our 
previous investments and accelerate the research process. Now is the 
time to face the Nation's growing healthcare needs, reaffirm our role 
as world leaders in science, and renew our commitment to the research 
and development that brings hope to millions of suffering Americans. 
The AACR urges the U.S. Senate to support the following appropriations 
funding levels for cancer research in fiscal year 2008:
  --$30.8 billion for the National Institutes of Health, a 6.7 percent 
        increase over fiscal year 2007.
  --$5.8 billion for the National Cancer Institute (the NCI 
        Professional Judgment budget level), or, at a minimum, $5.1 
        billion, a 6.7 percent increase over fiscal year 2007.
    The American Association for Cancer Research (AACR) recognizes and 
expresses its thanks to the United States Congress for its longstanding 
support and commitment to funding cancer research. The completion of 
the 5-year doubling of the budget of the National Institutes of Health 
(NIH) in 2003 was a stunning accomplishment that is already showing 
impressive returns and benefits to patients with cancer. Recently, 
however, budgets for cancer research have declined; this commitment 
appears to be wavering. Budget doubling enabled a significant expansion 
of infrastructure and scientific opportunities. Budget cuts prevent us 
from capitalizing on them.
    Unquestionably, the Nation's investment in cancer research is 
having a remarkable impact. Cancer deaths in the United States have 
declined for the second year in a row. Last year's decline was the 
first such decrease in the total number of annual cancer deaths since 
1930 when record-keeping began. This progress occurred in spite of an 
aging population and the fact that more than three-quarters of all 
cancers are diagnosed in individuals aged 55 and older. Yet this good 
news will not continue without sustained and substantial Federal 
funding for critical cancer research priorities. The American 
Association for Cancer Research joins the broader biomedical research 
community in urging the United States Senate to support the following 
appropriations funding levels for cancer research in fiscal year 2008:
  --$30.8 billion for the National Institutes of Health, a 6.7 percent 
        increase over fiscal year 2007.
  --$5.8 billion for the National Cancer Institute (the NCI 
        Professional Judgment budget level), or, at a minimum, $5.1 
        billion, a 6.7 percent increase over fiscal year 2007.

             AACR: FOSTERING A CENTURY OF RESEARCH PROGRESS

    The American Association for Cancer Research has been moving cancer 
research forward since its founding 100 years ago in 1907. Celebrating 
its Centennial Year, the AACR and its more than 25,000 members 
worldwide strive tirelessly to carry out its important mission to 
prevent and cure cancer through research, education, and communication. 
It does so by:
  --fostering research in cancer and related biomedical science;
  --accelerating the dissemination of new research findings among 
        scientists and others dedicated to the conquest of cancer;
  --promoting science education and training; and
  --advancing the understanding of cancer etiology, prevention, 
        diagnosis, and treatment throughout the world.

                 FACING AN IMPENDING CANCER ``TSUNAMI''

    Over the past 100 years, enormous progress has been made toward the 
conquest of the Nation's second most lethal disease (after heart 
disease). Thanks to discoveries and developments in prevention, early 
detection, and more effective treatments, many of the more than 200 
diseases called cancer have been cured or converted into manageable 
chronic conditions while preserving quality of life. The 5-year 
survival rate for all cancers has improved over the past 30 years to 
more than 65 percent. The completion of the doubling of the NIH budget 
in 2003 is bearing fruit as many new and promising discoveries are 
unearthed and their potential realized. However, there is much left to 
be done, especially for the most lethal and rarer forms of the disease.
    We recognize that the underlying causes of the disease and its 
incidence have not been significantly altered. The fact remains that 
men have a 1 in 2 lifetime risk of developing cancer, while women have 
a 1 in 3 lifetime risk. The leading cancer sites in men are the 
prostate, lung and bronchus, and colon and rectum. For women, the 
leading cancer sites are breast, lung and bronchus, and colon and 
rectum. And cancer still accounts for 1 in 4 deaths, with more than 
564,830 people expected to die from their cancer in 2006. Age is a 
major risk factor--this Nation faces a virtual ``cancer tsunami'' as 
the baby boomer generation reaches age 65 in 2011. A renewed commitment 
to progress in cancer research through leadership and resources will be 
essential to dodge this cancer crisis.

                  FEDERAL INVESTMENT FOR LOCAL BENEFIT

    Nearly half of the NCI budget is allocated to research project 
grants that are awarded to outside scientists who work at local 
hospitals and universities throughout the country. More than 5,400 
research grants are funded at more than 150 cancer centers and 
specialized research facilities located in 49 States. Over half the 
States receive more than $15 million in grants and contracts to 
institutions located within their borders. Many AACR member scientists 
are engaged in this rewarding work. But too many of them have had their 
long-term research jeopardized by grant reductions caused by the flat 
and declining overall funding for the NCI since 2003. The AACR 
recommends, at a minimum, a 6.7 percent increase in funding for the 
National Cancer Institute to enable it to continue and expand its work 
on focused research questions.

           UNDERSTANDING THE CAUSES AND MECHANISMS OF CANCER

    Basic research into the causes and mechanisms of cancer is at the 
heart of what the NCI and many of AACR's member scientists do. Basic 
research is the engine that drives scientific progress. The outcomes 
from this fundamental basic research--including laboratory and animal 
research in addition to population studies and the deployment of state-
of-the-art technologies--will inform and drive the cancer research 
enterprise in ways and directions that will lead to unparalleled 
progress in the search for cures.

               ACCELERATING PROGRESS IN CANCER PREVENTION

    Preventing cancer is far more cost-effective and desirable than 
treating it. The NCI uses multidisciplinary teams and a systems biology 
approach to identify early events and how to modify them. More than 
half of all cancers are related to modifiable behavioral factors, 
including tobacco use, diet, physical inactivity, sun exposure, and 
failure to get cancer screenings. The NCI supports research to 
understand how people perceive risk, make health-related decisions, and 
maintain healthy behavior. Prevention is the keystone to success in the 
battle against cancer.

             DEVELOPING EFFECTIVE AND EFFICIENT TREATMENTS

    The future of cancer care is all about developing individualized 
therapies tailored to the specific characteristics of a patient's 
cancer. Noteworthy recent advances in this area have included the 
development of oral versions of medicines that were formerly only 
available by injection, thus improving patients' quality of life; and 
the discovery of intraperitoneal (IP) chemotherapy--delivering drugs 
directly to the abdominal cavity--that can add more than a year to 
survival for some women with ovarian cancer.

                  OVERCOMING CANCER HEALTH DISPARITIES

    Some minority and underserved population groups suffer 
disproportionately from cancer. Solving this issue will contribute 
significantly to reducing the cancer burden. Successful achievements in 
this important area include the development and dissemination of the 
patient navigator program that assists patients and caregivers to 
access and chart a course through the healthcare system, and the NCI 
Cancer Information Services Partnership Program that provides 
information and education about cancer in lay language to the medically 
underserved through community organizations.

             AACR'S INITIATIVES AUGMENT SUPPORT FOR THE NCI

    The NCI is not working alone or in isolation in any of these key 
areas. NCI research scientists reach out to other organizations to 
further their work. The AACR is engaged in scores of initiatives that 
strengthen, support, and facilitate the work of the NCI, including:
  --sponsoring the largest meeting of cancer researchers in the world, 
        with more than 17,000 scientists and 6,000 abstracts featuring 
        the latest scientific advances;
  --publishing more than 3,400 original research articles each year in 
        five prestigious peer-reviewed scientific journals, including 
        Cancer Research;
  --sponsoring the annual International Conference on Frontiers of 
        Cancer Prevention Research, the largest such prevention meeting 
        of its kind in the world;
  --raising and distributing more than $5 million in awards and 
        research grants.
 training and career development for the next generation of researchers
    Of critical importance to the viability of the long-term cancer 
research enterprise is supporting, fostering, and mentoring the next 
generation of investigators. The NCI devotes approximately 4 percent of 
its budget to multiple strategies to training and career development, 
including sponsored traineeships, a Medical Scientist Training Program, 
special set-aside grant programs and bridge grants for early career 
cancer investigators. Increased funding for these foundational 
opportunities is essential to retain the scientific workforce that is 
needed to continue the fight against cancer.

                     INCREASE RESEARCH FUNDING NOW

    Remarkable progress is being made in cancer research, but much more 
remains to be done. Cancer costs the Nation more than $209 billion in 
direct medical costs and lost productivity due to illness and premature 
death. Respected University of Chicago economists Kevin Murphy and 
Robert Topel have estimated that even a modest 1 percent reduction in 
mortality from cancer would be worth nearly $500 billion in social 
value. Investments in cancer research have huge potential returns. 
Thanks to successful past investments, promising research opportunities 
abound and must not be lost. To maintain our research momentum, the 
American Association for Cancer Research (AACR) urges the United States 
Senate to support the following appropriations funding levels for 
cancer research in fiscal year 2008:
  --$30.8 billion for the National Institutes of Health, a 6.7 percent 
        increase over fiscal year 2007.
  --$5.8 billion for the National Cancer Institute (the NCI 
        Professional Judgment budget level), or, at a minimum, $5.1 
        billion, a 6.7 percent increase over fiscal year 2007.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Nursing

    The American Association of Colleges of Nursing (AACN) respectfully 
submits this statement highlighting funding priorities for nursing 
education and research programs in fiscal year 2008. AACN represents 
more than 600 schools of nursing at public and private universities and 
senior colleges with baccalaureate and graduate nursing programs that 
educate over 240,000 students and employ over 12,000 faculty members. 
These institutions are responsible for educating almost half of our 
Nation's registered nurses (RNs) and all of the nurse faculty and 
researchers. Nursing represents the largest health profession, with 
approximately 2.9 million dedicated, trusted professionals delivering 
primary, acute, and chronic care to millions of Americans.

                      NATIONWIDE NURSING SHORTAGE

   For nearly a decade, our country's health care system has been 
negatively impacted by a shortage of RNs. In 2002, the Joint Commission 
on Accreditation of Healthcare Organizations noted that the nursing 
shortage contributed to nearly a quarter of all unexpected incidents 
that adversely affect hospitalized patients. A more recent 
comprehensive analysis published in the March 2006 issue of Nursing 
Economic$ found that the majority of nurses reported that the RN 
shortage is negatively impacting patient care and undermining the 
quality of care goals set by the Institute of Medicine and the National 
Quality Forum. Unfortunately, reports reveal that the nursing shortage 
is not expected to diminish in the foreseeable future. The Bureau of 
Labor Statistics projects that more than 1.2 million new and 
replacement nurses will be needed by 2014. Government analysts further 
project that more than 703,000 new RN positions will be created through 
2014, which will account for two-fifths of all new jobs in the health 
care sector.
    A number of contributing factors add to the complexity and duration 
of the shortage. Within the next 20 years, there will be a wave of 
nurses retiring from the profession. According to the 2004 National 
Sample Survey of Registered Nurses released in February 2007 by the 
Federal Division of Nursing, the average age of the RN population in 
March 2004 was 46.8 years of age, up from 45.2 in 2000. With many 
nurses nearing the age of retirement, more nurses must enter the 
pipeline. However, the nursing profession is not growing to meet the 
demand of the shortage. While The National Sample Survey of Registered 
Nurses has indicated that the total RN population has increased at 
every 4-year interval since 1980, the growth from 2000 to 2004 was 
relatively low. The total RN population increased by only 7.9 percent 
in 2004. Earlier report intervals noted that the RN population grew by 
14.2 percent between 1992 and 1996.
    The approximately 1,500 schools of nursing nationwide have been 
working diligently to expand enrollments. AACN's 2006-2007 annual 
survey of 722 nursing schools with baccalaureate and graduate programs 
reveals that enrollments increased by 7.6 percent in entry-level 
baccalaureate nursing programs.
    This makes the sixth consecutive year of enrollment increases that 
can be attributed to a combination of Federal support, private sector 
marketing efforts, public-private partnerships providing additional 
resources to expand capacity of nursing programs, and State legislation 
targeting funds towards nursing scholarships and loan repayment. While 
essential and important, these efforts have not fully met the 
increasing demand for RNs.
    Health Resources and Services Administration (HRSA) officials 
stated in an April 2006 report that there must be a 90 percent increase 
in graduations from U.S. nursing programs in order to meet the demand 
for RN services. Yet, the inability of nursing schools to educate more 
RNs is the most urgent contributing factor that must be addressed in 
order to reverse the shortage and ensure that every patient receives 
the safest, highest quality health care. According to AACN's report on 
2006-2007 Enrollment and Graduations in Baccalaureate and Graduate 
Programs in Nursing, U.S. nursing schools turned away 42,866 qualified 
applicants to baccalaureate and graduate programs due to an 
insufficient number of faculty, clinical sites, classroom space, 
clinical preceptors, and budget constraints. Almost three quarters of 
the nursing schools responding to the AACN survey pointed to faculty 
shortages as a reason for not accepting all qualified applicants into 
nursing programs. Federal support must continue to play an integral 
role in our Nation's efforts to address the nursing and nurse faculty 
shortage as well as the constraints encountered by nursing's 
educational system.
    nursing workforce development programs: addressing the shortage
    Acknowledging the severity of the Nation's nursing shortage, 
Congress passed The Nurse Reinvestment Act of 2002. This legislation 
created new programs and expanded existing Nursing Workforce 
Development authorities. Administered by HRSA under Title VIII of the 
Public Health Service Act, these programs focus on the supply and 
distribution of RNs across the country. The programs support individual 
students in their nursing studies through scholarships and loan 
repayment programs. Title VIII programs stimulate innovation in nursing 
practice and bolster nursing education throughout the continuum, from 
entry-level preparation through graduate study. They are the largest 
source of Federal funding for nursing education assisting students, 
schools of nursing, and health systems in their efforts to educate, 
recruit, and retain RNs and nurse faculty. In fiscal year 2006, these 
programs helped to educate over 48,000 nursing students and nurses 
through individual and programmatic support.
    However, funding for these authorities is insufficient to address 
the severity of the nursing and nurse faculty shortage. Currently, 
Nursing Workforce Development Programs receive $149.68 million, the 
same funding level as in fiscal year 2006. During the nursing shortage 
in 1974, Congress appropriated $153 million for nursing education 
programs. Translated into today's dollars, that appropriation would 
total $632 million, more than four times the current level. To fully 
meet the educational and practice demands of today's nursing shortage 
it would take billions of dollars.
    AACN respectfully requests $200 million for Title VIII Nursing 
Workforce Development Programs in fiscal year 2008, an additional 
$50.32 million over the fiscal year 2007 level. New monies would expand 
nursing education, recruitment, and retention efforts to help resolve 
all aspects adding to the nursing shortage.
Nurse Faculty Shortage
    AACN believes that the most effective strategy to resolve the 
nursing shortage is addressing the underlying nurse faculty shortage. 
The demand for nurse faculty far exceeds the rate at which nursing 
schools can educate them. HRSA reports that just 13 percent of the RN 
workforce holds either a master's or doctoral degree, the credentials 
required to teach. A Special Survey on Vacant Faculty Positions 
released by AACN in July 2006, reported a total of 637 faculty 
vacancies (8 percent vacancy rate) were identified at 329 nursing 
schools with baccalaureate and/or graduate programs across the country 
(almost two vacancies at each school of nursing). Most of the vacancies 
(53.7 percent) were faculty positions requiring a doctoral degree. 
Besides the vacancies, schools cited the need to create an additional 
55 faculty positions to accommodate student demand. The ability to 
increase the pool of educators becomes increasingly difficult when 
3,306 qualified applicants were turned away from master's programs and 
299 qualified applicants were turned away from doctoral programs in 
2006.
    The inability of nursing schools to educate, recruit, and retain 
qualified teachers is fueling the nurse faculty shortage. Potential 
faculty members graduating from schools of nursing are slow to rise. In 
2006, graduations from research-focused doctoral nursing programs were 
up by only 1.4 percent or six graduates from the 2005-2006 academic 
year. Complicating the problem further, those that are graduating from 
schools of nursing with a graduate degree are not choosing a career in 
education. An unpublished AACN study on employment plans found that 
almost a quarter of all graduates from doctoral nursing programs do not 
plan to work in academic settings. Higher compensation in clinical and 
private sector settings lures current and potential nurse educators 
away from the classroom.
    Furthermore, the demand for nurse faculty will continue to grow in 
the very near future as schools of nursing will experience an increase 
in faculty retirement. According to an article published in the March/
April 2002 issue of Nursing Outlook titled The Shortage of Doctorally 
Prepared Nursing Faculty: A Dire Situation, the average age of nurse 
faculty at retirement is 62.5 years. With the average age of 
doctorally-prepared faculty currently 53.5 years, a wave of retirements 
is expected within the next 10 years. Without sufficient nurse faculty, 
schools of nursing cannot expand enrollments, and the nursing shortage 
will continue to cripple our Nation's health care delivery system.
 reversing the nurse faculty shortage and nursing educational barriers
    The Nursing Workforce Development programs are essential in not 
only educating nurses, but more critically, in funding the education of 
additional nurse faculty. In fiscal year 2008, AACN recommends 
increasing funding for graduate education through the Advanced 
Education Nursing (AEN) Grants (Sec. 811) and bolstering funds for the 
Nurse Faculty Loan Program (Sec. 846A) as well as the Nurse Education, 
Practice, and Retention Grants (Sec. 831). These programs are essential 
in educating nurses, but more importantly in funding the education of 
nurse faculty, which allow schools of nursing to increase their student 
capacity.
    Advanced Education Nursing Program (Sec. 811).--These grants 
support the majority of nursing schools preparing graduate-level 
nurses, many of whom become faculty. Receiving $57.06 million in fiscal 
year 2007, this grant program helps schools of nursing, academic health 
centers, and other nonprofit entities improve the education and 
practice of nurse practitioners, nurse-midwives, nurse anesthetists, 
nurse educators, nurse administrators, public health nurses, and 
clinical nurse specialists. Out of the 114 applications reviewed for 
program grants in fiscal year 2006, 45 new grants were awarded and 112 
previously awarded grants were continued, totaling 157--the same number 
as in fiscal year 2004 and fiscal year 2005. In addition, 564 schools 
of nursing received traineeship grants, which in turn directly 
supported 9,000 individual student nurses. In fact, 2,105 nurses who 
received support from AEN grants in fiscal year 2006 are now practicing 
in underserved areas.
    Nurse Faculty Loan Program (Sec. 846A).--Designed to increase the 
number of nurse faculty, schools of nursing receive grants to create a 
loan fund through the Nurse Faculty Loan Program. To be eligible for 
these loans, students must pursue full-time study for a master's or 
doctoral degree. In exchange for teaching at a school of nursing, loan 
recipients will have up to 85 percent of their educational loans 
cancelled over a 4-year period. In fiscal year 2006, 67 new grants and 
26 continuing grants were awarded to schools of nursing. These grants 
are projected to assist 475 future nurse educators. Unfortunately, in 
fiscal year 2006 schools of nursing requested over three times the 
funds available to educate additional nurse faculty. In fiscal year 
2007, $4.77 million was appropriated. If the current funding was 
doubled to almost $10 million, based on fiscal year 2006 projections, 
nursing schools could educate over 900 future faculty members. Further, 
with an average faculty to student ratio of 1:10, those 900 faculty 
members could teach an additional 9,000 nurses each year.
    Nurse Education, Practice, and Retention Grants (Sec. 831).--These 
grants help schools of nursing, academic health centers, nurse-managed 
health centers, State and local governments, and health care facilities 
strengthen programs that provide nursing education. In particular, the 
Education Grants expand enrollments in baccalaureate nursing programs. 
In addition, they develop internship and residency programs to enhance 
mentoring and specialty training as well as provide for new technology 
in education, including distance learning.

                 NATIONAL INSTITUTE OF NURSING RESEARCH

    One of the 27 Institutes and Centers at the National Institutes of 
Health, the National Institute of Nursing Research (NINR) works to 
improve patient care and foster advances in nursing and other health 
professions' practice. The outcomes-based findings derived from NINR 
research are important to the future of the health care system and its 
ability to deliver safe, cost-effective, and high quality care. Through 
grants, research training, and interdisciplinary collaborations, NINR 
addresses care management of patients during illness and recovery, 
reduction of risks for disease and disability, promotion of healthy 
lifestyles, enhancement of quality of life in those with chronic 
illness, and care for individuals at the end of life. To advance this 
research, AACN respectfully requests a funding level of $150 million in 
fiscal year 2008, an additional $12.66 million over the $137.34 
million, NINR received in fiscal year 2007,
NINR Addresses the Shortage of Nurse Researchers and Faculty
    NINR allocates 7 percent of its budget, a high proportion when 
compared to other NIH institutes, to research training to help develop 
the pool of nurse researchers. In fiscal year 2005, NINR training 
dollars supported 80 individual researchers and provided 155 
institutional awards, which in turn supported a number of nurse 
researchers at each institution. Since nurse researchers often serve as 
faculty members for colleges of nursing, they are actively educating 
our next generation of RNs.

                               CONCLUSION

    AACN acknowledges the fiscal challenges that the subcommittee and 
the entire Congress must work within. However, the nursing shortage can 
no longer be explained by the need to simply increase the number of 
nurses in the workforce. A demand for nurse educators weighs heavily on 
the ability to increase the pool of future nurses. This element of the 
shortage has created a negative chain reaction--without more nurse 
faculty, additional nurses cannot be educated, and without more nurses 
the shortage will continue. Ultimately, this chain reaction will 
continue to place the health care delivery system at risk. Title VIII 
programs can help to break this chain. These authorities provide a 
dedicated, long-term vision for supporting the education of the new 
nursing workforce. Yet, they must receive additional funding to be 
effective. AACN respectfully requests $200 million for Title VIII 
programs in fiscal year 2008. Additional funding for these programs 
will assist schools of nursing to expand their programs, educate more 
nurse faculty, increase the number of practicing RNs, and ultimately 
improve the patient care provided in our health care system. AACN also 
requests $150 million for NINR so that nurse researchers can continue 
their work to improve the nursing care provided to all patients.
                                 ______
                                 
     Prepared Statement of the American Association of Colleges of 
                          Osteopathic Medicine

    On behalf of the American Association of Colleges of Osteopathic 
Medicine (AACOM), which represents the administrations, faculties, and 
students of all twenty-three colleges of osteopathic medicine in the 
United States, I am pleased to present our views on the fiscal year 
2008 appropriations for Health Professions Education Programs under 
Title VII of the Public Health Service Act.
    First, we want to express our profound concern at the devastating 
cuts sustained by the Title VII programs in appropriations for the last 
two fiscal years. The fiscal year 2006 Labor, Health and Human 
Services, Education and Related Agencies Appropriations bill cut Title 
VII programs from the fiscal year 2005 level by 51.5 percent. 
Unfortunately, the fiscal year 2007 funding level restored only a small 
fraction of these cuts.
    Health Professions Education Programs under Title VII are essential 
components of America's health care safety net. An adequate, diverse, 
well-distributed and culturally competent health workforce is 
indispensable to meeting our current and especially our future health 
service delivery needs. The Title VII programs have been especially 
valuable in our efforts to ensure continuation of this commitment. In 
Public Law 105-392, the Health Professions Education Partnership Act of 
1998, forty-four different Federal health professions training programs 
were consolidated into seven clusters. These clusters provide support 
for training of primary care medicine and dental providers; the 
establishment and operation of interdisciplinary community-based 
training activities; health professions workforce analysis; public 
health workforce development; nursing education; and student financial 
assistance. These programs are designed to meet the health care 
delivery needs of over 2,800 Health Professions Shortage Areas in the 
country. Many rural and disadvantaged populations depend on the health 
professionals trained by these programs as their only source of health 
care. For example, without the practicing family physicians who are 
currently in place, an additional 1,332 of the United States' 1,082 
urban and rural counties would qualify for designation as primary care 
Health Professions Shortage Areas.
    Title VII programs have had a significant impact in reducing the 
Nation's Health Professions Shortage Areas. Indeed, a 1999 study 
estimated that if funding for Title VII program were doubled, the 
effect would be to eliminate the Nations' Health Professions Shortages 
Areas in as little as 6 years. (Politzer, RM, Hardwick, KC, Cultice, 
JM, Bazell, C. ``Eliminating Primary Care Health Professions Shortage 
Areas: The Impact of Title VII Generalist Physician Education,'' The 
Journal of Rural Health, 1999: 15(1): 11-19).
    A study by the Robert Graham Center showed that receipt of Title 
VII family medicine grants by medical schools produced more family 
physicians and more primary care doctors serving in rural areas and 
Health Professions Shortage Areas. Over 69 percent of Title VII funded 
internal medicine graduates practice primary care after graduation. 
This rate is nearly twice that of programs not receiving Title VII 
funding.
    Among the programs within these clusters that have been especially 
important to enhancing osteopathic medical schools' ability to train 
the highest quality physicians are: General Internal Medicine 
Residencies; General Pediatric Residencies; Family Medicine Training; 
Preventive Medicine Residencies; Area Health Education Centers (AHECs); 
Health Education and Training Centers (HETCs); Health Careers 
Opportunity Programs (HCOP); Centers of Excellence (COE) programs; and 
Geriatric Training Authority.
    Accordingly, Mr. Chairman and Members of the subcommittee, AACOM 
recommends that the fiscal year 2008 funding for Title VII Health 
Professions Education Programs and the equally important programs under 
Title VIII, Nursing Education be at least $550 million. This figure is 
consistent with the fiscal year 2008 level recommended by the Health 
Professions and Nursing Education Coalition (HPNEC) for Titles VII and 
VIII.
    AACOM also strongly urges continuation of funding for the Council 
on Graduate Medical Education (COGME). Since its inception, COGME's 
diverse membership has given the health policy community an opportunity 
to discuss national workforce issues. The fifteen formal reports and 
multiple ancillary materials provided by COGME have offered important 
findings and observations in the rapidly changing health care 
environment and have argued for a system of graduate medical education 
that develops a physician workforce to meet the healthcare needs of the 
American people.
    Some of the more significant recommendations include:
  --Community-based education with an emphasis on primary care;
  --Continued progress toward a more representative participation of 
        minorities in medicine;
  --The development and maintenance of a workforce planning 
        infrastructure to improve the understanding, need and demand 
        forces;
  --The development of Federal-State partnerships to further workforce 
        planning; and
  --Encouragement and support for medical education and health care 
        delivery programs that increase the flow of physicians to rural 
        areas, with an emphasis on the smaller, more remote 
        communities.
    With a projected physician workforce shortage looming, the 
activities of COMGE have never been more important.
    Mr. Chairman and members of the subcommittee, we appreciate the 
opportunity to submit this statement. If you have any questions or 
require additional information, please contact me at (301) 968-4141 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bdceced5dcd3d3d2d3fddcdcded2d093d2cfda">[email&#160;protected]</a>, or Michael J. Dyer, AACOM's Vice President for 
Government Relations at (301) 968-4152 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c414855495e6c4d4d4f434102435e4b02">[email&#160;protected]</a>
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Pharmacy

       HHS SUPPORTED PROGRAMS AT COLLEGES AND SCHOOLS OF PHARMACY

    AACP and its member colleges and schools of pharmacy appreciate the 
continued support of the House Appropriations Subcommittee on Labor, 
Health and Human Services, and Education. The 97 accredited colleges 
and schools of pharmacy are engaged in a wide-range of programs that 
are supported by grants and funding administered through the agencies 
of the Department of Health and Human Services (HHS). We also 
understand the difficult task you face annually in your deliberations 
to do the most good for the Nation and remain fiscally responsible to 
the same. AACP respectfully offers the following recommendations for 
your consideration as you undertake your deliberations.

               AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    AACP supports the Friends of AHRQ recommendation of $350 million 
for AHRQ programs in fiscal year 2008.
    AACP also recommends that the committee direct AHRQ to reestablish 
the provider-based research network grant program.
    The Institute of Medicine (IOM) published two reports in 2006 
regarding the reduction of medication use errors and how we can improve 
medication safety http://www.nap.edu/catalog/11623.html#toc and http://
www.nap.edu/catalog/11750.html#toc. Faculty at colleges and schools of 
pharmacy are actively engaged in teaching, research, and service to 
their communities that addresses nearly every one of these report 
recommendations. Our schools have significant community partnerships 
that can be furthered enhanced through congressional restoration of the 
provider-based research network program at AHRQ.
    AACP members are active grantees in AHRQ Effective Health Care 
Program, providing advice on how pharmacy and pharmaceutical technology 
reduce medical errors and provide for greater patient safety.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    The fiscal 2008 funding for the CDC should be increased to $6.44 
billion to restore funding for the preventive health and health 
services block grants, to restore the health promotion line item to at 
least fiscal year 2005 levels, and to allow the CDC to continue to 
focus on keeping our Nation well and healthy. AACP also supports the 
Friends of the National Center for Health Statistics (NCHS) 
recommendation that fiscal year 2008 funding be $117 million.
    The curriculum of the Nation's colleges and schools of pharmacy now 
includes significant focus on public health. Much of this focus is 
supported by research, information, and programs developed by the 
Centers for Disease Control and Prevention (CDC). For example, the 
public health elective offered by the University of Montana School of 
Pharmacy requires students to purchase the CDC's ``Epidemiology and 
Prevention of Vaccine-Preventable Diseases.''

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

    AACP supports the Friends of HRSA recommendation of at least $7.65 
billion for HRSA in fiscal year 2008.
    Many research, education, and service activities at our Nation's 
colleges and schools are supported by HRSA. Over the last 6 years, HRSA 
and academic pharmacy have forged a much closer working relationship. 
This strengthened tie is increasing access to comprehensive pharmacy 
services, including better utilization of the 340B drug assistance 
program, for patients served by HRSA grantees and programs. Working 
more closely with academic pharmacy has also improved the care provided 
by HRSA supported providers as evidenced in the clinical pharmacy 
demonstration projects implemented in 18 community health centers 
across the country. The recognition of U.S colleges and schools of 
pharmacy as a resource to the public health safety-net providers can 
play a significant role in improving programs such as the Ryan White 
AIDS programs, including the AIDs Drug Assistance Programs, rural 
health and telemedicine programs, just as it has the community health 
centers program. We would encourage you to request that HRSA continue 
to utilize the academy as a resource for program improvement.
    As mentioned above, AACP members are actively engaged with many 
HRSA programs or with HRSA grantees. The following are examples of that 
engagement.

                        COMMUNITY HEALTH CENTERS

    AACP recommends that the subcommittee provide $100 million within 
the total funding appropriations to CHCs for the development of new 
comprehensive pharmacy programs. AACP further recommends that $50 
million be made available within the total CHC appropriation for the 
creation of shared teaching positions between CHCs and colleges and 
schools of pharmacy to develop and support comprehensive pharmacy 
services programs. Another option for integrating comprehensive 
pharmacy services into CHC services would be to place the cost 
associated with this integration into the base budget of CHC grants.
    Relationships between CHCs and academic pharmacists could decrease 
the gap between the ``bench'' and the ``bedside'' in medication 
management, resulting in more effective, cost-efficient medication 
therapy. CHCs and academic pharmacy institutions continue to forge an 
essential link towards improving the health care provided to patients. 
As the recognized key link in America's health safety net CHCs should 
be encouraged to improve or develop comprehensive pharmacy services 
within their institutions.

            TITLE VII HEALTH PROFESSIONS EDUCATION PROGRAMS

    AACP supports the Health Professions and Nursing Education 
coalition (HPNEC) recommendation of $300 million for Title VII programs 
in fiscal year 2008.
    For nearly every health profession tracked by the U.S. Bureau of 
Labor Statistics, high demand will remain for the foreseeable future. 
Interprofessional education has the potential to help improve health 
care quality and create greater efficiencies by allowing health 
professionals to work productively together. NIH has also recognized 
the growing acceptance of interprofessional research through the ``Road 
Map,'' including allowing multiple primary investigators. Colleges and 
schools of pharmacy are taking a leadership role in the creation of 
interprofessional approaches to health professions education. Faculty 
are working across disciplines to develop interprofessional programs 
and assess their effectiveness through: federally supported programs 
such as Area Health Education Centers across the country; organizations 
such as the Institute for Healthcare Improvement and the Association of 
Academic Health Center; and university level mandates such as that of 
the University of Minnesota. It is essential that Federal support for 
interprofessional education be maintained.

                     NATIONAL HEALTH SERVICES CORPS

    AACP recommends that funding for these programs continue to 
increase, at least at a rate that takes into account inflation, and 
waiting lists.
    As integral as the CHCs are, they require health professionals to 
provide the care. While the Title VII programs are essential in 
creating the education programs that create culturally competent health 
professionals able to provide team-based, patient-centered care, the 
NHSC is the program that gets those providers to the community in 
greatest need. Annual appropriations for the NHSC continue to increase 
in recognition of the role this program plays in helping to improve 
access to care in medically underserved and health professions shortage 
areas.

                     OFFICE OF RURAL HEALTH POLICY

    AACP recommends that the subcommittee fully restore funding to 
Rural Health Care Programs. The ORHP supported Rural Health Research 
Centers grant program is the only source of rural-specific health 
services research supported by the HHS. Rural Health Research Centers 
collaborate with schools and colleges of pharmacy in rural health 
research and dissemination. A paper published by the Upper Midwest 
Rural Health Center (UMRHC) identified pharmacist staffing, finance, 
and access to technology as barriers to medication safety in rural 
hospitals. Through a nationwide survey, the UMRHC found a significant 
positive relationship between pharmacist staffing and the presence and 
quality of medication safety initiatives in rural hospitals. Better 
access to pharmacists in rural hospitals is necessary for reducing 
medication errors and implementing medication safety systems.

                    OFFICE OF TELEHEALTH ADVANCEMENT

    AACP recommends that the subcommittee increase the fiscal year 2008 
appropriation for telehealth to $7 million. AACP further recommends 
that the subcommittee direct the HRSA Office for the Advancement of 
Telehealth to include development of telepharmacy programs as an 
explicit grant funding option.
    Colleges and schools of pharmacy, including North Dakota State 
University College of Pharmacy, Washington State University College of 
Pharmacy, and Texas Tech University have developed successful 
telepharmacy programs that are assisting rural providers and their 
patients improve the management of their medications. The North Dakota 
Telepharmacy Program has restored, retained, or established pharmacy 
services to approximately 40,000 rural citizens in North Dakota and 
Minnesota. The project has not only increased access to medically 
underserved areas, but has also added approximately $12 million in 
economic development to the local rural economies. Duquesne University 
Mylan School of Pharmacy, located in Pittsburgh, Pennsylvania, has 
developed and implemented a telepharmacy program that is assisting 
hospice providers in rural southeastern Pennsylvania, Ohio, West 
Virginia.

                     NATIONAL INSTITUTES OF HEALTH

    AACP, as a member of the Ad Hoc Group for Biomedical Research 
Funding recommends that fiscal year 2008 NIH funding be increased by 
6.7 percent and this same increase be continued for the next 2 years.
    AACP would also ask the Congress to commend the NIH for its 
development of the ``PharmD Gateway to NIH'' and support efforts for 
NIH to create opportunities for the development of new clinical 
pharmacy faculty research.
    Our Nation benefits greatly from both intra and extramural NIH 
research. Our Nation's colleges and schools of pharmacy play an 
important part in that research agenda. Academic pharmacy supports the 
NIH Director's Road Map initiative and is especially pleased with 
recent decisions to allow multiple primary investigators on grants and 
the support of interdisciplinary research. According to 2006 NIH data, 
colleges and schools of pharmacy rank fourth after medicine, public 
health and biomedical engineering in total extramural grant funding. 
AACP is pleased to recognize the committee for its important role in 
doubling the NIH budget, however there is growing concern that without 
continued increases to the NIH budget that work will have been negated. 
In fiscal year 2006 biomedical research conducted by faculty at U.S. 
colleges and schools of pharmacy was supported by $239.7 million. 
Biomedical research is our Nation's best opportunity for finding cures 
for disease and reducing the economic burden of illness and chronic 
illness. The research of academic pharmacy faculty in discovery and 
application is essential at a time when we grow more dependent on 
medications to reduce the impact of chronic and acute illness and 
unexpected threats to our public health.

                      U.S. DEPARTMENT OF EDUCATION

    AACP is pleased that the President continues to recognize the 
importance of higher education to America's global competitiveness. 
What is of growing concern is that the priorities of the administration 
frequently come at the expense of existing programs of importance to 
students attending colleges and schools of pharmacy and the other 
institutions of higher learning they attend in preparation. The ability 
of students to be fully prepared to begin pharmacy studies has been 
heightened through participation in college preparation courses for 
high school students, summer programs for graduated high school 
students, and students entering their professional education through 
programs such as GEAR UP and TRIO. We support the recommendation of the 
Student Aid Alliance that fiscal year 2008 program funding be $350 
million and $1 billion respectively.
    Academic pharmacy is a leader among the health professions 
education community in regard to the development of objective, 
measurable, terminal educational outcomes. Because of growing concern 
about the assessment of student learning and the value-added aspects of 
higher education, faculty at our Nation's colleges and schools of 
pharmacy are ideal resources to work beyond the politics of the 
Spellings Commission on Higher Education. Academic pharmacy is 
committed to improving and demonstrating the value of pharmacy 
education. This commitment led to the creation of AACP's Center for the 
Advancement of Pharmaceutical Education (CAPE). CAPE has established 
and recently redefined and expanded educational outcomes. The CAPE 
outcomes are intended to guide individual institutions in curriculum 
development. The Accrediting Council on Pharmaceutical Education (ACPE) 
has adapted these educational outcomes into its recently revised 
standards and guidelines.
                                 ______
                                 
  Prepared Statement of the American Association for Dental Research 
      (AADR) and the American Dental Education Association (ADEA)

    Discoveries stemming from dental research have reduced the burden 
of oral disease, have led to better oral health for tens of millions of 
Americans, and have uncovered important associations between oral and 
systemic health. Now, dental researchers and educators are poised to 
make new breakthroughs that can result in dramatic progress in medicine 
and health, such as repairing natural form and function to faces 
destroyed by disease, accident, or war injuries; diagnosing systemic 
disease from saliva instead of blood samples; and deciphering the 
complex interactions and causes of oral health care disparities 
involving social, economic, cultural, environmental, racial/ethnic, and 
biological factors. Dental research in large part takes place in 
academic dental institutions where the future oral health workforce 
receives education and training and provides oral health care that 
improves the health of the public. Dental research and education are 
the underpinning of the profession; they enhance the quality of the 
Nation's oral and overall health. This testimony will cover the 
following programs and issues:
    1. Oral Health Research--The National Institutes of Health (NIH) 
and the National Institute of Dental and Craniofacial Research 
(NIDCR)--
    a. Elimination of America's most prevalent infectious disease,
    b. Saliva as a diagnostic tool,
    c. Understanding factors that cause disparities in oral health,
    d. Emerging Possibilities from Dental Researchers,
    2. Dental Education--Title VII General Dentistry and Pediatric 
Dentistry and Workforce Training Programs.
    3. Access to Dental Care--
    a. State Children's Health Insurance Program (SCHIP),
    b. Dental Health Improvement Act,
    c. Centers for Disease Control and Prevention: Division of Oral 
            Health,
    d. and Ryan White CARE Act: Dental Reimbursement and Community-
            based Partnerships Programs

                              INTRODUCTION

    The American Association for Dental Research (AADR) represents the 
oral health research community within the United States, and the 
American Dental Education Association (ADEA) represents over 120 
academic dental institutions as well as all of the educators, 
researchers, residents and students training at these institutions. 
Together our organizations represent over 21,000 members in academic 
dental and dental research institutions throughout the Nation. The 
joint mission of AADR and ADEA is to enhance the quality and scope of 
oral health, advance research and increase knowledge for the 
improvement of oral health, and increase opportunities for scientific 
innovation. Academic dental institutions play an essential role in 
conducting research and educating and training the future oral health 
workforce. Academic dental institutions provide dental care to 
underserved low-income populations, including individuals covered by 
Medicaid and the State Children's Health Insurance Program.
    We thank the committee for this opportunity to submit testimony 
regarding the exciting advances in oral health sciences. There are 
extraordinary opportunities being created through oral health research 
and education. Herein we submit our fiscal year 2008 budget 
recommendations for the National Institute of Dental and Craniofacial 
Research (NIDCR), Title VII Health Professions Education and Training 
Programs administered by the Health Resources and Services 
Administration (HRSA), the Dental Health Improvement Act, the State 
Children's Health Insurance Program (SCHIP), the Centers for Disease 
Control and Prevention's Oral Health Programs, and the Ryan White CARE 
Act, HIV/AIDS Dental Reimbursement Program and the Community Based 
Dental Partnership Program.

                          ORAL HEALTH RESEARCH

    Dental research is concerned with the prevention, causes, 
diagnosis, and treatment of diseases and disorders that affect the 
teeth, mouth, jaws, and related systemic diseases. Dental health is an 
important, vital part of health throughout life, and through dental 
research and education, we can enhance the quality and scope of oral 
health. Dental research has produced tremendous benefits for the health 
and well-being of our Nation and the world. Nonetheless, much remains 
to be done as identified in the Surgeon General's Report of 2000--Oral 
Health in America \1\ and in the 2003--National Call to Action to 
Promote Oral Health.\2\ 
---------------------------------------------------------------------------
    \1\ Oral Health in America: A Report of the Surgeon General, U.S. 
Department of Health and Human Services, 2000.
    \2\ National Call to Action to Promote Oral Health, U.S. Department 
of Health and Humans Services, 2003.
---------------------------------------------------------------------------
    We applaud Congress for demonstrating its overwhelming bipartisan 
support for NIH by passing the NIH Reform Act of 2006. This 
reauthorization legislation is an affirmation of the importance of NIH 
and its vital role in advancing biomedical research to improve the 
health of the Nation. A renewed national commitment to research and 
fighting disease, through increased support for the NIH, will allow us 
to capitalize on new and unprecedented scientific opportunities in oral 
health research.
Eliminating American's most prevalent infectious disease
    America's most prevalent infectious disease is dental decay 
(caries)! It is five times more common than asthma and seven times more 
common than hay fever in school children. Americans spend millions of 
dollars annually in dental caries treatments and tooth restoration. 
Over the past 50 years, discoveries stemming from dental research have 
reduced the burden of dental caries (tooth decay) for many Americans. 
Now, the burden of the disease, in terms of both extent and severity, 
has shifted dramatically to a subset of our population. About a quarter 
of the population now accounts for about 80 percent of the disease 
burden. Dental caries remains a significant problem for vulnerable 
populations of children and people who are economically disadvantaged, 
elderly, chronically ill, or institutionalized.
    Dental caries is a chronic, infectious disease process that occurs 
when a relatively high proportion of bacteria within dental plaque 
begin to damage tooth structure. Most infectious diseases are treated 
through medications, not surgery. But, it has been difficult to treat 
caries this way because our existing diagnostic techniques lack the 
sensitivity to catch it early enough. New strategies for the 
prevention, diagnosis, cure and repair of dental caries are being 
studied and developed by scientists funded through the NIDCR. If caries 
can be diagnosed before irreversible loss of tooth structure occurs, it 
can be reversed using a variety of approaches that ``remineralize'' the 
tooth. In addition to improved diagnostics, some researchers are 
working to develop a vaccine to prevent tooth decay, while others use 
new methods to specifically target and kill the decay-causing bacteria.
Saliva as a Diagnostic Tool
    The development of new diagnostic tests based on the analysis of 
biomarkers in saliva will allow clinicians to more reliably diagnose 
disease and monitor health conditions much earlier than is currently 
possible. Salivary diagnostics is already being used for rapid, non-
invasive HIV screening, and saliva-based tests will soon be available 
for oral cancer screening. Oral cancers and cancer of the larynx are 
diagnosed in 41,000 individuals accounting for 12,500 deaths per year 
in the United States. The death rate associated with this cancer is 
especially high due to delayed diagnosis. Now, scientists funded by the 
NIDCR have taken a major step forward in using saliva to detect oral 
cancer. Elevated levels of distinct, cancer-associated molecules in 
saliva can be used to distinguish between healthy people and those with 
cancer. Soon, with further research, commercial diagnostic tests will 
be developed for oral squamous cell carcinoma with the 99+ percent 
accuracy expected for such tests.
    Using saliva may also be possible for diagnosing and monitoring 
many other systemic health conditions as well as exposure to chemical 
and biological agents. Early diagnosis could potentially save thousands 
of lives.
Understanding Factors that Cause Disparities in Oral Health
    Despite tremendous improvements in the Nation's oral health over 
the past decades, the benefits have not been equally shared by millions 
of low-income and underserved Americans. High-risk populations, 
including poor, inner-city, elderly, rural, and groups with special 
health-care needs, all suffer a disproportionate and debilitating 
amount of oral disease. Research is needed to identify the factors that 
determine disparities in oral health and disease. These factors may 
include proteomic, genetic, environmental, social, and behavioral 
aspects and how they influence oral health singly or in combination. 
Translational and clinical research is underway to analyze the 
prevalence, etiology, and impact of oral conditions on disadvantaged 
and underserved populations and on the systemic health of these 
populations. In addition, community- and practice-based disparities 
research, funded by the NIDCR and the Centers for Disease Control and 
Prevention's Oral Health Programs, can help to identify and reduce 
risks, enhance oral health-promoting behaviors, and help integrate 
research findings directly into oral health care practice.
Other Emerging Exciting Areas in Dental Research
    Looking towards the future--imagine a time when you won't need x-
rays to diagnose tooth decay; instead a molecular or electronic probe 
will do the job. Or imagine teeth being restored to health, not with 
fillings, but with simple mineral rinses or bioengineering techniques. 
This is closer to reality than you might envision!
  --Tissue engineering.--Tissue engineering holds great potential to 
        repair the ravages of orofacial disease, trauma, war injuries, 
        and birth defects, including the bioengineering of complete, 
        fully functional replacement teeth.
  --Stem cells.--Isolating stem cells from the ligament around third 
        molars (wisdom teeth) and from human exfoliated deciduous teeth 
        (baby teeth) holds the distinct possibility that one day--in 
        the near future--we may be able to repair dental and 
        craniofacial defects by growing new tissues.
  --System-oral health linkages.--There is strong evidence of an 
        association between gum (periodontal) disease and systemic 
        events such as cardiovascular disease, diabetes, and adverse 
        pregnancy outcomes. Continued oral health research will provide 
        insight into the prevention and treatment of these and other 
        systemic conditions with links to oral health.
  --Practice Based Research Networks.--By connecting practitioners with 
        experienced clinical investigators, Practice Based Research 
        Networks (PBRNs) can enhance the utility of clinical research 
        funded by NIDCR by developing data and new techniques that may 
        be immediately relevant to practitioners and their patients.

                            DENTAL EDUCATION

Title VII Programs, Public Health Service Act
    Title VII Education and Training Programs are critical. Support for 
these programs is essential to expanding existing or establishing new 
general dentistry and pediatric dentistry residency programs. Title VII 
general and pediatric dental residency training programs have shown to 
be effective in increasing access to care and enhancing dentists' 
expertise and clinical experiences to deliver a wide range of oral 
health services to a broad patient pool, including geriatric, 
pediatric, medically compromised patients, and special needs patients. 
Title VII support increases access to care for Medicaid and SCHIP 
populations. The value of these programs is underscored by reports of 
the Advisory Committee on Training in Primary Care Medicine and 
Dentistry and the Institute of Medicine. Without adequate funding for 
general dentistry and pediatric dentistry training programs it is 
anticipated that access to dental care for underserved populations will 
worsen.
    AADR/ADEA also supports the funding requests advanced by National 
Council for Diversity in the Health Professions for the Health 
Resources and Services Administration's diversity programs, namely the 
Scholarship for Disadvantaged Students, Health Careers Opportunity 
Program, Centers of Excellence, and the Faculty Loan Repayment Program.

                         ACCESS TO DENTAL CARE

State Children's Health Insurance Program
    Reauthorization of the State Children's Health Insurance Program 
(SCHIP) represents a singular opportunity to move closer to the widely-
shared goal of ensuring that all of America's children have health care 
coverage. Congress has taken a significant step in that direction by 
signaling in the House and Senate budget resolutions a willingness to 
provide $50 billion in new funding for SCHIP reauthorization. Now, 
relying on the bipartisan support for SCHIP, Congress must work to 
ensure in a timely manner that SCHIP reauthorization legislation is 
fully funded and that it includes policies that will support States' 
efforts to cover more children.
    Minority, low-income, and geographically isolated children suffer 
disproportionately from dental conditions. Dental care tops the list of 
parent reported unmet needs, with parent reports of unmet dental needs 
three times as often as medical care and four times that of vision 
care. For children with special needs, dental care is the most 
prevalent unmet health care need surpassing mental health, home health, 
hearing aids and all other services. Despite the magnitude of need, 
dental coverage has remained an optional benefit in SCHIP. All States 
have recognized that poor oral health affects children's general health 
and have opted to provide dental coverage. However, dental coverage is 
often the first benefit cut when States seek budgetary savings. SCHIP 
lacks a stable and consistent dental benefit that would provide a 
comprehensive approach to children's health while reducing costly 
treatments caused from advanced dental disease. Congress can help 
stabilize access to oral health care services to underserved children 
by improving funding for the SCHIP program. It is vital that Congress 
deliver on its pledge for children's health coverage of $50 billion in 
new funds for SCHIP and Medicaid as indicated in the congressional 
budget resolutions. This level of funding is the minimum amount needed 
to allow States to sustain their existing SCHIP programs, reach a 
significant share of the uninsured children already eligible for SCHIP 
and Medicaid, and support ongoing State efforts to expand oral health 
care coverage.
Dental Health Improvement Act
    The recent reports of tragic deaths of Deamonte Driver, a 12-year-
old from Maryland, and Alexander Callender, a 6-year-old from 
Mississippi, as a result of unmet dental needs tragically illustrate 
that all children regardless of resources or economic status should 
have access to oral health care.
    Congress provided first-time funding of $2 million in fiscal year 
2006 for the Dental Health Improvement Act, a program established in 
2001, to assist States in developing innovative dental workforce 
programs. The first grants were awarded to States last Fall and are 
being used for a variety of important initiatives including: increasing 
hours of operation at clinics caring for underserved populations, 
recruiting and retaining dentists to work in these clinics, prevention 
programs including water fluoridation, dental sealants, nutritional 
counseling, and augmenting the State dental offices to coordinate oral 
health and access issues.
Centers for Disease Control and Prevention (CDC) Division of Oral 
        Health
    The Centers for Disease Control and Prevention Oral Health Program 
expands the coverage of effective prevention programs by building basic 
capacity of State oral health programs to accurately assess the needs 
in their State, organize and evaluate prevention programs, develop 
coalitions, address oral health in State health plans, and effect 
allocation of resources to the programs. CDC's funding and technical 
assistance to States is essential to help oral health programs build 
capacity.
    An additional $4 million over fiscal year 2007 funding of $11.6 
million is necessary so additional States requesting support to improve 
their capacity to validate, build, and sustain effective preventive 
interventions to reduce health disparities among their citizens can be 
funded. Funding for current grantees expires at the end of fiscal year 
2007. Twenty-four States have previously applied for these grants but 
due to limited funding only 12 States were awarded. Increasing CDC 
funding will help to ensure that all States that apply may be awarded 
an oral health grant.
Dental Reimbursement and Community-based Dental Partnership Program
    Congress designated dental care as a ``core medical service'' when 
it reauthorized the Ryan White program in 2006. The Dental 
Reimbursement Program provides access to quality dental care to people 
living with HIV/AIDS while simultaneously providing educational and 
training opportunities to dental residents, dental students, and dental 
hygiene students who deliver the care. The Dental Reimbursement Program 
is a cost-effective Federal/institutional partnership that provides 
partial reimbursement to academic dental institutions for costs 
incurred in providing dental care to people living with HIV/AIDS. The 
Community-Based Dental Partnership Program fosters partnerships between 
dental schools and communities lacking academic dental institutions to 
ensure access to dental care for HIV/AIDS patients living in those 
areas.

       AADR/ADEA FISCAL YEAR 2008 FUNDING RECOMMENDATIONS SUMMARY

    To maintain support for the biomedical research at the NIH AADR/
ADEA recommends $31.3 billion for the National Institutes of Health 
(NIH) including $425 million for the National Institute of Dental and 
Craniofacial Research (NIDCR).
    Support the development of innovative dental workforce programs 
specific to States' needs and increase access to dental care for 
underserved populations. AADR/ADEA recommends $10 million for the 
Dental Health Improvement Act.
    Help build basic capacity of State oral health programs. AADR/ADEA 
recommends $15.6 million for the CDC Dental Block Grants.
    Support education and training of the dental workforce for the 
future. AADR/ADEA recommends $450.2 million for the full complement of 
Title VII health professions programs including:
  --$89 million for the primary care medicine and dentistry cluster to 
        assure:
    --$10 million for General and Pediatric Dental Residency Training.
  --$118 million for the diversity and student assistance cluster:
    --$33.6 million for Centers of Excellence;
    --$35.6 million for Health Careers Opportunity Program;
    --$1.3 million for the Faculty Loan Repayment Program; and
    --$47.1 million for Scholarships for Disadvantaged Students.
    Help provide access to oral health care services in SCHIP. AADR/
ADEA recommends $50 billion in new funds for SCHIP and Medicaid.
    Assist people with HIV/AIDS, whose immune systems are weakened, to 
have access to quality dental care. AADR/ADEA recommends $19 million 
for of the Ryan White HIV/AIDS Treatment and Modernization Act, the 
Dental Reimbursement Program and the Community-based Dental 
Partnerships Program.
                                 ______
                                 
Prepared Statement of the American Association for Geriatric Psychiatry

    The American Association for Geriatric Psychiatry (AAGP) 
appreciates this opportunity to present its recommendations on issues 
related to fiscal year 2008 appropriations for mental health research 
and services. AAGP is a professional membership organization dedicated 
to promoting the mental health and well being of older Americans and 
improving the care of those with late-life mental disorders. AAGP's 
membership consists of approximately 2,000 geriatric psychiatrists as 
well as other health professionals who focus on the mental health 
problems faced by senior citizens.
    AAGP appreciates the work this subcommittee has done in recent 
years in support of funding for research and services in the area of 
mental health and aging through the National Institutes of Health (NIH) 
and the Substance Abuse and Mental Health Services Administration 
(SAMHSA). Although we generally agree with others in the mental health 
community about the importance of sustained and adequate Federal 
funding for mental health research and treatment, AAGP brings a unique 
perspective to these issues because of the elderly patient population 
served by our members.

       DEMOGRAPHIC PROJECTIONS AND THE MENTAL DISORDERS OF AGING

    With the baby boom generation nearing retirement, the number of 
older Americans with mental disorders is certain to increase in the 
future. By the year 2010, there will be approximately 40 million people 
in the United States over the age of 65. Over 20 percent of those 
people will experience mental health problems.
    Current and projected economic costs of mental disorders alone are 
staggering. It is estimated that total costs associated with the care 
of patients with Alzheimer's disease is over $100 billion per year in 
the United States. Psychiatric symptoms (including depression, 
agitation, and psychotic symptoms) affect 30 to 40 percent of people 
with Alzheimer's and are associated with increased hospitalization, 
nursing home placement, and family burden. These psychiatric symptoms, 
associated with Alzheimer's disease, can increase the cost of treating 
these patients by more than 20 percent.
    Depression is another example of a common problem among older 
persons. Of the approximately 32 million Americans who have attained 
age 65, about 5 million suffer from depression, resulting in increased 
disability, general health care utilization, and increased risk of 
suicide. Depression is associated with poorer health outcomes and 
higher health care costs. Co-morbid depression with other medical 
conditions affects a greater use and cost of medications as well as 
increased use of health services (e.g., medical outpatient visits, 
emergency visits, and hospitalizations). For example, individuals with 
depression are admitted to the emergency room for hypertension, 
arthritis, and ulcers at nearly twice the rate of those without 
depression. Those individuals with depression are more likely to be 
hospitalized for hypertension, arthritis, and ulcers than those without 
depression. Those with depression experience almost twice the number of 
medical visits for hypertension, arthritis and ulcers than those 
without depression. Finally, the cost of prescriptions and number of 
prescriptions for hypertension, arthritis, and ulcers were more than 
twice than those without depression.
    Older adults have the highest rate of suicide compared to any other 
age group. Comprising only 13 percent of the U.S. population, 
individuals age 65 and older account for 19 percent of all suicides. 
The suicide rate for those 85 and older is twice the national average. 
More than half of older persons who commit suicide visited their 
primary care physician in the prior month--a truly stunning statistic.

     THE CHALLENGE OF MEETING THE MENTAL HEALTH NEEDS OF THE AGING 
POPULATION--PROPOSAL FOR IOM STUDY ON MENTAL HEALTH WORKFORCE NEEDS OF 
                            OLDER AMERICANS

    The Institute of Medicine (IOM) of the National Academy of Sciences 
is currently undertaking a study of the readiness of the Nation's 
healthcare workforce to meet the needs of its aging population. IOM has 
recommended in discussions with AAGP that, because this study will not 
delve deeply into the composition of the mental health workforce needed 
to meet future needs of the elderly, a complementary study be 
undertaken to consider specifically this vital area of concern. This 
complementary study will focus on the mental health professional 
workforce that will be needed to meet the demands of the aging 
population in this country. IOM is extremely supportive of this 
proposed study and feel that it would complement their current study on 
broad health needs of older adults. IOM has advised AAGP that $1 
million would be needed to undertake this complementary mental health 
study.
    In discussions with AAGP, the senior staff of IOM suggested the 
following language for inclusion in the fiscal year 2008 Labor HHS 
Appropriations bill:

    ``The committee provides $1,000,000 for a study by the Institute of 
Medicine of the National Academy of Sciences to determine the multi-
disciplinary mental health workforce needed to serve older adults. The 
initiation of this study should be not later than 60 days after the 
date of enactment of this act, whereby the Secretary of Health and 
Human Services shall enter into a contract with the Institute of 
Medicine to conduct a thorough analysis of the forces that shape the 
mental health care workforce for older adults, including education, 
training, modes of practice, and reimbursement.''

    This proposal for funding for an IOM study on mental health 
workforce needs of older Americans is supported by the IOM, and AAGP 
strongly urges its inclusion in the fiscal year 2008 Labor HHS 
Appropriations bill.

                  NATIONAL INSTITUTE OF MENTAL HEALTH

    In his fiscal year 2008 budget, the President again proposed 
decreased funding for the National Institutes of Health (NIH). This 
decline in funding would have a devastating impact on the ability of 
NIH to sustain the ongoing, multi-year research grants that have been 
initiated in recent years.
    AAGP would like to call to the subcommittee's attention the fact 
that, even in the years in which funding was increased for NIH and 
NIMH, these increases did not always translate into comparable 
increases in funding that specifically address problems of older 
adults. Data supplied to AAGP by NIMH indicates that while extramural 
research grants by NIMH increased 59 percent during the 5-year period 
from fiscal year 1995 through fiscal year 2000 (from $485,140,000 in 
fiscal year 1995 to $771,765,000 in fiscal year 2000), NIMH grants for 
aging research increased at less than half that rate: only 27.2 percent 
during the same period (from $46,989,000 to $59,771,000).
    Despite the fact that over the past 6 years Congress, through 
committee report language, has specifically urged NIMH to increase 
research grant funding devoted to older adults, this has not occurred. 
The critical disparity between Federally funded research on mental 
health and aging and the projected mental health needs of older adults 
is continuing. If the mental health research budget for older adults is 
not substantially increased immediately, progress to reduce mental 
illness among the growing elderly population will be severely 
compromised. While many different types of mental and behavioral 
disorders occur in late life, they are not an inevitable part of the 
aging process, and continued and expanded research holds the promise of 
improving the mental health and quality of life for older Americans.

                   CENTER FOR MENTAL HEALTH SERVICES

    It is also critical that there be adequate funding for the mental 
health initiatives under the jurisdiction of the Center for Mental 
Health Services (CMHS) within SAMHSA. While research is of critical 
importance to a better future, the patients of today must also receive 
appropriate treatment for their mental health problems. SAMHSA provides 
funding to State and local mental health departments, which in turn 
provide community-based mental health services to Americans of all 
ages, without regard to the ability to pay. AAGP was pleased that the 
final budgets for the last 5 years have included $5 million for 
evidence-based mental health outreach and treatment to the elderly. 
AAGP worked with members of this subcommittee and its Senate 
counterpart on this initiative, which is a very important program for 
addressing the mental health needs of the Nation's senior citizens. 
However, AAGP is extremely alarmed to see that this program was 
eliminated in President Bush's fiscal year 2008 budget proposal. 
Restoring and increasing this mental health outreach and treatment 
program must be a top priority, as it is the only Federally funded 
services program dedicated specifically to the mental health care of 
older adults.
    The greatest challenge for the future of mental health care for 
older Americans is to bridge the gap between scientific knowledge and 
clinical practice in the community, and to translate research into 
patient care. Adequate funding for this geriatric mental health 
services initiative is essential to disseminate and implement evidence-
based practices in routine clinical settings across the States. 
Consequently, we would urge that the $5 million for mental health 
outreach and treatment for the elderly included in the CMHS budget for 
fiscal year 2007 be increased to $20 million for fiscal year 2008. Of 
that $20 million appropriation, AAGP believes that $10 million should 
be allocated to a National Evidence-Based Practices Program, which will 
disseminate and implement evidence-based mental health practices for 
older persons in usual care settings in the community. This program 
will provide the foundation for a longer-term national effort that will 
have a direct effect on the well-being and mental health of older 
Americans.

              HEALTH RESOURCES AND SERVICES ADMINISTRATION

    Despite growing evidence of the need for more geriatric specialists 
to care for the Nation's elderly population, a critical shortage 
persists. AAGP appreciates the work of this subcommittee in providing 
for the restoration of funding for the geriatric health professions 
programs under Title VII of the Public Health Service Act, which was 
eliminated for fiscal year 2006. The restoration of this programs has 
prevented a devastating impact on physician workforce development over 
the next decade, with would have dangerous consequences for the growing 
population of older adults who will need access to appropriate 
specialized care. The administration has again proposed eliminating 
most Title VII programs, including geriatrics. We urge the subcommittee 
to fund them at the final fiscal year 2007 level. The geriatric health 
professions program supports three important initiatives. The Geriatric 
Faculty Fellowship trains faculty in geriatric medicine, dentistry, and 
psychiatry. The Geriatric Academic Career Award program encourages 
newly trained geriatric specialists to move into academic medicine. The 
Geriatric Education Center (GEC) program provides grants to support 
collaborative arrangements that provide training in the diagnosis, 
treatment, and prevention of disease.

                               CONCLUSION

    Based on AAGP's assessment of the current need and future 
challenges of late life mental disorders, we submit the following 
fiscal year 2008 funding recommendations:
    1. An Institute of Medicine study on the future mental health 
workforce needs for older adults should be funded at $1 million. This 
proposed report is fully supported by IOM.
    2. The current rate of funding for aging grants at NIMH and CMHS is 
inadequate and should be increased to at least three times their 
current funding levels. In addition, the substantial projected increase 
in mental disorders in our aging population should be reflected in the 
budget process in terms of dollar amount of grants and absolute number 
of new grants.
    3. To help the country's elderly access necessary mental health 
care, previous years' funding of $5 million for evidence-based mental 
health outreach and treatment for the elderly within CMHS must be 
increased to $20 million.
    4. Funding for the geriatric health professions program under Title 
VII of the Public Health Service Act should be continued at fiscal year 
2007 levels.
    AAGP looks forward to working with the members of this subcommittee 
and others in Congress to establish geriatric mental health research 
and services as a priority at appropriate agencies within the 
Department of Health and Human Services.
                                 ______
                                 
    Prepared Statement of the American Association of Immunologists

    The American Association of Immunologists (``AAI''), a not-for-
profit professional society representing more than 6,500 of the world's 
leading experts on the immune system, appreciates having this 
opportunity to submit testimony regarding fiscal year 2008 funding for 
the National Institutes of Health (NIH). The NIH budget is of great 
concern to our members--research scientists and physicians who work in 
academia, government, and industry--many of whom depend on NIH funding 
to support their work.\1\ With approximately 83 percent of NIH's $28.9 
billion budget awarded to more than 325,000 scientists throughout the 
United States and around the world, NIH's funding level drives not only 
the advancement of immuno-logical and biomedical research, but also the 
economic activity that fuels local and national economies.\2\
---------------------------------------------------------------------------
    \1\ The majority of AAI members are medical school and university 
professors and researchers who receive research grants from NIH, and in 
particular from the National Institute of Allergy and Infectious 
Diseases (NIAID), the National Cancer Institute (NCI), and the National 
Institute on Aging (NIA).
    \2\ NIH funding ``supports peer-reviewed . . . research at more 
than 3,000 universities, medical schools, hospitals, and research 
institutions throughout the 50 States and over-
seas . . . . Additionally, NIH supports 6,000 intramural scientists in 
its own laboratories.'' Fiscal Year 2008 Director's Budget Request 
Statement: Fiscal Year 2008 Budget Request, Witness appearing before 
the House Subcommittee on Labor-HHS-Education Appropriations, Elias A. 
Zerhouni, M.D., Director, National Institutes of Health (March 6, 
2007).
---------------------------------------------------------------------------
                            WHY IMMUNOLOGY?

    Basic research on the immune system provides a foundation for the 
discovery of ways to prevent, treat, and cure disease through the 
development of diagnostics, vaccines, and therapeutics.\3\ 
Immunologists use animal models to test theories about immune system 
function and treatments; \4\ if successful, treatments are then tested 
on human subjects through clinical trials before being approved for use 
by the Food and Drug Administration (``FDA'') and made available to the 
general population.
---------------------------------------------------------------------------
    \3\ The immune system works by recognizing and attacking ``foreign 
invaders'' (i.e., bacteria and viruses) inside the body and by 
controlling the growth of tumor cells. A healthy immune system can 
protect its human or animal host from illness or disease either 
entirely--by attacking and destroying the virus, bacterium, or tumor 
cell--or partially, resulting in a less serious illness. It will also 
reject transplanted organs and bone marrow. The immune system can 
malfunction, allowing the body to attack itself instead of an invader 
(resulting in an ``autoimmune'' disease like Type 1 diabetes, multiple 
sclerosis, or rheumatoid arthritis).
    \4\ Without animal experimentation, immunologists and other 
researchers would have to use human subjects, an ethically unacceptable 
alternative. Despite the clear necessity for animal research, 
scientists continue to be threatened by people and organizations that 
oppose such research.
---------------------------------------------------------------------------
    Immunological research focuses on many of the diseases that most 
threaten life and health: infectious diseases like HIV/AIDS, influenza 
and avian flu, and malaria; and chronic diseases, like diabetes, 
cancer, and autoimmune diseases. In recent years, immunologists have 
also been studying the immune response to natural infectious organisms 
that may be modified for use as agents of bioterrorism, including 
plague, smallpox, and anthrax. As described below, this crucial work is 
already bearing fruit.

          RECENT SCIENTIFIC DISCOVERIES: BLOCKBUSTERS AND HOPE

    The past year has brought tremendous advances in vaccine 
development, with promising results in preliminary clinical trials of a 
vaccine for HIV/AIDS. The vaccine has been shown to be safe and to 
stimulate cellular immune responses against HIV in more than half of 
the subjects. Scientists have also discovered that the chickenpox 
vaccine can be given to adults in order to prevent the occurrence of 
painful shingles in later years. The hallmark of recent vaccine 
research was the final FDA approval of the first vaccine against 
cancer, a vaccine for HPV (Human Papillomavirus). HPV infects over 8 
percent of women aged 15-50 and can cause cervical cancer; the new 
vaccine is efficacious both in preventing primary infection and 
importantly, in reducing the incidence of cervical cancer.
    Immunologists have also made novel insights into understanding 
``innate'' or ``natural'' immune responses (those that do not require 
immunization or prior exposure) and the role of soluble factors in 
inflammation; this has helped scientists discover what appears to have 
made the 1918 influenza strain so deadly. This discovery may lead to 
more effective life-saving treatments for influenza patients and will 
also have broader implications for diseases caused by pandemic 
influenza, other viruses and bacteria. This and other such advances 
depend on substantial, reliable, and sustained public investment in 
basic immunological research.
     but the nih budget has gone down, threatening ongoing progress
    AAI is very grateful to this subcommittee and the Congress for its 
successful bipartisan effort to double the NIH budget from fiscal year 
1999 to fiscal year 2003. This unprecedented commitment by the Federal 
Government to biomedical research allowed scientists to grow the 
research enterprise and train new young investigators. Researchers had 
begun to capitalize on many important advances, leading to increased 
translational and clinical applications. Unfortunately, this momentum 
has already been hampered by sub-inflationary budget increases since 
fiscal year 2003.\5\ As a result, although the NIH budget has slightly 
increased (from $27.067 billion in fiscal year 2003 to $28.931 billion 
in fiscal year 2007), NIH has already lost about 8.5 percent in 
purchasing power since fiscal year 2003. This loss in purchasing power, 
which would grow to about 13.3 percent if the President's fiscal year 
2008 budget were approved,\6\ is already having a devastating effect:
---------------------------------------------------------------------------
    \5\ NIH funding increases since the doubling period ended [fiscal 
year 2004 (3.03 percent), fiscal year 2005 (2.18 percent) and fiscal 
year 2006 (-.12 percent)] have all been below the ``Biomedical Research 
and Development Price Index (``BRDPI''), a U.S. Department of Commerce 
annual estimate of the cost of inflation for biomedical research. U.S. 
Department of Health and Human Services memo dated February 5, 2007: 
``Biomedical Research and Development Price Index: Fiscal Year 2006 
Update and Projections for Fiscal Year 2007-2012.'' http://
officeofbudget.od.nih.gov/PDF/BRDPI_letter_25_07.pdf http://
officeofbudget.od.nih.gov/BRDPI_2_5_07.pdf
    \6\ The President's fiscal year 2008 budget cuts the NIH budget by 
about $529 million.
---------------------------------------------------------------------------
    1. Key NIH Institutes have already had to drop their RO1 paylines 
to 10-14 percent, significantly below the approximately 22 percent 
funded during the doubling. With funding so low, even outstanding grant 
applications are not being funded on their first submission, forcing 
even the most successful senior investigators to spend valuable time on 
revising and resubmitting their applications.
    2. The President's budget would provide no inflationary increases 
for direct, recurring costs in non-competing Research Project Grants 
(RPGs), for the 3rd straight year.
    3. Although the fiscal year 2007 Joint Funding Resolution provides 
$91 million to fund 1,500 first-time investigators, the President's 
fiscal year 2008 budget will either be unable to sustain that promising 
new effort, or will do so at the expense of funding established 
investigators.
    4. The President's budget would not permit increases in already 
inadequate stipends and benefits for post-doctoral fellows, whose work 
is critical to today's established investigators and who will be the 
principal scientists of tomorrow.
    The President's fiscal year 2008 budget would have rapid and long-
term adverse repercussions on Americans' health and the national 
economy: in addition to their terrible human toll, disease and 
disability cost society trillions of dollars annually in medical care, 
lost wages and benefits, and lost productivity.\7\ The President's 
budget would also jeopardize the future of the biomedical research 
enterprise: our brightest young people will be deterred from pursuing 
biomedical research careers if their chances of receiving an NIH grant, 
or of being able to sustain a career as an NIH-funded scientist, do not 
improve. If we are unable to attract and retain the best young minds, 
the United States will lose more of its senior scientists, as well as 
its preeminence in medical research, science, and technology, to 
nations (including India, Singapore, and China) that are already 
investing heavily in this essential economic sector.
---------------------------------------------------------------------------
    \7\ National health expenditures cost $3.28 trillion in 2006 and 
are projected to rise to $4.1 trillion in 2016. U.S. Department of 
Health and Human Services--Centers for Medicare and Medicaid Services 
National Health Expenditure Data http://www.cms.hhs.gov/
NationalHealthExpendData/downloads/proj2006.pdf http://www.cms.hhs.gov/
NationalHealthExpendData/downloads/highlights.pdf
---------------------------------------------------------------------------
   AAI RECOMMENDS A 6.7 PERCENT BUDGET INCREASE FOR FISCAL YEAR 2008

    AAI urges the subcommittee to increase the NIH budget by 6.7 
percent ($1.9 billion) in fiscal year 2008, to $30.8 billion. This 
increase, which is only 3 percent above the projected rate of 
biomedical research inflation,\8\ would begin to restore the loss in 
purchasing power that has occurred since the NIH budget doubling ended 
in fiscal year 2003. (Full restoration will require that NIH also 
receive 6.7 percent increases in fiscal year 2009 and fiscal year 
2010.)
---------------------------------------------------------------------------
    \8\ See Footnote 5, supra. The BRDPI for fiscal year 2008 is 
projected to be 3.7 percent.
---------------------------------------------------------------------------
         real and immediate threats: influenza and bioterrorism
    Seasonal influenza leads to more than 200,000 hospitalizations and 
about 36,000 deaths nationwide in an average year. Moreover, an 
influenza pandemic as serious as the one that occurred in 1918 could 
result in the illness of almost 90 million Americans and the death of 
more than 2 million, at a projected cost of $683 billion.\9\ And yet, 
while one potential pandemic influenza strain, H5N1 (avian influenza), 
has already killed more than 150 people around the world, the 
President's fiscal year 2008 NIH budget will permit NIAID to devote 
only $223.2 million to influenza ($11.5 million more than fiscal year 
2007). This is an insufficient increase for the agency with primary 
responsibility for both the scientific research and clinical trials 
needed to develop vaccines, antiviral drugs, and diagnostic tools to 
combat both seasonal and pandemic influenza.\10\
---------------------------------------------------------------------------
    \9\ A report issued by Trust for America's Health (``Pandemic Flu 
and the Potential for U.S. Economic Recession'') predicts that a severe 
pandemic flu outbreak could result in the second worst recession in the 
United States since World War II, resulting in a drop in the U.S. Gross 
Domestic Product of over 5.5 percent.
    \10\ The Department of Health and Human Services Pandemic Influenza 
Preparedness and Response Plan gives primary responsibility to NIH, and 
specifically to NIAID.
---------------------------------------------------------------------------
    AAI is also concerned that the President's fiscal year 2008 NIH 
budget leaves inadequate funding for biodefense research; the $1.7 
billion allocated represents a net decrease of 0.4 percent (4.1 percent 
after accounting for projected inflation) from fiscal year 2007. 
Although the availability of non-recurring construction costs will 
allow NIAID to devote an additional $17 million to this research, this 
inadequate increase is restricting research into the human response to 
the many natural and man-made pathogens that could be used for 
nefarious purposes.
    AAI strongly believes that the best preparation for a pandemic or 
bioterrorism is to focus on basic research: for a pandemic, the focus 
should be on seasonal flu, including building capacity, pursuing new 
production methods (cell based), and seeking optimized flu vaccines and 
delivery methods. For bioterrorism, the focus should be on identifying 
new pathogens, understanding the immune response, and developing tools 
(including new and more potent vaccines) to protect against the 
pathogen.\11\
---------------------------------------------------------------------------
    \11\ The President's fiscal year 2008 HHS budget requests only $211 
million for the Biomedical Advanced Research and Development Agency 
(``BARDA''), a new agency established to foster the translation of NIH 
research into development of medical and bioterrorism countermeasures. 
AAI is concerned that if BARDA's budget is inadequate to support its 
work, NIH may be forced to assume either duties or costs for BARDA.
---------------------------------------------------------------------------
The new ``National Institutes of Health (NIH) Reform Act of 2006''
    The NIH Reform Act of 2006 calls for the establishment of a 
Division of Portfolio Analysis and Strategic Initiatives to better 
analyze NIH's portfolio, provide leadership and coordination for trans-
NIH research initiatives (including the NIH ``Roadmap for Medical 
Research''), and fund new trans-NIH initiatives through a ``Common 
Fund''. Although AAI supports this effort to improve NIH analysis and 
management, AAI urges (1) that the funds allocated to the Common Fund 
not grow faster than the overall NIH budget, and (2) that all Common 
Fund awards/grants be awarded through a rigorous peer review process.
The NIH effort to require all grantees to give NIH author manuscripts
    AAI strongly opposes any effort to require NIH grantees to submit 
to NIH manuscripts reporting research funded by NIH. Rather, AAI 
believes that NIH should partner with not-for-profit scientific 
publishers to provide public access to NIH-funded research results 
rather than to duplicate, at great cost to NIH and taxpayers, services 
which are already provided cost-effectively and well by the private 
sector. AAI urges the subcommittee to require NIH to work with the not-
for-profit scientific publishing community to develop a plan to enhance 
public access that addresses publishers' concerns, including ensuring 
journals' continued ability to provide high quality, independent peer 
review of NIH-supported research.
Preserving high quality peer review and ensuring the independence of 
        science
    Millions of lives--as well as the prudent use of taxpayer dollars--
depend on the independence of scientists and the willingness of 
government officials to accept the best, most independent scientific 
advice available. AAI urges this subcommittee to ensure that funds 
expended enhance the ability of scientists to provide independent 
scientific advice (particularly on government advisory panels) and to 
ensure the vigor of peer review, whether through the NIH peer review 
system or by supporting the vitality of independent scientific journals 
which provide independent, expert peer review of taxpayer funded 
research.
Ensuring NIH operations and oversight
    AAI is concerned that the President's fiscal year 2008 budget 
proposal for Research, Management and Services (RM&S), which supports 
the management, monitoring, and oversight of all research activities 
(including NIH's peer review process), receives an increase of only $10 
million (89 percent). AAI urges the subcommittee to explore whether 
this sub-inflationary increase will harm NIH's ability to supervise a 
portfolio of increasing size and complexity, and to ensure that NIH 
funds are well and properly spent.

                               CONCLUSION

    AAI greatly appreciates this opportunity to submit testimony and 
thanks the members of the subcommittee for their strong support for 
biomedical research, the NIH, and the scientists who devote their lives 
to preventing, treating, and curing disease.
                                 ______
                                 
       Prepared Statement of the American Association of Museums

    Chairman Harkin, Senator Specter and distinguished members of the 
subcommittee, the American Association of Museums (AAM) appreciates the 
opportunity to submit testimony on the fiscal year 2008 budget for the 
museum program at the Institute of Museum and Library Services (IMLS). 
This agency is the primary Federal entity devoted to assisting museums 
in fulfilling their role as centers for lifelong learning for all 
Americans. We respectfully request your approval of the 
administration's budget request of $39.897 million for grants to 
museums administered through the Office of Museum Services and the 
agency's overall budget request of $271.246 million, which reflects a 
strong endorsement of the vital public service role museums play in 
their communities.
    The American Association of Museums has been bringing museums 
together since 1906, helping to develop standards and best practices, 
gathering and sharing knowledge, and providing advocacy on issues of 
concern to the entire museum community. AAM currently represents more 
than 15,000 individual museum professionals and volunteers, 3,000 
institutions, and 300 corporate members.
    Our Nation's museums are vital community assets. With more than 
17,000 institutions collectively holding our Nation's cultural and 
natural heritage, they serve as a catalyst for our citizens to pursue a 
greater understanding of the world around them. Every day museums save 
the memories of our civilization and help create new memories for our 
visitors. We feed preschoolers' imaginations at children's museums; 
engage elementary school students in learning about art, history and 
science; provide teenagers and college students with opportunities to 
share new found knowledge as tour guides and floor staff; stimulate 
adult learning with lectures on wide array of topics; and offer 
grandparents a place to share memories and stories with their 
grandchildren.
    Within your own State, you could easily name with pride the many 
museums in the communities you serve such as the Dubuque County 
Historical Society's Mississippi River Museum and Aquarium in Iowa or 
the Franklin Institute in Philadelphia. The vast majority of museums 
operate as private nonprofit organizations with nominal government 
funding unlike other community assets such as schools and libraries. 
According to our most recent financial survey, nonprofit museums 
receive approximately 16 percent of their budget from local, State, and 
the Federal Government. The bulk of their income is derived from 
private philanthropy in the form of donations, grants and corporate 
sponsorships and earned income from admission and gift shop sales.
    It is critical, therefore, that the Federal Government continue to 
show leadership by supporting investments to advance America's museums 
in four important areas--caring for and conserving our collections, 
improving museum programs and operations, supporting museum 
professional's development, and conducting research and collecting data 
to help policymakers, museum trustees and leaders make smart decisions.

               CARING FOR AND CONSERVING OUR COLLECTIONS

    The Heritage Health Index, an example of IMLS-supported research, 
documented the condition of America's collections held in our Nation's 
museums, libraries, archives, historical societies and scientific 
research organizations. It is the first comprehensive survey ever 
conducted of the condition and preservation needs of our Nation's 
collections. Through the survey we learned that more than 630 million 
artifacts--works of art, historic objects, photographs, natural science 
specimens, books and periodicals--are at risk and require immediate 
attention and care.
    As a result of this study, IMLS has made a commitment to increase 
public awareness and support for collections care. A national 
conservation summit will be held here in Washington this spring with 
future forums planned in four cities across the country to discuss this 
issue. We are excited at the prospect of increasing attention to this 
issue, as museums are responsible for the care of hundreds of millions 
of works of art, artifacts, and scientific specimens, which continue to 
grow in numbers.
    Information related to collections stewardship continues to be the 
most frequently requested area where AAM members seek guidance on 
professional standards and best practices. Resources for collections 
care are often limited, especially in our small and mid-size 
institutions, due in part to the behind-the-scenes nature of the work. 
It is not well understood by the public and private funders. We are 
hopeful that a renewed commitment to and increased public awareness 
will bring new resources to museums to address the preservation and 
conservation needs that make public exhibitions possible.
    IMLS assists museums with collections issues by providing 
consultation services through the Conservation and Museum Assessment 
Programs and financial assistance through the Conservation Project 
Support program to help ensure some basic safekeeping of museum 
collections. The demand for this support regularly exceeds the funds 
available. In fiscal year 2006, IMLS received 144 grant applications 
and funded only 40 projects. Recipients matched the nearly $2.8 million 
IMLS awarded with an additional $4.6 million. The grants are helping 
these museums examine, document, treat, stabilize, and restore their 
collections. For example, IMLS supported a detailed conservation survey 
by the Putnam Museum of History and Natural Science in Davenport, Iowa 
of its approximately 800 lacquered and wood objects in their Japanese 
and Chinese collections.

                IMPROVING MUSEUM PROGRAMS AND OPERATIONS

    Since its inception, AAM has served as a forum for discussing, 
developing, disseminating, and measuring museum performance standards. 
In 1967, President Lyndon B. Johnson asked the U.S. Federal Council on 
the Arts and Humanities to conduct a study on the status of American 
museums and recommend ways to support and strengthen them. From this 
study, America's Museums: The Belmont Report, the AAM accreditation 
program was born. In 1971 AAM first recognized the achievement of 16 
museums in meeting the highest standards of the profession. The 
Accreditation program continues to evolve. Over the past three decades, 
the program has been a critical tool in advancing the entire museum 
field, insured transparency and good governance to help museums operate 
in the best interest of the public.
    As our partner in helping museums achieve excellence, IMLS has 
supported the Museum Assessment Program (MAP). MAP helps museums 
maintain and improve their operations. Museums participating in the 
program learn their strengths and weaknesses, receive guidance on how 
to improve their operations and set institutional priorities. The 
public benefits by having museums that are striving to improve their 
operations so they are in a better position to serve them through their 
public programs and fulfilling their collections stewardship 
responsibilities.
    IMLS also supports museums in their efforts to continue to improve 
and expand their public service through the Museums for America 
program. In the program's first 3 years, fiscal year 2004-fiscal year 
2006, more than 500 grants totaling $50.2 million have been awarded. 
The flexibility of the program has been invaluable to our museums. It 
allows them to apply for funds to address those high-priority 
activities that advance their institution's strategic plans. Grants 
have helped museums deal with a range of issues such as behind-the-
scenes collections management projects and staff training, investments 
in digital technology to broaden public access, planning new public 
programs, and improving visitor experiences. In fiscal year 2006, the 
agency received 425 eligible grant applications and only 177 awards 
could be made.
    Among those who were successful, the Children's Museum of 
Pittsburgh received support for improving its ``Real Stuff'' exhibits 
which are at the heart of the museum. The museum is seeking to make 
changes to areas which have low levels of visitor engagement. 
Modifications and new exhibits will be based on evaluations from its 
partnership with the University of Pittsburgh Center for Learning in 
Out-of-School Environments.

               SUPPORTING MUSEUM PROFESSIONAL DEVELOPMENT

    While museums have long supported the public pursuit of lifelong 
learning, the staff of museums must also continue to learn. Building 
the 21st century museum workforce is critical to ensure that museums 
have both intellectual leadership and financial stability to carry out 
their mission. The skills required of today's museum directors have 
changed. In the past, trustees sought individuals with a scholarly 
knowledge in the area of the museum's collection. Today museum boards 
are primarily looking for strategic thinkers, excellent communicators, 
and outstanding fundraisers who have energy, creativity, and an 
entrepreneurial focus. Museum operations have grown more complex and 
their leaders need much broader business skills.
    Successful museum directors also need capable professionals who 
have the skills and knowledge to both move the institution forward and 
attend to the daily operations of running a museum. According to AAM's 
most recent financial survey, the median number of employees in a 
museum is 6 full-time and 4 part-time paid staff with 60 volunteers. 
This includes curators, educators, registrars, accountants, marketing 
and development professionals with some wearing more than one hat. 
Unlike our business counterparts, nonprofit museums are not investing 
time and money to develop and train their staff. Unfortunately, 
resources for training and career development are scarce. We see this 
as a looming problem as museums compete with other nonprofits to find 
and hire future leaders from a shrinking pool of qualified applicants.
    In creating the 21st Century Museum Professionals program, IMLS is 
just beginning to help our field identify strategies for addressing 
these challenges. In the first year of the program, IMLS received 55 
applications but only had the resources to award four grants. There is 
much work to be done. We urge you to provide the $2.14 million request 
by the agency and to consider increasing future investment in workforce 
development substantially.

                CONDUCTING RESEARCH AND COLLECTING DATA

    It is critical for IMLS to conduct research that assists museum 
professionals in making critical decisions about their daily 
operations, demonstrating their public value, ensuring their long-term 
viability and most effectively meet the needs of the diverse 
communities they serve. We need basic census data about museums, such 
as how many museums there are in the United States, how many people 
work in museums (both paid, professional staff and volunteers), and how 
many people visit museums annually. A commitment to regular data 
collection is critical to identifying trends that would inform 
decision-making by IMLS and the museum community.
    For example the 2002 IMLS study, ``True Needs, True Partners'', 
about museums serving schools, documented not only the growth in the 
number of schools, students and teachers served, but also the changing 
nature of the services provided by museums. This research has helped 
museum professionals and their school partners understand the evolving 
nature of their work and documented the growing financial commitment 
museums have made to public education and how museums have expanded the 
learning experience for K-12 students.
    A number of other topics should be the subject of future research, 
such as: measuring the social contributions of museums at the national 
level; studying the skills necessary to be a 21st century museum 
professional; supporting field research that collects core data, such 
as financial benchmarks and attendance figures; and examining areas of 
special interest to segments of the museum field. We need this 
information and data so that museum leaders and trustees, policy makers 
at all levels of government and private funders can make informed 
decisions about the future of our Nation's more than 17,000 museums.

                               CONCLUSION

    We recognize that you face difficult choices in allocating 
resources. Our appeal is to ask you to consider what we lose if we do 
not continue to invest in our Nation's museums. The public places a 
great trust in our ability to preserve not only physical artifacts, but 
more importantly the stories and memories of our people and our Nation. 
We need museums where you can learn about the past and dream of the 
future, explore the smallest bugs to the vast expanses of our universe, 
and experience awe and wonder in the beauty of our world. We cannot do 
this alone. Working together we can and will continue to inspire future 
generations of citizens to become thoughtful leaders, creative 
entrepreneurs, scientists, artists and educators.
                                 ______
                                 
  Prepared Statement of the American Association of Nurse Anesthetists

    The AANA is the professional association for more than 36,000 
Certified Registered Nurse Anesthetists (CRNAs) and student nurse 
anesthetists representing over 90 percent of the nurse anesthetists in 
the United States. Today, CRNAs are directly involved in delivering 27 
million anesthetics given to patients each year in the United States. 
CRNA services include administering the anesthetic, monitoring the 
patient's vital signs, staying with the patient throughout the surgery, 
as well as providing acute and chronic pain management services. CRNAs 
provide anesthesia for a wide variety of surgical cases and are the 
sole anesthesia providers in almost 70 percent of rural hospitals, 
affording these medical facilities obstetrical, surgical, and trauma 
stabilization, and pain management capabilities. CRNAs work in every 
setting in which anesthesia is delivered including hospital surgical 
suites and obstetrical delivery rooms, ambulatory surgical centers 
(ASCs), pain management units and the offices of dentists, podiatrists 
and plastic surgeons.
    Nurse anesthetists are experienced and highly trained anesthesia 
professionals whose record of patient safety in the field of anesthesia 
was bolstered by the Institute of Medicine report that found in 2000, 
that anesthesia is 50 times safer than 20 years previous. (Kohn L, 
Corrigan J, Donaldson M, ed. To Err is Human. Institute of Medicine, 
National Academy Press, Washington, DC, 2000.) Nurse anesthetists 
continue to set for themselves the most rigorous continuing education 
and re-certification requirements in the field of anesthesia. Relative 
anesthesia patient safety outcomes are comparable among nurse 
anesthetists and anesthesiologists, with Pine having recently 
concluded, ``the type of anesthesia provider does not affect inpatient 
surgical mortality.'' (Pine, Michael MD et al. Surgical mortality and 
type of anesthesia provider. Journal of American Association of Nurse 
Anesthetists. Vol. 71, No. 2, p. 109-116. April 2003.) Even more 
recently, obstetrical anesthesia, whether provided by Certified 
Registered Nurse Anesthetists (CRNAs) or anesthesiologists, is 
extremely safe, and there is no difference in safety between hospitals 
that use only CRNAs compared with those that use only 
anesthesiologists, according to the results of a new study published in 
the January/February issue of Nursing Research (Vol. 56, No. 1, pp. 9-
17). In addition, a recent AANA workforce study's data showed that 
CRNAs and anesthesiologists are substitutes in the production of 
surgeries. Through continual improvements in research, education, and 
practice, nurse anesthetists are vigilant in their efforts to ensure 
patient safety.
    CRNAs provide the lion's share of the anesthesia care required by 
our U.S. Armed Forces through active duty and the reserves, from here 
at home to the leading edge of the field of battle. In May 2003, at the 
beginning of ``Operation Iraqi Freedom'' 364 CRNAs were deployed to the 
Middle East to ensure military medical readiness capabilities. For 
decades, CRNAs have staffed ships, remote U.S. military bases, and 
forward surgical teams without physician anesthesiologist support.

      IMPORTANCE OF TITLE VIII NURSE ANESTHESIA EDUCATION FUNDING

    The nurse anesthesia profession's chief request of the subcommittee 
is for $4 million to be reserved for nurse anesthesia education and $76 
million for advanced education nursing from the Title VIII program. 
This sustained funding is justified by two facts. First, there is a 
vacancy rate of nurse anesthetists in the United States impacting 
people's healthcare. Second, the Title VIII program, which has been 
strongly supported by members of this subcommittee in the past, is an 
effective means to help address the nurse anesthesia workforce demand. 
This demand for CRNAs is something that the nurse anesthesia profession 
addresses every day with success, and with the critical assistance of 
Federal funding through HHS' Title VIII appropriation.
    The administration's 2008 budget eliminates funding for Advanced 
Education Nursing. We believe that nursing and nursing education 
workforce needs are such that this funding must not be eliminated, but 
preserved and increased for 2008 to meet patient care needs.
    The increase in funding for advanced education nursing from $58 
million to $76 million is necessary to meet the continuing demand for 
nursing faculty and other advanced education nursing services 
throughout the United States. Only a limited number of new programs and 
traineeships can be funded each year at the current funding levels. The 
program provides for competitive grants and contracts to meet the costs 
of projects that support the enhancement of advanced nursing education 
and practice and traineeships for individuals in advanced nursing 
education programs. This funding is critical to the efforts to meet the 
nursing workforce needs of Americans who need healthcare.
    In 2003, the AANA conducted a nurse anesthesia workforce study that 
found a 12 percent vacancy rate in hospitals for CRNAs, and a lower 
vacancy rate in ambulatory surgical centers. The supply has increased 
in recent years, stimulated by increases in the number of CRNAs 
trained. However, there is a reasonable question of whether these 
increases are enough to offset the number of CRNAs intending to retire 
over the next few years. The retirement of baby boomers, both among 
patients and CRNAs alike, requires a continuous growth in the number of 
nurse anesthesia graduates to meet anticipated demand for anesthesia 
services.
    The problem is not that our 105 accredited programs of nurse 
anesthesia are failing to attract qualified applicants. They have to 
turn them away by the hundreds, because the capacity of nurse 
anesthesia educational programs to educate qualified applicants is 
limited by the number of faculty, the number and characteristics of 
clinical practice educational sites, and other factors. A qualified 
applicant to a CRNA program is a bachelor's educated registered nurse 
who has spent at least 1 year serving in an acute care healthcare 
practice environment. Nurse anesthesia educational programs are located 
all across the country including the following:

------------------------------------------------------------------------
                                                              No. of
                                                            Accredited
                          State                                Nurse
                                                            Anesthesia
                                                             Programs
------------------------------------------------------------------------
PA......................................................              12
FL......................................................               8
OH......................................................               5
TX......................................................               5
IL......................................................               5
NY......................................................               4
CA......................................................               3
CT......................................................               3
MD......................................................               3
RI......................................................               2
WI......................................................               1
------------------------------------------------------------------------

    Recognizing the importance of nurse anesthetists to quality 
healthcare, the AANA has been working with the 105 accredited programs 
of nurse anesthesia to increase the number of qualified graduates. In 
addition, the AANA has worked with nursing and allied health deans to 
develop new CRNA programs.
    The Council on Certification of Nurse Anesthetists (CCNA) reports 
that in 1999, our schools produced 948 new graduates. In 2005, that 
number had increased to 1,790, an 89 percent increase in just 5 years. 
This growth is expected to continue. The CCNA projects CRNA programs to 
produce over 2,000 graduates in 2007.
    To truly meet the nurse anesthesia workforce challenge, the 
capacity and number of CRNA schools must continue to expand. With the 
help of competitively awarded grants supported by Title VIII funding, 
the nurse anesthesia profession is making significant progress, 
expanding both the number of clinical practice sites and the number of 
graduates.
    The AANA is pleased to report that this progress is extremely cost-
effective from the standpoint of Federal funding. Anesthesia can be 
provided by nurse anesthetists, physician anesthesiologists, or by 
CRNAs and anesthesiologists working together. As mentioned earlier, the 
study by Pine et al confirms, ``the type of anesthesia provider does 
not affect inpatient surgical mortality.'' Yet, for what it costs to 
educate one anesthesiologist, several CRNAs may be educated to provide 
the same service with the same optimum level of safety. Nurse 
anesthesia education represents a significant educational cost/benefit 
for supporting CRNA educational programs with Federal dollars vs. 
supporting other models of anesthesia education.
    To further demonstrate the effectiveness of the Title VIII 
investment in nurse anesthesia education, the AANA surveyed its CRNA 
program directors in 2003 to gauge the impact of the Title VIII 
funding. Of the eleven schools that had reported receiving competitive 
Title VIII Nurse Education and Practice Grants funding from 1998 to 
2003, the programs indicated an average increase of at least 15 CRNAs 
graduated per year. They also reported on average more than doubling 
their number of graduates, who provide care to patients during and 
following their education. Moreover, they reported producing additional 
CRNAs that went to serve in rural or medically underserved areas. Under 
both of these circumstances, an increased number of student nurse 
anesthetists and CRNAs are providing healthcare to the people of 
medically underserved America.
    We believe it is important for the subcommittee to allocate $4 
million for nurse anesthesia education for several reasons. First, as 
this testimony has documented, the funding is cost-effective and well 
needed. Second, the Title VIII authorization previously providing such 
a reserve expired in September 2002. Third, this particular funding is 
important because nurse anesthesia for rural and medically underserved 
America is not affected by increases in the budget for the National 
Health Service Corps and community health centers, since those 
initiatives are for delivering primary and not surgical healthcare. 
Lastly, this funding meets an overall objective to increase access to 
quality healthcare in medically underserved America.

       TITLE VIII FUNDING FOR STRENGTHENING THE NURSING WORKFORCE
 
   The AANA joins a growing coalition of nursing organizations, 
including the Americans for Nursing Shortage Relief (ANSR) Alliance and 
representatives of the nursing community, and others in support of the 
subcommittee providing a total of $200 million in fiscal year 2008 for 
nursing shortage relief through Title VIII. This amount is 
approximately $51 million over the fiscal year 2007 level and $95 
million above the President's fiscal year 2008 budget.
    Every district in America is familiar with the importance of 
nursing. The AANA appreciates the support for nurse education funding 
in fiscal year 2007 and past fiscal years from this subcommittee and 
from the Congress.
    The need for strengthening nurse educational funding to strengthen 
our healthcare is clear. According to the Office of the Actuary at the 
Centers for Medicare & Medicaid Services, America spent about $2 
trillion on healthcare in the most recent year for which the agency had 
records, the year 2005. About $342 billion of that was from Medicare 
outlays. Medicaid spending was $313 billion. The Congressional Budget 
Office States that Medicare directs about $8.7 billion of its outlays 
to Graduate Medical Education (GME), of which $2.3 billion was Direct 
GME. Approximately 99 percent of that educational funding helps to 
educate physicians and allied health professionals, and about 1 percent 
is allocated to help educate nurses.
    In the interest of patients past and present, particularly those in 
rural and medically underserved parts of this country, we ask Congress 
to reject cuts from Federal investments in CRNA and nursing educational 
funding programs, and to provide these programs the sustained increases 
required to help ensure Americans get the healthcare that they need and 
deserve. Quality anesthesia care provided by CRNAs saves lives, 
promotes quality of life, and makes fiscal sense. This Federal support 
for nurse education will improve patient access to quality services and 
strengthen the Nation's healthcare delivery system.
    Thank you.
                                 ______
                                 
           Prepared Statement of the American Brain Coalition

                              INTRODUCTION

    The National Institutes of Health (NIH) is the world's leader in 
medical discoveries that improve people's health and save lives. NIH-
funded scientists investigate ways to prevent, treat, and even cure the 
complex diseases of the brain. Because there is much work still to be 
done, the American Brain Coalition writes to ask for your support for 
biomedical research funding at NIH.

                 WHAT IS THE AMERICAN BRAIN COALITION?

    The American Brain Coalition (ABC) is a nonprofit organization that 
seeks to reduce the burden of brain disorders and advance the 
understanding of the functions of the brain. The ABC, made up of nearly 
50 member organizations, brings together afflicted patients, the 
families of those that suffer, the caregivers, and the professionals 
that research and treat diseases of the brain.
    The brain is the center of human existence, and the most complex 
living structure known. As such, there are thousands of brain diseases 
from Rett Syndrome and autism to dystonia and Parkinson's disease. ABC, 
unlike any other organization, brings together people affected by all 
diseases of the brain.
    The ABC is working toward the same level of public awareness and 
support for diseases of the brain that has been achieved by the 
American Heart Association and the American Cancer Society. Fifty 
million Americans--our relatives, friends, neighbors, and your 
constituents--are affected by diseases of the brain. Our goal is to be 
a united voice for these patients, and to work with Congress to 
alleviate the burden of brain disease. A large part of that goal 
involves support for NIH research.

                       THANK YOU FOR PAST SUPPORT

    The American Brain Coalition would like to thank the members of 
this subcommittee for their past support, which resulted in the 
doubling of NIH budget between 1998 and 2003.
    In addition, we are extremely grateful that the fiscal year 2007 
Joint Resolution included an additional $620 million for NIH above the 
fiscal year 2006 funding level. This additional money will allow NIH to 
award an extra 500 research grants. It will also create a new program 
to support innovative, outside-the-box research, as well as to provide 
grants to first-time investigators.
    The doubling of the NIH budget produced advances in the Nation's 
health. Since 2003, however, many policymakers have mistakenly come to 
think that NIH ``has been taken care of.'' As a result, NIH has been 
relatively flat funded since that time.
    Despite the doubling of the budget and the many advances in 
scientific knowledge, there is still much work to be done to uncover 
the mysteries of the brain. The recent start-stop funding approach has 
made efficient research planning extremely difficult, has disrupted 
steady progress, and must be reversed.

                     NIH-FUNDED RESEARCH SUCCESSES

    Today, scientists have a greater understanding of how the brain 
functions due to NIH-funded research. The following are just a few 
areas where research efforts have improved the health of the American 
public:
  --Post Traumatic Stress Disorder (PTSD).--Experiencing or witnessing 
        a crime, terrorist attack, being a victim of sexual abuse, or 
        military combat can lead to a form of stress that can last a 
        life-time. Termed, PTSD, the condition afflicts 5.2 million 
        Americans aged 18 to 54 each year. Its social and economic 
        costs can be devastating. Almost half of the Vietnam veterans 
        with PTSD have been arrested or jailed. With the ongoing wars 
        in Iraq and Afghanistan, the incidence of PTSD is rising.
      For years it was thought that those who survived or witnessed a 
        trauma should be able to tough it out and move on. But NIH-
        funded studies helped reveal that PTSD is a serious brain 
        disorder with biological underpinnings. For example, scientists 
        determined that the part of the brain involved in learning, 
        memory, and emotion appears to be smaller in people with PTSD 
        and that levels of some brain chemicals are altered. These 
        changes are believed to be caused by increased stress hormones 
        from a traumatic event and by the constant reliving of the 
        event.
      New understanding of the disorder paved the way for use selective 
        serotonin reuptake inhibitors in treating PTSD. Studies funded 
        by NIH found that these drugs ease the symptoms of depression 
        and anxiety and improve the memory of patients with PTSD, 
        helping them better deal with traumatic memories. Talking with 
        a counselor or therapist can also help PTSD victims to cope.
  --Multiple Sclerosis.--Multiple sclerosis (MS) strikes people during 
        the prime of their lives, right as they are settling into their 
        careers and families. About 400,000 Americans have multiple 
        sclerosis, and every week an estimated 200 more are diagnosed. 
        Multiple sclerosis costs Americans $9.5 billion in medical care 
        and lost productivity each year.
      In multiple sclerosis, the immune system for unknown reasons 
        mistakenly destroys the protective myelin covering around 
        nerves. Without myelin, electrical signals are transmitted more 
        slowly or not at all from the brain to the body, causing 
        weakness, tremors, pain, and loss of feeling.
      Fortunately, research funded by the NIH and others over the past 
        two decades has led to many advances that allow physicians to 
        diagnose MS earlier and better track its progress so that 
        treatments can be more effective. Imaging techniques such as 
        magnetic resonance imaging and magnetic resonance spectroscopy 
        provide a window on the brain that allows physicians to better 
        predict relapses and thus plan for patients' care.
      In addition to steroids used in the past to reduce the duration 
        and severity of attacks, there are now other drugs like 
        interferon, glatiramer acetate, and mitoxantrone that can 
        decrease disease severity. Studies have shown that these drugs 
        can make relapses less frequent and severe and delay further 
        damage from the disease.
  --Alcoholism.--Excess consumption of alcohol can ruin a person's 
        health, family life, and career. It also makes the world more 
        dangerous for the rest of society. Many accidents, assaults, 
        and robberies involve alcohol use by the offender. Society also 
        pays a high financial price. Alcohol-related problems cost the 
        country an estimated $185 billion per year.
      Until recently, there were not many options to help keep problem 
        drinkers off alcohol. Fortunately, the outlook is improving 
        steadily with the development of new medications and therapies.
      NIH-funded scientists discovered evidence that alcohol acts on 
        several chemical systems in the brain to create its alluring 
        effects. On the basis of these studies, the drug naltrexone--
        which targets one of these systems, called the opioid system--
        was approved as a treatment for alcoholism in the mid-1990s. 
        Alcohol's effect on the opioid system is thought to produce the 
        euphoric feelings that make a person want to drink again. 
        Naltrexone can block this reaction and help cut cravings for 
        alcohol in some alcoholic individuals.
      Congressional investments in research have lead to significant 
        improvements in patient care.

             RESEARCH IMPROVES HEALTH AND FUELS THE ECONOMY

    Diseases of the nervous system pose a significant public health and 
economic challenge, affecting nearly one in three Americans at some 
point in life. Improved health outcomes and positive economic data 
support the assertion that biomedical research is needed today to 
improve public health and save money tomorrow.
    Research drives innovation and productivity, creates jobs, and 
fuels local and regional economies. In fiscal year 2003, the University 
of Wisconsin Madison brought over $228 million into the State from NIH-
funded research.
    Not only does research save lives and fuel today's economy, it is 
also a wise investment in the future. For example, 5 million Americans 
suffer from Alzheimer's disease today, and the cost of caring for these 
people is staggering. Medicare expenditures are $91 billion each year, 
and the cost to American businesses exceeds $60 billion annually, 
including lost productivity of employees who are caregivers. As the 
baby boom generation ages and the cost of medical services increases, 
these figures will only grow. Treatments that could delay the onset and 
progression of the disease by 5 years could save $50 billion in 
healthcare costs each year. Research funded by the NIH is critical for 
the development of such treatments. The cost of investing in NIH today 
is minor compared to both current and future healthcare costs.

             PRESIDENT'S BUDGET NEGATIVELY IMPACTS RESEARCH

    Mr. Chairman, inflation has eaten into the NIH budget. The NIH now 
projects the Biomedical Research and Development Price Index (BRDPI) 
may increase by 3.7 percent for both fiscal year 2007 and fiscal year 
2008; 3.6 percent for fiscal year 2009 and 2010; and 3.5 percent for 
fiscal year 2011 and fiscal year 2012.
    Unfortunately, the President's fiscal year 2008 budget request for 
NIH did not factor in the increases in biomedical research inflation. 
In fact, his budget proposes to cut funding for the National Institutes 
of Health by more than a half billion dollars in fiscal year 2008.

                    FISCAL YEAR 2008 RECOMMENDATION

    The American Brain Coalition supports a 6.7 percent increase in 
funding for the National Institutes of Health in fiscal year 2008. 
Additionally, ABC supports a 6.7 percent increase in funding in per 
year in fiscal years 2009 and 2010.
    This sustained increase is necessary to make-up for lost purchasing 
power that has occurred in the past 3 years. In addition, it will help 
the NIH to achieve its broad research goals and provide hope for those 
people affected with neurological and psychiatric disorders.
    Mr. Chairman, thank you for the opportunity to submit testimony 
before this subcommittee.
                                 ______
                                 
        Prepared Statement of the American College of Cardiology

    The American College of Cardiology (ACC) appreciates the 
opportunity to provide the subcommittee with recommendations for fiscal 
year 2008 funding for life-saving cardiovascular research and public 
education. The ACC is a 34,000 member non-profit professional medical 
society and teaching institution whose mission is to advocate for 
quality cardiovascular care through education, research promotion, 
development and application of standards and guidelines, and to 
influence health care policy.

  THE NEED FOR A FEDERAL INVESTMENT IN CARDIOVASCULAR DISEASE RESEARCH

    Cardiovascular disease continues to be the leading cause of death 
for both women and men in the United States, killing more than 870,000 
Americans each year. While the number of deaths due to cardiovascular 
disease is on the decline, more than one in three Americans lives with 
some form of heart disease. The economic impact of cardiovascular 
disease on the U.S. health care system continues to grow as the 
population ages and as the prevalence of it increases, costing the 
Nation an estimated $430 billion in 2007 alone due to medical expenses 
and lost productivity.\1\
---------------------------------------------------------------------------
    \1\ American Heart Association. Heart Disease and Stroke 
Statistics--2007 Update. Dallas, Texas: American Heart Association; 
2007.
---------------------------------------------------------------------------
    The ACC is extremely concerned that the cuts proposed in the 
administration's fiscal year 2008 budget for many critical health 
agencies, particularly the National Institutes of Health (NIH), will 
negatively impact cardiovascular care. The doubling of the NIH budget 
from 1999 to 2003 resulted in a surge in demand for research grants. In 
recent years, the combination of inflation and stagnant Federal funding 
has threatened the laboratories and continuing research of established 
investigators and, by signaling a lack of Federal commitment to 
consistent funding, will discourage new investigators and new research 
initiatives.
    The ACC encourages Congress to provide a strong Federal investment 
in research and public education that addresses cardiovascular disease. 
Federal research is providing for breakthrough advances that 
fundamentally change our understanding of the prevention and treatment 
of cardiovascular disease, leading to better outcomes, decreased costs, 
and increased quality of life for patients.

              FUTURE CARDIOVASCULAR DISEASE RESEARCH NEEDS

    As the health system continues its move toward using performance 
measurement to foster the delivery of the highest quality of care to 
patients, the need for meaningful clinical guidelines, from which 
performance measures are developed, becomes even more critical.
    The performance measures that will be used to determine whether 
patients are receiving the most effective, efficient, and highest 
quality cardiovascular care are derived from clinical guidelines 
developed by the ACC and the American Heart Association (AHA). The ACC 
strives to produce the preeminent medical specialty practice 
guidelines, with more than 15 guidelines on a range of cardiovascular 
topics. They are developed through a rigorous, evidence-based 
methodology employing multiple layers of review and expert 
interpretation of the evidence on an ongoing, regular basis. Many 
clinical research questions remain unanswered or understudied, however. 
In fact, the percent of guideline recommendations that are based on 
expert opinion rather than clinical data vary by cardiovascular topic 
from only 20 percent for coronary bypass surgery to over 70 percent for 
valvular heart disease.
    To this end, through its clinical policy development process, the 
ACC has identified knowledge gaps for cardiovascular disease. These 
unresolved issues, if addressed, have great potential to impact patient 
outcomes, costs, and the efficiency of care delivery. The ACC strongly 
supports and stands committed to assist the National Heart, Lung and 
Blood Institute (NHLBI) in fulfilling its strategic plan by helping to 
promote the development and speedy implementation of evidence-based 
clinical guidelines in a manner that impacts health outcomes. All 
medicine includes a degree of uncertainty about the ability of a 
particular procedure, device, or therapy to benefit a patient. Yet, an 
investment in answering the following scientific questions through the 
NIH, and in particular the NHLBI, as well as through the Agency for 
Healthcare Research and Quality (AHRQ), will help to better narrow the 
target population who can benefit from treatment and therefore increase 
the efficacy and efficiency of the care delivered.
    1. What is the effect of common cardiovascular therapies on elderly 
populations whose metabolism and kidney function is lower and may not 
respond to medications in the same way as the younger patients 
typically included in clinical trials?
    2. What is the effect of common cardiovascular therapies on 
patients with multiple other diseases/conditions?
    3. What are the best approaches to increasing patient compliance 
with existing therapies?
    4. What screening and risk models (existing or new) could further 
define who will benefit from various therapies?
    5. What are the optimal management strategies for anticoagulation 
and antiplatelet agents in heart attack patients, patients with stents, 
and atrial fibrillation patients to maximize benefit and reduce 
bleeding risks?
    6. What are the best approaches to managing complex but 
understudied cardiovascular topics such as congenital heart disease and 
valvular heart disease? Both congenital heart disease and valvular 
heart disease have become areas of higher research interest as 
techniques have developed to extend the lives of these patients.
    7. What are the risks and benefits of common off-label uses of 
widely used therapies and procedures, such as drug eluting stents?
    8. What are the best catheter-based techniques to increase 
treatment success and reduce complications for both coronary and 
cardiac rhythm procedures?
    The list of topics above is not exhaustive but provides an overview 
of some of the general themes of the evidence gaps that exist across 
the ACC's current guidelines. In addition to specific clinical research 
topics, the ACC recommends funding to help address two structural 
issues that could help identify, prioritize, and interpret research 
findings over the long term:
    1. The NHLBI should work with the clinical cardiology community to 
proactively design clinical trials to address unanswered clinical 
questions and identify methods that allow for greater comparability 
among studies. NHLBI should work with ACC and the AHA to develop an 
evidence model that would drive future research initiatives based on 
current evidence gaps in the guidelines; and
    2. NIH should fund the development of a robust informatics 
infrastructure across Institutes to process research evidence. Studies 
should be designed such that their results could be ``fed'' into a 
computer model that would provide additional insights for developers of 
clinical recommendations.

       COLLABORATING TO IMPROVE CARDIOVASCULAR CARE AND OUTCOMES

    Facilitating the transfer of new knowledge to health care 
professionals, patients and the public is an important aspect of 
Federal research efforts. One example of NHLBI's success in this area 
is the launch last year of the new Peripheral Arterial Disease (P.A.D.) 
national campaign to increase public and health care provider awareness 
of P.A.D. and its association with other cardiovascular diseases. As 
the leader in developing the P.A.D. Guidelines, the ACC is proud to 
collaborate with the NHLBI on the ``Stay in Circulation: Take Steps to 
Learn about P.A.D.'' campaign. The ACC is promoting this important 
campaign through our membership and has formed a P.A.D. Guidelines 
Implementation Task Force that has developed tools--including wall 
charts, webcasts, and slide sets--to help physicians diagnose and treat 
the more than 8 million Americans affected by the disease.
    NHLBI and AHRQ also have been important supporters of the ``D2B: An 
Alliance for Quality'' program. The D2B Alliance is a Guidelines 
Applied in Practice (GAP) program launched by the ACC to save time and 
save lives by reducing the door-to-balloon times in U.S. hospitals 
performing primary percutaneous coronary intervention (PCI) by 
providing hospitals with key evidence-based strategies and supporting 
tools needed to begin reducing their D2B times.
    Through its Centers for Education and Research on Therapeutics 
(CERT), AHRQ has been crucial in helping fund research by ACC on its 
clinical policy development process. The CERT grant provided resources 
to help ACC better understand and adapt how its guidelines and 
performance measures are developed and disseminated. It also provided 
resources to support the development of a framework for ACC to address 
appropriateness of medical technology. This evaluation of ACC processes 
for the development of clinical policy has been an essential part of 
translating research from bench to bedside.
    Recently, ACC leadership met with the NHLBI Director and senior 
staff to discuss opportunities to collaborate on current and future 
efforts. One initiative identified as a unique opportunity to make a 
positive impact on health care quality involves enhancing the NHLBI's 
Center for the Application of Research Discoveries (CARD) through the 
use of health information technology--namely by drawing on the ACC's 
substantial expertise, from the National Cardiovascular Data Registry, 
in developing and operating electronic data registries. Bringing the 
latest discoveries in cardiovascular care to the bedside is a critical 
mission of the NHLBI and is shared by the ACC. Sufficient funding from 
Congress can foster such efforts by the NHLBI and its partners to 
provide patients with effective cutting-edge care that also holds the 
promise of reducing health care costs.

                      ACC FUNDING RECOMMENDATIONS

    As the subcommittee considers its appropriations for programs 
within the Department of Health and Human Services, the ACC urges 
support of the following fiscal year 2008 funding recommendations:
National Institutes of Health
    The ACC, along with the broad medical community, supports an fiscal 
year 2008 NIH budget of $30.869 billion that would help get the NIH 
``back on track.'' Research conducted through the NIH has resulted in 
better diagnosis and treatment of cardiovascular disease, thereby 
improving the quality of life for those living with the disease and 
lowering the number of deaths attributable to it. Adequate funding 
through the NIH is necessary for basic, clinical, and translational 
research that facilitates the delivery of new discoveries to the 
bedside.
National Heart Lung and Blood Institute
    The ACC recommends $3.1 billion for the NHLBI in fiscal year 2008 
for continuing its critical research into the causes, treatment, and 
prevention of cardiovascular disease. Congress must maintain its 
investment in NHLBI to continue the great strides already being made in 
fighting cardiovascular disease. If accepted without an increase, the 
administration's budget request for NHLBI would critically impact the 
institute's ability to fund valuable initiatives and would further harm 
its ability to attract young investigators.
Agency for Healthcare Research and Quality
    The ACC supports $350 million for the AHRQ. At a time when great 
focus is being put on comparative effectiveness research as a means to 
improve health quality, continuing and increasing the Federal 
investment in AHRQ health services research is critical.
Centers for Disease Control and Prevention's (CDC) Division for Heart 
        Disease and Stroke Prevention
    The ACC recommends $55 million for the CDC Division for Heart 
Disease and Stroke Prevention, whose public education efforts are 
making strides in the prevention of and early intervention in treating 
cardiovascular disease--thereby potentially reducing future care costs 
significantly.
Health Resources and Services Administration (HRSA) Rural and Community 
        Access to Emergency Defibrillation (AED) Program
    The ACC supports $8.9 million in fiscal year 2008 for the HRSA 
Rural and Community AED program, an important initiative that saves 
lives by placing external defibrillators in public facilities.
    The ACC urges Congress to provide a strong fiscal year 2008 
investment in the cardiovascular research and education programs 
described above to continue fostering the great strides being made in 
the fight against all cardiovascular disease. If you have any 
questions, please contact Jennifer Brunelle at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="600a0212150e050c0c200103034e0f1207">[email&#160;protected]</a> or 
(202) 375-6477.
                                 ______
                                 
    Prepared Statement of the American College of Obstetricians and 
                             Gynecologists

    The American College of Obstetricians and Gynecologists (ACOG), 
representing 51,000 physicians and partners in women's health care, is 
pleased to offer this statement to the Senate Committee on 
Appropriations, Subcommittee on Labor, Health and Human Services, and 
Education. We thank Chairman Harkin, ranking member Specter, and the 
entire subcommittee for their leadership to continually address 
maternal and child health care services.
    The Nation has made important strides to improve women and 
children's health over the past several years, and ACOG is grateful to 
this committee for its commitment to ensure that vital research 
continues to eliminate disease and to ensure valuable new treatment 
discoveries are implemented. The NIH has examined and determined many 
disease pathways, while the Health Resources and Services 
Administration (HRSA) and the Centers for Disease Control and 
Prevention (CDC) have been successful in translating research findings 
into valuable public health policy solutions. This dedicated commitment 
to elevate, promote and implement medical research faces an uncertain 
future at a time when scientists are on the cusp of new cures.
    We urge the committee to support a 6.7 percent increase for the 
National Institutes of Health (NIH), and a 6.7 percent increase for the 
National Institute of Child Health and Human Development (NICHD) in 
fiscal year 2008. We also continue to support efforts to secure 
adequate funds for important public health programs at HRSA ($7.5 
billion) and the CDC ($10.7 billion including funding for the Agency 
for Toxic Substances and Disease Registry, and the Vaccines for 
Children Program).

        NATIONAL INSTITUTES OF HEALTH--RESEARCH LEADING THE WAY

Ob-Gyn Research at the NICHD
    The NICHD conducts research that holds great promise to improve 
maternal and fetal health and safety. With the support of Congress, the 
Institute has initiated research addressing the causes of cerebral 
palsy, gestational diabetes and pre-term birth. However, much more 
needs to be done to reduce the rates of maternal mortality and 
morbidity in the United States. More research is needed on such 
pregnancy-related issues as the impact of chronic conditions during 
pregnancy, racial and ethnic disparities in maternal mortality and 
morbidity, drug safety with respect to pregnancy, and preventing 
unintended pregnancies.
    A commitment to research in women's health sheds light on a breadth 
of issues that save women's lives. Important research examining the 
following issues must continue:
            Reducing High Risk Pregnancies
    NICHD's Maternal Fetal Medicine Unit Network, working at 14 sites 
across the United States (University of Alabama, University of Texas-
Houston, University of Texas-Southwestern, Wake Forest University, 
University of North Carolina, Brown University-Women and Infant's 
Hospital, Columbia University, Drexel University, University of 
Pittsburgh-Magee Women's Hospital, University of Utah, Northwestern 
University, Wayne State University, Case Western University, and Ohio 
State University), will help reduce the risks of cerebral palsy, 
caesarean deliveries, and gestational diabetes. This Network discovered 
that progesterone reduces preterm birth by one-third.
            Reducing the Risk of Perinatal HIV Transmission
    In the last 10 years, NICHD research has helped decrease the rate 
of perinatal HIV transmission from 27 percent to 1.2 percent. This 
advancement signals the near end to mother-to-child transmission of 
this deadly disease.
            Reducing the Effects of Pelvic Floor Disorders
    The Institute has made recent advancements in the area of pelvic 
floor disorders. The NICHD is investigating whether women that have 
undergone cesarean sections have fewer incidences of pelvic floor 
disorder than women who have delivered vaginally.
            Reducing the Prevalence of Premature Births
    NICHD is helping our Nation understand how adverse conditions and 
health disparities increase the risks of premature birth in high-risk 
racial groups.
            Drug Safety During Pregnancy
    The NICHD recently created the Obstetric and Pediatric Pharmacology 
Branch to measure drug metabolism during pregnancy.
            Contraceptive Research
    The United States has one of the highest unintended pregnancy rates 
of the industrialized nations. Of the approximately 6 million 
pregnancies each year, an estimated one half are unintended. It is 
critical that women have access to safe and effective contraceptives, 
to help them time and space their pregnancies. The NICHD conducts 
valuable research on both male and female contraceptives that can help 
reduce the number of unintended pregnancies and improve women's health.
The Challenge of the Future: Attracting New Researchers
    Despite the NICHD's critical advancements, reduced funding has made 
it difficult for research to continue, largely due to the lack of new 
investigators. Congressional programs such as the loan repayment 
program, and the NIH Mentored Research Scientist Development Program 
for reproductive health, all attract new researchers, but low pay lines 
make it difficult for the NICHD to maintain them. We urge the committee 
to significantly increase funding for ob-gyn research at the NICHD to 
maintain a high level of research innovation and excellence, in turn 
reducing the incidence of maternal morbidity and mortality and 
discovering cures for other chronic conditions.
    We encourage the committee, too, to realize and fund ob-gyn 
research possibilities in other Institutes within NIH. While pediatric 
and ob-gyn research are the two main areas of research in NICHD, ob-gyn 
research is very centralized in that Institute, with 56.7 percent of 
all NIH ob-gyn research funding occurring in NICHD in 2005. Pediatrics 
funding, on the other hand, is diversified throughout many Institutes. 
While 21.7 percent of pediatrics funding occurs in NICHD, 19 percent is 
in the National Heart, Lung and Blood Institute (NIHLB), 16 percent is 
in National Institute of Diabetes and Digestive and Kidney, (NIDDK), 
13.5 percent in the National Institute of Aging (NIA), and 7 percent is 
in the National Cancer Institute (NCI). Altogether, pediatrics research 
at NIH totaled $520.7 million in 2005, compared with $156.8 million in 
ob-gyn research.
    The future of women's health, including, reducing preterm labor, 
ensuring drug safety during pregnancy, and reducing the effects of 
pelvic floor disorders, depends on research conducted at the NIH. We 
encourage the committee to increase and expand ob-gyn research funding 
in NICHD and throughout the National Institutes of Health.

      HRSA AND CDC: TURNING RESEARCH INTO PUBLIC HEALTH SOLUTIONS

    It is critical that we rapidly transform women's health research 
findings into public health solutions. The Health Resources and 
Services Administration (HRSA) has created women and children's health 
outreach programs based on research conducted on prematurity, high risk 
pregnancies, gestational diabetes, and a variety of other health 
issues. The National Fetal Infant Mortality Review and the Provider's 
Partnership are two examples of the successful programs under the 
Healthy Start Initiative.
National Fetal Infant Mortality Review
    The Fetal and Infant Mortality Review (FIMR) is a cooperative 
Federal agreement between ACOG and the Maternal Child Health Bureau at 
HRSA. FIMR uses the expertise of ob-gyns and local health departments 
to find solutions to problems related to infant mortality. In light of 
the recent increase in the infant mortality rate for 2002, the FIMR 
program is vital to develop community-specific, culturally appropriate 
interventions. Today 220+ local programs in 42 States are implementing 
FIMR and finding it is a powerful tool to bring communities together to 
address the underlying problems that negatively affect the infant 
mortality rate. We urge this committee to recognize the many positive 
contributions of the FIMR program and ensure it remains a fully funded 
program within HRSA.
Title X Family Planning Program
    Since 1970, the Title X Family Planning program at HRSA has 
provided low income women with timely screenings, education, and 
contraception. Access to these services can be vital to preventing 
breast and cervical cancer, sexually transmitted infections (STIs), and 
unintended pregnancies.
    Title X clinics serve more than 5 million low-income women at 4,500 
clinics nationwide, helping women plan the number and timing of their 
pregnancies and stay healthy. Title X clinics are serving increasing 
numbers of patients without commensurate increases in funding. We urge 
you to increase funding for this vital program to $375 million for 
fiscal year 2008.
The National Breast and Cervical Cancer Early Detection Program 
        (NBCCEDP)
    The National Breast and Cervical Cancer Early Detection Program 
(NBCCEDP) administered by the CDC is an indispensable health program in 
helping underserved women gain access to screening programs for early 
detection of breast and cervical cancers. The NBCCEDP has served over 
2.5 million women and provided 5.8 million screening examinations. 
Early detection and treatment of breast and cervical cancers greatly 
increase a woman's odds of conquering these diseases. We strongly urge 
the committee to continue saving women's lives and to prevent cuts to 
this vital program.
National Center on Birth Defects and Developmental Disabilities 
        (NCBDDD)
    Birth defects affect about one in every 33 babies born in the 
United States each year. Babies born with birth defects have a greater 
chance of illness and long term disability than babies without birth 
defects. According to the CDC, a great opportunity for further 
improvement lies in prevention strategies that, if implemented prior to 
conception, would result in further improvement of pregnancy outcomes. 
A cooperative agreement between the NCBDDD and ACOG has resulted in 
increased provider knowledge of genetic screening and diagnostic tests, 
technical guidance on routine preconception care and prenatal genetic 
screening, and improved access to care for women with disabilities.
    Again, we would like to thank the committee for its continued 
support of interagency cooperation to address the multiple factors that 
affect maternal and child health. We strongly urge this subcommittee to 
support increased ob-gyn research funding for the NICHD and throughout 
NIH, and renewed appropriations for the maternal child health programs 
at the CDC and HRSA. By continuing to translate research done at the 
NICHD into positive outreach programs such as the Title X program and 
the NBCCEDP, we can further improve our Nation's overall health.
                                 ______
                                 
        Prepared Statement of the American Diabetes Association

    Thank you for the opportunity to submit testimony on the importance 
of Federal funding for diabetes programs at the Centers for Disease 
Control and Prevention (CDC) and diabetes research at the National 
Institutes of Health (NIH).
    As the Nation's leading nonprofit health organization providing 
diabetes research, information and advocacy, the American Diabetes 
Association feels strongly that Federal funding for diabetes prevention 
and research efforts is critical not only for the 20.8 million 
Americans who currently have diabetes, but also for the 54 million who 
have a condition known as pre-diabetes.
    Diabetes is a serious disease, and is a contributing cause of many 
of the chronic conditions on which the Federal Government spends the 
most health care dollars. In 2002, the direct and indirect costs spent 
solely on diabetes were $132 billion. In addition, diabetes is a 
significant cause of heart disease, stroke, and a leading cause of 
kidney disease, which combine to cost our Nation $356.7 billion a year. 
Diabetes is also the leading cause of adult-onset blindness and lower 
limb amputations.
    Between 1990 and 2001 diabetes cases increased 60 percent and they 
have continued to increase by 8 percent a year. Every 21 seconds, 
another individual is diagnosed with diabetes. Diabetes is the single 
most prevalent chronic illness among children. Because of the systemic 
havoc that diabetes wreaks throughout the body, it is no surprise that 
the life expectancy of a person with the disease averages 10-15 years 
less than that of the general population.
    As the statistics listed above illustrate, we are facing an 
epidemic of diabetes in this country, which if left unchecked could 
have significant health and economic implications for many future 
generations. Every 24 hours there are: 4,100 individuals diagnosed with 
diabetes, 230 amputations in people with diabetes, 120 people who enter 
end-stage kidney disease programs and 55 people who go blind.\1\  
According to the NIH, approximately 225,000 people died in 2002 from 
diabetes. Nearly a quarter of a million Americans! Please keep these 
numbers in mind as you look at the chart below. It tracks the Federal 
investment in fighting diabetes since fiscal year 2005--a period in 
which the prevalence of diabetes has grown by approximately 32 percent. 
In the case of the CDC budget for their Division of Diabetes 
Translation (DDT), funding has been relatively flat since fiscal year 
2003. A change in formula makes it appear that there was a major 
decrease of 4 percent in fiscal year 2005, when in actuality there was 
a minor increase.
---------------------------------------------------------------------------
    \1\ Frank Vinicor, Associate Director for Public Health Practice at 
the Centers for Disease Control, qtd. in N.R. Kleinfield, ``Diabetes 
and Its Awful Toll Quietly Emerges as a Crisis,'' The New York Times, 9 
January 2006.

----------------------------------------------------------------------------------------------------------------
                                                                                            Percent increase
                                                                Funding     Difference -------------------------
                         DDT at CDC                              Level      from prior   From prior
                                                                               year         year     In diabetes
----------------------------------------------------------------------------------------------------------------
Fiscal year:
    2005....................................................      $63.457        -2.59        -4.09           +8
    2006....................................................       63.119        -9.34         -.54           +8
    2007....................................................       62.806         -.31         -.50           +8
    2008 administration.....................................       62.806  ...........  ...........           +8
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                                            Percent increase
                                                                Funding     Difference -------------------------
                         DDK at NIH                              level      from prior   From prior
                                                                              years         year     In diabetes
----------------------------------------------------------------------------------------------------------------
Fiscal year:
    2005....................................................       $1,864          +43        +2.31           +8
    2006....................................................        1,855           -9         -.49           +8
    2007....................................................        1,854           -1         -.05           +8
    2008 administration.....................................        1,858           +4         +.22           +8
----------------------------------------------------------------------------------------------------------------

    Diabetes has become the greatest public health crisis of the 21st 
century. To stem the tide of this epidemic diabetes prevention and 
outreach efforts must expand, and at the same time scientists and 
researchers must continue their work towards finding a cure. Therefore, 
we are requesting:
  --A $20.8 million increase for the CDC's Division of Diabetes 
        Translation (DDT), only one dollar for each American suffering 
        from diabetes. This program was left at flat funding in the 
        recently-passed joint funding resolution, although it had been 
        slated for an increase in both the House and Senate passed 
        bills.
  --An 8 percent increase over fiscal year 2007 funding at NIH's 
        National Institute for Diabetes, Digestive and Kidney Diseases 
        (NIDDK), the amount included in last year's NIH Reauthorization 
        package. These funds would make up for previous cuts and allow 
        for the ongoing cost of biomedical inflation, which continues 
        to eat into the purchasing power of research funding.

 DIABETES INTERVENTIONS AT THE CENTERS FOR DISEASE CONTROL & PREVENTION

    The CDC's Division of Diabetes Translation is critical to our 
national efforts to prevent and manage diabetes because DDT literally 
translates research into real interventions at the community level. 
Currently, for every dollar that diabetes costs this country, the 
Federal Government invests less than one cent to help Americans prevent 
and manage this deadly disease. This dynamic must be changed. Our 
request of $20.8 million will allow these critical programs to expand 
to more adequately meet the growing demands of the diabetes epidemic.
    In 2006, DDT provided support for more than 50 State, and 
territorial, based Diabetes Prevention and Control Programs (DPCPs) to 
increase outreach and education, and to reduce the complications 
associated with diabetes. However, due to funding constraints, DDT is 
able to provide full support to only 28 States. The remaining 22 
States, 8 territories, and the District of Columbia are given no more 
than partial support. This level of funding, referred to as ``capacity 
building,'' allows a State to do surveillance, but is not enough for 
the State to do much--or in some cases, anything--in the way of 
intervention. Even more alarming, DDT's current funding level only 
allows for prevention activities in five States. While we know from 
clinical trials \2\ that the onset of type 2 diabetes can be delayed or 
prevented in most cases, this dismal funding for primary prevention 
falls far short of the resources needed to address the 54 million 
Americans with pre-diabetes.
---------------------------------------------------------------------------
    \2\ The Diabetes Prevention Program (DPP) was a major clinical 
trial, or research study, aimed at discovering whether either diet and 
exercise or the oral diabetes drug metformin (Glucophage) could prevent 
or delay the onset of type 2 diabetes in people with impaired glucose 
tolerance.
---------------------------------------------------------------------------
    For those 28 States DDT was able to provide a higher level of 
support called basic implementation. At this level, States are able to 
devise and execute community based programs. Without adequately funded 
diabetes programs and projects in all parts of the country, it will be 
exceedingly difficult--if not impossible--to control the escalating 
costs associated with diabetes-associated complications and to stem the 
epidemic rise in diabetes rates. State DPCPs, when provided with enough 
funding, are proven to have been extremely successful in helping 
Americans prevent and manage their diabetes. In the Division of 
Diabetes Translation Program Review fiscal year 2004, the CDC stated, 
``The Basic Implementation DPCPs serve as the backbone for our growing 
primary prevention efforts. These State programs are the key elements 
to our success in meeting the challenges of controlling and preventing 
diabetes.''
    For example, the Pennsylvania DPCP provides funding to support two 
of the Commonwealth's eight community-based Diabetes Nurse Consultants 
which provide information and consultation services to patients and 
their families, health care providers, schools, nursing homes and 
countless others in all 67 counties. These programs have demonstrated 
success in promoting physical activity, weight and blood pressure 
control, and smoking cessation for those with diabetes. Americans in 
every State should have access to such quality programs. Unfortunately, 
States such as Iowa and Mississippi are currently funded at levels that 
don't allow for basic implementation. The Division's fiscal year 2007 
budget of $63 million had no increase from fiscal year 2006 and the 
President has requested flat funding again for fiscal year 2008.
    In addition to DPCP activities, the CDC's Division of Diabetes 
Translation conducts other activities to help people currently living 
with diabetes. To put research into action, CDC works with NIH to 
jointly sponsor the National Diabetes Education Program (NDEP), which 
seeks to improve the treatment and outcomes of people with diabetes, 
promote early detection, and prevent the onset of diabetes. The CDC is 
also currently working to develop a National Public Health Vision Loss 
Prevention Program that will investigate the economic burden and 
strengthen the surveillance and research of this all-to-common 
complication of diabetes. In addition, CDC funds work at the National 
Diabetes Laboratory to support scientific studies that will improve the 
lives of people with diabetes. In fiscal year 2005, the Division of 
Diabetes Translation alone published 53 manuscripts on the care, 
prevention, and science of diabetes, including 17 abstracts.

        DIABETES RESEARCH AT THE NATIONAL INSTITUTES FOR HEALTH

    While there is not yet a cure for diabetes, researchers at NIH are 
working on a variety of projects that represent hope for the millions 
of individuals with type 1 and type 2 diabetes. The list of advances in 
treatment and prevention is thankfully a long one, but it is important 
to understand what has been, and what can be, achieved for Americans 
with diabetes. For example, the Diabetes Control and Complications 
Trial (DCCT), a clinical trial of 1,441 people with type 1 diabetes, 
demonstrated that tight control of blood glucose through intensive 
insulin therapy could significantly reduce or delay many complications 
due to diabetes. This landmark finding spurred a shift in the daily 
management of type 1 diabetes and energized research in the field. 
Subsequent funding has allowed research to continue on topics like risk 
factors, genetics, and complications that provide new approaches to 
improve therapy of diabetes.
    Obesity is a strong risk factor for type 2 diabetes, especially in 
minority populations. Recognizing the growing problem of obesity and 
its increasing prevalence among youth, the NIDDK is focusing on paths 
to prevention. One example of this focus is the HEALTHY study, which is 
led by the NIDDK and co-sponsored by the American Diabetes Association. 
This study is testing a middle school-based intervention to reduce 
students' risk factors for type 2 diabetes, such as obesity.
    Additionally, based on NIH-funded research, scientists have made 
great progress in developing methods that slow the onset and 
progression of kidney disease in people with diabetes, such as 
employing drugs that are typically used to lower blood pressure. These 
antihypertensive drugs can slow the progression of kidney disease 
significantly. Two types of drugs, angiotensin-converting enzyme (ACE) 
inhibitors and angiotensin receptor blockers (ARBs), have proven 
effective in slowing the progression of kidney disease.
    A generation ago, 20 percent of individuals diagnosed with type 1 
diabetes died within 20 years of diagnoses and 30 percent died within 
25 years. Thanks to research at NIDDK, patients now use a variety of 
insulin formulations, including rapid-acting, intermediate acting, 
long-acting insulin, and even insulin pumps, to control their blood 
glucose with much better precision. When it comes to diabetes, real-
life results from research do not merely represent potential advances; 
the advances are happening now and they are improving and saving lives.
    The Association strongly encourages you to provide at least an 8 
percent increase to the NIH to build upon and fulfill this promise of 
scientific research. Unfortunately, while the death rate due to 
diabetes has increased by 45 percent since 1987, diabetes research 
funding has not kept pace. Indeed, from 1987 to 2001, appropriated 
diabetes funding as a share of the overall NIH budget has dropped by 
more than 20 percent (from 3.9 percent to 2.9 percent). While Congress 
had initially begun to address this discrepancy, the fiscal year 2007 
Joint Funding Resolution essentially maintained the cuts of recent 
years, although NIDDK did not have to contribute to the new Common 
Fund. Still, this does not account for even the cost of biomedical 
inflation. The Association believes that NIH research and CDC 
translational programs go hand in hand in the effort to combat the 
diabetes epidemic.
    The Association, and the millions of individuals with diabetes it 
represents, firmly believes that we could rapidly move toward curing, 
preventing, and managing this disease by increasing funding for 
diabetes programs and research at both CDC and NIH. Your leadership is 
essential to accomplishing this goal. As you are considering fiscal 
year 2008 funding, we ask you to remember that chronic diseases, 
including diabetes, account for nearly 70 percent of all health care 
costs as well as 70 percent of American deaths annually. Unfortunately, 
less than $l.25 per person is directed toward public health 
interventions focused on preventing the debilitating effects associated 
with chronic diseases, demonstrating that Federal investment in chronic 
disease prevention remains grossly inadequate. We cannot ignore those 
Americans who are currently living with diabetes and other diseases.
    In closing, the American Diabetes Association strongly urges the 
subcommittee and the Senate to provide a $20.8 million increase for the 
CDC's Division of Diabetes Translation. Providing this funding would be 
an important step towards empowering the effort fight diabetes at the 
community and national levels. Additionally, we urge the subcommittee 
to increase NIH funding by 8 percent, the level that was authorized in 
the bipartisan NIH Reauthorization legislation that passed both the 
House and Senate last year by overwhelming margins. These funding 
levels would allow for an increased commitment to diabetes research.
    An important question has been raised, ``Where will we be in 10 
years?'' For diabetes, the answer to that question is truly in your 
hands. The disease is growing at a rate of 8 percent annually, but the 
government has not increased the resources to prevent, treat or find a 
cure for diabetes in over 4 years. In 2002, the United States spent 
$132 billion in direct and indirect costs for diabetes. If these trends 
continue for the next 10 years, the costs--in human life and 
economics--will be truly unimaginable.
    On behalf of the 20.8 million Americans with diabetes--a disease 
that crosses gender, race, ethnicity and political party; a disease 
that is among the most costly, debilitating, deadly and prevalent in 
our Nation; and a disease that is unnecessarily on the rise--I thank 
you for the opportunity to submit this testimony. The American Diabetes 
Association is prepared to answer any questions you might have on these 
important issues.
                                 ______
                                 
          Prepared Statement of the American Heart Association

    Over the past 50 years, we have made enormous progress against 
heart disease, stroke and other forms of cardiovascular disease (CVD). 
According to the National Institutes of Health, 1.6 million lives have 
been saved since the 1960s that would have been lost to CVD. Americans 
can expect to live 4 years longer from a drop in heart disease deaths.
    In spite of progress, we have not declared victory, and we may be 
losing ground. An estimated 80 million American adults suffer from CVD. 
Despite educational efforts, increased rates of diabetes, obesity and 
other risk factors may undo four decades of declining mortality. And, 
we are often not reaching those at most risk, like those with lower 
socioeconomic status.
    The morbidity and mortality rates still startle. Nearly 2,400 
Americans die from CVD each day--an average of one death every 36 
seconds. Heart disease and stroke remain the No. 1 and No. 3 killers, 
respectively, for both men and women in the United States today and two 
of three men and one of two women will develop CVD during their 
lifetime.
    To make matters worse, a perfect storm is taking shape fueled by 
demographics. As the baby boomers age, the number of Americans 
developing CVD will increase radically. CVD can strike at any age, but 
the odds increase with age. A report estimates that heart disease 
deaths will increase 130 percent from 2000 and 2050.
    Beyond the toll in suffering and death, CVD comes with a steep 
price tag. It costs Americans an estimated $432 billion in medical 
expenses and lost productivity in 2007--more than any other disease. We 
will soon be facing a CVD crisis of staggering proportions and 
implications for health care costs and quality of care. We ignore it at 
our collective peril.
     budget recommendations: investing in the health of our nation
    Although progress has been made in the prevention and treatment of 
CVD, there is still no cure and more Americans than ever are at risk. 
The most prudent way to address this looming crisis is to 
simultaneously invest in research, prevention and treatment. 
Regretfully, the funding levels proposed by the administration in its 
fiscal year 2008 budget undermine these efforts.
    Now is not the time to reduce our investment in programs that 
prevent and treat America's leading and most costly killer. Solving a 
problem of this magnitude requires a major public investment. If we 
fail to take aggressive and deliberate action now--we will pay later in 
health care expenditures and lives. The American Heart Association's 
recommendations that follow address this problem in a comprehensive but 
fiscally responsible way.
Increase Funding for the National Institutes of Health (NIH)
    NIH research has revolutionized patient care and holds the key to a 
cure for CVD. NIH research also fuels innovation that generates 
economic growth and preserves our Nation's role as the world leader in 
the pharmaceutical and biotechnology industries. The President's 
request is $511 million below fiscal year 2007 and the gap between the 
levels achieved during the doubling of the NIH budget and the request, 
when adjusted for biomedical research inflation, exceeds 13 percent.
    AHA Recommendation.--AHA advocates for a fiscal year 2008 
appropriation of $30.8 billion for NIH. It represents the first year of 
a 3-year campaign to get NIH funding ``Back on Track.'' A 6.7 percent 
funding increase for each of the next 3 years would restore and protect 
the past investment made by the Congress in doubling the resources of 
the NIH.
Increase Funding for NIH Heart and Stroke Research: A Proven Investment
    From 1994-2004, death rates from cardiovascular diseases, coronary 
heart disease and stroke have fallen respectively by 25 percent, 33 
percent and 20 percent. Much of this progress can be attributed to NIH 
heart and stroke research which has improved health outcomes and in 
some cases, lowered health care costs. Examples of recent NIH research 
accomplishments include:
  --CVD Research a Good Value.--NIH's cumulative investment in CVD 
        research over the past 30 years has resulted in a 63 percent 
        decrease in heart disease deaths at a projected value of $1.5 
        trillion per year from 1970 to 1990 due to increase in life 
        expectancy.
  --Stroke Trials Benefit Economy.--The original NIH tPA trial resulted 
        in a 10-year net reduction in healthcare costs of $6.47 
        billion. The Stroke Prevention in Atrial Fibrillation Trial 1 
        resulted in a 10-year net benefit of $1.27 billion, with a 
        savings of 35,000 quality-adjusted life years.
  --Stroke Rehabilitation.--Constraint-Induced Movement Therapy, a 
        rehabilitative method involving forced use of a paralyzed arm, 
        can help stroke survivors regain arm function.
  --Late Angioplasty No Advantage.--An international study found that 
        stable heart attack survivors who received angioplasty and 
        stenting three to 28 days after the attack did no better than 
        patients receiving, primarily drug treatment. These findings 
        could reduce unnecessary interventions and lower health care 
        costs.
    In spite of these and other successes, NIH heart and stroke 
research budget remains disproportionately under-funded compared to the 
disease burden. CVD meets NIH's priority setting criteria (public 
health needs, scientific quality of research, scientific progress 
potential, portfolio diversification and adequate infrastructure 
support), yet only 7 percent of the NIH budget is invested in heart 
research and a mere 1 percent is devoted to stroke.
Cardiovascular Disease Research
    Relative to the amount needed to keep pace with medical research 
inflation, proposed funding for cardiovascular research will decline by 
15 percent since fiscal year 2003. These limited resources cannot 
adequately support and expand current activities or allow investments 
in promising initiatives to aggressively advance the fight against 
heart disease and stroke--the first and third causes of death among 
Americans. Additional funds could be used in the following areas:
  --Atherosclerosis Prevention Trial.--Atherosclerosis is a main risk 
        factor for heart disease and stroke. With increased funding, 
        the National Heart, Lung, and Blood Institute (NHLBI) could 
        initiate a clinical trial to determine if reducing low-density 
        lipoprotein cholesterol, so-called ``bad'' cholesterol, to a 
        level lower than currently recommended, reduces major CVD 
        events in healthy patients at high risk of heart disease and or 
        stroke.
  --Systolic Blood Pressure Intervention Trial.--High blood pressure is 
        a major risk factor for heart disease, heart failure and 
        stroke. Additional funding would allow the NHLBI to conduct a 
        multi-center clinical trial to determine whether reducing 
        systolic blood pressure to a lower level than currently 
        recommended could prevent heart attacks and strokes.
  --Preventing Weight Gain in Young Adults.--With additional resources, 
        NHLBI could support small-scale studies to develop and evaluate 
        promising, innovative practical, cost-effective ways for young 
        adults to reduce their risk for CVD by preventing weight gain.
Stroke Research
    Stroke is the No. 3 killer of Americans and a major cause of 
permanent disability. In addition to the elderly, stroke also strikes 
newborns, children and young adults. An estimated 700,000 Americans 
will suffer a stroke this year, and nearly 150,000 will die. Many of 
America's 5.7 million stroke survivors face debilitating physical and 
mental impairment, emotional distress and huge medical costs; about 1 
in 4 survivors are permanently disabled.
    As a result of fiscal year 2001 congressional report language, the 
National Institute of Neurological Disorders and Stroke (NINDS) 
convened a Stroke Progress Review Group (PRG). Their report provided a 
long-range strategic plan for stroke research. The PRG was reconvened 
last year and took stock of interim progress and re-evaluated 
recommendations for future research. Since the issuance of the initial 
report, multiple scientific programs have been undertaken; but, more 
funding is needed to fully implement the strategic plan. The fiscal 
year 2008 request for NINDS stroke research falls 56 percent short of 
the strategic plan's target for that year. Additional funding could be 
used to conduct stroke research in the following areas:
  --Stroke Translational Research.--Translational studies are vital to 
        providing cutting-edge stroke treatment and prevention. Due to 
        budget shortfalls, the NINDS has been forced to compress its 
        Specialized Programs of Translational Research in Acute Stroke 
        (SPOTRIAS) from the planned 10 extramural centers to the five 
        currently funded. SPOTRIAS researchers facilitate translation 
        of basic research into patient care and evaluate and treat 
        victims rapidly after the onset of stroke symptoms.
  --Neurological Emergencies Treatment Trials Network.--Limited 
        resources will also force the NINDS to scale back its 
        Neurological Emergencies Treatment Trials Network. This 
        initiative is designed to develop a clinical research network 
        of emergency medicine physicians, neurologists and 
        neurosurgeons to develop through clinical trials more and 
        improved treatments for acute neurological emergencies, such as 
        stroke.
  --Stroke Education.--In partnership with CDC, NINDS launched a 
        grassroots program called ``Know Stroke in the Community.'' It 
        includes enlisting the aid of ``Stroke Champions'' who teach 
        communities about signs and symptoms. The goal is to shift 
        stroke treatment from supportive care to early brain-saving 
        intervention. But, more funding is needed to teach the public 
        and health providers.
    AHA Recommendation.--AHA recommends an fiscal year 2008 
appropriation of $2.2 billion for NIH heart research; $3.1 billion for 
the NHLBI; $362 million for NIH stroke research; and $1.6 billion for 
the NINDS. These figures represent a 6.7 percent increase over fiscal 
year 2007--commensurate with the Association's recommended funding 
increase for the NIH.
Increase Funding for the Centers for Disease Control and Prevention 
        (CDC)
    Basic research must be translated into easy-to-understand guidance 
so people can apply it in their daily lives. Prevention is the best way 
to protect Americans' health and ease the financial burden of disease. 
While literature indicates that increased and improved CVD 
interventions can be highly successful, investigators have also 
concluded that effective strategies for combating CVD are often not 
being implemented. A study suggests that not smoking, maintaining a 
healthy weight, and avoiding diabetes, high blood pressure and high 
cholesterol may add 10 years to life.
    AHA commends Congress for supporting CDC's Division for Heart 
Disease and Stroke Prevention which funds 33 States to create or 
implement programs to prevent first and second instances of heart 
disease and stroke. These state-tailored programs aide collaboration 
among public and private sectors to help people lower blood pressure 
and cholesterol, learn signs and symptoms, call 9-1-1, improve 
emergency response and quality care, and end treatment disparities. 
Many of these programs have reduced risk, like high blood pressure.
    In fiscal year 2007, only 14 States receive funding to implement 
these prevention programs. The remaining 19 receive funds for planning; 
which is now largely complete. Because cardiovascular disease is the 
No. 1 killer in every State, each State needs basic implementation 
money for this program; however, current funding levels are 
insufficient for its expansion.
    AHA Recommendation.--For fiscal year 2008, AHA recommends an 
appropriation of $10.7 billion (including funding for ATSDR, and the 
current funding level for the Vaccines for Children Program) for CDC, 
with increases targeted for programs within the National Center for 
Chronic Disease Prevention and Health Promotion. Within that total, we 
recommend $64.3 million for the Division for Heart Disease and Stroke 
Prevention, allowing CDC to: (1) add up to 12 States to the program to 
conduct state-tailored plans; (2) elevate up to 6 States from planning 
to program implementation; (3) support the Paul Coverdell National 
Acute Stroke Registry; (4) start development of a state-based cardiac 
arrest registry; and (5) explore establishment of a National Heart 
Disease and Stroke Surveillance Unit to monitor data, identify grave 
gaps, and offer modifications to existing components to fill the gaps.
Restore Funding for Rural and Community Access to Emergency Devices 
        (AED) Program
    About 94 percent of cardiac arrest victims die outside of a 
hospital. Immediate CPR and early intervention using AEDs can more than 
double a victim's chance of survival. Small, easy-to-use AEDs can shock 
the heart back into normal rhythm. Placing AEDs in more public settings 
could save thousands of lives each year. Communities with comprehensive 
AED programs that include training of anticipated rescuers have 
achieved survival rates of 40 percent or higher.
    The Rural and Community AED Program provides grants to States to 
train lay rescuers and first responders to use AEDs and buy and place 
them where sudden cardiac arrests are likely to occur. During the first 
year of the program, 6,400 AEDs were purchased and 38,800 individuals 
were trained. AEDs have been placed in schools, faith-based and 
recreation facilities, nursing homes, and other locations in 
communities across our Nation. In spite of this success, the Rural and 
Community AED Program is terminated in the President's fiscal year 2008 
budget.
    AHA Recommendation.--For fiscal year 2008, AHA recommends 
restoration of HRSA's Rural and Community AED Program to its fiscal 
year 2005 level of $8.927 million.
Increase funding for the Agency for Healthcare Research and Quality 
        (AHRQ)
    AHRQ is a key partner of the public and private health care 
sectors. AHRQ helps develop evidence-based information needed by 
consumers, providers, health plans and policymakers to improve health 
care decision making. Through its Effective Health Care Program, AHRQ 
supports research focusing on outcomes, comparative clinical 
effectiveness, and appropriateness of pharmaceuticals, devices and 
health care services for conditions like ischemic heart disease, 
stroke, and high blood pressure. The research and comparative 
effectiveness reviews conducted and funded address issues raised in the 
Institute of Medicine's Crossing the Quality Chasm.
    Their initiative on health information technology is key to our 
Nation's strategy to bring health care into the 21st century. It 
includes more than $166 million in grants. Through these and other 
projects, AHRQ and its partners help identify challenges to HIT 
adoption and use, solutions and best practices, and tools that help 
hospitals and clinicians incorporate HIT.
    AHA Recommendation.--AHA joins with Friends of AHRQ in advocating 
for an appropriation of $350 million for AHRQ, restoring the agency to 
its fiscal year 2005 level to advance health care quality, cut medical 
errors and expand availability of health outcomes information.
    Although heart disease, stroke and other cardiovascular diseases 
are largely preventable, they continue to exact a deadly and costly 
toll. And as baby boomers age, our Nation faces an expanding 
cardiovascular crisis that threatens to overwhelm us unless significant 
and meaningful steps are taken. But, adequate funding of research, 
treatment and prevention programs will save lives and reduce rising 
health care costs. We urge Congress to consider the Association's 
recommendations during its deliberations on the fiscal year 2008 
budget.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    Summary of Requests.--Summarized below are the fiscal year 2008 
recommendations for the Nation's 34 Tribal Colleges and Universities 
(TCUs), covering three areas within the Department of Education and one 
in the Department of Health and Human Services, Administration for 
Children and Families' Head Start Program.

                    DEPARTMENT OF EDUCATION PROGRAMS

A. Higher Education Act Programs
    Strengthening Developing Institutions.--Section 316 of Title III 
Part A, specifically supports TCUs through two separate grant programs: 
(a) basic development grants, and (b) facilities/construction grants 
designed to address the critical facilities needs at TCUs. The TCUs 
urge the subcommittee to restore the funding cut proposed in the 
President's fiscal year 2008 Budget and increase funding to $32.0 
million and that report language be restated clarifying that funds in 
excess of those needed to support continuation grants or new planning 
or implementation grants shall be used for facilities, renovation, and 
construction grants.
    Pell Grants.--TCUs urge the subcommittee to fund the Pell Grants 
Program at the highest possible level.
B. Perkins Career and Technical Education Programs
    The TCUs support $8.5 million for Sec. 117 of the Carl D. Perkins 
Career and Technical Education Improvement Act and request language 
reaffirming that this program remains specific to the two Tribally 
Controlled Postsecondary Vocational Institutions: United Tribes 
Technical College and Navajo Technical College. Additionally, TCUs 
strongly support the Native American Career and Technical Education 
Program (NACTEP) authorized under Sec. 116 of the act.
C. Relevant Title IX Elementary and Secondary Education Act (ESEA) 
        Programs
    Adult and Basic Education.--Although Federal funding for tribal 
adult education was eliminated in fiscal year 1996, TCUs continue to 
offer much needed adult education, GED, remediation and literacy 
services for American Indians, yet their efforts cannot meet the 
demand. The TCUs request that the subcommittee direct $5.0 million of 
the Adult Education State Grants appropriated funds to make awards to 
TCUs to support their adult and basic education programs.
    American Indian Teacher and Administrator Corps.--The American 
Indian Teacher Corps and the American Indian Administrator Corps offer 
professional development grants designed to increase the number of 
American Indian teachers and administrators serving their reservation 
communities. The TCUs request that the subcommittee support these 
programs at $10.0 and $5.0 million, respectively.

             DEPARTMENT OF HEALTH & HUMAN SERVICES PROGRAM

D. Tribal Colleges and Universities Head Start Partnership Program 
        (DHHS-ACF)
    Tribal Colleges and Universities are ideal partners to help achieve 
the goals of Head Start in Indian Country. The TCUs are working to meet 
the mandate that Head Start teachers earn degrees in Early Childhood 
Development or a related discipline. The TCUs request that $5.0 million 
be designated for the TCU-Head Start partnership program, to ensure the 
continuation of current TCU programs and the funds necessary for 
additional TCU-Head Start partnership programs.
    Mr. Chairman and members of the subcommittee, on behalf of this 
Nation's 34 Tribal Colleges and Universities (TCUs), which comprise the 
American Indian Higher Education Consortium (AIHEC), thank you for the 
opportunity to share our fiscal year 2008 funding recommendations for 
programs within the U.S. Department of Education and the U.S. 
Department of Health and Human Services--Head Start program.

           I. BACKGROUND ON TRIBAL COLLEGES AND UNIVERSITIES:

    The vast majority of tribal colleges is accredited by independent, 
regional accreditation agencies and like all institutions of higher 
education, must undergo stringent performance reviews on a periodic 
basis to retain their accreditation status. In addition to college 
level programming, TCUs provide much needed high school completion 
(GED), basic remediation, job training, college preparatory courses, 
and adult education. Tribal colleges fulfill additional roles within 
their respective reservation communities functioning as community 
centers, libraries, tribal archives, career and business centers, 
economic development centers, public meeting places, and child care 
centers. Each TCU is committed to improving the lives of its students 
through higher education and to moving American Indians toward self-
sufficiency.
    Tribal Colleges and Universities provide access to higher education 
for American Indians and others living in some of the Nation's most 
rural and economically depressed areas. The average family income for a 
student first entering a TCU is $14,000, which is 27 percent below the 
Federal poverty threshold for a family of four. In addition to serving 
their students, TCUs serve their communities through a variety of 
community outreach programs.
    These institutions, chartered by their respective tribal 
governments, were established in response to the recognition by tribal 
leaders that local, culturally based institutions are best suited to 
help American Indians succeed in higher education. TCUs combine 
traditional teachings with conventional postsecondary curricula. They 
have developed innovative ways to address the needs of tribal 
populations and are overcoming long-standing barriers to success in 
higher education for American Indians. Since the first TCU was 
established on the Navajo Nation, these vital institutions have come to 
represent the most significant development in the history of American 
Indian higher education, providing access to and promoting achievement 
among students who may otherwise never have known postsecondary 
education success.

                           II. JUSTIFICATIONS

A. Higher Education Act
    The Higher Education Act Amendments of 1998 created a separate 
section within Title III, Part A, specifically for the Nation's Tribal 
Colleges and Universities (Section 316). Programs under Titles III and 
V of the act support institutions that enroll large proportions of 
financially disadvantaged students and have low per-student 
expenditures. Although TCUs, which are truly developing institutions, 
are providing access to quality higher education opportunities to some 
of the most rural and impoverished areas of the country, the 
President's fiscal year 2008 budget proposes a 20 percent cut to the 
TCU Title III grants program. A clear goal of the Higher Education Act 
Title III programs is ``to improve the academic quality, institutional 
management, and fiscal stability of eligible institutions, in order to 
increase their self-sufficiency and strengthen their capacity to make a 
substantial contribution to the higher education resources of the 
Nation.'' The TCU Title III program is specifically designed to address 
the critical, unmet needs of their American Indian students and 
communities, in order to effectively prepare them for the workforce of 
the 21st Century. The TCUs urge the subcommittee to reject the 
substantial cut proposed in the President's budget and fund Title III-A 
section 316 at $32.0 million in fiscal year 2008, an increase of $8.2 
million over fiscal year 2007 and $13.5 million over the President's 
request to afford these developing institutions the resources necessary 
to address the needs of their historically underserved students and 
communities. Additionally, we request that report language be restated 
clarifying that funds in excess of those needed to support continuation 
grants or new planning or implementation grants shall be used for 
single year facilities, renovation, and construction grants to ensure 
TCUs will be able to operate in adequate and safe facilities.
    The importance of Pell grants to TCUs students cannot be 
overstated. U.S. Department of Education figures show that the majority 
of TCU students receive Pell grants, primarily because student income 
levels are so low and our students have far less access to other 
sources of aid than students at State funded and other mainstream 
institutions. Within the tribal college system, Pell grants are doing 
exactly what they were intended to do--they are serving the needs of 
the lowest income students by helping them gain access to quality 
higher education, an essential step toward becoming active, productive 
members of the workforce. The TCUs urge the subcommittee to fund this 
critical grants program at the highest possible level.
B. Carl D. Perkins Career and Technical Education Act
    Tribally-Controlled Postsecondary Vocational Institutions.--Section 
117 of the Perkins Act provides basic operating funds for two of our 
member institutions: United Tribes Technical College in Bismarck, North 
Dakota, and Navajo Technical College in Crownpoint, New Mexico. The 
TCUs urge the subcommittee to fund this program at $8.5 million.
    Native American Career and Technical Education Program.--The Native 
American Career and Technical Education Program (NACTEP) under Sec. 116 
of the act reserves 1.25 percent of appropriated funding to support 
Indian vocational programs. The TCUs strongly urge the subcommittee to 
continue to support NACTEP, which is vital to the survival of 
vocational education programs being offered at Tribal Colleges and 
Universities.
C. Greater Support of Indian Education Programs
    American Indian Adult and Basic Education (Office of Vocational and 
Adult Education).--This program supports adult basic education programs 
for American Indians offered by TCUs, State and local education 
agencies, Indian tribes, institutions, and agencies. Despite a lack of 
funding, TCUs must find a way to continue to provide basic adult 
education classes for those American Indians that the present K-12 
Indian education system has failed. Before many individuals can even 
begin the course work needed to learn a productive skill, they first 
must earn a GED or, in some cases, even learn to read. The number of 
students needing remedial educational programs before embarking on 
their degree programs is considerable at TCUs. There is a wide need for 
basic adult educational programs and TCUs need adequate funding to 
support these essential activities. Tribal colleges respectfully 
request that the subcommittee direct $5.0 million of the Adult 
Education State Grants appropriated funds to make awards to TCUs to 
help meet the ever increasing demand for basic adult education and 
remediation program services.
    American Indian Teacher/Administrator Corps (Special Programs for 
Indian Children).--American Indians are severely under represented in 
the teaching and school administrator ranks nationally. These 
competitive programs are designed to produce new American Indian 
teachers and school administrators for schools serving American Indian 
students. These grants support recruitment, training, and in-service 
professional development programs for Indians to become effective 
teachers and school administrators and in doing so become excellent 
role models for Indian children. We believe that the TCUs are the ideal 
catalysts for these two initiatives because of their current work in 
this area and the existing articulation agreements they hold with 4-
year degree awarding institutions. The TCUs request that the 
subcommittee support these two programs at $10.0 million and $5.0 
million, respectively, to increase the number of qualified American 
Indian teachers and school administrators in Indian Country.

DEPARTMENT OF HEALTH AND HUMAN SERVICES/ADMINISTRATION FOR CHILDREN AND 
                          FAMILIES/HEAD START

    Tribal Colleges and Universities (TCU) Head Start Partnership 
Program.--The TCU-Head Start Partnership has made a lasting investment 
in our Indian communities by creating and enhancing associate degree 
programs in Early Childhood Development and related fields. Graduates 
of these programs help meet the degree mandate for all Head Start 
program teachers. More importantly, this program has afforded American 
Indian children Head Start programs of the highest quality. A clear 
impediment to the ongoing success of this partnership program is the 
erratic availability of discretionary funds made available for the TCU-
Head Start Partnership. In fiscal year 1999, the first year of the 
program, some colleges were awarded 3-year grants, others 5-year 
grants. In fiscal year 2002, no new grants were funded at all. In 
fiscal year 2003, funding for eight new TCU grants was made available, 
but in fiscal year 2004, only two new awards could be made because of 
the lack of adequate funds. The President's fiscal year 2008 budget 
includes a total request of $6,788,571,000 for Head Start Programs. The 
TCUs request that the subcommittee direct the Head Start Bureau to 
designate a minimum of $5.0 million of the $6.8 billion recommended for 
the TCU-Head Start Partnership program, to ensure that this critical 
program can continue and expand so that all TCUs have the opportunity 
to participate in the TCU-Head Start Partnership program.

                            III. CONCLUSION

    Tribal Colleges and Universities provide access to higher education 
opportunities to many thousands of American Indians, and essential 
community services and programs to many more. The modest Federal 
investment in TCUs has already paid great dividends in terms of 
employment, education, and economic development, and continuation of 
this investment makes sound moral and fiscal sense. Tribal colleges 
need your help if they are to sustain and grow their programs and 
achieve their missions to serve their students and communities.
    Thank you again for this opportunity to present our funding 
recommendations. We respectfully ask the members of the subcommittee 
for their continued support of the Nation's Tribal Colleges and 
Universities and full consideration of our fiscal year 2008 
appropriations needs and recommendations.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
National Institutes of Health...........................          30,537
    National Heart, Lung, and Blood Institute...........           3,114
    National Cancer Institute...........................           5,111
    National Institute of Allergy and Infectious Disease           4,675
    National Institute of Environmental Health Sciences.             683
    National Institute of Nursing Research..............             146
    Fogarty International Center........................              70
Centers for Disease Control and Prevention..............          10,700
    National Institute for Occupational Safety and                   285
     Health.............................................
    Office on Smoking and Health........................             145
    Environmental Health: Asthma Activities.............              70
    Tuberculosis Control Programs.......................             252
Influenza Pandemic......................................           2,652
------------------------------------------------------------------------

    The American Lung Association is pleased to present our 
recommendations to the Labor Health and Human Services and Education 
Appropriations Subcommittee. These programs will make a difference in 
the lives of millions of Americans who suffer from lung disease.
    The American Lung Association is one of the oldest voluntary health 
organizations in the United States, with a National Office and local 
associations around the country. Founded in 1904 to fight tuberculosis, 
the American Lung Association today fights lung disease in all its 
forms.

                        THE TOLL OF LUNG DISEASE

    Each year, close to 400,000 Americans die of lung disease. Lung 
disease is America's number three killer, responsible for one in every 
six deaths. More than 35 million Americans suffer from a chronic lung 
disease. Each year lung disease costs the economy an estimated $157.8 
billion. Lung diseases include: asthma, chronic obstructive pulmonary 
disease, lung cancer, tuberculosis, pneumonia, influenza, sleep 
disordered breathing, pediatric lung disorders, occupational lung 
disease and sarcoidosis.

                 CHRONIC OBSTRUCTIVE PULMONARY DISEASE

    Chronic Obstructive Pulmonary Disease, or COPD, is a growing health 
problem. Yet, it remains relatively unknown to most Americans and much 
of the research community. COPD refers to a group of largely 
preventable diseases, including emphysema and chronic bronchitis that 
generally gradually limit the flow of air in the body. COPD is the 
fourth leading cause of death in the United States and worldwide. In 
2004, the annual cost to the Nation for COPD was $37.2 billion. This 
includes $20.9 billion in direct health care expenditures, $8.9 billion 
in indirect morbidity costs and $7.4 billion in indirect mortality 
costs. Medicare expenses for COPD beneficiaries were nearly 2.5 times 
that of the expenditures for all other patients.
    It has been estimated that 11.4 million patients have been 
diagnosed with some form of COPD and as many as 24 million adults may 
suffer from its consequences. In 2004, 120,104 people in the United 
States died of COPD. Women have exceeded men in the number of deaths 
attributable to COPD since 2000. Over the past 30 years, the death rate 
due to COPD has doubled while the death rates for heart disease, cancer 
and stroke have decreased by over 50 percent.
    Today, COPD is treatable but not curable. Fortunately, promising 
research is on the horizon for COPD patients. Research on the genetic 
susceptibility underlying COPD is making progress. Research is also 
showing promise for reversing the damage to lung tissue caused by COPD. 
Despite these promising research leads, the American Lung Association 
believes that research resources committed to COPD are not commensurate 
with the impact COPD has on the United States and the world.
    The American Lung Association strongly recommends that the NIH and 
other Federal research programs commit additional resources to COPD 
research programs. We support increasing the National Heart, Lung and 
Blood Institute budget to $3,114 billion. The Lung Association supports 
the CDC in gathering more information about COPD as part of the 
National Health and Nutrition Examination Survey, the Behavioral Risk 
Factor Surveillance System and other health surveys. This information 
will help public health professionals and researchers understand the 
disease better and lead to possible control of the disease.

                              TOBACCO USE

    Tobacco use is the leading preventable cause of death in the United 
States, killing more than 438,000 people every year. Smoking is 
responsible for one in five U.S. deaths. The direct health care and 
lost productivity costs of tobacco-caused disease and disability are 
also staggering, an estimated $167 billion each year.
    The CDC's Office on Smoking and Health provides significant 
technical assistance to States to develop comprehensive and effective 
tobacco prevention programs, in addition to providing a small, yet 
essential, amount of Federal assistance directly to State tobacco 
control and prevention programs. Funds for tobacco prevention at CDC 
also are used to maintain comprehensive information on smoking and 
health and to support ongoing research on tobacco-related issues.
    We believe Congress should fund the type of youth tobacco 
prevention programs that science tells us are essential to counter the 
impact of tobacco company marketing to our kids. The American Lung 
Association strongly supports a minimum level of $145 million in fiscal 
year 2008 funding for the Office on Smoking and Health.

                                 ASTHMA

    Asthma is a chronic lung disease in which the bronchial tubes 
become swollen and narrowed, preventing air from getting into or out of 
the lung. An estimated 32.6 million Americans have ever been diagnosed 
with asthma by a health professional. Approximately 22.2 million 
Americans currently have asthma, of which 12.2 million had an asthma 
attack in 2005. Asthma prevalence rates are almost 12 percent higher 
among African Americans than whites. Studies also suggest that Puerto 
Ricans have higher asthma prevalence rates and age-adjusted death rates 
than all other Hispanic subgroups.
    Asthma is expensive. Asthma incurs an estimated annual economic 
cost of $16.1 billion to our Nation. Asthma is the third leading cause 
of hospitalization among children under the age of 15. It is also the 
number one cause of school absences attributed to chronic conditions. 
The Federal response to asthma has three components: research, programs 
and planning. We are making progress on all three fronts but more must 
be done:
Asthma Research
    Researchers are developing better ways to treat and manage chronic 
asthma. The NHLBI has shown that using corticosteroids to treat 
children with mild to moderate asthma is safe and effective. Genetic 
research is also providing insights into asthma. Researchers in the 
NHLBI-supported Asthma Clinical Research Network have discovered that a 
genetic variation determines how well asthma patients will respond to 
the most common asthma medication, inhaled beta-agonists. This 
discovery will help physicians better target the drugs they proscribe.
Asthma Programs
    Last year, Congress provided approximately $31.9 million for the 
CDC to conduct asthma programs. The American Lung Association 
recommends that CDC be provided $70 million in fiscal year 2008 to 
expand its asthma programs. This funding includes State asthma planning 
grants, which leverage small amounts of funding into more comprehensive 
State programs.
Asthma Surveillance
    In addition to public education programs, the CDC has been piloting 
programs to determine how to establish a nationwide health-tracking 
system. Congress needs to increase funding to create a nationwide 
health-tracking system, based on the localized pilots that are underway 
now.

                              LUNG CANCER

    An estimated 351,344 Americans are living with lung cancer. During 
2007, an estimated 213,380 new cases of lung cancer will be diagnosed. 
Also, 160,390 Americans will die from lung cancer. Survival rates for 
lung cancer tend to be much lower than those of most other cancers. Men 
have higher rates of lung cancer than women. However, over the past 30 
years, the lung cancer age-adjusted incidence rate has decreased 9 
percent in males compared to an increase of 143 percent in females. 
Further, African Americans are more likely to develop and die from lung 
cancer than persons of any other racial group.
    Given the magnitude of lung cancer and the enormity of the death 
toll, the American Lung Association strongly recommends that the NIH 
and other Federal research programs commit additional resources to lung 
cancer research programs. We support increasing the National Cancer 
Institute budget to $5.111 billion.

                               INFLUENZA

    Influenza is a highly contagious viral infection and one of the 
most severe illnesses of the winter season. It is responsible for an 
average of 200,000 hospitalizations and 36,000 deaths each year. 
Further, the emerging threat of a pandemic influenza is looming. Public 
health experts warn that over half a million Americans could die and 
over 2.3 million could be hospitalized if a moderately severe strain of 
a pandemic flu virus hits the United States. To prepare for a potential 
pandemic, the American Lung Association supports funding the Federal 
Pandemic Influenza Plan at the recommended level of $2.652 billion.

                              TUBERCULOSIS

    Tuberculosis primarily affects the lungs but can also affect other 
parts of the body. There are an estimated 10 million to 15 million 
Americans who carry latent TB infection. Each has the potential to 
develop active TB in the future. About 10 percent of these individuals 
will develop active TB disease at some point in their lives. In 2005, 
there were 14,097 cases of active TB reported in the United States. 
While declining overall TB rates are good news, the emergence and 
spread of multi-drug resistant TB pose a significant threat to the 
public health of our Nation. Continued support is needed if the United 
States is going to continue progress toward the elimination of TB. We 
request that Congress increase funding for tuberculosis programs to 
$252 million for fiscal year 2008.
    The NIH also has a prominent role to play in the elimination of TB. 
Currently there is no highly effective vaccine to prevent TB 
transmission. However, the recent sequencing of the TB genome and other 
research advances has put the goal of an effective TB vaccine within 
reach. In addition, the American Lung Association encourages the 
subcommittee to fully fund the TB vaccine blueprint development effort 
at the NIAID.
Fogarty International Center TB Training Programs
    The Fogarty International Center at NIH provides training grants to 
U.S. universities to teach AIDS treatment and research techniques to 
international physicians and researchers. Because of the link between 
AIDS and TB infection, FIC has created supplemental TB training grants 
for these institutions to train international health care professionals 
in the area of TB treatment and research. However, we believe TB 
training grants should not be offered exclusively to institutions that 
have received AIDS training grants. The TB grants program should be 
expanded and open to competition from all institutions. The American 
Lung Association recommends Congress provide $70 million for FIC to 
expand the TB training grant program from a supplemental grant to an 
open competition grant.

                          ENVIRONMENTAL HEALTH

    The National Institute of Environmental Health Sciences funds vital 
research on the impact of environmental influence on disease. The 
American Lung Association supports increasing the appropriation from 
this subcommittee to $680 million.

          RESEARCHING AND PREVENTING OCCUPATIONAL LUNG DISEASE

    The American Lung Association recommends that the subcommittee 
provide $285 million for the National Institute for Occupational Safety 
and Health (NIOSH) at the CDC.

                               CONCLUSION

    In conclusion, Mr. Chairman, lung disease is a continuing, growing 
problem in the United States. It is America's number three killer, 
responsible for one in seven deaths. The lung disease death rate 
continues to climb. Mr. Chairman, the level of support this committee 
approves for lung disease programs should reflect the urgency 
illustrated by these numbers.
                                 ______
                                 
 Prepared Statement of the American National Red Cross and the United 
                           Nations Foundation

    Chairman Harkin, Senator Specter, and members of the subcommittee, 
the American Red Cross and the United Nations Foundation appreciate the 
opportunity to submit testimony in support of measles control 
activities of the U.S. Centers for Disease Control and Prevention 
(CDC). The American Red Cross and the United Nations Foundation 
recognize the leadership that Congress has shown in funding CDC for 
these essential activities.
    In 2001, CDC--along with the American Red Cross, the United Nations 
Foundation, the World Health Organization, and UNICEF--became one of 
the spearheading partners of the Measles Initiative, a partnership 
committed to reducing measles deaths globally. When the Initiative 
began, the United Nations had set the goal of reducing measles deaths 
by 50 percent by 2005 compared with 1999 figures. Measles is one of the 
leading causes of vaccine-preventable death worldwide, and at its 
outset this partnership committed to meeting that global goal.
    Thanks to your leadership in appropriating funds, the international 
effort to reduce measles deaths has made tremendous progress. In 
January 2007, in an article published in ``The Lancet,'' WHO announced 
that this goal was not only reached, but surpassed: global measles 
deaths had dropped from 873,000 in 1999 to 345,000 in 2005, a reduction 
of 60 percent. In sub-Saharan Africa, the success was even greater 
during those years, with measles deaths dropping by 75 percent, from 
506,000 to 126,000.
    How was this remarkable international public health success 
achieved? Working closely with host governments, the Measles Initiative 
has been the main international supporter of mass measles immunization 
campaigns since 2001. The Initiative mobilized more than $300 million 
and provided technical support to host governments in 48 developing 
countries conducting these vaccination campaigns and improving routine 
vaccination services. As a result, almost 400 million children in 
Africa and Asia received measles immunizations, preventing an estimated 
2.3 million child deaths.
    Nearly all the measles vaccination campaigns have been able to 
reach more than 90 percent of their target populations. Countries 
recognize the opportunities that measles vaccination campaigns provide 
in accessing mothers and young children, and have begun increasingly 
``integrating'' the campaigns with other life-saving health 
interventions. In addition to measles vaccine, Vitamin A (crucial for 
preventing blindness in under nourished children), de-worming medicine, 
and insecticide-treated bed nets (ITNs) for malaria prevention are 
distributed during vaccination campaigns. The scale of these 
distributions is immense. For example, more than 18 million ITNs were 
distributed in vaccination campaigns in the last few years saving more 
than 378,000 lives. Thus, these campaigns protect young children from 
both measles and malaria, which kills an African child every 30 
seconds. The delivery of multiple child health interventions during a 
single campaign is far less expensive than delivering the interventions 
separately, and this strategy increases the potential positive impact 
on children's health from a single campaign.
    Based on the success in reaching the 2005 measles mortality 
reduction goal, a bold new global goal has been set: to reduce measles 
deaths by 90 percent by 2010 compared with 2000 figures. In addition to 
sustaining the reduction of measles cases and deaths in sub-Saharan 
Africa, the Initiative will provide funds and technical support to 
South Asia, where countries with the largest measles burdens are now 
found. Countries such as Pakistan and India have not yet mounted 
national measles vaccination campaigns due to competing health 
priorities and the challenges and costs of vaccinating tens of millions 
of children. Achieving this new goal will require the continued and 
expanded support of CDC for the purchase of vaccine and the provision 
of technical expertise in Africa and Asia.
    By controlling measles cases in other countries, U.S. children are 
also being protected from the disease. A major resurgence of measles 
occurred in the United States between 1989 and 1991, with more than 
55,000 cases reported. This resurgence was particularly severe, 
accounting for more than 11,000 hospitalizations and 123 deaths. Since 
then, measles control measures in the United States have been 
strengthened and endemic transmission of measles cases have been 
eliminated here since 2000. However, importations of measles cases into 
this country continue to occur each year.

           ROLE OF CDC IN GLOBAL MEASLES MORTALITY REDUCTION

    From fiscal year 2001-2007, Congress provided more than $250 
million in funding to CDC for global measles control activities. These 
funds were used for the purchase of over 200 million doses of measles 
vaccine for use in large-scale measles vaccination campaigns in 42 
countries in Africa and 6 countries in Asia, and for the provision of 
technical support to Ministries of Health in those countries. 
Specifically, this technical support includes:
  --Planning, monitoring, and evaluating large-scale measles 
        vaccination campaigns;
  --Conducting epidemiological investigations and laboratory 
        surveillance of measles outbreaks; and
  --Conducting operations research to guide cost-effective and high 
        quality measles control programs.
    In addition, CDC epidemiologists and public health specialists have 
worked closely with WHO, UNICEF, the United Nations Foundation, and the 
American Red Cross to strengthen measles control programs at global and 
regional levels.
    While it is not possible to precisely quantify the impact of CDC's 
financial and technical support to the Measles Initiative, there is no 
doubt that CDC's support--made possible by the funding appropriated by 
Congress--was essential in helping achieve the sharp reduction in 
measles deaths in just 6 years.
    The American Red Cross and the United Nations Foundation would like 
to acknowledge the leadership and work provided by CDC and recognize 
that CDC brings much more to the table than just financial resources. 
The Measles Initiative is fortunate in having a partner that provides 
critical personnel and technical support for vaccination campaigns and 
in response to disease outbreaks. CDC personnel have routinely 
demonstrated their ability to work well with other organizations and 
provide solutions to complex problems that help critical work get done 
faster and more efficiently.
    In fiscal year 2007, Congress has appropriated approximately $43 
million to fund CDC for global measles control activities. The American 
Red Cross and the United Nations Foundation thank Congress for the 
financial support that has been provided to CDC in the past and this 
year. We respectfully request an additional $10 million increase in the 
fiscal year 2008 funding for CDC's measles control activities so that 
the gains made to date can continue and the 2010 goal of a 90 percent 
reduction in measles deaths can be achieved.
    The additional funds we are seeking for CDC are critical for:
  --Sustaining the great progress in measles mortality reduction in 
        Africa by strengthening measles surveillance and strengthening 
        the delivery of measles vaccine through routine immunization 
        services to protect new birth cohorts;
  --Conducting large-scale measles vaccination campaigns in South Asia, 
        thus protecting million of children;
  --Conducting nationwide measles vaccination campaigns in countries, 
        such as the Philippines, lacking access to traditional and new 
        funding sources.
    Your commitment has brought us unprecedented victories in reducing 
measles mortality around the world. Measles can cause severe 
complications and death. Your continued support for this initiative 
helps prevent children from needlessly suffering from this debilitating 
disease in the United States and abroad.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
   Prepared Statement of the American Nephrology Nurses' Association

                              INTRODUCTION

    On behalf of the American Nephrology Nurses' Association (ANNA), I 
appreciate having the opportunity to submit written testimony to the 
Senate Labor, Health, and Human Services (LHHS) Subcommittee regarding 
funding for nursing and nephrology related programs in fiscal year 
2008. ANNA is a professional nursing organization of more than 12,000 
registered nurses practicing in nephrology, transplantation, and 
related therapies. Nephrology nurses use the nursing process to care 
for patients of all ages who are experiencing, or are at risk for, 
kidney disease.
    ANNA understands that Congress has many concerns and limited 
resources, but believes kidney disease is a heavy burden on our society 
that must be addressed. The United States has the highest incidence 
rate of late stage kidney disease in the world.\1\ The direct economic 
cost for treating kidney failure is $20 billion a year in the United 
States and the number of people diagnosed with kidney failure has 
doubled each decade for the last 20 years. Because kidney disease 
imposes such a heavy burden in the United States, we must provide 
adequate funding for research and prevention programs.
---------------------------------------------------------------------------
    \1\ Sources: National Kidney Disease Education Program, American 
Nephrology Nurses' Association.
---------------------------------------------------------------------------
                 KIDNEY DISEASE AND NEPHROLOGY NURSING

    Chronic kidney disease (CKD) is the slow, progressive loss of 
kidney function as a result of abnormalities of the kidney. The 
National Kidney Foundation estimates that around 20 million Americans 
have CKD, and another 20 million are at risk. When CKD patients lose 85 
percent of kidney function, it is known as end stage renal disease 
(ESRD).\2\ When patients reach ESRD, they must receive replacement 
therapy either in the form of dialysis or kidney transplant in order to 
survive. While kidney transplant is a treatment option for many ESRD 
patients, unfortunately the need for donor organs exceeds the supply, 
resulting in long waiting times for those who do not have a living 
donor.
---------------------------------------------------------------------------
    \2\ American Nephrology Nurses' Association. (2006). Chronic Kidney 
Disease Fact Sheet [Brochure]. ANNA Chronic Kidney Disease Special 
Interest Group: Author.
---------------------------------------------------------------------------
    CKD is often undiagnosed until the signs and symptoms related to 
the loss of kidney function materialize. Risk factors for developing 
CKD include increasing age, family history and diabetes. The disease is 
more prevalent in men and people of African American, American Indian, 
Hispanic, Asian, or Pacific Islander descent.
    Since treatment of kidney patients often spans the duration of 
their lifetime, nephrology nurses must be skilled in offering care for 
all stages of life and disease progression. Nephrology nurses work in 
dialysis clinics, hospitals, physician practices, transplant programs, 
and many other settings.
    To ensure that patients receive the best quality care possible, 
ANNA supports Federal programs and research institutions that address 
the national nursing shortage and conduct biomedical research into 
kidney disease and related health problems. Therefore, ANNA 
respectfully requests the Senate LHHS Appropriations Subcommittee 
provide increased funding for the following programs:
nursing workforce and development programs at the health resources and 

                     SERVICES ADMINISTRATION (HRSA)

    ANNA supports efforts to resolve the national nursing shortage, 
including appropriate funding to address the shortage of qualified 
nursing teaching faculty. Nephrology nursing requires a high level of 
education and technical expertise, and ANNA is committed to assuring 
and protecting access to professional nursing care delivered by highly 
educated, well-trained, and experienced registered nurses for 
individuals with kidney disease or other disease processes that require 
replacement therapies.
    According to the Department of Health and Human Services, the 
Nursing Workforce Development programs at HRSA have supported the 
recruitment, education, and retention of an estimated 36,750 nurses. A 
report issued by HRSA, Projected Supply, Demand, and Shortages of 
Registered Nurses: 2000-2020, predicts that the nursing shortage is 
expected to grow by 29 percent by 2020. The HRSA Nursing Workforce 
Development Programs provide the largest source of Federal funding to 
address the national nursing shortage, therefore:
    ANNA strongly supports the national nursing community's request of 
$200 million in fiscal year 2008 funding for Nursing Workforce 
Development programs at HRSA.

   NATIONAL INSTITUTE OF DIABETES AND DIGESTIVE AND KIDNEY DISEASES 
                                (NIDDK)

    As the primary professional caretakers of patients with CKD and 
ESRD, ANNA members support legislative, regulatory, and programmatic 
efforts that promote prevention and management of chronic kidney 
disease, including early diagnosis, education and proactive creation of 
native fistulae for dialysis.
    NIDDK supports and conducts research on many serious diseases, 
including chronic kidney disease and ESRD. Specifically, the National 
Kidney Disease Education Program (NKDEP) at NIDDK is focused on 
reducing the overall mortality and morbidity from kidney disease. The 
programs at NKDEP were created to increase awareness about the 
seriousness of kidney disease, and the importance of prevention, early 
diagnosis, and appropriate management of kidney disease.
    ANNA encourages Congress to support funding for research into and 
prevention of kidney disease by providing the maximum possible funding 
level for NIDDK in fiscal year 2008.

             NATIONAL INSTITUTE OF NURSING RESEARCH (NINR)

    ANNA understands that research is essential for the advancement of 
nursing science, and believes new concepts must be developed and tested 
to sustain the continued growth of the nephrology nursing profession. 
NINR works to create cost-effective and high-quality health care by 
testing new nursing science concepts and investigating how to best 
integrate them into daily practice. NINR has a broad mandate that 
includes seeking to prevent and delay disease and to ease the symptoms 
associated with both chronic and acute illnesses. NINR's recent areas 
of research focus include the following:
  --End of life and palliative care in rural areas;
  --Research in multi-cultural societies;
  --Bio-behavioral methods to improve outcomes research; and
  --Increasing health promotion through comprehensive studies.
    ANNA respectfully requests $150 million in funding for NINR in 
fiscal year 2008 to continue their efforts to address issues related to 
nursing care for chronic and acute illnesses.

                               CONCLUSION

    I appreciate the opportunity to share ANNA's fiscal year 2008 
funding priorities for programs designed to address issues relating to 
kidney disease and provide for a sustainable nursing workforce. 
Providing $200 million in fiscal year 2008 funding to the HRSA Nursing 
Workforce Development programs, $150 million to NINR and the largest 
allocation possible for NIDDK will ensure we are providing adequate 
resources for this fight. ANNA thanks the Senate LHHS Appropriations 
Subcommittee for their consideration and is happy to serve as a 
resource regarding these programs or other kidney disease or nursing 
related issues.
                                 ______
                                 
       Prepared Statement of the American Optometric Association

    The American Optometric Association appreciates the opportunity to 
submit written testimony to the file of the hearing of the Labor, 
Health and Human Services, Education and Related Agencies Subcommittee 
of the Senate Appropriations Committee in support of increased funding 
the National Eye Institute (NEI), of the National Institutes of Health 
(NIH).
    The American Optometric Association represents over 35,000 
practicing Doctors of Optometry across the Nation. As a profession 
devoted to improving the vision care and health of the public, doctors 
of optometry examine eyes and the visual system, treat ocular diseases 
and disorders, and diagnose related systemic conditions.
    Doctors of optometry (ODs) are the primary health care 
professionals for the eye. Optometrists examine, diagnose, treat, and 
manage diseases, injuries, and disorders of the visual system, the eye, 
and associated structures, as well as identify related systemic 
conditions affecting the eye.
  --ODs prescribe medications, low vision rehabilitation, vision 
        therapy, spectacle lenses, contact lenses, and perform certain 
        surgical procedures.
  --Optometrists counsel their patients regarding surgical and non-
        surgical options that meet their visual needs related to their 
        occupations, avocations, and lifestyle.
  --An optometrist has completed pre-professional undergraduate 
        education in a college or university and 4 years of 
        professional education at a college of optometry, leading to 
        the doctor of optometry (O.D.) degree. Some optometrists 
        complete an optional residency in a specific area of practice.
  --Optometrists are eye health care professionals state-licensed to 
        diagnose and treat diseases and disorders of the eye and visual 
        system.
    The American Optometric Association (AOA) requests fiscal year 2008 
National Institutes of Health (NIH) funding at $31 billion, or a 6.7 
percent increase over fiscal year 2007, to balance the biomedical 
inflation rate of 3.7 percent and to maintain the momentum of 
discovery. Although AOA commends the leadership's actions in the 110th 
Congress to increase fiscal year 2007 NIH funding by $620 million, this 
was just an initial step in restoring the NIH's purchasing power, which 
had declined by more than 13 percent since fiscal year 2005. That power 
would be eroded even further under the administration's fiscal year 
2008 budget proposal. Funding would also be eroded even further under 
the administration's fiscal year 2008 budget proposal. AOA commends NIH 
Director, Dr. Elias Zerhouni, who has articulately described his agenda 
to foster collaborative, cost-effective research and to transform the 
health care research and delivery paradigm into one that is predictive, 
preemptive, preventive, and personalized. NIH is the world's premier 
institution and must be adequately funded so that its research can 
reduce health care costs, increase productivity, improve quality of 
life, and ensure our Nation's global competitiveness.
    AOA requests that Congress make eye and vision health a top 
priority by funding the National Eye Institute (NEI) at $711 million in 
fiscal year 2008, or a 6.7 percent increase over fiscal year 2007. This 
level is necessary to fully advance the breakthroughs resulting from 
NEI's basic and clinical research that are resulting in treatments and 
therapies to prevent eye disease and restore vision. Vision impairment/
eye disease is a major public health problem that is growing and that 
disproportionately affects the aged and minority populations, costing 
the United States at least $68 billion annually in direct and societal 
costs, let alone the indirect costs of reduced independence and 
decreased quality of life. Adequately funding the NEI is a cost-
effective investment in our Nation's health, as it can delay, save, and 
prevent expenditures, especially to the Medicare and Medicaid programs.

FUNDING THE NEI AT $711 MILLION IN FISCAL YEAR 2008 WOULD ENABLE IT TO 
     LEAD TRANS-INSTITUTE VISION RESEARCH THAT MEETS NIH'S GOAL OF 
    PREEMPTIVE, PREDICTIVE, PREVENTIVE, AND PERSONALIZED HEALTH CARE

    Funding NEI at $711 million in fiscal year 2008 represents the 
judgment of the AOA and its partners in the eye and vision research 
community as the level necessary to fully advance breakthroughs 
resulting from NEI's basic and clinical research that are resulting in 
treatments and therapies to prevent eye disease and restore vision.
  --NEI research responds to the NIH's overall major health challenges, 
        as set forth by NIH Director Dr. Zerhouni: an aging population; 
        health disparities; the shift from acute to chronic diseases; 
        and the co-morbid conditions associated with chronic diseases 
        (e.g., diabetic retinopathy as a result of the epidemic of 
        diabetes). In describing the predictive, preemptive, 
        preventive, and personalized approach to health care research, 
        Dr. Zerhouni has also frequently cited NEI-funded research as a 
        tangible example of the value of our Nation's past and future 
        investment in the NIH.
    Although NEI's breakthroughs came directly from the past doubling 
of the NIH budget, their long-term potential to preempt, predict, 
prevent, and treat disease relies on adequately funding NEI's follow-up 
research. Unless its funding is increased, the NEI's ability to 
capitalize on the findings cited above will be seriously jeopardized, 
resulting in missed opportunities that include:
  --Following up on the Age-related Macular Degeneration (AMD) gene 
        discovery by developing diagnostics for early detection and 
        developing promising therapies, as well as to further study the 
        impact of the body's inflammatory response on other 
        degenerative eye diseases.
  --Fully investigating the impact of additional, cost-effective 
        dietary supplements in the Age-Related Eye Disease Study 
        (AREDS) study, singly and in combination, to determine if they 
        can demonstrate enhanced protective effects against progression 
        to advanced AMD.
    In addition, NEI research into other significant eye disease 
programs, such as glaucoma and cataract, will be threatened, along with 
quality of life research programs into low vision and chronic dry eye. 
This comes at a time when the U.S. Census and NEI-funded 
epidemiological research (also threatened without adequate funding) 
both cite significant demographic trends that will increase the public 
health problem of vision impairment and eye disease.
vision impairment/eye disease is a major public health problem that is 

  INCREASING HEALTH CARE COSTS, REDUCING PRODUCTIVITY AND DIMINISHING 
                            QUALITY OF LIFE

    The 2000 U.S. Census reported that more than 119 million people in 
the United States were age 40 years or older, which is the population 
most at risk for age-related eye disease. The NEI estimates that, 
currently, more than 38 million Americans age 40 years and older 
experience blindness, low vision or an age-related eye disease such as 
AMD, glaucoma, diabetic retinopathy, or cataracts. This is expected to 
grow to more than 50 million Americans by 2020. The economic and 
societal impact of eye disease is increasing not only due to the aging 
population, but to its disproportionate incidence in minority 
populations and as a co-morbid condition of other chronic, common 
disease, such as diabetes.
    Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of direct health care costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. The continuum of 
vision loss presents a major public health problem and financial 
challenge to both the public and private sectors.
    In public opinion polls over the past 40 years, Americans have 
consistently identified fear of vision loss as second only to fear of 
cancer. As a result, Federal funding for the NEI is a vital investment 
in the health, and vision health, of our Nation, especially our 
seniors, as the treatments and therapies emerging from research can 
preserve and restore vision. Adequately funding the NEI can delay, 
save, and prevent expenditures, especially those associated with the 
Medicare and Medicaid programs, and is, therefore, a cost-effective 
investment.
AOA urges fiscal year 2008 NIH and NEI funding at $31 billion and $711 
        million, respectively
    Of course, vision impairment and eye disease are not limited to the 
middle-aged and the elderly. Public health experts recommend that 
children visit an eye care professional in the first year of life--one 
of the most critical stages of visual development--to identify the 
potential for eye and vision problems.
    In fact, current research shows us that:
  --One in 10 children is at risk from undiagnosed eye and vision 
        problems, which, if undetected, could lead to permanent vision 
        impairment, and in rare cases, life-threatening health risks.
  --Only 14 percent of children from infancy to age 6 have had a 
        comprehensive eye assessment from an eye care professional.
    The NEI has funded several clinical trials in the area of 
children's vision. The VIP Study (Vision in Preschoolers) evaluated the 
best screening tests to identify preschool children in need of vision 
care for amblyopia (``lazy'' eye), strabismus (crossed eyes) and 
significant refractive errors (e.g., nearsightedness or 
farsightedness). The CLEER Study (Collaborative Longitudinal Evaluation 
of Ethnicity and Refractive Error) evaluated the role of ethnicity in 
children's vision conditions. The CITT Study (Convergence Insufficiency 
Treatment Trial) is studying the success rates of treatments for 
convergence insufficiency (eye turns in). The NEI budget should be 
sufficient to permit funding of grants at a high level in the areas of 
strabismus, amblyopia and refractive error. Since about 60 percent of 
Americans have refractive errors requiring eyeglasses or contact 
lenses, research in the cause and prevention of refractive error should 
continue.
    The value of clinical trials to the public cannot be overestimated. 
NEI has a remarkable record of scientific breakthroughs attributed to 
clinical trial research, beginning with studies of diabetic retinopathy 
in the 1970s. NEI clinical trials involve collaboration with many 
institutions, health professionals and thousands of patients. Although 
significant progress has been made, further clinical trial research is 
needed to determine the causes of refractive error and amblyopia in 
children and subsequent prevention of visual impairment.
    In an effort to encourage early detection and treatment, the 
American Optometric Association launched in 2005 a national public 
health initiative to provide no-cost vision assessments for infants. 
The program is called InfantSEE, and it's achieving remarkable results 
for children and their families. Thanks to the more than 7,500 of my 
colleagues from across the country who have volunteered their time and 
expertise to make this optometry's most successful vision saving and 
lifesaving public health initiative, more than 80,000 babies have 
received a vision assessment at no cost from their local optometrist.
                                 ______
                                 
      Prepared Statement of the American Public Health Association

    The American Public Health Association (APHA) is the Nation's 
oldest, largest and most diverse organization of public health 
professionals in the world, dedicated to protecting all Americans and 
their communities from preventable, serious health threats and assuring 
community-based health promotion and disease prevention activities and 
preventive health services are universally accessible in the United 
States. We are pleased to submit our views on Federal funding for 
public health activities in fiscal year 2008.

         RECOMMENDATIONS FOR FUNDING THE PUBLIC HEALTH SERVICE

    APHA's budget recommendation for overall funding for the Public 
Health Service includes funding for the Centers for Disease Control and 
Prevention (CDC), the Health Resources and Services Administration 
(HRSA), the Substance Abuse and Mental Health Services Administration 
(SAMHSA), the Agency for Healthcare Research and Quality (AHRQ), and 
the National Institutes of Health (NIH), as well as agencies outside 
the subcommittee's jurisdiction--the Food and Drug Administration (FDA) 
and the Indian Health Service (IHS).

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    APHA believes that Congress should support CDC as an agency--not 
just the individual programs that it funds. We support a funding level 
for CDC that enables it to carry out its mission to protect and promote 
good health and to assure that research findings are translated into 
effective State and local programs.
    In the best professional judgment of APHA, in conjunction with the 
CDC Coalition--given the challenges and burdens of chronic disease, a 
potential influenza pandemic, terrorism, disaster preparedness, new and 
reemerging infectious diseases, increasing drug resistance to 
critically important antimicrobial drugs and our many unmet public 
health needs and missed prevention opportunities--we believe the agency 
will require funding of at least $10.7 billion including sufficient 
funding to prepare the Nation against a potential influenza pandemic, 
funding for the Agency for Toxic Substances and Disease Registry and to 
maintain the current funding level for the Vaccines for Children (VFC) 
program. This request does not include any additional funding that may 
be required to expand the mandatory VFC in fiscal year 2008.
    APHA appreciates the subcommittee's work over the years, including 
your recognition of the need to fund chronic disease prevention, 
infectious disease prevention and treatment, programs to combat racial, 
ethnic and geographic disparities in health and health care and 
environmental health programs at CDC. Federal funding through CDC 
provides the foundation for our State and local public health 
departments, supporting a trained workforce, laboratory capacity and 
public health education communications systems.
    CDC also serves as the command center for our Nation's public 
health defense system against emerging and reemerging infectious 
diseases. With the for an potential onset of an influenza pandemic, in 
addition to the many other natural and man-made threats, CDC is the 
Nation's--and the world's--expert resource and response center, 
coordinating communications and action and serving as the laboratory 
reference center.
    CDC's budget has actually shrunk since 2005 in terms of real 
dollars--by almost 4 percent. If you add inflation, the cuts are even 
worse--and these are cuts to the core programs of the agency. The 
current administration request for fiscal year 2008 is inadequate, with 
a total cut to core budget categories from fiscal year 2005 to fiscal 
year 2008 of half a billion dollars. We are moving in the wrong 
direction, especially in these challenging times when public health is 
being asked to do more, not less. Funding public health outbreak by 
outbreak is not an effective way to ensure either preparedness or 
accountability. Until we are committed to a strong public health 
system, every crisis will force trade offs.
    CDC serves as the lead agency for bioterrorism preparedness and 
must receive sustained support for its preparedness programs in order 
for our Nation to meet future challenges. APHA supports the proposed 
increase for anti-terrorism activities at CDC, including the increases 
for the Strategic National Stockpile. However, we strongly oppose the 
President's proposed $125 million cut to the State and local capacity 
grants. We ask the subcommittee to restore these cuts to ensure that 
our States and local communities can be prepared in the event of an act 
of terrorism.
    Unfortunately, the President's budget proposes the elimination of 
some very important CDC programs, like the Preventive Health and Health 
Services (PHHS) Block Grant. Within an otherwise-categorical funding 
construct, the PHHS Block Grant is the only source of flexible dollars 
for States and localities to address their unique public health needs. 
The track record of positive public health outcomes from PHHS Block 
Grant programs is strong, yet so many requests go unfunded. We 
encourage the subcommittee to restore the cuts and fund the Prevention 
Block Grant at $131 million.
    We must address the growing disparity in the health of racial and 
ethnic minorities. CDC's Racial and Ethnic Approaches to Community 
Health (REACH), helps States address these serious disparities in 
infant mortality, breast and cervical cancer, cardiovascular disease, 
diabetes, HIV/AIDS and immunizations. Please provide adequate funds for 
this program.
    We encourage the subcommittee to provide adequate funding for CDC's 
Environmental Public Health Services Branch to revitalize environmental 
public health services at the national, State and local level. As with 
the public health workforce, the environmental health workforce is 
declining. Furthermore, the agencies that carry out these services are 
fragmented and their resources are stretched. These services are the 
backbone of public health and are essential to protecting and ensuring 
the health and well being of the American public from threats 
associated with West Nile virus, terrorism, E. coli and lead in 
drinking water. We encourage the committee to provide at least $50 
million for CDC's Environmental Health Tracking Network.
    We also encourage the subcommittee to provide $50 million to CDC 
Environmental Health Activities to develop and enhance CDC's capacity 
to help the Nation prepare for and adapt to the potential health 
effects of global climate change. This new request for funding would 
help prepare State and local health department to prepare for the 
public health impacts of global climate change, allow CDC to fund 
academic and other institutions in their efforts to research the 
impacts of climate change on public health and to create a Center of 
Excellence at CDC to serve as a national resource for health 
professionals, government leaders and the public on climate change 
science.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

    HRSA programs are designed to give all Americans access to the best 
available health care services. Through its programs in thousands of 
communities across the country, HRSA provides a health safety net for 
medically underserved individuals and families, including more than 45 
million Americans who lack health insurance; 50 million Americans who 
live in neighborhoods where primary health care services are scarce; 
African American infants, whose infant mortality rate is more than 
double that of whites; and the estimated 1 to 1.2 million people living 
with HIV/AIDS. Programs to support the underserved place HRSA on the 
front lines in erasing our Nation's racial/ethnic and rural/urban 
disparities in health status. HRSA funding goes where needs exists, in 
communities all over America. In the best professional judgment of 
APHA, to respond to this challenge, the agency will require an overall 
funding level of at least $7.5 billion for fiscal year 2008.
    APHA is gravely concerned about a number of programs that are 
slated for deep cuts or elimination under the administration's budget 
proposal. Building on the HRSA programs that were cut or eliminated in 
the fiscal years 2006 and 2007 appropriations bills, we strongly 
suggest that this trend is moving our Nation in the wrong direction. We 
urge the subcommittee to restore funding to HRSA programs that were cut 
last year, as well as ensure adequate funding for fiscal year 2008 by 
rejecting the proposed cuts contained in the President's budget.
    We express our dismay at the eroding support from the 
administration for some of HRSA's programs. On top of the $250 million 
cut to the agency for fiscal year 2006, the President has proposed 
another $321 million overall cut from last year's appropriated level. 
Under the proposal, total cuts to HRSA since fiscal year 2005 would 
reach more than $570 million, a devastating 8 percent cut in 2 years, 
which has been even more severe for HRSA's core programs from which 
funding has been diverted to fund other administration priorities. We 
urge the subcommittee to restore the cuts delivered to these programs 
in fiscal years 2006 and 2007, and reject the President's proposed cuts 
for fiscal year 2008. We are again concerned that the HRSA health 
professions programs under Title VII and VIII of the Public Health 
Service Act have landed on the chopping block. Today our Nation faces a 
widening gap between challenges to improve the health of Americans and 
the capacity of the public health workforce to meet those challenges. 
These programs help meet the health care delivery needs of the areas in 
this country with severe health professions shortages, at times serving 
as the only source of health care in many rural and disadvantaged 
communities.
    We believe the elimination of the Healthy Community Access Program, 
the Traumatic Brain Injury program, universal newborn hearing screening 
programs, and the Emergency Medical Services for Children Program, will 
further undermine the availability of basic health services for those 
most in need-especially children. The Healthy Community Access Program 
is an example of communities building partnerships among health care 
providers to deliver a broader range of health services to their 
neediest residents. Elimination of the universal newborn hearing 
screening programs in the administration's budget will leave hearing 
impairments in infants undetected, negatively impacting speech and 
language acquisition, academic achievement, and social and emotional 
development. The proposed elimination of EMSC jeopardizes improvements 
made to pediatric emergency care, disproportionately affecting children 
eligible for Medicaid and SCHIP, but not enrolled due to State 
enrollment limits and budgetary pressures, and therefore frequently use 
emergency health services.
    The Maternal and Child Health Block Grant is also operating for a 
third year with less funds than in fiscal year 2005, yet with greater 
needs among pregnant women, infants, and children, particularly those 
with special health care needs.
    We are pleased with the increases proposed by the President for 
programs under the Ryan White CARE Act, administered by HRSA's HIV/AIDS 
Bureau. The CARE Act programs are an important safety net, providing an 
estimated 571,000 people access to services and treatments each year. 
At a time when the number of new domestic HIV/AIDS cases is increasing, 
we support increased funding for these programs.
    Through its many programs, HRSA helps countless individuals live 
healthier lives. APHA believes that with adequate resources, HRSA is 
well positioned to meet these challenges as it continues to provide 
needed health care to the Nation's most vulnerable citizens. Please 
restore funds to these important public health programs.

           AGENCY FOR HEALTHCARE RESEARCH AND QUALITY (AHRQ)

    We request a funding level of $350 million for the AHRQ for fiscal 
year 2008. This level of funding is needed for the agency to fully 
carry out its congressional mandate to improve health care quality, 
including eliminating racial and ethnic disparities in health, reducing 
medical errors, and improving access and quality of care for children 
and persons with disabilities. The cuts proposed in the administration 
budget will severely hamper these efforts.

   SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION (SAMHSA)

    APHA supports a funding level of $3.532 billion for SAMHSA for 
fiscal year 2008. This funding level would provide support for 
substance abuse prevention and treatment programs, as well as continued 
efforts to address emerging substance abuse problems in adolescents, 
the nexus of substance abuse and mental health, and other serious 
threats to the mental health of Americans.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    APHA supports a funding level of $30.869 billion for the NIH for 
fiscal year 2008. The translation of fundamental research conducted at 
NIH provides some of the basis for community based public health 
programs that help to prevent and treat disease.
    In closing, we emphasize that the public health system requires 
financial investments at every stage. Successes in biomedical research 
must be translated into tangible prevention opportunities, screening 
programs, lifestyle and behavior changes, and other interventions that 
are effective and available for everyone. We ask you to think in a 
broad and balanced way, leveraging funding whenever possible to provide 
public health benefits as a matter of routine, rather than emergency.
    We thank the subcommittee for the opportunity to present our views 
on the fiscal year 2008 appropriations for public health service 
programs.
                                 ______
                                 
        Prepared Statement of the American Society of Nephrology

                              INTRODUCTION

    The American Society of Nephrology (ASN) is pleased to submit this 
statement for the record to the Senate Appropriations Subcommittee on 
Labor, Health and Human Services and Education.
    The ASN is a professional society of more than 10,000 researchers, 
physicians, and practitioners committed to the treatment, prevention, 
and cure of kidney disease. Specifically, the ASN strives to enhance 
and assist the study and practice of nephrology, to provide a forum for 
the promulgation of research, and to meet the professional and 
continuing education needs of its members.
    This ASN statement focuses on those issues and programs that most 
immediately fall under the committee's jurisdiction and assist our 
members to fulfill their missions. We want to express our strong 
support for advancing programs supported by the National Institutes of 
Health (NTH) and Agency for Healthcare Research and Quality (AHRQ). The 
ASN thanks the subcommittee for its commitment and steadfast support of 
these programs.

            KIDNEY DISEASE: A GROWING PUBLIC HEALTH CONCERN

    Kidney disease is the ninth leading cause of death in the United 
States. It is estimated that at least 15 million people have lost 50 
percent of their kidney function. Another 20 million more Americans are 
at increased risk of developing kidney disease. The culmination of 
unimpeded progression is end stage renal disease (ESRD), a condition in 
which patients have permanent kidney failure, affects almost 400,000 
Americans and directly causes 50,000 deaths annually. In the past 10 
years, the number of patients in the United States with ESRD has almost 
doubled and it is expected to reach 700,000 by 2015, according to the 
United States Renal Data System (USRDS). ESRD disproportionately 
affects minorities. For example, although they constitute approximately 
12 percent of the U.S. Population, African Americans comprise 32 
percent of the prevalent ESRD population and are nearly four times more 
likely to develop kidney disease than Caucasians. Native Americans are 
twice as likely. The elderly are also disproportionately affected. One 
in four new ESRD patients was 75 or older in 2004. The two major 
therapies for ESRD are dialysis and kidney transplantation. The number 
of patients waiting for a kidney transplant increased from 9,452 in 
1988 to 60,393 in 2004. Almost 50 percent of kidney transplants are 
received by people aged 45-64.

                             ECONOMIC COSTS

    Although no dollar amount can be affixed to human suffering or the 
loss of human life, economic data can help to identify and quantify the 
current and projected future financial costs associated with ESRD. The 
2000 report of the USRDS indicates that the total Medicare ESRD program 
cost will more than double, surpassing $28 billion, by 2010, as the 
prevalence of kidney failure is projected to double. Currently, the 
total Medicare cost for ESRD is nearly $20.1 billion. The annual 
average cost per ESRD patient is approximately $58,000. These 
escalating costs serve to magnify the need to investigate new, and 
better apply, recently proven strategies for preventing progressive 
kidney disease.
    In short, we can treat and maintain patients who have lost their 
kidney function but the critical need is to prevent the loss of kidney 
function and its complications in the first place. Meeting this vital 
goal can only be accomplished through more concerted research and 
education.

                MAJOR CAUSES OF END STAGE RENAL DISEASE

    Diabetes, a disease that affects 18 million Americans, is the most 
common cause of ESRD in the United States, accounting for 44 percent of 
new cases in 2002. The time from the onset of diabetes-related kidney 
disease to kidney failure is 5-7 years. With current projections that 
the epidemic of obesity-related diabetes mellitus will continue to 
soar, a dramatic increase in kidney disease is anticipated in the next 
10 years.
    Hypertension, or high blood pressure, is the next leading cause of 
ESRD, accounting for 27 percent of ESRD patients. Higher rates of 
hypertension can be found among certain age and ethnic groups. For 
example, 35 percent of African Americans have hypertension. Among new 
patients whose kidney failure was caused by high blood pressure, more 
than half (51.2 percent) were African American. It is also a disease of 
the aged and accounts for 37 percent of new ESRD cases in those 65 
years old and above.
    Despite recent progress and discoveries regarding the major causes 
of ESRD, it is among many areas of disease research that remain under-
investigated. Researchers agree that significant inroads in previously 
understudied sub-fields need to be made. Significant among them, more 
focus and direction need to be introduced into the general field of 
renal research and patient and physician education.

                        LACK OF PUBLIC AWARENESS

    A major problem with kidney disease is that it is largely a 
``Silent Disease''. In fact, of the 15 million Americans who have lost 
at least half of their kidney function, the vast majority have no 
knowledge of their condition. While people with chronic kidney disease 
may not show any symptoms, this does not mean that they are not going 
to have long-term damage to their kidney function, requiring dialysis 
or a transplant. These people may also be especially vulnerable to 
cardiovascular disease. If these 15 million people were identified 
early, there are new therapies, particularly special blood pressure 
drugs known as ACE inhibitors, which could be prescribed with 
potentially significant benefits. In addition, vigorous treatment of 
hypertension and other complications that cause illnesses and loss of 
productivity could be administered to the patients.
    Given the cost to human life and to the Federal Government caused 
by the growing public health issues of CKD and ESRD, we urge this 
subcommittee to provide funding increases for kidney disease research.

                        KIDNEY DISEASE RESEARCH

National Institutes of Health (NIH)
    The ASN applauds Congress and members of the subcommittee for 
leading the bipartisan effort to double our investment in promising 
biomedical research supported and conducted by the NIH. NIH has served 
as a vital component in improving the Nation's health through research, 
both on and off the NIH campus, and in the training of research 
investigators, including nephrology researchers. Strides in biomedical 
discovery have had an impact on the quality of life for people with 
kidney disease. If we are to sustain this momentum and translate the 
promise of biomedical research into the reality of better health, this 
Nation must maintain its commitment to medical research. Unfortunately, 
since the doubling ended in 2003, funding for NIH has failed to keep 
pace with biomedical inflation and as a result, the NIH has lost more 
than 13 percent of its purchasing power. We support the recommendation 
of the Ad-Hoc Group for Medical Research Funding to add 6.7 percent to 
the NIH budget for a total of $30.869 in fiscal year 2008.
National Institute of Diabetes, Digestive, and Kidney Diseases (NIDDK)
    Many recent advances have been made in our understanding into the 
causes and progression of renal failure, such as: how diabetes and 
hypertension affect the kidney and the mechanisms responsible for acute 
renal failure. Despite these advances, the number of people with renal 
failure and the numbers who die of renal failure continue to increase 
each year. Most alarming is the significant increase in diabetes, the 
most common cause of chronic kidney failure, and its relationship to 
kidney disease. The ASN believes the rising incidence and prevalence of 
diabetes-related kidney disease warrants additional recourses to 
improve our understanding of the relationship between kidney disease 
and diabetes.
    The NIDDK sponsors a number of activities that researchers hope 
will lead to improved detection, treatment and prevention of kidney 
disease and chronic kidney failure. To ensure ongoing kidney disease 
and kidney disease related research and important clinical trials 
infrastructure development we recommend a 6.7 percent increase for the 
NIDDK over fiscal year 2007 levels.

        ASN RESEARCH GOALS & RECOMMENDATIONS FOR KIDNEY DISEASE

    The ASN continues to evaluate its priorities for future kidney 
disease research. In the fall of 2004, the ASN conducted a series of 
research retreats to develop priorities to combat the growing 
prevalence of kidney disease in the United States. The ASN joined 
experts, both within and outside the renal community, and identified 
five areas requiring attention: acute renal failure, diabetic 
nephropathy, hypertension, transplantation, and kidney-associated 
cardiovascular disease.
    The final research retreat report(s) highlighted priorities and 
contained three overriding recommendations. Theses include:
Development of Core Centers for kidney disease research
    Expansion of the kidney research infrastructure in the United 
States can be achieved by vigorous funding of a program of kidney 
research core centers. Specifically, we propose that the number of 
kidney centers be increased with the goal of providing core facilities 
to support collaborative research on a local, regional and national 
level. It should be emphasized that such a program of competitively 
reviewed kidney core centers would facilitate investigator-initiated 
research in both laboratory and patient-oriented investigation. This 
approach is highly compatible with the collaborative research 
enterprise conceived in the NIH Road Map Initiative.
Support programs/research initiatives that impact the understanding of 

        THE RELATIONSHIP BETWEEN RENAL AND CARDIOVASCULAR DISEASE

    It is now well recognized that chronic kidney dysfunction is an 
important risk factor for the development of cardiovascular disease. It 
is recommended that the NIDDK and NHLBI work cooperatively to support 
both basic and clinical science projects that will shed light on the 
pathogenesis of this relationship and to support the exploration of 
interventions that can decrease cardiovascular events in patients with 
CM). Thus, we specifically propose that NHLBI should support 
investigator-initiated research grants in areas of kidney research with 
a direct relationship to cardiovascular disease. Similarly, NHLBI 
should work collaboratively with NIDDK to support the proposed program 
of kidney core research centers.
Continued support and expansion of investigator initiated research 
        projects
    In each of the five subjects there are areas of fundamental 
investigation that require the support of investigator initiated 
projects, if ultimately progress is to be made in the understanding of 
the basic mechanisms that underlie the diseases processes. It is 
recommended that there should be an expansion of support for research 
in the areas that lend themselves to this mechanism of funding, by 
encouraging applications with appropriate program announcements and 
requests for proposals. In addition to vigorous support for RO1 grants, 
continued funding of Concept Development and R2 1/R33 grants is 
essential to support development of investigator-initiated clinical 
studies in these areas of high priority. Such funding is critical to 
accelerate the transfer of new knowledge from the bench to the bedside.
Agency for Health Care Research and Quality (AHRO)
    Complementing the medical research conducted at NIH, the AHRQ 
sponsors health services research designed to improve the quality of 
health care, decrease health care costs, and provide access to 
essential health care services by translating research into measurable 
improvements in the health care system. The AHRQ supports emerging 
critical issues in health care delivery and addresses the particular 
needs of priority populations, such as people with chronic diseases. 
The ASN firmly believes in the value of AHRQ's research and quality 
agenda, which continues to provide health care providers, policymakers, 
and patients with critical information needed to improve health care 
and treatment of chronic conditions such as kidney disease. The ASN 
supports the Friends of AHRQ recommendation of $350 million for AHRO in 
fiscal year 2008.

                               CONCLUSION

    Currently, there is no cure for kidney disease. The progression of 
chronic renal failure can be slowed, but never reversed. Meanwhile, 
millions of Americans face a gradual decline in their quality of life 
because of kidney disease. In many cases, abnormalities associated with 
early stage chronic renal failure remain undetected and are not 
diagnosed until the late stages. In sum, chronic renal failure requires 
our serious and immediate attention.
    As practicing nephrologists, ASN members know firsthand the 
devastating effects of renal disease. ASN respectfully requests the 
subcommittees' continued support to enable the nephrology community to 
continue with its efforts to find better ways to treat and prevent 
kidney disease.
    Thank you for your continued support for medical research and 
kidney disease research. To obtain further information about ASN, 
please go to http://www.asn-online.org or contact Paul Smedberg, ASN 
Director of Policy & Public Affairs at 202-416-0646.
                                 ______
                                 
    Prepared Statement of the American Society for Pharmacology and 
                       Experimental Therapeutics

    The American Society for Pharmacology and Experimental Therapeutics 
(ASPET) is pleased to submit written testimony in support of the 
National Institutes of Health fiscal year 2008 budget. ASPET is a 4,500 
member scientific society whose members conduct basic and clinical 
pharmacological research within the academic, industrial and government 
sectors. Our members discover and develop new medicines and therapeutic 
agents that fight existing and emerging diseases as well as increasing 
our knowledge regarding how these therapeutics work.
    ASPET members are grateful for the U.S. Congress' historic support 
of the NIH. However, appropriations in recent years have failed to 
adequately fund the NIH to meet the scientific opportunities and 
challenges to our public health. For the fourth year in a row, the NIH 
research portfolio will not keep pace with the Biomedical Research and 
Development Price Index. After a 5 year bipartisan plan to double the 
NIH budget that ended in 2003, the budget in now going backwards. The 
administration's recommended fiscal year 2008 budget, if enacted would 
mean that the NIH's ability to conduct biomedical research would be cut 
by more than 13 percent in inflation adjusted dollars since fiscal year 
2003.
    To prevent this erosion and sustain the biomedical research 
enterprise, ASPET recommends that the NIH receive $30.8 billion in 
fiscal year 2008. This would represent an increase of 6.7 percent ($1.9 
billion) over the fiscal year 2007 Joint Funding Resolution passed by 
Congress. ASPET joins other biomedical research organizations and 
professional societies, including the Ad Hoc Group for Medical 
Research, the Federation of American Societies for Experimental biology 
(FASEB), and Research!America, in advocating for a 6.7 percent increase 
in each of the next 3 years to help regain the momentum of discovery 
and pre-eminent research, and to help increase NIH's purchasing power 
and recover the losses caused by biomedical research inflation.

          NIH IMPROVES HUMAN HEALTH AND IS AN ECONOMIC ENGINE

    Recent budget levels for the NIH constitute a retraction in the 
budget, sending the wrong signal to the best and brightest of American 
students who will not be able to or have chosen not to pursue a career 
in biomedical research. A diminished NIH research enterprise will mean 
a continued reduction in research grants and the resulting phasing-out 
of research programs and declining morale, an increasing loss of 
scientific opportunities such as the discovery of new therapeutic 
targets to develop, fewer discoveries that produce spin-off companies 
that employ individuals in districts around the country. In contrast, 
the requested funding level would provide the institutes with an 
opportunity to raise or at least maintain their paylines, fund more 
high quality and innovative research, and provide an incentive for 
young scientists to continue their research careers.
    Many important drugs have been developed as a direct result of the 
basic knowledge gained from federally funded research, such as new 
therapies for breast cancer, the prevention of kidney transplant 
rejection, improved treatments for glaucoma, new drugs for depression, 
and the cholesterol lowering drugs known as statins that prevent 
125,000 deaths from heart attack each year. AIDS related deaths have 
fallen by 73 percent since 1995 and the 5-year survival rate for 
childhood cancers rose to almost 80 percent in 2000 from under 60 
percent in the 1970s. And for the first time in 70 years, the number of 
deaths from cancer has fallen. The link between basic research, drug 
discovery and clinical applications was vividly illustrated when three 
pharmacologists were awarded the 1998 Nobel Prize in Physiology or 
Medicine for their research on nitric oxide. More recently, NIH funded 
research for the 2005 Nobel Prize winners in chemistry. These 
scientists developed metal-containing molecules that are now being used 
by the pharmaceutical industry to aid in the drug discovery process. 
Historically, our past investment in basic biological research has led 
to innovative medicines that have virtually eliminated diphtheria, 
whooping cough, measles and polio in the United States 8 out of 10 
children now survive leukemia. Death rates from heart disease and 
stroke have been reduced by half in the past 30 years. Molecularly 
targeted drugs such as Gleevec<SUP>TM</SUP> to treat adult leukemia do 
not harm normal tissue and dramatically improve survival rates. NIH 
research has developed a class of drugs that slow the progression of 
symptoms of Alzheimer's disease. The robust past investment in the NIH 
has provided major gains in our knowledge of the human genome, 
resulting in the promise of pharmacogenetics and a reduction in adverse 
drug reactions that currently represent a major, worldwide health 
concern. But unless more robust funding is restored, such scientific 
opportunities from the human genome investment and others will be 
delayed, lost, or forfeited to biomedical research opportunities in 
other countries.
    The human cost of not adequately investing in the NIH impact us 
all. The total economic cost to our Nation is also staggering: cancer, 
$190 billion; obesity, $99 billion; heart disease, $255 billion; 
diabetes, $131 billion; and arthritis, $125 billion.
    Scientific inquiry leads to better medicine but there remain 
challenges and opportunities that need to be addressed, including:
  --The need to increase support for training and research in 
        integrative/whole organ science to see how drugs act not just 
        at the molecular level--but also in whole animals, including 
        human beings.
  --The need to meet public health concerns over growing consumer use 
        of botanical therapies and dietary supplements. These products 
        have unsubstantiated scientific efficacy and may adversely 
        impact the treatment of chronic diseases, create dangerous 
        interactions with prescription drugs, and may cause serious 
        side effects including death among some users.

              SUPPORT FOR INTEGRATIVE ORGAN SYSTEM SCIENCE

    ASPET supports efforts to increase funding for training and 
research in integrative organ system science (IOSS). IOSS is the study 
of responses in organs and organisms, including intact animals. 
Identification of isolated cellular and molecular components of drugs 
in vitro are important for identifying mechanisms of actions but are 
inadequate in determining all the complex interactions that happen in 
vivo in the actual organs of species. Because of the great advances in 
cellular and molecular biology over the past two decades, there has 
been much less emphasis in whole organ biology such that academic 
infrastructure in this area has eroded and there remain few faculty and 
institutions that can provide the appropriate scientific training in 
this important area of research. Too few individuals have opportunities 
to be trained beyond cellular and molecular techniques. As a 
consequence, the pool of talent with expertise in whole organs has 
greatly diminished and the biotechnology and pharmaceutical industry 
are having great difficulty finding well-trained whole organ scientists 
to fill critical positions in their drug discovery departments. As a 
result of this training and research deficit, a more thorough and 
comprehensive examination of new therapeutic approaches may be 
compromised before clinical trials begin.
    The lack of training and research opportunities to develop 
scientists well rounded in cellular, molecular and in vivo whole organ 
biology impacts progress in medicine and the training of future 
physicians. Development of preventive approaches and effective 
therapeutic strategies for many disorders with devastating health 
consequences and increasing incidence in an aging population will 
require intensive study at all levels from molecular to whole organ. 
For instance, obesity is not just a metabolic disorder. Obesity impacts 
many organ functions, including the heart, circulatory system, and 
brain. Similarly, clinical depression should not be viewed as just a 
neurological disorder because depression affects multiple organs in a 
variety of ways. And the discovery of new drugs to treat 
neurodegenerative diseases such as Alzheimer's and Parkinson's will 
ultimately need to look at complex whole animal systems. For these 
reasons, scientists must be trained to look broadly at complex medical 
problems afflicting humans. Medical progress in the post-genomic era 
needs scientists or teams of scientists who can integrate the results 
of studies in gene function at the molecular, cellular, organ system, 
whole animal and behavioral levels to fully understand the actions of 
current drugs and to facilitate the development of safe new drugs and 
treatment strategies.
    To reverse the decline and adequately support training and research 
in integrative organ systems, integrative biology, program project 
grants, and pre and post-doctoral training programs should be 
implemented that support integrative training and research activities. 
Multi-disciplinary institutional and individual training and research 
grants on whole systems and integrative biology should be funded to 
investigate disease processes. ASPET is pleased that the National 
Institute of General Medical Sciences has recognized this training and 
research deficit and has funded four summer workshops to train students 
in integrative whole organ sciences. ASPET encourages other institutes 
to explore available mechanisms to begin developing a pool of talented 
scientists with the appropriate skills in integrative, whole organ 
systems biology. While many industrial concerns provide limited support 
for training and research at the post-doctoral level, their efforts 
remain necessarily focused on drug discovery and development. It is the 
role of the NIH and academic institutions to provide adequate training 
opportunities to develop the next generation of integrative scientists.
    Support for training and research in integrative whole organ 
sciences has been affirmed in the fiscal year 2002 U.S. Senate Labor/
Health and Human Services & Related Agencies Appropriations Report 
(107-84). The Senate report supports ASPET recommendation that 
``Increased support for research and training in whole systems 
pharmacology, physiology, toxicology, and other integrative biological 
systems that help to define the effects of therapy on disease and the 
overall function of the human body.'' These principles and 
recommendations are also affirmed in the FASEB Annual Consensus 
Conference Report on Federal Funding for Biomedical and Related Life 
Sciences Research for Fiscal Year 2002.

SUPPORT FOR RESEARCH ON BOTANICALS AND HERBAL THERAPIES TO MEET PUBLIC 
                              HEALTH NEEDS

    ASPET has for years supported peer-reviewed pharmacological 
examination of the mechanisms of actions of medicinal plants and is 
pleased that the NIH's National Center for Complementary and 
Alternative Medicine (NCCAM) continues rigorous investigations into the 
basic biology of various botanical agents. ASPET continues to recommend 
increased support to study the interaction of botanical remedies and 
dietary supplements with prescription medications. This support is 
critical to the promotion and funding of the highest quality research 
in botanical medicine, will help meet urgent needs of this neglected 
area of biological research, and will address a growing public health 
problem. Support for highly innovative research on botanicals should be 
encouraged among all institutes and centers.
    The increased use of botanical and dietary supplements by consumers 
to treat various ailments and diseases is a major public health 
concern. One national survey reported that in 1997 an estimated 15 
million adults (18.4 percent of all prescription users) took herbal 
remedies concurrently with prescription medicines. Between 1990 and 
1997, the use of herbal products grew by 380 percent. Although there is 
little solid scientific evidence to support the therapeutic efficacy of 
many botanical and dietary supplement products, the industry records 
over $19 billion in annual sales. Botanical products were once 
regulated as drugs and the FDA had authority to prevent the sale of 
unproven herbal ingredients. However, legislative reforms in 1994 
eliminated the FDA's authority to test or approve herbal products prior 
to marketing. Thus, at a time when many more consumers are using more 
herbal products, there is little research on either their clinical 
efficacy or basic mechanisms of action. The growing use of herbal 
products by consumers, their interactions with prescription drugs--and 
mechanisms of such interactions--represent a serious and growing public 
health problem that demands scientific attention and redress by 
regulatory and legislative action.
    Through the NIH, research into the safety and efficacy of botanical 
products can be conducted in a rigorous and high quality manner. Sound 
pharmacological studies will help determine the value of botanical 
preparations and the potential for their interactions with prescription 
drugs as well as chronic disease processes. This research will allow 
the FDA to review the available pharmacology and review valid evidence-
based reviews to form a valid scientific foundation for regulating 
these products.

                               CONCLUSION

    The biomedical research enterprise is facing a critical moment as 
funding stagnates. Reversing this trend and helping to sustain the 
extraordinary scientific progress that has been made at the NIH and at 
the academic institutions funded by the NIH over the past years is a 
major challenge facing this subcommittee. A 6.7 percent increase for 
the NIH in fiscal year 2008 will allow the NIH to make greater strides 
to prevent, diagnose and treat disease, improving the health of our 
Nation. A 6.7 percent increase in the fiscal year 2008 NIH budget will 
begin to restore NIH's role as a national treasure that attracts and 
retains the best and brightest scientists to biomedical research.
                                 ______
                                 
  Prepared Statement of the American Society of Tropical Medicine and 
                                Hygiene

                                OVERVIEW

    The American Society of Tropical Medicine and Hygiene appreciates 
the opportunity to submit written testimony to the House Labor, Health 
and Human, Services, and Education Appropriations Subcommittee. With 
more than 3,300 members, ASTMH is the world's largest professional 
membership organization dedicated to the prevention and control of 
tropical diseases. We represent, educate, and support tropical medicine 
scientists, physicians, clinicians, researchers, epidemiologists, and 
other health professionals from this field.
    We respectfully request that the subcommittee provide the following 
allocations in the fiscal year 2008 Labor, Health and Human, Services, 
and Education Appropriations bill to support a comprehensive effort to 
eradicate malaria:
  --$18 million to the Centers for Disease and Control and Prevention 
        (CDC) for malaria research, control, and program evaluation 
        efforts with a $6 million set-aside for program monitoring and 
        evaluation;
  --$30.8 billion to National Institutes of Health (NIH);
  --$4.7 billion to the National Institute of Allergy and Infectious 
        Diseases (NIAID); and
  --$70.8 million to the Fogarty International Center (FIC).
    We very much appreciate the subcommittee's consideration our views, 
and we stand ready to work with the subcommittee members and staff on 
these and other important global health matters.

                                 ASTMH

    ASTMH plays an integral and unique role in the advancement of the 
field of tropical medicine. Its mission is to promote world health by 
preventing and controlling tropical diseases through research and 
education. As such, the Society is the principal membership 
organization representing, educating, and supporting tropical medicine 
scientists, physicians, researchers, and other health professionals 
dedicated to the prevention and control of tropical diseases. Our 
members reside in 46 States and the District of Columbia and work in a 
myriad of public, private, and non-profit environments, including 
academia, the U.S. military, public institutions, Federal agencies, 
private practice, and industry.
    ASTMH aims to advance policies and programs that prevent and 
control those tropical diseases which particularly impact the global 
poor.

                TROPICAL MEDICINE AND TROPICAL DISEASES

    The term ``tropical medicine'' refers to the wide-ranging clinical 
work, research, and educational efforts of clinicians, scientists, and 
public health officials with a focus on the diagnosis, mitigation, 
prevention, and treatment of diseases prevalent in the areas of the 
world with a tropical climate. Most tropical diseases are located in 
either sub-Saharan Africa, parts of Asia (including the Indian 
subcontinent), or Central and South America. Many of the world's 
developing nations are located in these areas; thus tropical medicine 
tends to focus on diseases that impact the world's most impoverished 
individuals.
    The field of tropical medicine encompasses clinical work treating 
tropical diseases, work in public health and public policy to prevent 
and control tropical diseases, basic and applied research related to 
tropical diseases, and education of health professionals and the public 
regarding tropical diseases.
    Tropical diseases are illnesses that are caused by pathogens that 
are prevalent in areas of the world with a tropical climate. These 
diseases are caused by viruses, bacteria, and parasites which are 
spread through various mechanisms, including airborne routes, sexual 
contact, contaminated water and food, or an intermediary or 
``vector''--frequently an insect (e.g. a mosquito)--that transmits a 
disease between humans in the process of feeding.

                                MALARIA

    Malaria is a global emergency affecting mostly poor women and 
children; it is an acute and sometimes fatal disease caused by the 
single-celled Plasmodium parasite that is transmitted to humans by the 
female Anopheles mosquito.
    Malaria is highly treatable and preventable. The tragedy is that 
despite this, malaria is one of the leading causes of death and disease 
worldwide. According to the CDC, as many as 2.7 million individuals die 
from malaria each year, with 75 percent of those deaths occurring in 
African children. In 2002, malaria was the fourth leading cause of 
death in children in developing countries, causing 10.7 percent of all 
such deaths. Malaria-related illness and mortality extract a 
significant human toll as well as cost Africa's economy $12 billion per 
year perpetuating a cycle of poverty and illness. Nearly 40 percent of 
the world's population lives in an area that is at high risk for the 
transmission of malaria.
    Fortunately, malaria can be both prevented and treated using four 
types of relatively low-cost interventions: (1) the indoor residual 
spraying of insecticide on the walls of homes; (2) long-lasting 
insecticide-treated nets; (3) Artemisinin-based combination therapies; 
and (4) intermittent preventive therapy for pregnant women. However, 
limited resources preclude the provision of these interventions and 
treatments to all individuals and communities in need.
        requested malaria-related activities and funding levels
CDC Malaria Efforts
    ASTMH calls upon Congress to fund a comprehensive approach to 
malaria control, including public health infrastructure improvements, 
increased availability of existing anti-malarial drugs, development of 
new anti-malarial drugs and better diagnostics, and research to 
identify an effective malaria vaccine. Much of this important work 
currently is underway; however, additional funds and a sustaining 
commitment from the Federal Government are necessary to make progress 
in malaria prevention, treatment, and control.
    The CDC conducts research to address pertinent questions regarding 
issues related to malaria as well as engages in prevention and control 
efforts, especially as a lead collaborator on the President's Malaria 
Initiative. To maximize CDC's efforts and expertise, we request $18 
million for the CDC for malaria research, control, and program 
evaluation efforts with a $6 million set-aside for program monitoring 
and evaluation. The CDC maintains several domestic activities, 
international activities, and research activities, including:
  --Surveillance of malaria
  --Investigations of locally transmitted malaria
  --Advice and consultations such as a toll-free information service
  --Diagnostic assistance to State health departments on malaria 
        diagnosis
  --Research to improve understanding of malaria
  --International Activities including the President's Malaria 
        Initiative (PMI), the Amazon Malaria Initiative (AMI), the West 
        Africa Network against Malaria during Pregnancy
    CDC collaborations support treatment and prevention policy change 
based on scientific findings; formulation of international 
recommendations through membership on World Health Organization (WHO) 
technical committees; and work with Ministries of Health and other 
local partners in malaria-endemic countries and regions to develop, 
implement, and evaluate malaria programs. In addition, CDC has provided 
direct staff support to WHO; UNICEF; the Global Fund to Fight AIDS, 
Tuberculosis, and Malaria; and the World Bank--all stakeholders in the 
Roll Back Malaria (RBM) Partnership.
NIH Malaria Efforts
    As the Nation's and world's premier biomedical research agency, the 
NIH and its Institutes and Centers play an essential role in the 
development of new anti-malarial drugs, better diagnostics, and an 
effective malaria vaccine. NIH estimates that its fiscal year 2007 
spending on malaria research will total $101 million while malaria 
vaccine efforts will receive $45 million. ASTMH urges that NIH malaria 
research portfolio and budget be increased by at least 6.7 percent in 
fiscal year 2008. To support a comprehensive effort to eradicate 
malaria, ASTMH respectfully requests the following funding:
  --$30.8 billion to NIH;
  --$4.7 billion NIAID; and
  --$70.8 million to the Fogarty International Center to support 
        training in biomedical research on behalf of the developing 
        nations of the world.
National Institute of Allergy and Infectious Diseases (NIAID)
    NIH estimates that in fiscal year 2007 it will spend approximately 
$101 million for malaria research and $45 million for research related 
specifically to creating a malaria vaccine. NIAID, the lead institute 
for this research, has developed an Implementation Plan for Global 
Research on Malaria, which is focused on five research areas: vaccine 
development, drug development, diagnostics, vector control, and 
infrastructure and research capability strengthening.
  --Vaccine Development.--No malaria vaccine currently exists. NIAID 
        introduced a research agenda for malaria vaccine development in 
        1997, the aim of which is to support discovery and 
        characterization of new vaccine candidates, production of pilot 
        lots, and clinical evaluation of promising candidate vaccines.
  --Drug Development.--Drug-resistant malaria increasingly is being 
        reported around the world. NIAID is involved in improving the 
        monitoring of drug resistance and developing new drugs.
  --Diagnostics.--Improved diagnostic tools are essential in making 
        early diagnosis and providing rapid treatment.
  --Vector Control.--NIAID is working to create next-generation, 
        environmentally-friendly insecticides for public health use.
  --Strengthening Infrastructure and Research Capability.--NIAID is 
        working with partners to strengthen research capabilities of 
        scientists in their own countries.
    ASTMH encourages the subcommittee to increase funding for NIAID to 
ensure that we do not lose ground in the fight against malaria.
Fogarty International Center (FIC)
    The FIC addresses global health challenges and supports the NIH 
mission through myriad activities, including: collaborative research 
and capacity building projects relevant to low- and middle-income 
nations; institutional training grants designed to enhance research 
capacity in the developing world; the Forum for International Health, 
through which NIH staff share ideas and information on relevant 
programs and develop input from an international perspective on cross-
cutting NIH initiatives; the Multilateral Initiative on Malaria, which 
fosters international collaboration and co-operation in scientific 
research against malaria; and the Disease Control Priorities Project, 
which is a partnership to develop recommendations on effective health 
care interventions for resource-poor settings. ASTMH urges the 
subcommittee to allocate additional resources to the FIC in fiscal year 
2008 to increase these efforts, particularly as they apply to abatement 
and treatment of malaria.

                               CONCLUSION

    Thank you for your attention to these important global health 
matters. We know that you face many challenges in choosing funding 
priorities and we hope that you will provide the requested fiscal year 
2008 resources to those agencies programs identified above. ASTMH 
appreciates the opportunity to share its views, and we thank you for 
your consideration of our requests.
                                 ______
                                 
          Prepared Statement of the American Thoracic Society

                    SUMMARY.--FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
National Institutes of Health.............................      30,537
    National Heart, Lung and Blood Institute..............       3,114
    National Institute of Allergy and Infectious Disease..       4,675
    National Institute of Environmental Health Sciences...         683
    Fogarty International Center..........................          70
    National Institute of Nursing Research................         146
Centers for Disease Control and Prevention................      10,700
    National Institute for Occupational Safety and Health.         253
    Environmental Health: Asthma Activities...............          70
    Tuberculosis Control Programs.........................         252.4
------------------------------------------------------------------------

    The American Thoracic Society (ATS) is pleased to submit our 
recommendations for programs in the Labor Health and Human Services and 
Education Appropriations Subcommittee purview.
    The American Thoracic Society, founded in 1905, is an independently 
incorporated, international education and scientific society that 
focuses on respiratory and critical care medicine. For 100 years, the 
ATS has continued to play a leadership role in scientific and clinical 
expertise in diagnosis, treatment, cure and prevention of respiratory 
diseases. With approximately 18,000 members who help prevent and fight 
respiratory disease around the globe, through research, education, 
patient care and advocacy, the Society's long-range goal is to decrease 
morbidity and mortality from respiratory disorders and life-threatening 
acute illnesses.

                        LUNG DISEASE IN AMERICA

    Lung disease is a serious health problem in the United States. Each 
year, close to 400,000 Americans die of lung disease. Lung disease is 
responsible for one in every seven deaths, making it America's number 
three cause of death. More than 35 million Americans suffer from a 
chronic lung disease. In 2005, lung diseases cost the U.S. economy an 
estimated $157.8 billion in direct and indirect costs.
    Lung diseases represent a spectrum of chronic and acute conditions 
that interfere with the lung's ability to extract oxygen from the 
atmosphere, protect against environmental or biological challenges and 
regulate a number of metabolic processes. Lung diseases include chronic 
obstructive pulmonary disease, lung cancer, tuberculosis, influenza, 
sleep disordered breathing, pediatric lung disorders, occupational lung 
disease, sarcoidosis, asthma and severe acute respiratory syndrome 
(SARS).
    The ATS is pleased that the subcommittee provided increases in the 
National Institutes of Health (NIH) budget last fiscal year. However, 
we are extremely concerned that the President's fiscal year 2008 budget 
proposes a 1.7 percent cut for NIH and significant cuts for the Centers 
for Disease Control and Prevention (CDC). We ask that this subcommittee 
recommend a 6.7 percent increase for NIH so that the NIH can respond to 
biomedical research opportunities and public health needs. In order to 
stem the devastating effects of lung disease, research funding must 
continue to grow to sustain the medical breakthroughs made in recent 
years. We also ask that the CDC budget be adjusted to reflect increased 
needs in chronic disease prevention, infectious disease control, 
including strengthened TB control to prevent the spread of extensively 
drug-resistant (XDR)-TB, and occupational safety and health research 
and training. There are three lung diseases that illustrate the need 
for further investment in research and public health programs: Chronic 
Obstructive Pulmonary Disease, pediatric lung disease, asthma and 
tuberculosis.

                                  COPD

    Chronic Obstructive Pulmonary Disease (COPD) is the fourth leading 
cause of death in the United States and the third leading cause of 
death worldwide. Yet, COPD remains relatively unknown to most 
Americans. COPD is the term used to describe the airflow obstruction 
associated mainly with emphysema and chronic bronchitis and is a 
growing health problem.
    While the exact prevalence of COPD is not well defined, it affects 
tens of millions of Americans and can be an extremely debilitating 
condition. It is estimated that 11.2 million patients have COPD while 
an additional 12 million Americans are unaware that they have this life 
threatening disease.
    According to the National Heart, Lung and Blood Institute (NHLBI), 
COPD cost the U.S. economy an estimated $37 billion per year. We 
recommend the subcommittee encourage NHLBI to devote additional 
resources to finding improved treatments and a cure for COPD.
    Medical treatments exist to relieve symptoms and slow the 
progression of the disease. Today, COPD is treatable but not curable. 
Fortunately, promising research is on the horizon for COPD patients. 
Despite these leads, the ATS feels that research resources committed to 
COPD are not commensurate with the impact the disease has on the United 
States and that more needs to be done to make Americans aware of COPD, 
its causes and symptoms. The ATS commends the NHLBI for its leadership 
on educating the public about COPD through the National COPD Education 
and Prevention Program. As this initiative continues, we encourage the 
NHLBI to maintain its partnership with the patient and physician 
community.
    While additional resources are needed at NIH to conduct COPD 
research, CDC has a role to play as well. The ATS encourages the CDC to 
add COPD-based questions to future CDC health surveys, including the 
National Health and Nutrition Evaluation Survey (NHANES), the National 
Health Information Survey (NHIS) and the Behavioral Risk Factor 
Surveillance Survey (BRFSS). By collecting information on the 
prevalence of COPD, researchers and public health professionals will be 
better able to understand and control the disease.

                         PEDIATRIC LUNG DISEASE

    Lung disease affects people of all ages. The ATS is pleased to 
report that infant death rates for various lung diseases have declined 
for the past 10 years. However, of the seven leading causes of infant 
mortality, four are lung diseases or have a lung disease component. In 
2003, lung diseases accounted for 18 percent of all deaths under 1 year 
of age. It is also widely believed that many of the precursors of adult 
respiratory disease start in childhood. The ATS encourages the NHLBI to 
continue with its research efforts to study lung development and 
pediatric lung diseases.
    The pediatric origins of chronic lung disease extend back to early 
childhood factors. For example, many children with respiratory illness 
are growing into adults with COPD. In addition, it is estimated that 
close to 20.5 million people suffer from asthma, including an estimated 
6.2 million children. While some children appear to outgrow their 
asthma when they reach adulthood, 75 percent will require life-long 
treatment and monitoring of their condition. Asthma is the third 
leading cause of hospitalization among children under the age of 15 and 
is the leading cause of chronic illness among children.

                                 ASTHMA

    The ATS believes that the NIH and the CDC must play a leadership 
role in assisting individuals with asthma. National statistical 
estimates show that asthma is a growing problem in the United States. 
Approximately 22.2 million Americans currently have asthma, of which 
12.2 million had an asthma attack in 2005. African Americans have the 
highest asthma prevalence of any racial/ethnic group. The age-adjusted 
death rate for asthma in the African-American population is three times 
the rate in whites.

                          ASTHMA SURVEILLANCE

    There is a need for more data on regional and local asthma 
prevalence. In order to develop a targeted public health strategy to 
respond intelligently to asthma, we need locality-specific data. CDC 
should take the lead in collecting and analyzing this data and Congress 
should provide increased funding to build this these tracking systems.
    In fiscal year 2007, Congress provided approximately $31.9 million 
for CDC's National Asthma Control Program. The goals of this program 
are to reduce the number of deaths, hospitalizations, emergency 
department visits, school or work days missed, and limitations on 
activity due to asthma. We recommend that CDC be provided with $70 
million in fiscal year 2008 to expand the program and establish grants 
to community organizations for screening, treatment, education and 
prevention of childhood asthma.

                                 SLEEP

    Sleep is an essential element of life, but we are only now 
beginning to understand its impact on human health. Several research 
studies demonstrate that sleep illnesses and sleep disordered breathing 
affect over 50 million Americans. The public health impact of sleep 
illnesses and sleep disordered breathing is still being determined, but 
is known to include traffic accidents, lost work and school 
productivity, cardiovascular disease, obesity, mental health disorders, 
and other sleep-related comorbidities. We cannot appropriately address 
these problems if we do not consider how chronic sleep loss contributes 
to them. Despite the increased need for study in this area, research on 
sleep and sleep-related disorders has been underfunded. The ATS 
recommends increased funding to support activities related to sleep and 
sleep disorders at the CDC, including for the National Sleep Awareness 
Roundtable (NSART), and research on sleep disorders at the Nation 
Center for Sleep Disordered Research (NCSDR) at the NHLBI.

                              TUBERCULOSIS

    Tuberculosis (TB) is a global public health crisis that remains a 
concern for the United States. Tuberculosis is an airborne infection 
caused by a bacterium, Mycobacterium tuberculosis. Tuberculosis 
primarily affects the lungs but can also affect other parts of the 
body, such as the brain, kidneys or spine. The statistics for TB are 
alarming. Globally, one-third of the world's population is infected 
with the TB germ, 8.8 million active cases develop each year and 1.6 
million people die of tuberculosis annually. It is estimated that 9-14 
million Americans have latent tuberculosis. Tuberculosis is the leading 
cause of death for people with HIV/AIDS.
    According to the CDC, although the overall rate of new TB cases is 
declining in the United States, the annual rate of decrease in TB cases 
has slowed significantly, from about 7.3 percent (1993 to 2000) to 3.8 
percent currently (2000-2006). This rate represents one of the smallest 
declines since 1992, when over $1 billion was spent in New York City 
alone to regain control of TB. The ATS is concerned that TB rates in 
African Americans remain high and that TB rates in foreign-born 
Americans are growing.
    The emergence of extensively drug-resistant XDR-TB has created a 
global health emergency. Because it is resistant to most of the drugs 
used to treat TB, XDR-TB is virtually untreatable and has an extremely 
high fatality rate. In one of the latest outbreaks in South Africa from 
late 2005 until early 2006, XDR-TB killed 52 out of 53 infected 
patients. According to data released by the CDC in March, between 1993 
and 2006, there were 49 reported XDR-TB cases in the United States. 
Because of the ease with which TB can spread, XDR TB will continue to 
pose a serious risk to the United States as long as it exists anywhere 
else in the world.
    While we urge immediate action in response to the XDR-TB emergency, 
we also recognize the best way to prevent the future development of 
other resistant strains of tuberculosis is through supporting effective 
tuberculosis control programs in the United States and throughout the 
globe. We ask the subcommittee to take the first steps to eliminating 
TB in the United States and prevent further outbreaks of drug resistant 
forms of TB. The ATS, in collaboration with the National Coalition for 
Elimination of Tuberculosis, recommends an increase of $120 million in 
fiscal year 2008 for CDC's National Program for the Elimination of 
Tuberculosis.
    The NIH also has a prominent role to play in the elimination of 
tuberculosis. Currently there is no highly effective vaccine to prevent 
TB transmission. However, the recent sequencing of the TB genome and 
other research advances have put the goal of an effective TB vaccine 
within reach. The National Institute of Allergy and Infectious Disease 
has developed a Blueprint for Tuberculosis Vaccine Development. We 
encourage the subcommittee to fully fund the TB vaccine blueprint. We 
also encourage the NIH to continue efforts to develop drugs to combat 
multi-drug resistant tuberculosis a serious emerging public health 
threat.
Fogarty International Center TB Training Programs
    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. Because of the 
link between AIDS and TB infection, FIC has created supplemental TB 
training grants for these institutions to train international health 
care professionals in the area of TB treatment and research. These 
training grants should be expanded and offered to all institutions. The 
ATS recommends Congress provide $70 million for FIC to expand the TB 
training grant program from a supplemental grant to an open competition 
grant.

          RESEARCHING AND PREVENTING OCCUPATIONAL LUNG DISEASE

    The National Institute of Occupational Safety and Health (NIOSH) is 
the sole Federal agency responsible for conducting research and making 
recommendations for the prevention of work-related diseases and injury. 
In addition to conducting research, NIOSH investigates potentially 
hazardous working conditions, makes recommendations and disseminates 
information on preventing workplace disease, injury, and disability; 
and provides training to occupational safety and health professionals. 
The ATS recommends that Congress provide $253 million for NIOSH to 
expand or establish the following activities: the National Occupational 
Research Agenda (NORA); tracking systems for identifying and responding 
to hazardous exposures and risks in the workplace; emergency 
preparedness and response activities; and training medical 
professionals in the diagnosis and treatment of occupational illness 
and injury.

                               CONCLUSION

    Lung disease is a growing problem in the United States. It is this 
country's third leading cause of death. The lung disease death rate 
continues to climb. Overall, lung disease and breathing problems 
constitute the number one killer of babies under the age of 1 year. 
Worldwide, tuberculosis is one of the leading infectious disease 
killers. The level of support this subcommittee approves for lung 
disease programs should reflect the urgency illustrated by these 
numbers. The ATS appreciates the opportunity to submit this statement 
to the subcommittee.
                                 ______
                                 
              Prepared Statement of Americans for the Arts

    Americans for the Arts and the Los Angeles County Arts Commission 
respectfully request the subcommittee to adopt an appropriation of $53 
million for the Arts in Education programs of the U.S. Department of 
Education. We also ask that it require the U.S. Department of Education 
to conduct much-needed research on the status of arts education, 
including the Fast Response Statistical Survey (FRSS) and the National 
Assessment of Educational Progress (NAEP).
    Before considering funding levels, members of the subcommittee need 
to be aware of a simple but breathtaking fact: Students with an 
education rich in the arts have better grade point averages in core 
academic subjects, score better on standardized tests, and have lower 
drop-out rates than students without arts education. This fact is 
demonstrated by an increasing amount of compelling research. It is not 
seriously contested. Further, research confirms that these results 
occur across the socio-economic range.
    Artists believe that the arts are important for their own sake. 
Educators know they are rigorous and standards-based, and they are 
essential for supporting the learning styles of all students while 
providing them with the unique opportunity to develop problem solving 
skills, to develop critical thinking skills and to foster their 
creativity. In essence, the arts help students develop skills that are 
needed for the 21st century workforce. In fact, CEOs have stated that 
the MFA (Masters in Fine Arts) is the new MBA and seek employees that 
have had a solid arts education. You can agree or disagree with us, of 
course. But you can't ignore the research, which shows that the arts 
help kids do better in school And for that reason, we believe that the 
Federal Government has an essential role in ensuring that all children 
have access to excellent arts education.
    For several decades, the U.S. Department of Education's Arts in 
Education programs have provided funding for the national programs of 
the John F. Kennedy Center for the Performing Arts and VSA arts 
(formerly Very Special Arts). Since 2001 they have also run two 
important competitive grant programs:
  --The Model Development and Dissemination program identifies, 
        develops, documents, and disseminates models of excellence in 
        arts education that impact schools and communities nationwide. 
        These projects strengthen student learning through standards-
        based arts education and integration of arts instruction into 
        other subject areas.
  --The Professional Development grants program supports projects that 
        serve as national models for effective professional development 
        that improve instruction for arts specialists and classroom 
        teachers. State and local education agencies can adapt these 
        models to provide rigorous arts instruction for all students.
    A recent Model Development grant was given to the Los Angeles 
Unified School District, in partnership with Inner-City Arts, a non-
profit organization providing arts learning services to students in the 
district, and the University of California, Los Angeles (UCLA) Graduate 
School of Education and Information Sciences. The three-year Arts in 
the Middle (AIM) Project will expand and rigorously evaluate an 
innovative, cohesive model for delivery of arts-based instruction to 
remedial grade six English learners. The Project's strategy will extend 
community resources to under-resourced urban middle schools in order to 
improve academic performance among English learners by integrating 
standards-based arts education within the core Language Arts curricula 
of grade six students. The Project's target population is remedial 
grade six students who are at extreme high risk of academic failure due 
to low levels of English Language Development. Assuming it is 
successful, the goal is to replicate it within other Los Angeles 
schools. This project directly supports the school district's 10-year 
plan for arts education.
    With increased funding, the Arts in Education programs will be able 
to support additional such models that improve arts learning in high-
poverty schools, and findings from the model projects may be more 
widely disseminated.
    With regard to another aspect of our request: despite research 
showing the positive effects of arts education, there is a serious lack 
of empirical data on how much arts education is being delivered in our 
Nation's schools. We do not have comprehensive, reliable information 
about student access to arts instruction or student performance in the 
arts. The last Fast Response Survey report was for the 1999-2000 school 
year, and the next round is long overdue.
    Congress has repeatedly urged the Department of Education to 
implement the Fast Response Survey in the arts to no avail. In public 
statements, U.S. Secretary of Education Margaret Spellings has said, 
``Art, dance, music, and theater are as much a part of education as 
reading, math, and science.'' And yet, the Department has told Congress 
that among the ``many tough choices'' made in the area of research, the 
arts survey did not rate as a priority.
    The Senate included report language in the fiscal year 2007 
appropriations bill that explicitly directed the Department of 
Education to conduct the FRSS, and it also provided funding for that 
purpose. As you know, however, the bill did not become law, and 
therefore the Department of Education has been able to delay 
implementing the FRSS for yet another year. We thank this subcommittee 
for taking this step last year and urge you to adopt similar language 
in your fiscal year 2008 bill.
    Good data does exist in some localities, but only data that is 
national in scope will allow Congress to make national policy. We would 
like to tell you about data was gathered and used to affect policy in 
Los Angeles County. The task was an essential step in helping the 
County and community stakeholders such as school districts, arts 
organizations, elected officials, business leaders, foundations, and 
corporations strategically organize their efforts to restore K-12 arts 
education. We hope the story of how the information was collected, and 
the way it was used, will convince you of the need to compel the 
Department of Education to collect national data.
    In 2000, the Arts Commission commissioned the Arts in Focus survey, 
which detailed the status of arts education for 1.7 million students in 
82 school districts. These students represent 27 percent of all public 
school students in the State, and 3.4 percent of all public school 
students in the country. With 80 of the 82 superintendents in the 
County participating, it was found that:
  --54 percent of school leaders reported no adopted arts policy and 37 
        percent reported no defined sequential arts education in any 
        discipline, at any school level.
  --64 percent reported no district level arts coordinator, and the 
        current average ratio of credentialed arts teachers to students 
        was 1:1,200.
  --Nearly 50 percent reported ``lack of instructional time in 
        students' schedules'' as their most significant challenge.
  --Many districts would not have arts programs without the support of 
        parents and partnerships with non-profit arts organizations. 
        Seventy-eight percent of districts allocated less than 2 
        percent of their budget to arts education and 82.3 percent used 
        partnerships with non-profit organizations to provide arts 
        education.
    One hundred percent of superintendents who were interviewed stated 
that they believe in the importance of the arts. However, what the data 
revealed was the lack of an infrastructure to support arts education 
and, given the three decades without sequential arts education, limited 
capacity of school districts to incorporate it back into the school 
day.
    In response to the findings of Arts in Focus, Los Angeles County 
(the Arts Commission in partnership with the Los Angeles County Office 
of Education) embarked on a year-long, community-based planning 
process. In 2002, the County Board of Supervisors, the County Board of 
Education and the County Arts Commission unanimously adopted Arts for 
All: Los Angeles County Regional Blueprint for Arts Education, which 
presents a series of policy changes, educational initiatives, and 
establishment of a new infrastructure to ensure all 1.7 million 
students receive a high-quality K-12 arts education.
    The first goal of the Blueprint is to help school districts create 
a sustainable infrastructure for arts education by conducting a needs 
assessment and utilizing district data to develop and adopt an arts 
education policy and long-range budgeted plan with benchmarks. To date, 
20 school districts are at various stages of receiving technical 
assistance from a coach to strategically, and thoughtfully, identify 
and implement key budgeted priorities for arts education in the areas 
of standards-based curriculum, instruction and methodology, assessment, 
professional development, program administration and personnel, 
partnerships and collaborations, funding, resources and facilities, and 
evaluation.
    As a key strategy in the Blueprint, the County created the Arts 
Education Performance Indicators report, or AEPI, to collect pertinent 
school district data to track the status of an arts education 
infrastructure based on five critical factors: an arts education policy 
adopted by the school board; an arts education plan adopted by the 
school board; a district level arts coordinator; an arts education 
budget of at least 5 percent of the district's total budget; and a 
student to credentialed arts teacher ratio of no higher than 400:1. 
With these pieces in place, school districts can deliver sustainable 
arts education.
    The AEPI is released every other year. It is interesting to note 
that for the 2005 report, those districts making the greatest progress 
in achieving the five critical success factors received technical 
assistance while those showing little to no improvement did not. AEPI 
is an invaluable tool in providing a county-wide picture of the status 
of an arts education infrastructure, target technical assistance to 
help school districts plan, keep arts education visible and at the 
forefront of policy discussions, provide a mechanism for school 
districts to self-evaluate and reflect on their progress in providing 
equal access to a quality arts education and to compare themselves to 
other districts, and encourage County-wide dialogue on arts education 
among diverse stakeholders in the community--from elected officials, to 
educators, to parents and students.
    Access to up-to-date, accurate data is imperative to drive 
strategic planning and policy change. In addition, Arts for All 
illustrates the importance of providing customized assistance to help 
school districts effectively plan for the implementation of arts 
education based on identified needs and priorities. Without this help, 
we have found that it is difficult for school districts to use 
available funds effectively--including, for example, Federal Title I 
funds.
    You may be aware that the fiscal year 2006-2007 budget for the 
State of California includes $500 million in one-time funding for arts 
education and physical education equipment, supplies and professional 
development and $105 million in on-going funding especially for arts 
education personnel, supplies, materials, and professional development. 
As it turns out, the districts that have received technical assistance 
and that have established policies and plans are able to effectively 
and strategically utilize this funding. Seventeen County school 
districts have expressed an interest in receiving arts education 
planning assistance through Arts for All in light of the new State 
money. With these additional school districts, 37 districts in Los 
Angeles County will be planning for and implementing standards-based 
arts education--close to 50 percent of County school districts--with 
more school districts joining Arts for All each year.
    Each level of government has its part to play, in concert with 
stakeholders at each level. We have described the massive commitment of 
Los Angeles County government to providing excellent arts education, 
and we have touched on the increased recognition by the State of 
California of its responsibility to help. The Federal Government needs 
to step up as well. It has a unique role in collecting and publishing 
data, and an essential role in supporting, researching and 
disseminating locally developed projects. Both of these roles are the 
focus of this testimony.
    We would also like to ask you to encourage local districts to use 
Federal education funds, such as Title I, to institute data collection 
and technical assistance programs similar to what was done in Los 
Angeles County. They should also use Federal funds to hire local 
district-wide arts education coordinators.
    Finally, we would like to mention that the NAEP--the national arts 
``report card''--is scheduled to be administered in 2008, and must stay 
on track. It is designed to measure students' knowledge and skills in 
dance, music, theatre, and visual arts, and it provides critical 
information about the arts skills and knowledge of our Nation's 
students. The last arts NAEP was performed in 1997. Like the FRSS, the 
next round is long overdue.
    Thank you very much for the opportunity to submit this testimony.
                                 ______
                                 
Prepared Statement of the Americans for Nursing Shortage Relief (ANSR) 
                                Alliance

    The undersigned organizations of the ANSR Alliance greatly 
appreciate the opportunity to submit written testimony regarding fiscal 
year 2008 appropriations for Title VIII--Nursing Workforce Development 
Programs. The ANSR Alliance is comprised of 52 national nursing 
organizations that united in 2001 to identify and promote creative 
strategies for addressing the nursing and nurse faculty shortages, 
including passage of the Nurse Reinvestment Act of 2002.
    The ANSR Alliance stands ready to work with lawmakers to advance 
programs and policy that will sustain and strengthen our Nation's 
nursing workforce. To ensure that our Nation has a sufficient and 
adequately prepared nursing workforce to provide quality care to all 
well into the 21st century, ANSR urges Congress to:
  --Appropriate at least $200 million in funding for Nursing Workforce 
        Development Programs under Title VIII of the Public Health 
        Service Act at the Health Resources and Services Administration 
        (HRSA) in fiscal year 2008.
  --Restore the Advanced Education Nursing program (Sec. 811) and fund 
        it at a level on par with the proposed fiscal year 2008 
        increase for the other Title VIII programs.

                            NURSING SHORTAGE

    Nurses play a critical role in our Nation's health care system. An 
estimated 2.9 million licensed registered and advanced practice 
registered nurses (RNs and APRNs) represent the largest professional 
occupation of all health care workers providing patient care in 
virtually all locations in which health care is delivered. The 
diversity of practice settings and differing scopes of practice makes 
the nursing shortage an even more complex challenge. Some facts to 
consider:
  --The nursing workforce is aging. In 1980, 26 percent of RNs were 
        under the age of 30. Today, approximately 8 percent of RNs are 
        under the age of 30 with the average nurse being 46.8 years of 
        age;
  --Approximately half of the RN workforce is expected to reach 
        retirement age within the next 10 to 15 years. The average age 
        of new RN graduates is almost 30 years old;
  --A December 2005 Bureau of Labor Statistics report projected that 
        registered nursing would create the second largest number of 
        new jobs among all occupations within 9 years. In addition, 
        employment of RNs is expected to grow much faster than average 
        for all occupations through 2014. It is anticipated that 
        approximately 703,000 additional jobs, for a total of 
        3,096,000, will be available for RNs by that date;
  --The national nursing shortage also is affecting our Nation's 7.6 
        million veterans who receive care through the 1,300 Department 
        of Veterans Affairs (VA) health care facilities. The VA, the 
        largest sole employer of RNs in the United States, has a 10 
        percent RN vacancy rate;
  --The nurse faculty vacancies in the United States continued to grow 
        even as the numbers of full- and part-time educators increased 
        during the 2005-2006 academic year. According to the National 
        League for Nursing's 2006 Nurse Faculty Census, the estimated 
        number of budgeted, unfilled, full-time positions in 2006 was 
        1,390. This number represents a 7.9 percent vacancy rate in 
        baccalaureate and higher degree programs, which is an increase 
        of 32 percent since 2002; and a 5.6 percent vacancy rate in 
        associate degree programs, which translates to a 10 percent 
        rise in the same period.
        nursing supply impacts america's emergency preparedness
    The National Center for Health Workforce Analysis at the Bureau of 
Health Professions in HRSA reports that the nursing shortage makes it 
challenging for the health care sector to meet current service needs. 
Nursing shortfalls exacerbating capacity insufficiencies throughout the 
health care system have ripple effects, for example, seen in the 
problems encountered by most communities' day-to-day emergency care 
services. Facing a pandemic flu or other natural or man-made disaster 
of significant proportions makes the nursing shortage an even greater 
national concern, as well as an essential part of national preparedness 
and response planning
    Nurses play a critical role as front-line, first-responders. When 
word of the devastation caused by Hurricanes Katrina and Rita reached 
nurses across the country, they immediately volunteered in American Red 
Cross shelters, medical clinics, and hospitals throughout that 
widespread region. Nurses and advanced practice registered nurses 
(e.g., nurse midwives, nurse practitioners, clinical nurse specialists 
and certified registered nurse anesthetists) are particularly critical 
national resources in an emergency, able to provide clinical nursing 
care as well as primary care. During Katrina and Rita, nurse midwives 
delivered babies in airplane hangars, and nurses trained in geriatric 
care assisted in caring for those traumatized by their evacuation from 
the comforts of their homes, assisted living facilities or nursing 
homes. Nurse practitioners diligently staffed temporary and permanent 
health care clinics to provide needed primary care to hurricane 
victims. Many nurses contributed not just through their clinical 
expertise, but also by offering psychological support as they listened 
to survivors recount their stories of pain and tragedy.
    These stories seem particularly relevant in demonstrating the 
essential assistance nurses provide during tragedies, and reinforce the 
need to ensure an adequate supply of all types of nurses. Unless steps 
are taken now, the Nation's ability to respond to disasters will be 
further hindered by the growing nursing shortage. An investment in the 
nursing workforce is a reasonable and cost-effective investment toward 
rebuilding the public health infrastructure and increasing our Nation's 
health care readiness and emergency response capabilities.

                    DESPERATE NEED FOR NURSE FACULTY

    After years of declining interest, the nursing profession is seeing 
a resurgence of interest in the profession. Many people in America have 
come to find nursing an attractive career because of job openings, 
salary levels, and the opportunity to help others. However, the common 
theme among prospective nursing students is that due to a lack of 
enrollment openings, owing to faculty shortages, they can face waiting 
periods of up to 3 years before matriculating. When all nursing 
programs are considered, the number of qualified applications turned 
away during the 2004-2005 academic year was estimated to be nearly 
147,000 by the National League for Nursing. Without sufficient support 
for current nurse faculty and adequate incentives to encourage more 
nurses to become faculty, nursing schools will fail to have the 
teaching infrastructure necessary to educate and train the next 
generation of nurses that the Nation so desperately need.
    The current and deepening nurse faculty shortfall is the critical 
reason that the Advanced Education Nursing line item in the Title VIII 
programs must be fully funded. This program supported 11,949 graduate 
nursing students in fiscal year 2005. The students that are supported 
by this funding are the pool of future faculty for the nursing 
profession. Whether supporting students in clinical education or as 
faculty in schools of nursing, it is essential that advanced education 
nursing funding be restored.

                            FUNDING REALITY

    Enacted in 2002, the Nurse Reinvestment Act (Public Law 107-205) 
addressed new and expanded initiatives, including loan forgiveness, 
scholarships, career ladder opportunities, and public service 
announcements to advance nursing as a career. Despite the enactment of 
this critical measure, HRSA fails to have the resources necessary to 
meet the current and growing demands for our Nation's nursing 
workforce. For example:
  --Fiscal Year 2005 Nursing Education Loan Repayment Program.--Of the 
        4,465 applicants, 803 awards were made (599 initial 2-year 
        awards and 204 amendment awards) with 18 percent of applicants 
        receiving awards.
  --Fiscal Year 2006 Nursing Education Loan Repayment Program.--Of the 
        4,222 applicants, 615 awards were made (373 initial 2-year 
        awards and 242 amendment awards). This translates to 14.6 
        percent of applicants receiving awards.
  --Fiscal Year 2005 Nursing Scholarship Program.--This program 
        received 3,482 applicants and was able to provide 212 awards or 
        6.1 percent of the applicants received scholarships.
  --Fiscal Year 2006 Nursing Scholarship Program.--3,320 applicants 
        were received and 218 awards made or 6.6 percent of the 
        applicants received scholarships.
    The ANSR Alliance requests that the subcommittee provide a minimum 
of $200 million in fiscal year 2008 to fund the Title VIII--Nursing 
Workforce Development Programs. We also urge the restoration of the 
Advanced Education Nursing program (sec. 811) funded at a level on par 
with the proposed fiscal year 2008 increase for the other Title VIII 
programs.
    This funding can be used to restore the Advanced Education Nursing 
program and fund a higher rate of Nurse Education Loan Repayment and 
Nursing Scholarship applications, as well as implement other essential 
endeavors to sustain and boost our Nation's nursing workforce. We thank 
you for consideration of our request.

                                SUMMARY

----------------------------------------------------------------------------------------------------------------
                                                                               President's
                   Programmatic area                     Final fiscal year    budget fiscal      ANSR Alliance
                                                                2007            year 2008           request
----------------------------------------------------------------------------------------------------------------
Title VIII--Nursing Workforce Development Programs at         $149,679,000       $105,263,000       $200,000,000
 HRSA..................................................
----------------------------------------------------------------------------------------------------------------

                      ANSR ALLIANCE ORGANIZATIONS

    Academy of Medical-Surgical Nurses; American Academy of Ambulatory 
Care Nursing; American Academy of Nurse Practitioners; American 
Association of Critical-Care Nurses; American Association of Nurse 
Anesthetists; American Association of Nurse Assessment Coordinators; 
American Association of Occupational Health Nurses; American College of 
Nurse Practitioners; American Organization of Nurse Executives; 
American Radiological Nurses Association; American Society for Pain 
Management Nursing; American Society of PeriAnesthesia Nurses; American 
Society of Plastic Surgical Nurses; Association of periOperative 
Registered Nurses; Association of Rehabilitation Nurses; Asociation of 
State and Territorial Directors of Nursing; Association of Women's 
Health, Obstetric and Neonatal Nurses; Emergency Nurses Association; 
Infusion Nurses Society; National Association of Clinical Nurse 
Specialists; National Association of Neonatal Nurses; National 
Association of Nurse Practitioners in Women's Health; National 
Association of Orthopaedic Nurses; National Association of Pediatric 
Nurse Practitioners; National Conference of Gerontological Nurse 
Practitioners; National Council of State Boards of Nursing, Inc.; 
National Gerontological Nursing Association; National League for 
Nursing; National Nursing Centers Consortium; National Nursing Staff 
Development Organization; National Organization for Associate Degree 
Nursing; National Organization of Nurse Practitioner Faculties; 
National Student Nurses' Association, Inc.; Society for Vascular 
Nursing; Society of Pediatric Nurses; Society of Trauma Nurses; and 
Society of Urologic Nurses and Associates.
                                 ______
                                 
   Prepared Statement of the Association of Academic Health Sciences 
             Libraries and the Medical Library Association

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2008

    (1) A 6.7 percent increase for the NationaL Library of Medicine at 
the National Institutes of Health and support for the National Library 
of Medicine's Urgent Facility construction needs.
    (2) Continued support for the Medical Library community's role in 
the National Library of Medicine's Outreach, Telemedicine, Disaster 
Preparedness and Health Information Technology Initiatives.
    Mr. Chairman, thank you for the opportunity to testify today on 
behalf of the Medical Library Association (MLA) and the Association of 
Academic Health Sciences Libraries (AAHSL) regarding the fiscal year 
2008 budget for the National Library of Medicine (NLM). I am Marianne 
Comegys, Director of the Louisiana State University (LSU) Health 
Sciences Center Library in Shreveport, Louisiana.
    MLA is a nonprofit, educational organization with more than 4,500 
health sciences information professional members worldwide. Founded in 
1898, MLA provides lifelong educational opportunities, supports a 
knowledgebase of health information research and works with a global 
network of partners to promote the importance of quality information 
for improved health to the healthcare community and the public.
    AAHSL is comprised of the directors of the libraries of 142 
accredited American and Canadian medical schools belonging to the 
Association of American Medical Colleges (AAMC). AAHSL's goals are to 
promote excellence in academic health sciences libraries and to ensure 
that the next generation of health professionals is trained in 
information-seeking skills that enhance the quality of healthcare 
delivery.
    Together, MLA and AAHSL address health information issues and 
legislative matters of importance through a joint task force.
    With respect to NLM's budget for the upcoming year, I would like to 
touch briefly on five issues: (1) the growing demand for NLM's basic 
services, (2) NLM's outreach and education services, (3) NLM's role in 
emergency preparedness and response, (4) NLM's health information 
technology initiatives and (5) NLM's facility needs.

            THE GROWING DEMAND FOR THE NLM'S BASIC SERVICES

    Mr. Chairman, it is a tribute to NLM that the demand for its 
services and expertise continues to grow. As the world's foremost 
digital library and knowledge repository in the health sciences, NLM 
provides the critical infrastructure in the form of data repositories 
and integrated services such as GenBank and PubMed that are helping to 
revolutionize medicine and advance science to the next important era--
individualized medicine based on an individual's unique genetic 
differences.
    As the world's largest and most comprehensive medical library, 
services based on NLM's traditional and electronic collections continue 
to steadily increase each year. These collections stand at more than 
8.5 million items--books, journals, technical reports, manuscripts, 
microfilms, photographs, and images. By selecting, organizing and 
ensuring permanent access to health science information in all formats, 
NLM is ensuring the availability of this information for future 
generations, making it accessible to all Americans, irrespective of 
geography or ability to pay, and ensuring that each citizen can make 
the best, most informed decisions about their healthcare.
    Mr. Chairman, simply stated NLM is a national treasure and support 
for its programs and services could not be more important at the 
present time. I can tell you that without NLM our Nation's medical 
libraries would be unable to provide the quality information services 
that our Nation's health professionals, educators, researchers and 
patients have all come to expect.
    Recognizing the invaluable role that NLM plays in our healthcare 
delivery system, MLA and AAHSL join with the Ad Hoc Group for Medical 
Research in asking for a 6.7 percent increase for NLM, and the NIH 
overall, in fiscal year 2008.

                         OUTREACH AND EDUCATION

    NLM's outreach programs are of particular interest to both MLA and 
AAHSL. These activities are designed to educate medical librarians, 
health professionals and the general public about NLM's services.
    NLM has taken a leadership role in promoting educational outreach 
aimed at public libraries, secondary schools, senior centers and other 
consumer-based settings. Furthermore, NLM's emphasis on outreach to 
underserved populations assists the effort to reduce health disparities 
among large sections of the American public.
    We applaud the success of NLM's outreach initiatives, particularly 
those initiatives that reach out to medical libraries and health 
consumers. We ask the committee to encourage NLM to continue to 
coordinate its outreach activities with the medical library community 
in fiscal year 2008.
Partners in Information Access
    NLM's ``Partners in Information Access'' program is designed to 
improve the access of local public health officials to information 
needed to prevent, identify and respond to public health threats. With 
nearly 6,000 members in communities across the country, the National 
Network of Libraries of Medicine (NNLM) is well-positioned to ensure 
that every public health worker has electronic health information 
services that can protect the public's health. My own facility, the LSU 
Health Sciences Center in Shreveport, Louisiana, participates in this 
program. Through it, we are able to train public health workers on how 
to access health information online.
PubMed/Medline
    NLM's PubMed/Medline is the Nation's premier online bibliographic 
database. PubMed/Medline makes accessing important medical information 
easier and quicker, which in turn lowers healthcare costs while 
improving care. For more than 10 years, PubMed/Medline has afforded 
anyone with access to the Internet the opportunity to tap into the vast 
resources of NLM.
    The NIH Public Access policy makes use of NLM's PubMed Central 
electronic archive of full-text journal articles and manuscripts. This 
policy supports NLM's mission to archive and enhance access to 
healthcare information. We are concerned however that the current rate 
of participation in the voluntary policy is low. Even with an 
increasing number of journals depositing their complete contents in 
PubMed Central less than 15 percent of NIH-funded articles are 
available to the public there.
    We concur with the NLM Board of Regents that the NIH Public Access 
policy cannot achieve its stated goals unless the deposit of 
manuscripts becomes mandatory. An informal survey conducted by AAHSL of 
faculty and research administrators at 19 universities illustrated that 
NIH-funded researchers are aware of the NIH Public Access policy. This 
finding has been confirmed by NIH focus groups. Hence, lack of 
awareness does not appear to be the primary reason for the low 
submission rate; rather lack of incentive is impeding the success of 
this policy.
    In September, NLM, NIH and the Friends of NIH, launched NIH 
MedlinePlus Magazine. This new publication will be distributed in 
doctors' waiting rooms, and will provide the public with access to high 
quality, easily understood health information.
    NLM also continues to work with medical librarians and health 
professionals to encourage doctors to provide MedlinePlus ``information 
prescriptions'' to their patients. This initiative has been expanded to 
encourage genetics counselors to prescribe the use of NLM's Genetics 
Home Reference website. ``Go Local'' is another new exciting feature of 
MedlinePlus that enables local and State agencies and others to 
participate by creating sites that link the MedlinePlus information 
seeker to local pharmacies, doctors and other health and social 
services. This service further enhances the value of NLM and 
MedlinePlus, not just for medical librarians and health professionals, 
but also for health consumers. It also provides a platform for 
enhancing public access to the information needed to prepare for and 
respond to disasters and emergencies.
Clinical Trials
    NLM's clinical trials database was launched in February 2000 and 
lists more than 38,000 United States and international trials for a 
wide range of diseases. The clinical trials database is a free and 
invaluable resource to patients and families who are interested in 
participating in cutting-edge treatments for serious illnesses. MLA and 
AAHSL thank NLM for its leadership in creating ClinicalTrials.gov and 
looks forward to assisting NLM in advancing this important initiative.
    We are aware of current proposals to mandate the submission of 
clinical trial results to this or a related database. We strongly 
endorse the notion of improving public access to information about the 
results of clinical trials, but are concerned about the possibility of 
results being posted without having been subject to some form of 
external review. If such information is to be used by patients and 
their physicians to make informed decisions, the information must be 
trustworthy and should be held to the same standard as other publicly 
available information made available on the NLM web sites.

                  EMERGENCY PREPAREDNESS AND RESPONSE

    MLA and AAHSL support the recommendation of the NLM Board of 
Regents Long Range Plan for 2006-2016 that NLM establish a Disaster 
Information Management Research Center to expand NLM's capacity to 
support disaster response and management initiatives. Following 
Hurricane Katrina, NLM provided health professionals and the public 
with access to needed health and environmental information by: (1) 
quickly compiling Web pages on toxic chemicals and environmental 
concerns, (2) rapidly providing funds, computers and communication 
services to assist librarians in the field who were restoring health 
information services to displaced clinicians and patients, and (3) 
rerouting interlibrary loan requests from the afflicted regions through 
the NNLM.

            HEALTH INFORMATION TECHNOLOGY AND BIOINFORMATICS

    Mr. Chairman, NLM has played a pivotal role in creating and 
nurturing the field of medical informatics, most notably through the 
creation of GenBank and a wide array of related scientific data and 
analysis tools which provide critical infrastructure for the Nation's 
researchers. This critical infrastructure will be key to advances in 
medicine in the future.
    For nearly 35 years, NLM has supported informatics research and 
training and the application of advanced computing and informatics to 
biomedical research and healthcare delivery including a variety of 
telemedicine projects. Many of today's informatics leaders are 
graduates of NLM-funded informatics research programs at universities 
across the country, and many of the country's exemplary electronic 
health record systems benefited from NLM grant support.
    A leader in supporting, licensing, developing and disseminating 
standard clinical terminologies for free United States-wide use (e.g., 
SNOWMED), NLM works closely with the Office of the National Coordinator 
for Health Information Technology (ONCHIT) to promote the adoption of 
interoperable electronic records.
    MLA and AAHSL encourage Congress to continue their strong support 
of NLM's medical informatics and genomic science initiatives, at a 
point when the linking of clinical and genetic data holds increasing 
promise for enhancing the diagnosis and treatment of disease. MLA and 
AAHSL also support Health Information Technology initiatives at
    ONCHIT and the Agency for Healthcare Research and Quality (AHRQ) 
that build upon initiatives housed at NLM.

                         NLM'S FACILITIES NEEDS

    Mr. Chairman, over the past two decades NLM has assumed many new 
responsibilities, particularly in the areas of biotechnology, health 
services research, high performance computing and consumer health. As a 
result, NLM has had tremendous growth in its basic functions related to 
the acquisition, organization and preservation of an ever-expanding 
collection of biomedical literature an expanded staff. NLM now houses 
1,100 staff in a facility built to accommodate only 650. This increase 
in the volume of biomedical information and in the number of personnel 
has led to a serious space shortage. Digital archiving--once thought to 
be a solution to the problem of housing physical collections--has only 
added to the challenge, as materials must often be stored in multiple 
formats and as new digital resources consume increasing amounts of 
storage space. As a result, the space needed for computing facilities 
has also grown, further squeezing out staff. In order for NLM to 
continue its mission as the world's premier biomedical library, a new 
facility is urgently needed. The NLM Board of Regents has assigned the 
highest priority to supporting the acquisition of a new facility. 
Further, Senate Report 108-345 that accompanied the fiscal year 2005 
appropriations bill acknowledged that the design for the new research 
facility at NLM had been completed and the committee urged the NIH to 
assign a high priority to this construction project so that NLM's 
information-handling capabilities are not jeopardized.
    We encourage the subcommittee to provide the resources necessary to 
construct a new facility.
    Mr. Chairman, thank you again for the opportunity to present the 
views of the medical library community.
                                 ______
                                 
  Prepared Statement of the Association of American Cancer Institutes

    The Association of American Cancer Institutes (AACI), representing 
89 of the Nation's premier academic and free-standing cancer centers, 
appreciates the opportunity to submit this statement for consideration 
as the Labor, Health and Human Services Appropriations Subcommittee 
plans the fiscal year 2008 appropriations for the National Institutes 
of Health (NIH) and the National Cancer Institute (NCI).

                             CANCER BURDEN

    In 2007, there will be approximately 1.44 million new cases of 
cancer in the United States.\1\ Today, lifetime cancer risk in the 
United States is one in two for men and one in three for women.\2\ This 
number will continue to climb as the population ages, with an estimated 
18.2 million cancer survivors (those undergoing treatment, as well as 
those who have completed treatment) alive in 2020. By comparison, 11.7 
million survivors were living in the United States in 2005.\3\
---------------------------------------------------------------------------
    \1\ Cancer Statistics, 2007. CA: Cancer Journal for Clinicians 
2007; 57: 43-66.
    \2\ The Nations' Investment in Cancer Research; A Plan and Budget 
Proposal for Fiscal Year 2008, National Cancer Institute, 2007.
    \3\ Future Supply and Demand for Oncologists, Journal of Oncology 
Practice 2007; 3(2): 79-86.
---------------------------------------------------------------------------
                          RESEARCH IN JEOPARDY

    A recent analysis published in the Journal of Oncology Practice 
suggested that the increase in the number of cancer patients and 
survivors over the next decade will be coupled with a shortage of 
clinical oncologists.\3\ And there is another shortage that is all too 
real now, the implications of which will be felt for generations to 
come if our government's policymakers do not address the problem 
immediately. Because of continuing decreases to the budgets of the NIH 
and NCI (in actual dollars and as a result of biomedical inflation), 
grants to support cancer researchers as they discover new treatments 
for cancer and strategies to prevent and detect the disease continue to 
be cut. Without these grants, fewer and fewer cancer researchers will 
be able to maintain their commitment to science--a dearth of cancer 
researchers is on the horizon.

               CANCER RESEARCH: BENEFITING ALL AMERICANS

    The cancer research enterprise in the United States is second-to-
none. Cancer research, conducted in academic laboratories across the 
country saves money by reducing healthcare costs associated with the 
disease, enhances the United States' global competitiveness, and has a 
positive economic impact on localities that house a major research 
center. While these aspects of cancer research are important, what 
cannot be overstated is the impact cancer research has had on 
individuals' lives--lives that have been lengthened and even saved by 
virtue of discoveries made in cancer research laboratories across the 
United States.
    Our Nation's cancer researchers are making advances against this 
disease--for the second year in a row, statistics show that the number 
of people dying of cancer has declined.\2\ And for the first time ever, 
coming generations may be able to prevent some cancers from occurring 
at all. For instance, with the recent FDA approval of the HPV (human 
papillomavirus) vaccine Gardasil, young women will be protected against 
the virus that causes up to 70 percent of cervical cancer cases 
worldwide.\4\ In 2007 11,150 women will develop cervical cancer and 
3,670 will die as a result of the disease.\5\ Gardasil is expected to 
significantly reduce the number of cases of cervical cancer as young 
women begin receiving the vaccine. Also, the HPV infection may play 
some role in the development of other diseases such as head and neck 
cancer, suggesting that the vaccine may have wider applicability in the 
future.
---------------------------------------------------------------------------
    \4\ Taking Pride in an Important Achievement, The NCI Cancer 
Bulletin, 2006; 3(24): 1-2.
    \5\ American Cancer Society. Cancer Facts & Figures 2007, 2007, 20-
21.
---------------------------------------------------------------------------
    Recent headlines have linked dropping breast cancer rates with a 
decrease in the use of hormone replacement therapy among millions of 
older women. An NCI-funded study conducted at The University of Texas 
M.D. Anderson Cancer Center explored factors that may be involved in 
the 7 percent age-adjusted decline--or 14,000 fewer cases--in breast 
cancer incidence between 2002 and 2003.\6\ The researchers, led by Dr. 
Donald Berry, concluded that ``only the potential impact of hormone 
replacement therapy was strong enough to explain the effect.'' \2\ 
Without a strong research infrastructure to examine this relationship, 
health professionals might still routinely prescribe menopausal 
hormones without knowing that the hormones may increase their patients' 
risk of developing breast cancer.
---------------------------------------------------------------------------
    \6\ Decline in Breast Cancer Cases Likely Linked to Reduced Use of 
Hormone Replacement. M.D. Anderson Cancer Center News Release, December 
14, 2006.
---------------------------------------------------------------------------
    This and other success stories are positive news in the war on 
cancer, but are only one small part of the battle. Research advances 
that have led to increased cancer survivorship, prevention efforts, and 
enhanced treatment and understanding of the disease are at stake with 
research funding becoming more and more limited. Now is the time to 
provide funding to NIH and NCI to fully capitalize on the accelerated 
pace of research that was fostered by the doubling of the NIH budget 
from 1998 through 2003, not to risk losing out on lifesaving 
opportunities by cutting funding to the Nation's biomedical 
infrastructure.

            EFFECTS OF THE ``UNDOUBLING'' OF THE NIH BUDGET

    During the period from 1998 through 2003 the budget of the NIH was 
doubled. This doubling provided resources that allowed a greater number 
of promising young investigators to enter the field of cancer research, 
and also supported research into the ideas of established 
investigators. In 2007, however, funding for NIH is in the process of 
being ``undoubled'' through actual budget cuts and because of the 
effects of biomedical inflation. This year, NIH's budget is 
approximately $28.9 billion--an impressive sum to be sure. However, if 
NIH's 2003 budget (the last year of the doubling period) had been 
increased each year only to account for biomedical inflation, its 2007 
budget would be $31.6 billion.
    While the doubling of the NIH budget was an ambitious undertaking, 
the effort has ultimately resulted in inconsistent funding for the 
institutes that make up the NIH. The budget of the NCI alone has lost 
approximately 12 percent of its purchasing power due to the effects of 
biomedical inflation.\7\ The Biomedical Research and Development Price 
Index (BRDPI) is calculated each year to determine how NIH expenditures 
must increase to compensate for inflation. In 2005 BRDPI was estimated 
at 3.9 percent, meaning that each research dollar lost 3.9 percent of 
its value for the year.\8\ The NIH budget also decreased 0.5 percent 
from 2005 to 2006, which caused a net loss of 4.4 percent purchasing 
power for 2006. NCI Director Dr. John E. Niederhuber estimates that 
because of actual cuts in funding and the effects of BRDPI, in fiscal 
year 2006 NCI was unable to fund 180 grants that would otherwise have 
been deemed worthy of funding.\7\ These projects would have built upon 
progress made during the doubling period--progress that will now be 
unrealized.
---------------------------------------------------------------------------
    \7\ Cancer Research Budget Cuts Cause ``Missed Opportunities,'' NCI 
Director Tells Advisors, The Cancer Letter; 33(9), 5-8.
    \8\ Biomedical Research and Development Price Index (BRDPI), BRDPI 
Table of Annual Values Index. Office of Budget, National Institutes of 
Health, 2007. http://officeofbudget.od.nih.gov/ui/GDP_FromGenBudget.htm
---------------------------------------------------------------------------
    In 2007, NCI's Clinical Trials Cooperative Group Program will have 
to cut as much as 60 percent of its members' new clinical trials. This 
will result in an 11 percent decrease in the number of patients accrued 
into clinical trials, or approximately 3,000 eligible patients who will 
be unable to enroll in a cooperative group trial.\7\ These trials would 
answer questions that help lead to more effective therapies and other 
interventions for cancer, as well as methods for screening and 
prevention. Not only will these patients be unable to benefit from the 
cutting-edge treatments available only through clinical trials, 
patients for generations to come will not benefit from the results of 
this research.
    Additionally, NCI's Specialized Programs of Research Excellence 
(SPOREs) program that promotes interdisciplinary research to move basic 
research findings from the laboratory to clinical settings was cut by 8 
percent, or $8 million, in fiscal year 2006, with more cuts expected 
this year. NCI's Tobacco Control Research Branch has been cut by $6.5 
million between fiscal year 2004 and fiscal year 2007 and its Cancer 
Survivorship Program by $1 million. Patient accrual for clinical trials 
at NCI's Center for Cancer Research (CCR) was at 4,210 in fiscal year 
2004, but in fiscal year 2006 that number was down to 3,795.\7\

                      THE NATION'S CANCER CENTERS

    The nexus of cancer research in the United States is the Nation's 
network of cancer centers, both with and without NCI designation, that 
are represented by AACI. These cancer centers are highly integrated, 
multidisciplinary hubs of scientific excellence and exceptional patient 
care. They are uniquely patient oriented, research intensive, 
translationally adept, and clinically superb. In 2005, these academic 
based institutions received 86 percent of the grant dollars available 
for 2005, or 59 percent of NCI's budget as a whole. Because these 
centers are networked nationally, opportunities for collaborations are 
many--assuring wise and non-duplicative investment of scarce Federal 
dollars.
    In addition to conducting basic, clinical, and population research, 
the cancer centers are largely responsible for training the cancer 
workforce that will practice in the United States in the years to come. 
Much of this training is dependent on Federal dollars, via training 
grants and other funding from NCI. Decreasing Federal support will 
significantly undermine the centers' ability to continue to train the 
next generation of cancer specialists--both researchers and providers 
of cancer care.
    Success stories at the cancer centers are common--but are in danger 
of becoming less so as research dollars are lost. For instance, a 
patient at a major academic cancer center had been told he had 6 months 
to live after being diagnosed with an aggressive form of brain cancer. 
But through an innovative clinical trial at the center, this patient 
was tumor-free 6 years later.\9\ Without the Federal funding that 
supported his treatment, he may not have been so fortunate.
---------------------------------------------------------------------------
    \9\ Road to Nowhere, Frontiers Magazine, Winter 2006.
---------------------------------------------------------------------------
                   FINANCIAL IMPACT ON CANCER CENTERS

    The cancer center network in the United States forms the country's 
cancer research infrastructure. As the nationwide hubs of cancer-
related scientific inquiry, the negative impact of reduced Federal 
funding for cancer research on these centers is enormous. The rapid 
pace of cancer research at AACI centers requires that investigators and 
clinicians from diverse disciplines work together to share information, 
expertise and resources. These interactions yield many insights into 
the cancer problem. Reduced, or--even worse--no support for even one 
member of this multidisciplinary team affects the collective progress 
and productivity of the entire program.
    Furthermore, the grants that comprise the core funding for the NCI-
designated cancer centers have been flat for the past 3 years.\7\ This 
core funding helps support academic and research institutions to 
sustain coordinated interdisciplinary programs in cancer research. With 
no annual adjustment for inflation, the actual purchasing power over 
the course of a typical multi-year grant has decreased, essentially 
resulting in a cut to funding. Stagnant funding prevents expansion at 
existing centers, but also--and perhaps more importantly--prevents new 
centers from achieving NCI designation. While most major metropolitan 
areas in the United States have easy access to an NCI-designated cancer 
center, several States and many underserved areas do not.

                              SOCIAL VALUE

    Though cancer statistics can seem daunting, even small steps 
forward will have tremendous results. Dr. Kevin M. Murphy, the George 
J. Stigler Distinguished Service Professor of Economics at the 
University of Chicago Graduate School of Business, estimates that even 
a 1 percent reduction in cancer deaths would result in almost $500 
billion in social value to the United States. Social value is 
calculated in terms of improved health and longevity. Curing the 
disease would be worth as much as $50 trillion in social value.\10\
---------------------------------------------------------------------------
    \10\ AACR Meeting: Increase Research Funding that Cuts U.S. Cancer 
Mortality by 1 percent Could Provide Payback of Nearly $500 Billion, 
Oncology Times, May 10, 2006.
---------------------------------------------------------------------------
                               CONCLUSION

    These are very exciting times in science and, particularly, in 
cancer research. Recent discoveries in the molecular biology of cancer 
have led to important advances and new approaches to the prevention and 
treatment of the disease. Drug discovery often is now based on the 
understanding of molecular targets unique to cancer cells compared with 
normal cells. Because of the Nation's investment in this research, we 
are learning how to target and treat cancer specifically, while sparing 
healthy tissues, and we are helping survivors lead more vibrant lives. 
Reduced or flat funding will have a grave impact on progress in 
targeted therapies and other promising research endeavors that could 
lead to increased cancer survivorship.
    Simply put, cancer research is a marathon, not a sprint. While the 
period of NIH doubling briefly helped speed the pace of cancer 
research, the potential legacy of this doubling will be squandered if 
the NCI and NIH budgets are not funded--at a minimum--to account for 
the effects of biomedical inflation. AACI and its members urge Congress 
to support an NIH budget increase for fiscal year 2008 of at least 6.7 
percent to make up for recent annual inflationary shortfalls. AACI and 
its members also urge Congress to appropriate $5.1 billion for NCI's 
fiscal year 2008 budget, which reflects a 6.7 percent increase over 
fiscal year 2007, consistent with our overall NIH request.
    We must, as a Nation, commit to fully funding the budget of the NCI 
and the NIH. Our generation has been fortunate--a diagnosis of cancer 
is no longer the certain death sentence it was for our parents and 
grandparents. We owe the same to our children and grandchildren, and we 
urge your support to increase this critical funding.
                                 ______
                                 
      Prepared Statement of the Association of American Publishers

    I am pleased to submit the following statement for the record on 
behalf of the Professional and Scholarly Publishing Division of the 
Association of American Publishers (PSP/AAP) in conjunction with the 
subcommittee's hearing on the fiscal year 2008 Budget for the National 
Institutes of Health (NIH). The AAP represents commercial and non-
profit entities who publish scientific, technical and medical journals. 
Scholarly publishers are committed to working with NIH to successfully 
implement NIH's Public Access Policy and ensure that articles based on 
NIH-funded research are deposited with NIH. Publishers believe that 
such a proactive public-private partnership between NIH and journal 
publishers is critical to the success of the NIH policy. As a result of 
the voluntary efforts by publishers, the number of articles deposited 
with NIH has increased significantly.
    The number of articles deposited with NIH has increased well beyond 
the low figures referenced by NIH. The voluntary effort initiated by 
publishers to deposit manuscripts on behalf of authors has resulted in 
an increase in deposits from 4 percent to over 20 percent. This 
significant increase is just the beginning. We will be able to do more 
as additional publishers join this effort. However, we need NIH's help 
to make that happen. To date, NIH has been slow to work with publishers 
to resolve key implementation issues necessary to bring on additional 
publishers.
    We strongly oppose any move to a mandatory policy and feel that NIH 
should instead engage publishers more broadly so we may achieve our 
mutual objectives. This is important to attain the maximum article 
deposition rate without adversely affecting the valuable peer review 
process or the stability of important scientific journals and their 
publishers. Considering the immense stakes, it is prudent to work 
through the outstanding issues under the voluntary policy in a way that 
optimizes participation by all players to ensure the greatest benefit 
to the public interest and scientific progress.
    We are confident that through a cooperative approach involving the 
publishing community, deposition rates for manuscripts reporting on 
NIH-funded research can reach optimum levels within a period of month, 
not years. We encourage Congress to direct NIH to work together with 
publishers to improve the implementation of the voluntary Public Access 
Policy and further increase deposit rates. We stand ready to work with 
NIH to achieve this important goal.
    Publishers remain committed to working with NIH to ensure the 
successful implementation of the current voluntary program, while 
protecting the peer review process that helps ensure the quality and 
integrity of scientific and medical research. On behalf of the AAP, I 
appreciate this opportunity to submit this statement and look forward 
to enhanced collaboration with NIH.
                                 ______
                                 
  Prepared Statement of the Association for Clinical Research Training

              SUMMARY OF FISCAL YEAR 2008 RECOMMENDATIONS

    A 6.7 percent increase for the National Institutes of Health, 
including the National Center for Research Resources.
    $462 million for the Clinical and Translational Science Awards.
    $350 million for the agency for Healthcare Research and Quality.
    $750 million for a Center for Comparative Effectiveness at the 
agency for Healthcare Research and Quality. Of this $750 million, a 
substantial portion should be for research training.
    The Association for Clinical Research Training (ACRT) is committed 
to improving the Nation's health by increasing the amount and quality 
of clinical research through the expansion and improvement of clinical 
research training. This training is funded by both the National 
Institutes of Health (NIH) and the Agency for Healthcare Research and 
Quality (AHRQ).

                     NATIONAL INSTITUTES OF HEALTH

    The NIH's Clinical and Translational Science Awards (CTSAs) aim to 
meet one of the profound challenges of 21st Century medicine, namely 
that the ever increasing complexities involved in conducting clinical 
research are making it more difficult to translate new knowledge from 
the bench to the bedside. As Dr. Elias Zerhouni, the Director of the 
NIH, wrote in the October 13, 2005 edition of the New England Journal 
of Medicine, ``it is the responsibility of those of us involved in 
today's biomedical research enterprise to translate the remarkable 
scientific innovations we are witnessing into health gains for the 
Nation.''
    The CTSAs assist institutions in creating a home for clinical and 
translational science that has the resources necessary to train and 
advance a cadre of investigators. The CTSAs transform basic research 
into clinical practice, advance information technology, integrate 
research networks and improve workforce training.
    The ACRT supports the fiscal year 2008 President's budget request 
of $462 million for the CTSAs, and joins the Ad Hoc Group for Medical 
Research in asking for a 6.7 percent increase in fiscal year 2008 for 
the NCRR and the NIH overall.

               AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    AHRQ is the lead Federal agency charged with supporting research to 
improve healthcare quality, reduce costs, advance patient safety, 
decrease medical errors, eliminate disparities and broaden access to 
essential services. AHRQ supports health services research that will 
improve the quality of healthcare and improve evidence-based decision 
making. The agency also transforms research into in practice in order 
to facilitate wider access to effective healthcare services.
    By providing funds to train clinical researchers, AHRQ ensures that 
there continues to be researchers who are able to provide the Nation 
with high quality, unbiased information about healthcare. Once 
consumers have this information, they will then be able to make 
effective, evidence based healthcare choices. A Center for Comparative 
Effectiveness would help to leverage AHRQ's expertise in providing this 
information to consumers. But in order to continue AHRQ's mission of 
training clinical researchers, there must be ample funding for training 
the investigators who will move this center forward.
    The ACRT joins the Friends of AHRQ in requesting $350 million for 
AHRQ in fiscal year 2008. The ACRT also joints the Society of General 
Internal Medicine (SGIM) and other organizations in advocating for a 
Center for Comparative Effectiveness at AHRQ. This center should have 
an initial investment of $750 million, including a substantial portion 
for research training.
                                 ______
                                 
  Prepared Statement of the Association of Maternal and Child Health 
                                Programs

    Mr. Chairman and members of the subcommittee, I am pleased to 
submit testimony on behalf of the Association of Maternal and Child 
Health Programs (AMCHP) regarding the critical need for increased 
funding of the Maternal and Child Health Services Block Grant, Title V 
of the Social Security Act. The Maternal and Child Health Services 
Block Grant is the only Federal program devoted to improving the health 
of all women, children and families. The program provides funding to 
State maternal and child health programs, which serve 33 million women 
and children in the United States.
    When our children are healthy, they are more likely to succeed. 
Maternal and child health (MCH) programs help promote our children's 
success by identifying emerging and urgent health needs, while 
continuing to assure services like prenatal care, universal newborn 
screening, immunizations and access to health services. In fact, 80 
percent of all American children access or connect with one or more 
programs funded by the Title V MCH Block Grant, making this program a 
vital resource for families--especially those with special health care 
needs.

                INCREASE THE BLOCK GRANT TO $750 MILLION

    The MCH Block Grant ``Works.''--The Office of Management and Budget 
reported that the block grant-funded programs helped to decrease the 
infant mortality rate, prevent disabling conditions, increase the 
number of children immunized, increase access to care for uninsured 
mothers and children, and improve the overall health of all mothers and 
children. Funding for the program has decreased since fiscal year 2002, 
yet participation has increased. These funding shortages have 
threatened the MCH programs' ability to continue achieving successful 
outcomes. As health care costs rise and the number of under- or un-
insured women and children continue to grow, block grant programs will 
face a critical erosion of their successes. This erosion will impact 
the health and well-being of hundreds of thousands of women and 
children.
    The Need for Programs for Families and Children With Special Health 
Care Needs Continues to Grow.--As States face economic hardships and 
limit their enrollment and benefit packages in Medicaid and State 
Children's Health Insurance Programs (SCHIP), more women and children 
seek and receive services through MCH programs. This is especially true 
for children with special health care needs who require services that 
are not covered in most health insurance plans. Block grant funds also 
are used to reduce infant mortality, provide mental health care, 
improve oral health, provide care coordination to children with special 
health care needs and reduce racial disparities in health care.
    The Block Grant Funds Improvements to Vital Health Care Systems.--
State MCH programs establish health care standards that promote 
preventive health care; provide outreach and health care education to 
assure that children receive services through insurance programs; and, 
measure the impact of health care practices. The block grant allows 
States to fund efforts to increase the quality health care, collect 
data and conduct analyses. MCH programs identify factors associated 
with infant mortality, inadequate immunizations, and late prenatal care 
so that strategies can be developed to address these needs. Every 
funding cut means the provision of fewer direct services and limits the 
development of health care system improvements.
maternal and child block grant-funded programs have far-reaching impact 

               AND USE MONIES EFFICIENTLY AND EFFECTIVELY

Working with Efficiency and Agility, Spending Limited Resources Wisely
    The care coordination of MCH programs ensures that all mothers and 
children, insured, under- and un-insured, utilize available health care 
coverage to receive all possible benefits. All payment sources (private 
insurance, State or federally funded health care) are integrated to 
deliver quality care.
    Dollars invested in MCH programs yield a high return on investment.
      The State of Iowa was awarded an Early Hearing Detection and 
        Intervention grant through 2008 to focus on reducing the number 
        of infants who are ``lost'' in the system, delaying the 
        provision of early intervention services. The States' Child 
        Health Specialty Clinics use the funds to screen all newborns 
        and enroll eligible children into early intervention programs.
      The Pennsylvania Department of Health currently funds the 
        Pennsylvania Shaken Baby Syndrome Prevention and Awareness 
        Program in the amount of approximately $100,000 annually. This 
        program seeks to increase awareness of new parents on the 
        dangers of shaking a baby. Medical care over the lifetime of a 
        single child that suffers from Shaken Baby Syndrome can easily 
        surpass the million dollar mark.
      In Florida, for every dollar spent on newborn screening, $17 are 
        saved. Newborn screening detects diseases and disorders that, 
        without intervention, are debilitating, costly and potentially 
        deadly.
Focusing on Those with the Greatest Need
    Nationally, the incidence of low birth weight babies and infant 
mortality for African Americans is twice the rate for whites. MCH 
programs share strategies and tactics to reduce these racial and ethnic 
disparities.
      Nevada contracts with local agencies to serve uninsured pregnant 
        women with prenatal care including screening and referral for 
        depression during and post-pregnancy.
    Many young people are at risk for serious chronic diseases and 
premature death. Among 5- to 24-year-olds, nearly 75 percent of deaths 
are behavior-related, as are many illness and social problems, such as 
substance abuse. State MCH programs work to build the capacity of 
adolescent health coordinators and child health professionals at the 
State level to address adolescent health and make it a priority.
    State technical assistance programs funded by the Title V MCH Block 
Grant help prevent HIV transmission from mothers to babies, help women 
quit smoking during pregnancy and promote safe motherhood.
    A recent survey of State MCH program adolescent health coordinators 
identified teen pregnancy prevention as the number one priority related 
to adolescent health. State MCH programs work to raise the visibility 
of teen pregnancy prevention efforts to increase State capacity to 
address teen pregnancy and develop sustained and effective prevention 
efforts.
Serving America's Families
    MCH State programs serve more than 33 million people, striving to 
improve the health of all women, infants, children and adolescents 
including those with special health care needs by delivering critical 
screening services, and supporting preventive, primary and specialty 
care.
      Montana's MCH funding was the financial basis for public health 
        services, especially in many small counties until recent 
        bioterrorism funding. Federal and State MCH funding enables 
        local public health to leverage small amounts of match funding 
        at the county level.
    Eighty percent of America's children utilize one or more maternal 
and child health program.
      California's MCH program is collaborating with the Children's 
        Hospital of Los Angeles and State Epilepsy Foundation on a HRSA 
        grant called Improving Access to Care for Children and Youth 
        with Epilepsy. The overall goal is to improve access to health 
        and other services and supports related to epilepsy by 
        facilitating the development of state-wide community-based 
        interagency models of comprehensive, family-centered and 
        culturally effective statewide standards of care. The program 
        collaborates with Family Voices and the Children's Regional 
        Integrated Service Systems which comprises 14 MCH county 
        programs to implement integrated community systems of care for 
        children and youth with special health care needs.
    More families are turning to MCH services. Over the last 5 years, 
the number of individuals served increased by 18 percent.
      The number of families served through Regional Genetics Clinics 
        in Washington State grew from 2,736 families to 4,406 families 
        in 5 years.
Touching the Lives of Women and Children from Every Walk of Life
    MCH clients are as diverse as the country itself. MCH programs 
serve families in urban, suburban, rural, and frontier settings.
    Many MCH clients are ``special populations,'' those that face 
severe health problems and access issues to needed health care. They 
include children with complex health care needs, the under- and 
uninsured, American Indian and Alaska Natives, migrant and seasonal 
workers, immigrants, and racial and ethnic minorities.
      Pennsylvania's MCH program has partnered with the Pennsylvania 
        Chapter of the American Academy of Pediatrics on the Educating 
        Practices in Community Integrated Care (EPIC-IC) Medical Home 
        Training Program. Between Oct. 2006 to Feb. 2007, the EPIC IC 
        program has prevented over 200 hospitalizations and almost 700 
        emergency doctor visits from. Future cost benefit modeling with 
        parent and insurance data can translate this savings into real 
        time dollars. In addition, care coordination and the EPIC IC 
        program has favorably impacted the quality of life of both 
        parents and children and youth with special health care needs 
        by preventing almost 400 missed school days and over 250 
        parental work days missed.

MATERNAL AND CHILD HEALTH PROGRAMS WORK HAND IN HAND WITH MEDICAID AND 
  SCHIP. THE HEALTH AND CONTINUITY OF OUR PROGRAMS ARE VITAL TO THEIR 
                        CONTINUED EFFECTIVENESS

    AMCHP represents the State public health leaders and others working 
to assure that all women, children and families receive quality health 
care. MCH programs provide services and supports that augment Medicaid 
and SCHIP coverage and ensure eligible women and children access to 
needed services. MCH programs work with other programs such as WIC, 
community health providers, Head Start and schools to make referrals to 
Medicaid and SCHIP programs. They also train public health workers who 
inform families about the availability of Medicaid and SCHIP and how to 
apply. These programs participate in the development of Medicaid and 
SCHIP policies and practice standards that help providers work with 
special populations, such as children and youth with special health 
care needs.
    Changes to Medicaid and SCHIP often have a great effect on MCH 
programs and the people they serve. As some States restrict eligibility 
for Medicaid and SCHIP, people in need look to MCH-funded services to 
meet their health care needs. This puts an increased demand on MCH 
programs to offer more services without additional funding. With the 
increasing cost of health care and tighter State budgets, States are 
examining ways to offer health care services with decreasing resources. 
It is more important than ever to maintain the necessary services for 
pregnant women, children and adolescents by using the expertise, 
creativity and resources of Medicaid, SCHIP and Title V in joint 
program planning and development.

                               CONCLUSION

    After its creation, the Title V Maternal and Child Health Block 
Grant grew from a $2.7 million program in fiscal year 1936 to a $731 
million program in fiscal year 2002 to address the developing needs of 
America's women and children. However, since then, as maternal and 
child health related needs have increased, the Block Grant funding has 
decreased. Title V remains vital as a source of flexible funding that 
allows States to meet the needs of their most vulnerable populations 
through effective, efficient and integrated programs. Increased funding 
is crucial to sustain and expand these efforts to assure quality health 
care for families and children with special health care needs.
    Please provide $750 million for the Block Grant in fiscal year 
2008. Thank you for this opportunity to provide testimony.
                                 ______
                                 
 Prepared Statement of the Association of Minority Health Professions 
                                Schools

              SUMMARY OF FISCAL YEAR 2008 RECOMMENDATIONS

    $300 million for the Title VII Health Professions Training 
Programs, including:
  --$33.6 million for the minority centers of excellence.
  --$35.6 million for the health careers opportunity program.
    $250 million for the National Institutes of Health's National 
Center on Minority Health and Health Disparities.
    Support for the National Center for Research Resources Extramural 
Facilities Construction program.
  --$6.7 percent increase for Research Centers for Minority 
        Institutions.
  --$119 million for extramural facilities construction.
    $65 million for the Department of Health and Human Services' Office 
of Minority Health.
    $65 million for the Department of Education's Strengthening 
Historically Black Graduate Institutions program.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Barbara 
Hayes, president of the Association of Minority Health Professions 
Schools (AMHPS) and the dean of the school of pharmacy at Texas 
Southern University. AMHPS, established in 1976, is a consortium of our 
Nation's 12 historically black medical, dental, pharmacy, and 
veterinary schools. The members are two dental schools at Howard 
University and Meharry Medical College; four schools of medicine at The 
Charles Drew University, Howard University, Meharry Medical College, 
and Morehouse School of Medicine; five schools of pharmacy at Florida 
A&M University, Hampton University, Howard University, Texas Southern 
University, and Xavier University; and one school of veterinary 
medicine at Tuskegee University. In all of these roles, I have seen 
firsthand the importance of minority health professions institutions 
and the Title VII Health Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I want to say that minority health 
professional institutions and the Title VII Health Professionals 
Training programs address a critical national need. Persistent and 
sever staffing shortages exist in a number of the health professions, 
and chronic shortages exist for all of the health professions in our 
Nation's most medically underserved communities. Furthermore, our 
Nation's health professions workforce does not accurately reflect the 
racial composition of our population. For example while blacks 
represent approximately 15 percent of the U.S. population, only 2-3 
percent of the Nation's health professions workforce is black. Mr. 
Chairman, I would like to share with you how your committee can help 
AMHPS continue our efforts to help provide quality health professionals 
and close our Nation's health disparity gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Institutions that cultivate minority health professionals, like the 
AMHPS members, have been particularly hard-hit as a result of the cuts 
to the Title VII Health Profession Training programs in fiscal year 
2006 and fiscal year 2007 Funding Resolution passed earlier this 
Congress. Given their historic mission to provide academic 
opportunities for minority and financially disadvantaged students, and 
healthcare to minority and financially disadvantaged patients, minority 
health professions institutions operate on narrow margins. The cuts to 
the Title VII Health Professions Training programs amount to a loss of 
core funding at these institutions and have been financially 
devastating.
    In fiscal year 2008, funding for the Title VII Health Professions 
Training programs must be restored to the fiscal year 2005 level of 
$300 million, with two programs--the Minority Centers of Excellence 
(COEs) and Health Careers Opportunity Program (HCOPs)--in particular 
need of a funding restoration. In addition, the National Institutes of 
Health (NIH)'s National Center on Minority Health and Health 
Disparities (NCMHD), as well as the Department of Health and Human 
Services (HHS)'s Office of Minority Health (OMH), are both in need of a 
funding increase.
Minority Centers of Excellence
    COEs focus on improving student recruitment and performance, 
improving curricula in cultural competence, facilitating research on 
minority health issues and training students to provide health services 
to minority individuals. COEs were first established in recognition of 
the contribution made by four historically black health professions 
institutions (the Medical and Dental Institutions at Meharry Medical 
College; The College of Pharmacy at Xavier University; and the School 
of Veterinary Medicine at Tuskegee University) to the training of 
minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs.
    Presently the statute is configured in such a way that the 
``original four'' institutions compete for the first $12 million in 
funding, ``Hispanic and Native American'' institutions compete for the 
next $12 million, and ``Other'' institutions can compete for grants 
when the overall funding is above $24 million. For funding above $30 
million all eligible institutions can compete for funding.
    However, as a consequence of limited funding for COEs in fiscal 
year 2006 and fiscal year 2007, ``Hispanic and Native American'' and 
``Other'' COEs have lost their support. Out of 34 total COEs in fiscal 
year 2005, only 4 now remain due to the cuts in funding. Many AMHPS 
institutions lost its COE funding as well, which was a devastating blow 
to our institutions.
    For fiscal year 2008, I recommend a funding level of $33.6 million 
for COEs.
Health Careers Opportunity Program (HCOP)
    HCOPs provide grants for minority and non-minority health 
profession institutions to support pipeline, preparatory and recruiting 
activities that encourage minority and economically disadvantaged 
students to pursue careers in the health professions. Many HCOPs 
partner with colleges, high schools, and even elementary schools in 
order to identify and nurture promising students who demonstrate that 
they have the talent and potential to become a health professional.
    Collectively, the absence of HCOPs will substantially erode the 
number of minority students who enter the health professions. Over the 
last three decades, HCOPs have trained approximately 30,000 health 
professionals including 20,000 doctors, 5,000 dentists and 3,000 public 
health workers. If HCOPs continue to lose Federal support, then these 
numbers will drastically decrease. It is estimated that the number of 
minority students admitted to health professional schools will drop by 
25-50 percent without HCOPs. A reduction of just 25 percent in the 
number of minority students admitted to medical school will produce 
approximately 600 fewer minority medical students nationwide.
    As a result of cuts in the fiscal year 2006 and fiscal year 2007 
Labor-HHS Appropriations process, only 4 out of 74 total HCOPs 
currently receive Federal funding.
    For fiscal year 2008, I recommend a funding level of $35.6 million 
for HCOPs.
national institutes of health (nih): extramural facilities construction
    Mr. Chairman, if we are to take full advantage of the recent 
funding increases for biomedical research that Congress has provided to 
NIH over the past decade, it is critical that our Nation's research 
infrastructure remain strong. The current authorization level for the 
Extramural Facility Construction program at the National Center for 
Research Resources is $250 million. The law also includes a 25 percent 
set-aside for ``Institutions of Emerging Excellence'' (many of which 
are minority institutions) for funding up to $50 million. Finally, the 
law allows the NCRR Director to waive the matching requirement for 
institutions participating in the program. We strongly support all of 
these provisions of the authorizing legislation because they are 
necessary for our minority health professions training schools.
    Unfortunately, funding for NCRR's Extramural Facility Construction 
program was completely eliminated in the fiscal year 2006 Labor-HHS 
bill, and no funding was restored in the funding resolution for fiscal 
year 2007. In fiscal year 2008, please restore funding for this program 
to its fiscal year 2004 level of $119 million, or at a minimum, provide 
funding equal to the fiscal year 2005 appropriation of $40 million.

               RESEARCH CENTERS IN MINORITY INSTITUTIONS

    The Research Centers at Minority Institutions program (RCMI) at the 
National Center for Research Resources has a long and distinguished 
record of helping our institutions develop the research infrastructure 
necessary to be leaders in the area of health disparities research. 
Although NIH has received unprecedented budget increases in recent 
years, funding for the RCMI program has not increased by the same rate. 
Therefore, the funding for this important program grow at the same rate 
as NIH overall in fiscal year 2008.

 STRENGTHENING HISTORICALLY BLACK GRADUATE INSTITUTIONS--DEPARTMENT OF 
                               EDUCATION

    The Department of Education's Strengthening Historically Black 
Graduate Institutions program (Title III, Part B, section 326) is 
extremely important to AMHPS. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2008, an 
appropriation of $65 million (an increase of $7 million over fiscal 
year 2007) is suggested to continue the vital support that this program 
provides to historically black graduate institutions.
National Center on Minority Health and Health Disparities
    The National Center on Minority Health and Health Disparities 
(NCMHD) is charged with addressing the longstanding health status gap 
between minority and nonminority populations. The NCMHD helps health 
professional institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NCMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NCMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through the Minority Centers of 
Excellence program.
    For fiscal year 2008, I recommend a funding level of $250 million 
for the NCMHD.
Department of Health and Human Services' Office of Minority Health
    Specific programs at OMH include:
    (1) Assisting medically underserved communities with the greatest 
need in solving health disparities and attracting and retaining health 
professionals,
    (2) Assisting minority institutions in acquiring real property to 
expand their campuses and increase their capacity to train minorities 
for medical careers,
    (3) Supporting conferences for high school and undergraduate 
students to interest them in health careers, and
    (4) Supporting cooperative agreements with minority institutions 
for the purpose of strengthening their capacity to train more 
minorities in the health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. Unfortunately, the OMH does not yet have the 
authority or resources necessary to support activities that will truly 
make a difference in closing the health gap between minority and 
majority populations.
    For fiscal year 2008, I recommend a funding level of $65 million 
for the OMH.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
AMHPS's member institutions and the Title VII Health Professions 
Training programs can help this country to overcome health and 
healthcare disparities. Congress must be careful not to eliminate, 
paralyze or stifle the institutions and programs that have been proven 
to work. The Association seeks to close the ever widening health 
disparity gap. If this subcommittee will give us the tools, we will 
continue to work towards the goal of eliminating that disparity 
everyday.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
    Prepared Statement of the Association for Psychological Science

                       SUMMARY OF RECOMMENDATIONS

    As a member of the Ad Hoc Group for Medical Research Funding, APS 
recommends $30.8 billion for NIH in fiscal year 2008, a 6.7 percent 
increase.
    APS requests committee support for establishing behavioral and 
social science research and training as a core priority at NIH in order 
to: better meet the Nation's health needs, many of which are behavioral 
in nature; realize the exciting scientific opportunities in behavioral 
and social science research, and; accommodate the changing nature of 
science, in which new fields and new frontiers of inquiry are rapidly 
emerging.
    Given the critical role of basic behavioral science research and 
training in addressing many of the Nation's most pressing public health 
needs, we ask the committee to (1) require NIMH to coordinate its 
efforts with other Institutes to ensure that these and related areas 
are adequately supported at NIH; and (2) request a report from NIH 
outlining a structure for basic behavioral science within NIGMS.
    APS encourages the committee to review behavioral science 
activities at a number of individual institutes. Examples are provided 
in this testimony to illustrate the exciting and important behavioral 
and social science work being supported at NIH.
    Mr. Chairman, members of the committee: As our organization's name 
indicates, APS is dedicated to all areas of scientific psychology, in 
research, application, teaching, and the improvement of human welfare. 
Our 18,000 members are scientists and educators at the Nation's 
universities and colleges, conducting NIH-supported basic and applied, 
theoretical and clinical research. They look at such things as: the 
connections between emotion, stress, and biology and the impact of 
stress on health; they look at how children grow, learn, and develop; 
they use brain imaging to explore thinking and memory and other aspects 
of cognition; they develop ways to manage debilitating chronic 
conditions such as diabetes and arthritis as well as depression and 
other mental disorders; and they address the behavioral aspects of 
smoking and drug and alcohol abuse. Still others look at how genes and 
the environment influence behavioral traits such as aggression and 
anxiety; the development of a normative model of vision to understand 
how it is used in behavior; and the study of the behavioral and neural 
mechanisms of sound localization.
    As a member of the Ad Hoc Group for Medical Research Funding, APS 
recommends $30.8 billion for NIH in fiscal year 2008, an increase of 
6.7 percent over the fiscal year 2007 Joint Funding Resolution level. 
This increase would halt the erosion of the Nation's public health 
research enterprise, and help restore momentum to our efforts to 
improve the health and quality of life of all Americans.
    Within the NIH budget, APS is particularly focused on behavioral 
and social science research and the central role of behavior in health. 
The remainder of this testimony concerns the status of those areas of 
research at NIH.

       BASIC AND APPLIED PSYCHOLOGICAL RESEARCH RELATED TO HEALTH

    Behavior is an indelible part of health. Many leading health 
conditions--heart disease; stroke; lung disease and certain cancers; 
obesity; AIDS, suicide; teen pregnancy, drug abuse and addiction, 
depression and other mental illnesses; neurological disorders; 
alcoholism; violence; injuries and accidents--originate in behavior and 
can be prevented or controlled through behavior. As just one example, 
stress is something we all feel in our daily lives, and we now have a 
growing body of research that illustrates the direct link between 
stress and health: chronic stress accelerates not only the size but 
also the strength of cancer tumors; mounting evidence indicates that 
chronic stressors weaken the immune system to the point where the heart 
is damaged, paving the way for cardiac disease; children who are 
genetically vulnerable to anxiety and who are raised by stressed 
parents are more likely to experience more anxiety and stress later in 
life; animal research has shown that stress interferes with working 
memory; and stressful interactions may contribute to systemic 
inflammation in older adults which in turn may maintain negative 
emotion and pain over time.
    None of the conditions or diseases described above can be fully 
understood without an awareness of the behavioral and psychological 
factors involved in causing, treating and preventing them. Just as 
there exists a layered understanding, from basic to applied, of how 
molecules affect brain cancer, there is a similar spectrum for 
behavioral research. For example, before you address how to change 
attitudes and behaviors around AIDS, you need to know how attitudes 
develop and change in the first place. Or, to design targeted therapies 
for bipolar disorder, you need to know how to understand how circadian 
rhythms work as disruptions in sleeping patterns have been shown to 
worsen symptoms in bipolar patients.
    Despite the clear central role of behavior in health, behavioral 
research has not received the recognition or support needed to reverse 
the effects of behavior-based health problems in this Nation. APS asks 
that you continue to help make behavioral research more of a priority 
at NIH, both by providing maximum funding for those institutes where 
behavioral science is a core activity, by encouraging NIH to advance a 
model of health that includes behavior in its scientific priorities, 
and by encouraging stable support for basic behavioral science research 
at NIH.

    BASIC BEHAVIORAL SCIENCE RESEARCH NEEDS A STABLE INFRASTRUCTURE

    Broadly defined, behavioral research explores and explains the 
psychological, physiological, and environmental mechanisms involved in 
functions such as memory, learning, emotion, language, perception, 
personality, motivation, social attachments, and attitudes. Within 
this, basic behavioral research aims to understand the fundamental 
nature of these processes in their own right, which provides the 
foundation for applied behavioral research that connects this knowledge 
to real-world concerns such as disease, health, and life stages. We are 
sorry to have to tell you that basic behavioral research is not faring 
well at NIH, a circumstance that jeopardizes the success of the entire 
behavioral research enterprise. Let us describe the current situation:
    Traditionally, the National Institute of Mental Health (NIMH) has 
been the home for far more basic behavioral science than any other 
institute. Many basic behavioral and social questions were being 
supported by NIMH, even if their answers could also be applied to other 
institutes. Recently, NIMH has begun to aggressively reduce its support 
for many areas of the most basic behavioral research, in favor of 
translational and clinical research. This means that previously funded 
areas now are not being supported.
    NIMH's abrupt decision to narrow its portfolio came without 
adequate planning and is happening at the expense of critical basic 
behavioral research. We favor a broader spectrum of support for basic 
behavioral science across NIH as appropriate and necessary for a vital 
research enterprise. But until other Institutes have the capacity to 
support more basic behavioral science research connected to their 
missions, programs of research in fundamental behavioral phenomena such 
as cognition, emotion, psychopathology, perception, and development, 
will continue to languish. The existing conditions for basic behavioral 
science research undermine the scientific community's efforts to 
address many of the Nation's most pressing public health needs. We ask 
the committee to require NIMH to coordinate its efforts with other 
Institutes to ensure that these areas are adequately supported at NIH.

         NIGMS SHOULD SUPPORT BASIC BEHAVIORAL SCIENCE RESEARCH

    The situation at NIMH underscores the need for a dependable 
``home'' for basic behavioral science research and training at NIH. In 
fact, that is the recommendation of the NIH Director's own Working 
Group on Research Opportunities in the Basic Behavioral and Social 
Sciences, which also recommended the National Institute of General 
Medical Sciences (NIGMS), known as NIH's ``basic research institute.'' 
Congress has given NIGMS a statutory mandate [TITLE 42, CHAPTER 6A, 
SUBCHAPTER III, Part C, subpart 11, Sec. 285k] to support basic 
behavioral research and training, but that mandate has not been 
fulfilled.
    As early as fiscal year 2000, this committee, along with your 
colleagues in the House, has repeatedly issued report language urging 
NIGMS to fund basic behavioral research and training, saying, for 
example: ``There is a range of basic behavioral research and training 
that the institute could support, such as the fundamental relationships 
between the brain and behavior, basic cognitive processes such as 
motivation, learning, and information processing, and the connections 
between mental processes and health. The committee encourages NIGMS to 
support basic behavioral research and training and to consult with the 
behavioral science research community and other Institutes to identify 
priority research and training areas.'' [House Fiscal Year 2000 
Appropriations Report 106-370]
    As a result of meetings between NIH Deputy Director Raynard Kington 
and Representatives Kennedy and Baird, the NIH Director commissioned a 
panel of outside experts in 2004 to study the matter. This Working 
Group, which was convened under the auspices of the NIH Director's 
Advisory Council, spent a year assessing the state of basic behavioral 
research throughout NIH. In its final report to NIH, the Working Group 
formally recommended the establishment of a secure and stable home for 
basic behavioral science research and training at NIH. In particular, 
it suggested that an Institute such as NIGMS should be that home, as 
this committee, the Institute of Medicine, and the National Academy of 
Sciences have recommended. NIH has deflected this request, made by 
multiple entities, time and time again. In view of the fact that 8 of 
the 10 leading causes of death have a significant behavioral component 
and that basic research is the underpinning of advances in applied 
behavioral research, the continued lack of focus of scientific 
leadership at NIH for this important field of science is counter to the 
interests of the Nation's health needs.
    Basic behavioral research in the cognitive, psychological, and 
social processes underlying substance abuse and addiction (significance 
for NIDA, NIAAA, NCI and NHLBI), obesity (significance for NIDDK, 
NHLBI, and NICHD) and the connections between the brain and behavior 
(significance for NIMH, NINDS, and NHGRI) just to name a few, all are 
within the NIGMS mission. Greater involvement between the behavioral 
science community and NIGMS is an alliance that can reap enormous 
benefits for NIGMS, for behavioral science, for medical science, and 
for the public welfare. It is our feeling that the time is ripe for 
NIGMS to provide a supportive home for the kinds of basic behavioral 
science research that will be critical to fulfilling the NIGMS mission 
in the coming years. Given the statutory mandate, the recommendations 
of a recent Director's advisory council's task force, the strong 
congressional interest, the recommendations of the National Academy of 
Sciences and the Institute of Medicine, the scientific imperative, and 
most important, the health needs of the Nation, APS asks the committee 
to request the Office of the Director to submit to the committee a 
report indicating the structure for scientific leadership for this 
important field within the appropriate grant making institute, by 
November 16, 2007.

                  BEHAVIORAL SCIENCE AT KEY INSTITUTES

    In the remainder of this testimony, we highlight examples of 
cutting-edge behavioral science research being supported by individual 
institutes.
    National Institute of Mental Health (NIMH).--In addition to our 
earlier discussion of NIMH, we would like to give special recognition 
to the Institute's support of the emerging field of Social 
Neuroscience, which investigates the interaction of biological 
mechanisms and social processes and behavior. We commend NIMH for 
making this a priority. Elucidating the complex interplay between brain 
and social behavior will help us better understand and treat mental 
disorders such as autism and schizophrenia, and will lead to cognitive 
therapies for treating the emotion dysregulation associated with post-
traumatic stress, depression, and cardiovascular disease.
    National Institute on Drug Abuse (NIDA).--By supporting a 
comprehensive research portfolio that stretches across basic 
neuroscience, behavior, and genetics, NIDA is leading the Nation to a 
better understanding and treatment of drug abuse. Risky Decision-Making 
and HIV/AIDS-NIDA-funded research is examining every aspect of the 
transmission of HIV/AIDS through drug abuse and addiction, including 
risk-taking behaviors associated with both injection and non-injection 
drug abuse, how drugs of abuse alter brain function and impair decision 
making, and HIV prevention and treatment strategies for diverse groups. 
The goal is to achieve a broad understanding of the multiple ways that 
drug abuse and addiction affect HIV/AIDS and how research can inform 
public health policy. APS asks this committee to support this and other 
critical behavioral science research at NIDA, and to increase NIDA's 
budget in proportion to the overall increase at NIH in order to reduce 
the health, social and economic burden resulting from drug abuse and 
addiction in this Nation.
    It's not possible to highlight all of the worthy behavioral science 
research programs at NIH. In addition to those reviewed in this 
statement, many other institutes play a key role in NIH behavioral 
science research enterprise. These include the National Institute on 
Alcohol Abuse and Alcoholism, the National Cancer Institute, the 
National Institute for Child Health and Human Development, the National 
Institute on Aging, the National Heart, Lung, and Blood Institute, and 
the National Institute of Diabetes and Digestive and Kidney Diseases. 
Behavioral science is a central part of the mission of these 
institutes, and their behavioral science programs deserve the 
committee's strongest possible support.
    This concludes our testimony. Again, thank you for the opportunity 
to discuss NIH appropriations for fiscal year 2008 and specifically, 
the importance of behavioral science research in addressing the 
Nation's public health concerns. We would be pleased to answer any 
questions.
                                 ______
                                 
   Prepared Statement of the Association for Research in Vision and 
                          Ophthalmology (ARVO)

                           EXECUTIVE SUMMARY

    ARVO requests fiscal year 2008 NIH funding at $31 billion, or a 6.7 
percent increase over fiscal year 2007, to balance the biomedical 
inflation rate of 3.7 percent and to maintain the momentum of 
discovery. Although ARVO commends the leadership's actions in the 110th 
Congress to increase fiscal year 2007 NIH funding by $620 million, this 
was just an initial step in restoring the NIH's purchasing power, which 
has declined by more than 13 percent since the budget doubling ended in 
fiscal year 2003. That power would be eroded even further under the 
President's proposed fiscal year 2008 budget. ARVO commends NIH 
Director Dr. Zerhouni, who has articulately described his agenda to 
foster collaborative, cost-effective research and to transform the 
healthcare research and delivery paradigm into one that is predictive, 
preemptive, preventive, and personalized. NIH is the world's premier 
institution and must be adequately funded so that its research can 
reduce healthcare costs, increase productivity, improve quality of 
life, and ensure our Nation's global competitiveness.
    ARVO requests that Congress make vision health a top priority by 
funding the NEI at $711 million in fiscal year 2008, or a 6.7 percent 
increase over fiscal year 2007. This level is necessary to fully 
advance the breakthroughs resulting from NEI's basic and clinical 
research that are resulting in treatments and therapies to prevent eye 
disease and restore vision. Vision impairment/eye disease is a major 
public health problem that is growing and which disproportionately 
affects aging and minority populations, costing the United States $68 
billion annually in direct/societal costs, reduced independence, and 
quality of life. NEI funding is a cost-effective investment in our 
Nation's health, as it can delay and prevent expenditures, especially 
to the Medicare and Medicaid programs.
    Adequate NEI funding is also essential to a strong and vibrant 
research community, which risks losing established investigators. The 
flat funding in recent years may cause young investigators to pursue 
other careers and thus fail to keep the research pipeline strong. ARVO 
is especially concerned about the impact on clinician scientists who 
have been so instrumental to the NEI's successful track record of the 
translations of basic research into clinical applications that directly 
benefit the American people.

                               ABOUT ARVO

    ARVO is the world's largest association of physicians and 
scientists who study diseases and disorders affecting vision and the 
eye. ARVO has more than 11,700 members from the United States and 70 
countries, and some 80 percent of U.S. members have grants from the 
National Eye Institute. It is in that regard that ARVO submits these 
comments in support of increased fiscal year 2008 NIH and NEI funding.

FUNDING THE NEI AT $711 MILLION IN FISCAL YEAR 2008 ENABLES IT TO LEAD 
 TRANS-INSTITUTE VISION RESEARCH THAT MEETS NIH'S GOAL OF PREEMPTIVE, 
          PREDICTIVE, PREVENTIVE, AND PERSONALIZED HEALTHCARE

    Funding NEI at $711 million in fiscal year 2008 represents the eye 
and vision research community's judgment as that necessary to fully 
advance breakthroughs resulting from NEI's basic and clinical research 
that are resulting in treatments and therapies to prevent eye disease 
and restore vision.
    NEI research responds to the NIH's overall major health challenges, 
as set forth by Dr. Zerhouni: an aging population; health disparities; 
the shift from acute to chronic diseases; and the co-morbid conditions 
associated with chronic diseases (e.g., diabetic retinopathy). In 
describing the predictive, preemptive, preventive, and personalized 
approach to healthcare research, Dr. Zerhouni has frequently cited NEI-
funded research as tangible examples of the value of our Nation's past 
and future investment in the NIH. These include:
  --Dr. Zerhouni has cited as a breakthrough the collaborative Human 
        Genome Project/NEI-funded discovery of gene variants strongly 
        associated with an individual's risk of developing age-related 
        macular degeneration (AMD), the leading cause of blindness 
        (affecting more than 10 million Americans) which increasingly 
        robs seniors of their independence and quality of life. These 
        variants, which are responsible for about 60 percent of the 
        cases of AMD, are associated with the body's inflammatory 
        response and may relate to other inflammation-associated 
        diseases, such as Alzheimer's and Parkinson's disease. As NEI 
        Director Dr. Paul Sieving has stated, ``One of the important 
        stories during the next decade will be how Alzheimer's disease 
        and macular degeneration fit together.''
  --Dr. Zerhouni has cited the NEI-funded Age-Related Eye Disease Study 
        (AREDS) as a cost-effective preventive measure. In 2006, NEI 
        began the second phase of the AREDS study, which will follow up 
        on initial study findings that high levels of dietary zinc and 
        antioxidant vitamins (Vitamins C, E and beta-carotene) are 
        effective in reducing vision loss in people at high risk for 
        developing advanced AMD--by a magnitude of 25 percent.
  --NEI has funded research, along with the National Cancer Institute 
        (NCI) and the National Heart, Lung, and Blood Institute 
        (NHLBI), into factors that promote new blood vessel growth 
        (such as Vascular Endothelial Growth Factor, or VEGF). This has 
        resulted in anti-VEGF factors that have been translated into 
        the first generation of ophthalmic drugs approved by the Food 
        and Drug Administration (FDA) to inhibit abnormal blood vessel 
        growth in ``wet'' AMD, thereby stabilizing vision loss. Current 
        research is focused on using treatments singly and in 
        combination to improve vision or prevent further vision loss 
        due to AMD. As part of its Diabetic Retinopathy Clinical 
        Research Network, NEI is also evaluating these drugs for 
        treatment of macular edema associated with diabetic 
        retinopathy.
    Although these breakthroughs came directly from the past doubling 
of the NIH budget, their long-term potential to preempt, predict, 
prevent, and treat disease relies on adequately funding NEI's follow-up 
research. Unless its funding is increased, the NEI's ability to 
capitalize on the findings cited above will be seriously jeopardized, 
resulting in ``missed opportunities'' that could include:
  --Following up on the AMD gene discovery by developing diagnostics 
        for early detection and promising therapies, as well as to 
        further study the impact of the body's inflammatory response on 
        other degenerative eye diseases.
  --Fully investigating the impact of additional, cost-effective 
        dietary supplements in the AREDS study, singly and in 
        combination, to determine if they can demonstrate enhanced 
        protective effects against progression to advanced AMD.
  --Following up with further clinical trials on patients with the 
        ``wet'' form of AMD, as well as patients with diabetic 
        retinopathy, using the new anti-angiogenic ophthalmic drugs 
        singly and in combination to halt disease progression and 
        potentially restore vision.
    In addition, NEI research into other significant eye disease 
programs, such as glaucoma and cataract, will be threatened, along with 
quality of life research programs into low vision and chronic dry eye. 
This comes at a time when the U.S. Census and NEI-funded 
epidemiological research (also threatened without adequate funding) 
both cite significant demographic trends that will increase the public 
health problem of vision impairment and eye disease.
    Adequate NEI funding is also essential to a strong and vibrant 
research community, which risks losing established investigators. The 
flat funding in recent years may cause young investigators to pursue 
other careers and thus fail to keep the research pipeline strong. ARVO 
is especially concerned about the impact on clinician scientists who 
have been so instrumental to the NEI's successful track record of the 
translations of basic research into clinical applications that directly 
benefit the American people.
vision impairment/eye disease is a major public health problem that is 

  INCREASING HEALTHCARE COSTS, REDUCING PRODUCTIVITY, AND DIMINISHING 
                            QUALITY OF LIFE

    The 2000 U.S. Census reported that more than 119 million people in 
the United States were age 40 or older, which is the population most at 
risk for an age-related eye disease. The NEI estimates that, currently, 
more than 38 million Americans age 40 and older experience blindness, 
low vision or an age-related eye disease such as AMD, glaucoma, 
diabetic retinopathy, or cataracts. This is expected to grow to more 
than 50 million Americans by year 2020. The economic and societal 
impact of eye disease is increasing not only due to the aging 
population, but to its disproportionate incidence in minority 
populations and as a co-morbid condition of other chronic disease, such 
as diabetes.
    Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of direct healthcare costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. The continuum of 
vision loss presents a major public health problem and financial 
challenge to both the public and private sectors.
    In public opinion polls over the past 40 years, Americans have 
consistently identified fear of vision loss as second only to fear of 
cancer. As a result, Federal funding for the NEI is a vital investment 
in the health, and vision health, of our Nation, especially our 
seniors, as the treatments and therapies emerging from research can 
preserve and restore vision. Adequately funding the NEI can delay and 
prevent expenditures, especially those associated with the Medicare and 
Medicaid programs, and is, therefore, a cost-effective investment.
    ARVO urges fiscal year 2008 NIH and NEI funding at $31 billion and 
$711 million, respectively.
                                 ______
                                 
Prepared Statement of the Association of Women's Health, Obstetric and 
                            Neonatal Nurses

    The Association of Women's Health, Obstetric and Neonatal Nurses 
(AWHONN) appreciates the opportunity to provide comments on the fiscal 
year 2008 appropriations for nursing education, research, and workforce 
development programs as well as programs designed to improve maternal 
and child health. AWHONN is a membership organization of 22,000 nurses, 
and our mission is to promote the health and well-being of all women 
and newborns. AWHONN members are registered nurses, nurse 
practitioners, certified nurse-midwives, and clinical nurse specialists 
who work in hospitals and health systems, physicians' practices, 
universities, and community clinics throughout the United States.

             DEPARTMENT OF HEALTH AND HUMAN SERVICES (HHS)

AWHONN recommends $1 million in fiscal year 2008 funding to convene a 
        Surgeon General's conference on preterm birth
    Premature birth is the leading cause of neonatal death. Each year, 
an estimated 1 in 8 births is premature. A 2006 report by the Institute 
of Medicine found that the annual economic burden associated with 
preterm birth is at least $26.2 billion. This translates to $51,600 per 
preterm infant. The PREEMIE Act (Public Law 109-450) authorized funding 
to convene a Surgeon General's conference to establish a public-private 
research and education agenda to accelerate the development of new 
strategies for preventing preterm birth. This Surgeon General's 
conference is a critical step in reducing this growing challenge.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

AWHONN recommends a minimum of $7.5 billion in funding for HRSA
    AWHONN is deeply concerned by the President's budget request, which 
eliminates 12 programs and cuts over $200 million from the Federal 
funds HRSA received in 2007. Through its many programs and new 
initiatives, HRSA provides for the Nation's most vulnerable citizens. 
Rapid advances in research and technology promise unparalleled change 
in the Nation's health care delivery system. In order to take 
reasonable advantage of these opportunities, HRSA will require an 
overall funding level of at least $7.5 billion for fiscal year 2008.

     TITLE VIII--NURSING WORKFORCE DEVELOPMENT PROGRAMS UNDER HRSA

AWHONN recommends a minimum of $200 million in funding for Title VIII
    Nursing workforce development programs authorized under Title VIII 
of the Public Health Service Act, are an essential component of the 
American health care safety net. Title VIII programs are the only 
comprehensive Federal programs that provide annual funds for nursing 
education. These funds help nursing schools and students prepare to 
meet changing patient needs and provide clinical education to promote 
practice in medically underserved communities and Health Professional 
Shortage Areas.
    The President's budget recommends a 30 percent reduction in funding 
at $105 million for fiscal year 2008, despite the worsening nursing 
shortage. AWHONN believes a minimum of $200 million is needed to 
adequately fund in funding for Title VIII Nursing Workforce 
Development. In addition, AWHONN supports funding the Advanced 
Education Nursing Training Program (sec. 811) at an increased level on 
par with other Title VIII programs in fiscal year 2008.
    In 2002, Congress enacted the Nurse Reinvestment Act, which 
provides funding for programs such as the Nurse Education Loan 
Repayment Program (NELRP), internships and residencies, retention 
programs, and faculty loans designed to encourage students to consider 
nursing, retain nurses, and increase nurse educators. These new 
programs received an initial appropriation of $20 million in fiscal 
year 2003, in addition to $93 million provided for existing Title VIII 
programming. Inadequate funding stunted the potential of loan and 
scholarship programs and limited the support to nursing students. For 
example, NELRP is a competitive program that repays 60 percent of the 
qualifying loan balance of registered nurses selected for funding in 
exchange for 2 years of service at a critical shortage facility. In 
fiscal year 2005, the NELRP received 4,465 applications and dispersed 
803 awards; an 18 percent award rate. In fiscal year 2006, NELRP 
assessed 4,222 applications and gave 615 awards; only a 14 percent 
award rate. The award trend is going in the wrong direction.
    Increased Funding for Title VIII Will Make a Positive Impact on the 
Nursing Shortage.--Recent data from the Bureau of Health Professions, 
Division of Nursing's The Registered Nurse Population: National Sample 
Survey of Registered Nurses, Preliminary Findings--March 2007, confirm 
that of the approximately 2.9 million registered nurses in the Nation 
only 83 percent of these nurses work full-time or part-time in nursing. 
A dominant factor in this shortage is the impending retirement of up to 
40 percent of the workforce by 2010. The average age of a nurse 
according to a 2004 sample survey is 46.8 compared to 45.2 in the 2000 
survey. This anticipated wave of retirement will occur as the needs of 
the aging baby boomer population will markedly increase demand for 
health care services and registered nurses. Also, the 2007 U.S. Bureau 
of Labor and Statistics report projected that registered nurses will 
have the largest 10-year job growth; about 1 million new job openings 
by 2010.
    The shortage of registered nurses and its effect on staffing 
levels, patient safety, and quality care demands attention and a 
significant increase in funding to bolster and improve these programs. 
Nursing is the largest health profession, yet only .2 percent of 
Federal health funding is devoted to nursing education. A significant 
increase in funding for these programs can help lay the groundwork for 
expanding the nursing workforce, through education, clinical training 
and retention programs.
    Increased Funding for Title VIII Will Help Fill the Nursing Faculty 
Gap.--AWHONN supports efforts to recruit new faculty and increase 
nursing faculty available to teach in nursing schools. Currently, 
according to the National League for Nursing, there are fewer than 
17,000 full-time faculty members. The estimated number of nurse faculty 
required to meet current demand is estimated to be 40,000 nurse 
educators. The Advanced Nurse Education funding in fiscal year 2005 
produced 11,949 graduate nursing students, who are the primary pool for 
future faculty.
    Nursing faculty continues to decrease in number as nursing school 
applications have surged more than 59 percent over the past decade. In 
a NLN survey of the 2004-2005 academic year, nursing programs at all 
degree levels turned away an estimated 147,000 qualified applications 
because of the lack of faculty. This number represents a 17.6 percent 
increase from last year's figures. Without sufficient support for 
current nursing faculty and adequate incentives to attract future 
faculty, nursing schools will fail to have the teaching infrastructure 
necessary to educate and train our next generation of nurses.
    While the capacity to implement faculty development is currently 
available through section 811 and section 831, adequate funding and 
direction is needed to ensure that these programs are fully 
operational. Options to provide support for full-time doctoral study 
are essential to rapidly prepare future nurse educators. AWHONN 
recommends that a portion of the funds be allocated for faculty 
development and mentoring.
    Funding Advanced Practice Nurses Provides Needed Faculty and 
Primary Care Providers.--Advanced Practice nurses such as nurse 
practitioners, clinical nurse specialists, certified registered nurse 
anesthetists and certified nurse midwives are essential to eliminating 
the nursing shortage. As in other professions, the advanced degree has 
become a necessary achievement for career advancement. Registered 
nurses who pursue MSN and PhD degrees often go on to become faculty and 
essential health care providers. The nursing shortage encompasses both 
advanced practice and basic nursing; each must receive additional 
funding but not at the expense of one another. In addition, advanced 
practice nurses are critical and sometimes the only available primary 
care providers, and often serve in inner city, rural and frontier 
health care settings.
    The entire nursing workforce needs strengthening. As a result, it 
will take long-term planning and innovative initiatives at the local, 
State and Federal levels to ensure an adequate supply of a qualified 
nurse workforce for the Nation. Federal investment in nursing education 
and retention programs is critical for meeting the health care needs of 
our Nation.

      TITLE V--MATERNAL AND CHILD HEALTH BUREAU (MCHB) UNDER HRSA

AWHONN recommends $731 million in funding for MCHB
    The Maternal and Child Health Bureau incorporates valuable programs 
like the Traumatic Brain Injury program, Universal Newborn Hearing 
Screening, Emergency Medical Services for Children, and Healthy Start, 
which were zeroed out, and the Maternal and Child Health Block Grant 
(MCH) that saw no funding growth from the previous year. These programs 
provide comprehensive, preventive care for mothers and young children, 
and an array of coordinated services for children with special needs. 
In fact, MCH serves over 80 percent of all infants, half of all 
pregnant women and 20 percent of all children in the United States.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

AWHONN recommends a 6.7 percent increase in appropriation funding for 
        NIH
    Multiple institutes housed under the National Institutes of Health 
(NIH) serve valuable roles in helping promote the importance of nursing 
in the health care industry along with the health and well-being of 
women and newborns. AWHONN calls on Congress to implement a 6.7 percent 
increase in funding for NIH in each of the next 3 years. This funding 
will allow scientists, including nurse scientists, to continue making 
life-saving research breakthroughs and discoveries. This funding also 
is the estimated amount needed to sustain the current model of NIH 
research funding.

        NATIONAL INSTITUTE OF NURSING RESEARCH (NINR) UNDER NIH

AWHONN recommends $150 million in funding for NINR
    The National Institute of Nursing Research (NINR) engages in 
significant research affecting areas such as health disparities among 
ethnic groups, training opportunities for management of patient care 
and recovery, and telehealth interventions in rural/underserved 
populations. This research allows nurses to refine their practice and 
provide quality patient care. For example, NINR research is invaluable 
in contributing to improved health outcomes for women. Recent public 
awareness campaigns target differences in the manifestation of 
cardiovascular disease between men and women. The differing symptoms 
are the source of many missed diagnostic opportunities among women 
suffering from the disease, which is the primary killer of American 
women. Because of the emphasis on biomedical research in this country, 
there are few sources of funds for high-quality behavioral research for 
nursing other than NINR. It is critical that we increase funding in 
this area in an effort to optimize patient outcomes and decrease the 
need for extended hospitalization. While the President's budget 
recommended a decrease at $138 million, AWHONN requests $150 million 
for fiscal year 2008, consistent with the overall increase for all 
National Institutes of Health.

NATIONAL INSTITUTE OF CHILD HEALTH AND HUMAN DEVELOPMENT (NICHD) UNDER 
                                  NIH

AWHONN recommends $1.34 billion in funding for NICHD
    The National Institute of Child Health and Human Development 
(NICHD) seeks to ensure that every baby is born healthy, that women 
suffer no adverse consequences from pregnancy, and that all children 
have the opportunity for a healthy and productive life unhampered by 
disease or disability. For example, with increased funding, NICHD could 
expand its use of the NICHD Maternal-Fetal Medicine Network to study 
ways to reduce the incidence of low birth weight. Prematurity/low birth 
weight is the second leading cause of infant mortality and the leading 
cause of death among African American infants. AWHONN is directly 
involved in programs to improve the health of women and newborns and 
looks to NICHD to provide national initiatives that assist with the 
care of pregnant women and babies. AWHONN suggests a 6.7 percent 
increase in NICHD funding to $1.34 billion.
 national institute of environmental health sciences (niehs) under nih
AWHONN recommends $673 million for NIEHS
    Research conducted by NIEHS plays a critical role in what we know 
about the relationship between environmental exposures and the onset of 
diseases. Through their research, we know that Parkinson's disease, 
breast cancer, birth defects, miscarriage, delayed or diminished 
cognitive function, infertility, asthma and many other diseases have 
confirmed environmental triggers. Our expanded knowledge, allows 
policymakers and the public to make important decisions about how to 
reduce toxin exposure, the risk of disease and other negative health 
outcomes. As the prevalence of infertility and related reproductive 
challenges continues to increase according to the CDC, the investment 
in improving our understanding of environmental impacts should be 
increased to $673 million.

 INDIAN HEALTH SERVICE (IHS) UNDER THE DEPARTMENT OF HEALTH AND HUMANS 
                             SERVICES (HHS)

AWHONN recommends $3.5 billion in funding for IHS
    The Indian Health Service (IHS) is the principal Federal health 
care provider and health advocate for the American Indian and Alaska 
Native populations. The President's budget recognizes this importance 
by requesting a 6.9 percent increase of $211 million to the IHS budget, 
bringing the fiscal year 2008 total to $3.27 billion. While AWHONN 
applauds this increase, we recommend that a total of $3.5 billion is 
needed for IHS to fully achieve its legitimate goals. A recent study of 
Federal health care spending per capita found that the United States 
spends $5,065 per year for the general population, $3,803 per year for 
a Federal prisoner, and only $1,914 for a Native American. Where health 
needs continue at unprecedented levels ad the average age of nurses 
(48) is higher than for the general public. The nursing shortage has 
disproportionately affected Indian Health Services. Further, the 
average reported vacancy rate for RNs in 2006 was 18 percent. IHS 
administers three severely under-funded interrelated scholarship 
programs designed to meet the health professional staffing needs of IHS 
and other health programs serving Indian people. Targeted resources 
need to be invested in the IHS health professions programs to recruit 
and retain registered nurses.

       CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC) UNDER HHS

AWHONN recommends $52 million for Safe Motherhood/Infant Health to fund 
        activities authorized by the PREEMIE Act
    This would include epidemiological studies on preterm birth, 
including the relationship between prematurity, birth defects and 
developmental disabilities.
    AWHONN thanks you for your consideration and greatly appreciates 
this opportunity to submit testimony on these critical funding areas.
                                 ______
                                 
          Prepared Statement of the Autism Society of America

    My name is Ruth Elaine Hane. I live in Minneapolis, Minnesota, 
where I facilitate a social group, the Aspie Get-Together, for adults 
with Aspergers and autism. It is a privilege to testifying on behalf of 
my self and other adults on the spectrum of autism. I appreciate 
sharing my story with strong advocates for autism, Senators Harkin, 
Specter and Durbin. Thank you, for all you do, to improve the lives of 
those affected by autism.
    Several others have given testimony to this subcommittee, 
emphasizing the needs of children with autism who are waiting for 
essential services, and I do not deny that this is a critical issue, 
but, there are others who are also waiting, adults who have aged out of 
the system after 21, and are now left without support. A portion of 
these adults benefited from the various programs for early intervention 
in the past two decades, but are lacking employment and life skills to 
live independently. Many are sitting at home in front of their parent's 
computer or television screen without the quality of life they were 
promised.
    I was born with autism, sometimes referred to as a ``Rubella 
baby,'' since my mother had a severe case of Rubella Measles during her 
pregnancy with me. A delivery using forceps injured and distorted my 
head. I screamed for continuously, could not swallow or tolerate touch. 
My mother was advised by her doctor, not to become attached to her baby 
girl, because there was little hope of my survival, and, even if I did, 
I would never be normal. But, I did live, because of a community of 
neighbors who problem solved, volunteered, and taught my mother how to 
care for me. The bases of their practical advice came from sheep 
ranching, and the methods they used to nurture baby lambs who were born 
with neurological problems like mine . . . to wrap me tightly in a warm 
blanket, place me in a box set on the slightly warmed oven door and to 
drip goat's milk into my mouth. Since the sound of ticking clock calmed 
me, it was placed near the box. I was not to be clothed, or disturbed 
for 3 hours at a time. Over time, I began to grow, however I did not 
acclimate to touch, or learn to coo, or respond to others.
    I identified with cats and not people, and did not talk until I was 
4 years old. The small town where we lived accepted me as an 
``unusual'' child who was stubborn, independent, and overly active, 
skipping, twirling, and singing to herself. Autism was not well-known 
by the doctors at that time. My grandmother, who was a school teacher, 
stepped in to give me love, taught me manners and structured learning. 
I graduated with honors from college, married and had two children, who 
are now grown. My second husband and I are grandparents. Presently, I 
volunteer in the community and serve as First vice Chair on the 
national board, of the Autism Society of America. I consult with 
sensitive people, many of whom are on the spectrum of autism.
    My message is that most adults with autism are greatly underserved. 
Autism is sometimes called hidden, because many people like me look 
normal. Some, have learned to accommodate, to pretend to be normal, 
but, others have odd social communication and behaviors especially when 
there are stressful situations, such as loud noise, flashing emergency 
lights, florescent lighting, confusing verbal directions and poor signs 
in public places. Since our brains are unable to processes the incoming 
information in a timely way, we are put a risk socially, sometimes 
hurt, bullied, raped or even killed. Depression is common with little 
hope of living a productive independent life, even though many are 
educated, with college degrees, and some with graduate and doctoral 
degrees.
    After I was diagnosed, as an adult, with High Functioning autism, I 
became active in the local Autism Society of America, Minnesota State 
Chapter. In 1999, several young adults on the spectrum asked if I would 
organize and facilitate a group for people diagnosed with Aspergers and 
autism. They wanted a place to socialize and meet friends. I formed the 
Aspic Get-Together.
    The Aspic Get-Together is an all voluntary group of mostly young 
adults, run and governed by the participants. Since most of our members 
are unemployed or under employed, the nominal membership dues are often 
waived. We are limited in the activities that we can do because of this 
lack of funding. However it is a demonstration of how people who are 
often marginalized and at times, ostracized, because of a difference in 
social skills, can become, productive members of a group, and, of 
society at large if given structure, guidance and the opportunity to be 
themselves.
    Those with autism, who are living with their parents, are under a 
cloud of uncertainty with parents who are aging, anguishing about the 
future of their dependent adult with autism. With our population 
shifting toward a nuclear family unit, we can no longer depend on the 
extended family to fill in this gap. We need appropriations to fund 
services to change this grave situation in America. With applied 
research, job and life skills training, community building and mentors, 
who could provide several hours of weekly planning and guidance, so 
that the underserved people with autism could work, lead productive 
lives and contribute to society in unique and beneficial ways. In 
addition, there are those who are profoundly affected by autism, who 
need 24 hours a day of assistance and supervision. The best and most 
successful programs today, are based on empowering the individual to 
make personal choices, allowing for, as much independence as is 
possible. Without exception, these providers are under funded.
    Although those of us with autism diagnoses are directly affected by 
choices others make about and for us, our voice is seldom heard.
    I dream of a society that embraces difference of all kinds, 
including autism, and a society that listens to those with autism--who 
can speak.
    Please remember to include us so that there is . . . Nothing about 
us . . . without us.
    Thank you.
                                 ______
                                 
 Prepared Statement of the Centers for Disease Control and Prevention 
                               Coalition

    The CDC Coalition is a nonpartisan coalition of more than 100 
groups committed to strengthening our Nation's prevention programs. Our 
mission is to ensure that health promotion and disease prevention are 
given top priority in Federal funding, to support a funding level for 
the Centers for Disease Control and Prevention (CDC) that enables it to 
carry out its prevention mission, and to assure an adequate translation 
of new research into effective State and local programs. Coalition 
member groups represent millions of public health workers, researchers, 
educators, and citizens served by CDC programs.
    The CDC Coalition believes that Congress should support CDC as an 
agency--not just the individual programs that it funds. In the best 
judgment of the CDC Coalition--given the challenges and burdens of 
chronic disease, a potential influenza pandemic, terrorism, disaster 
preparedness, new and reemerging infectious diseases, increasing drug 
resistance to critically important antimicrobial drugs and our many 
unmet public health needs and missed prevention opportunities--we 
believe the agency will require funding of at least $10.7 billion 
including sufficient funding to prepare the Nation against a potential 
influenza pandemic, funding for the Agency for Toxic Substances and 
Disease Registry and to maintain the current funding level for the 
Vaccines for Children (VFC) program. This request does not include any 
additional funding that may be required to expand the mandatory VFC in 
fiscal year 2008.
    The CDC Coalition appreciates the subcommittee's work over the 
years, including your recognition of the need to fund chronic disease 
prevention, infectious disease prevention and treatment, and 
environmental health programs at CDC. Federal funding through CDC 
provides the foundation for our State and local public health 
departments, supporting a trained workforce, laboratory capacity and 
public health education communications systems.
    CDC also serves as the command center for our Nation's public 
health defense system against emerging and reemerging infectious 
diseases. With the potential onset of a worldwide influenza pandemic, 
in addition to the many other natural and man-made threats that exist 
in the modern world, the CDC has become the Nation's--and the world's--
expert resource and response center, coordinating communications and 
action and serving as the laboratory reference center. States and 
communities rely on CDC for accurate information and direction in a 
crisis or outbreak.
    CDC's budget has actually shrunk since 2005 in terms of real 
dollars--by almost 4 percent. If you add inflation, the cuts are even 
worse--and these are cuts to the core programs of the agency. The 
current administration request for fiscal year 2008 is inadequate, with 
a total cut to core budget categories from fiscal year 2005 to fiscal 
year 2008 of half a billion dollars. We are moving in the wrong 
direction, especially in these challenging times when public health is 
being asked to do more, not less. It simply does not make any sense to 
cut the budget for CDC core public health programs at a time when the 
threats to public health are so great. Funding public health outbreak 
by outbreak is not an effective way to ensure either preparedness or 
accountability. Until we are committed to a strong public health 
system, every crisis will force trade offs.
    CDC serves as the lead agency for bioterrorism preparedness and 
must receive sustained support for its preparedness programs in order 
for our Nation to meet future challenges. In the best judgment of CDC 
Coalition members, given the challenges of terrorism and disaster 
preparedness, and our many unmet public health needs and missed 
prevention opportunities, we support the proposed increase for anti-
terrorism activities at CDC, including the increases for the Strategic 
National Stockpile. However, we strongly oppose the President's 
proposed $125 million cut to the State and local capacity grants. We 
ask the subcommittee to restore these cuts to ensure that our States 
and local communities can be prepared in the event of an act of 
terrorism or other public health threat.
    Public health programs delivered at the State and local level 
should be flexible to respond to State and local needs. Within an 
otherwise-categorical funding construct, the Preventive Health and 
Health Services (PHHS) Block Grant is the only source of flexible 
dollars for States and localities to address their unique public health 
needs. The track record of positive public health outcomes from PHHS 
Block Grant programs is strong, yet so many requests go unfunded. 
However, the President's budget once again proposes the elimination of 
the PHHS Block Grant. We greatly appreciate the work of the 
subcommittee to at least partially restore the fiscal year 2007 
elimination of the Block Grant. Nevertheless, the cut to the Block 
Grant in fiscal year 2006 reduces the States' ability to tailor Federal 
public health dollars to their specific needs.

                      ADDRESSING URGENT REALITIES

    Heart disease remains the Nation's No. 1 killer. In 2004, more than 
650,000 people died from heart disease, accounting for 27 percent of 
all U.S. deaths. In 1998, the U.S. Congress provided funding for CDC to 
initiate a national, state-based Heart Disease and Stroke Prevention 
Program with funding for eight States. Now, 32 States and the District 
of Columbia are funded, 19 as capacity building and 14 as basic 
implementation. We must expand these efforts to continue the gains we 
have made in combating heart disease and stroke.
    The CDC funds proven programs addressing cancer prevention, early 
detection, and care. In 2006, about 1.4 million new cases of cancer 
will be diagnosed, and about 564,830 Americans--more than 1,500 people 
a day--are expected to die of the disease. The financial cost of cancer 
is also significant. According to the National Institutes of Health, in 
2005, the overall cost for cancer in the United States was nearly $210 
billion: $74 billion for direct medical costs, $17.5 billion for lost 
worker productivity due to illness, and $118.4 billion for lost worker 
productivity due to premature death.
    Among the ways the CDC is fighting cancer, is through funding the 
National Breast and Cervical Cancer Early Detection Program that helps 
low-income, uninsured and medically underserved women gain access to 
lifesaving breast and cervical cancer screenings and provides a gateway 
to treatment upon diagnosis. CDC also funds programs to raise awareness 
about colorectal, prostate, lung, ovarian and skin cancers, and the 
National Program of Cancer Registries, a critical registry for tracking 
cancer trends in all 50 States.
    Although more than 20 million Americans have diabetes, 6.2 million 
cases are undiagnosed. From 1980-2002, the number of people with 
diabetes in the United States more than doubled, from 5.8 million to 
13.3 million. Unfortunately funding for diabetes, along with many other 
core CDC programs, has either been cut or flat funded for the past 
several years. Without additional funds, most States will not be able 
to create programs based on these new data. States also will continue 
to need CDC funding for diabetes control programs that seek to reduce 
the complications associated with diabetes.
    Over the last 25 years, obesity rates have doubled among adults and 
children, and tripled in teens. Obesity, diet and inactivity are cross-
cutting risk factors that contribute significantly to heart disease, 
cancer, stroke and diabetes. The CDC funds programs to encourage the 
consumption of fruits and vegetables, to get sufficient exercise, and 
to develop other habits of healthy nutrition and activity. In order to 
fully support these activities, we urge the subcommittee to provide at 
least $43 million for the Steps to a Healthier U.S. program and $65 
million for CDC's Division of Nutrition and Physical Activity.
    Childhood immunizations provide one of the best returns on 
investment of any public health program. Despite the incredible success 
of the program, it faces serious financial challenges. In the past 10 
years, the number of recommended childhood vaccines has jumped from 10 
to 16. Even more striking, the cost of fully vaccinating an adolescent 
female has increased from $285 to over $1,200 in past 8 years alone. 
Despite these challenges funding for vaccine purchases under section 
317 has remained stagnant. The consequence of this disconnect, is that 
while 747,000 children and adolescents could potentially receive their 
full series of vaccinations with 317 funds in 1999, that number has 
plummeted by over 70 percent to just 218,000 in 2007.
    More than 400,000 people die prematurely every year due to tobacco 
use. CDC's tobacco control efforts seek to prevent tobacco addition in 
the first place, as well as help those who want to quit. We must 
continue to support these vital programs and reduce tobacco use in the 
United States.
    Almost 80 percent of young people do not eat the recommended number 
of servings of fruits and vegetables, while nearly 30 percent of young 
people are overweight or at risk of becoming overweight. And every 
year, almost 800,000 adolescents become pregnant and about 3 million 
become infected with a sexually transmitted disease. School health 
programs are one of the most efficient means of correcting these 
problems, shaping our Nation's future health, education, and social 
well-being.
    Much of CDC's work in chronic disease prevention and health 
promotion is guided by its prevention research activities. Healthy 
Passages is a longitudinal study that is following a cohort of children 
will have to be discontinued without $6 million in additional 
appropriations. If allowed to continue, the study would follow children 
from birth through adulthood in order to discover critical links 
between risks and protective factors and health outcomes.
    CDC provides national leadership in helping control the HIV 
epidemic by working with community, State, national, and international 
partners in surveillance, research, prevention and evaluation 
activities. CDC estimates that up to 1,185,000 Americans are living 
with HIV, one-quarter of who are unaware of their infection. Prevention 
of HIV transmission is our best defense against the AIDS epidemic that 
has already killed over 500,000 U.S. citizens and is devastating the 
populations of nations around the globe, and CDC's HIV prevention 
efforts must be expanded.
    The United States has the highest sexually transmitted diseases 
(STD) rates in the industrialized world. More than 18 million people 
contract STDs each year. Untreated STDs contribute to infant mortality, 
infertility, and cervical cancer. State and local STD control programs 
depend heavily on CDC funding for their operational support.
    CDC conducts several surveys that help track health risks and 
provide information for priority setting at the State and local levels. 
The Behavioral Risk Factor Surveillance System, Youth Risk Behavior 
Survey, Youth Tobacco Survey, and National Health and Nutrition 
Examination Survey (NHANES) are important national sources of objective 
health data. NHANES is a unique collaboration between CDC, the National 
Institutes of Health (NIH), and others to obtain data for biomedical 
research, public health, tracking of health indicators, and policy 
development. Ensuring adequate funding for this survey is essential for 
determining rates of major diseases and health conditions and 
developing public health policies and prevention interventions.
    We must address the growing disparity in the health of racial and 
ethnic minorities. CDC's Racial and Ethnic Approaches to Community 
Health (REACH), helps States address these serious disparities in 
infant mortality, breast and cervical cancer, cardiovascular disease, 
diabetes, HIV/AIDS and immunizations. We encourage the subcommittee to 
provide adequate funds for CDC's REACH program.
    CDC oversees immunization programs for children, adolescents and 
adults, and is a global partner in the ongoing effort to eradicate 
polio worldwide. The value of adult immunization programs to improve 
length and quality of life, and to save health care costs, is realized 
through a number of CDC programs, but there is much work to be done and 
a need for sound funding to achieve our goals. Influenza vaccination 
levels remain low for adults. Levels are substantially lower for 
pneumococcal vaccination and significant racial and ethnic disparities 
in vaccination levels persist among the elderly.
    Injuries are the leading cause of death in the United States for 
people ages 1-34. Of all injuries, those to the brain are most likely 
to result in death or permanent disability. Traumatic brain injury 
(TBI) is widely recognized as the signature wound of the Iraq war with 
estimates of the numbers of injured service members as high as 150,000. 
Each year, however, more than 50,000 civilians die and 90,000 civilians 
are left with a long-term disability as a result of TBI. The Traumatic 
Brain Injury Act is the Nation's only law that specifically responds to 
this growing public health crisis. The Institute of Medicine found that 
this law has been effective in addressing a wide variety of gaps in 
service system development.
    Injury at work remains a leading cause of death and disability 
among U.S. workers. During the period from 1980 through 1995, at least 
93,338 workers in the United States died as a result of injuries 
suffered on the job, for an average of about 16 deaths per day. The 
injury prevention and workforce protection initiatives of NIOSH need 
continued support.
    Created by the Children's Health Act of 2000 (Public Law 106-310), 
the National Center on Birth Defects and Developmental Disabilities 
(NCBDDD) at CDC conducts programs to protect and improve the health of 
children and adults by preventing birth defects and developmental 
disabilities; promoting optimal child development and health and 
wellness among children and adults with disabilities. We must ensure 
adequate funding for this important Center.
    We also encourage the subcommittee to provide adequate funding for 
CDC's Environmental Public Health Services Branch to revitalize 
environmental public health services at the national, State and local. 
These services are essential to protecting and ensuring the health and 
well being of the American public from threats associated with West 
Nile virus, terrorism, E. coli and lead in drinking water. We encourage 
the committee to provide at least $50 million for CDC's Environmental 
Health Tracking Network and to provide $50 million in new funding to 
CDC Environmental Health Activities to develop and enhance CDC's 
capacity to help the Nation prepare for and adapt to the potential 
health effects of global climate change. This new request for funding 
would help prepare State and local health department to prepare for the 
public health impacts of global climate change, allow CDC to fund 
academic and other institutions in their efforts to research the 
impacts of climate change on public health and to create a Center of 
Excellence at CDC to serve as a national resource for health 
professionals, government leaders and the public on climate change 
science.
    We appreciate the subcommittee's hard work in advocating for CDC 
programs in a climate of competing priorities. We encourage you to 
consider our request for $10.7 billion, plus sufficient funding to 
prepare for a possible influenza pandemic, for CDC in fiscal year 2008.

                      MEMBERS OF THE CDC COALITION

    Advocates for Youth; AIDS Action; AIDS Alliance for Children, Youth 
and Families; AIDS Foundation Chicago; Alliance to End Childhood Lead 
Poisoning; American Academy of Ophthalmology; American Academy of 
Pediatrics; American Association for Health Education; American 
Association of Orthopedic Surgeons; American Cancer Society; American 
College of Obstetricians and Gynecologists; American College of 
Preventive Medicine; American College of Rheumatology; American 
Dietetic Association; American Foundation for AIDS Research; American 
Heart Association; American Indian Higher Education Consortium; 
American Lung Association; American Medical Women's Association; 
American Optometric Association; American Podiatric Medical 
Association; American Psychological Association; American Psychological 
Society; American Public Health Association; American Red Cross; 
American School Health Association; American Society for Clinical 
Pathology; American Society for Gastrointestinal Endoscopy; American 
Society for Microbiology; American Society for Reproductive Health; 
American Thoracic Society; American Urological Association c/o MARC 
Assoc.; Arthritis Foundation; Assn. for Professionals in Infection 
Control & Epidemiology; Association of American Medical Colleges; 
Association of Maternal & Child Health Programs; Association of 
Minority Health Professions Schools; Association of Public Health 
Laboratories; Association of Reproductive Health Professionals; 
Association of Schools of Public Health; Association of State and 
Territorial Health Officials; Association of Teachers of Preventive 
Medicine; Barbara Levine & Associates; Brain Injury Association; Bread 
for the World Institute; Campaign for Tobacco-Free Kids; CDC 
Foundation; Center for Science in the Public Interest; Coalition for 
Health Funding; Coalition for Health Services Research; Commissioned 
Officers Association of the U.S. Public Health Service; Consortium for 
Citizens with Disabilities; Consortium of Social Science Associations; 
Council of Professional Association on Federal Statistics; Council of 
State and Territorial Epidemiologist; Crohn's and Colitis Foundation of 
America; Environmental Defense; ESA, Inc.; Every Child By Two; GLMA; 
Health and Medicine Counsel of Washington; Hepatitis Foundation 
International; Immune Deficiency Foundation; Infectious Diseases 
Society of America; Latino Council on Alcohol & Tobacco; Legal Action 
Center; March of Dimes; NASEMSD; National Alliance of State and 
Territorial AIDS Directors; National Association of Children's 
Hospitals; National Association of County and City Health Officials; 
National Association of Councils on Developmental Disabilities; 
National Association of Local Boards of Health; National Association of 
School Nurses; National Black Nurses Association; National Coalition 
for the Homeless; National Coalition of STD Directors; National Council 
of La Raza; National Episcopal AIDS Coalition; National Family Planning 
and Reproductive Health Association; National Health Care for the 
Homeless Council; National Hemophilia Foundation c/o MARC Assoc.; 
National Medical Association; National Osteoporosis Foundation; 
National Partnership for Immunization; National Rural Health 
Association; National Safe Kids Campaign; National Association for 
Public Health Statistics & Information Systems & Information Systems; 
Partnership for Prevention; Planned Parenthood Federation of America; 
Powers, Pyles, Sutter and Verville; Research!America; Society for 
Maternal Fetal-Medicine c/o CRD Associates; Society for Public Health 
Education; Society of General Internal Medicine (SGIM); Spina Bifida 
Association of America; The Alan Guttmacher Institute; Trust for 
America's Health; U.S. Conference of Mayors; United Cerebral Palsy; 
YMCA of the USA; and YWCA of the USA/Office of Women's Health 
Initiative.
                                 ______
                                 
 Prepared Statement of the Charles R. Drew University of Medicine and 
                                Science

              SUMMARY OF FISCAL YEAR 2008 RECOMMENDATIONS

    $300 million for the Health Resources and Services Administration 
Title VII Health Professisons Training programs, including:
  --$33.6 million for the Minority Centers of Excellence, and
  --$35.6 million for the Health Careers Opportunity program.
    Provide a 6.7 percent increase for fiscal year 2008 to the National 
Institutes of Health (NIH), specifically:
  --A proportional increast to the National Cancer Institute (NCI),
  --$250 million for the National Center on Minority Health and Health 
        Disparities (NCMHD),
  --Support the National Center for research resources:
    --Proportional increase for Research Centers for Minority 
            Institutions and Institutional Development Award (IDeA) 
            program institutions, and
    --$119 million for extramural facilities construction.
    Continue to urge NCI to support the Establishment of a 
Collaborative Minority Health Comprehensive Research Center at a 
Historically Minority Institution in collaboration with the existing 
NCI cancer centers. continue to urge NCRR and NCMHD to collaborate on 
the Establishment of a Minority Health Comprehensive Research Center.
    $65 million for the Department of Health and Human Services' Office 
of Minority Health, and
  --Urge support for the Health Professions Leadership Development and 
        Support program at the Charles Drew University.
    $65 million for the Department of Education's Strengthening 
Historically Black Graduate Institutions program.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present you with testimony. The Charles Drew University 
is distinctive in being the only dually designated Historically Black 
Graduate Institution and Hispanic Serving Institution in the Nation. We 
would like to thank you and your predecessors,
    Mr. Chairman, for the support that this subcommittee has given to 
the National Institutes of Health (NIH) and its various institutes and 
centers over the years, NIH has been and continues to be invaluable to 
our university and especially our community.
    The Charles Drew University is located in the Watts-Willowbrook 
area of South Los Angeles. Its mission is to prepare predominantly 
minority doctors and other health professionals to care for underserved 
communities with compassion and excellence through education, clinical 
care, outreach, pipeline programs and advanced research that makes a 
rapid difference in clinical practice. In our over 35 years of 
enrolling students, the university has become a significant source of 
Latino and African American doctors and health professionals. We have 
made a measurable contribution to improving health care in this Nation 
by graduating over 400 physicians, 2,000 physician assistants, 2,500 
physician specialists, and numerous other health professionals--almost 
all from diverse communities. Even more importantly, our graduates go 
on to serve underserved communities and 10 years later, over 70 percent 
of them are still working with people who are in most need and who have 
the poorest access to decent health care.
    The Charles Drew University has established a national reputation 
for translational research that addresses the health disparities and 
social issues that strike hardest and deepest among urban and minority 
populations. As you can see, we are a unique institution, and we serve 
a very important constituency, which regrettably, represents a growing 
segment of the overall U.S. population.
    Currently, The Charles Drew University is experiencing a period of 
positive, dynamic growth. Though our former affiliate hospital, Martin 
Luther King-Harbor, is experiencing difficulties, our institution is 
transforming and continues to make an expanding contribution to the 
health work force, by graduating the highest caliber of health 
professionals--particularly, significant number of Latinos and African 
Americans, who are highly sought after for employment and further 
training positions. Many serve in our community where recent 
circumstances and public health budget cuts have reduced the number of 
beds and physicians back to the low level that existed in 1965, when 
the voiceless community of South Los Angeles was forced to rebel in 
order to get the health and social resources it deserves.
    Our university continues to flourish and garner respect and support 
from our colleagues, community partners and those we serve. After 30 
years, in partnership with the University of California, we are 
establishing our own 4-year medical school and a new School of Nursing 
to prepare nurses as well as nursing faculty--particularly from 
minority populations. The Charles Drew University remains a beacon of 
hope for our students and our community as we have been since we began 
when we rose out of the ashes of the 1965 Watts civil unrest.

              HEALTH RESOURCES AND SERVICES ADMINISTRATION

Title VII Health Professions Training Programs
    The health professions training programs administered by the Health 
Resources and Services Administration (HRSA) are the only Federal 
initiatives designed to address the longstanding under representation 
of minorities in health careers. HRSA's own report, ``The Rationale for 
Diversity in the Health Professions: A Review of the Evidence,'' found 
that minority health professionals disproportionately serve minority 
and other medically underserved populations, minority populations tend 
to receive better care from practitioners of their own race or 
ethnicity, and non-English speaking patients experience better care, 
greater comprehension and greater likelihood of keeping follow-up 
appointments when they see a practitioner who speaks their language. 
Studies have also demonstrated that when minorities are trained in 
minority health professions institutions, they are significantly more 
likely to: (1) serve in medically underserved areas, (2) provide care 
for minorities, and (3) treat low-income patients.
    HRSA's Minority Centers of Excellence (COE) and Health Careers 
Opportunity Program (HCOP) support health professions institutions with 
a historic mission and commitment to increasing the number of 
minorities in the health professions.
    Mr. Chairman, in fiscal year 2006 these programs were cut by over 
50 percent. Unfortunately, those cuts were sustained in the funding 
resolution passed earlier in this Congress. Looking ahead a decade, as 
you have encouraged your colleagues and us to do, the cuts of recent 
years to these programs will seriously hamper our ability to provide 
the desperately needed healthcare advances for our citizens. Those cuts 
will widen the health disparities gap that is already far too wide, and 
they will exacerbate the already present national physician shortage, 
particularly in urban areas.
Minority Centers of Excellence
    The purpose of the Minority Centers of Excellence (COE) program is 
to assist schools, like Charles Drew University, that train minority 
health professionals, by supporting programs of excellence. The COE 
program focuses on improving student recruitment and performance; 
improving curricula and cultural competence of graduates; facilitating 
faculty and student research on minority health issues; and training 
students to provide health services to minority individuals by 
providing clinical teaching at community-based health facilities. For 
fiscal year 2008, the funding level for Minority Centers of Excellence 
should be $33.6 million (an increase of $21.8 million over fiscal year 
2007).
Health Careers Opportunity Program
    Grants made to health professions schools and educational entities 
under Health Careers Opportunity Program (HCOP) enhance the ability of 
individuals from disadvantaged backgrounds to improve their 
competitiveness to enter and graduate from health professions schools. 
HCOP funds activities that are designed to develop a more competitive 
applicant pool through partnerships with institutions of higher 
education, school districts, and other community based entities. HCOP 
also provides for mentoring, counseling, primary care exposure 
activities, and information regarding careers in a primary care 
discipline. Sources of financial aid are provided to students as well 
as assistance in entering into health professions schools. For fiscal 
year 2008, the HCOP funding level of $35.6 million is suggested (an 
increase of $31.6 million).

    NATIONAL INSTITUTES OF HEALTH'S CONTRIBUTION TO FIGHTING HEALTH 
                              DISPARITIES

    Racial and ethnic disparities in health outcomes for a multitude of 
major diseases in minority and underserved communities continue to 
plague a Nation that was built on the premise of equality. As 
articulated in the Institute of Medicine report entitled ``Unequal 
Treatment: Confronting Racial and Ethnic Disparities in Health Care,'' 
this problem is not getting better on its own. For example, African 
American males develop cancer 15 percent more frequently than their 
white counterparts. While African American women are not as likely as 
white women to develop breast cancer, they are much more likely to die 
from breast cancer once it is detected. In fact, according to the 
American Cancer Society, those who are poor, lack health insurance, or 
otherwise have inadequate access to high-quality cancer care, typically 
experience high cancer incidence and mortality rates. Similarly to 
African American populations, Latino communities uffer much higher 
incidences of heart disease, diabetes, obesity and some cancers than 
white populations. These devastating statistics beg for more research 
dollars and better access to quality clinical resources to address the 
deep-seated problems.
    In response to these and similar findings in our own community and 
across the Nation, The Charles Drew University has been working to 
build a new Life Sciences Research Facility on its campus. The Center 
will specialize in providing not only cutting-edge research but 
associated medical treatments for the community that focus on 
prevention and the development of new strategies in the fight against 
cancer. These strategies will be disseminated locally and nationally to 
communities at risk, as well as to others engaged in comprehensive 
cancer prevention programs everywhere.
    Mr. Chairman, as I mentioned earlier, the support that the 
subcommittee has given to the National Institutes of Health (NIH) and 
its various institutes and centers has been and continues to be 
critical to the effectiveness of our university and our community. The 
dream of a state-of-the-art research facility to aid in the fight 
against cancer and other diseases in our underserved community would be 
infeasible in our disadvantaged location without the resources of NIH.
    To help establish the Life Sciences Research Building and expand 
our innovative translational research activities that focus on 
improving the health of underserved communities, The Charles Drew 
University is requesting increased congressional support for the 
National Center for Research Resources (NCRR), the National Center for 
Minority Health and Health Disparities (NCMHD), the National Cancer 
Institute (NCI), Health Resources and Services Administration (HRSA) 
and the Department of Health and Human Services' Office of Minority 
Health.
National Center for Minority Health and Health Disparities
    The National Center on Minority Health and Health Disparities 
(NCMHD) is charged with addressing the longstanding health status gap 
between under-represented minority and non minority populations. The 
NCMHD helps health professional institutions to narrow the health 
status gap by improving research capabilities through the continued 
development of faculty, labs, telemedicine technology and other 
learning resources. The NCMHD also supports biomedical research focused 
on eliminating health disparities and developed a comprehensive plan 
for research on minority health at NIH. Furthermore, the NCMHD provides 
financial support to health professions institutions that have a 
history and mission of serving minority and medically underserved 
communities through the COE program and HCOP.
    For fiscal year 2008, $250 million is recommended for NCMHD to 
support these critical activities.
Research Centers At Minority Institutions
    The Research Centers at Minority Institutions program (RCMI) at the 
National Center for Research Resources (NCRR) has a long and 
distinguished record of helping institutions like The Charles Drew 
University develop the research infrastructure necessary to be leaders 
in the area of translational research focused on reducing health 
disparities research. Although NIH has received some budget increases 
over the last 5 years, funding for the RCMI program has not increased 
by the same rate. The new Clinical and Translational Research 
Applications (CTSA) essentially preclude smaller institutions such as 
RCMI and IDeA schools to compete and link to the CTSA roadmap. We 
request an additional $40 million to support a CTSA-like roadmap 
mechanism for RCMI and IDeA schools, and $9.5 million to support the 
RCMI Translational Research Network, and alsosmall grant mechanisms to 
fund pilot studies linked to the NIH Roadmap, the newly developed 
Global Alliance for HIV/AIDS, and community centers of health research 
and education excellence. This is a total of an additional $49.5 
million in fiscal year 2008.
Extramural Facilities Construction
    Mr. Chairman, one issue that sets The Charles Drew University and 
many minority-dedicated institutions apart from the major universities 
of this country is the facilities where research takes place. The need 
for research infrastructure at our Nation's minority serving 
institutions must also remain strong to maximize efforts to reduce 
health disparities. The current authorization level for the Extramural 
Facility Construction program at the National Center for Research 
Resources (NCRR) is $250 million. The law also includes a 25 percent 
set-aside for ``Institutions of Emerging Excellence'' (many of which 
are minority institutions) for funding up to $50 million. Also, the law 
allows the NCRR director to waive the matching requirement for 
institutions participating in the program. We strongly support all of 
these provisions of the authorizing legislation in order to ensure the 
continued growth of relevant research from our minority health 
professions training schools.
    Unfortunately, funding for NCRR's Extramural Facility Construction 
program was completely eliminated in the fiscal year 2006 Labor-HHS 
bill, and funding was not restored in the fiscal year 2007 funding 
resolution. In fiscal year 2008, we respectfully request the 
restoration of funding for this program to the fiscal year 2004 level 
of $119 million.
   department of health and human services' office of minority health
    Specific programs at OMH include:
    Assisting medically underserved communities,
    Supporting conferences for high school and undergraduate students 
to interest them in health careers, and
    Supporting cooperative agreements with minority institutions for 
the purpose of strengthening their capacity to train more minorities in 
the health professions.
    OMH has the potential to play a critical role in addressing health 
disparities. Unfortunately, OMH does not yet have the authority or 
resources necessary to support activities that will truly make a 
difference in closing the health gap between minority and majority 
populations.
    One recent OMH pilot project is the Health Professions Leadership 
Development and Support Program, which is designed to enhance faculty 
recruitment and retention support for academicians providing for the 
supervision, instruction, and guidance of resident physicians-in-
training in underserved communities. This is a critical program for 
improving the minority pipeline filling a gap outlined in the report by 
a committee chaired by former Secretary of the Department of Health and 
Human Services (HHS),
    Dr. Louis Sullivan titled ``Missing Persons: Minorities in the 
Health Professions September 20, 2004.'' This report highlights the 
critical role played by institutions such as The Charles Drew 
University as a major training site for minority health care 
professions and biomedical scientists.
    For fiscal year 2008, I recommend a funding level of $65 million 
for OMH to support these critical activities.

 STRENGTHENING HISTORICALLY BLACK GRADUATE INSTITUTIONS--DEPARTMENT OF 
                               EDUCATION

    The Department of Education's Strengthening Historically Black 
Graduate Institutions program (Title III, Part B, section 326) is 
extremely important to MMC and other minority serving health 
professions institutions. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2008, an 
appropriation of $65 million (an increase of $7 million over fiscal 
year 2007) is suggested to continue the vital support that this program 
provides to historically black graduate institutions.

                               CONCLUSION

    Despite all the knowledge that exists about racial/ethnic, socio-
cultural and gender-based disparities in health outcomes, the gap 
continues to widen. Not only are minority and underserved communities 
burdened by higher disease rates, they are less likely to have access 
to quality care upon diagnosis. As you are aware, in many minority and 
underserved communities preventative care and research are inaccessible 
either due to distance or lack of facilities and expertise. As noted 
earlier, in just one underserved area, South Los Angeles, the number 
and distribution of beds, doctors, nurses and other health 
professionals are as parlous as they were at the time of the Watts 
Rebellion, after which the McCone Commission attributed the so-named 
``Los Angeles Riots'' to poor services--particularly access to 
affordable, quality healthcare. The Charles Drew University has proven 
that it can produce excellent health professionals who ``get'' the 
mission--years after graduation they remain committed to serving people 
in the most need. But, the university needs investment and committed 
increased support from Federal, State, and local governments and is 
actively seeking foundation, philanthropic and corporate support.
    Even though institutions like The Charles Drew University are 
ideally situated (by location, population, community linkages and 
mission) to study conditions in which health disparities have been well 
documented, research is limited by the paucity of appropriate research 
facilities. With your help, the Life Sciences Research Facility will 
translate insight gained through research into greater understanding of 
disparities and improved clinical outcomes. Additionally, programs like 
Title VII Health Professions Training programs will help strengthen and 
staff facilities like our Life Sciences Research Facility.
    We look forward to working with you to lessen the huge negative 
impact of health disparities on our Nation's increasingly diverse 
populations, the economy and the whole American community.
    Mr. Chairman, thank you again for the opportunity to present 
testimony on behalf of The Charles Drew University. It is indeed an 
honor.
                                 ______
                                 
   Prepared Statement of the Coalition for the Advancement of Health 
             Through Behavioral and Social Science Research

    Mr. Chairman and members of the subcommittee, the Coalition for the 
Advancement of Health Through Behavioral and Social Science Research 
(CAHT-BSSR) appreciates and welcomes the opportunity to comment on the 
fiscal year 2008 appropriations for the National Institutes of Health 
(NIH). CAHT-BSSR includes 16 professional organizations, scientific 
societies, coalitions, and research institutions concerned with the 
promotion of and funding for research in the social and behavioral 
sciences. Collectively, we represent more than 120 professional 
associations, scientific societies, universities, and research 
institutions.
    The behavioral and social sciences regularly make important 
contributions to the well-being of this Nation. Due in large part to 
the behavioral and social science research sponsored by the NIH, we are 
now aware of the enormous contribution behavior makes to our health. At 
a time when genetic control over diseases is tantalizingly close but 
not yet possible, knowledge of the behavioral influences on health is a 
crucial component in the Nation's battles against the leading causes of 
morbidity and mortality: obesity, heart disease, cancer, AIDS, 
diabetes, age-related illnesses, accidents, substance abuse, and mental 
illness. As a result of the strong congressional commitment to the NIH 
in years past, our knowledge of the social and behavioral factors 
surrounding chronic disease health outcomes is steadily increasing. The 
NIH's behavioral and social science portfolio has emphasized the 
development of effective and sustainable interventions and prevention 
programs targeting those very illnesses that are the greatest threats 
to our health, but the work is just beginning.
    To ensure that progress is sustained, the Coalition joins the Ad 
Hoc Group for Medical Research in supporting a fiscal year 2008 
appropriation of $30.8 billion for the NIH, a 6.7 percent increase over 
fiscal year 2007. This level of funding will provide adequate resources 
to sustain the momentum of the recently completed campaign to double 
the Nation's investment in the promising research supported and 
conducted by the NIH. Unfortunately, the President's request does not 
allow us to fully reap the research opportunities that the doubling 
campaign have made available.
    Nearly 125 million Americans are living with one or more chronic 
conditions, like heart disease, cancer, diabetes, kidney disease, 
arthritis, asthma, mental illness and Alzheimer's disease. The Centers 
for Medicare and Medicaid Services (CMS) recently reported that health 
care spending in the United States rose to $1.6 trillion in 2002, up 
from $1.4 trillion in 2001 and $1.3 trillion in 2000. Health 
expenditures per person averaged $5,440 in 2002, up from $5,021 in 2001 
and $4,670 in 2000. Today, it is even more. Significant factors driving 
this increase are the aging of the U.S. population, and the rapid rise 
in chronic diseases, many caused or exacerbated by behavioral factors: 
for example, obesity, caused by sedentary behavior and poor diet; 
addictions and resulting health problems caused by tobacco and other 
drug use.
    Behavioral and social sciences research supported by NIH is 
increasing our knowledge about the factors that underlie positive and 
harmful behaviors, and the context in which those behaviors occur. NIH 
supports behavioral and social science research throughout most of its 
27 institutes and centers. Numerous reports by the National Academy of 
Sciences (e.g. The Aging Mind, New Horizons in Health: An Integrative 
Approach, and Health and Behavior) have presented cutting edge research 
agendas and made eloquent cases for the applicability of the social and 
behavioral scientific disciplines to the myriad, complex problems of 
prevention, treatment and cure of diseases as well as the enhancement 
of quality of life.
    CAHT-BSSR supports an appropriation of $27.8 million for NIH Office 
of Behavioral and Social Sciences Research, an increase of 6.7 percent, 
commensurate with an overall increase of 6.7 percent for the NIH. 
OBSSR's purpose is to serve a convening and coordinating role among the 
institutes and centers at NIH. The Office was authorized by Congress in 
the NIH Revitalization Act of 1993 and established in 1995.
    As highlighted by NIH Director Elias Zerhouni on the occasion of 
OBSSR's 10th anniversary in June 2006, ``the OBSSR has been a 
tremendous asset to NIH throughout its first 10 years . . . we are 
faced with an enormous and evolving national burden of disease and 
disability, much of which has roots in personal behavior or 
socioeconomic influences. The need for behavioral and social research 
and intervention has never been greater, and its impact has never been 
clearer. We need but look at recent decreases in rates of cancer, 
largely due to dramatic decreases in tobacco use. We can point to a 
remarkable demonstration of the pronounced benefits of diet and 
exercise--more effective than drug therapy--in preventing the onset of 
type 2 diabetes among high-risk individuals. These are but two among 
many shining examples of the widespread benefits to public health 
realized through our investment in basic and applied behavioral and 
social science research, so critical to our understanding of health and 
disease.
    OBSSR focuses on cross-cutting behavioral and social research 
issues (e.g. ``Long-term Maintenance of Behavior Change'') using its 
modest budget to seed cross-institute research initiatives. OBSSR has 
spurred cutting edge research in areas such as measures of community 
health, socioeconomic status, and new methodology development. The 
Office has been able to leverage substantive funding initiatives with a 
small budget.
    In fiscal year 2008, OBSSR plans to work with the 27 NIH Institutes 
and Centers (ICs) to initiate two new programs. The first program is in 
the area of health disparities. The Behavioral and Social Science 
Contributions to Understanding and Reducing Health Disparities will be 
designed to support trans-disciplinary research involving teams of 
behavioral, social, and biomedical scientists, on prevention, policy, 
and health care. The research program will emphasize both basic 
research on the behavioral, social, and biomedical pathways, giving 
rise to disparities in health and applied research on the development, 
testing, and delivery of interventions to reduce disparities in the 
areas of policy, prevention, and health care.
    The second initiative planned by OBSSR is in the area of Genes, 
Behavior and the Social Environment. OBSSR plans to work across the 
institutes and centers to consider the recommendations from the 
Institute of Medicine's report, Genes, Behavior, and the Social 
Environment, Moving Beyond the Nature/Nurture Debate, commissioned by 
OBSSR, along with the National Institute of General Medical Sciences 
(NIGMS) and the National Human Genome Research Institute (NHGRI). The 
report identifies gaps in knowledge and barriers that hamper the 
integration of social, behavioral, and genetic research.
    The IOM panel recognized ``that understanding the association 
between health and interactions among social, behavioral, and genetic 
factors require research that embraces the systems view and includes an 
examination of the interactive pathways through which these fields 
operate to affect health.'' Such research requires the participation of 
scientific investigators from a variety of fields and a shift in focus 
from efforts that are dominated by single disciplines to research that 
involves collaborative participation of scientists from various 
expertise at all stages of the research process. Below are the IOM's 14 
recommendations.
    1. Conduct Trans-disciplinary, Collaborative Research.--The NIH 
should develop Requests for Applications (RFAs) to study the impact on 
health of interactions among social, behavioral, and genetic factors 
and their interactive pathways (i.e., physiological).
    2. Measure Key Variables Over the Life Course and Within the 
Context of Culture.--NIH should develop RFAs for studies of 
interactions that incorporate measurement, over the life course and 
within the context of culture, of key variables in the important 
domains of social, behavioral, and genetic factors.
    3. Develop and Implement New Modeling Strategies to Build More 
Comprehensive, Predictive Models of Etiologically Heterogeneous 
Disease.--NIH should emphasize research aimed at developing and 
implementing such models (e.g., pattern recognition, multivariate 
statistics, and systems-oriented approaches) for incorporating social, 
behavioral, and genetic factors, and their interactive pathways in 
testable models within populations, clinical settings, or animal 
studies.
    4. Investigate Biological Signatures.--Researchers should use 
genomic, transcriptomic, proteomic, metabonomic, and other high 
dimensional molecular approaches to discover new constellations of 
genetic factors, biomarkers, and mediating systems through which 
interactions with social environment and behavior influence health.
    5. Conduct Research in Diverse Groups and Settings.--NIH should 
encourage research on the impact of interactions among social, 
behavioral, and genetic factors and their interactive pathways on 
health that emphasizes diversity in groups and settings. NIH should 
also support efforts to ensure that the findings of such research is 
validated by replication in independent studies, translated to patient-
oriented research, conducted and applied in the context of public 
health, and used to design preventive and therapeutic approaches.
    6. Use Animal Models to Study Gene-Social Environment 
Interaction.--NIH should develop RFAs that use carefully selected 
animal models for research on the impact on the impact of interactions 
among social, behavioral, and genetic factors and their interactive 
pathways.
    7. Advance the Science of Study of Interactions.--Researchers 
should base testing for interaction on a conceptual framework rather 
than simply the testing of a statistical model, and they must specify 
the scale (e.g., additive or multiplicative) used to evaluate whether 
or not interactions are present. NIH should develop RFAs for research 
on developing study designs that are efficient at testing interactions, 
including variation in interactions over time and development.
    8. Expand and Enhance Training for Trans-disciplinary 
Researchers.--NIH should use existing and modified training tools both 
to reach the next generation of researchers and to enhance the training 
of current researchers. Approaches include individual fellowships and 
senior fellowships, trans-disciplinary institutional grants, and short 
courses.
    9. Enhance Existing and Develop New Datasets.--NIH should support 
datasets that can be used by investigators to address complex levels of 
social, behavioral, and genetic variables and their interactive 
pathways. This should include enhancement of existing datasets that 
already provide many, but not all of the needed measures and the 
encouragement of their use. NIH should also develop new datasets that 
address specific topics that have high potential for showing genetic 
contribution, social variability, and behavioral contributions--topics 
such as obesity, diabetes, and smoking.
    10. Create Incentives to Foster Trans-disciplinary Research.--NIH 
and universities should explore ways to create incentives for the kinds 
of team science needed to support trans-disciplinary research.
    11. Communicate with Policymakers and the Public.--Researchers 
should (1) be mindful of public and policymakers' concerns; (2) develop 
mechanisms to involve and inform these constituencies; (3) avoid 
overstating their scientific findings; and (4) give careful 
consideration to the appropriate level of community involvement and the 
level of community oversight needed for such studies.
    12. Expand the Research Focus.--NIH should develop RFAs for 
research that elucidates how best to encourage people to engage in 
health--promoting behaviors that are informed by a greater 
understanding of these interactions; how best to effectively 
communicate research results to the public and other stakeholders; and 
how best to inform research participants about the nature of the 
investigation (gene-environment interactions) and the uses of data 
following the study.
    13. Establish Data-Sharing Policies That Ensure Privacy.--
Institutional Review Boards and investigators should establish policies 
regarding the collection, sharing, and use of data that include 
information about: (1) whether and to what extent data will be shared; 
(2) the level of security to be provided by all members of the research 
team as well as the research and administrative process; (3) the use of 
state-of-the-art security data in ways that are consistent with those 
agreed to by the research participants.
    14. Improve Informed Consent Process.--Researchers should ensure 
that informed consent includes the following: (1) descriptions of the 
individual and social risks and benefits of the research; (2) the 
identification of which individual results participants will and will 
not receive; (3) the definition of the procedural protections that will 
be provided, including access policies and scientific oversight; and 
(4) specific security, privacy, and confidentiality protections to 
protect the data and samples of research participants.
    Implementing the IOM's recommendations would go a long ways towards 
helping to realize the ultimate goal of personalized health care, one 
of Secretary Michael Leavitt's priorities. Personalization needs to 
reflect genes, behaviors, and environments. Assessing behavior is 
critical to helping individuals see how they can improve their health. 
It is also critical to helping health care see where it needs to put 
resources for behavior change. As noted by Dr. Zerhouni, ``Right now, 
everyone is focused on finding the magic answer. But health care is 
different from region to region across the country.'' Full 
personalization needs to consider the environmental, community, and 
neighborhood circumstances that govern how individuals' genes and 
behavior will influence their health. For personalized health to be 
realized, we need a sophisticated understanding of the interplay 
between genetics and the environment, broadly defined.
    CAHT-BSSR would be pleased to provide any additional information on 
these issues. We have attached a list of coalition member societies to 
the end of the testimony. We thank the subcommittee for its generous 
support of the National Institutes of Health and for the opportunity to 
present our views.

                           CAHT-BSSR MEMBERS

    American Educational Research Association; American Psychological 
Association; American Sociological Association; Association of 
Population Centers; Center for the Advancement of Health; Consortium of 
Social Science Associations; Gerontological Society of America; 
Institute for the Advancement of Social Work Research; National 
Association of Social Workers; National Council on Family Relations; 
National Mental Health Association; Population Association of America; 
Sex Information and Education Council of the United States; Society for 
Public Health Information; Society for Research in Child Development; 
and The Alan Guttmacher Institute.
                                 ______
                                 
      Prepared Statement of the Coalition for American Trauma Care

    The Coalition for American Trauma Care is pleased to provide its 
recommendations for fiscal year 2008 appropriations for public health 
programs that support trauma care, trauma care research, and injury 
prevention.
    The Coalition for American Trauma Care is a nonprofit association 
of national health and professional organizations that seeks to improve 
care for the seriously injured patient through improved delivery of 
trauma care services, research and rehabilitation activities. The 
Coalition also supports efforts to prevent injury from occurring.
    Injury is one of the most important public health problems facing 
the United States today. It is the leading cause of death for Americans 
from age 1 through age 34. More than 145,000 people die each year from 
injury, 88,000 from unintentional injury such as car crashes, fires, 
and falls, and 56,000 from violence-related causes. Over 85 children 
and young adults die from injuries in the United States every day 
translating into 30,000 deaths annually. Injury is also the most 
frequent cause of disability. Millions of Americans are non-fatally 
injured each year leaving many temporarily disabled and some 
permanently disabled with severe head, spinal cord, and extremity 
injuries. Because injury so often strikes the young, injury is also the 
leading cause of years of lost work productivity and, at an estimated 
$224 billion in lifetime costs each year, trauma is our Nation's most 
costly disease.
    Trauma Care Systems.--The Coalition is extremely disappointed that 
Congress failed to appropriate any funding for the Health Resources and 
Services administration's Trauma-EMS program in fiscal year 2007 and 
urges the subcommittee to provide $12 million in funding for fiscal 
year 2008. Congress is in the process of re-authorizing the program 
(H.R. 727; S. 657) at a level of $12 million for fiscal year 2008. In 
recent days both the House Energy and Commerce Committee and the Senate 
Health, Education, Labor and Pensions Committees approved their 
respective bills unanimously. The Trauma-EMS program, administered by 
HRSA for 5 years, from fiscal year 2001-2005, provided critical 
national leadership which leveraged additional scarce State dollars to 
strengthen trauma systems so that seriously injured individuals, 
wherever they live, receive prompt emergency transport to the nearest 
appropriate trauma center within the ``golden hour.'' Receiving 
appropriate, quality trauma care within 1 hour of injury saves lives 
and provides the best chance for a good recovery. Achieving this result 
takes coordination, commitment of staff, development and implementation 
of standards of care, a process for designating trauma centers, and 
evaluation.
    No other program in the Federal Government addresses this critical 
aspect of the Nation's emergency response infrastructure. According to 
the Trauma-EMS Systems Program Assessment Rating Tool (PART) released 
by the OMB, ``the Trauma Care program has demonstrated success in 
assisting States in adopting statewide standardized triage protocols 
and designating trauma centers. Studies indicate with some consistency 
that improving organized systems of trauma care, specifically States 
designating trauma centers and adopting standardized triage protocols, 
leads to measurable decreases in mortality due to trauma.''
    Despite this progress, only 8 States have fully developed trauma 
systems; 12 States do not even have the authority to designate trauma 
centers. In a recent Harris Poll, large majorities of the American 
public said they valued trauma centers and systems as highly as having 
a police or fire department in their community. We therefore request 
that you reinstate funding for this vital, life saving program.
    National Center for Injury Prevention and Control.--The Coalition 
supports $168 million in funding in fiscal year 2008 for the National 
Center for Injury Prevention and Control which is currently funded at 
$138 million. The Coalition is exceedingly pleased with the support CDC 
has provided for the National Evaluation of the Effect of Trauma Center 
Care on Mortality. The results of this study, published in the January 
26, 2006 New England Journal of Medicine, were that care at a trauma 
center lowers by 25 percent the risk of death for injured patients 
compared to treatment received at non-trauma centers. The NCIPC 
supports a range of injury prevention activities and through evaluation 
has proven their effectiveness in many areas. Just two examples of 
these: reduction of the more than 20,000 head injuries that occur every 
year by encouraging the use of bicycle helmets and reduction of burn-
related injuries through smoke detector implementation programs.
    Traumatic Brain Injury (TBI).--Traumatic brain injury is a leading 
cause of trauma-related disability. Brain injury is a silent epidemic 
that compounds every year, but about which still little is known. The 
Coalition is opposed to the proposed elimination of this important 
program in the President's fiscal year 2008 budget request and urges 
you to provide a total of $30 million for the Traumatic Brain Injury 
(TBI) Act, as follows: $9 million for CDC to strengthen State and local 
data collection activities, improve linkage of persons with TBI to 
services, increase public education and awareness, and conduct public 
health research related to TBI. Within the $30 million, the Coalition 
also supports $15 million for the HRSA TBI State Grant Program to 
ensure that every State, territory and American Indian Consortia can 
coordinate and maximize resources to serve their TBI population and 
provide training and technical assistance to grantees. Also within the 
$30 million total, $6 million is needed for the HRSA Protection and 
Advocacy Program for population-based allotments to all States to 
ensure adequate and appropriate assistance to individuals with brain 
injury in exercisng their rights and accessing public service systems.
    Children's EMS.--The Coalition is opposed to the proposed 
elimination of this program in the President's fiscal year 2008 budget 
request and urges you to provide $25 million in fiscal year 2008. While 
this amount represents a 25 percent increase for this program, it has 
been flat-funded for 6 years causing an erosion in available resources 
due to inflation. Children currently account for up to 30 percent of 
all emergency department visits and 10 percent of ambulance runs 
annually, but many facilities lack the specialized equipment needed to 
care for them. Moreover, many emergency personnel do not have the 
necessary education or training to provide optimal care to children. In 
order to assist local communities in providing the best emergency care 
to children the Children's EMS program needs to continue and continue 
at a level that allows resources to keep pace with inflation.
    Preventive Health/Health Services Block Grant (PHHS).--The 
Coalition is deeply disappointed that Congress cut funding in fiscal 
year 2006 for this program by $32 million, or 24 percent, and that the 
President has proposed to eliminate funding in fiscal year 2008. The 
Coalition urges you to restore funding to the fiscal year 2005 of $131 
million when the subcommittee marks up its fiscal year 2008 bill. The 
PHHS Block Grant provides flexible funding to States to allow them to 
address specific health problems identified under the Healthy People 
2010 assessment process. The funding allows States to take innovative 
approaches to address significant health issues and complements, not 
duplicates, some of CDC's other program activities. In addition, the 
PHHS Block Grant is the largest single source of Federal funding for 
support of basic State Emergency Medical Services' (EMS) 
infrastructure--the first line of defense against death and disability 
resulting from severe injury.
    Rural EMS Training and Equipment Program.--The Coalition urges you 
to provide $900,000 in funding for the Rural EMS Training and Equipment 
Program. This program was eliminated in fiscal year 2006 and needs not 
only restoration, but expansion in fiscal year 2008. Rural areas are in 
critical need of emergency medical services training and equipment. 
Recent national events have continued to draw attention to the need for 
communities to have strong emergency medical systems in place. 
Unfortunately, while the need for effective emergency medical care may 
have increased, the number of individuals able to provide these 
services has declined. This is a particular problem in rural areas 
where the majority of EMS personnel are unpaid volunteers. As rural 
economies continue to suffer, it has become progressively more 
difficult for rural EMS providers to recruit and retain these 
personnel. As a consequence, emergency medical squads are becoming 
smaller. The rural EMS training and equipment program awards 
competitive grants to State EMS Offices, State Offices of Rural Health, 
local government, and State or local ambulance providers to improve 
emergency medical services in rural areas.
    The funds can be used to:
  --Recruit emergency and volunteer medical service personnel;
  --Train emergency medical service personnel in emergency response, 
        injury prevention, safety awareness, and other topics relevant 
        to the delivery of emergency medical services;
  --Fund specific training to meet Federal or State certification 
        requirements;
  --Develop new ways to educate emergency health care providers through 
        the use of technology enhance educational methods (such as 
        distance learning);
  --Acquire emergency medical services equipment including cardiac 
        defibrillators;
  --Acquire personal protective equipment for emergency medical 
        services personnel; and
  --Educate the public concerning cardiopulmonary resuscitation, first 
        aid, injury prevention, safety awareness, illness prevention, 
        and other related emergency preparedness topics.
    The Coalition for American Trauma Care is both deeply disappointed 
and alarmed by the President's fiscal year 2008 budget which proposes 
elimination of all funding for four programs specifically designed to 
build infrastructure to ensure that trauma and emergency medical 
services are available and appropriate to need: HRSA's Trauma-EMS 
systems program; HRSA's Traumatic Brain Injury program; HRSA's 
Children's EMS program and CDC's Preventive Health and Health Services 
Block Grant. If these cuts are enacted, the results would be 
devastating for emergency care in the United States for everyone and 
particularly for children and those who have suffered head injury. The 
burden of injury in America has been well documented by numerous IOM 
reports and injury facts speak for themselves: injury is the leading 
cause of death and disability for children and adults up to age 44. 
While much more can and needs to be done to prevent injury from 
occurring at all, we will never be able to eliminate it entirely. 
Cutting these programs will not lessen the injury burden in America; on 
the contrary, it will significantly increase the burden of death, 
disability and direct and indirect health care costs. We need to 
increase our investment in these program areas, not reduce our 
commitment.
    The Coalition greatly appreciates the support the subcommittee has 
provided to trauma related programs in the past and looks forward to 
working with the subcommittee in the coming weeks and months.
                                 ______
                                 
       Prepared Statement of the Coalition of EPSCoR/IDeA States

    Thank you for the opportunity to submit this testimony in support 
of fiscal year 2008 funding for the National Institutes of Health's 
Institutional Development Award or ``IDeA'' Program. The IDeA program 
is funded by NIH's National Center for Research Resources (NCRR), and 
was authorized by the 1993 NIH Revitalization Act (Public Law 103-43).
    My name is Dr. Peter Alfonso and I am the Vice Provost for 
Research, Graduate Studies and Outreach and Dean of the Graduate School 
at the University of Rhode Island. I submit this testimony on behalf of 
the Coalition of EPSCoR/IDeA States.\1\ EPSCoR is the ``Experimental 
Program to Stimulate Competitive Research,'' and IDeA, as previously 
stated, is the NIH's Institutional Development Award program.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Dakota, Oklahoma, Puerto Rico, Rhode 
Island, South Carolina, South Dakota, Vermont, Virgin Islands, West 
Virginia, and Wyoming. (States in italic letters are eligible for the 
IDeA program. All of the States listed above are also eligible for the 
EPSCoR program.)
---------------------------------------------------------------------------
    IDeA is an important program because it increases our Nation's 
biomedical research capability by improving research in States that 
have historically been less successful in obtaining biomedical research 
funds. Twenty-three States and Puerto Rico are eligible.
    IDeA funds only merit-based, peer-reviewed research that meets NIH 
research objectives.
    As previously mentioned, IDeA was authorized by the 1993 NIH 
Revitalization Act (Public Law 103-43), but the program was funded at 
very low levels during its early years. However, between fiscal year 
2000 and fiscal year 2003, IDeA grew rapidly, due in large part to the 
thoughtful actions of this subcommittee. This funding permitted the 
initiation of two new program elements:
    The first was COBRE or ``Centers of Biomedical Research 
Excellence;'' which are research clusters targeting specific biomedical 
research problems. The COBRE program is designed to increase the pool 
of well-trained investigators in the IDeA States by expanding research 
facilities, equipping laboratories with the latest research equipment, 
providing mentoring for promising candidates, and developing research 
faculty through support of a multi-disciplinary center, led by an 
established, senior investigator with expertise in the research focus 
area of the center.
    The second was BRIN or ``Biomedical Research Infrastructure 
Networks;'' which targeted key areas such as bioinformatics and 
genomics and facilitated the development of cooperative networks 
between research-intensive and primarily undergraduate colleges. The 
BRIN grants underwent competitive renewals in 2004 under the new name 
of IDeA Networks of Biomedical Research Excellence (INBRE). The INBRE 
program prepares students for graduate and professional schools as well 
as careers in the biomedical sciences, supports research and mentoring 
of young investigators, and enhances research infrastructure at 
participating institutions.
    Although IDeA is relatively new, there is already objective 
evidence of its success. In fiscal year 1999, the year before COBRE 
grants were initiated, IDeA States received a total of $595 million 
from NIH. In fiscal year 2005, NIH funding for the IDeA States had 
increased to $1.556 billion, representing an increase of 162 percent in 
6 years. It is important to note, however, that in the following year 
as the IDeA budget started to decrease, NIH funding for the IDeA States 
fell to $1.458 billion, the same level as in fiscal year 2003.
    I would like to describe a few examples of how both COBRE and INBRE 
(formerly BRIN) grants have changed the biomedical research landscape 
of Rhode Island. The first COBRE award in Rhode Island was made to 
Brown University in 2000. Prior to this award the biomedical research 
infrastructure of the University was severely lacking and the 
interactions between researchers at Brown and at other institutions 
within the State were minimal at best.
    The COBRE award allowed the PI to fund five promising junior 
investigators, all of whom won subsequent major NIH grants by the end 
of the award period. State-of-the-art core facilities in microscopy, 
genomics, and transgenics were established and staffed with Ph.D. level 
directors. Seminar series and workshops were initiated with COBRE 
funding, and served as the basis for developing collaborative ties with 
researchers throughout the State. COBRE funding also was directly 
translated into the establishment of a ``Center for Genomics and 
Proteomics'' at Brown that included the purchase and renovation of 
significant new research space in an old industrial section of the 
city. This area of the city has now been filled with new businesses and 
is prospering.
    The 2000 COBRE award was renewed for another 5 years and the focus 
is now on signaling and cancer, with the long term goal of establishing 
a cancer center. Since the first COBRE award to Brown University in 
2000, three other COBREs have been awarded to three separate 
institutions: Rhode Island Hospital, Roger Williams Hospital, and Women 
and Infants Hospital. In all three cases, the awarded funds have 
directly led to the establishment of critical Core Facilities that 
provide new faculty with valuable access to state-of-the-art 
instrumentation that they would not be able to acquire through standard 
grant award mechanisms For all of these reasons, COBRE is a critical 
mechanism of support for States with limited budgets for research 
support.
    The 3-year BRIN grant, awarded to Rhode Island in 2001 and 
competitively renewed as INBRE for 5 years in 2004, provided another 
mechanism for addressing both the lack of critical mass of biomedical 
researchers at the University of Rhode Island and other primarily 
undergraduate institutions in the States, and the lack of high-end 
state-of-the-art equipment for biomedical research at these 
institutions. Lack of critical mass and the necessary infrastructure to 
support biomedical research meant that existing researchers were unable 
to perform cutting edge research and effectively compete for research 
dollars from Federal agencies such as the National Institutes of 
Health. Meager startup funds available for hiring new faculty hampered 
efforts to recruit quality research-oriented faculty. There were 
limited opportunities for student training in faculty laboratories, and 
finally, there was a lack of the type of interinstitutional cooperation 
needed to create a network of biomedical researchers.
    Through funding received as a result of the BRIN/INBRE awards, more 
than $2 million in biomedical research equipment for genomics, 
proteomics and drug development studies has been purchased and housed 
in a renovated laboratory. This equipment is accessible to all 
researchers from the participating institutions: University of Rhode 
Island; Rhode Island College; Providence College; Roger Williams 
University; Salve Regina University; and Brown University Through BRIN/
INBRE funding, the Center for Molecular Toxicology at the University of 
Rhode Island was established. The Center has allowed us to leverage the 
creation of new faculty positions at all participating institutions in 
the related thematic areas of toxicology, cell biology and 
environmental health, and helped provide competitive new faculty 
startup packages. New faculty research, coupled with regularly 
scheduled seminars and workshops, is generating increased student 
interest in research and also greater training opportunities for 
students in faculty laboratories. Greater student training in turn 
translates into workforce development in the biomedical and 
biotechnological fields.
    The Rhode Island BRIN/INBRE awards have led to the creation of an 
effective state-wide collaborative network of biomedical researchers, 
which is essential for implementing an environment that will foster 
collaborative research. Finally, and most importantly, this funding has 
helped biomedical researchers in our State to achieve greater success 
in competing for Federal research dollars. This is the ultimate goal of 
the IDeA program.
    Despite these successes, our task is far from complete. Funding 
disparities between the States remain and may have a detrimental impact 
on our national self-interest. And that is why the IDeA program is so 
important. It is helping to ensure that all regions of the country 
participate in biomedical research. Citizens from all States should 
have the opportunity to benefit from the latest innovations in health 
care, which are most readily available in centers of biomedical 
research excellence.
    For this reason, I am deeply concerned by the fiscal year 2008 
Budget Request for the IDeA program. The fiscal year 2008 Budget 
Request for the IDeA program is $210,963,000, which is a $9,023,000 
decrease from the fiscal year 2006 level of funding for the program. 
This is the second year in a row that the IDeA program has been cut in 
the President's Budget. The fiscal year 2007 budget request was the 
first time since 1993 that the budget request for IDeA was below the 
previous year's appropriated level for the program.
    I applaud the efforts your subcommittee has made over the years to 
provide increased funding for IDeA, and hope that you will continue to 
invest in this program, which is so important to almost half of our 
States. The cut proposed in the fiscal year 2008 budget request will 
have a crippling effect on the biomedical research centers, researchers 
and students in IDeA States. The IDeA program is important to so many 
in our States, but especially to the junior investigators who are 
starting to become competitive for NIH funding. I think we send these 
young investigators the wrong message by cutting or even possibly 
eliminating funding for their research projects after encouraging them 
to pursue a career in biomedical research.
    For this reason, the Coalition of EPSCoR/IDeA States believe the 
program should be funded at $250 million in fiscal year 2008. This 
level of funding would restore and continue funding for COBRE and 
INBRE, provide funding for information technoIogy (IT) infrastructure 
upgrades through IDeANet, and also, some funding would be used for a 
co-funding program, which would allow researchers and institutions to 
merge with the overall national biomedical research community.
    By any reasonable standard, an already proven ``IDeA'' for 
increasing biomedical research capacity in a cohort of States which 
comprise one-sixth of our population and yet still receive barely one-
twentieth of the NIH budget, deserves increased support. I am sensitive 
to the tough budget environment that NIH has faced over the past 4 
years. Yet, when I consider that in 2005, the top 7 States that were 
recipients of NIH funding received over a $1 billion each, California 
alone received over $3 billion, $250 million for 23 States and Puerto 
Rico seems more than reasonable. Every region of the country has talent 
and expertise to contribute to our Nation's biomedical research 
efforts--and every region of the country must participate if we are to 
increase our Nation's biomedical research capacity substantially. On 
behalf of the Coalition of EPSCoR/IDeA States, I thank the subcommittee 
for the opportunity to submit this testimony.
                                 ______
                                 
         Prepared Statement of the Coalition for Health Funding

    The Coalition for Health Funding is pleased to provide the 
subcommittee with its testimony recommending fiscal year 2008 funding 
levels for the agencies and programs of the U.S. Public Health Service. 
Since 1970, the Coalition's member organizations, representing 40 
million health care professionals, researchers, patients and families, 
have been advocating for sufficient resources for PHS agencies and 
programs to meet the changing health challenges confronting the 
American people. One of the important principles that unites the 
Coalition's members is that the health needs of the Nation's population 
must be addressed by strong, sustained support for a continuum of 
activities that includes biomedical, behavioral and health services 
research; community-based disease prevention and health promotion; 
health care services for vulnerable and medically underserved 
populations; ensuring a safe and effective food and drug supply; and 
education of a health professions workforce in adequate numbers to 
address the breadth of need.
    The Coalition for Health Funding believes the Bush administration, 
and Congress, have undermined progress that has been made and also 
missed an important opportunity to improve the health of all Americans 
by reducing rather than investing more resources in the agencies and 
programs of the U.S. Public Health Service. Federal spending for public 
health has always been low compared to other health spending, amounting 
to 3 percent of total health care spending according to the Centers for 
Medicare and Medicaid, and yet an investment in public health has the 
potential to slow unsustainable growth in mandatory costs, reduce lost 
productivity at work, school and home, and strengthen every citizen's 
contribution for a healthy, economically strong America.
    Instead of investing in these proven approaches, in recent years we 
have seen serious erosion of resources. Last year, through the strong 
efforts of a few House and Senate Members of Congress working with the 
advocacy community, the bleeding was staunched somewhat through the 
addition of $7 billion in funding for the agencies and programs under 
the jurisdiction of the Labor-HHS-Education Appropriations 
Subcommittees. However, as the table below shows, health agencies did 
not benefit across the board, with CDC, HRSA and SAMHSA funded in the 
final fiscal year 2007 Joint Resolution below fiscal year 2005 by a 
total of $837 million. In addition, all of the health agencies still 
face shortfalls when compared with fiscal year 2005 when inflation is 
accounted for. The President's fiscal year 2008 budget request cuts 
even more deeply--another $1.1 billion below fiscal year 2007 and a 
full $1.6 billion below fiscal year 2005.
    The Coalition for Health Funding urges the subcommittee to reject 
the President's proposal to reduce the Nation's investment in public 
health and instead join over 400 health organizations that, in letter 
dated February 26, urged Congress to make an investment in public 
health of $4 billion over fiscal year 2007 levels. As that letter 
states:

    ``The investment in disease prevention and health promotion for all 
Americans needs to grow, as our Nation struggles with escalating health 
care costs, growing numbers of uninsured, and the prospect of declining 
health measured by overall morbidity and mortality. Over the past 4 
years we have seen a decrease in that investment. The President's 
budget for fiscal year 2008 continues to seriously underfund and 
undermine an important part of the solution: public health activities 
and programs.
    While the final fiscal year 2007 funding resolution provided needed 
increases to selected programs, most public health programs were held 
at fiscal year 2006 funding levels. The undersigned organizations urge 
you to increase funding for public health through the Function 550/
discretionary budget allocation in fiscal year 2008 by an amount that 
will restore funding cuts to public health programs enacted in fiscal 
year 2006, and restore lost purchasing power. It is estimated that an 
additional $4 billion, 7.8 percent, will be needed in fiscal year 2008 
to meet that goal and reverse the erosion of support for the continuum 
of biomedical, behavioral and health services research, community-based 
disease prevention and health promotion, basic and targeted services 
for the medically uninsured and those with disabilities, health 
professions education, and robust regulation of the Nation's food and 
drug supply.''

    The following is a partial list of the Coalition's fiscal year 2008 
recommendations for specific U.S. Public Health Service agencies. The 
Coalition developed these recommendations working with eight other 
health coalitions with a more targeted focus on one agency.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    The Coalition supports $30.869 billion in fiscal year 2008 for the 
National Institutes of Health, a 6.7 percent increase over the fiscal 
year 2007 funding level. This recommendation begins a 3 year process 
for restoring NIH's purchasing power following 4 years of flat funding 
at the end of the doubling in fiscal year 2003. The President's fiscal 
year 2008 budget request, by contrast, cuts NIH $310 million below 
fiscal year 2007. Enactment of the administration's proposal would mean 
about a 13 percent cut in inflation-adjusted dollars in the biomedical 
research capacity of our Nation. The result is NIH is funding fewer 
research projects, slowing our progress against disease and disability 
and discouraging talented young people from pursuing careers in medical 
research. Scientific discoveries are the result of a series of 
incremental steps that pave the way for future breakthroughs. This 
process needs sustained support.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    The Coalition for Health Funding recommends a level of $7.7 billion 
for CDC's core programs in fiscal year 2008. This amount is $1.6 
billion more than the fiscal year 2007 funding level and $1.8 billion 
more than the President's request for fiscal year 2008. This amount 
reflects CDC's professional judgment for core CDC programs that address 
prevention of chronic diseases, infectious diseases including adult and 
child immunization, and support for basic public health infrastructure. 
CDC is the Nation's primary investment in disease prevention and health 
promotion. Since fiscal year 2005, the agency's core programs have lost 
$500 million in funding. It is astounding this decline has been allowed 
to occur when the Nation faces the challenge of galloping obesity and 
its ensuing costly chronic disease; new and emerging infectious 
diseases like West Nile virus and those caused by antimicrobial 
resistant bacteria; vaccine-preventable diseases that occur every day; 
still growing numbers of Americans with HIV, with an estimated 250,000 
who do not know they are infected; and a public health infrastructure 
that still needs shoring up after decades of neglect and that is facing 
massive loss of its trained workforce. One example that summarizes the 
shocking condition of core CDC programs is the National Center for 
Health Statistics (NCHS). Due to a shortfall of a mere $3 million in 
fiscal year 2007, NCHS does not have the funding it needs to collect 
vital birth and death statistics from States for the last 3 months of 
this calendar year. If this is not addressed, the United States will be 
the first industrialized Nation in the world unable to collect this 
information, and as Rep. Rosa DeLauro, a member of the House Labor-HHS-
Education Subcommittee on Appropriations commented, ``. . . [this will] 
compromise our ability not only to target our own public health 
interventions and evaluate our health standing on the international 
stage, but also monitor causes of death, including infectious diseases 
like influenza. As you know, death records are the first line of 
defense in our preparedness system, serving as the warning bell for a 
pandemic outbreak.''

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

    The Coalition for Health Funding recommends an overall funding 
level of $7.5 billion for HRSA in fiscal year 2008. This amount is $617 
million, or 8.9 percent, more than the fiscal year 2007 funding level, 
and is $1.7 billion more than the President's request. This is the 
amount that the Coalition believes is needed to provide adequate 
resources for the important programs that HRSA administers.
    The Coalition is extremely concerned about recent deep cuts in 
funding to HRSA, the Federal agency whose central stated mission is to 
achieve 100 percent access to health care services with zero 
disparities. This is simply not achievable with a cut of over 6 percent 
in fiscal year 2006 and a proposed additional cut of 8.5 percent in the 
President's fiscal year 2008 budget. Chief among the cuts enacted in 
fiscal year 2006, and proposed for complete elimination in the 
President's budget request, are the Title VII Health Professions 
education programs. In addition, the President's fiscal year 2008 
budget cuts the Title VIII nursing education programs by $44 million, 
or nearly 30 percent. The Title VII and the Title VIII nursing 
education programs are the only Federal programs designed to train 
providers in multidisciplinary settings to meet the needs of special 
and underserved populations, as well as increase the minority 
representation in the health care workforce. Cuts imposed in fiscal 
year 2006 of 51.5 percent, including elimination of 7 Title VII 
programs, will only exacerbate racial and geographic disparities. 
Graduates of these programs are 3-10 times more likely to practice in 
underserved areas and are 2-5 times more likely to be minorities. The 
Coalition urges the subcommittee to restore funding levels for Title 
VII to the fiscal year 2005 level, and not only reject proposed cuts 
for Title VIII, but increase funding for this program addressing well-
documented nursing shortages.
    The Coalition also rejects the proposed 63 percent cut in 
Children's Hospitals Graduate Medical Education. Children's hospitals 
do not have access to Medicare funds to help train physicians that care 
for sick children.
    The Coalition deplores the elimination of several other HRSA 
programs in fiscal year 2006 including the Trauma-EMS Systems program, 
which supports States in the development of systems to ensure severely 
injured individuals receive quality trauma care in a timeframe that 
ensures optimal outcomes, and the Healthy Community Access program and 
State planning grants designed to close gaps in access to health care 
for uninsured individuals. Proposed elimination in the President's 
fiscal year 2008 budget of the Children's EMS program, the Traumatic 
Brain Injury program, the Universal Newborn Screening program, the 
Rural and Community Access to Emergency Devices program to train lay 
rescuers and first responders to us Automated External Defibrillators, 
and a 90 percent cut for the Office of Rural Health Policy diminish 
both targeted prevention activities and health care access. Further, a 
cut of $31 million in fiscal year 2006 to the Maternal and Child Health 
program, followed by a hard freeze in fiscal year 2007 and a proposed 
freeze in the President's fiscal year 2008 budget request, has reduced 
services across the Nation to the more than 26 million pregnant women, 
infants and special needs children served by the MCH Block Grant. MCH 
programs increase immunizations, newborn screening, reduce infant 
mortality and developmentally handicapping conditions, prevent 
childhood accidents and injuries, and reduce adolescent pregnancy.

       SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION

    The Coalition for Health Funding recommends an overall funding 
level of $3.532 billion for SAMHSA in fiscal year 2008. This amount is 
$207 million, or 6.2 percent, more than the fiscal year 2007 funding 
level, and $364 million more than the President's budget request, which 
includes a $157 million cut for SAMHSA programs.
    Despite the recent release of the Federal ``Action Agenda'' to 
ensure that people with mental illness have every opportunity for 
recovery, the President's fiscal year 2008 budget proposes to cut 
mental health services by $77 million, or 8.7 percent, following a cut 
in fiscal year 2006 of $17 million. This means that the charge from the 
President's New Freedom Commission on Mental Health for transforming 
the mental health system cannot occur if SAMHSA funding continually 
erodes. The need to make mental health a national priority is nowhere 
better illustrated than in the shocking rates of suicide and suicide 
attempts in the United States despite the Commission's finding that 
suicides are ``a largely preventable public health problem.'' According 
to CDC, the suicide rate among U.S. residents younger than age 20 
increased by 18 percent from 2003-2004, the only cause of death for 
teens that increased. Up to 35,000 children displaced by Hurricane 
Katrina in 2005 are having emotional, behavioral or school problems 
with a fourfold increase in those diagnosed with clinical depression or 
anxiety and a doubling of behavioral, or conduct problems after the 
hurricane. A proposed fiscal year 2008 mental health budget that is 
less than it was in fiscal year 2003 does not allow SAMHSA to meet 
existing needs, let alone respond to the consequences following a 
disaster.
    The Coalition is disappointed that the President's fiscal year 2008 
budget proposes cuts in funding for substance abuse programs by $84 
million and recommends a $100 million increase for the Substance Abuse 
Treatment and Prevention Block Grant and a $15 million increase for 
discretionary treatment programs and a $17 million increase for 
discretionary prevention programs. Substance abuse is a significant and 
very costly national problem involving an estimated 21.6 million 
Americans--over 9 percent of the population--and needs investment in 
both treatment and prevention. Currently only 18 percent of all 
Americans over the age of 12 who need treatment receive it. Emerging 
trends also need specific attention: returning veterans with mental 
health and substance abuse problems that are not eligible for VA 
services, or will not use them due to stigma; and growing 
methamphetamine addiction. Clearly, a stronger investment for this 
problem, which is estimated to cost the Nation $346 billion, is needed.
    The Coalition appreciates this opportunity to provide its fiscal 
year 2008 recommendations and looks forward to working with the 
subcommittee in the coming weeks and months.
                                 ______
                                 
    Prepared Statement of the Coalition for International Education

    Mr. Chairman and members of the subcommittee: We are pleased to 
have the opportunity to present the views of the Coalition for 
International Education on fiscal year 2008 funding for the Higher 
Education Act, Title VI and the Mutual Educational and Cultural 
Exchange Act, section 102(b)(6), commonly known as Fulbright-Hays. The 
Coalition for International Education is an ad hoc group of over 30 
national higher education organizations with interest in the Department 
of Education's international and foreign language education programs. 
Together the Coalition represents the Nation's 3,300 colleges and 
universities, and organizations encompassing various academic 
disciplines, as well as the international exchange and foreign language 
communities. The urgency about United States shortfalls in 
international expertise against a backdrop of enormous global 
challenges is so strong within the higher education community that it 
draws our different perspectives into a single consensus position.
    We express our deep appreciation for the subcommittee's long-time 
support for these programs. We believe that global challenges to our 
Nation and its leadership continue to underscore the importance of 
training specialists in foreign languages, cultures and international 
business who can offer their skills to the government, the private 
sector, educational institutions and the media, and who can communicate 
across cultures on our behalf.

                  PROGRAM OVERVIEW AND FUNDING HISTORY

    In 1958 at the height of the cold war, Congress created these 
programs out of a sense of crisis about United States ignorance of 
other countries and cultures. They have served as the lynchpin for 
producing international specialists for nearly five decades. Expanding 
over time to meet new global challenges, fourteen Title VI/Fulbright-
Hays programs support activities to improve our educational 
capabilities, from K-12 through the graduate levels and advanced 
research, with emphasis on the less commonly-taught languages and areas 
of the world. Title VI largely supports the domestic side of training 
and research, while Fulbright-Hays supports the overseas component. The 
programs leverage a large amount of additional non-Federal resources 
and are relied upon by other Federal and non-Federal programs. Outside 
resources are essential incentives to develop and sustain these 
interdisciplinary programs, underwrite high cost programs in the less 
commonly-taught languages and areas, and provide extensive outreach and 
collaboration among educational institutions, government agencies, and 
corporations.
    Developing the international expertise the Nation will need in the 
21st Century requires educational reform and sustained financing. 
International expertise cannot be produced quickly. Just as the Federal 
Government maintains military reserves to be called upon when needed, 
it should invest steadily in an educational infrastructure that trains 
sufficient numbers and diversity of American students. Unfortunately, 
historical under-funding of Title VI and Fulbright-Hays combined with 
expanding needs and rising costs have contributed to the Nation's 
shortfall in specialists today. A March 2007 report by the National 
Research Council concludes: ``Title VI/FH funding, including staff 
resources, has not kept pace with the expansion in the mission of the 
programs.'' Funding for key Title VI/Fulbright-Hays programs is more 
than 30 percent below the high point in fiscal year 1967. For example, 
only 1,561 or 33 percent fewer Foreign Language and Area Studies 
fellowships were awarded in fiscal year 2007 compared to 2,344 in 
fiscal year 1967. Four years of level funding combined with across-the-
board cuts since fiscal year 2003 eroded by 10 percent in real terms 
the fiscal year 2002-2003 funding increases. Our statement today speaks 
to the urgent need to resume the infusion of new funds into Title VI/
Fulbright-Hays, to ensure that this expertise is readily available when 
needed.

         WHY INVESTING IN TITLE VI/FULBRIGHT-HAYS IS IMPORTANT

    Our national security, stability and economic vitality depend, in 
part, on American experts who have sophisticated language skills and 
cultural knowledge about the various areas of the world.
    Government Needs.--The quantity, level of expertise, and 
availability of U.S. personnel with high-level expertise in foreign 
languages, cultures, political, economic and social systems throughout 
the world do not match our national strategic needs at home or abroad.
  --``All of our efforts in Iraq, military and civilian, are 
        handicapped by Americans' lack of language and cultural 
        understanding. Our embassy of 1,000 has 33 Arabic speakers, 
        just six of whom are at the level of fluency. In a conflict 
        that demands effective and efficient communication with Iraqis, 
        we are often at a disadvantage. There are still far too few 
        Arab language--proficient military and civilian officers in 
        Iraq, to the detriment of the U.S. mission.'' The Iraq Study 
        Group: The Way Forward--A New Approach, December 2006.
  --``We have begun the process to imbed language and regional 
        expertise as a core military skill. The need for language and 
        regional expertise has long been a core requirement for Special 
        Forces Command, but as the type of conflicts and wars in which 
        we engage change, and irregular operations and 
        counterinsurgency and stability operations increase, language 
        and regional expertise and cultural awareness become key skills 
        needed by every Soldier, Marine, Sailor, and Airman for this 
        century's global and ever-changing mission.'' David S.C. Chu, 
        Under Secretary of Defense for Personnel and Readiness, before 
        the Senate Armed Services Personnel Subcommittee, March 2006.
  --``It is a mark of how far the FBI still has to go to remake itself 
        into a first-rate counter-terrorism force that 5 years after 
        Sept. 11, 2001, it has only 33 special agents, with one more on 
        the way, who speak Arabic. Most of them don't speak it very 
        well. Only six have a rating of ``advanced professional'' in 
        the language_one twentieth of 1 percent of the bureau's 12,000 
        agents.'' Washington Post Editorial, October 2006.
    Workforce Needs.--National security is increasingly linked to 
commerce, and U.S. business is widely engaged around the world with 
joint ventures, partnerships, and economic linkages that require its 
employees to have international expertise both at home and abroad.
  --``Most of the growth potential for U.S. businesses lies in overseas 
        markets. Already, one in five U.S. manufacturing jobs is tied 
        to exports. In 2004, 58 percent of growth in the earnings of 
        U.S. businesses came from overseas. Foreign consumers, the 
        majority of whom primarily speak languages other than English, 
        represent significant business opportunities for American 
        producers, as the United States is home to less than 5 percent 
        of the world's population.'' Education for Global Leadership, 
        Committee for Economic Development, 2006.
  --``A study on the internationalization of American business 
        education found that knowledge of other cultures, cross-
        cultural communications skills, experience in international 
        business, and fluency in a foreign language ranked among the 
        top skills sought by corporations (especially small and mid-
        size) involved in global business. Despite new efforts to 
        internationalize business education in the last decade, U.S. 
        business schools still fall short of fulfilling the need of 
        businesses for personnel who can think and act in a global 
        context.'' U.S. Business Needs for Employees with International 
        Expertise, Ben L. Kedia and Shirley Daniel, January 2003.
  --The war on terrorism threatens U.S. economic prosperity--and 
        economic stability worldwide--in ways that are not yet entirely 
        understood. Businesses are re-evaluating the risks they face 
        for their employees, their products and services, and their 
        investments in domestic and global markets. The Title VI 
        Centers for International Business Education and Research are 
        mobilizing the intellectual resources of U.S. universities to 
        focus on homeland security and risks in global markets for 
        American business. See: Homeland Security & U.S. International 
        Competitiveness, CIBERWeb.msu.edu.
    Improving our Image Abroad.--More Americans with understanding of 
other cultures and proficiency in foreign languages helps to improve 
the Nation's tarnished image abroad.
  --Undersecretary of State for Public Diplomacy and Public Affairs 
        Karen Hughes in an interview with Parade magazine places some 
        of the responsibility for America's image abroad on the United 
        States. The article states: ``She talks about how--before 9/
        11--people abroad perceived the United States as being 
        uninterested in the rest of the world. Our military, cultural 
        and economic power `buy resentment around the world,' she says. 
        `It will take all of us to address that. Any American who 
        travels abroad is an ambassador for our country, and I hope 
        you'll demonstrate the respect America has for different 
        countries and cultures.' She'd like more U.S. students to study 
        abroad and more Americans to learn a foreign language.'' 
        Interview with Karen Hughes in PARADE MAGAZINE: ``Can the U.S. 
        Rebuild Its Image?'' January 28, 2007.
    Language and Area Training.--Title VI/Fulbright-Hays programs 
expand foreign language and area studies enrollments, train K-16 
foreign language teachers, and build the training infrastructure in the 
less commonly-taught languages and areas most needed by the national 
security agencies, such as Chinese, Russian, Arabic, Korean, Hindi, 
Urdu, among many others.
  --Title VI institutions account for 3 percent of all colleges and 
        universities that offer language instruction, but 21 percent of 
        undergraduate enrollment and 56 percent of graduate enrollment 
        in the less commonly taught languages. For the rare languages, 
        Title VI institutions account for 49 percent of undergraduate 
        and 78 percent of graduate enrollments.
  --Title VI institutions provide instruction in roughly over 130 
        languages and in 19 world areas, and have the capacity to teach 
        over 200 languages. Because of the high cost per student, many 
        of these languages would not be taught on a regular basis at 
        all but for Title VI and Fulbright-Hays support.
  --The decline in foreign language enrollments in higher education 
        from 16 percent of total student enrollments in 1960 to just 
        8.7 percent today must be reversed to meet the increasing 
        demand for globally competent personnel, and to address 
        national needs.
  --Only 5 percent of all higher education students taking foreign 
        languages study non-European languages spoken by roughly 85 
        percent of the world's population.
  --U.S. educational institutions from K-16 face a shortage of teachers 
        with global competence, especially foreign language teachers of 
        the less commonly taught languages. Faculty in professional 
        disciplines require greater international expertise.

   PRESIDENT'S FISCAL YEAR 2008 REQUEST AND THE COALITION'S RESPONSE

    The President's fiscal year 2008 budget recommends $105.75 million 
for Title VI and Fulbright-Hays. This represents the same level as 
fiscal year 2006 for these programs. As part of the National Strategic 
Language Initiative (NSLI), a $1 million E-learning clearinghouse for 
critical need languages is proposed at the expense of existing Title VI 
programs that also serve foreign language needs. The Coalition proposes 
$132.6 million for fiscal year 2008. We support the creation of the E-
learning clearinghouse only if new funds are made available and a 
broader spectrum of less commonly taught languages than the 
administration is recommending is included.

    WHAT ADDITIONAL FUNDING OF $26.9 MILLION OVER THE REQUEST WOULD 
                               ACCOMPLISH

    Strengthen foreign language, area and international business 
education and research: $114 million for Title VI, Parts A&B--a $22.5 
million increase.
  --Fund an Additional 350 Academic Year and 200 Summer Title VI 
        Foreign Language (FLAS) Fellowships--35 Percent More Than the 
        Request.--This would restore the number of foreign language 
        academic year fellowships to about 85 percent of the number 
        funded in fiscal year 1967, and 100 percent of the number of 
        summer fellowships funded in that year. Cuts or level funding 
        since fiscal year 2003 have resulted in a cumulative loss of 
        over 340 academic year fellowships in the last 4 years. ($10.75 
        million)
  --Increase the Center Grants for the National Resource Centers (NRC), 
        Language Resource Centers (LRCs), and Centers for International 
        Business Education and Research (CIBERs) to Their Fiscal Year 
        2003 Levels Adjusted for Inflation.--Cuts, inflation, and an 
        increase in the number of centers in last year's competition 
        have caused a 15-20 percent reduction (adjusted for inflation) 
        in the average grant for these vital centers. This would 
        restore center awards that have eroded over the last 4 years to 
        about 100 percent of their fiscal year 2003 levels in real 
        terms. The additional funding will: (1) accelerate efforts to 
        begin training a new generation of international/language 
        specialists and faculty, especially for the less commonly 
        taught languages, who will be needed to replace those expected 
        to retire over the next decade; (2) expand professional 
        development for teachers of critical languages at both the K-12 
        and higher education levels, as well as the development of 
        widely accessible critical language teaching materials and 
        assessments for students of critical languages; and (3) step up 
        programs in the critical languages in business education, as 
        well as expand research and education on homeland security and 
        risk management. ($8.5 million)
  --Sustain and strengthen other Title VI activities, including the 
        undergraduate foreign language and international studies, 
        international research and studies, business and international 
        education programs, American Overseas Research Centers, and 
        information technology innovation. Additional funds would build 
        and strengthen programs in critical languages, including 
        advanced language training at home and abroad. It would also 
        increase resources for the development of curriculum materials, 
        assessment instruments and research, as well as obtaining from 
        abroad and disseminating educational information about world 
        regions. ($3.25 million)
    Increase the diversity of U.S. students who major in international 
fields: $3 million for the Institute for International Public Policy, 
TVI-C--a $1.4 million increase. The Institute for International Public 
Policy responds to the national need for a diverse pool of well-
trained, language-proficient professionals to enter the Foreign Service 
and related careers. The additional funds would raise the number of 
entering fellows by 50 percent and extend the pipeline to recruit 
graduate students and those working in international affairs to focus 
on strategic languages and issues. It also would restore and expand the 
capacity building grants for minority serving institutions to 
strengthen foreign language instruction on campus and in local 
secondary schools, including collaborative efforts with other Title VI 
grantee institutions.
    Strengthen the overseas component of research and training of 
Americans in foreign languages and international studies: $15.6 million 
for Fulbright-Hays--a $3 million increase. Fulbright-Hays provides an 
essential overseas component for research and training of Americans in 
foreign languages and international studies. Overseas immersion is 
critical to achieving high levels of foreign language proficiency. All 
of the Fulbright-Hays programs require strengthening, with emphasis on 
increasing the number of research abroad fellowships and group projects 
abroad in intermediate and advanced language training in strategic 
world areas, and expanding curriculum development and summer seminars 
abroad for K-12 teachers.

                      APPROPRIATIONS BILL LANGUAGE

    In the last 6 years, Congress has enacted language in the 
appropriations bill to provide these programs with more flexibility for 
overseas immersion opportunities for foreign language training, and to 
permit use of Fulbright-Hays funds, in addition to teaching, in fields 
including government, professional fields or international development. 
It also provides a 1 percent set aside for the Department of Education 
to carry out evaluation, outreach and dissemination activities. The 
Coalition recommends a continuation of the following language, but with 
the insert noted in bold to provide the Secretary with more flexibility 
in using the 1 percent set-aside.

    ``Provided further, That notwithstanding any other provision of 
law, funds made available in this act to carry out title VI of the 
Higher Education Act of 1965, as amended, and section 102(b)(6) of the 
Mutual Educational and Cultural Exchange Act of 1961 may be used to 
support visits and study in foreign countries by individuals who are 
participating in advanced foreign language training and international 
studies in areas that are vital to United States national security and 
who plan to apply their language skills and knowledge of these 
countries in the fields of government, the professions, or 
international development: Provided further, That up to 1 percent of 
the funds referred to in the preceding proviso may be used for program 
evaluation, national outreach, and information dissemination activities 
[insert: that may be carried out by the Secretary or through grants and 
contracts to institutions of higher education or public and private 
nonprofit agencies and organizations]''

    Finally, the Coalition is eager to work with the subcommittee on 
several recommendations in the just released March 2007 National 
Research Council's report on these programs entitled, ``International 
Education and Foreign Languages: Keys to Securing America's Future.''
    We consider our request to be a modest one for programs vital to 
our Nation's long-term security and economic well-being. Thank you for 
your consideration of our views.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony for the record to the Senate Subcommittee on 
Labor, Health and Human Services, Education, and Related Agencies 
regarding fiscal year 2008 appropriations for the Low Income Home 
Energy Assistance Program (LIHEAP). The Governors appreciate the 
subcommittee's continued support for the LIHEAP program and recognize 
the difficult challenges facing the subcommittee in this time of severe 
fiscal constraints. In light of the continuously increasing cost of 
home energy, the Governors request that Congress provide the authorized 
level of $5.1 billion in regular fiscal year 2008 funding as well as 
contingency funds to address energy emergency situations. Funding at 
the authorized level will restore some of the program's purchasing 
power and also provide States across the country with additional 
resources to help our most vulnerable citizens afford to heat their 
homes.
    Home energy prices--for heating oil, natural gas, propane and 
electricity--have dramatically increased in recent years. According to 
the Energy Information Administration, the average cost for home 
heating has risen from $550 during the winter of 2001-2002 to a 
projected $862 this year--a 56 percent increase. Low-income households, 
whose growth in income is far below the rise in energy prices, face the 
prospect of keeping their homes at unhealthy or unsafe temperatures, 
using unsafe alternative heating options, or accumulating high levels 
of home energy debt and the possibility of utility service shut-off. 
LIHEAP is a vital safety net for the most vulnerable of these low-
income households--the elderly and disabled living on fixed incomes, 
and families with small children. A recent survey by the National 
Energy Assistance Directors' Association (NEADA) found that LIHEAP 
eligible low-income households spent an average of 14 percent of their 
annual income on residential energy before LIHEAP assistance, but 11 
percent after LIHEAP benefits.
    The need for home heating assistance far exceeds available Federal 
and State resources. LIHEAP was able to assist 5.6 million households 
in fiscal year 2006--the highest level in over a decade, but more than 
80 percent of eligible households received no assistance. States across 
the country in recent years have seen significant increases in their 
regular LIHEAP caseloads, as well as in requests for emergency crisis 
from those households in imminent danger of a utility or fuel service 
cut-off. At the same time, recent price increases have caused the 
purchasing power of the LIHEAP dollar to plummet, defraying only a 
modest amount of a low-income household's total heating bill.
    Congress provided much-appreciated additional LIHEAP funds in 
fiscal year 2006, but most of these funds have already been obligated, 
will be used for crisis cases this year, or are reserved for cooling 
assistance for the upcoming summer. As energy prices continue to 
increase the need for home energy assistance, the reduced LIHEAP 
Federal funding level in fiscal year 2007 is forcing many States across 
the country to reduce benefits, limit crisis assistance, or consider 
closing the program early--even as winter moratoriums on utility shut-
off expire this spring.
    Without additional Federal resources, the States have limited 
options to assist these households in need. A continued reduction in 
benefits could result in limited assistance if recipient households are 
unable to purchase the required minimum delivery of home heating oil or 
make the necessary payment on utility arrearages. Many States have used 
State resources to supplement available LIHEAP funds. Limited 
opportunities exist to squeeze more assistance dollars from the 
program, since LIHEAP administrative costs are already among the lowest 
of human service programs. In order to deliver maximum program dollars 
to households in need, States in the Northeast have incorporated 
various strategies to minimize the program's administrative costs 
including using uniform application forms to determine program 
eligibility, establishing a one-stop shopping approach for the delivery 
of LIHEAP and related programs, sharing administrative costs with other 
programs, and using mail recertification.
    In spite of these State efforts to stretch Federal and State LIHEAP 
dollars, the need for the program is far too great. Increased Federal 
funding is vital for LIHEAP to assist the Nation's vulnerable, low-
income households faced with unaffordable home energy bills. An 
increase in the regular LIHEAP appropriation to $5.1 billion for fiscal 
year 2008 in addition to contingency funds will enable States across 
the Nation to help mitigate the potential life-threatening emergencies 
and economic hardship that confront the Nation's most vulnerable 
citizens. With these additional funds, States can provide assistance to 
more households in need, offer benefit levels that provide meaningful 
assistance, lessen the need for emergency crisis relief, plan and 
operate a more efficient program, and again make optimal use of 
leveraging and other cost-effective programs.
    We thank the subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Low Income Home Energy Assistance Program to the Northeast and the 
Nation.
                                 ______
                                 
                Prepared Statement of the College Board

                              INTRODUCTION

    The College Board is a national not-for-profit association of more 
than 5,000 member schools, colleges, and universities. Its mission is 
challenging: To connect students to college success and opportunity. 
One of the College Board's most ambitious and important teaching and 
learning programs is the Advanced Placement Program (AP). Comprised of 
37 college-level courses taught in high school, AP represents the 
highest standard of academic excellence in our Nation's schools and has 
become the most influential general education program in the country. A 
collaborative effort between motivated students, dedicated teachers, 
expert college professors, and committed high schools, colleges, and 
universities, the AP Program has allowed millions of students to take 
college-level courses and exams and to earn college credit or placement 
while still in high school since its inception in 1955. Ninety percent 
of the colleges and universities in the United States, as well as 
colleges and universities in 30 other countries, have an AP policy 
granting incoming students credit, placement, or both on the basis of 
their AP Exam grades. Many of these institutions grant up to a full 
year of college credit (sophomore standing) to students who earn a 
sufficient number of qualifying AP scores.
    President Bush's request for $122 million in support for AP--
including $90 million in new funding to train AP math, science, and 
world language teachers--will dramatically improve the quality of 
instruction in our Nation's schools. The ultimate outcome will be a 
substantial increase in the number of high school graduates who enter 
college with the desire and ability to succeed in science, technology, 
engineering, and mathematics (STEM) fields and compete in a global 
marketplace. Moreover, increased support for an expanded AP Program 
will contribute to the goal of raising standards and achievement in all 
of our Nation's high schools. The AP Program benefits both the students 
who take AP courses and those who do not take AP by promoting higher 
standards and better teaching in all classes. As such, a significant 
investment in the expansion of AP math, science, and world language 
programs will have a profound effect on the overall quality of 
education in our Nation's schools.

                       ADVANCED PLACEMENT PROGRAM

    AP is a time-tested program with an existing infrastructure of tens 
of thousands of teachers and a network of hundreds of training sites 
across the country. Funds invested in this program will not need to be 
dedicated to creating a new system for teacher professional 
development, course development, or the administration and scoring of 
assessments. That system already exists as a result of our efforts over 
the past 50 years, and as a result of the involvement of thousands of 
schools, colleges and universities in the operation of the AP Program. 
Thus, new Federal dollars invested in AP can go directly into teacher 
training and student preparation and support.
    The principles and values of the AP Program can be stated quite 
simply:
  --AP supports academic excellence. AP represents a commitment to high 
        standards, hard work, and enriched academic experiences for 
        students, teachers, and schools.
  --AP is about equity. The AP Program should be open to all students, 
        and we believe that every student should have access to AP 
        courses and should be given the support he or she needs to 
        succeed in these challenging courses.
  --AP can drive school-wide academic reform. Schools that use AP as an 
        anchor for setting high standards and raising expectations for 
        all students see significant returns not just in terms of AP 
        participation but in terms of increasing the overall quality 
        and intensity of their academic programs.
    Across the Nation, every State, and most school districts are 
exploring ways to raise standards and ensure that all students take 
challenging courses that prepare them for success in college and work. 
AP is recognized as a powerful tool for increasing academic rigor, 
improving teacher quality, and creating a culture of excellence in high 
schools. Students who take AP courses assume the intellectual 
responsibility of thinking for themselves, and they learn how to engage 
the world critically and analytically--both inside and outside of the 
classroom. This is an invaluable experience for students as they 
prepare for college or work upon graduation from high school. Moreover, 
schools in which AP is widely offered--and accessible to all students--
experience the diffusion of higher standards throughout the entire 
school curriculum.

                   AP MATHEMATICS AND SCIENCE COURSES

    Increasing rigorous math and science education in the United States 
will significantly boost our high school graduates' math and science 
proficiency, which will increase the number of students who enter 
college ready to succeed in programs of study leading to science, 
technology, engineering, and mathematics (STEM) careers. We urgently 
need to create those opportunities for our students. Today, only 32 
percent of American undergraduates earn degrees in science and 
engineering, compared to 66 percent of undergraduates in Japan, 59 
percent in China, and 36 percent in Germany. In 2004, China graduated 
600,000 engineers, India graduated 350,000, and the United States 
graduated 70,000.\1\
---------------------------------------------------------------------------
    \1\ Committee on Science, Engineering and Public Policy. Rising 
Above the Gathering Storm: Energizing and Employing America for a 
Brighter Economic Future. National Academies Press, 2006. This report 
notes that America appears to be on a ``losing path'' today with regard 
to our future competitiveness and standard of living.
---------------------------------------------------------------------------
    The AP Program is an important tool in this Nation's efforts to 
increase its economic competitiveness. AP math and science students are 
much more likely than other students to major in STEM disciplines than 
students whose first exposure to college-level math and science courses 
is in college. For example:
  --Sixteen percent of students who take AP Chemistry go on to major in 
        chemistry in college. By way of contrast, only 3-4 percent of 
        students who take general chemistry instead of AP chemistry 
        major in that field in college.
  --More than 25 percent of students who take AP Calculus go on to 
        major in a STEM field in college, and 40 percent of students 
        who take AP Physics major in physics in college.
    Furthermore, research indicates that AP math and science courses 
prepare American students to achieve a level of proficiency that 
exceeds that of students from all other nations. For example, in the 
most recent TIMSS assessments, U.S. Calculus students ranked No. 15 
(out of 16 countries) in the international advanced mathematics 
assessment. But AP Calculus students who scored a 3 or better on the AP 
Calculus Exam ranked first in the world. Even AP Calculus students who 
scored a 1 or 2 on the AP Calculus Exam--below ``passing''--were ranked 
second in the world. AP Physics students, as compared to other U.S. 
physics students and physics students internationally, were also at the 
top of the ranking.
    Most significantly, there are many more U.S. students who could 
succeed in AP math and science courses--if given the chance. By 
utilizing an existing, diagnostic tool called AP Potential, more 
students could be identified as individuals who have the potential to 
succeed in Advanced Placement classes but may not currently have the 
opportunity to do so. This year we anticipate that more than 100,000 
U.S. students will earn a 3 or above on the AP Calculus Exam--the score 
typically required for college credit. But in a national analysis of 
the math proficiency of students enrolled in U.S. high schools during 
the 2005-2006 academic year, we can identify, by name and school, an 
additional 500,000 students who have the same academic background and 
likelihood of success in AP Calculus as the 100,000 students who 
currently are fortunate enough to have an AP Calculus course available 
to them.
    If we look at Biology, we see an even larger gap; we expect that 
about 74,000 students will earn exam grades of 3 or higher on the AP 
Biology Exam this year, whereas we know that at least 640,000 
additional U.S. students have the academic skills that would enable 
them to succeed in AP Biology if they only had a course available to 
them and the encouragement to take on this challenge. There are 
hundreds of thousands of high school students in the United States who 
are prepared and ready to succeed in rigorous high school courses such 
as AP Calculus, AP Biology, AP Physics, and AP Chemistry. In many 
cases, the only thing preventing them from learning at this higher 
level is the lack of an AP teacher in their school or the lack of 
adequate encouragement and support to take the AP course.

                               CONCLUSION

    AP is not for the elite, it is for the prepared. The tremendous 
potential of AP to drive reform in a powerful way in all of our 
Nation's schools is well established, and no other program has as 
strong an impact on overall student and teacher quality as AP. The 
committee's support for expanded AP math, science, and world language 
courses and exams will prepare many more students for the opportunity 
to compete in a global environment and succeed in STEM fields in 
college and work. We respectfully urge that you fully fund the 
administration's AP expansion request.
                                 ______
                                 
          Prepared Statement of the Cooley's Anemia Foundation

    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to present this testimony to the subcommittee today. My 
name is Frank Somma. I live in Holmdel, New Jersey and I am honored to 
serve as the National President of the Cooley's Anemia Foundation. As 
many members of this subcommittee know, Cooley's anemia, or 
thalassemia, is a fatal genetic blood disorder.
    I could bog you down in a detailed scientific explanation of what 
happens physiologically when the human body cannot produce red blood 
cells in adequate numbers and of adequate quality to sustain life. I am 
not going to do that. The important thing for members of this 
subcommittee to remember about Cooley's anemia is that it is a fatal 
genetic blood disorder. Period.
    I also understand that I can present you with five pages of 
detailed single-spaced testimony. I am not going to do that either. 
Instead, I am respectfully going to address the following three issues 
in a clear and succinct manner.
  --The first is the immediate need to retain $1.94 million in the 
        CDC's Division of Blood Disorders to fund the thalassemia blood 
        safety surveillance network. This program works for thalassemia 
        patients, and for all Americans, by providing a mechanism to 
        take immediate actions to keep the blood supply safe when a 
        threat emerges.
  --The second issue is the equally critical need for this subcommittee 
        to commit our government through the NIH--and more specifically 
        through NHLBI--to the development of a vigorous, ethical, 
        progressive and focused gene therapy program that is designed 
        to cure gene disorders in the shortest possible time.
  --The third issue is the urgent need to increase funding for the NIH 
        by 6.7 percent a year for the next 3 years to assure the 
        continuation of desperately needed research at NIDDK for the 
        Thalassemia Clinical Research Network at NHLBI.

                       BLOOD SAFETY SURVEILLANCE

    Mr. Chairman, when a baby is diagnosed with Cooley's anemia, or 
thalassemia major, the standard of treatment is to begin that child on 
blood transfusions. I want to be very clear here that the treatment is 
not to give the child a blood transfusion; it is to begin a lifetime 
treatment regimen of this most invasive and dangerous intervention. 
Once diagnosed, our patients will receive a blood transfusion every 2 
weeks for the rest of their lives.
    Because Cooley's anemia patients are transfused so regularly, they 
represent an ``early warning system'' for problems in the blood supply. 
If there is an emerging infection or other problem with the blood 
supply, it is our patients that will get it first and, because of their 
fragile health, will likely suffer more greatly from this secondary 
complications.
    Please understand that nearly every patient over the age of 18 
today who has thalassemia major also has HIV or hepatitis C as a result 
of their transfusions--or did have it while they were still alive.
    Blood safety is a major national issue. Surgical and trauma 
patients often have no choice but to be transfused. And, it is done on 
an emergency basis many times. Nothing is more important to the patient 
at the time of transfusion than that they can be confident that the 
blood being pumped into their veins is free from infectious agents--
HIV, HCV, or something that none of us have yet heard and doctors have 
yet to identify.
    The blood safety surveillance program is currently operating very 
effectively through the Division of Blood Disorders in the National 
Center for Birth Defects and Developmental Disability (NCBDDD) with 
about $1.94 million in funding. While the funding is currently in 
place, this subcommittee and its staff are painfully aware that CDC 
management attempted to eliminate it following the passage of the 
fiscal year 2007 Continuing Resolution.
    We are respectfully urging that the subcommittee retain this 
funding at the $1.94 million level that currently exists in order to 
continue to protect Americans from unnecessary infections and diseases 
that may occur in the blood supply. Also, we are requesting that the 
subcommittee and its staff remain vigilant in protecting this program 
from unjustified and unjustifiable assaults.

                              GENE THERAPY

    Mr. Chairman, as you know, in the last year or 2 we have begun to 
see evidence of some very good news about gene therapy. After decades 
of overblown promises and false starts, we can now see a pathway for 
scientists to follow to help make the promise of gene therapy become 
the reality of cures. The problem to this point in the long saga that 
is gene therapy has not been one of science; it has been one of 
expectations. As a society, we all forgot that science requires trial 
and error and that experiments are just that--experiments. Sometimes 
they succeed, but often they fail. And, when they fail, we need to 
analyze what happened and identify how to correct it . . . and then try 
again.
    Today, gene therapy is advancing at a rapid pace in the rest of the 
world. Exciting work is being undertaken in Japan and China, in the UK 
and in France. Unfortunately, it is showing less progress the United 
States of America . . . and that is not right. We are the international 
leaders in scientific research and, in a field like this--fraught with 
financial, scientific and ethical minefields--it is essential that 
America demonstrate its continued leadership to the world. We set the 
highest ethical and moral standards on every one of these issues. We 
protect human subjects best. The future of gene therapy as a means of 
curing disease is simply too important to leave it to anyone else.
    For persons with a single cell mutation disorder like thalassemia 
or sickle cell disease or severe combined immune deficiency (SCID), 
gene therapy holds tremendous promise for a cure. In fact, the CAF has 
recently launched the CURE Campaign: Citizens United for Research 
Excellence. The theme of the campaign is ``It is Time to Cure 
Something.'' We are now learning so much about how to deliver healthy 
genes to unhealthy cells that we cannot turn back--nor can we as a 
Nation afford to let down the scientists in this country who have such 
a depth of knowledge and experience. Our friends in Europe and Asia are 
leaping ahead of us in this critical area of biomedical research and 
gene therapy.
    We hope that this Congress--speaking through this subcommittee--
will do what we have done and dare the NIH and its grantees to ``cure 
something.'' You are investing nearly $29 billion of taxpayer money in 
this agency that houses the ``best and the brightest'' and that funds 
``the best and the brightest.'' We as Americans must never stop 
striving to reach previously unimaginable heights. If that means that 
we have to shake up the status quo and create a new funding mechanism, 
let's do it. But let's not continue to follow the slow going 
incremental, some might say ``glacial'' path of the past.
    We need to spend our tax dollars in a coordinated and focused 
manner that will maximize the chances that we will unlock the secrets 
of how to correct single gene defects. We are gaining direct knowledge 
of how to safely proceed, with an experiment currently being 
conducted--in France--that may be a breakthrough. It is time for the 
United States to step up and lead the world in this life-saving area of 
research.

           NIH AND THE THALASSEMIA CLINICAL RESEARCH NETWORK

    Mr. Chairman, 6 years ago, working closely with members of this 
subcommittee from both sides of the aisle, the CAF convinced the NHLBI 
of the need to create a Thalassemia Clinical Research Network. The 
purpose of the Network is to create an infrastructure that would enable 
the top researchers in the field to collaborate on desperately needed 
research projects using common protocols. Today, the Network is up and 
running and is the focal point for thalassemia research, most of which 
takes place in academic medical centers, literally spread from coast to 
coast.
    However, there remains a cloud hanging over this, and all other, 
research at NIH. As the Biomedical Research and Development Price Index 
continues to escalate, the buying power of an NIH that has been flat-
funded for 4 years continues to decrease. There would be nothing wrong 
with this if we had cured thalassemia, and hemophilia, and cystic 
fibrosis, and all other genetic and non-genetic diseases. But that is 
not the case.
    There is an enormous amount of work to be done, treatments to be 
developed and cures to be found. And there is no one else to do it but 
our National Institutes of Health, with the support of our Congress and 
President.
    I urge the subcommittee to make a commitment this year in this bill 
to a 6.7 percent increase per year for NIH for the next 3 years. This 
level of funding will simply bring us back to where were in fiscal year 
2003 at the end of the 5 year doubling. It is time to commit to undo 
the damage that has been done in the last 4 years.

                               CONCLUSION

    As I indicated at the outset, Mr. Chairman, the Cooley's Anemia 
Foundation has three priorities this year:
  --Funding the blood safety surveillance program at CDC at $1.94 
        million;
  --An enhanced focus on gene therapy designed to cure something; and,
  --A 6.7 percent increase in NIH funding per year for 3 years.
    Mr. Chairman, every night when I watch my beautiful, smart, 
talented 22 year old daughter Alicia suffer from the complications of 
thalassemia such as osteoporosis and as I watch her endure daily 8-10 
hours of painful drug infusions to remove the excess iron in her system 
from her bi-weekly blood transfusions, I know we can do better than 
what we are doing now.
    Please excuse my passion, but this is the United States of America. 
I know we can prevent this disease from happening in newborns. I know 
we can improve the lives of those who currently have it. And, most 
importantly, I know that we can cure it once and for all.
    You don't need four pages of testimony from me to do that. You just 
need to demand the very best from the very best--our scientists, our 
government, and ourselves.
    Thank you for your very kind attention and for all the support this 
committee has shown to our patients and their families over the years.
                                 ______
                                 
  Prepared Statement of the Consortium of Social Sciences Associations

    Mr. Chairman and members of the subcommittee, the Consortium of 
Social Science Associations (COSSA) appreciates and welcomes the 
opportunity to comment on the fiscal year 2008 appropriations for a 
number of agencies in the Department of Health and Human Services and 
the Department of Education. COSSA is an advocacy group promoting 
attention to and funding for social and behavioral science research. It 
is supported by more than 110 professional associations, scientific 
societies, universities, centers and research institutes. A list of our 
members is attached.

           AGENCY FOR HEALTHCARE RESEARCH AND QUALITY (AHRQ)

    The mission of AHRQ is to promote health care quality improvement 
by conducting and supporting health services research that improves the 
outcomes, quality, access to, cost, and utilization of health care 
services. As the lead Federal agency charged with supporting research 
designed to improve healthcare, AHRQ-sponsored research provides 
evidence-based information that empowers healthcare decisionmakers--
patients, clinicians, health system leaders, and policymakers--to make 
informed decisions that impact the quality of healthcare services 
delivered.
    Health services research also addresses issues of organization, 
financing, utilization, patient and provider behavior, quality, 
outcomes, effectiveness, and costs. Since fiscal year 2005, AHRQ has 
lost nearly $20 million in purchasing power due flat funding from 
Congress and inflation. As a member of Friends of AHRQ, COSSA supports 
the Friends' recommendation for a funding increase of at least $30 
million--just .0015 percent of the $2 trillion we spent on health care 
annually.
    This funding level would allow AHRQ to support ongoing efforts to 
improve the quality, safety, outcomes, access to and cost and 
utilization of health care services. In addition, AHRQ will be able to 
expand its efforts to improve patient safety, modernize health care 
through health information technology, develop the next generation of 
researchers, and evaluate the relative value of alternative 
technologies.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    The CDC is the lead Federal agency for promoting health and safety 
and providing credible health information through strong partnerships, 
both nationally and internationally. As the command center for our 
Nation's public health defense system against emerging and reemerging 
infectious diseases, the CDC faces unprecedented challenges and 
responsibilities, ranging from chronic disease prevention, eliminating 
health disparities, bioterrorism preparedness, to combating the obesity 
epidemic. COSSA commends the CDC for acknowledging that as human 
behavior and demographics create new public health challenges, the 
expertise within the social and behavioral sciences will be critical in 
keeping the American public healthy. These behavioral factors--tobacco 
use, poor diet, physical inactivity, risky sexual behavior and illicit 
drug use--are, according to the CDC, ``the underlying causes for nearly 
half of all deaths in the United States.''
    As a member of the CDC Coalition, a nonpartisan coalition of more 
than 100 groups committed to strengthening our Nation's prevention and 
health promotion programs, COSSA supports the Coalition's 
recommendation of a $10.7 billion appropriation for CDC (including 
funding for the Agency for Toxic Substances and Disease Registry, and 
the Vaccines for Children Program). This funding enables the agency to 
carry out its mission to protect and promote good health and to assure 
that research findings are translated into effective State and local 
programs. CDC's programs are crucial to the health of millions of 
Americans, a key to maintaining a strong public health infrastructure, 
and essential in protecting us from threats to our health.
    The National Center for Health Statistics (NCHS), housed within 
CDC, provides critical information to guide actions and policies to 
improve the health of the American people. NCHS data document the 
health status of the U.S. population and identify disparities in health 
status and the use of health care by race/ethnicity, socioeconomic 
status, region, and other population characteristics. New demands for 
health information exceed the capacity of our current data systems. At 
few points in recent history has the need for information been greater.
    Stagnant and reduced funding throughout most of the last decade has 
forced significant reduction in some of the NCHS' most important 
monitoring tools. Since fiscal year 2005, NCHS has lost $13 million in 
purchasing power due to a combination of flat funding and inflation. As 
a result, key NCHS programs are in jeopardy. For example, NCHS lacks 
resources to collect a full year's worth of vital statistics from 
States. Without at least $3 million in additional funding, we will 
become the first industrialized Nation unable to continuously collect 
birth, death, and other vital information. Funding shortfalls are also 
preventing the collection of data on many other key health care issues.
    As a member of the Friends of NCHS, COSSA supports the Friends 
recommendation of a fiscal year 2008 funding level of $117 million for 
the agency, an increase of just $8 million over fiscal year 2007.

               THE INSTITUTE OF EDUCATION SCIENCES (IES)

    Improving the education of our children may be the most widely 
shared priority in the United States today. Support for other issues 
may come and go, but recognition of the importance of education and the 
government's opportunity to improve the state of education in our 
Nation seems only to grow. Indeed, through No Child Left Behind (NCLB), 
the President has made education his top domestic priority. Members 
from both sides of the aisle have offered legislation to reform and 
improve the educational system. Yet after the legislation passes, what 
will guide the policies that underlie the education our children 
receive? Most people, including the current administration, would agree 
that what should guide education policy is what works best. We can 
accomplish finding what works best through impartial, scientific 
research that evaluates the efficacy of programs in an objective, 
systematic way and subjects findings to public scrutiny and scientific 
peer review.
    The Education Sciences Reform Act of 2002 reauthorized the 
Department's educational research, statistics, and assessment 
activities and placed them in the newly created IES. A cornerstone of 
the administration's NCLB initiative is investment in research to 
identify effective instructional and program practices, as well as data 
collection needed to track student achievement and measure education 
reform. The new structural and management reforms underway at IES 
insure that the Federal investment in education research is well 
managed and relevant to the needs of educators and policymakers.
    The $162.5 million request for research, development, and 
dissemination would support IES-sponsored education research, 
development, and dissemination, and the funding of discretionary grants 
and contracts that support directed and field-initiated research. The 
request would also include funding for the What Works Clearinghouse, 
which provides evidence-based information for policymakers, 
researchers, and educators on promising approaches and interventions, 
the National Library of Education, and the Education Research 
Information Clearinghouse (ERIC). COSSA supports increasing this amount 
to $180 million. This funding increase would enable IES to continue to 
support a diverse portfolio of directed and field-initiated research, 
including its eight national research and development centers. To 
strengthen the education research enterprise, new opportunities are 
needed for investigator-initiated studies that move the field forward 
with innovative methods and research ideas.
    The $29 million increase for the National Center for Education 
Statistics (NCES), which COSSA strongly supports, would allow it to 
conduct a pilot study on the development of a postsecondary student 
level data system that is essential for computing postsecondary 
completion rates and measuring the true costs of higher education. 
Funds also would support a new secondary school longitudinal study, 
scheduled to begin in 2007, which will follow a ninth grade cohort 
through high school and college.
    Assessment is a critical part of the President's education plan No 
Child Left Behind (NCLB). The fiscal year 2008 budget request includes 
funding NAEP and the National Assessment Governing Board. The $23.5 
million increase, which COSSA supports, will allow the Department to 
complete preparations for implementing State-level assessments at the 
12th grade level in 2009.
    Part of the NCLB mission is closing the achievement gap. To this 
end, the President's budget would provide awards to enhance States' 
capacity for accurate reporting of high school graduation and dropout 
data, and to increase the capability of States to comply with Federal 
reporting requirements. The Statewide Data Systems program supports 
competitive awards to State educational agencies to foster the design, 
development, and implementation of longitudinal data systems that would 
enable States to use individual student data to enhance the provision 
of education and close achievement gaps. COSSA supports the proposed 
increase of $30 million for this activity in fiscal year 2008.

                      TITLE VI AND FULBRIGHT-HAYS

    The importance of knowing about foreign cultures, economies, 
histories, and politics, and the ability to speak other languages 
besides English is critical to functioning in today's world. On March 
27, the National Academies' released its report: International 
Education and Foreign Languages: Keys to Securing America's Future. The 
report concluded that the programs supported by the Department of 
Education--Title VI and Fulbright-Hays--were successful and useful and 
indicated that the country was getting internationally educated people 
at a small cost, because the universities are able to leverage the 
money from the Education Department. However, the report also proclaims 
that the funding for the Title VI and Fulbright-Hays programs has not 
kept up with the expanding pace of their mission as world conditions 
have changed dramatically.
    The historical under-funding of Title VI and Fulbright-Hays 
combined with expanding needs and rising costs have contributed to the 
Nation's shortfall in specialists today. As the Coalition for 
International Education (CIE), of which COSSA is a member, has pointed 
out funding for key Title VI/Fulbright-Hays programs is more than 30 
percent below the high point in fiscal year 1967. For example, only 
1,561 or 33 percent fewer Foreign Language and Area Studies fellowships 
were awarded in fiscal year 2007 compared to 2,344 in fiscal year 1967. 
Four years of level funding combined with across-the-board cuts since 
fiscal year 2003 have begun to erode the earlier gains. There is an 
urgent need to increase funding for these programs. COSSA supports the 
CIE's recommendation of a $132.6 million appropriation for fiscal year 
2008.
   javits fellowships and thurgood marshall legal opportunity grants
    COSSA supports increasing the funding for the Jacob Javits 
Fellowship Program, which provides graduate students with the funds to 
pursue advanced degrees in the social sciences, arts, and humanities. 
For many years the budget of this program has stagnated and in recent 
years across-the-board cuts have reduced a rather small budget even 
further. COSSA recommends funding at $12 million in fiscal year 2008. 
Providing student support for those pursuing degrees in these fields is 
important to the future of this country. America does not compete in a 
rapidly changing global environment by only supporting physicists and 
engineers!
    COSSA also supports the restoration of funding for the Thurgood 
Marshall Legal Opportunity Grants to help members of underrepresented 
groups prepare for a legal education. It is imperative that the legal 
profession look like the American we have become and are becoming. That 
means offering opportunities to those who need a leg up to obtain a 
legal education. COSSA recommends funding at $3 million in fiscal year 
2008.
    In conclusion, COSSA acknowledges the subcommittee's history of 
support for these critical programs that promote health, prevent 
disease, and help educate a new generation of students. We hope that 
support will continue in fiscal year 2008.
    Thank you for the opportunity to present our views.
                                 ______
                                 
               Prepared Statement of the COPD Foundation

                         AGENCY RECOMMENDATIONS

Department of Labor--Employment and Training Administration
    Training Demonstration to Employ Disabled Americans.--The 
Foundation recommends that the Department provide increased emphasis 
and support for training disabled Americans. The Chronic Obstructive 
Pulmonary Disease (COPD) Foundation initiative that trains COPD 
patients to work on a hotline that provides counseling and health 
referral information to COPD patients across the country is a project 
that uses technology based training, helps SSI and SDI recipients find 
employment, and helps meets documented job market demand. The 
Foundation urges favorable consideration of this and similar 
initiatives to train disabled Americans.
Center for Disease Control and Prevention--National Center for Chronic 
        Disease Prevention
    COPD Self Management Demonstration.--Chronic Obstructive Pulmonary 
Disease (COPD) is the fourth leading cause of death and is a chronic 
condition similar to diabetes that requires an aggressive self-
management in order to prevent continued deterioration, 
hospitalization, and costly medical interventions. In view of the 
increasing mortality, morbidity, and cost to the Nation's health care 
system, the Foundation urges CDC to demonstrate and validate 
intervention and training protocols that are needed to improve health 
outcomes and reduce health care costs for COPD patients. The Foundation 
urges CDC to work with leading health care organizations to develop and 
validate self management protocols.
Center for Disease Control and Prevention--National Center for Public 
        Health Informatics
    Increasing Awareness, Early Diagnoses, and Treatment for COPD.--The 
National Institutes of Health launched an information campaign in 
January, 2007 designed to increase awareness, diagnoses, and treatment 
for Chronic Obstructive Pulmonary Disease (COPD). COPD is a growing 
epidemic, the fourth leading cause of U.S. deaths, and affects 1 in 4 
Americans over the age of 45. More that 12 million people are currently 
diagnosed with COPD and it is estimated that another 12 million have it 
but remain undiagnosed despite recognizable symptoms and treatments 
that can control symptoms and prolong life. CDC is urged to collaborate 
with leading COPD health care organizations to support the effort to 
increase public awareness, early diagnosis, and treatment for COPD.
National Institutes of Health--National Heart, Lung, and Blood 
        Institute--Division of Lung Diseases
    Chronic Obstruction Pulmonary Disease.--Chronic Obstructive 
Pulmonary Disease (COPD) is a growing epidemic, the fourth leading 
cause of U.S. deaths, and affects one in four Americans over the age of 
45. In view of these trends, it is noted that only 10 percent of the 
Division of Lung Disease research portfolio is focused on COPD. The 
Foundation commends the Division of Lung Diseases for sponsoring 
several COPD workshops that have recommended additional research 
focused on the disease process, pathogenesis, and therapy and other 
recommendations. The Foundation recommends that the NHLBI aggressively 
pursue COPD research as recommended by these expert panels and convene 
a panel of leading researchers from across the country to create a COPD 
Research Action Plan to identify opportunities and to accelerate the 
pace of research.
    Mr. Chairman and members of the subcommittee thank you for the 
opportunity to submit testimony for the record on behalf of the COPD 
Foundation.

                          THE COPD FOUNDATION

    Established in 2004, the COPD Foundation has a clear mission: to 
develop and support programs, which improve the quality of life through 
research, education, early diagnosis, and enhanced therapy for persons 
whose lives are impacted by Chronic Obstructive Pulmonary Disease. 
Chronic obstructive pulmonary disease (COPD) is an umbrella term for a 
group of lung disorders that result in obstruction to airflow in the 
lung causing breathlessness. The four diseases classified under COPD 
are emphysema, chronic bronchitis, refractory asthma, and severe 
bronchiectasis. The COPD Foundation was established to speed 
innovations which will make treatments more effective and affordable. 
It also undertakes initiatives that result in expanded services for 
COPD patients and improves the lives of patients with COPD through 
research and education that will lead to prevention and someday a cure 
for this disease.
    The COPD Foundation is led by a diverse Board of Directors that 
includes patients with COPD, as well as some of the most recognized 
professionals involved in COPD clinical practice, research and patient 
care. Under the board's direction, the COPD Foundation has established 
policies based on industry best practices from the Better Business 
Bureau's Wise Giving Alliance and the National Health Council in areas 
of governance, accountability and transparency. The first of the COPD 
Foundation's research initiatives is a partnership with the Scarborough 
family for the Richard H. Scarborough Bronchiectasis Research Fund, 
aimed to support translational research to halt or reverse the airways 
destruction of bronchiectasis.

             COPD: FOURTH LEADING CAUSE OF DEATH AND RISING

    Chronic Obstructive Pulmonary Disease (COPD) was the fourth leading 
cause of death in 2003 based on the Centers for Disease Control and 
Prevention's final data, which attributes 126,382 deaths to COPD for 
the year. Given that figure, a person dies of COPD every 4 minutes, and 
because of the mechanisms of this devastating disease, he or she slowly 
suffocates to death over several years as airway obstruction and 
breathlessness increase. No one knows exactly how many people in the 
United States have this terrible disease, but estimates range from 12 
million diagnosed with another 12 million symptomatic, undiagnosed and 
at risk.
    The decreased ability to breathe causes severe physical and mental 
disability in afflicted individuals. In a 2004 survey, over 50 percent 
of patients said that their disease limited the amount or type of work 
they were able to do, and of those patients nearly 80 percent were 
unable to work at all due to their breathlessness. Many of these 
individuals would otherwise have the ability to continue working for 
many years.
    COPD cost the U.S. economy $32 billion in 2002 and it is estimated 
that 600 million people worldwide have the disease.

        THE MEDICAL NEEDS OF THE COPD COMMUNITY HAVE GONE UNMET

    While smoking is a predominant cause of COPD it is not the only 
cause. Other significant factors are second hand smoke, occupational 
dusts and chemicals, air pollution, and a genetic cause called alpha-1 
antitrypsin deficiency.
    The other leading causes of death have seen great improvements over 
the past several decades. While the mortality of COPD rose by 163 
percent from 1965-1998, the mortality of coronary heart disease 
decreased by 59 percent and the mortality of stroke decreased by 64 
percent.
    Yet this fourth leading cause of death is a hidden, silent killer. 
There is a lack of awareness among the public that coughing and 
breathlessness is not a normal sign of aging. Those diagnosed with this 
disease are quick to blame themselves and are ashamed of their disease 
because of the current societal stigma. Many lack the information for 
proper disease self-management, which could easily prevent 
exacerbations and thusly, many hospital and emergency room visits.
    Currently, the only therapy shown to improve survival is 
supplemental oxygen. There are other therapies that can improve 
symptoms but they do not alter the natural history of the disease.

                               DETECTION

    COPD is fairly easy to detect: in addition to symptoms of 
breathlessness, cough and sputum production, spirometry is a 
quantitative test that measures air volume and air flow in the lung and 
is relatively easy and inexpensive to administer.

                             COPD RESEARCH

    The COPD Foundation believes that significant Federal investment in 
medical research is critical to improving the health of the American 
people and specifically those affected with COPD. The support of this 
subcommittee has made a substantial difference in improving the 
public's health and well-being. While this is by no means an exhaustive 
list, the Foundation wishes to recognize and appreciate the efforts of 
the National Institutes of Health in creating the COPD Clinical 
Research Network, for conducting a COPD state of the science 
conference, and commends NHLBI for the national launch of the COPD 
Awareness and Education Campaign titled ``COPD Learn More Breathe 
Better''.
    Chronic diseases have a profound human and economic toll on our 
Nation. Nearly 125 million Americans today are living with some form of 
chronic condition. The Foundation recognizes that the Centers for 
Disease Control and Prevention understands that COPD is one of the only 
top 10 causes of death that is on the increase, however, COPD has not 
been designated the resources to be a major focus of the CDC. The 
Foundation urges the subcommittee to encourage the CDC to expand its 
data collection efforts and to expand programs aimed at education and 
prevention of the general public and health care providers.
    NIH and CDC: The Foundation requests that the National Institutes 
of Health in fiscal year 2008 receive an increase of 6.7 percent over 
fiscal year 2007 Joint Resolution Funding Levels. The COPD Foundation 
joins the Ad Hoc Group for Medical Research Funding, a coalition of 
some 300 patient and voluntary health groups, medical and scientific 
societies, academic research organizations and industry in making this 
recommendation. The fiscal year 2008 administration budget request for 
NIH is a $511 million cut (1.7 percent) below the final fiscal year 
2007 levels. If implemented, this funding level would mean NIH's 
ability to conduct and support life-saving research will be cut by more 
than 13 percent in inflation-adjusted dollars since fiscal year 2003. 
The NIH, National Heart Lung, and Blood Institute, National Institute 
of Allergy and Infectious Diseases and National Institute on Aging, 
should increase the investment in Chronic Obstructive Pulmonary Disease 
and the Centers for Disease Control and Prevention should initiate a 
Federal partnership with the COPD community to achieve the following 
goals:
  --Promotion of basic science and clinical research related to COPD;
  --Programs to attract and train the best young clinicians for the 
        care of individuals with COPD;
  --Support for outstanding established scientists to work on problems 
        within the field of COPD research;
  --Development of effective new therapies to prevent progression of 
        the disease and control symptoms of COPD;
  --Expansion of public awareness and targeted detection to promote 
        early diagnosis and treatment.
                                 ______
                                 
                Prepared Statement of the Corps Network

    The Corps Network (formerly the National Association of Service and 
Conservation Corps or NASCC) appreciates the opportunity to submit 
testimony to the subcommittee about the critical need for funding 
AmeriCorps and other national service programs in fiscal year 2008.
    We urge you to make much needed, and long overdue, investments in 
AmeriCorps and other national service programs supported by the 
Corporation for National and Community Service (CNCS).
    Specifically, we recommend that the subcommittee fund:
  --AmeriCorps State and National Grants at $312 million;
  --The National Service Trust at $143 million;
  --The National Civilian Community Corps (NCCC) at $26.7 million; and
  --AmeriCorps VISTA at $95 million.
    We believe that these funding levels would adequately support 
75,000 AmeriCorps members ands retain the historic balance between 
full- and part-time service.
    Established in 1985, The Corps Network is the voice of the Nation's 
113 Service and Conservation Corps. Currently operating in 41 States 
and the District of Columbia, Corps annually enroll more than 23,000 
young men and women who contribute 13 million hours of service every 
year. Corps annually mobilize approximately 125,000 community 
volunteers who contributed more than 2.4 million additional hours of 
service.
    Service and Conservation Corps are a direct descendent of the 
Civilian Conservation Corps (CCC) that built parks and other public 
facilities still in use today. Like the legendary CCC of the 1930s, 
today's Corps are a proven strategy for giving young men and women the 
chance to change their communities, their own lives and those of their 
families. Service and Conservation Corps provide a wealth of valuable 
conservation, infrastructure improvement and human service projects. 
Some Corps tutor and some fight forest fires. Others complete a wide 
range of projects on public lands. Still others improve the quality of 
life in low-income communities by renovating deteriorated housing, 
engaging in environmental restoration, creating parks and gardens and 
staffing after-school programs.
    Service and Conservation Corps serve young people who are most in 
need. Since 1985, approximately 600,000 young people have completed 
service in our Nation's Service and Conservation Corps. Approximately 
57 percent of our Corpsmembers are young people of color, 64 percent 
come from families with income below the poverty line, at least 30 
percent have had previous court involvement and at least 10 percent 
have been in foster care. More than half of all Corpsmembers enroll 
without a high school diploma.
    Today's Corps are a proven strategy for giving young men and women, 
many of whom are economically or otherwise disadvantaged and out-of-
work or out-of-school, the chance to change their own lives and those 
of their families, as well as improve their communities. Corps 
represent the country's largest full-time, non-federal system for youth 
development.
    I would like to share with you three examples of why AmeriCorps 
funds are so important to our Nation. The Corps Network administers 
three AmeriCorps programs, the Gulf Coast Recovery Corps, the Civic 
Justice Corps and RuralResponse that address important societal 
problems through service.
    The AmeriCorps Gulf Coast Recovery Corps:
  --Assists residents impacted by the devastation of Hurricane Katrina 
        and Rita in the long-term recovery efforts along the Gulf Coast 
        of Mississippi.
  --Deploys crews of young people (ages 18-25) from the Nation's 113 
        Service and Conservation Corps for 4-week projects that include 
        rebuilding homes and structures, chopping down damaged trees 
        near homes, removing debris, restoring trails, replanting marsh 
        grass and trees, performing environmental restoration and other 
        projects.
  --Brings a total of 300 trained and semi-skilled volunteers to the 
        region through the summer of 2007.
  --Partners with the Hancock County Long-Term Recovery Committee, 
        Mississippi Commission for Volunteer Service, St. Rose Delima 
        Catholic Church in Bay St. Louis, Mississippi State Parks, U.S. 
        Fish and Wildlife Service and other local and national 
        organizations working in the region.
  --Builds on the tradition of Corps helping communities recover from 
        natural disasters, including the San Francisco earthquake in 
        1989, Hurricane Andrew in 1992, the Mississippi River floods in 
        1993 and the aftermath of other major hurricanes, floods, 
        tornadoes, and wildfires.
  --Will pave the way for a permanent Mississippi Corps, funded in part 
        by the Mississippi Commission for Volunteer Service, to engage 
        local young people in the recovery efforts.
  --Is funded by the Corporation for National and Community Service's 
        Federal AmeriCorps program.
    The Civic Justice Corps (funded by AmeriCorps and the Department of 
Labor):
  --Re-engages court-involved youth and young adults, not less than 50 
        percent who have been incarcerated, in their communities, the 
        workforce, education and society as a whole, with the goal of 
        reducing recidivism by at least 20 percent.
  --Empowers Corpsmembers through a variety of service projects that 
        meet critical community needs.
  --Creates a support system that begins in the corrections facility, 
        continues through the time in the Corps and extends 12 months 
        after the Corps experience.
  --Formalizes effective working relationships with justice agencies, 
        employers and other partners.
  --Enables Corpsmembers to earn a high school diploma or GED while 
        preparing for careers in high-growth industries or 
        opportunities in post-secondary education.
  --Draws on the experience of Corps which enroll nearly 5,000 court-
        involved youth each year.
  --Represents a partnership between the Cascade Center for Community 
        Governance, the Open Society Institute, the JEHT Foundation and 
        The Corps Network.
  --Is funded by AmeriCorps in the following sites: Bend, OR; 
        Charleston, SC; Washington, DC.
  --Is funded by the U.S. Department of Labor in the following sites: 
        Austin, TX; Camden, NJ; Denver, CO; Fremont, OH; Fresno, CA; 
        Madison, WI; Miami, FL; Oakland, CA; Sacramento, CA; San Diego, 
        CA and Wheaton, MD.
    The RuralResponse AmeriCorps Program:
  --Enables Service and Conservation Corps to bolster homeland security 
        and disaster response capacity in underserved rural communities 
        by filling gaps in rural emergency response networks.
  --Engages young people (ages 16-25) each year in disaster response as 
        well as traditional service and conservation projects to meet 
        the needs of rural communities.
  --Trains Corpsmembers in specific disaster preparedness and response 
        activities such as first aid, adult and child CPR, mass care, 
        use of global positioning systems (GPS), shelter operations, 
        hazardous materials removal, chain saw safety and use and 
        wildfire suppression.
  --Prepares Service and Conservation Corps for long-term engagement 
        with existing disaster response and preparedness efforts in 
        rural communities.
  --Provides a minimum wage based living allowance and an AmeriCorps 
        Education Award (scholarship) of up to $4,725 per Corpsmember.
  --Requires a 33 percent non-federal match by Service and Conservation 
        Corps.
  --Is funded by AmeriCorps at $3.6 million over 3 years in the 
        following sites: Minnesota Conservation Corps, Quilter Civilian 
        Conservation Corps (Fremont, OH), Vermont Youth Conservation 
        Corps and Youth Conservation Corps, Inc. (Waukegan, IL).
    Our work in the Gulf Coast Recovery Corps, the Civic Justice Corps 
and Rural Response embodies many of AmeriCorps' core principles 
including:
  --Using service in creative ways to meet needs that would otherwise 
        go unmet;
  --Relying on public-private partnerships and using public dollars to 
        attract private funds;
  --A bottom-up structure in which the local community determines the 
        projects on which we work;
  --Communities demonstrate their support for projects by helping Corps 
        meet AmeriCorps' matching requirements;
  --Partnering with local government, State, and Federal land 
        management agencies and local nonprofit organizations, 
        including faith-based groups;
  --Providing an opportunity for all Americans to serve and 
        reconnecting disconnected youth to their communities by 
        insuring that Corpsmembers learn life skills and job skills 
        that enhance their employability; and
  --Using the AmeriCorps Education Award to make higher education 
        accessible to thousands of young people for whom it would 
        otherwise be too costly.
    While it is difficult to describe the ``typical'' Corps, successful 
Corps share common core elements. They:
  --Rely on a model in which adult leaders serve as mentors, role 
        models, technical trainers and supervisors for crews of 8-12 
        Corpsmembers;
  --Provide Corpsmembers with a minimum-wage based living allowance;
  --Offer classroom training to improve basic competencies, a chance to 
        earn a GED or high school diploma, experiential and 
        environmental service-learning-based education, generic and 
        technical skills training, a wide range of support services, 
        and, in many cases, an AmeriCorps post-service educational 
        award of up to $4,725.
  --Build on Corpsmembers' strengths to provide an environment in which 
        every Corpsmember can experience success. They offer consistent 
        contact with a caring adult, stress leadership development, 
        creative problem-solving, and the ability to work as a member 
        of a team; and
  --Provide Corpsmembers a ``second chance'' to succeed in life and 
        focus youth on the future.
    A 1997 Abt Associates/Brandeis University random assignment study 
concluded that Youth Service and Conservation Corps are an invaluable 
resource for young people. According to the study, Corps generate a 
positive return on investment and the youth involved were positively 
affected by joining a Corps. The report documents that:
  --Significant employment and earnings accrue to young people who join 
        a Corps;
  --Positive outcomes are particularly striking for African-American 
        men;
  --Arrest rates drop by one third among all Corpsmembers; and
  --Out-of-wedlock pregnancy rates drop among female Corpsmembers.
    Abt Associates documents several factors to which the effectiveness 
of Corps is attributed including:
  --Comprehensiveness of services;
  --Supportive and dedicated program staff;
  --Quality of the service projects;
  --Intensity of the service experience; and
  --Corpsmembers have access to an expanded social network.
    It is critical for CNCS to have sufficient resources to ensure that 
participants in national service programs are able to continue their 
crucial work. Restoring our investment in AmeriCorps State and 
National, the National Service Trust, AmeriCorps*NCCC and 
AmeriCorps*VISTA, will allow more Americans of all ages and backgrounds 
to serve and create greater capacity to meet critical community needs.
    Thank you for your consideration of these requests. If you have any 
questions, please do not hesitate to contact me at (202) 737-6272 or at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a595a58455f5e536a4945585a59444f5e5d4558410445584d04">[email&#160;protected]</a>
                                 ______
                                 
      Prepared Statement of the Council of State and Territorial 
                            Epidemiologists

 PUBLIC HEALTH WORKFORCE: INCREASING STATE AND LOCAL EPIDEMIOLOGY AND 
                          LABORATORY CAPACITY

Recommendations
  --$5 million for the Office of Workforce and Career Development to 
        support 65 CDC/Council of State and Territorial Epidemiology 
        (CSTE) first year applied epidemiology fellows.
  --$2 million increase for the National Center for Infectious Diseases 
        to support 35 CDC/Association of Public Health Laboratories 
        (APHL) applied research training fellows.
    Building a strong public health infrastructure, particularly a 
trained public health workforce with sufficient epidemiologists and 
public health laboratory scientists--core public health professionals, 
will take a sustained commitment of resources over a long period of 
time.
    The disciplines of epidemiology and laboratory science are the 
pillars of public health practice. States and local communities have 
come to rely on public health epidemiologists and laboratory scientists 
to investigate, monitor, and respond aggressively to public health 
threats. Every State's residents have become familiar with the 
``disease detectives'' who communicate risks and provide preventive 
recommendations during incidents such as the recent outbreak of E. coli 
in spinach, seasonal influenza, West Nile virus, and epidemics of 
obesity, diabetes, HIV/AIDS and a host of other serious threats the 
public has experienced during recent years. The 2006 CSTE National 
Assessment of Epidemiologic Capacity shows the number and the level of 
training of epidemiologists is perceived as seriously deficient in most 
States. Federal funding has increased the number of epidemiologists 
engaged in bioterrorism preparedness since 2002, but has done so at the 
expense of State environmental health, injury and occupational health 
activities--shifting epidemiologists from these activities to Federal 
bioterrorism preparedness priorities. Those engaged in chronic disease 
activities have increased since 2002, but are still viewed as too low 
in number and training. According to the 2003 Institute Of Medicine 
report, Microbial Threats to Health: Emergence, Detection, and 
Response, rebuilding domestic public health capacity was among its 
highest recommendations for addressing both diseases occurring 
naturally and intentional release of microbial agents.
    Efforts under the leadership of CDC have been made to begin 
addressing these gaps. CDC is supporting training fellowship programs 
for epidemiologists and laboratory scientists who are expected to 
increase State capacity and provide future leadership in these 
professions. CSTE applauds these efforts and proposes aggressive 
expansion of existing state-focused programs to increase the number of 
epidemiologists and public health laboratory scientists at State and 
local health departments. The proposed fiscal year 2008 increase will 
provide CSTE and APHL with the resources to accelerate much needed 
expansion of the State and local workforce in these critical 
disciplines.
    States and localities will benefit through increased numbers of 
highly trained epidemiologists and laboratory scientists entering 
employment through training programs that include the following 
characteristics:
  --national recruiting through a partnership between CSTE and the 
        Association of Schools of Public Health;
  --orientation and training course with CDC, CSTE, and APHL faculty;
  --applicant pool for State and local positions with adequate time to 
        evaluate job performance;
  --a structured, individualized training curriculum for each fellow; 
        and
  --technical and administrative support for fellows and State mentors.
    The capacity and leadership legacy of these state-based programs is 
intended to be modeled on the success of the Epidemic Intelligence 
Service and provide States and localities with epidemiology and 
laboratory leadership for the future.
  strengthening capacity in four critical public health program areas
Preparing for an Influenza Pandemic
    Fiscal year 2006 State and Local pandemic influenza preparedness 
funding is being used to: (1) create and implement, including 
exercising, emergency pandemic plans; (2) conduct integrated disease 
surveillance; (3) fund laboratory testing of influenza strains; (4) 
inform the public; (5) manage distribution of vaccine and antiviral 
medications; (6) plan for alternative facilities in the event of 
hospital capacity excess; (7) track vaccine and antiviral use; (8) 
document adverse outcomes from influenza-related medications. Continued 
funding at the level of $250 million in fiscal year 2008 will support 
these activities and help ensure that our health system is ready for 
the seasonal influenza epidemics and a potentially catastrophic 
influenza pandemic.
Epidemiologic-Laboratory Capacity (ELC Cooperative Grant Program)
    CSTE strongly supports a $53 million increase for the 
Epidemiologic-Laboratory Capacity program at the CDC for fiscal year 
2008. This increase will be instrumental in implementing the CDC plan 
Preventing Emerging Infectious Diseases: A Strategy for the 21st 
Century. This program, which supports health departments in 50 States 
and 6 highly populated cities/counties, was developed to repair the 
deteriorated surveillance and response capacity for emerging infectious 
diseases in health departments nationwide. Funds build capability to 
detect, diagnose, and prevent diseases caused by food, water and vector 
borne infections, vaccine preventable disease, and drug resistant 
infections. The early detection and prompt response to West Nile virus 
(WNV) in 2000 can be attributed to the foundations laid by this 
cooperative grant program. Funding reductions, beginning in 1998, have 
compromised the mission of this program and may contribute to a 
weakened ability to detect and respond to future disease threats. CSTE 
is very disappointed that the President's fiscal year 2008 budget cuts 
WNV funding by 45 percent. In an effort to maintain and build public 
health capacity, CSTE supports full funding ($110 million) for the ELC 
cooperative grant program in fiscal year 2008.
Terrorism Preparedness
    State and Local CDC Terrorism Preparedness Grants are used to 
fortify health department ability to detect and investigate disease 
occurrence, evaluate infectious outbreaks, and rapidly access, exchange 
and disseminate relevant information. Funding also provides surge 
capacity for personnel and supplies that will be needed in the event of 
a terrorist attack. In fiscal year 2006, funding was cut by $100 
million and remained at that level for fiscal year 2007. The 
President's fiscal year 2008 budget cuts funding further by $125 
million. While health departments nationwide have made good progress in 
emergency preparedness, these funding cuts have led to a decreased 
epidemiology and laboratory capacity due to downsized personnel that 
were paid with these funds. Further staff reduction, and concomitant 
reduction in surveillance performed, will leave our Nation's public 
health system unable to provide bioterrorism threat surveillance and 
response. CSTE recommends full funding at the fiscal year 2005 level--
$919.1 million.
Preventive Health--Health Services (PHHS) Block Grant
    CSTE is disappointed that the President's fiscal year 2008 budget, 
once again, eliminates all funding for the PHHS Block Grant and urges 
restoration of funding to the fiscal year 2005 level of $131 million. 
This grant program was developed to allow States flexible use of funds 
to support objectives identified at the local level. For example, a 
city with increasing incidence of whooping cough (Bordatella pertussis) 
would be able to use funds to intensively track cases and prevent 
spread of the disease. Other cities or States may use funds to address 
their region-specific disease trends, such as injection drug related 
morbidity, sexually transmitted disease, mother-to-child diseases, or 
hantavirus. Because of the variation in disease prevalence across our 
diverse Nation, flexible funding with local allocation capacity is 
necessary to achieve detection, prevention, and community outreach 
tasks for Americans. CSTE recommends restoration of the PHHS block 
grant to $131 million to limit the extent of local disease epidemics 
spreading to becoming national disease threats.

               SURVEILLANCE ISSUES: FIVE CSTE PRIORITIES

    Epidemiologists working in public health agencies are responsible 
for monitoring trends in health and health problems, and devising 
prevention programs that support healthy communities. Surveillance is 
the foundation for developing a public health response to any disease 
threat--be it infectious, chronic, environmental, occupational, or 
injury. Surveillance is useful in (1) determining which segments of the 
population are at highest risk; (2) identifying changes in disease 
incidence rates; (3) determining modes of transmission; and (4) 
planning and evaluating disease prevention and control programs. For 
fiscal year 2008, CSTE urges Congress to provide the following 
increased resources for expanding surveillance of key diseases, injury 
and environmental health areas:
    Behavioral Risk Factor Surveillance Survey (BRFSS).--Administered 
by CDC's Center for Chronic Disease Prevention, Health Promotion, and 
Genomics, the BRFSS is a primary source of information used to guide 
intervention, policy decisions, and budget direction at the local, 
State, and Federal level for multiple health conditions and chronic 
diseases. An increase in funding by $10 million, to $18 million, is 
needed to fully implement the survey. BRFSS is the primary source of 
information for leading health indicators for 6 areas in Health People 
2010. As our Nation moves towards evidence based medicine and funding, 
our data source needs to be comprehensive enough to accurately reflect 
the health of our population. Further congressional support will 
improve data collection infrastructure, timely reporting, and 
sophisticated analysis to provide data in meaningful ways to end users 
nationwide.
    HIV/AIDS Surveillance.--Cooperative Agreement funding to State and 
Local health departments for HIV/AIDS surveillance is critical to 
prevent new HIV infections, thereby saving an estimated $195,000 in 
lifetime treatment costs per individual. HIV/AIDS incidence is 
increasing without commensurate increases in Federal spending for 
surveillance. CSTE urges an increase of $35 million, to $101.3 million, 
for the surveillance cooperative agreements in CDC's HIV/AIDS 
Prevention budget (total recommendation $1,049.2 million) to address 
increasing HIV/AIDS incidence.
    National Violent Death Reporting System (NVDRS).--Fifty thousand 
deaths per year in the United States are attributable to violence. The 
National Center for Injury Prevention and Control (NCIPC) has developed 
the NVDRS to collect data related to these deaths for use in 
development of targeted prevention and early intervention programs. 
Seventeen States currently are equipped with NVDRS, however increased 
funding will help distribute the program and personnel to all States 
and strengthen our Nation's ability to collect the data that will 
ultimately result in reduction in violent deaths. CSTE urges an 
increase in funding from $3.4 million to $10 million for NVDRS, 
administered by CDC's NCICP (total $168 fiscal year 2008 request).
    Occupational Safety and Health State-Based Surveillance (NIOSH 
Program Announcement PAR 04-106).--In fiscal year 2005 NIOSH funded 12 
States to establish Occupational Safety and Health programs that use 13 
occupational health indicators to measure the burden of workplace 
injury and illness and make recommendations for prevention. This 
successful program should be expanded to all 50 States to establish a 
nationwide system to prevent major injuries and illnesses caused by 
hazardous work conditions. An increase in funding to $12.5 million, 
within the $300 million NIOSH budget request, will allow the expansion 
of this occupational surveillance to all States.
    Environmental Health Tracking Grants.--There is no national 
surveillance system to investigate possible links between environmental 
exposures and a number of diseases and health conditions, as noted in 
the PEW Environmental Health Commission's report, America's 
Environmental Health Gap: Why the Country Needs a Nationwide Health 
Tracking Network. Most States have little capacity for tracking 
environmental health. Since fiscal year 2002, Congress has recognized 
the need for increased environmental health capacity with funding, 
however a significant increase is needed to ensure that all States have 
the ability to track disease occurrence and adverse health conditions 
and their possible linkages to environmental toxins and hazards (such 
as the link between asbestos and mesothelioma). Funding at the $100 
million level will strengthen our nations resolve to identify harmful 
environmental exposures and eliminate the disease burden caused by 
them.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation

    On behalf of the Cystic Fibrosis Foundation, and the 30,000 people 
with cystic fibrosis (CF), I am pleased to submit the following 
testimony regarding fiscal year 2008 appropriations for cystic 
fibrosis-related research at the National Institutes of Health (NIH) 
and other agencies.

                         ABOUT CYSTIC FIBROSIS

    Cystic fibrosis is a life-threatening genetic disease for which 
there is currently no cure. People with CF have two copies of a 
defective gene that causes the body to produce abnormally thick, sticky 
mucus, which clogs the lungs and result in fatal lung infections. The 
thick mucus in those with CF also obstructs the pancreas, causing 
patients difficulty in absorbing nutrients in food.
    The common symptoms of CF include chronic cough, wheezing or 
shortness of breath, excessive appetite but poor weight gain, and 
greasy, bulky stools. CF symptoms vary from patient to patient, due to 
the fact that there are more than 1,000 mutations of the CF gene.
    Since its founding, the Cystic Fibrosis Foundation has maintained 
its focus on promoting research and improving treatments for CF. CF has 
been significantly transformed from a childhood death sentence into a 
chronic disease, which requires a rigorous daily regimen of therapy. 
Treatments for individuals with CF include enzymes that aid digestion, 
antibiotics to treat lung infections, and daily therapy to loosen the 
mucus in the lungs. Strict adherence to CF treatments improves the 
health status and quality of life for those with CF, but the regimen 
can be a daily challenge for patients and their families.
    Through the research leadership of the Cystic Fibrosis Foundation, 
the life expectancy of individuals with CF has been boosted from less 
than 6 years in 1955 to nearly 37 years in 2005. Today, 43 percent of 
people with CF are 18 or older. This improvement in the life expectancy 
for those with CF can be attributed to research advances, which I will 
discuss in some detail later, and to the teams of CF caregivers who 
offer specialized care of the highest quality. This improvement in life 
expectancy is important, but we continue to loose young lives to this 
disease. Our progress is not nearly sufficient for those living with CF 
and their families, friends, and caregivers.
    The promise for those with CF is in research. In the past 5 years, 
the Cystic Fibrosis Foundation has invested over $595 million in its 
medical programs of drug discovery, drug development, research, care 
and drug delivery aimed at life-sustaining treatments and a cure for 
cystic fibrosis. But a greater investment is necessary to accelerate 
the pace of discovery of CF therapies. This statement focuses on the 
investment that will be required to develop new CF treatments rapidly 
and efficiently and to encourage research on a cure.

        SUSTAINING THE FEDERAL INVESTMENT IN BIOMEDICAL RESEARCH

    This subcommittee and Congress are to be commended for their 
steadfast support for biomedical research, and their commitment to the 
National Institutes of Health (NIH), including the effort to double the 
NIH budget between fiscal year 1999 and fiscal year 2003. This 
impressive increase in funding resulted in a revolution in medical 
research, fueling discoveries that benefit all Americans.
    However, we risk losing the research momentum the doubling 
generated if we fail to adequately fund the NIH so that they can 
capitalize on scientific advances. The Cystic Fibrosis Foundation joins 
the Ad Hoc Group for Medical Research to recommend increasing the NIH 
budget by at least 6.7 percent in fiscal year 2008. This investment 
will help maintain the NIH's ability to fund essential biomedical 
research today that will provide tomorrow's care and cures.

                STRENGTHEING OUR RESEARCH INFRASTRUCTURE

    It is now vital to assess our ability to translate the basic 
research advances of the last decade into treatment advances. The 
Cystic Fibrosis Foundation has been recognized for its own research 
approach to encompass many types of research, from basic research 
through Phase III clinical trials, and has created the infrastructure 
required to accelerate the development of new CF therapies. As a 
result, we now have a pipeline of more than 25 potential therapies that 
are being examined to treat people with CF. Several drugs in this 
pipeline treat the basic defect of CF, while others attack the symptoms 
of the disease.
    The NIH Roadmap for Medical Research provides the opportunity for 
the NIH to translate research into treatments for people with disease. 
We applaud Congress for its leadership and support for the NIH's 
Roadmap, which mirrors the Cystic Fibrosis Foundation's own approach to 
support and rewards innovation throughout the research process.
    Cystic fibrosis is a disease which impacts multiple systems in the 
body, and as a result, several different institutes at NIH share 
responsibility for CF research. Having multiple responsible institutes 
presents roadblocks to CF research in that there can be imperfect 
communication among the institutes regarding research in the field. 
This can limit our ability to capitalize on all research opportunities. 
Moreover, multidisciplinary research approaches, of the sort we believe 
are most promising in CF, may be disadvantaged in the NIH system of 
review and funding.
    The Cystic Fibrosis Foundation applauds NIH leaders for encouraging 
multidisciplinary research and Congress for directing resources to the 
Common Fund to finance multidisciplinary research projects. Funding 
pioneering multidisciplinary research is critical, but the Common Fund 
is also important in intangible ways, such as encouraging communication 
among researchers, placing a high value on trans-institute research, 
and breaking down barriers to communication and collaboration between 
institutes. We urge sufficient funding for such a multidisciplinary 
approach, which is most responsive to the research needs of complex 
diseases like CF.

                     FACILITATING CLINICAL RESEARCH

    The Cystic Fibrosis Foundation applauds the efforts of NIH to 
encourage greater efficiency in clinical research. The Foundation has 
been a pioneer in creating a clinical trials network to achieve greater 
efficiency in clinical investigation. Our pioneering effort in clinical 
trials emerged from the necessity of a small patient population for the 
number of trials we are undertaking and because our patients literally 
cannot tolerate research delays. Yet we believe that our model should 
be adopted and adapted by others. We have a permanent network of 
clinical trial sites and have centralized and coordinated data 
management and analysis functions and data safety monitoring. Among the 
results of this outstanding network--called the Therapeutics 
Development Network--are the ability to achieve rapid accrual to trials 
and the ability to conduct multiple trials simultaneously, even in a 
population of 30,000 CF patients. Since the TDN's inception, it has 
conducted over 40 trials. Of course, the ultimate goal of a centralized 
clinical trials system is the acceleration of the therapeutic 
development process.
    Although we have achieved significant efficiencies in our clinical 
trials system, we still encounter substantial slowdowns in the review 
of our multi-institutional trials by the institutional review boards 
(IRBs) of each of the institutions participating in the trials. We 
encourage Congress to urge the Department of Health and Human Services 
to demonstrate more aggressive leadership in persuading academic 
institutions to accept review by a central IRB--without insisting on 
parallel and often duplicative review by their own IRB--at least in the 
case of multi-institutional trials in rare diseases.
Pursuing New Therapies: The Cystic Fibrosis Therapeutics Development 
        Network
    The Cystic Fibrosis Foundation requests the committee allocate $3 
million in Federal funding in fiscal year 2008 to support much-needed 
expansion of our clinical research program, the Therapeutics 
Development Network (TDN), through the Coordinating Center at 
Children's Hospital & Regional Medical Center in Seattle, Washington. 
This will provide a significant investment in the Cystic Fibrosis 
Foundation's ongoing efforts to meet the demand for testing of all the 
promising new therapies for cystic fibrosis.
    Designating Federal funding for the Cystic Fibrosis Therapeutics 
Development Network will accelerate testing of new therapies for CF. 
The TDN plays a pivotal role in accelerating the development of new 
treatments to improve the length and quality of life for cystic 
fibrosis patients. Since the Cystic Fibrosis Foundation established 
this program in 1998, the TDN has evaluated 12 new products, with seven 
more products now in clinical trials. Opportunities exist to pursue 10 
additional trials on drug candidates in the next 18 months.
    The CF Foundation has adopted an innovative business approach to 
drug discovery and development that is emulated by other nonprofits. 
Lessons learned from centralization of data management and analysis and 
data safety monitoring in the TDN will be useful in designing clinical 
trial networks in other diseases. Federal funding to support the TDN 
will provide special insights regarding the most efficient means of 
conducting clinical trials on orphan diseases.
National Center for Research Resources
    The Institutional Clinical and Translational Science Awards program 
is an initiative of particular importance to cystic fibrosis. This NIH 
Roadmap program administered by the National Center for Research 
Resources (NCRR) encourages novel approaches to clinical and 
translational research, enhances the utilization of informatics and 
strengthens the training of young investigators. The Cystic Fibrosis 
Foundation has enjoyed a productive relationship with the NCRR to 
support our vision for improving clinical trials capacity through its 
early financial support of the TDN.

                  SUPPORTING ADDITIONAL RESEARCH AREAS

    While much of this testimony has focused on clinical research, 
these new therapies rely on solid basic research. Although the 
discovery of the CF gene in 1989 was an important step forward, there 
is still much to be learned about the disease. As a result, the CF 
Foundation continues to invest in basic research on the disease to 
deepen our knowledge of CF and to better understand how we may 
intervene in the disease course. There are several research projects at 
NIH that are essential to this work, and for which we express our 
strong support.
Protein Misfolding and Mistrafficking
    The Cystic Fibrosis Foundation urges the NIH to devote special 
focus to research in protein misfolding and mistrafficking, an area 
which may yield significant benefits for CF and other diseases where 
misfolding is an issue. We applaud both the National Heart, Lung and 
Blood Institute (NHLBI), and the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK) for their initiatives that target 
research on protein misfolding, and urge an aggressive commitment to 
facilitate continue exploration in this area to build upon promising 
discoveries. Additionally, we urge funding by the National Institute of 
General Medical Sciences (NIGMS) for the creation of tools and reagents 
and advances in techniques for precision monitoring of folding and 
trafficking events and for the sharing of resulting data that would 
complement the efforts of NIDDK- and NHLBI-funded investigations in 
this area.
    On behalf of the Cystic Fibrosis Foundation, I thank the committee 
for its consideration. Congress has reason to be proud of its role in 
supporting NIH, which is the world's leader in biomedical research. The 
NIH has strong leadership to move into the new century, when we will 
see the translation of basic research into new treatments for many 
diseases. We believe the experience of the CF Foundation in clinical 
research can serve as a model for research on other orphan diseases, 
and we stand ready to work with NIH and congressional leaders.
                                 ______
                                 
              Prepared Statement of the Endocrine Society

    The Endocrine Society would like to submit the following testimony 
regarding fiscal year 2008 Federal appropriations for biomedical 
research, with emphasis on appropriations for the National Institutes 
of Health. The Endocrine Society is the world's largest and most active 
professional organization of endocrinologists representing over 14,000 
members worldwide. Our organization is dedicated to promoting 
excellence in research, education, and clinical practice in the field 
of endocrinology. The Society is comprises thousands of researchers who 
depend on Federal support for their careers and their scientific 
advances.
    In April 2004 the Endocrine Society testified before the House 
Appropriations Committee. During this testimony the Society provided 
the committee with a grim picture of what might happen to NIH-funded 
research if the financial commitment made during the doubling period 
(1998-2003) was not sustained. Our testimony indicated that 
breakthroughs in areas of endocrine research--such as diabetes and 
obesity--were on the horizon after the doubling period, but that the 
breakthroughs were in jeopardy of being abandoned due to sharp 
decreases in NIH funding from Congress. Unfortunately, it seems our 
prognostication was correct.
    Included as an addendum (Addendum A) to this testimony is an 
excerpt from a compelling article that appeared in the April issue of 
Men's Health magazine. Highlighted within this article is the story of 
Endocrine Society member, Alan Schneyer, Ph.D. This article examines 
the real life impact that reduced funding for NIH has on the Nation's 
researchers and their potential breakthroughs. Dr. Schneyer has been 
working in the field of endocrine research and has made promising 
discoveries that could lead to future diabetes treatments. But as of 
April 2007 his lab, his research, and his employees have been shut down 
because his grant will no longer be funded. The great promise hoped for 
in 1997, at the beginning of the doubling period, has led to closed 
labs and unemployed scientists in 2007.
    A simple glance at NIH funding trends over the last few years will 
show how this great promise led to great disappointment. Under the 
President's proposed fiscal year 2008 budget most NIH institutes and 
centers would see their budgets remain flat for the fourth year in a 
row. The proposed fiscal year 2008 NIH budget of $28.7 billion would be 
down $230 million from the recently finalized fiscal year 2007 budget. 
Worse yet, the NIH budget would fall 12 percent from 2004 to 2008 when 
adjusted for biomedical research inflation.
    This funding downturn not only has a drastic impact on existing 
researchers such as Dr. Schneyer, but it is having a profound effect on 
future researchers as well. NIH projects the success rate for new 
renewal grant applications will stabilize at 20 percent in 2007 and 
2008, down steeply from a high of 32 percent in fiscal year 2001. 
According to the American Association for the Advancement of Science, 
NIH expects to fund 1 in 5 applicants who apply for research funding in 
2008. During the height of the doubling period NIH funded 1 in 3 
applicants. As you can imagine, these trends send a chilling message to 
young researchers who were drawn to biomedical research during the 
doubling period. After years of steady support for biomedical research 
over the last decade, many young people were drawn into research labs, 
but now Federal funds are declining. As the funding declines, so too 
does the opportunity for young researchers. NIH is trying to address 
this issue with its Pathways to Independence program. This program 
would provide up to 5 years of support for scientists just beginning 
their research careers. We would encourage the committee to fully-fund 
the Pathways to Independence program in fiscal year 2008.
    The Endocrine Society recommends that the National Institutes of 
Health receive $30.8 billion in fiscal year 2008. This increase of 6.7 
percent will set NIH, and the researchers who depend on it for funding, 
on a 3-year track to recoup the losses caused by biomedical research 
inflation over the last 4 years.
    While researchers will never guarantee cures from ongoing research, 
we do know that without adequate sustained Federal support the chances 
for breakthroughs are diminished. In fact very significant advances 
have been made; for example for the first time in our history death 
rates from cancer have started to decrease, which can be attributed to 
NIH funded research in previous decades. We ask that Congress stop the 
boom and bust funding cycles that have plagued NIH over the last 10 
years and commit to a steady funding stream to keep the research of 
today on track to become the breakthroughs of tomorrow.

             Addendum A--Men's Health--Tons of Useful Stuff

                       THE BATTLE FOR YOUR HEALTH

    As American soldiers fight terrorists overseas, another war is 
being lost at home: The one to cure disease and, ultimately, save your 
life.
    Boston, MA.--The last thing Alan Schneyer, Ph.D., expected to find 
when he began manipulating the reproductive genes in mice was a 
possible cure for diabetes.
    ``We made these mice and thought they would be infertile, but they 
weren't,'' Schneyer tells me as we pace his sparse laboratory at 
Massachusetts General Hospital. ``So we started looking at their other 
organs. Turns out, they have improved glucose tolerance and very little 
visceral fat. Boom! I thought, This is great. We can address a real 
disease.''
    Schneyer eyes the empty beakers, vials, and tubes, the dust 
beginning to gather on microscopes, tissue-holding minifridges, 
computer terminals. The mood is so grim I expect Edgar Allan Poe's 
valet to walk through the door. ``Then we lost our grant. Normally 
you'd see six people working here. Now my fellows are gone. My 
technician is leaving at the end of the month. My associate works for 
someone else now.'' He looks at me and musters a half-hearted smile. 
``I'm out in April,'' he says.
    Schneyer's is a familiar tale. Since a doubling of the National 
Institutes of Health (NIH) budget between 1997 and 2003--an increase, 
incidentally, that contributed to the discovery and mapping of the 
human genome--the agency's budget has flatlined at about $28 billion 
for the past 3 years, outpaced by 9 percent inflation. When funds were 
cut by $33 million in 2006, it marked the first time in more than 35 
years that NIH appropriations actually decreased.
    Schneyer, 52, is quick to note that his discovery might well have 
``come to a dead end.'' Still, with 73 million Americans either having 
diabetes or a high risk of it--and with the number of overweight 
children in America at 9 million and growing--it's frustrating to let 
any possible cure go unexplored. ``We'll never know where my research 
might have led, will we?'' Schneyer says, adding that since the NIH 
started issuing research grants after World War II, ``a good 75 
percent'' of discovered cures have come from government-funded programs 
like his--and not from drug-company labs. In fact, thanks to NIH-
sanctioned research, we know that exercise promotes weight loss, high 
LDL cholesterol raises the risk of heart disease, chemotherapy kills 
cancer, and fluoride prevents tooth decay.
    Now, Schneyer is left hoping for a last-minute reprieve. This is 
unlikely. The 2007 budget for the Department of Health and Human 
Services, under which both the CDC and NIH operate, shows that grant 
monies for ``Preventive Health and Health Services,'' ``Public Health 
Improvement,'' and ``Children's Hospitals'' have been slashed by almost 
$375 million. ``Bioterrorism'' funding, on the other hand, has 
increased to $1.7 billion, up nearly tenfold in the past 5 years.
    Like many medical researchers and physicians, Schneyer is angry 
with the Federal Government for shifting funds away from medical 
research and--``ostensibly,'' he says--into the war on terror at home 
and abroad. It has not gone unnoticed in America's medical community 
that as Federal grants stagnate or plunge, Washington politicos have, 
as of January, authorized more than $315 billion--that's $6.5 billion a 
month, $9 million an hour--to be spent in Iraq alone.
    Then there are the seemingly insane items, recently reported by 
Newsday, in the Department of Homeland Security's budget: $18,000 to 
equip the Santa Clara, California, bomb squad with Segways; $30,000 to 
ensure a defibrillator is on hand for every Lake County, Tennessee, 
high-school basketball game; $500,000 worth of security gear to the 
town of North Pole, Alaska, population 1,778; Kevlar vests for the 
police dogs of Columbus, Ohio; the list goes on.
    Sitting in Schneyer's office, I motion toward the window. What 
would happen, I ask, if I walked into the tavern across the street and 
queried the first five patrons about whether Federal dollars would be 
better spent on body armor for soldiers, or research on the 
reproductive organs of mice?
    ``You're not framing the question correctly,'' he says. 
``Statistics indicate that two of the five men in the bar have already 
developed some form of cardiovascular disease. So you ask them how they 
feel about genetic research that might find a cure, so that their 
children don't die of heart disease.
    ``It's easy to ask why we're funding work on a mouse organ, or on a 
worm. Well, you take that same gene and look for a similar one in a 
human, and suddenly, `Hey, it's responsible for diabetes!' It's not a 
question of a cure for diabetes versus body armor for soldiers. This 
isn't about medical science versus armor or, for that matter, school 
lunches, fire departments, or red lights at dangerous intersections. A 
smart government can fund it all.''
    ``Where will that money come from?'' I ask.
    Schneyer's cheeks burn as he speaks of cost overruns in Iraq and 
the recent tax cuts. ``Every medical-research experiment that is not 
done is an opportunity lost,'' he says. ``You don't know which one is 
going to bring the eureka moment.''
    He smiles, rueful. ``Our country--the president, Congress--has to 
decide if it's worth doing research that will lead to better health in 
the long run and lower costs for the next generation of Americans.
    ``The catchall excuse for the funding cuts is the war on terror. 
But al-Qaeda could attack New York, and that wouldn't reduce the number 
of children with diabetes in Chicago and Miami and Detroit. Researchers 
who are on the verge of finding cures for Alzheimer's, Parkinson's, all 
kinds of cancers . . . their funding is all being cut.
    ``That's a strange way to protect America.''
                                 ______
                                 
   Prepared Statement of the Fair Allocations in Research Foundation

    The death rate in our country from AIDS has plummeted as evidenced 
in 2006 by the 99 percent drop in California's newly infected AIDS 
patients \1\ from just under 10,000 to 130 (as of 2/28/07) and the 93 
percent drop to 100 in all of Illinois's HIV/AIDS patients for 2004.\2\ 
In addition, we respectfully bring to Chairman Byrd's attention that 
this great success includes West Virginia where AIDS deaths have 
dropped to 23 for their latest reporting period (2005).\3\ This success 
against AIDS is being repeated throughout America, yet AIDS still 
receives 10 percent of the entire National Institutes of Health (NIH) 
disease research budget.
---------------------------------------------------------------------------
    \1\ http://www.dhs.ca.gov/aids/Statistics/pdf/Stats2007/
Feb07AIDSMerged.pdf Page 2, CA Office of AIDS--patients infected in 
2006 who died in 2006.
    \2\ http://fairfoundation.org/states/illinois_AIDS_deaths.htm
    \3\ WVA Dept of Health, Tom Light, 304-558-1748 or http://
fairfoundation.org/states/west_virginia.htm
---------------------------------------------------------------------------
    Such exorbitant funding for AIDS has resulted in unfair allocations 
for all non-AIDS diseases, including the sixteen \4\ that kill a 
million more Americans than AIDS annually. For example, cardiovascular 
disease kills almost a million Americans compared to 16,316 (2005) \5\ 
for AIDS, yet the NIH is spending only $40 on each CVD patient versus 
$3,052 on each AIDS patient in research.\6\ Diabetes kills more 
citizens than AIDS and breast cancer combined, yet only $50 is spent on 
each diabetic in research. More AIDS patients are now dying of 
hepatitis C than they are of AIDS,\7\ and hepatitis C (HCV) affects 4-5 
times as many as AIDS yet only $25 is allocated for each HCV patient.
---------------------------------------------------------------------------
    \4\ http://www.fairfoundation.org/thesixteen.htm
    \5\ http://fairfoundation.org/CDC_AIDS_death_estimates_2001-
2005.pdf
    \6\ http://www.fairfoundation.org/factslinks.htm
    \7\ http://fairfoundation.org/specter_letter_hcv_in_aids_pts.pdf

----------------------------------------------------------------------------------------------------------------
                                                     2005 NIH
                                                     research       Deaths per      Dollars per     Dollars per
                     Disease                        [Dollars in       disease     patient  death      patient
                                                     billions]
----------------------------------------------------------------------------------------------------------------
HIV/AIDS........................................          $2.930          16,316        $178,046          $3,052
Cardiovascular Dis..............................           2.300         930,000           2,523              40
Diabetes........................................           1.000          73,965          14,236              50
Alzheimer's Dis.................................            .642          63,343          10,182             143
Prostate Cancer.................................            .373          27,350          13,638             192
Parkinson's Dis.................................            .205          17,898          12,403             148
Hepatitis C.....................................            .121          12,000          10,166              25
Hepatitis B.....................................            .036           5,000           6,600              32
COPD............................................            .066         126,128             500               5
West Nile Virus.................................            .063             161         390,304          14,932
----------------------------------------------------------------------------------------------------------------

    Regardless if the funding comparison is measured utilizing 
``allocation per patient,'' ``allocation per death'' or ``total 
allocation'' per disease, the great success of AIDS researchers has 
resulted in funding for AIDS now being disproportionate and 
inequitable.
    In addition, hundreds of millions of dollars are raised for AIDS by 
celebrities and non-profit organizations (amfAR, etc.) while similar 
efforts do not exist for many other diseases. With the recent $37 
billion stock pledge by Warren Buffett to the $29 billion Bill and 
Melinda Gates Foundation and Mr. Buffett's support for the Gates's bias 
in funding to combat HIV disease, the favoritism afforded this disease 
has reached excessive proportions. Indeed, Melinda Gates has stated 
that her fondest goal is a vaccine for HIV disease and to date the 
total funding by the Gates's Foundation for all HIV programs is $6.5 
billion. It is anticipated that much more of the Gates Foundation will 
go towards combating HIV disease in the future.
    When one reflects that the total NIH bio-medical research budget 
for every disease known to man is only $28.4 billion and 10 percent of 
that also goes to HIV research, one can only be dismayed at the 
continual favoritism afforded this illness.
    The NIH has responded to The FAIR Foundation's requests to cease 
the favoritism afforded HIV/AIDS and to reallocate some of the present 
AIDS dollars to other diseases by referencing global AIDS and the fact 
that AIDS is communicable and destructive to the young.\8\
---------------------------------------------------------------------------
    \8\ http://www.fairfoundation.org/nihletter.htm
---------------------------------------------------------------------------
    What are the solutions for global AIDS--more research? No, the 
answers to global AIDS are the same that have dropped the death rate 
throughout America, and they have been expressed by Presidents Clinton, 
Bush and the Director of the NIAID, Dr. Fauci, namely: preventive 
education, the drugs which converted AIDS from an acute illness into a 
chronic illness (HAART or Highly Active Anti-retroviral Therapy) and 
setting up health infrastructures.
    Indeed, Dr. Fauci himself recently admitted the great success in 
HIV research when he stated on CNN, ``. . . the scientific advancements 
that have been made in HIV [research] are breathtaking [with] highly 
effective drugs to suppress HIV to the point where what was a death 
sentence in the early eighties to now having patients who look and feel 
well, who are leading very productive, very gratifying lives . . .''
    Regarding the ``communicable'' nature of AIDS, Congress must force 
realization upon the NIH that simply because an illness is 
``infectious'' does not warrant disproportionate research funding. 
Patients suffering from non-communicable illnesses such as prostate 
disease, Alzheimer's disease, etc. should not be discriminated against 
because they cannot transmit their disease to others or because its 
etiology is congenital or acquired by environmental causes.
    In America's youth, the CDC's 2005 report States seven deaths in 
patients age <13, 63 under age of 19 and 677 deaths under age 30. The 
estimated deaths from SIDS each year is 3,000. Clearly, HIV disease is 
not a major factor killing our youth.
    An unrecognized factor negatively impacting all non-AIDS diseases 
is the ``compounding effect'' of present NIH policy. The present 
funding total of each disease may be viewed as their ``principal 
balance'' for this analogy. If the present effort by 100 Members of the 
House to increase NIH funding by 6.7 percent is successful, the 
increase in AIDS funding will be approximately $194 million whereas 
Alzheimer's disease will receive only $43 million and Chronic 
Obstructive Pulmonary Disease (COPD) $4.4 million even though those two 
diseases kill, respectively, three and nine times more Americans than 
AIDS. Each year the additional increases in the ``principle balance,'' 
or total funding, results in the ``compounding interest effect'' that 
increases the disproportionate funding for AIDS. Consequently, the gap 
in funding between AIDS and all other diseases grows even larger. 
Supplying greater funding to the NIH without redistribution of present 
inequities is unfair for non-AIDS illnesses.
    The issue of AIDS favoritism is rapidly becoming a political issue. 
Before billions more dollars are spent on yet another preventive 
measure (HIV vaccine), we urge you to publicly call for a partial 
redistribution of the HIV excess funding to other illnesses that do not 
presently have effective treatments, including the 16 maladies [iii] 
that are killing a million more Americans than HIV disease annually.
    Indeed, with the budgetary limitations resulting from our 
government's commitments, including supporting the war in Iraq and 
restoring the areas ravaged by hurricanes Katrina and Rita, necessary 
increases for bio-medical research funding have been non-existent. As 
with the common citizen whose budget is pinched, it is appropriate to 
reallocate existing funds, in this case some of HIV/AIDS funding to 
other illnesses.
    Sixty-one million voters with cardiovascular disease, 21 million 
diabetics and millions of other constituents with non-AIDS illnesses 
will applaud your courageous declaration, while approximately 1 million 
with HIV/AIDS may be dismayed at such an announcement.
    The FAIR Foundation (FAIR is an acronym for ``Fair Allocations In 
Research) is a national organization representing thousands of members 
and supporters--concerned citizens--who want the success of AIDS 
advocates and AIDS researchers recognized with a corresponding change 
in the allocation priorities of the NIH with our taxpayer dollars that 
fund bio-medical research. Gay members of our country are present on 
our Board, including Ray Hill, who used to be one of this country's 
most strident HIV activists. Because of their great success, Ray, who 
has been named Houston's gay hero by that community 7 years in a row, 
now advocates for hepatitis C.
    On behalf of our national membership we are respectfully requesting 
that a portion of AIDS research allocations be reevaluated and 
redistributed now that the existing medications and extensive 
prevention programs for this illness have significantly mitigated its 
threat.
                                 ______
                                 
   Prepared Statement of the Families USA Global Health Initiative's

    Families USA Global Health Initiative appreciates the opportunity 
to submit this written testimony to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, and Education 
concerning Federal funding for the National Institutes of Health (NIH) 
and the Centers for Disease Control and Prevention (CDC). Our statement 
today speaks to the important role that NIH and CDC play in protecting 
and improving health in the United States and the world.
    For more than 20 years, Families USA has advocated for changes in 
U.S. policies to increase access to affordable health care, especially 
for low-income individuals. The Global Health Initiative was launched 
in 2006 to advocate for increased U.S. investment in research and 
development of medical interventions targeting infectious diseases that 
disproportionately affect populations in low-income countries (``global 
health'' research).
    The government must step in to support global health research and 
development because there is little private industry interest in 
filling the current void, an overwhelming human need, a long history of 
underfunding, and it's in our Nation's self-interest to do so.

           OVERWHELMING HUMAN NEED AND HISTORIC UNDERFUNDING

    Research addressing global health crises has been historically 
underfunded. More than 500 million people contract malaria each year. 
NIH spends just 0.3 percent of its budget on malaria research. CDC's 
malaria extramural research program was cut.
    Nine million people develop active tuberculosis (TB) each year, 2 
million die from TB, and extensively drug-resistant strains poses a 
substantial domestic and worldwide health threat. NIH spends just 0.5 
percent of its budget on tuberculosis. The Global Health section of 
CDC's Proposed fiscal year 2008 Budget, submitted to the Congress, 
contains no mention of work on TB.
    More than 1 billion people living in tropical and subtropical 
climates around the world are stricken with devastating, debilitating 
parasitic diseases that receive so little research funding that the 
World Health Organization and others in the medical community refers to 
these conditions as ``neglected'' tropical diseases.
    Almost 40 million people around the world are currently infected 
with HIV. Only 2.5 percent of NIH's budget is devoted to research on 
preventative medical interventions, including vaccines and 
microbicides. CDC's global HIV/AIDS activities are limited primarily to 
support of the President's Emergency Plan for AIDS Relief (PEPFAR). 
Although PEPFAR is expanding access to existing HIV/AIDS treatments for 
many in need, PEPFAR alone will not curb the global AIDS pandemic. More 
than 4 million people become newly infected each year and existing 
treatments are becoming increasingly ineffective due to drug 
resistance. Vaccines and microbicides, along with improved treatments, 
are needed to curtail the global AIDS pandemic.

                         OUR NATIONAL INTEREST

    When NIH and CDC are insufficiently funded, as has consistently 
been the case in recent years, they are forced to fight global health 
crises with one hand tied behind their back. This has serious health, 
economic, and political implications--not just internationally, but 
also domestically. There are also compelling diplomatic and 
humanitarian reasons for funding NIH's and CDC's global health work.
    First, we have a national health interest in ensuring that NIH and 
CDC have all the resources that they need. Diseases can easily spread 
across international borders; epidemics abroad, including lethal 
strains of extremely drug-resistant TB, can lead to cases here at home. 
Americans who travel abroad, including our troops, are also at risk of 
contracting infectious diseases that are endemic in other countries.
    Second, we have a national economic interest in providing NIH and 
CDC with all the resources that they require. In regions where HIV/
AIDS, malaria, and TB prevalence are greatest, countries' entire 
workforces suffer from substantially reduced productivity and economic 
growth is hindered. With globalization, countries' economic health is 
intertwined. The economic toll of diseases hurts world economic growth 
and limits trade, and it reduces markets for U.S. goods.
    Third, we have a national political interest in giving NIH and CDC 
the funding needed to combat infectious diseases with a massive global 
burden. In areas of the world where the infectious disease burden is 
greatest, enormous numbers of people are getting sick and dying. 
Populations are being decimated. The social structures of entire 
countries has been unraveling, paving the way for political unrest and 
the undermining of democracy in entire regions of the world.
    Fourth, we have a national diplomatic interest, and there are 
strong humanitarian reasons as well, for funding NIH's and CDC's work 
in preventing and controlling diseases that burden millions of people 
around the world. As the wealthiest country on earth, we have the means 
to advance health and alleviate human suffering. Using our wealth to 
improve global health improves America's image and serves as a very 
effective foreign policy tool.

                        FUNDING RECOMMENDATIONS

All NIH Institutes and Centers
    Families USA Global Health Initiative recommends 6.7 percent annual 
increases to NIH's total budget from fiscal year 2008 to fiscal year 
2010 (including 3.7 percent adjustments each year for annual rises in 
biomedical inflation, plus an additional 3.0 percent each year to start 
to correct for the failure in recent years to keep up with inflation).
    In recent years, NIH funding has fallen further and further behind 
the rising costs of biomedical research. This means that less research 
gets funded and medical progress is delayed. Only 16.7 percent of new 
grant applications were funded in 2006--an 83 percent failure rate. 
Many scientists are sitting on the sidelines, unable to develop 
promising ideas that could lead to an effective AIDS vaccine, improved 
tuberculosis treatments, and other medical interventions that could 
improve the lives of millions worldwide.
    A 6.7 percent annual increase for all NIH Institutes and Centers, 
for each year from fiscal year 2008 to fiscal year 2010, would adjust 
NIH funding for anticipated annual rises in inflation and add a modest 
3.0 percent rise to help make up for losses in inflation-adjusted 
funding experienced by all of NIH in recent years.
Additional Increase for NIH Global Health Programs
    Families USA Global Health Initiative recommends that Congress 
begin to rectify, over a 7 year period, historic underfunding of global 
health programs by increasing the National Institute of Allergy and 
Infectious Diseases and Fogarty International Center budgets annually 
by 2.9 percent for each year from fiscal year 2008 to fiscal year 2014.
    This increased annual 2.9 percent investment in global health would 
be apart from, and in addition to, the 6.7 percent increases over the 
next 3 years for all NIH Institutes and Centers, and annual 
inflationary adjustments provided thereafter.
    The National Institute of Allergy and Infectious Diseases (NIAID) 
has taken a leadership role in the bulk of global health research and 
development activities undertaken at NIH. Robust funding for NIAID is 
essential for addressing infectious disease crises around the globe and 
in the United States.
    The John E. Fogarty International Center (FIC) also plays a crucial 
role in addressing global health challenges by facilitating 
collaboration between United States and international researchers 
through its international training and global health research capacity 
building programs. FIC's programs facilitate the development of medical 
discoveries worldwide.
    Malaria and tuberculosis research, combined, comprise less than 1 
percent of the National Institutes of Health's total budget. Last year, 
cuts to the NIH budget resulted in funding being completely cut to 11 
HIV/AIDS clinical trials in the United States. FIC's fiscal year 2006 
funding constituted a miniscule 0.23 percent of NIH's total budget.
    A 2.9 percent additional increase for NIAID and FIC, for each year 
from fiscal year 2008 to fiscal year 2014--apart from and on top of the 
6.7 percent annual increases for all of NIH from fiscal year 2008 to 
fiscal year 2010, and inflationary increases thereafter--is badly 
needed to make up for historic underfunding for global health research 
and to achieve progress in the development of new interventions for 
diseases devastating millions worldwide.
Centers for Disease Control and Prevention
    Families USA Global Health Initiative supports the CDC Coalition's 
recommendation of increasing CDC's total budget to $10.7 billion in 
fiscal year 2008 and further recommends that Congress appropriate $512 
million in fiscal year 2008 for CDC's global health work (4.8 percent 
of CDC's $10.7 billion total budget).
    CDC's global health programs are vitally important to protecting 
Americans and people around the world from disease. Cuts to CDC's 
budget undermine both the United States and the global public health 
infrastructures that are crucial to rapidly responding to new disease 
outbreaks and combating existing global pandemics.
    Yet, some of CDC's global health programs have been flat-funded for 
years; other global health programs can no longer carry out their 
critical mission due to limited funds. For instance, CDC currently has 
no appropriated budget for global tuberculosis activities and the 
malaria extramural research program had to be phased out due to 
insufficient funds. Moreover, failure to adequately fund CDC's global 
health work has broader implications for the success of other United 
States funded initiatives, including PEPFAR and the President's Malaria 
Initiative (PMI).
    At a global health funding level of $512 million in fiscal year 
2008, CDC would be able to support crucial global disease surveillance 
and control programs; perform research to improve existing medical 
interventions; and develop new interventions for diseases where 
interventions are currently lacking.

                            CALL FOR ACTION

    Americans across the country, and people from around the world, are 
looking to NIH and CDC for new medical advances that will lead to a 
healthier tomorrow. Shortchanging NIH and CDC places America's--and the 
world's--health at risk. We urge the subcommittee to fund NIH and CDC 
at the levels specified above.
    For additional information, please contact Janet Goldberg at 202-
628-3030 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3359545c5f57515641547355525e5a5f5a56404640521d5c41541d">[email&#160;protected]</a>
                                 ______
                                 
           Prepared Statement of Fight Crime: Invest in Kids

    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to submit this written testimony. My name is Dennis Conard 
and I am the Sheriff in Scott County, IA (Davenport), where I have 
served in law enforcement for almost 35 years. I am also a graduate of 
the FBI National Academy, the National Sheriffs' Institute and the Iowa 
Law Enforcement Academy and a member of the National Sheriffs' 
Association. I am also one of the 3,000 police chiefs, sheriffs, 
prosecutors, and victims of violence of FIGHT CRIME: INVEST IN KIDS--a 
non-profit anti-crime organization that has come together to take a 
hard-nosed look at the research about what really works to keep kids 
from becoming criminals.
    The law enforcement leaders of FIGHT CRIME: INVEST IN KIDS know 
that dangerous criminals must be prosecuted and put behind bars. But we 
also know better than anyone that we cannot arrest and imprison our way 
out of the crime problem. No prison can bring back a murdered wife, 
mother or child, and no punishment can undo a crime victim's anguish. 
Fortunately, research--and our experiences on the front lines in the 
fight against crime--show that targeted investments can help kids get a 
good start in life. We could be saving thousands of lives and 
preventing thousands of crimes by increasing our investments in cost-
effective, proven crime-prevention programs.
    Four types of proven crime-prevention approaches are outlined in 
FIGHT CRIME: INVEST IN KIDS' ``School and Youth Violence Prevention 
Plan'':
  --quality early childhood education;
  --child abuse and neglect prevention programs;
  --quality after-school; and
  --prevention and intervention programs to get troubled kids back on 
        track.
    As you know, the first three areas fall within your Appropriations 
Subcommittee's jurisdiction. Since both the research and my years of 
experience on the front lines in the fight against crime show that 
these approaches help stop crime in its tracks, I urge you to increase 
our Nation's investments in these proven strategies for saving lives 
and taxpayer dollars.

                   EARLY CHILDHOOD EDUCATION AND CARE

    By now, most people know that Head Start and quality child care 
help close the achievement gap. But few people are aware of the amazing 
impact of early education programs on later criminality. A Journal of 
the American Medical Association-published study of Chicago's 
government-funded Child Parent Centers, which have served more than 
100,000 3- and 4-year-olds, showed that children who did not 
participate in the program were 67 percent more likely to have been 
retained a grade in school and 71 percent more likely to have been 
placed in special education. But equally impressive, the study showed 
that kids who did not participate were 70 percent more likely to be 
arrested for a violent crime by age 18. Similarly, at-risk kids who 
were left out of the high-quality High/Scope Perry preschool program 
were five times more likely to be chronic offenders (more than four 
arrests) by age 27 than those who participated.
    By improving outcomes for kids, quality early childhood education 
also saves money. The High/Scope Perry Preschool program saved $17 for 
every $1 spent. An analysis by Arthur Rolnick of the Federal Reserve 
Bank of Minneapolis shows that the program's annual return on 
investment is 16 percent after adjusting for inflation. Seventy-five 
percent of that return goes to taxpayers in the form of decreased 
special education expenditures, crime costs and welfare payments. In 
comparison, the long-term average return on U.S. stocks is 7 percent 
after adjusting for inflation. Thus, an initial investment of $1,000 in 
a program like Perry Preschool is likely to return more than $19,000 in 
20 years, while the same initial investment in the stock market is 
likely to return less than $4,000.
    However, due to lack of State and Federal financial resources, 
there remains significant unmet need with only about half of eligible 
poor kids nationally served by Head Start and less than 5 percent of 
eligible infants and toddlers in Early Head Start. Only one in seven 
kids in eligible, low-income families receives help from the Child Care 
and Development Block Grant to pay for the quality child care that can 
help ensure they are on the path toward being a productive, taxpaying 
adult rather than a burden on taxpayers and part of our criminal 
justice system. Funding has been stagnant over the last several years. 
By the administration's own estimates, 150,000 fewer children receive 
child care assistance now than in 2000.
    I urge Congress to:
  --Increase funding for Head Start by at least $750 million to restore 
        funding for services to kids to the fiscal year 2002 level.
  --Increase discretionary funding for the Child Care and Development 
        Block Grant by $720 million to restore funding for services to 
        kids to the fiscal year 2002 level.
    This is the first step toward meeting the unmet need and further 
strengthening the quality of early childhood care and education.
              child abuse and neglect prevention programs
    The best available research indicates that, based on confirmed 
cases of abuse and neglect in just 1 year, an additional 35,000 violent 
criminals and more than 250 murderers will emerge as adults who would 
never have become violent criminals if not for the abuse or neglect 
they endured as kids.
    Fortunately, quality, voluntary in-home parent coaching can help 
stop this cycle of violence. Voluntary, in-home parent coaching (or 
``home visiting'') programs help new parents get the information, 
skills and support they need to be better parents and promote healthy 
child development. One program, the Nurse Family Partnership (NFP), has 
been shown to cut child abuse and neglect of at-risk children in half 
and reduce kids' and moms' later arrests by about 60 percent--saving an 
average of $28,000 (net) for each family in the program.
    As a first step toward meeting this need, I urge Congress to 
provide:
  --$100 million to expand and improve in-home coaching programs like 
        those that would be supported under the Education Begins as 
        Home Act (S. 667), which is expected to be enacted this year.
  --$545 million (the combined mandatory and discretionary authorized 
        level) for the Promoting Safe and Stable Families program to 
        help communities run in-home parent coaching programs, 
        parenting-education programs, family-strengthening services for 
        troubled families, adoption services, and other child abuse and 
        neglect prevention programs.
  --$200 million (the authorized level) for the Child Abuse Prevention 
        and Treatment Act to help improve State child protection 
        services and community-based prevention services.
  --$1.7 billion (rejecting the administration's proposed cuts) for the 
        Social Services Block Grant (SSBG), the Federal Government's 
        single largest support for child welfare services.

                         AFTER-SCHOOL PROGRAMS

    In the hour after the school bell rings, violent juvenile crime 
soars and the prime time for juvenile crime begins. The peak hours for 
such crime are from 3:00 p.m. to 6:00 p.m. These are also the hours 
when children are most likely to become victims of crime, be in an 
automobile accident, smoke, drink alcohol, or use drugs. After-school 
programs that connect children to caring adults and provide 
constructive activities during these critical hours are among our most 
powerful tools for preventing crime. For example, a study compared five 
housing projects without Boys & Girls Clubs to five receiving new 
clubs. At the beginning, drug activity and vandalism were the same. But 
by the time the study ended, the projects without the programs had 50 
percent more vandalism and scored 37 percent worse on drug activity. 
Despite these proven benefits, more than 14 million children nationwide 
still lack adult supervision after school.
    The 21st Century Community Learning Centers program (21st CCLC) 
awards grants to communities to establish after-school programs that 
provide constructive activities for kids. Since being funded at $1 
billion in fiscal year 2002, there have been no real funding increases 
for 21st CCLC. In fiscal year 2007, the program received $981 million--
far below the program's $2.5 billion authorization under the No Child 
Left Behind Act. I urge Congress to:
  --Substantially increase funding for the 21st Century Community 
        Learning Centers to support and expand after-school programs 
        that offer kids constructive activities during the peak hours 
        of violent juvenile crime, 3:00 pm to 6:00 pm. Also, I urge you 
        to authorize at least an additional $500 million for programs 
        for at-risk middle and high school students who now experience 
        the greatest unmet need--and are at greatest risk of 
        perpetrating or being victims of crime.

                   LAW ENFORCEMENT LEADERS ARE UNITED

    The members of FIGHT CRIME: INVEST IN KIDS, along with major 
national law enforcement associations, have adopted forceful calls for 
public officials to ensure access to quality early care and education, 
provide adequate funding to prevent child abuse and neglect, and ensure 
access to after-school programs. If we do not invest in research-proven 
crime-prevention programs for America's most vulnerable kids, many of 
them will grow up to become America's most wanted adults. By failing to 
adequately invest in proven crime-prevention strategies, Congress is 
not only failing to promote the well-being of millions of kids but is 
also permitting the cultivation of criminals--jeopardizing the safety 
of all Americans for years to come.
    Thank you for this opportunity to present our views on how your 
subcommittee can help to reduce crime and make us all safer.
                                 ______
                                 
          Prepared Statement of the Foster Grandparent Program

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit this testimony in support of fiscal year 2008 
funding for the Foster Grandparent Program (FGP), the oldest and 
largest of the three programs known collectively as the National Senior 
Volunteer Corps, which are authorized by Title II of the Domestic 
Volunteer Service Act (DVSA) of 1973, as amended and administered by 
the Corporation for National and Community Service (CNS). NAFGPD is a 
membership-supported professional organization whose roster includes 
the majority of more than 350 directors, who administer Foster 
Grandparent Programs nationwide, as well as local sponsoring agencies 
and others who value and support the work of FGP.
    Mr. Chairman, I would like to begin by thanking you and the 
distinguished members of the subcommittee for your steadfast support of 
the Foster Grandparent Program. No matter what the circumstances, this 
subcommittee has always been there to protect the integrity and mission 
of our programs. Our volunteers and the children they serve across the 
country are the beneficiaries of your commitment to FGP, and for that 
we thank you. I also want to acknowledge your outstanding staff for 
their tireless work and very difficult job they have to ``make the 
numbers fit''--an increasingly difficult task in this budget 
environment.

                    ADMINISTRATION'S REQUEST FOR FGP

    Although the number of older people in America eligible to serve as 
Foster Grandparent volunteers is increasing by leaps and bounds as the 
``Baby Boomer'' cohort ages, we were extremely disappointed to learn 
that--instead of seeking an increase for FGP to enable FGP to engage 
more low-income seniors in service--the administration has proposed 
slashing funding for FGP by $13.387 million--a 12.1 percent cut.

           IMPACT OF THE ADMINSTRATION'S PROPOSED FUNDING CUT

    FGP is the only program in existence today that actively seeks out, 
trains, enables, places and supports the elderly poor in contributing 
to their communities by changing the lives of children who desperately 
need one-on-one attention. If enacted, this request will have a 
devastating effect on FGP programs nationwide:
  --3,150 low-income Foster Grandparent volunteers--over 10 percent of 
        the current volunteer complement--will be cut permanently, 
        slashing the total number of Foster Grandparent volunteers from 
        30,550 to 27,400. This will happen at a time when the number of 
        FGP volunteers has not increased appreciably in 10 years!
  --Local communities will lose over 3.3 million hours of volunteer 
        service annually.
  --Approximately 35,000 fewer children with special needs will receive 
        the critical services provided by Foster Grandparents.
  --FGP will permanently lose 3,000 Volunteer Service Years (VSYs, or 
        volunteer ``slots''). For each volunteer ``slot'' that is cut 
        from a Foster Grandparent Program, that program will lose 
        approximately $4,500 from its Federal grant. In addition, at 
        least $500 in valuable non-federal resources contributed by 
        communities will also be lost for every volunteer position that 
        is eliminated.
  --Low-income Baby Boomers will be excluded from serving as Foster 
        Grandparents, because there will be no funds available to hire 
        and place new volunteers as they reach the age of 60. According 
        to the administration on Aging, there are currently 6,000,000 
        low-income seniors eligible for FGP; in 20 years, there will be 
        13,000,000!
    This cut will take FGP back 7 years, to a funding level that is 
more than $1 million less than its funding level in fiscal year 2001. 
In addition, the cut will take effect at a time when the average 
Federal grant for FGP has increased a miniscule $2,898--or .875 percent 
(seven-eighths of 1 percent!)--since fiscal year 2003. After 4 years of 
flat funding, this 12.1 percent cut will not only cut volunteer 
numbers, it will also dig deeply into funds needed to sustain quality 
staff and quality programs. As a result, some FGPs may actually close, 
and local sponsoring agencies--short of funds themselves and unable to 
contribute the funds needed to make up the cut--may simply relinquish 
their sponsorship.
    The Corporation for National and Community Service's Budget 
Justification states that this cut can be absorbed merely through 
volunteer attrition. The reality is that the majority of FGPs 
nationwide will be forced to cut precious volunteers from their 
volunteer rosters. Whether a volunteer leaves through attrition or 
because there is no funding for his/her position, the fact is that this 
budget proposal will result in 3,150 fewer low income elders serving as 
Foster Grandparents.
    NAFGPD respectfully requests three things of the subcommittee:
    (1) to provide $115.937 million for the Foster Grandparent Program 
in fiscal year 2008, an increase of $5.000 million over the fiscal year 
2006 and fiscal year 2007 levels of funding for the program and an 
$18.387 million increase over the administration's fiscal year 2008 
Budget Request for FGP. This critical funding will ensure the continued 
viability of the Foster Grandparent Program, and allow for important 
expansion of this unique program. Specifically, this proposal would 
fund a 3 percent cost of living increase for every Foster Grandparent 
Program as well as expansion grants to existing programs that would add 
370 new low-income senior volunteers to serve 3000 additional children;
    (2) to maintain current appropriations statutory language that 
prohibits CNCS from using funds in the bill to pay non-taxable stipend 
to volunteers whose incomes exceed 125 percent of the national poverty 
level. Congress has repeatedly over the last 7 years re-affirmed that 
the non-taxable stipend must be reserved for low-income volunteers. We 
ask that you again protect the mission of the Foster Grandparent and 
Senior Companion Programs--to enable low-income older people to serve 
their communities--by maintaining this important statutory language.
    (3) to oppose administration proposals that would consolidate 
National and Community Service Act and DVSA accounts and set aside 
provisions of section 412 of the DVSA as they apply to the RSVP program 
(Title II, Part A), and, instead, direct that the changes proposed 
shall not be implemented prior to passage of a bill by the authorizing 
committees of jurisdiction specifying such changes.

                            FGP: AN OVERVIEW

    Established in 1965, the Foster Grandparent Program was the first 
federally funded, organized program to engage older volunteers in 
significant service to others. It remains today the only volunteer 
program in existence that enables seniors living on very low incomes to 
serve as community volunteers by providing a small non-taxable stipend 
that allows volunteers to serve at little or no cost to themselves. 
From the 20 original programs based totally in institutions for 
children with severe mental and physical disabilities, FGP now 
comprises nearly 350 programs in every State and the District of 
Columbia, Puerto Rico, and the Virgin Islands. These programs are now 
primarily in community-based child caring agencies or organizations--
where most special needs children can be found today--and are 
administered locally through a non-profit organization or agency and 
Advisory Council comprised of community citizens dedicated to FGP and 
its mission. FGP represents the best in Federal partnerships with local 
communities, with Federal dollars flowing directly to local sponsoring 
agencies, which in turn determine how the funds are used. Through this 
partnership and the flexibility of the program, FGP is able to meet the 
immediate needs of the local communities. This was demonstrated by 
Foster Grandparent Programs in communities that were impacted by the 
influx of Hurricane Katrina evacuees. Foster Grandparents rallied to 
provide services to children in shelters, child care centers, and 
schools.

                          FGP: THE VOLUNTEERS

    There are currently 30,500 Foster Grandparent volunteers who give 
31 million hours annually to more than 264,000 children, including 
6,300 children of prisoners through 10,200 local agencies. FGP is a 
versatile, dynamic, and uniquely multi-purpose program. The program 
gives Americans 60 years of age or older who are living on incomes at 
or less than 125 percent of the poverty level the opportunity to serve 
15 to 40 hours every week and use the talents, skills and wisdom they 
have accumulated over a lifetime to give back to the communities which 
nurtured them throughout their lives. FGP provides intensive pre-
service orientation and at least 48 hours of ongoing training every 
year to keep volunteers current and informed on how to work with 
children who have special needs.

                           FGP: THE CHILDREN

    Through our volunteers, FGP also provides person-to-person service 
to children and youth under the age of 21 who have special or 
exceptional needs, many of whom face serious, often life-threatening 
challenges. The Foster Grandparent is very often the only person in a 
child's life who is there every day, who accepts the child, encourages 
him no matter how many mistakes the child makes, and focuses on the 
child's successes.
    Special needs of children served by Foster Grandparents include 
AIDS or addiction to crack or other drugs; abuse or neglect; physical, 
mental, or learning disabilities; speech, or other sensory 
disabilities; incarceration and terminal illness. Of the children 
served, 7 percent are abused or neglected, 25 percent have learning 
disabilities, and 10 percent have developmental delays. FGP focuses its 
resources in areas where they will have the most impact: early 
intervention services and literacy activities. Nationally, 90 percent 
of the children served by Foster Grandparents are under the age of 12, 
with 39 percent of these children age 5 or under. Foster Grandparents 
work intensively with these very young children to address their 
problems at as early an age as possible, before they enter school. 
Nearly one-half of FGP volunteers serve nearly 12 million hours 
annually addressing literacy and emergent-literacy problems with 
special needs children.
    Activities of the FGP volunteers with their assigned children 
include teaching parenting skills to teen parents; providing physical 
and emotional support to babies abandoned in hospitals; helping 
children with developmental, speech, or physical disabilities develop 
self-help skills; reinforcing reading and mathematics skills; and 
giving guidance and serving as mentors to incarcerated or other youth.

                        FGP: THE VOLUNTEER SITES

    The Foster Grandparent Program provides child-caring agencies and 
organizations offering services to special-needs children with a 
consistent, reliable, invaluable extra pair of hands 15 to 40 hours 
every week to assist in providing these services. Seventy-one percent 
of FGP volunteers serve in public and private schools as well as sites 
that provide early childhood pre-literacy services to very young 
children, including Head Start.

                      FGP: COST-EFFECTIVE SERVICE

    Using the Independent Sector's 2005 valuation for 1 hour of 
volunteer service ($18.03/hour), the value of the service given by 
Foster Grandparents annually is over $503 million, and represents a 4-
fold return on the Federal dollars invested in FGP. The annual Federal 
cost for one Foster Grandparent is $3,960--less than $4.00 per hour. 
FGP's fiscal year 2006 Federal allocation was matched with $37.4 
million in non-federal donations from States and local communities in 
which Foster Grandparents volunteer. This represents a non-federal 
match of 34 percent, or $.34 for every $1.00 in Federal funds 
invested--well over the 10 percent local match required by law.

                NAFGPD'S FISCAL YEAR 2008 BUDGET REQUEST

    Given the dramatically expanding number of low-income seniors 
eligible to serve and the staggering number of troubled and challenged 
children in America today, we respectfully request that the 
subcommittee provide $115.937 million for the Foster Grandparent 
Program in fiscal year 2008, an increase of $5.000 million over fiscal 
year 2006 and fiscal year 2007 funding levels. This critical funding 
will ensure the continued viability of the Foster Grandparent program, 
and allow for an expansion of this important program. It will generate 
opportunities for approximately 370 new low-income senior volunteers to 
contribute 390,000 hours of service annually to nearly 3,000 additional 
children with special needs through Program of National Significance 
(PNS) grants to existing FGPs. The requested increase would be 
allocated for the following purposes, in order of priority: 1st: in 
accordance with the Domestic Volunteer Service Act (DVSA), designate 
one-third of the increase over the fiscal year 2006 and fiscal year 
2007 level to fund Program of National Significance (PNS) expansion 
grants to allow existing FGP programs to expand the number of 
volunteers serving in areas of critical need as identified by Congress 
in the DVSA.2nd: use all remaining funds to award an administrative 
cost increase of at least 3 percent to each existing Foster Grandparent 
Program in order to maintain quality, enable recruitment and sustain 
the work already being done by programs. The last time FGPs in the 
field realized any increases at all to cover the increased costs of 
doing business--especially in the area of transportation costs--was in 
fiscal year 2005; that increase amounted to a very small .84 percent, 
when inflationary price increases have been averaging 2-3 percent 
annually.
    We request that no funds be provided for Senior Demonstration, and 
that language that expressly prohibits the payment of a non-taxable 
stipend to individuals whose incomes exceed 125 percent of the national 
poverty level continue to be included in the appropriations statute as 
it has been since fiscal year 2000. This important language protects 
the purpose of FGP: to enable low-income elders to serve their 
communities at little or no cost to themselves.
    The message is clear: (1) the population of low-income seniors 
available to volunteer 15 to 40 hours every week is increasing; (2) 
communities need and want more Foster Grandparent volunteers and more 
Foster Grandparent Programs. The subcommittee's continued investment in 
FGP now will pay off in savings realized later, as more seniors stay 
healthy and independent through volunteer service, as communities save 
tax dollars, and as children with special needs are helped to become 
contributing members of society.
    Mr. Chairman, in closing I would like to again thank you for the 
subcommittee's support and leadership for FGP over the years. NAFGPD 
believes that you and your colleagues in Congress appreciate what our 
low-income senior volunteers accomplish every day in communities across 
the country.
                                 ______
                                 
                   Letter From the FSH Society, Inc.
                                                  January 24, 2007.
Senator Tom Harkin,
Chairman, Subcommittee on Labor, HHS, Education and Related Agencies 
        U.S. Senate, Washington, DC.
    Dear Hon. Tom Harkin: I request the opportunity to testify in 
writing or in person before your Subcommittee on Labor, Health and 
Human Services, Education and Related Agencies regarding the fiscal 
year 2008 appropriations to the National Institutes of Health (NIH) for 
research on FSH muscular dystrophy.
    The FSH Society requests the opportunity to update your committee 
on the progress made by the NIH over the past several years in FSH 
muscular dystrophy. Despite a growth in funding from $7 million to $75 
million between 1991 and 2007 for research in muscular dystrophy across 
all Federal agencies, funding for our dystrophy is still anemic. The 
NIH now has perhaps a half dozen grants for FSH Dystrophy out of some 
200 grants for muscular dystrophy in the NIH portfolio. FSHD is the 
third most common disease of muscle.
    The NIH still needs encouragement and funding to develop a 
comprehensive research portfolio for FSHD. We are most appreciative of 
your support in this area and for the gains made thus far. It has 
always been an honor to participate in the hearing process.
    The FSH Society, Inc. and the tens of thousands of patients it 
represents hope you will enable us by affording us the opportunity to 
present testimony to your subcommittee. It is most important to speak 
this year and to provide constructive input on this issue.
            Sincerely,
                                         Daniel Paul Perez,
                                 President & CEO, FSH Society, Inc.
                                 ______
                                 
Prepared Statement of the Friends of the Health Resources and Services 
                             Administration

    The Friends of the Health Resources and Services Administration 
(HRSA) is an advocacy coalition of more than 100 national 
organizations, collectively representing millions of public health and 
health care professionals, academicians and consumers. Our member 
organizations strongly support the programs at HRSA designed to ensure 
access to health services for each person in the United States.
    Through its programs in thousands of communities across the 
country, HRSA provides a health safety net for medically underserved 
individuals and families, including 45 million Americans who lack 
health insurance; 49 million Americans who live in neighborhoods where 
primary health care services are scarce; African American infants, 
whose infant mortality rate is more than double that of whites; and the 
estimated 850,000 to 950,000 people living with HIV/AIDS. Programs to 
support the underserved place HRSA on the front lines in responding to 
our Nation's racial/ethnic and rural/urban disparities in health 
status. HRSA funding goes where the need exists, in communities all 
over America. We support a growing trend in HRSA programs to increase 
flexibility of service delivery at the local level, necessary to tailor 
programs to the unique needs of America's many varied communities. The 
agency's overriding goal is to achieve 100 percent access to health 
care, with zero disparities. In the best professional judgment of the 
members of the Friends of HRSA, to respond to this challenge, the 
agency will require an overall funding level of at least $7.5 billion 
for fiscal year 2008.
    The Friends of HRSA are gravely concerned about the president's 
budget recommendation of devastating cuts for fiscal year 2008, 
including over 12 program eliminations. This is in addition to the 
programs that were eliminated in the fiscal year 2006 and 2007 budget 
cycles and other programs that received deep cuts in both years.
    Through its many programs and initiatives, HRSA helps countless 
individuals live healthier, more productive lives. In the 21st century, 
rapid advances in research and technology promise unparalleled change 
in the Nation's health care delivery system. HRSA could be well 
positioned to meet these new challenges as it continues to provide 
needed health care to the Nation's most vulnerable citizens.
    The Primary Care Bureau received a $207 million increase over the 
fiscal year 2007 current funding level, all of which is designated for 
the Community Health Centers adding 342 new or expanded health center 
service sites and bringing the number of patients served annually to 
16.3 million. Community health centers, often in partnership with 
National Health Service Corps clinicians, form the backbone of the 
Nation's safety net. More than 4,000 of these sites across the Nation 
provide needed primary and preventive care to over 15 million poor and 
near-poor Americans. HRSA primary care centers include community health 
centers, migrant health centers, health care for the homeless programs, 
public housing primary care programs and school-based health centers. 
Health centers provide access to high-quality, family-oriented, 
culturally and linguistically competent primary care and preventive 
services, including mental and behavioral health, dental and support 
services. Nearly three-fourths of health center patients are uninsured 
or on Medicaid, approximately two-thirds are people of color, and more 
than 85 percent live below 200 percent of the poverty level. 2,700 
clinicians in the National Health Service Corps deliver a significant 
portion of the primary care services provided at health centers. Corps 
members work in communities with a shortage of health professionals in 
exchange for scholarships and loan repayments. While recent growth in 
the health centers program has been substantial, a significant need 
remains in underserved communities across the country--we encourage the 
committee to continue its support of existing health centers and 
efforts to expand the reach and scope of health centers into new 
communities.
    Health professions and nursing education programs, authorized under 
Titles VII and VIII of the Public Health Service Act, are essential 
components of America's health care safety net, filling the gaps in the 
health professions' supply not met by traditional market forces. 
Through loans, loan guarantees, scholarships to students, and grants 
and contracts to academic institutions and non-profit organizations, 
the Title VII and VIII health professions programs are the only Federal 
programs designed to train providers in interdisciplinary settings to 
meet the needs of special and underserved populations, as well as 
increase minority representation in the health care workforce. The 
programs provide support for the training of physicians, nurses, 
dentists, physician assistants, nurse practitioners, public health 
personnel, psychologists, and other allied health providers. The final 
budget for fiscal year 2006 included a 51.5 percent cut to Title VII; 
the $40 million increase in the recently enacted fiscal year 2007 joint 
funding resolution does not fully recover the funding lost as a result 
of this devastating cut. Moreover, the President's fiscal year 2008 
budget proposes an additional 94.6 percent cut to Title VII and a 29.7 
percent cut to Title VIII. We are concerned that cuts to the health 
professions programs will exacerbate existing provider shortages in 
rural, medically underserved, and federally designated health 
professions shortage areas and impede recruitment of underrepresented 
minorities and students of disadvantaged backgrounds into the health 
professions. Adequate funding for HRSA Health Professions Programs 
under Title VII and VIII will help to create a prepared national 
workforce by working to reverse projected nationwide shortages of 
physicians, nurses, pharmacists, and other professionals. We strongly 
encourage the subcommittee to restore funding to these vital Health 
Professions programs.
    The Maternal and Child Health Block Grant is a source of flexible 
funding for States and territories to address their unique needs, and 
remains in great need of increased funding. The Title V Maternal and 
Child Health Block (MCH) Grant received a $31 million cut in the fiscal 
year 2006 budget and stagnant funding for fiscal year 2007. The 
President's budget for fiscal year 2008 proposed level funding for the 
block grant at the fiscal year 2006 level. Greater needs among pregnant 
women, infants, and children, particularly those with special health 
care needs present daunting challenges to the State maternal and child 
health programs. Furthermore, if programs like the Traumatic Brain 
Injury program, Universal Newborn Hearing Screening, and Emergency 
Medical Services for Children program are eliminated, those costs will 
be borne by the MCH Block Grant. Of the nearly 4 million mothers who 
give birth annually, almost half receive some prenatal or postnatal 
service from a MCH-funded program. MCH programs increase immunizations 
and newborn screening, reduce infant mortality and developmentally 
handicapping conditions, prevent childhood accidents and injuries, and 
reduce adolescent pregnancy.
    Research indicates that 50,000 individuals die as a result of 
Traumatic Brain Injury (TBI) each year in the United States and an 
additional 80,000 survive with residual long-term impairments. Today 
over 5.3 million Americans are living with a TBI-related disability. 
TBI can strike at anyone at any time--from falls, vehicle crashes, 
sports injuries, violence, and other causes. HRSA's Traumatic Brain 
Injury program makes grants to States to coordinate, expand and enhance 
service delivery systems in order to improve access to services and 
support for persons with TBI and their families. Despite increasing 
numbers of soldiers returning from war with head injuries, increasing 
numbers of children being identified as disabled due to head injuries, 
and the release of an Institute of Medicine Report stating the 
importance of the program to brain injury survivors and their families, 
the administration's fiscal year 2008 budget eliminates the TBI State 
Grant program. We encourage the subcommittee to restore funds that were 
cut from the TBI State Grant program. Individuals with traumatic brain 
injury have an array of protection and advocacy needs, including 
assistance with returning to work; finding a place to live; accessing 
needed supports and services, such as attendant care and assistive 
technology; and obtaining appropriate mental health, substance abuse, 
and rehabilitation services.
    The Children's Health Act of 2000 authorized funding for grants and 
programs to improve state-based newborn screening. Newborn screening is 
a vital public health activity used to identify and treat genetic, 
metabolic, hormonal and functional conditions in newborns. Screening 
detects disorders in newborns that, if left untreated, can cause death, 
disability, mental retardation and other serious illnesses. Parents are 
often unaware that while nearly all babies born in the United States 
undergo newborn screening for genetic birth defects, the number and 
quality of these tests vary from State to State. The March of Dimes, 
the American Academy of Pediatrics and the American College of Medical 
Genetics recommend that at a minimum, every baby born in the United 
States be screened for a core group of 29 treatable conditions 
regardless of the State in which the infant is born. Currently, Federal 
support for State newborn screening activities is provided through the 
Maternal and Child Health Block Grant, Special Projects of Regional and 
National Significance (SPRANS). We encourage the subcommittee to 
increase funding for newborn screening to assist States in improving 
their newborn screening programs and override the administration's 
proposed elimination of the universal newborn hearing screening 
program.
    The proposed elimination of the Emergency Medical Services for 
Children (EMSC) program, a national initiative designed to reduce child 
and youth disability and death due to severe illness and injury, is 
also of great concern, especially in light of the recent Institute of 
Medicine report that highlighted significant shortcomings in pediatric 
emergency care. EMSC grants fund improvements to existing emergency 
medical services systems and to develop and evaluate improved 
procedures and protocols for treating children. Children are not merely 
small adults; they have unique and specific concerns that this programs 
works to address. We request that the EMSC program be funded at $25 
million in fiscal year 2008.
    Although the administration proposes level funding for the hospital 
preparedness program, we are concerned with the $13 million cut the 
program took in fiscal year 2007. All responders, providers and 
facilities must be ready to detect and respond to complex disasters, 
including terrorism, and HRSA must continue to support these vital 
hospital preparedness programs. Furthermore, HRSA's Trauma-EMS Systems 
Program, which is critical to ensure that our response to local, State 
and Federal emergencies is effective and reflects the best clinical 
practice in trauma and emergency medicine, was also proposed to be 
eliminated in fiscal year 2008. We request that the $3.5 million 
funding level be restored.
    The Office of Rural Health Policy, which serves more than 61 
million people, was cut by 89 percent in the President's budget. 
Although almost a quarter of the U.S. population lives in rural areas, 
only an eighth of our doctors work there. Because rural families 
generally earn less than urban families, many health problems 
associated with poverty are more serious, including high rates of 
chronic disease and infant mortality. We encourage the subcommittee to 
restore funding for rural health programs. Additionally, the HRSA Rural 
and Community Access to Emergency Devices Program provides grants to 
States to train lay rescuers and first responders to use AEDs and 
purchase and place these devices in public areas where cardiac arrests 
are likely to occur. We encourage the subcommittee to restore funding 
for this program to the fiscal year 2005 level of $8.927 million.
    The HIV/AIDS Bureau received a $21 million increase in the 
President's 2008 request over fiscal year 2007 levels for a total of 
$2.1 billion. The Ryan White CARE Act programs are the largest single 
source of Federal discretionary funding for HIV/AIDS health care for 
low-income, uninsured and underinsured Americans. While we are pleased 
with the additional funds for HIV related drug therapies, it is 
insufficient to meet the needs of those seeking services. We are 
concerned that the cuts across the programs since fiscal year 2003 is 
diminishing the availability of services. These cuts have forced State, 
local and public health clinics' HIV/AIDS programs to stretch already 
thin dollars to treat existing clients while trying to provide care and 
treatment to those newly diagnosed. We request an increase of $682 
million for Ryan White programs in fiscal year 2008. In fiscal year 
2006 the AIDS Drug Assistance Programs (ADAP) received a $2 million 
increase. Unfortunately, by the end of fiscal year 2007 it is expected 
that hundreds more individuals will be added to ADAP waiting lists and 
that States will have had to institute other cost-containment measures 
such as reduced formularies, increased cost-sharing for ADAP clients 
and lowered eligibility requirements for enrollment.
    Title X of the Public Health Service Act was enacted to provide 
high-quality, subsidized contraceptive care to those who cannot afford 
such services, to improve women's health, reduce unintended 
pregnancies, and decrease infant mortality and morbidity. Title X 
programs provide comprehensive, voluntary and affordable family 
planning services to millions--many of whom are uninsured--at more than 
4,600 clinics nationwide. People who visit Title X funded clinics 
receive a broad package of preventive health services, including breast 
and cervical cancer screening, blood pressure checks, anemia testing, 
and STD/HIV screening.
    A major source of HRSA's strength is its many linkages and 
partnerships with other Federal agencies, State, national and local 
organizations. For example, HRSA and the Centers for Medicare and 
Medicaid Services (CMS) are jointly implementing outreach on the new 
State Children's Health Insurance Program in addition to working 
together to improve data sharing and coordination, particularly on 
Medicaid. Work also is ongoing with the Substance Abuse and Mental 
Health Services Administration (SAMHSA) to integrate behavioral health 
and substance abuse screening, early intervention, referral and follow-
up into primary health care settings funded through HRSA grants. HRSA 
and the Centers for Disease Control and Prevention (CDC) cooperate on a 
variety of disease prevention and health promotion activities.
    We urge the members of the subcommittee to restore the allocations 
that were cut and fund the agency at a level that allows HRSA to 
effectively implement these important programs. The members of the 
Friends of HRSA are grateful for this opportunity to present our views 
to the subcommittee.
                                 ______
                                 
        Prepared Statement of the Friends of the NIDA Coalition

    Mr. Chairman and members of the subcommittee: The Friends of the 
National Institute on Drug Abuse (FoN), a burgeoning coalition of over 
165 scientific and professional societies, patient groups, and other 
organizations committed to preventing and treating substance use 
disorders as well as understanding the causes and public health 
consequences of addiction, is pleased to provide testimony in support 
of the NIDA's extraordinary work. Pursuant to clause 2(g)4 of House 
Rule XI, the Coalition does not receive any Federal funds.
    Drug abuse is costly--to individuals and to our society as a whole. 
Smoking, alcohol abuse and illegal drugs cost this country more than 
$500 billion a year, with illicit drug use alone accounting for about 
$180 billion in health care, crime, productivity loss, incarceration, 
and drug enforcement. Beyond its monetary impact, drug and alcohol 
abuse tear at the very fabric of our society, often spreading 
infectious diseases and bringing about family disintegration, loss of 
employment, failure in school, domestic violence, child abuse, and 
other crimes. The good news is that treatment for drug abuse is 
effective and recovery from addiction is real for millions of Americans 
across the country. Preventing drug abuse and addiction and reducing 
these myriad adverse consequences is the ultimate aim of our Nation's 
investment in drug abuse research. Over the past three decades, 
scientific advances resulting from research have revolutionized our 
understanding of and approach to drug abuse and addiction.
    Because of the critical importance of drug abuse research for the 
health and economy of our Nation, we write to you today to request your 
support for a 6.7 percent increase for NIDA in the fiscal year 2008 
Labor, Health and Human Services, Education and Related Agencies 
Appropriations bill. That would bring total funding for NIDA in fiscal 
year 2008 to $1,067,389,455. Recognizing that so many health research 
issues are inter-related, we also support a 6.7 percent increase for 
the National Institutes of Health overall, which would bring its total 
to $30.8 billion for fiscal year 2008. This work deserves continuing, 
strong support from Congress. Below is a short list of significant NIDA 
accomplishments, challenges, and successes.
    Reducing Prescription Drug Abuse.--NIDA research has documented a 
continued increase in the number of people, especially young people, 
who use prescription drugs for non-medical purposes. Particular concern 
revolves around the inappropriate use of opioid analgesics--very 
powerful pain medications. Research targeting a reduction in 
prescription drug abuse, particularly among our Nation's youth, should 
continue to be a priority for NIDA.
    Pain Medications and Addiction.--FoN commends NIDA for taking a 
leadership role in addressing issues around pain medications and 
addiction. The most powerful treatments available for most forms of 
pain are opioids. However, opioid treatment can produce negative health 
consequences, such as intoxication and physical dependence, and may 
result in opioid abuse and addiction. The prevalence of and process of 
how to prevent, reduce, and treat, these negative health consequences 
in the context of pain are not well understood. FoN is pleased that 
NIDA brought a focus to this important issue, in collaboration with the 
American Medical Association and in conjunction with the NIH Pain 
Consortium, via its Spring 2007 conference ``Pain, Opioids, and 
Addiction: An Urgent Problem for Doctors and Patients.''
    Genes, Environment, and Development.--FoN recognizes and commends 
NIDA for its leadership role in launching the Genes, Environment, and 
Development Initiative (GEDI) with the National Cancer Institute. This 
initiative will support research and add to our understanding of the 
contribution of genetic, environmental, and developmental factors to 
the etiology of substance abuse and related phenotypes, and will 
hopefully lead to improved and tailored drug abuse and addiction 
prevention and treatment interventions. FoN applauds this important, 
cutting-edge research.
    Social Neuroscience.--Research-based knowledge about the dynamic 
interactions of genes with environment confirms addiction as a complex 
and chronic disease of the brain with many contributors to its 
expression in individuals. FoN applauds NIDA's involvement in last 
year's ``social neuroscience'' request for applications, and this 
year's ``genes, environment, and development initiative'' request for 
applications.
    Centers of Excellence for Physician Information.--FoN is very 
pleased that NIDA has created Centers of Excellence for Physician 
Information, and understands that these Centers will serve as national 
models to support the advancement of addiction awareness, prevention, 
and treatment in primary care practices. The NIDA Centers of Excellence 
will target physicians-in-training, including medical students and 
resident physicians in primary care specialties (e.g., internal 
medicine, family practice, and pediatrics). FoN also applauds NIDA for 
developing these centers in collaboration with the American Medical 
Association's Research Education Consortium.
    Drug Abuse and HIV/AIDS.--NIDA understands that drug abuse and 
addiction continue to fuel the spread of HIV/AIDS in the United States 
and abroad, and that drug abuse prevention and treatment interventions 
can be very effective in reducing HIV risk. Research should continue to 
examine every aspect of HIV/AIDS, drug abuse, and addiction, including 
risk behaviors associated with both injection and non-injection drug 
abuse, how drugs of abuse alter brain function and impair decision 
making, and HIV prevention and treatment strategies for diverse groups. 
FoN applauds the Institute for holding a Spring 2007 conference titled 
``Drug Abuse and Risky Behaviors: The Evolving Dynamics of HIV/AIDS.''
    Medications Development.--FoN commends NIDA for its continued 
leadership in working with private industry to develop anti-addiction 
medications and is pleased this collaboration resulted in an effective 
medication for opiate addiction. FoN encourages NIDA to continue its 
efforts to engage the private sector in the development of anti-
addiction medications, particularly for cocaine, methamphetamine, and 
marijuana.
    Co-Occurring Disorders.--NIDA recognizes that substance abuse is a 
disorder that can affect the course of many other diseases. To 
adequately address co-occurring health problems, FoN encourages the 
Institute to work with other agencies to stimulate new research to 
develop effective strategies and to ensure the timely adoption and 
implementation of evidence-based practices for the prevention and 
treatment of co-occurring disorders.
    Adolescent Brain Development--How Understanding the Brain Can 
Impact Prevention Efforts.--FoN notes neuroimaging research by NIDA and 
others showing that the human brain does not fully develop until about 
age 25. This adds to the rationale for referring to addiction as a 
``developmental disease.'' FoN encourages NIDA to continue its emphasis 
on adolescent brain development to better understand how developmental 
processes and outcomes are affected by drug exposure, the environment, 
and genetics.
    Translating Research Into Practice.--FoN commends NIDA for its 
outreach and work with State substance abuse authorities to reduce the 
current 15- to 20-year lag between the discovery of an effective 
treatment intervention and its availability at the community level. In 
particular, FoN applauds NIDA for continuing its work with SAMHSA to 
strengthen State agencies' capacity to support and engage in research 
that will foster statewide adoption of meritorious science-based 
policies and practices. FoN encourages NIDA to continue this 
collaboration.
    Translational Research.--Ensuring Research is Adaptable and 
Useable. FoN commends NIDA for its broad and varied information 
dissemination programs. FoN also understands that the Institute 
continues its focus on stimulating and supporting innovative research 
to determine the components necessary for adopting, adapting, 
delivering, and maintaining effective research-supported policies, 
programs, and practices. As evidence-based strategies are developed, 
FoN urges NIDA to support research to determine how these practices can 
be best implemented at the community level.
    Primary Care Settings and Youth.--NIDA recognizes that primary care 
settings are potential key points of access to prevent and treat 
problem drug use among young people. FoN encourages NIDA to continue to 
support health services research on effective ways to educate primary 
care providers about drug abuse and develop brief behavioral 
interventions for preventing and treating drug use and related health 
problems; and develop methods to integrate drug abuse screening, 
assessment, prevention and treatment into primary health care settings.
    Utilizing Knowledge of Genetics and New Technological Advances to 
Curtail Addiction.--NIDA recognizes that not everyone who takes drugs 
becomes addicted. Research has shown that genetics plays a critical 
role in addiction, and that the interplay between genetics and 
environment is crucial. FoN applauds the Institute's efforts to find 
new and important uses for brain imaging technologies and urges the 
Institute to continue work in this area.
    Reducing Health Disparities.--NIDA research notes that the 
consequences of drug abuse disproportionately impact minorities, 
especially African American populations. FoN is pleased to learn that 
NIDA continues to encourage researchers to conduct more studies in this 
population and to target their studies in geographic areas where HIV/
AIDS is high and or growing among African Americans, including in 
criminal justice settings.
    The Clinical Trials Network--Using Infrastructure to Improve 
Health.--FoN is pleased with the continued success and progress of 
NIDA's National Drug Abuse Treatment Clinical Trials Network (CTN). The 
CTN provides an infrastructure to test the effectiveness of new and 
improved interventions in real-life community settings with diverse 
populations, enabling an expansion of treatment options for providers 
and patients.
    Drug Treatment in Criminal Justice Settings.--NIDA is very 
concerned about the well-known connections between drug use and crime. 
Research continues to demonstrate that providing treatment to 
individuals involved in the criminal justice system significantly 
decreases future drug use and criminal behavior, while improving social 
functioning. FoN strongly supports NIDA's efforts in this area, 
particularly the Criminal Justice Drug Abuse Treatment Studies (CJ-
DATS).
    Emerging Drug Problems.--FoN recognizes that drug use patterns are 
constantly changing and is pleased with NIDA's efforts to monitor drug 
use trends and to rapidly inform the public of emerging drug problems. 
FoN especially encourages NIDA to continue supporting research that 
provides reliable data on emerging drug trends, particularly among 
youth and in major U.S. cities.
    Reducing Methamphetamine Abuse.--NIDA is very concerned about the 
continued abuse of methamphetamine across the United States. NIDA notes 
the advances in understanding methamphetamine abuse and addiction, and 
is encouraged by the growing evidence of treatment effectiveness in 
these populations. FoN urges NIDA to continue supporting research to 
address the broad medical consequences of methamphetamine abuse.
    Reducing Inhalant Abuse.--NIDA understands and is alarmed that 
inhalant use continues to be a significant problem among our youth. FoN 
urges the Institute to continue its support of research on prevention 
and treatment of inhalant abuse, and to enhance public awareness on 
this issue.
    Long-Term Consequences of Marijuana Use.--NIDA is concerned with 
the continuing widespread use of marijuana. FoN urges NIDA to continue 
support for efforts to assess the long-term consequences of marijuana 
use on cognitive abilities, achievement, and mental and physical 
health, as well as work with the private sector to develop medications 
focusing on marijuana addiction.
    Blending Research and Practice.--NIDA notes that it takes far too 
long for clinical research results to be implemented as part of routine 
patient care, and that this lag in diffusion of innovation is costly 
for society, devastating for individuals and families, and wasteful of 
knowledge and investments made to improve the health and quality of 
people's lives. FoN applauds NIDA's collaborative approach aimed at 
proactively involving all entities invested in changing the system and 
making it work better.
    Disseminating Drug Abuse and Addiction Research Information to the 
General Public.--FoN congratulates NIDA for its collaboration with HBO 
and other partners on the production of a groundbreaking documentary 
film on addiction. This film details the latest scientific knowledge on 
addiction and presents it in a compelling way for the lay public, 
helping people to understand addiction as a brain disease that can be 
successfully treated. FoN recognizes the importance of this documentary 
because it shows that substance abuse happens to ordinary, every day 
people, and that treatment can be very successful. The documentary 
should encourage support of those who suffer from this disease, and 
will reduce the stigma that so often accompanies it.
    Support for Young Investigators.--NIDA recognizes the importance 
of, over time, replenishing the ``pipeline'' of researchers in the 
addiction field. FoN congratulates NIDA for its focus on supporting 
young investigators, especially in the area of clinical research. Such 
support is crucial to the future of this field, and the Institute 
should continue its efforts in this area.
    Thank you, Mr. Chairman, and the subcommittee, for your support for 
the National Institute on Drug Abuse.
                                 ______
                                 
               Prepared Statement of Gallaudet University

    Mr. Chairman and members of the committee: I would like to express 
my appreciation to you and to Congress for the generous support that we 
received in fiscal year 2007 during what I know are difficult times for 
Federal funding. I am especially grateful that Congress continues to 
support us during these challenging times, and I am writing in support 
of our appropriation request for fiscal year 2008. As I enter the first 
months of my presidency, I would like to introduce myself to you and 
discuss briefly the challenges that Gallaudet has faced during the past 
year and those that it will face in the near future.
    In December, 2006, I was appointed interim president of Gallaudet 
following a lengthy protest, involving a broad segment of the Gallaudet 
community, against the installation of the individual appointed by 
Gallaudet's Board of Trustees to succeed Dr. I. King Jordan. I recently 
informed the University community that the 2 months since I took office 
on January 2, 2007 have been the most difficult and challenging of my 
50 year career in education and government service (I have come out of 
retirement for a second time to accept this challenge). At the same 
time, this may be the most energized I have ever felt, as well. I do 
not want to minimize the seriousness of the issues that were at the 
heart of the protest, but I also want to assure you that I believe the 
Gallaudet community has never been more unified in its purpose to work 
together toward a future that will be worthy of Gallaudet's 
distinguished past.
    First though, I think it is important for you to know something 
about the qualifications I bring to this task. I am a proud graduate of 
Gallaudet, having received my bachelor's degree in 1953. As I have told 
everyone willing to listen to my story, it was Gallaudet that prepared 
me to take advantage of the opportunities that eventually became open 
to me--Gallaudet made me what I am, and like many other deaf people I 
will always be grateful for that. When I left Gallaudet, I became a 
mathematics teacher at the New York School for the Deaf in White 
Plains. After earning a Master's degree from Hunter College and a Ph.D. 
in educational technology from Syracuse University, I was appointed 
director of the Kendall Demonstration Elementary School and then vice 
president for Pre-College Programs at Gallaudet.
    Following 11 years as a Gallaudet vice president, I was appointed 
by President George H. W. Bush and approved by the Senate as Assistant 
Secretary of Education for Special Education and Rehabilitative 
Services, where I served as the chief oversight officer for Gallaudet 
and the National Technical Institute for the Deaf (NTID) until 1993. 
Since then, I have served for 3 years as headmaster of the New York 
School and, finally, for 8 years as vice president of the Rochester 
Institute of Technology and director of NTID. I think my career 
experiences have given me a unique perspective on the needs of 
Gallaudet University and on its relationship with the Federal 
Government.
    I would like to address those needs briefly. Because of Congress's 
support for Gallaudet during recent years, we have been able to 
maintain a competitive pay structure for our employees while retaining 
the flexibility to meet the needs of a changing student body. Given the 
unique student population we serve and the communication skills our 
employees are expected to possess, retaining skilled employees is 
critical to our mission. Gallaudet employees received general pay 
increases of 2 percent in fiscal year 2003, 3 percent in fiscal year 
2004, 2 percent in fiscal year 2005, and 2 percent again in fiscal year 
2006 and 2007, increases that are below what Federal employees in the 
region received during the same timeframe, and somewhat below increases 
in the Consumer Price Index (CPI). During the most recent 12 month 
period, the national CPI-U increased by 2.1 percent and that for the 
Washington, DC locality increased by 2.9 percent. Given these current 
rates of inflation and a small erosion in the purchasing power or our 
employee salaries in recent years, I am projecting the need for a 3 
percent general pay increase in fiscal year 2008. We are also 
requesting support for inflationary increases in non-salary areas, 
especially in the cost of utilities and benefits. In this regard, I 
need to point out that our benefits costs during the past several years 
have increased by more than 2 percent of base salaries, and we have had 
to fund those increases as part of our total payroll package.
    The administration budget for fiscal year 2008 includes $106.998 
million for Gallaudet, the same as our fiscal year 2007 and 2006 
appropriations, and it would, thus, represent a second year of no 
funding increase. Moreover, the administration budget proposes that 
$600,000 of that base budget be used by the Department of Education for 
a major evaluation of Gallaudet's programs. As a former Federal 
oversight officer for Gallaudet, I understand the importance of 
evaluation studies, and I would welcome working in this way with the 
Federal Government, but I need to point out that taking these funds 
from our existing budget would further erode our financial base. I have 
carefully analyzed our fiscal year 2008 funding needs and have 
determined that in order to provide a 3 percent salary increase to our 
faculty and staff, and to meet other inflation-driven increases, we 
need an increase of at least 3 percent, or $3.2 million, in our 
appropriation for operations. I have announced a set of priorities to 
the Gallaudet community that are student centered and that are designed 
to restore Gallaudet's traditional reputation for excellence in the 
education of deaf students. This modest increase in our appropriation 
would provide substantial support for the achievement of this agenda.
    In addition, I want to bring to your attention a major a problem 
for Gallaudet's infrastructure. During the past several years, there 
has been damage to dormitories serving the students of the Model 
Secondary School for the Deaf (MSSD) as a result of instability in the 
hillside site of the school's facilities. This instability is due to 
the construction of the facilities on an area underlain by a layer of 
marine clay, a problem that has been identified throughout the 
Washington region only during the past 20 to 30 years, following the 
construction of the MSSD facilities. We have discussed this problem 
with officials from the Department of Education in the past, but only 
with respect to the dormitories. During the past year, it has become 
evident that the main MSSD academic building is now being affected and 
there are threats to other buildings in the vicinity, including the 
Kendall Demonstration Elementary School (KDES). We have retained soil 
and structural engineers to assist us in assessing the current damage 
and the future threat, and to help us estimate costs for stabilizing 
the site and repairing the structural damage that has already occurred. 
Because of the urgent nature of the situation we have sought the 
support of the Department and are requesting funding to begin site 
stabilization from Congress in fiscal year 2008. Current estimates for 
stabilizing the site and repairing the existing damage are in the range 
of $15 to $20 million. I am requesting $7.5 million in fiscal year 2008 
to support the cost of stabilizing the site. I will be making further 
requests to repair the damage to facilities in fiscal year 2009.
    In making this request, I want to point out that Gallaudet has not 
asked for special funding for construction for many years. The 
buildings most recently constructed on the campus, the Kellogg 
Conference Center and the Jordan Student Academic Center were 
constructed with privately raised funds, as will be the Sorenson Center 
for Language and Communication that is currently under construction. 
So, I do not make this request lightly. The Model Secondary School is 
operated as a public school, without charging tuition and with the full 
support of the Federal Government. Therefore, I believe this request 
for support is both prudent and appropriate.

                  FUNDING REQUEST FOR FISCAL YEAR 2008

    In our budget request to the Department of Education for fiscal 
year 2008, we addressed the need for inflationary increases as well as 
support for program development. Given the funding issues currently 
facing Congress, I am requesting support at this time only for our most 
pressing inflationary needs and the need to address the infrastructure 
issues I described above. Funding of our need to cover inflationary 
costs will provide us some budget stability, but we will continue to 
face the need for development and enhancement of our programs. Our 
strategy will be to seek alternative sources of funding for some of 
these program priorities and to defer development of others. We will 
continue to seek support for program growth from both Federal and 
private sources in the future.
  --Inflationary costs at 3 percent--$3.2 million.
  --MSSD site stabilization--$7.5 million.
    My total request for fiscal year 2008 is, thus, $117.7 million; 
$110.2 million for operations and $7.5 million for site stabilization 
of the MSSD facilities.
    I appreciate the challenges that Congress faces in making 
appropriations decisions for fiscal year 2008, but I believe experience 
has shown that Gallaudet provides an outstanding return on Federal 
dollars that are invested here, in terms of the educated and productive 
deaf community that the Nation enjoys as a result. Thank you.
                                 ______
                                 
  Prepared Statement of the Health Professions and Nursing Education 
                               Coalition

    The members of the Health Professions and Nursing Education 
Coalition (HPNEC) are pleased to submit this statement for the record 
in support of the health professions education programs authorized 
under Titles VII and VIII of the Public Health Service Act. HPNEC is an 
informal alliance of more than 60 national organizations representing 
schools, programs, health professionals, and others dedicated to 
ensuring that Title VII and VIII programs continue to help educate the 
Nation's health care and public health personnel. HPNEC members are 
thankful for the support the subcommittee has provided to the programs, 
which are essential to building a well-educated, diverse health care 
workforce.
    The Title VII and VIII health professions and nursing programs are 
essential components of the Nation's health care safety net, bringing 
health care services to underserved communities. These programs support 
the training and education of health care providers with the aim of 
enhancing the supply, diversity, and distribution of the workforce, 
filling the gaps in the health professions' supply not met by 
traditional market forces. The Title VII and VIII health professions 
programs are the only Federal programs designed to train providers in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the health 
care workforce.
    The final fiscal year 2006 Labor-HHS-Education Appropriations bill 
cut Title VII & VIII programs by 34.5 percent, including a 51.5 percent 
cut to Title VII programs. The $40 million increase provided for Title 
VII in the recently enacted fiscal year 2007 joint funding resolution 
does not restore these devastating cuts. Moreover, the President's 
fiscal year 2008 budget proposes an additional 94.6 percent cut to 
Title VII and a 29.7 percent cut to Title VIII.
    HPNEC members recommend that the Title VII and VIII programs 
receive an appropriation of at least $550 million for fiscal year 2008. 
This recommendation would ensure the programs have sufficient funds to 
continue fulfilling their mission of educating and training a health 
care workforce that meets the public's health care needs.
    During their 40-year existence, the Title VII and VIII programs 
have created a network of initiatives across the country that supports 
the training of many disciplines of health providers. Together, the 
programs work in concert with the National Health Service Corps and 
Community Health Centers (CHCs) to strengthen the health safety net for 
rural and medically underserved communities. A March 2006 study 
published in the Journal of the American Medical Association (JAMA) 
found that CHCs report high percentages of provider vacancies, 
including an insufficient supply of dentists, pharmacists, 
pediatricians, family physicians, and registered nurses; these 
shortages are especially pronounced in rural areas. Because Title VII 
and VIII programs have a successful record of training providers who 
serve underserved areas, the study recommends increased support for the 
programs as its primary means of alleviating the shortages. Further, 
the study serves as an important reminder that the success of CHCs is 
highly dependent upon a well-trained clinical staff to provide care.
    HPNEC members urge the subcommittee to consider the vital need for 
these health professions education programs as demonstrated by the 
passage of the Health Professions Education Partnerships Act of 1998 
(Public Law 105-392), which reauthorized the programs. The 
reauthorization consolidated the programs into seven general 
categories:
  --The purpose of the Minority and Disadvantaged Health Professionals 
        Training programs is to improve health care access in 
        underserved areas and the representation of minority and 
        disadvantaged health care providers in the health professions. 
        Minority Centers of Excellence support programs that seek to 
        increase the number of minority health professionals through 
        increased research on minority health issues, establishment of 
        an educational pipeline, and the provision of clinical 
        opportunities in community-based health facilities. The Health 
        Career Opportunity Program seeks to improve the development of 
        a competitive applicant pool through partnerships with local 
        educational and community organizations. The Faculty Loan 
        Repayment and Faculty Fellowship programs provide incentives 
        for schools to recruit underrepresented minority faculty. The 
        Scholarships for Disadvantaged Students (SDS) make funds 
        available to eligible students from disadvantaged backgrounds 
        who are enrolled as full-time health professions students.
  --The Primary Care Training category, including General Pediatrics, 
        General Internal Medicine, Family Medicine, General Dentistry, 
        Pediatric Dentistry, and Physician Assistants, provides for the 
        education and training of primary care physicians, dentists, 
        and physician assistants to improve access and quality of 
        health care in underserved areas. The General Pediatrics, 
        General Internal Medicine, and Family Medicine programs provide 
        critical funding for primary care training in community-based 
        settings and have been successful in directing more primary 
        care physicians to work in underserved areas. They support a 
        range of initiatives, including medical student training, 
        residency training, faculty development and the development of 
        academic administrative units. The General Dentistry and 
        Pediatric Dentistry programs provide grants to dental schools 
        and hospitals to create or expand primary care dental residency 
        training programs. Recognizing that all primary care is not 
        only provided by physicians, the primary care cluster also 
        provides grants for Physician Assistant programs to encourage 
        and prepare students for primary care practice in rural and 
        urban Health Professional Shortage Areas. Additionally, these 
        programs enhance the efforts of osteopathic medical schools to 
        continue to emphasize primary care medicine, health promotion, 
        and disease prevention, and the practice of ambulatory medicine 
        in community-based settings.
  --Because much of the Nation's health care is delivered in areas far 
        removed from health professions schools, the Interdisciplinary, 
        Community-Based Linkages cluster provides support for 
        community-based training of various health professionals. These 
        programs are designed to provide greater flexibility in 
        training and to encourage collaboration between two or more 
        disciplines. These training programs also serve to encourage 
        health professionals to return to such settings after 
        completing their training. The Area Health Education Centers 
        (AHECs) provide clinical training opportunities to health 
        professions and nursing students in rural and other underserved 
        communities by extending the resources of academic health 
        centers to these areas. Health Education and Training Centers 
        (HETCs) were created to improve the supply of health 
        professionals along the U.S.-Mexico border. They incorporate a 
        strong emphasis on wellness through public health education 
        activities for disadvantaged populations. Geriatric Health 
        Professions programs support geriatric faculty fellowships, the 
        Geriatric Academic Career Award, and Geriatric Education 
        Centers, which are all designed to bolster the number and 
        quality of health care providers caring for our older 
        generations. The Quentin N. Burdick Program for Rural Health 
        Interdisciplinary Training places an emphasis on long-term 
        collaboration between academic institutions, rural health care 
        agencies and providers to improve the recruitment and retention 
        of health professionals in rural areas. The Allied Health 
        Project Grants program represents the only Federal effort aimed 
        at supporting new and innovative education programs designed to 
        reduce shortages of allied health professionals and create 
        opportunities in medically underserved and minority areas. The 
        Graduate Psychology Education Program provides grants to 
        doctoral, internship and postdoctoral programs in support of 
        interdisciplinary training of psychology students with other 
        health professionals for the provision of mental and behavioral 
        health services to underserved populations, especially in rural 
        and urban communities.
  --The Health Professions Workforce and Analysis program provides 
        grants to institutions to collect and analyze data on the 
        health professions workforce to advise future decision-making 
        on the direction of health professions and nursing programs. 
        The Health Professions Research and Health Professions Data 
        programs have developed a number of valuable, policy-relevant 
        studies on the distribution and training of health 
        professionals, including the Eighth National Sample Survey of 
        Registered Nurses (NSSRN), the Nation's most extensive and 
        comprehensive source of statistics on registered nurses.
  --The Public Health Workforce Development programs are designed to 
        increase the number of individuals trained in public health, to 
        identify the causes of health problems, and respond to such 
        issues as managed care, new disease strains, food supply, and 
        bioterrorism. The Public Health Traineeships and Public Health 
        Training Centers seek to alleviate the critical shortage of 
        public health professionals by providing up-to-date training 
        for current and future public health workers, particularly in 
        underserved areas. Preventive Medicine Residencies provide 
        training in the only medical specialty that teaches both 
        clinical and population medicine to improve community health. 
        Dental Public Health Residency programs are vital to the 
        Nation's dental public health infrastructure. The Health 
        Administration Traineeships and Special Projects grants are the 
        only Federal funding provided to train the managers of our 
        health care system, with a special emphasis on those who serve 
        in underserved areas.
  --The Nursing Workforce Development programs under Title VIII provide 
        training for entry-level and advanced degree nurses to improve 
        the access to, and quality of, health care in underserved 
        areas. Health care entities across the Nation are experiencing 
        a crisis in nurse staffing, caused in part by an aging 
        workforce and capacity limitations within the educational 
        system. Each year, nursing schools turn away between 42,000 and 
        92,000 qualified applicants at all degree levels due to an 
        insufficient number of faculty, clinical sites, classroom 
        space, clinical preceptors, and budget constraints. Congress 
        responded to this dire national need by passing the Nurse 
        Reinvestment Act (Public Law 107-205) in 2002, which increases 
        nursing education, retention, and recruitment. The Advanced 
        Education Nursing program awards grants to train a variety of 
        advanced practice nurses, including nurse practitioners, 
        certified nurse-midwives, nurse anesthetists, public health 
        nurses, nurse educators, and nurse administrators. Workforce 
        Diversity grants support opportunities for nursing education 
        for disadvantaged students through scholarships, stipends, and 
        retention activities. Nurse Education, Practice, and Retention 
        grants are awarded to help schools of nursing, academic health 
        centers, nurse managed health centers, State, and local 
        governments, and other health care facilities to develop 
        programs that provide nursing education, promote best 
        practices, and enhance nurse retention. The Loan Repayment and 
        Scholarship Program repays up to 85 percent of nursing student 
        loans and offers full-time and part-time nursing students the 
        opportunity to apply for scholarship funds. In return these 
        students are required to work for at least 2 years of practice 
        in a designated nursing shortage area. The Comprehensive 
        Geriatric Education grants are used to train RNs who will 
        provide direct care to older Americans, develop and disseminate 
        geriatric curriculum, train faculty members, and provide 
        continuing education. The Nurse Faculty Loan program provides a 
        student loan fund administered by schools of nursing to 
        increase the number of qualified nurse faculty. The Title VIII 
        nursing programs also support the National Advisory Council on 
        Nurse Education and Practice, which is charged with advising 
        the Secretary of Health and Human Services and Congress on 
        nursing workforce, education, and practice improvement issues.
  --The loan programs in the Student Financial Assistance support needy 
        and disadvantaged medical and nursing school students in 
        covering the costs of their education. The Nursing Student Loan 
        (NSL) program provides loans to undergraduate and graduate 
        nursing students with a preference for those with the greatest 
        financial need. The Primary Care Loan (PCL) program provides 
        loans covering the cost of attendance in return for dedicated 
        service in primary care. The Health Professional Student Loan 
        (HPSL) program provides loans covering the cost of attendance 
        for financially needy health professions students based on 
        institutional determination. The NSL, PCL, and HPSL programs 
        are funded out of each institution's revolving fund and do not 
        receive Federal appropriations. The Loans for Disadvantaged 
        Students (LDS) program provides grants to health professions 
        institutions to make loans to health professions students from 
        disadvantaged backgrounds.
    These programs work collectively to fulfill their unique, three-
pronged mission:
Title VII & VIII programs enhance the supply of the health professions 
        workforce
    A network of 50 Geriatric Education Centers has trained over 
500,000 health practitioners in 35 health-related disciplines to better 
serve the burgeoning elderly population.
    As the largest source of Federal funding for nursing education, the 
Nursing Workforce Development programs provided loan, scholarship, and 
programmatic support to 48,698 student nurses and nurses in fiscal year 
2006.
Title VII & VIII programs improve the distribution of health care 
        providers
    A study published in the Winter 2006 issue of the Journal of Rural 
Health reports that up to 83 percent of family medicine residents and 
80 percent of nurse practitioners who went through a program with Title 
VII or VIII funding chose to practice in areas with health professions 
shortages or medically underserved practice locations.
    A study from the University of California, San Francisco shows that 
medical schools that receive primary care training dollars produce more 
physicians who work in CHCs and serve in the National Health Service 
Corps compared to schools without Title VII primary care funding.
Title VII & VIII programs increase the representation of minority and 
        disadvantaged students in the health professions
    A study published in the September 2006 issue of the JAMA finds 
that post-baccalaureate programs, which rely on Title VII among other 
sources of funding, are highly effective in increasing minority 
representation in medical school. The study concludes that enacted 
reductions in funding for Title VII may have negative consequences for 
these effective programs.
    A review of physician assistant graduates from 1990-2004 reveals 
that graduates of Title VII supported programs were 67 percent more 
likely to be from underrepresented minority backgrounds than graduates 
of non-Title VII supported programs.
    HPNEC members respectfully urge support for funding of at least 
$550 million for the Title VII and VIII programs, an investment 
essential not only to the development and training of tomorrow's health 
care professions but also to our Nation's efforts to provide needed 
health care services to underserved and minority communities. We 
greatly appreciate the support of the subcommittee and look forward to 
working with Members of Congress to achieve these goals in fiscal year 
2008 and into the future.
                                 ______
                                 
             Prepared Statement of the Heart Rhythm Society

    The Heart Rhythm Society (HRS) thanks you and the Subcommittee on 
Labor, Health and Human Services and Education for your past and 
continued support of the National Institute of Health, and specifically 
the National Heart, Lung and Blood Institute (NHLBI).
    The Heart Rhythm Society, founded in 1979 to address the scarcity 
of information about the diagnosis and treatment of cardiac 
arrhythmias, is the international leader in science, education and 
advocacy for cardiac arrhythmia professionals and patients, and the 
primary information resource on heart rhythm disorders. The Heart 
Rhythm Society serves as an advocate for millions of American citizens 
from all 50 States, since arrhythmias are the leading cause of heart-
disease related deaths. Other, less lethal forms of arrhythmias are 
even more prevalent, account for 14 percent of all hospitalizations of 
Medicare beneficiaries.\1\ A Our mission is to improve the care of 
patients by promoting research, education and optimal health care 
policies and standards. We are the preeminent professional group, 
representing more than 4,200 specialists in cardiac pacing and 
electrophysiology.
---------------------------------------------------------------------------
    \1\ Heart Rhythm Foundation, Arrhythmia Key Facts, 2004 http://
www.heartrhythmfoundation.org/facts/arrhythmia.asp
---------------------------------------------------------------------------
    The Heart Rhythm Society recommends the subcommittee renew its 
commitment to supporting biomedical research in the United States and 
recommends Congress provide NIH with a 6.7 percent increase for fiscal 
year 2008. This increase will enable NIH and NHLBI to sustain the level 
of research that leads to research breakthroughs and improved health 
outcomes. In particular, the Heart Rhythm Society recommends Congress 
support research into abnormal rhythms of the heart.
    HRS appreciates the actions of Congress to double the budget of the 
NIH in recent years. The doubling has directly promoted innovations 
that have improved treatments and cures for a myriad of medical 
problems facing our Nation. Medical research is a long-term process and 
in order to continue to meet the evolving challenges of improving human 
health we must not let our commitment wane. Furthermore, NIH research 
fuels innovation that generates economic growth and preserves our 
Nation's role as a world leader in the biomedical and biotech 
industries. Healthier citizens are the key to robust economic growth 
and greater productivity. Economists estimate that improvements in 
health from 1970 to 2000 were worth $95 trillion. During the same time 
period, the United States invested $200 billion in the NIH. If only 10 
percent of the overall health savings resulted from NIH-funded 
research, our investment in medical research has provided a 50-fold 
return to the economy.\2\
---------------------------------------------------------------------------
    \2\ Murphy, KM and Topel, RH, The Value of Health and Longevity, 
National Bureau of Economic Research Working Paper Series, Working 
Paper 11405, June 2005.
---------------------------------------------------------------------------
    Unfortunately, since the end of the doubling in 2003, funding for 
NIH has failed to keep pace with biomedical inflation. As a result 13 
percent of NIH's purchasing power has been lost. Because of this NIH 
has been unable to fully fund existing multi-year grants, thus stalling 
life-saving discoveries. If these vacillations in funding continue, 
future generations of researchers will become discouraged from pursuing 
a career in basic science and laboratories' resources could be strained 
to the point of forcing lay-offs and even closure.

                        RESEARCH ACCOMPLISHMENTS

    In the field of cardiac arrhythmias, NIH-funded research has 
advanced our ability to treat atrial fibrillation and thus prevent the 
devastating complications of stroke. Atrial fibrillation is found in 
about 2.2 million Americans and increases the risk for stroke about 5-
fold. About 15-20 percent of strokes occur in people with atrial 
fibrillation. Stroke is a leading cause of serious, long-term 
disability in the United States and people who have strokes caused by 
AF have been reported as 2-3 times more likely to be bedridden compared 
to those who have strokes from other causes. Each year about 700,000 
people experience a new or recurrent stroke and in 2002 stroke 
accounted for more than 1 of every 15 deaths in the United States. 
Ablation therapy however is providing a cure for individuals whose 
rapid heart rates had previously incapacitated them, giving them a new 
lease on life.\3\
---------------------------------------------------------------------------
    \3\ American Stroke Association and American Heart Association, 
Heart Disease and Stroke Statistics_2005 Update, 2005 http://
www.americanheart.org/downloadable/heart/
1105390918119HDSStats2005Update.pdf
---------------------------------------------------------------------------
    Important advances have also been made in identifying patients with 
heart failure and those who have suffered a heart attack and are at 
risk for sudden death. The development, through initial NIH-sponsored 
research, and implantation of sophisticated internal cardioverter 
defibrillators (ICD's) in such patients has saved the lives of hundreds 
of thousands and provides peace of mind for families everywhere, 
including that of Vice-President Cheney's. A new generation of 
pacemakers and ICDs is restoring the beat of the heart as we grow 
older, permitting us to lead more normal and productive lives, reducing 
the burden on our families, communities and the healthcare system. 
Arrhythmias and sudden death affect all age groups and are not solely 
diseases of the elderly.
    Research advances in molecular genetics have provided us the root 
basis for life-threatening abnormal rhythms of the heart associated 
with of wide range of inherited syndromes including long and short QT, 
Brugada syndromes, and hypertrophic cardiomyopathies. Inroads have been 
achieved in the identification of cardiac arrhythmias as a cause of 
Sudden Infant Death Syndrome (SIDS) and the genetic basis for a new 
clinical entity associated with sudden death of young adults was 
uncovered earlier this year. This knowledge has provided guidance to 
physicians for better detection and treatment of these sudden death 
syndromes reducing mortality and disability of infants, children and 
young adults. Individuals who survive an instance of sudden death often 
remain in vegetative states, resulting in a devastating burden on their 
families and an enormous economic burden on society. These advances 
have translated into sizeable savings to the health care system in the 
United States. Researchers are also developing a noninvasive imaging 
modality for cardiac arrhythmias. Despite the fact that more than 
325,000 Americans die every year from heart rhythm disorders, a 
noninvasive imaging approach to diagnosis and guided therapy of 
arrhythmias, the equivalent of CT or MRI, has previously not been 
available.
    The NIH-funded Public Access Defibrillation (PAD) Trial was also 
able to determine that trained community volunteers increase survival 
for victims of cardiac arrest. It had already been known that 
defibrillation, utilizing an automated external defibrillator (AED), by 
trained public safety and emergency medical services personnel is a 
highly effective live-saving treatment for cardiac arrest. A NIH-funded 
trial however was able to conclude that placing AED's in public places 
and training lay persons to use them can prevent additional deaths and 
disabilities.\4\
---------------------------------------------------------------------------
    \4\ National Heart Lung and Blood Institute, NIH, Public Access 
Defibrillation by Trained Community Volunteers Increases Survival for 
Victims of Cardiac Arrest, November 2003 http://www.nhlbi.nih.gov/new/
press/03-11-11.htm
---------------------------------------------------------------------------
    Without NIH support, these life-saving findings may have taken a 
decade to unravel. The highly focused approach utilizing basic and 
clinical expertise, funded through Federal programs made these advances 
a reality in a much shorter time-period.

                          BUDGET JUSTIFICATION

    These impressive strides notwithstanding, cardiac arrhythmias 
continue to plague our society and take the lives of loved ones at all 
ages, nearly one every minute of every day, as well as straining an 
already burdened health system. Sudden Cardiac Arrest is a leading 
cause of death in the United States, claiming an estimated 325,000 
lives every year, or one life every 2 minutes.\5\ The burden of 
morbidity and mortality due to cardiac arrhythmias is predicted to grow 
dramatically as the baby boomers age. Atrial fibrillation strikes 3-5 
percent of people over the age of 65,\6\ Apresenting a skyrocketing 
economic burden to our society in the form of healthcare treatment and 
delivery. Cardiac diseases of all forms increase with advancing age, 
ultimately leading to the development of arrhythmias. Effective drug 
therapy for the management of atrial fibrillation is one of the 
greatest unmet needs in our society today and additional research is 
needed to address this problem. NIH research provides the basis for the 
medical advances that hold the key to lowering health care costs.
---------------------------------------------------------------------------
    \5\ Heart Rhythm Foundation, The Facts on Sudden Cardiac Arrest, 
2004 http://www.heartrhythmfoundation.org/itsabouttime/pdf/
providerfactsheet.pdf
    \6\ Heart Rhythm Society, Atrial Fibrillation & Flutter, 2005 
http://www.hrspatients.org/patients/heart disorders/atrial 
fibrillation/default.asp
---------------------------------------------------------------------------
    The above progress we have witnessed in recent years will provide 
treatments for this illness, only if the resources continue to be 
available to the academic scientific and medical community. However, 
the budgets appropriated by Congress to the NIH in the past 3 years 
were far below the level of scientific inflation. These vacillations in 
funding cycles threaten the continuity of the research and the momentum 
that has been gained over the years. While HRS recognizes that Congress 
must balance other priorities, sustaining multi-year growth for the 
biomedical research enterprise is critical. A central objective of the 
doubling of the NIH budget was to accelerate solutions to human disease 
and disability. NIH is now engaging in the next generation of 
biomedical research to translate basic research and clinical evidence 
into new cures. Our ability to bring together uniquely qualified and 
devoted investigators and collaborators both at the basic science level 
and in the clinical arena is a vital key to our to this success. 
Funding models however show that a threshold exists, below which NIH 
will not be able to maintain its current scope and number of grants, 
let alone expand its programs to address new concerns and emerging 
opportunities. Furthermore, the United States is in danger of losing 
its leadership role in science and technology. The United States faces 
growing competition from other nations, such as China and India, which 
are working to invest more of their GDP's into building state-of-the 
art research institutes and universities to foster innovation and 
compete directly for the world's top students and researchers.\7\
---------------------------------------------------------------------------
    \7\ Task Force on the Future of American Innovation, The Knowledge 
Economy: Is the United States Losing it's Competitive Edge?, February 
16, 2005.
---------------------------------------------------------------------------
    It is for this reason that we are asking for your support to 
increase NIH appropriations by 6.7 percent for fiscal year 2008. The 
Heart Rhythm Society recommends Congress specifically acknowledge the 
need for cardiac arrhythmia research to prevent sudden cardiac arrest 
and other life threatening conditions such as sudden infant death 
syndrome, definitive therapeutic approaches for atrial fibrillation and 
the prevention of stroke, and other genetic arrhythmia conditions. 
Thank you very much for your consideration of our request.
    If you have any questions or need additional information, please 
contact Nevena Minor, Coordinator, Health Policy at the Heart Rhythm 
Society (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="06686b6f686974466e747569686a6f686328697461">[email&#160;protected]</a> or 202-464-3431).
    Thank you again for the opportunity to submit testimony.
                                 ______
                                 
      Prepared Statement of the Hepatitis Foundation International

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

    Continue the great strides in research at the National Institutes 
of Health (NIH) by providing a 6.7 percent budget increase for fiscal 
year 2008. Increase funding for the National Institute for Allergy and 
Infectious Diseases (NIAID), the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK), the National Institute on 
Alcohol Abuse and Alcoholism (NIAAA), and the National Institute on 
Drug Abuse (NIDA) by 6.7 percent.
    Continued support for the hepatitis B vaccination program for 
adults at the Centers for Disease Control and Prevention (CDC) as well 
as CDC's Prevention Research Centers by providing an 8 percent increase 
for CDC.
    Support for the Substance Abuse and Mental Health Services 
Administration (SAMHSA) by providing an 8 percent increase in fiscal 
year 2007.
    Urge CDC, NIAID, NIDDK, NIAAA, NIDA, and SAMHSA to work with 
voluntary health organizations to promote liver wellness, education, 
and prevention of both hepatitis and substance abuse.
    Mr. Chairman and members of the subcommittee, thank you for your 
continued leadership in promoting better research, prevention, 
education, and control of diseases affecting the health of our Nation. 
I am Thelma King Thiel, Chairman and Chief Executive Officer of the 
Hepatitis Foundation International (HFI).
    Currently, five types of viral hepatitis have been identified, 
ranging from type A to type E. All of these viruses cause acute, or 
short-term, viral hepatitis. Hepatitis B, C, and D viruses can also 
cause chronic hepatitis, in which the infection is prolonged, sometimes 
lifelong. While treatment options are available for many patients, 
individuals with chronic viral hepatitis B and C represent a 
significant number of the patients that require a liver transplant. 
Current treatments have limited success and there is no vaccine 
available for hepatitis C, the most prevalent of these diseases.

                              HEPATITIS B

    Hepatitis B (HBV) claims an estimated 5,000 lives every year in the 
United States, even though therapies exist that slow the progression of 
liver damage. Vaccines are available to prevent hepatitis B. This 
disease is spread through contact with the blood and body fluids of an 
infected individual and from an HBV infected mother to child at birth. 
Unfortunately, due to both a lack in funding to vaccinate adults and 
the absence of an integrated preventive education strategy, 
transmission of hepatitis B continues to be problematic. Additionally, 
there are significant disparities in the occurrence of chronic HBV-
infections. For example, Asian Americans represent 4 percent of the 
population; however, they account for more than half of the 1.3 million 
chronic hepatitis B cases in the United States. Current treatments do 
not cure hepatitis B, but appropriate treatment can help to reduce the 
progression to liver cancer and liver failure. Yet, many are not 
treated. Preventive education and universal vaccination are the best 
defenses against hepatitis B.
    HFI supports the recommendation to increase funding by $50 million 
for the cost of vaccines for adults offered by the Institute of 
Medicine in their report, entitled ``Calling the Shots: Immunization 
Finance Policies and Practices.''

                              HEPATITIS C

    Infection rates for hepatitis C (HCV) are at epidemic proportions. 
Unfortunately, many individuals are not aware of their infection until 
many years after they are infected. This creates a dangerous situation, 
as individuals who are infected unknowingly continue to spread the 
disease. The Center for Disease Control and Prevention estimates that 
there are over 4 million Americans who have been infected with 
hepatitis C, of which over 2.7 million remain chronically infected, 
with 8,000-10,000 deaths each year. Additionally, the death rate is 
expected to triple by 2010 unless additional steps are taken to improve 
outreach and education on the prevention of hepatitis C and scientists 
identify more effective treatments and cures. As there is no vaccine 
for HCV, prevention education and treatment of those who are infected 
serve as the most effective approach in halting the spread of this 
disease.

                         PREVENTION IS THE KEY

    The absence of information about the liver and hepatitis in 
education programs over the years has been a major factor in the spread 
of viral hepatitis through unknowing participation in liver damaging 
activities. Adults and children need to understand the importance of 
the liver and how viruses and drugs can damage its ability to keep them 
alive and healthy. Many who are currently infected are unaware of the 
risks they are taking that expose them to viral infections and 
ultimately liver damage.
    Knowledge is the key to prevention. Preventive education is 
essential to motivate individuals to protect themselves and avoid 
behaviors that can cause life-threatening diseases. Primary prevention 
that encourages individuals to adopt healthful lifestyle behaviors must 
begin in elementary schools when children are receptive to learning 
about their bodies. In addition to educating individuals at a critical 
age, schools provide access to one-fifth of the American population.
    Individuals need to be motivated to assess their own risk 
behaviors, to seek testing, to accept vaccination, to avoid spreading 
their disease to others, and to understand the importance of 
participating in their own health care and disease management. The NIH 
needs to support education programs to train teachers and healthcare 
providers in effective communication techniques, and to evaluate the 
impact preventive education has on reducing the incidence of hepatitis 
and substance abuse.
    Therefore, HFI recommends that CDC, NIAID, NIDDK, NIAAA, NIDA, and 
SAMHSA be urged to work with voluntary health organizations to promote 
liver wellness, education, and prevention of viral hepatitis, sexually 
transmitted diseases and substance abuse.
    Only a major investment in immunization and preventive education 
will bring these diseases under control. All newborns, young children, 
young adults, and especially those who participate in high-risk 
behaviors must be a priority for immunization, outreach initiatives, 
and preventive education. We recommend that the following activities be 
undertaken to prevent the further spread of all types of hepatitis:
  --Provide effective preventive education in our elementary and 
        secondary schools so children can avoid the serious health 
        consequences of risky behaviors that can lead to viral 
        hepatitis.
  --Train educators, health care professionals, and substance abuse 
        counselors in effective communication and counseling 
        techniques.
  --Promote public awareness campaigns to alert individuals to assess 
        their own risk behaviors, motivate them to seek medical advice, 
        encourage immunization against hepatitis A and B, and to stop 
        the consumption of any alcohol if they have participated in 
        risky behaviors that may have exposed them to hepatitis C.
  --Expand screening, referral services, medical management, 
        counseling, and prevention education for individuals who have 
        HCV, many of whom may be co-infected with HIV and Hepatitis C 
        and/or Hepatitis B.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    HFI recommends an increase of $12 million in fiscal year 2008 for 
further implementation of CDC's Hepatitis C Prevention Strategy. Such 
an increase would bring the total funding level for the Hepatitis C 
Prevention Strategy to $30 million in fiscal year 2008. This increase 
will support and expand the development of state-based prevention 
programs by increasing the number of State health departments with CDC 
funded hepatitis coordinators. The Strategy will use the most cost-
effective way to implement demonstration projects evaluating how to 
integrate hepatitis C and hepatitis B prevention efforts into existing 
public health programs.
    CDC's Prevention Research Centers, an extramural research program, 
plays a critical role in reducing the human and economic costs of 
disease. Currently, CDC funds 26 prevention research centers at schools 
of public health and schools of medicine across the country. HFI 
encourages the subcommittee to increase core funding for these 
prevention centers, as it has been decreasing since this program was 
first funded in 1986. We recommend the subcommittee provide an 8 
percent increase for the Prevention Research Centers program in fiscal 
year 2008.
    Also, HFI recommends that the CDC, particularly the Division of 
Adolescent and School Health (DASH), work with voluntary health 
organizations to promote liver wellness with increased attention toward 
childhood education and prevention, especially through partnerships 
between school districts and non-governmental organizations.

                        INVESTMENTS IN RESEARCH

    Investment in the NIH has led to an explosion of knowledge that has 
advanced understanding of the biological basis of disease and 
development of strategies for disease prevention, diagnosis, treatment, 
and cures. Countless medical advances have directly benefited the lives 
of all Americans. NIH-supported scientists remain our best hope for 
sustaining momentum in pursuit of scientific opportunities and new 
health challenges. For example, research into why some HCV infected 
individuals resolve their infection spontaneously may prove to be life 
saving information for others currently infected. Other areas that need 
to be addressed are:
  --Reasons why African Americans do not respond as well as Caucasians 
        and Hispanics to antiviral agents in the treatment of chronic 
        hepatitis C.
  --Pediatric liver diseases, including viral hepatitis.
  --The outcomes and treatment of renal dialysis patients who are 
        infected with HCV and HBV.
  --Co-infections of HIV/HCV and HIV/HBV positive patients.
  --Hemophilia patients who are co-infected with HIV/HCV and HIV/HBV.
  --The development of effective treatment programs to prevent 
        recurrence of HCV infection following liver transplantation.
  --The development of effective vaccines to prevent HCV infection.
    HFI supports a 6.7 percent increase for NIH in fiscal year 2008. 
HFI also recommends a comparable increase of 6.7 percent in hepatitis 
research funding at NIAID, NIDDK, NIAAA, and NIDA.
    HFI is dedicated to the eradication of viral hepatitis, which 
affects over 500 million people around the world. We seek to raise 
awareness of this enormous worldwide problem and to motivate people to 
support this important--and winnable--battle. Thank you for providing 
this opportunity to present testimony.
                                 ______
                                 
           Prepared Statement of the HIV Medicine Association

    The HIV Medicine Association (HIVMA) of the Infectious Diseases 
Society of America represents more than 3,600 physicians, scientists 
and other health care professionals who practice on the frontline of 
the HIV/AIDS pandemic. Our members treat people with HIV/AIDS 
throughout the United States and the world, develop and implement 
effective prevention interventions, and conduct research to develop 
effective prevention technologies, effective vaccines and less complex 
and less toxic treatment regimens for use in the United States and 
abroad. They are medical providers that specialize in HIV medicine and 
work in communities across the country and in more than 150 countries 
outside of the United States.
    The United States must sustain our three-pronged response to the 
AIDS pandemic--conducting research to effectively prevent and treat HIV 
disease; supporting programs that identify persons infected with HIV 
and prevent or reduce HIV transmission; and providing access to 
lifesaving HIV treatment to people without a reliable source of health 
coverage. Our past commitments resulted in our ability to develop, and 
provide access to, remarkable treatments that effectively suppress HIV 
and allow people to live healthier, more productive lives here at home 
and abroad. In recent years, we have been deeply concerned by our 
country's failure to prioritize support for domestic discretionary 
programs outside of defense and homeland security. The impact of our 
failure to invest in health care programs is already being felt and 
will be far-reaching and long lasting as our communities' public health 
infrastructures weaken and our capacity to lead the world in 
discovering new therapies for controlling deadly diseases such as HIV 
erodes.
    The funding requests in our testimony largely represent the 
consensus of the Federal AIDS Policy Partnership (FAPP), a coalition of 
HIV/AIDS organizations from across the country, and are estimated to be 
the amounts necessary to sustain and strengthen our investment in 
effectively combating HIV disease.

       CDC'S NATIONAL CENTER FOR HIV, STD, TB PREVENTION (NCHSTP)

    HIVMA strongly supports substantial increases in funding for the 
National Center for HIV/AIDS, STD and TB Prevention programs at the 
CDC. Programs supported by NCHSTP play a critical role in reducing the 
40,000 new HIV infections that still occur annually in the United 
States. Sufficient resources must be devoted to supporting efforts to 
identify people with HIV earlier in the disease so that they can be 
effectively linked to the medical care and treatment that prevents or 
delays progression to AIDS. Tuberculosis is the major cause of AIDS-
related mortality worldwide. It is critical that we shore up our 
ability as a Nation to address tuberculosis, especially drug-resistant 
tuberculosis here in the United States and in the developing world. 
With regard to these programs, we urge at least an increase of $93 
million for domestic HIV prevention programs and a funding level of 
$252.4 million for CDC's Division of Tuberculosis Elimination.
    In the absence of an HIV vaccine, preventing new HIV transmissions 
is our best weapon in reducing the number of people newly infected with 
HIV disease each year. We strongly support the CDC guidance 
recommending routine HIV testing for adults in healthcare settings, but 
are gravely concerned about the absence of Federal resources to assist 
State health departments and healthcare institutions in implementing 
this guidance. According to the CDC, at least 25 percent of people with 
HIV infection in the United States do not know it and more than 39 
percent of people with HIV infection progress to AIDS within 1 year of 
diagnosis. The expansion of HIV testing to identify individuals who are 
infected with HIV, but not yet aware of their status, is vital so that 
they can be optimally treated early in disease progression, and can 
reduce risky behaviors that put others at risk for HIV transmission.
    An even more robust HIV prevention budget is necessary to conduct 
effective surveillance, and to target uninfected individuals who engage 
in high-risk behaviors if we are to dramatically reduce the 40,000 new 
HIV infections that occur each year in the United States. We also must 
continue to support science-based, comprehensive programs that target 
people who are not HIV positive but who are at high risk for HIV 
infection. We are seriously concerned that the resources committed to 
supporting a broad-based prevention agenda have diminished while 
funding for unproven and unscientific abstinence-only programs has 
increased. We strongly encourage Congress to halt this troubling trend. 
Adequate resources are needed to address the high prevalence rates 
among vulnerable populations, e.g., men and women of color and men who 
have sex with men. It is short sighted to compromise these programs in 
order to support newer initiatives.
    Funding for HIV prevention activities at the CDC should be 
increased by at least the $93 million recommended in the President's 
2008 budget. These resources should be utilized to restore the $26 
million cut in HIV prevention cooperative agreements with State and 
local health departments, to enhance core surveillance cooperative 
agreements with health departments and to expand HIV testing in 
critical health care venues by funding testing infrastructure, the 
purchase of approved testing devices, including rapid tests and 
confirmatory testing.
    Funding for tuberculosis prevention and control must increase 
substantially in order to address the emerging new threat of XDR-TB. 
HIVMA supports the recommendation of the Advisory Council for the 
Elimination of Tuberculosis (ACET) for a funding level of $252.4 
million for CDC's Division of Tuberculosis Elimination.

  HIV/AIDS BUREAU OF THE HEALTH RESOURCES AND SERVICES ADMINISTRATION

    HIVMA supports a total commitment of $2.79 billion, an increase of 
$682 million for the Ryan White CARE Act program. This recommendation 
includes a $233 million increase for the AIDS Drug Assistance Program 
(ADAP) and at least an increase of $35 million for Title III (Part C).
    The Health Resources and Services Administration (HRSA) oversees 
programs that are vital to our communities' health care safety nets--
and to the ability of our clinician members to provide state-of-the-art 
treatment and care to patients living with HIV/AIDS. Through grants to 
States, cities and community clinics, CARE Act funding helps us to meet 
the serious and complex needs of people with HIV/AIDS who are un- or 
under-insured by supporting the delivery of primary medical care, 
prescription drugs, diagnostic tests, mental health services, substance 
abuse treatment, and dental services in our communities.
    We strongly support a substantial increase in CARE Act funding and 
would propose that the majority of new funding be targeted to HIV 
medical care under Title III (Part C) and to the AIDS Drug Assistance 
Program (ADAP) to ensure that uninsured and underinsured individuals 
with HIV/AIDS have access to a base line of lifesaving medical care and 
prescription drugs regardless of where they live. Funding increases are 
urgently needed for Title III programs. After years of flat funding or 
decreases in grant awards, we estimate that these programs require an 
increase of $83.3 million in Federal funds. At a minimum, we urge you 
to include a $35 million increase for Title III, Part C programs, with 
this additional funding targeted to current Title III grantees with the 
highest demonstrated increases in patient caseloads.
    Many HIV clinical programs depend on funding from multiple parts of 
the CARE Act to create the comprehensive services that our patients 
need. We strongly encourage you to support funding increases of $65 
million for Title I, and $57 million for the Title II base. Resources 
for domestic HIV care and treatment have eroded dramatically and this 
trend must be reversed or AIDS mortality in the United States could 
increase dramatically.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    HIVMA strongly supports at least a 6.7 percent increase for all 
research programs at the National Institutes of Health (NIH) including 
a 6.7 percent for the NIH Office of AIDS research for fiscal year 2007. 
This level of increase, if sustained over several years, would halt the 
erosion in the Nation's medical research effort, and accelerate the 
pace of research that could improve the health and quality of life for 
millions of Americans.
    The failure in recent years to adequately invest in biomedical 
research is taking its toll in deep cuts to clinical trials networks 
and significant reductions in the numbers of high quality, 
investigator-initiated grants that are approved. In the arena of AIDS 
research, virtual flat funding leads to reductions in critical research 
efforts to develop new therapeutics, to support the development of 
effective prevention technologies, and to finance vaccine development. 
A robust and comprehensive portfolio has been largely responsible for 
the dramatic gains that have been made in our knowledge about and 
response to the HIV virus, gains that have resulted in reductions in 
mortality from AIDS in the United States and other developing countries 
of nearly 80 percent. A continuing robust AIDS research effort is 
essential if we are to continue to make progress in preventing new 
infections, offering potent treatments with minimal toxicity, and 
developing a vaccine that may ultimately end the deadliest pandemic in 
human history. Our failure to make an adequate investment in this 
lifesaving research will compromise our ability to compare and evaluate 
optimum treatment and prevention strategies in resource-poor countries, 
and limit our ability to understand the appropriate role of new classes 
of antiretrovirals that are currently in development here at home for 
treatment and prevention.
    The sheer magnitude of the number of people still living with HIV/
AIDS in the United States and around the world--1,039,000 to 1,185,000 
in the United States; 40 million globally--demands an increased 
investment in AIDS research if we are going to truly eradicate this 
devastating disease.
    We also strongly support the NIH's Fogarty International Center 
(FIC), and believe that its programs and funding should be expanded. 
The FIC training programs play a critical role in developing self-
sustaining health care infrastructures in resource-limited countries. 
By training local physicians in these countries, they are able to 
develop effective research programs that best address the health care, 
cultural and resource needs of residents in their respective countries.
    Our Nation has made significant strides in responding to the HIV/
AIDS pandemic here at home and around the world, but we have lost 
ground in recent years, particularly domestically, as funding 
priorities have shifted away from public health and research programs. 
This retreat on our past investments in AIDS research through NIH, 
surveillance and prevention programs through the CDC, and care and 
treatment through the Ryan White CARE Act program place the remarkable 
advancements of the past two decades in serious jeopardy. We have an 
opportunity to reverse this trend and to move forward with a budget 
that prioritizes funding for scientific discovery, public health, and 
care and treatment for those without resources or adequate insurance. 
With the support of this Congress, we have the opportunity to further 
limit the toll of this deadly infectious disease on our planet and to 
save the lives of millions who are infected or at risk of infection 
here in the United States and around the world.
                                 ______
                                 
    Prepared Statement of the Infectious Diseases Society of America

    The Infectious Diseases Society of America (IDSA) appreciates the 
opportunity to provide this statement to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, Education and Related 
Agencies concerning fiscal year 2008 Federal funding for the Centers 
for Disease Control and Prevention (CDC) and the National Institutes of 
Health (NIH). IDSA's statement speaks to the value of U.S. public 
health and infectious diseases research programs to the health of 
people in the United States and globally as well as the need to provide 
sufficient funding in fiscal year 2008 to sustain and improve these 
programs. While IDSA's leadership recognizes that current fiscal 
budgets are constrained due to the war in Iraq and the Federal budget 
deficit, we urge the subcommittee to support appropriate investments to 
protect all of us against the scourges wrought by infectious pathogens.
    IDSA represents 8,400 infectious diseases physicians and scientists 
devoted to patient care, education, research, prevention, and public 
health. Our members care for patients of all ages with serious 
infections, including antibiotic-resistant bacterial infections, 
meningitis, pneumonia, tuberculosis, and those with cancer or 
transplants who have life-threatening infections caused by unusual 
microorganisms, food poisoning, and HIV/AIDS, as well as emerging 
infections like severe acute respiratory syndrome (SARS). Housed within 
IDSA is the HIV Medicine Association (HIVMA), which represents more 
than 3,600 physicians working on the frontline of the HIV/AIDS 
pandemic. HIVMA members conduct research, implement prevention 
programs, and provide clinical services to individuals who are infected 
with HIV/AIDS. IDSA and HIVMA are the principal organizations 
representing infectious diseases and HIV physicians in the United 
States.
    Over the past several decades, the United States has made many 
significant advances in the fight against infectious diseases. For 
example, CDC's public health prevention and control strategies have 
reduced infectious diseases morbidity and mortality rates in the United 
States and globally. NIH-funded research and training has led to 
critical new discoveries while at the same time supporting economic 
growth in incubator sites across the country, fostering innovation and 
competition, and making the United States the leader in global 
biomedical research. Needless to say, much work remains to be done as 
infectious diseases remain the second leading cause of death worldwide 
and the third leading cause of death in the United States. Of greatest 
concern:
  --Avian flu is an imminent threat to the United States. Despite the 
        increased attention and progress that has been made in 
        preparing for an influenza pandemic, the Institute of Medicine 
        and virtually all experts conclude that the United States is 
        woefully unprepared to sufficiently respond to pandemic flu and 
        many gaps and challenges remain.
  --Antimicrobial resistant infections have created a ``silent 
        epidemic'' in communities and hospitals across the country--
        methicillin-resistant Staphylococcus aureus (MRSA), for 
        example, is crippling and killing a growing number of 
        previously healthy people including children, athletes, and 
        military recruits as well as many elderly people; and
  --On a global scale, infectious diseases annually cause 15 million 
        deaths--HIV/AIDS, tuberculosis, and malaria alone account for 
        one third of these deaths.

PANDEMIC AND SEASONAL INFLUENZA FISCAL YEAR 2008 FUNDING RECOMMENDATION

    IDSA is deeply appreciative to the committee members for your 
support of increased funding for pandemic and seasonal influenza 
preparedness efforts as well as for the inclusion of additional 
pandemic influenza funding in the pending emergency supplemental 
appropriations bill. IDSA also applauds Congress and the administration 
for enacting this past December the Pandemic and All-Hazards 
Preparedness Act and establishing the Biomedical Advanced Research 
Development Authority (BARDA) within the Department of Health and Human 
Services. We request that Congress ensure significantly increased and 
sustained long-term funding to support critical activities authorized 
by the act. We are deeply concerned that the Federal, State, and local 
preparedness and response goals outlined in the act cannot be achieved 
without significantly increased, long-term, sustainable funding.
    In addition, experts and Federal Government officials agree that 
the development of a pandemic vaccine is the strategy most critically 
needed to protect U.S. citizens from a pandemic. IDSA has proposed the 
establishment of a multinational Pandemic Influenza Vaccine Master 
Program led by the United States to outline a comprehensive approach 
that will systematize, coordinate, and strengthen vaccine research and 
development (R&D), increase production capacity, accelerate licensure, 
guarantee equitable global distribution, and monitor vaccine 
performance and safety. IDSA has proposed that a U.S. commitment of 
$2.8 billion is needed in fiscal year 2008 to initiate the master 
program and to serve as a catalyst for additional financial support 
from international partners. Included within our fiscal year 2008 
master program proposal is a $750 million commitment for the new BARDA 
program. BARDA will enhance and accelerate the R&D activities necessary 
to produce new medical countermeasures that will protect U.S. citizens 
from pandemic influenza.

             OTHER FISCAL YEAR 2008 FUNDING RECOMMENDATIONS

Centers for Disease Control and Prevention
    IDSA recommends a total budget level of $8.7 billion for CDC's 
discretionary programs in fiscal year 2008 including an increase of at 
least $686.4 million for CDC's Infectious Diseases Program.
    As part of our proposed increase in CDC's total ID Program funding, 
IDSA supports:
            An increase of at least $50 million for CDC's Antimicrobial 
                    Resistance Program
    Antimicrobial resistance is a priority funding area for IDSA in 
fiscal year 2008. Microbes' ability to become resistant to 
antimicrobial drugs not only impacts individual patients, but also can 
have a devastating impact on the general population as resistant 
microbes pass from one individual to another. A multi-pronged approach 
is essential to limit the impact of antibiotic resistance on patients 
and public health. Our proposed increase in antimicrobial resistance 
funding will enable CDC to strengthen programs such as the National 
Healthcare Safety Network (NHSN), which generates national prevalence 
data to track the spread of multi-drug-resistant organisms in health 
care settings; expand its surveillance of clinical and prescribing data 
that are associated with drug-resistant infections; gather morbidity 
and mortality data due to resistance; educate physicians and parents 
about the need to protect the long-term effectiveness of antibiotics; 
and strengthen infection control activities across the United States. 
Broadening the number of CDC's extramural grants in applied research at 
academic-based centers also would harness the brainpower of our 
Nation's researchers.
            An increase of at least $281 million for CDC's Immunization 
                    Program
    Vaccines are one of the greatest public health successes ever 
achieved, helping to reduce, and in some cases eliminate, the spread of 
infectious diseases in the United States and abroad. In the United 
States, immunization of a birth cohort, or a year's worth of children 
born, saves 33,000 lives and $42 billion in costs. Important new 
vaccines have been licensed for rotavirus, pertussis, zoster, and human 
papillomavirus (HPV). The HPV vaccine could prevent the majority of 
cases of cervical cancer. Yet these new vaccines add new costs. Without 
additional funding of CDC's 317 Program, these vaccines will not be 
available to under-insured children and the infrastructure to 
administer vaccines and track their safety will be compromised. IDSA 
also is very concerned that adult immunization rates are much too low. 
Vaccines can be cost-saving, but new efforts are needed to make sure 
that access is available for all age groups. We cannot afford, however, 
to take scarce funds from childhood immunization to fund adult 
immunization--a significant new investment is required.
    For these reasons, we support a total fiscal year 2008 
appropriation level of $802.4 million for CDC's discretionary 
immunization program. This amount includes $387 million for the 
purchase of childhood vaccines, and $200 million for childhood 
immunization operations/infrastructure grants to States. In parallel 
fashion, as a first step toward meeting extensive needs in the adult 
arena, it includes $88 million for purchase of adult vaccines and $45 
million for adult operations and infrastructure grants to States. 
Finally this amount includes $82.4 million for prevention, safety, and 
administrative activities.
            An increase of at least $93 million for CDC's HIV 
                    Prevention Program
    These additional resources should be utilized to restore cuts in 
HIV prevention cooperative agreements with State and local health 
departments, to enhance core surveillance cooperative agreements with 
health departments, and to expand HIV testing in critical health care 
venues by funding testing infrastructure and the purchase of approved 
testing devices, including rapid tests and confirmatory testing.
            An increase of at least $252.4 million for CDC's TB 
                    Elimination Program
    Recent cuts of 14 percent have eroded national tuberculosis (TB) 
control at a time of increased threat posed by extensively-drug 
resistant TB and multi-drug resistant TB. Additionally, a total of $350 
million is needed across CDC as well as at the NIH to support research 
on TB vaccines, diagnostics, drugs, and related clinical research.
  --An increase of $10 million for CDC's Public Health and Human 
        Services Block Grant
    We are concerned that the President's proposed budget once again 
proposes to eliminate CDC's Public Health and Human Services Block 
Grants, which provide States the flexibility to respond to infectious 
diseases outbreaks, among other events. IDSA opposes the termination of 
this program and instead supports a healthy increase of $10 million.
                     national institutes of health
    IDSA recommends that Congress support at least a 6.7 percent 
increase for NIH research programs and particularly for the National 
Institute of Allergy and Infectious Diseases' (NIAID) AIDS research; 
non-AIDS, non-bioterrorism infectious diseases research, particularly 
antimicrobial resistance, antimicrobial therapy, and pandemic influenza 
research; and biodefense research. IDSA also supports a doubling of the 
Fogarty International Center's (FIC) budget to $134 million in fiscal 
year 2007.
    Advancing biomedical research and maintaining the U.S. leadership 
in this arena requires a consistent, long-term strategy and continued 
strong investments. We must not be short-sighted in our approach. In 
light of the rise in emerging and re-emerging diseases, and 
particularly, the trend of previously treatable organisms evading our 
best drugs, IDSA urges more aggressive, sustained scientific effort and 
funding dedicated not only to understanding the fundamental mechanisms 
of these diseases, but also support for clinical studies and 
translational research as a stepping stone to the development of new 
therapies. In addition, little research has been devoted to defining 
optimal antimicrobial dosing regimens, particularly related to the 
minimal duration of therapy necessary to cure many types of infections. 
Such studies require a long-term commitment and are not likely to be 
funded by pharmaceutical manufacturers. The consensus of many experts 
is that infections are frequently treated for longer periods of time 
than are necessary, needlessly increasing antimicrobial resistance. For 
this reason, IDSA urges the establishment of a Clinical Trials Network 
at NIH, similar to the AIDS Clinical Trials Group, devoted to defining 
optimal antibacterial therapy. Well-designed, multi-center randomized 
controlled trials that define the necessary length of therapy would 
create an excellent basis of evidence from which coherent and 
defensible recommendations could be developed.
    IDSA also is concerned that NIH research project grant funding has 
steadily declined after peaking in 2004--the average award would be 8.4 
percent smaller in 2008 than in 2004. IDSA fears that we are 
discouraging and potentially sacrificing an entire generation of young 
scientists if they conclude that NIH grants are unattainable. 
Sustainable and predictable funding is needed in this area. Finally, 
IDSA supports a doubling of FIC's budget. FIC oversees vital programs 
which train health professionals in resource-limited countries about 
how best to attack AIDS, tuberculosis, malaria, and other infectious 
diseases.

                               CONCLUSION

    Today's investment in infectious disease research, prevention, and 
treatments will pay significant dividends in the future by dramatically 
reducing health care costs and improving the quality of life for 
millions of Americans. In addition, U.S. leadership in infectious 
diseases research and prevention will translate into worldwide health 
benefits. We urge the subcommittee to continue to demonstrate 
leadership and foresight in this area by appropriating the much-needed 
resources outlined above in recognition of the lives and dollars that 
ultimately will be saved.
                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders

              SUMMARY OF FISCAL YEAR 2008 RECOMMENDATIONS

    Provide a 6.7 percent increase for fiscal year 2008 to the National 
Institutes of Health (NIH) budget. Within NIH, provide proportional 
increases of 6.7 percent to the various institutes and centers, 
specifically, the National Institute of Diabetes and Digestive and 
Kidney Diseases (NIDDK) and the Office of Research on Women's Health 
(ORWH).
    Accelerate funding for extramural clinical and basic functional 
gastrointestinal disorders (FGID) and motility disorders research at 
NIDDK.
    Continue to urge NIDDK to develop a strategic plan on irritable 
bowel syndrome (IBS) with the purpose of setting research goals, 
determining improved treatment options for IBS sufferers, and assisting 
in recruitment of new investigators to conduct IBS research.
    Urge the National Institute of Child Health and Human Development 
(NICHD) and NIDDK to continue to support research into fecal and 
urinary incontinence, including the development of a standardization of 
scales to measure incontinence severity and quality of life and to 
develop strategies for primary prevention of fecal incontinence 
associated with childbirth.
    Provide funding to NIDDK and the National Cancer Institute (NCI) 
for increased research on the causes of esophageal cancer.
    Thank you for the opportunity to present this written statement 
regarding the importance of functional gastrointestinal and motility 
disorders research. IFFGD has been serving the digestive disease 
community for 15 years. We work to broaden the understanding of 
functional gastrointestinal and motility disorders in adults and 
children. IFFGD raises awareness on disorders and diseases that many 
people are uncomfortable and embarrassed to discuss. The prevalence of 
fecal incontinence and irritable bowel syndrome or IBS, as well as a 
host of other gastrointestinal disorders affecting both adults and 
children, is underestimated in the United States. These conditions 
continue to remain hidden in our society. Not only are they 
misunderstood, but the burden of illness and human toll has not been 
fully recognized.
    Since its establishment, IFFGD has been dedicated to increasing 
awareness of functional gastrointestinal and motility disorders, among 
the public, health professionals, and researchers. While maintaining a 
high level of public education efforts, IFFGD has also become 
recognized for our professional symposia. We consistently bring 
together a unique group of international multidisciplinary 
investigators to communicate new knowledge in the field of 
gastroenterology. Next month IFFGD will be hosting our Seventh 
International Symposium on Functional Gastrointestinal Disorders, 
bringing scientists, researchers, and clinicians from across the world 
together to discuss the current science and opportunities on IBS and 
other functional gastrointestinal and motility disorders. Also, in 
November 2002, we hosted a conference on fecal and urinary 
incontinence, the proceedings of which were published in 
Gastroenterology, the official journal of the American 
Gastroenterological Association (AGA). The IFFGD has also been working 
with the National Institute of Child Health and Human Development 
(NICHD), the National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK), and the Office of Medical Applications of Research 
(OMAR) in the NIH Office of the Director on the NIH State of the 
Science Conference on Fecal and Urinary Incontinence to beheld in 
December 2007.
    The majority of the diseases and disorders we address have no cure. 
We have yet to completely understand the pathophysiology of the 
underlying conditions. Patients face a life of learning to manage a 
chronic illness that is accompanied by pain and an unrelenting myriad 
of gastrointestinal symptoms. The costs associated with these diseases 
are enormous; estimates range from $25-$30 billion annually. The human 
toll is not only on the individual but also on the family. Economic 
costs spill over into the workplace. In essence, these diseases reflect 
lost potential for the individual and society. The IFFGD is a resource 
that provides hope for hundreds of thousands of people as they try to 
regain as normal a life as possible.

                     IRRITABLE BOWEL SYNDROME (IBS)

    IBS strikes people from all walks of life. It affects 25 to 45 
million Americans and results in significant human suffering and 
disability. This chronic disease is characterized by a group of 
symptoms, which include abdominal pain or discomfort associated with a 
change in bowel pattern, such as loose or more frequent bowel 
movements, diarrhea, and/or constipation. Although the cause of IBS is 
unknown, we do know that this disease needs a multidisciplinary 
approach in research and often treatment.
    IBS can be emotionally and physically debilitating. Due to 
persistent bowel unpredictability, individuals who suffer from this 
disorder may distance themselves from social events, work, and even may 
fear leaving their home.
    In the House and Senate fiscal years 2004, 2005, 2006, and 2007 
Labor, Health and Human Services, and Education Appropriations bills, 
Congress recommended that NIDDK develop an IBS strategic plan. The 
development of a strategic plan on IBS would greatly increase the 
institute's progress toward the needed research on this functional 
gastrointestinal disorder, as well as serve to advance our 
understanding of this disease, determine improved treatment options for 
IBS sufferers, and assist in recruiting new investigators to conduct 
IBS research. NIDDK is formulating an action plan for digestive 
diseases through the National Commission on Digestive Diseases and has 
indicated that IBS will be included as a component of this overall 
plan. IBS must be given sufficient attention, however, in order to 
increase the functional gastrointestinal disorders (FGID) and motility 
disorders research portfolio at NIDDK.

                           FECAL INCONTINENCE

    At least 6.5 million Americans suffer from fecal incontinence. 
Incontinence is neither part of the aging process nor is it something 
that affects only the elderly. Incontinence crosses all age groups from 
children to older adults, but is more common among women and in the 
elderly of both sexes. Often it is a symptom associated with various 
neurological diseases and many cancer treatments. Yet, as a society, we 
rarely hear or talk about the bowel disorders associated with spinal 
cord injuries, multiple sclerosis, diabetes, prostate cancer, colon 
cancer, uterine cancer, and a host of other diseases.
    Damage to the anal sphincter muscles; damage to the nerves of the 
anal sphincter muscles or the rectum; loss of storage capacity in the 
rectum; diarrhea; or pelvic floor dysfunction can cause fecal 
incontinence. People who have fecal incontinence may feel ashamed, 
embarrassed, or humiliated. Some don't want to leave the house out of 
fear they might have an accident in public. Most attempt to hide the 
problem for as long as possible. They withdraw from friends and family, 
and often limit work or education efforts. Incontinence in the elderly 
burdens families and is the primary reason for nursing home admissions, 
an already huge social and economic burden in our increasingly aged 
population.
    In November 2002, the IFFGD sponsored a consensus conference--
``Advancing the Treatment of Fecal and Urinary Incontinence Through 
Research: Trial Design, Outcome Measures, and Research Priorities.'' 
Among other outcomes, the conference resulted in six key research 
recommendations:
  --More comprehensive identification of quality of life issues 
        associated with fecal incontinence and improved assessment and 
        communication of treatment outcomes related to quality of life.
  --Standardization of scales to measure incontinence severity and 
        quality of life.
  --Assessment of the utility of diagnostic tests for affecting 
        management strategies and treatment outcomes.
  --Development of new drug compounds offering new treatment approaches 
        to fecal incontinence.
  --Development and testing of strategies for primary prevention of 
        fecal incontinence associated with childbirth.
  --Further understanding of the process of stigmatization as it 
        applies to the experience of individuals with fecal 
        incontinence.
    The IFFGD has been working with the NICHD, NIDDK, and OMAR on a NIH 
State of the Science Conference on Fecal and Urinary Incontinence that 
is scheduled to take place in December 2007. The goal of this 
conference will be to assess the state of the science and outline 
future priorities for research on both fecal and urinary incontinence; 
including, the prevalence and incidence of fecal and urinary 
incontinence, risk factors and potential prevention, pathophysiology, 
economic and quality of life impact, current tools available to measure 
symptom severity and burden, and the effectiveness of both short- and 
long-term treatment. Once the conference is completed, NIH must 
prioritize implementation of the recommendations of this important 
conference.

                 GASTROESOPHAGEAL REFLUX DISEASE (GERD)

    Gastroesophageal reflux disease, or GERD, is a common disorder 
affecting both adults and children, which results from the back-flow of 
acidic stomach contents into the esophagus. GERD is often accompanied 
by persistent symptoms, such as chronic heartburn and regurgitation of 
acid. But sometimes there are no apparent symptoms, and the presence of 
GERD is revealed when complications become evident. One uncommon 
complication is Barrett's esophagus, a potentially pre-cancerous 
condition associated with esophageal cancer. Symptoms of GERD vary from 
person to person. The majority of people with GERD have mild symptoms, 
with no visible evidence of tissue damage and little risk of developing 
complications. There are several treatment options available for 
individuals suffering from GERD.
    Gastroesophageal reflux (GER) affects as many as one-third of all 
full term infants born in America each year. GER results from an 
immature upper gastrointestinal motor development. The prevalence of 
GER is increased in premature infants. Many infants require medical 
therapy in order for their symptoms to be controlled. Up to 25 percent 
of older children and adolescents will have GER or GERD due to lower 
esophageal sphincter dysfunction. In this population, the natural 
history of GER is similar to that of adult patients, in whom GER tends 
to be persistent and may require long-term treatment.

                             GASTROPARESIS

    Gastroparesis, or paralysis of the stomach, refers to a stomach 
that empties slowly. Gastroparesis is characterized by symptoms from 
the delayed emptying of food, namely: bloating, nausea, vomiting or 
feeling full after eating only a small amount of food. Gastroparesis 
can occur as a result of several conditions, including being present in 
30 percent to 50 percent of patients with diabetes mellitus. A person 
with diabetic gastroparesis may have episodes of high and low blood 
sugar levels due to the unpredictable emptying of food from the 
stomach, leading to diabetic complications. Other causes of 
gastroparesis include Parkinson's disease and some medications, 
especially narcotic pain medications. In many patients the cause of the 
gastroparesis cannot be found and the disorder is termed idiopathic 
gastroparesis. Over the last several years, as more is being found out 
about gastroparesis, it has become clear this condition affects many 
people and the condition can cause a wide range of symptoms of 
differing severity.

  FUNCTIONAL GASTROINTESTINAL AND MOTILITY DISORDERS AND THE NATIONAL 
                          INSTITUTES OF HEALTH

    The International Foundation for Functional Gastrointestinal 
Disorders recommends an increase of 6.7 percent to the budget of NIH, 
and a 6.7 percent increase for NIDDK and NICHD. However, we request 
that this increase for NIH does not come at the expense of other Public 
Health Service agencies.
    We urge the subcommittee to provide the necessary funding for the 
expansion of the NIDDK's research program on FGID and motility 
disorders. This increased funding will allow for the growth of new 
research on FGID and motility disorders at NIDDK, a strategic plan on 
IBS, and increased public and professional awareness of FGID and 
motility disorders. In addition, we urge the subcommittee to continue 
to support and provide adequate funding to the Office of Research on 
Women's Health (ORWH) under the NIH Office of the Director, 
particularly for their Specialized Centers of Research on Sex and 
Gender Factors Affecting Women's Health (SCORs) program and the 
Building Interdisciplinary Research Careers in Women's Health (BIRCWH) 
program. The ORWH supports important research into IBS.
    A primary tenant of IFFGD's mission is to ensure that clinical 
advancements concerning GI disorders result in improvements in the 
quality of life for those affected. By working together, this goal will 
be realized and the suffering and pain millions of people face daily 
will end. Thank you.
                                 ______
                                 
          Prepared Statement of the Jeffrey Modell Foundation

    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to testify before you today. I am Vicki Modell and, along 
with my husband Fred, we created the Jeffrey Modell Foundation in 1987 
in memory of our son, who died at the age of 15 as a result of a life 
long battle against one of the estimated 140 primary immunodeficiency 
(PI) diseases.
    Today I wish to discuss with you two important initiatives for the 
Congress, the CDC, and the Jeffrey Modell Foundation to collaborate on 
that will achieve the following:
  --Continue to educate and raise awareness about primary 
        immunodeficiency diseases among physicians, other health care 
        providers, and the public through a highly successful program 
        that has, to date, generated $10 private for every $1 public 
        invested; and
  --Launch a pilot program that will extend newborn screening to Severe 
        Combined Immune Deficiency, the most lethal of all PI diseases, 
        saving lives and saving money.
    The Jeffrey Modell Foundation is an international organization 
located in New York City. In its 21 years of existence, the Foundation 
has grown into the premier advocacy and service organization on behalf 
of people afflicted with primary immunodeficiency diseases. As a 
demonstration of the extent to which the JMF leads in the field, please 
consider the following:
  --The Foundation has established Jeffrey Modell Research and 
        Diagnostic Centers at 34 academic and teaching hospitals in the 
        United States and abroad.
  --The Foundation conducts a national physician education and public 
        awareness campaign, currently funded with approximately $2.5 
        million appropriated by this committee to the Centers for 
        Disease Control and Prevention (CDC) and awarded to the JMF. To 
        date, the Foundation has leveraged the Federal money to 
        generate in excess of $75 million in donated media and 
        corporate contributions with almost 250,000 placements/airings 
        on television, radio, print, and other public media, as well as 
        a 30-minute program produced for PBS. CME physician symposia 
        have been held at leading academic teaching hospitals 
        throughout the Nation. It has also included mailings to 
        physicians in a variety of specialist and generalist fields, 
        including pediatrics and several pediatric specialties, family 
        practice, and internal medicine, as well as to school nurses, 
        clinical and registered nurses and daycare centers throughout 
        the United States.
  --In addition, the Foundation has long been a provider of direct 
        patient services such as KIDS Days that give young people a 
        chance to meet and share experiences with others similarly 
        situated in their communities in a fun atmosphere that 
        encourages a feeling of normalcy in patients.
    First and foremost, Mr. Chairman, I am here today to thank you and 
all the members of this committee. Over the last 10 years that we have 
been coming to Washington, we have been given the opportunity to build 
a partnership with the Congress, the Centers for Disease Control and 
Prevention, the National Institutes of Health, the Health Resources and 
Services Administration, as well as with our own supporters in the 
private sector, including the pharmaceutical and biotechnology 
industries, and other concerned donors. We believe that we have 
maximized the benefits for patients from the support that this 
subcommittee has afforded the Foundation.

               CENTERS FOR DISEASE CONTROL AND PREVENTION

    This subcommittee is currently funding CDC with $2.5 million for 
physician education and public awareness of primary immune 
deficiencies. The Jeffrey Modell Foundation operates the program under 
a contract with CDC. Since the campaign's inception, it has generated 
more than $75 million in donated media, including television and radio 
spots, magazine ads, billboards, airport signs and other print media, 
as well as other corporate support. Every $1 provided by the committee 
has been leveraged into more than $10 of private money for this 
education and awareness program.
    In a national survey conducted on behalf of the Foundation, funded 
by a grant from the CDC, one in three Americans state that they have 
heard of Primary Immunodeficiency. When 502 pediatricians and family 
practice physicians were asked about PI, 85 percent of physicians 
consider PI to be rare or extremely rare (1 in 5,000-10,000 patients). 
However, the National Institutes of Health cites the prevalence of 1 in 
500. This disparity shows how much education the medical community 
still needs.
    The progress being made by the campaign is significant. As reported 
by the Foundation's Centers for Primary Immunodeficiencies, there has 
been a 79 percent increase in the number of diagnosed patients, a 58 
percent increase in the number of patients receiving treatment, and a 
57 percent increase in patients referred to JMF specialized centers. 
These increases are reflected on an annual basis for each year of the 
campaign. The most meaningful statistic is that there has been an 
annual 256 percent increase in the number of diagnostic tests 
performed, showing that the campaign is raising patients' and 
physicians' awareness of PI. The campaign has generated over 6 million 
hits to the JMF website annually, 500,000 unique visits to the JMF 
website annually and over 12,000 calls to the JMF hotline, further 
evidence of the campaign's effectiveness.
    Two years ago the subcommittee increased the CDC funding for the 
campaign by approximately $500,000 in order to expand the campaign to 
target the underserved minority population. Research shows that the 
incidence of PI does not vary between races or among ethnic groups. To 
reach its intended audience, the minority campaign must run ads on 
different radio stations and television networks and have space in 
different print media. Since the program's launch, the campaign has 
leveraged the $1 million in Federal funds to generate over $17 million 
in donated media and has had almost 60,000 airings/placements.
    We respectfully request that this subcommittee continue to fund 
this program at $2.5 million in fiscal year 2008 (the level requested 
in the President's budget), allowing the Foundation to continue both 
the original education and awareness program and the targeted minority 
campaign.

               QUALITY OF LIFE AND ECONOMIC IMPACT STUDY

    In 2006, the Foundation set out to examine the impact of early 
diagnosis in a rigorous manner. Physician experts at the 118 Jeffrey 
Modell Diagnostic and Referral Centers were contacted. Each of the 
Centers was asked to examine patient records 1 year prior to diagnosis 
and for the year following diagnosis and treatment. The data, which 
included 532 patient records, was collected by the Foundation and 
reviewed by members of the Foundation's Medical Advisory Board.
    The results of the study clearly demonstrate that the quality of 
life of undiagnosed patients is significantly lower than that of 
diagnosed patients. Undiagnosed patients suffer from chronic infections 
an average of 44.7 days per year compared to 12.6 days for diagnosed 
patients. On average, undiagnosed patients are treated with antibiotics 
166.2 days per year compared to 72.9 days per year. Undiagnosed 
patients spend 14.1 more days of the year in hospitals than diagnosed 
patients. Also, the study found that undiagnosed patients missed 33.9 
days of work or school compared to only 8.9 days missed by diagnosed 
patients.
    Besides being sicker, requiring more care, and more time out of the 
workforce, ultimately, an undiagnosed patient costs the healthcare 
system $102,552 per year compared to $22,610; diagnosing a patient with 
PI saves $79,942 per year. According to NIH, there are as many as 
500,000 undiagnosed patients in this country; these undiagnosed 
patients cost the healthcare system approximately $40 billion annually. 
These costs underscore the important of early identification and 
treatment for PI patients.

                       NEWBORN SCREENING PROGRAM

    Mr. Chairman, our dedication to the importance of early diagnosis 
has led us to field of newborn screening. And here we have an 
opportunity for the action of this subcommittee to save lives, 
literally. Severe combined immune deficiency (SCID) is the most severe 
form of PI and is fatal, if an infant is not diagnosed and treated 
within the first year of life. Within the first few months of life, the 
infant will suffer from one or more serious infections, including 
pneumonia, meningitis or bloodstream infections.
    Newborn screening is the solution to this life-threatening 
condition. Last fall the Foundation sponsored a meeting in conjunction 
with the CDC Foundation to examine the state of the science regarding 
newborn screening for SCID. We learned at that meeting that doctors can 
diagnose SCID with 99 percent accuracy; and we learned that they can 
treat it with a 95 percent success rate using bone marrow 
transplantation to restore the immune system before the infant develops 
any serious infections. If a diagnosis of SCID is made within the 
infant's first 2 months of life, treating SCID costs under $10,000. 
However, by the 9th or 10th month of life, if the infant survives that 
long, the costs of transplantation and other medical complications are 
over $1 million and the success rate falls dramatically.
    Based on discussions at last fall's meeting at the CDC, both 
Wisconsin and New York are prepared to begin a pilot program to screen 
newborns for SCID. In Wisconsin, a collaboration between the Children's 
Hospital of Wisconsin, the Medical College of Wisconsin and the 
Wisconsin State Laboratory of Hygiene has been established to begin the 
program by replicating the State's current screening model for cystic 
fibrosis. The Wisconsin State Laboratory of Hygiene currently runs 300-
500 tests per day, 6 days a week, easily accommodating all the newborns 
in the State. Screening tests are conducted between the 3rd and 7th day 
of life, and a report is delivered by the lab to the pediatrician 
within 7 days. New York State health officials are going to monitor 
Wisconsin's program to determine how the screen needs to be altered to 
handle New York's 250,000 live births a year.
    To start this pilot, both the Children's Hospital of Wisconsin and 
the Foundation each contributed to this effort. The Foundation has 
estimated that it will cost approximately $560,000 per State to begin 
screening for SCID. Once the pilot program demonstrates efficacy, SCID 
screening will cost a maximum of between $6.50 and $7 per child.
    To support the efforts of Wisconsin and New York, we respectfully 
request that this subcommittee increase funding for CDC's Environmental 
Health Laboratory program by $750,000, specifically to fund the pilot 
program to screen newborns for SCID in Wisconsin and New York. We 
anticipate that this will be a one-time cost. Once the pilot is 
evaluated and methods are proven, States will be able to add this test 
to their screening panel.

                               CONCLUSION

    With the support the Jeffrey Modell Foundation has received from 
this subcommittee, we have been able to increase significantly the 
public's awareness of PI and most importantly, thanks to your support, 
we have been able to save lives. The Federal Government's investment in 
this campaign is producing results far beyond anything that even we had 
anticipated. Many more children are being tested and treated; lives are 
being saved.
    We understand that the subcommittee must make difficult decisions 
in this fiscal environment. However, the Foundation's education and 
awareness campaign has been recognized as a model collaborative program 
that has successfully leveraged Federal dollars in a manner rarely 
seen. We now know the financial burden an undiagnosed patient places on 
the healthcare system; there is no reason to spend $40 billion annually 
on the treatment of undiagnosed patients. For every Federal dollar 
spent on the campaign and research, the potential to save lives 
increases exponentially. This is precisely the kind of public-private 
partnership that should be encouraged. It works. It saves lives. And, 
it is the best example of bringing scientific advances to every citizen 
regardless of their station in life.
    After 5 years of funding for the campaign, we believe it is time 
for this subcommittee to take the next step with us and financially 
support newborn screening for SCID. The science shows the screening is 
accurate and the treatment is successful and cost effective. 
Diagnosing, transplanting and curing just one baby will make the all of 
our efforts worthwhile; but, there is no reason to stop at one. We will 
continue to advocate for the expansion of this pilot program and 
eventually the inclusion of the screen for SCID on every State's list 
of required newborn screening.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony to the subcommittee.
                                 ______
                                 
         Prepared Statement of the Lupus Foundation of America

                                SUMMARY

    The Lupus Foundation of America (LFA) is the Nation's leading non-
profit voluntary health organization dedicated to improving the 
diagnosis and treatment of lupus, supporting individuals and families 
affected by the disease, increasing awareness of lupus among health 
professionals and the public, and finding the causes and cure. LFA 
respectfully calls upon Congress to provide the following allocations 
in the fiscal year 2008 Labor-Health and Human Services-Education 
(LHHS) appropriations measure to reduce and prevent suffering from 
lupus:
  --$3.25 million for the National Lupus Patient Registry (NLPR) at the 
        National Center for Chronic Disease Prevention and Health 
        Promotion within the Centers for Disease Control and Prevention 
        (CDC) to sustain current epidemiological efforts and expand the 
        registry to seven sites. Such an expansion would ensure that 
        the registry includes all forms of lupus and all affected 
        populations, particularly African Americans, Hispanics, and 
        Asian Americans, who are disproportionately at-risk for--and 
        have worse outcomes associated with--lupus.
  --$30.8 billion (a 6.7 percent increase) for the National Institutes 
        of Health (NIH) to support lupus research. Specifically, we 
        urge the subcommittee to provide a 6.7 percent increase to each 
        of the following institutes and centers, which play an integral 
        role in lupus research: NCMHD, NHGRI, NHLBI, NIAID, NIAMS, 
        NIDDK, NIEHS, and NINDS. Moreover, we respectfully call on 
        Congress to move to provide a 33 percent increase for lupus 
        research for each of the next three fiscal years.
  --$1 million in new funding for the HHS Office on Women's Health to 
        support a sustained national lupus education and awareness 
        campaign. These educational efforts would be directed toward 
        healthcare professionals who diagnose and treat people with 
        lupus, with an emphasis on reaching those individuals at 
        highest risk--women of color--a health disparity that remains 
        unexplained.

                          BACKGROUND ON LUPUS

    As you may know, lupus--a debilitating, chronic autoimmune disease 
that causes inflammation and tissue damage to virtually any organ 
system--affects as many as 2 million Americans. Since lupus is a 
systemic disease, it can cause significant disability and even death. 
Lupus can be particularly difficult to diagnose because its symptoms 
are similar to those of many other diseases, and major gaps exist in 
understanding the causes and consequences of the disease. Lupus affects 
women nine times more often than men and disproportionately impacts 
women of color. Our scientific advisors note that lupus is the 
prototypical autoimmune disease and indicate that finding answers to 
questions about lupus also may provide understanding about other 
autoimmune diseases affecting 22 million Americans. Tragically, there 
have been no new drugs approved by the Food and Drug Administration 
specifically for lupus in nearly 40 years. Currently, there is no cure 
for lupus; available treatments can lead to damaging side effects and 
can adversely impact quality of life. LFA maintains that the Nation 
must significantly increase its attention to--and investment in--lupus 
research, education, and awareness to help ensure that much-needed 
progress is made in lupus diagnosis and treatment--eventually achieving 
a cure.

                  CDC NATIONAL LUPUS PATIENT REGISTRY

    LFA respectfully requests that the subcommittee provide $3.25 
million in fiscal year 2008 to the CDC National Lupus Patient Registry 
(NLPR). The NLPR plays an integral role in lupus epidemiological 
studies which provide important insight into the disease. The 
establishment of the NLPR was the first nationwide step in the CDC's 
effort to assess the prevalence and incidence of lupus. The NLPR serves 
as a conduit for the collection of valid and reliable data for 
epidemiological studies to better understand and measure the burden of 
illness, assess the social and economic impact of the disease, and 
stimulate additional private investment by industry in the development 
of new, safe, and effective therapies--and hopefully a cure--for lupus.
    Currently, the NLPR involves two study sites--in Georgia and 
Michigan. The information collected through the Emory University School 
of Medicine and the Michigan Department of Community Health (in 
collaboration with the University of Michigan) stems from a multi-
pronged approach using data from laboratory tests, interviews with 
physicians who treat lupus patients, hospital data, and other sources. 
While the data gleaned from the current sites are important and useful, 
unfortunately--due to limited resources--the NLPR does not include 
information on all forms of lupus and all populations affected by the 
disease. This constrained scope, depth, and breadth of the NLPR limits 
its utility to researchers and does not allow for adequate exploration 
of the health disparities apparent among those diagnosed with lupus.
    Existing epidemiological data on lupus are decades old and no 
longer reliable. Population-based epidemiological studies of lupus must 
be conducted at strategically-located sites throughout the Nation that 
will provide accurate data on all forms of lupus (i.e. systemic lupus, 
primary discoid lupus, drug-induced lupus, neonatal lupus, 
antiphospholipid antibodies) and the disparity among the various racial 
and ethnic populations. The LFA and its scientific and medical advisors 
recommend that the NLPR be expanded to an additional five sites, which 
should represent the populations that are disproportionately affected 
by lupus--principally African Americans, Hispanics, Asian Americans, 
and Native Americans. To that end, LFA urges the subcommittee to 
provide $3.25 million in fiscal year 2008 and to include language in 
the report accompanying the fiscal year 2008 LHHS measure that 
encourages the CDC to create a common data entry and management system 
across all study sites, to collaborate with a consortium of academic 
health centers with an expertise in lupus epidemiology, and ensure 
adequate numbers and locations of study sites and sufficient numbers of 
individuals of all racial and ethnic backgrounds.

               RESEARCH FOR BETTER TREATMENTS AND A CURE

    The LFA has long been concerned about the inadequate levels of 
Federal investment in lupus research. Unfortunately, during the 
doubling of NIH funding, lupus did not receive its proportional 
increase; now that NIH funding has flattened, lupus research is in 
danger of falling even further behind. However, after a tragic 40 year 
dearth of specific new treatments to manage this debilitating and 
devastating disease, lupus researchers are on the brink of major 
discoveries that could substantially advance lupus research, leading to 
better treatments, and possibly a cure.
    To achieve these much-needed breakthroughs, LFA maintains that 
Federal research funding must be increased significantly. It is 
important to note that level or decreased NIH funding could bring to a 
standstill clinical trials and large observational studies, and could 
curtail research on those at highest risk for lupus, women of color. 
Furthermore, insufficient Federal funding also could slow much-needed 
genetic research, when we are just discovering the critical components 
that may contribute to lupus and its adverse effects. Therefore, it is 
critical that biomedical researchers be provided the necessary 
resources to continue seeking answers to the questions that will lead 
to safer and more effective lupus treatments. To that end, LFA has 
joined with the broader public health and research communities in 
supporting an overall 6.7 percent increase for the NIH in fiscal year 
2008. LFA has identified a number of NIH institutes and centers whose 
research activities are critical to identifying improved treatments and 
a cure for lupus, and as noted above, we urge that each of these 
entities receive a 6.7 percent increase in fiscal year 2008: NCMHD, 
NHGRI, NHLBI, NIAID, NIAMS, NIDDK, NIEHS, NIDDK and NINDS. We urge 
Congress to move to provide a 33 percent increase for lupus research 
for each of the next 3 fiscal years.
    NIAMS.--Lupus affects the skin, bones, joints, and connective 
tissue. NIAMS is integral to making gains in lupus treatment and 
identifying a cure. LFA asks that the subcommittee encourage NIAMS to 
significantly expand research related to lupus, with a particular focus 
on understanding the underlying mechanisms of disease, gene-gene and 
gene-environmental interactions, lupus and kidney disease, biomarkers, 
pediatric research, environmental factors, and factors related to 
health disparities and comorbidities associated with lupus.
    NIAID.--Lupus is a dysfunction of the immune system which warrants 
greater examination. LFA's scientific and medical advisors maintain 
that NIAID has an integral and more significant role to play in lupus 
research. To that end, LFA respectfully requests that the subcommittee 
urge NIAID to take a leadership role in lupus research and expand and 
intensify genetic, clinical, and basic research related to lupus, with 
a particular focus on gene-gene and gene-environmental interactions, 
biomarkers, pediatric research, environmental factors, and factors 
related to health disparities and comorbidities associated with lupus.
    NCMHD.--Nine out of 10 people with lupus are women; lupus is two to 
three times more common among women of color than Caucasian women. 
Lupus mortality has increased over the past 3 years and is higher among 
older African American women. We urge the subcommittee to encourage 
NCMHD to collaborate with extra-mural researchers and LFA to ensure 
that these terrible disparities receive the attention--and 
interventions--they deserve.
    NHGRI.--Lupus likely is a polygenetic disease. As such, LFA asks 
the subcommittee to encourage NGHRI to undertake efforts to help 
identify the gene(s) associated with lupus.
    NHLBI.--Lupus attacks the heart, lungs, blood, and blood vessels. 
LFA encourages the subcommittee to urge NHLBI to expand and intensity 
research on lupus, with a special emphasis on lupus and early onset of 
cardiovascular disease.
    NIEHS.--Lupus disease activity can be triggered by certain 
environmental factors. LFA encourages the subcommittee to urge NIEHS to 
undertake additional lupus related research activities to help identify 
environmental factors, biomarkers, and gene-environmental interactions 
associated with the disease.
    NIDDK.--Lupus causes lupus nephritis--inflammation of the kidneys. 
LFA asks the subcommittee to urge NIDDK to undertake studies into this 
condition, which is one of the most serious manifestations of lupus.
    NINDS.--Lupus attacks the blood vessels in the brain, causing 
seizures, psychosis, and stroke. LFA urges the subcommittee to 
encourage NINDS to expand its research related to lupus.

         INCREASED AWARENESS AND EDUCATION FOR BETTER OUTCOMES

    Too many affected individuals and their health professionals remain 
unaware of the signs and symptoms of lupus, delaying correct diagnoses 
and often leading to poorer outcomes. Therefore, the LFA's medical 
advisors recommend a sustained national lupus education campaign to 
improve awareness and education of the public and health professionals 
to reduce and prevent suffering from lupus. LFA respectfully requests 
the subcommittee provide $1 million in new fiscal year 2008 funding to 
the Office on Women's Health to support this important endeavor. LFA 
welcomes the opportunity to work with HHS staff and others to ensure 
the campaign's success.

                                SUMMARY

    LFA very much appreciates the opportunity to submit written 
testimony on fiscal year 2008 funding for lupus research, 
epidemiological studies, education and awareness efforts. We understand 
that the Nation faces unprecedented fiscal challenges; however, LFA has 
serious concerns that without new Federal investments, we will not make 
the necessary progress in lupus-related biomedical research and 
epidemiology at such a promising time. LFA stands ready to work with 
the subcommittee and others in Congress to reduce and prevent suffering 
from lupus.
                                 ______
                                 
         Prepared Statement of the Lymphoma Research Foundation

    I am Melanie Smith, director of Public Policy and Advocacy for the 
Lymphoma Research Foundation (LRF). On behalf of the lymphoma 
survivors, researchers, and caregivers who are represented by LRF, I 
would like to express our appreciation for the opportunity to submit a 
statement to the House Appropriations Subcommittee for Labor, Health 
and Human Services, and Education. We will focus our remarks on the 
opportunities and challenges in lymphoma research and the potential for 
extending and improving the lives of those who are diagnosed with 
lymphoma.
    LRF is the Nation's largest lymphoma-focused voluntary health 
organization devoted exclusively to funding lymphoma research and 
providing patients and healthcare professionals with critical 
information on this disease. LRF's mission is to eradicate lymphoma and 
serve those touched by this disease. To that end, we have developed a 
research program through which we fund leading lymphoma researchers at 
outstanding academic institutions. LRF-funded research focuses on 
understanding the basic mechanisms of lymphoma as well as enhancing the 
available treatments for the disease. To date, LRF has funded more than 
$34.7 million in lymphoma research.
    LRF is especially proud of its 3-year initiative to provide more 
than $21 million for a special mantle cell lymphoma program comprised 
of eighteen clinical and/or laboratory-based projects in North America 
and Europe. The program is aimed at identifying curative therapies for 
mantle cell lymphoma. Because mantle cell lymphoma is a form of 
lymphoma for which treatment options have been limited and survival 
much too short, this intensive and aggressive research effort is 
critically important.

           THE BURDEN OF LYMPHOMA AND NEED FOR NEW TREATMENTS

    Lymphoma is the most commonly diagnosed hematologic cancer and the 
third most common childhood cancer. Although lymphoma experts hail the 
lymphoma therapeutic advances of the last decade for dramatically 
changing lymphoma treatment and care, these new treatments do not 
eliminate the pressing need for additional therapeutic research. The 
numbers underscore the need for a continued commitment to lymphoma 
research. In 2007, approximately 71,380 Americans will be diagnosed 
with lymphoma. It is estimated that 63,190 will be diagnosed with non-
Hodgkin lymphoma (NHL), and that 18,660 will die from NHL. Also in 
2007, it is expected that 8,190 cases of Hodgkin lymphoma will be 
diagnosed, and 1,070 Americans will die from the disease. Nearly half a 
million Americans are living with lymphoma.
    The treatment advances of recent years have not boosted the 
survival rate for NHL as dramatically as we had hoped. The 5-year 
survival rate is 63 percent and the 10-year survival rate is only 49 
percent. The 5-year survival rate for Hodgkin lymphoma is 86 percent 
and the 10-year survival rate is 81 percent.
    Still another issue must be remembered when we are evaluating the 
progress that has been made in the fight against Hodgkin lymphoma and 
NHL. There is an increasing body of knowledge about the long-term 
effects of treatment for cancer, but there is a need for additional 
research to understand the effects of cancer therapies, develop 
strategies to minimize or address these effects, and develop therapies 
that are accompanied by fewer side effects. A study published in a 
recent edition of the Journal of the National Cancer Institute 
underscored the challenges facing Hodgkin lymphoma patients; according 
to the report of a British research team, Hodgkin lymphoma patients may 
have an increased rate of myocardial infarction for up to 25 years 
after undergoing treatment. The cardiotoxicity can be attributed to the 
radiotherapy, anthracyclines, and vincristine used in Hodgkin lymphoma 
therapy.

                     ADVANCES IN LYMPHOMA RESEARCH

    In the last decade, there have been a number of significant 
advances in lymphoma research that have contributed to deeper 
understanding of the disease and its progression and fostered the 
development of new treatments. Knowledge about the diversity of 
lymphoma has contributed to the effort to target treatment regimens to 
specific forms of the disease. In addition, we are learning more about 
the link between environmental factors and infections--chemicals, 
toxins, drugs, infectious agents such as hepatitis C and Epstein Barr 
virus, and the gastric pathogen Helicobacter pylori--and many forms of 
lymphoma.
    Recent lymphoma treatment advances are a monoclonal antibody 
(rituximab) that blocks a specific protein on B lymphocytes and a 
radioactively labeled monocolonal antibody (tositumomab) that may 
prolong remission in follicular lymphoma patients. Studies suggest that 
bortezomib, which inhibits an enzyme complex that plays a role in 
regulating cell function and growth, will shrink tumors in patients 
with mantle cell lymphoma. Finally, research is underway on additional 
immunotherapies, including therapeutic vaccines for lymphoma.
    One of the key areas of inquiry is the identification of the best 
combinations of treatments, including rituximab. Investigators are also 
considering whether to treat low-grade follicular lymphoma immediately 
or to continue the current approach of ``watch and wait.'' Stem cell 
transplantation remains an important part of lymphoma treatment, but 
additional research may contribute to refinements in the procedure and 
better results for lymphoma patients.
    There are a number of new therapies in development with the hope of 
prolonging life and providing a better quality of life. In addition, 
long-term and late effects of treatment are a concern. Lymphoma 
patients may be at risk for developing second cancers, and 
investigation of these risks is critical and may contribute to better 
management of currently available therapies.

                    ROLE OF LRF IN LYMPHOMA RESEARCH

    By supporting outstanding investigators considering a wide range of 
topics in lymphoma research, LRF contributes significantly to progress 
in the field. In 2003, LRF made a determination that it would tackle 
one of the most challenging forms of non-Hodgkin lymphoma, mantle cell 
lymphoma, with an aggressive and well-coordinated research program that 
focuses on this rare form of non-Hodgkin lymphoma (NHL) affecting only 
6-10 percent of NHL patients.
    Since 2003, LRF has dedicated more than $21 million to the Mantle 
Cell Lymphoma Research Initiative, and with those funds has supported a 
range of critical research efforts, including:
  --Hosting the preeminent scientific meeting focused exclusively on 
        mantle cell lymphoma.
  --Formation of the Mantle Cell Lymphoma Consortium to stimulate 
        collaboration among its members to accelerate the pace of 
        finding cures for the disease.
  --Launching of an MCL web site and awarding the first set of 
        correlative clinical trials grants.
  --Inclusion of nearly 100 scientists in the network of mantle cell 
        researchers.
    The Mantle Cell Lymphoma Consortium may serve as a research model 
for focusing on other forms of lymphoma, and LRF is moving ahead with 
additional targeted initiatives.

                    ROLE OF NIH IN LYMPHOMA RESEARCH

    LRF will continue to play a strong and creative role in funding 
lymphoma research, fostering cutting edge initiatives that hold the 
promise of making a meaningful and positive change in the lives of 
those living with lymphoma. Although the Foundation's efforts will 
continue and even expand, its work must be undertaken in collaboration 
with NIH. This is not only because of the magnitude of the NIH cancer 
research budget but also because of the potential for NIH to provide 
leadership among all elements of the research and development 
community, including NIH intramural researchers, academic researchers, 
private foundations, industry, and the Food and Drug Administration 
(FDA).
    We understand that the substantial increases in NIH funding that 
Congress approved between 1999 and 2003 will not be replicated in the 
foreseeable future. However, we urge that Congress provide an increase 
of 6.7 percent for NIH in fiscal year 2008, an increase that will 
simply protect the recent investment in NIH and permit additional 
research progress. Advances in cancer research have contributed to 
improvements in survival, but these advances have generally been 
incremental and have required a sustained funding commitment.
    We urge that Congress protect NIH funding and strive to provide an 
increase in funding to allow researchers to pursue promising avenues of 
research. LRF recommends that NIH strengthen its lymphoma research 
program by several actions:
  --The National Cancer Institute (NCI) should boost its support for 
        translational and clinical lymphoma research. NCI should 
        support research efforts aimed at evaluating the most 
        appropriate utilization of new therapies, including the best 
        possible combinations of therapies.
  --NCI should also enhance its support for correlative studies of 
        tumor biology and treatment response, as well as its investment 
        in research on the late and long-term effects of lymphoma 
        treatments.
  --NCI should expand its research effort focused on understanding the 
        complex interaction among environmental, viral, and 
        immunogenetic factors that are involved in the initiation and 
        promotion of lymphoma.
  --Although NCI has historically been the lead institute in funding 
        lymphoma research, other institutes, including the National 
        Heart, Lung, and Blood Institute (NHLBI), National Institute on 
        Aging (NIA), and National Institute of Environmental Health 
        Sciences (NIEHS), should also evaluate and improve their 
        lymphoma research programs. A lymphoma-focused initiative to 
        investigate environmental/viral links is warranted.
    NCI is developing a plan for the implementation of the 
recommendations of its Clinical Trials Working Group. To date, most 
implementation efforts have concentrated on the planning and management 
of NCI-sponsored clinical trials. We urge NCI to act on recommendations 
of the Working Group that focused on strengthening patient 
participation in clinical trials. Increasing the rate of participation 
in clinical trials is a key element in accelerating the pace of cancer 
clinical research and the development of new treatments.
    We also recommend that NCI consider actions that would encourage 
the utilization of a centralized institutional review board (IRB), an 
effort that could contribute to a streamlining of the review of new 
clinical trials and minimize delays in the clinical trials process. NCI 
has tested a central IRB, and that IRB or another might be utilized by 
cancer researchers for review and approval of their protocols. 
Encouragement from NCI regarding the utilization of a centralized IRB 
could contribute to a more rapid acceptance among researchers.
    We have detailed some impressive advances in lymphoma treatment, 
but the research task is far from complete. Much more research must be 
undertaken to ensure proper utilization of existing therapies, and new 
therapies are needed for a number of different forms of lymphoma. We 
look forward to the continued commitment of Congress to lymphoma 
research. As we seek to strengthen our private sector investment in 
research, we hope that the public-private lymphoma research partnership 
will continue.
                                 ______
                                 
          Prepared Statement of the March of Dimes Foundation

    The 3 million volunteers and 1,400 staff members of the March of 
Dimes Foundation appreciate the opportunity to submit the Foundation's 
Federal funding recommendations for fiscal year 2008. The March of 
Dimes is a national voluntary health agency working to improve the 
health of mothers, infants and children by preventing birth defects, 
premature birth and infant mortality through research, community 
services, education, and advocacy.
    The volunteers and staff of the March of Dimes urge the 
subcommittee to provide the funding increases recommended below. Of 
particular note, one of the last actions of the 109th Congress was 
unanimous approval of the PREEMIE Act (Public Law 109-450). The March 
of Dimes commends Congress for recognizing the growing health crisis of 
preterm birth and calls on the subcommittee to fund two major 
provisions of the act: (1) expansion of CDC activities related to 
preterm birth, which are outlined in the CDC section of this testimony 
and (2) a Surgeon General's Conference and report on preterm birth. In 
order to convene a Surgeon General's conference on preterm birth and 
produce a widely disseminated report, $1,000,000 in fiscal year 2008 
funding is needed. The conference and report will establish a public-
private research and education agenda to accelerate the development of 
new strategies for preventing preterm birth.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    The March of Dimes joins the larger research community in 
recommending a 6.7 percent increase in funding for the NIH bringing 
total Federal support to just over $30 billion. The 6.7 percent 
increase was calculated by the biomedical inflator of 3.7 percent and 
lost purchasing power which is 3 percent. Since the doubling of NIH's 
budget was completed in 2003, the agency has lost 13 percent of its 
purchasing power. With all the threats to children's health it is 
imperative to increase the overall investment in medical research.
Office of the Director
    The March of Dimes was extremely pleased that Congress included $69 
million for the National Children's Study (NCS) in the fiscal year 2007 
Joint Funding Resolution, allowing for implementation of the next phase 
of the study. The Foundation urges the subcommittee to include within 
the Office of the Director $111 million ($42 million in new funding) 
for the NCS in fiscal year 2008. While the amount may seem substantial, 
it is dwarfed by the cost of treating the diseases and conditions the 
study is designed to address. Approximately 1 year after the full study 
is underway researchers will begin a thorough review of data pertaining 
to premature birth and pregnancy outcomes and, using this data, will 
focus on an array of serious pediatric health problems. This landmark 
study holds the potential to dramatically enhance understanding of the 
causes of preterm birth, birth defects, and infant mortality as well as 
numerous other childhood diseases and conditions.
National Institute of Child Health and Human Development (NICHD)
    The March of Dimes recommends a 6.7 percent increase for NICHD in 
fiscal year 2008 and an increase of at least $100 million over the next 
5 years to boost prematurity-related research. In recent years, the 
NICHD has made a major commitment to enhance our understanding of the 
factors that result in premature birth and to develop strategies to 
prolong pregnancy so that infants are not born too soon. But additional 
research is needed.
    Since 1981, the preterm birth rate has increased 30 percent 
resulting in more than half a million premature births in 2005--or 1 in 
8. Preterm birth is the leading cause of death in the first month of 
life and, for those babies who do survive, 1 in 5 experience life long 
health problems including cerebral palsy, mental retardation, chronic 
lung disease, and vision and hearing loss. Preterm labor can happen to 
any pregnant woman, and the causes of nearly half of all premature 
births are not yet known.
    This growing problem of preterm births was brought into sharp focus 
by the 2006 Institute of Medicine (IOM) report entitled, ``Preterm 
Birth: Causes, Consequences and Prevention.'' The IOM found that the 
annual economic burden associated with preterm birth in the United 
States was at least $26.2 billion, or $51,600 per infant born preterm. 
In 2003, the national hospital bill alone for the care of these babies 
exceeded $18 billion, half of which was borne by Medicaid and other 
public programs and the remainder was charged to employers and 
families.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

Safe Motherhood/Infant Health
    The National Center for Chronic Disease Prevention and Health 
Promotion, Division of Reproductive Health works to promote optimal 
reproductive and infant health. The March of Dimes recommends an $8 
million increase, as authorized in the PREEMIE Act, for CDC to increase 
epidemiological research on preterm labor and delivery, which is vital 
to ultimately preventing preterm birth.
    Specifically, these additional funds will enable CDC to conduct 
additional epidemiological studies on preterm birth, including the 
relationship between prematurity, birth defects and developmental 
disabilities. These new funds will also make possible the establishment 
of systems for the collection of maternal-infant clinical and 
biomedical information that is linked with the Pregnancy Risk 
Assessment Monitoring System (PRAMS). Increasing CDC's research 
activities related to preterm birth will bring the Nation closer to 
improving screening and early detection and finding new interventions 
for women at risk for preterm labor.
National Center on Birth Defects and Developmental Disabilities 
        (NCBDDD)
    Of particular interest to the March of Dimes is NCBDDD's birth 
defects program that includes surveillance, research and prevention 
activities. For fiscal year 2008, the March of Dimes requests an 
increase of $10 million to support surveillance and research and an 
additional $2 million for folic acid education. In the March of Dimes 
professional judgment, these modest increases are vital to making 
progress in reducing the incidence of birth defects.
    In the United States, about 3 percent of all babies are born with a 
major birth defect. Birth defects are the leading cause of infant 
mortality accounting for more than 20 percent of all infant deaths 
every year. Children with birth defects who survive may experience 
lifelong physical and mental disabilities, and are at increased risk 
for developing other health problems. In fact, birth defects contribute 
substantially to the Nation's health care costs. According to CDC, the 
lifetime economic cost of caring for infants born each year with 1 of 
the 18 most common birth defects exceeds $8 billion.
    The causes of nearly 70 percent of birth defects are unknown and it 
is therefore critical that the subcommittee increase funding for the 
National Birth Defects Prevention Study. This groundbreaking CDC 
initiative is being carried out by 9 regional Centers for Birth Defects 
Research and Prevention located in Arkansas, California, Georgia, Iowa, 
Massachusetts, New York, North Carolina, Texas, and Utah. Each of these 
centers identify infants with major birth defects; interview mothers 
about medical history, environmental exposures, and lifestyle before 
and during pregnancy; and collect DNA samples to study gene-environment 
interactions. This study has nearly 11 years worth of data and DNA 
samples collected. Due to funding limitations, CDC has yet to be able 
to analyze the DNA samples to identify genetic risk factors. In 
addition, without increased funding the CDC will be forced to decrease 
the number of centers participating in the study.
    NCBDDD also provides funding to assist States with community-based 
birth defects tracking systems, programs to prevent birth defects and 
improve access to health services for children with birth defects. 
Surveillance forms the backbone of a vital, functional and responsive 
public health network. Additional resources are sorely needed to help 
States seeking assistance.
    Finally, NCBDDD is conducting a national public and health 
professions education campaign designed to increase the number of women 
taking folic acid. CDC estimates that up to 70 percent of neural tube 
defects (NTDs), serious birth defects of the brain and spinal cord 
including anencephaly and spina bifida could be prevented if all women 
of childbearing age consume 400 micrograms of folic acid daily, 
beginning before pregnancy. Since 1996, the rate of NTDs in the United 
States has decreased by 26 percent. Unfortunately, according to a 
recent analysis conducted by CDC folate concentrations among non-
pregnant women of child bearing age decreased by 16 percent from 1999-
2000 through 2003-2004. Clearly, women are still not receiving an 
adequate level of folic acid and increased resources to CDC for the 
expansion of its folic acid education campaign is needed.
National Center for Health Statistics
    The National Center for Health Statistics (NCHS) provides data 
essential for both public and private research and programmatic 
initiatives. The National Vital Statistics System and the National 
Survey on Family Growth, for example, is the principal source of 
information on the utilization of prenatal care and on birth outcomes, 
including preterm delivery, low birthweight and infant mortality. The 
current funding level threatens the collection of vital information and 
more specifically NCHS lacks the resources to collect a full year's 
worth of vital statistics from States. Without at least $3 million in 
additional funding we will become the first industrialized Nation 
unable to collect birth, death and other vital statistics. The March of 
Dimes supports a funding level of $117 million, an increase of $8 
million over fiscal year 2007, to ensure that NCHS continues its role 
in monitoring our Nation's health.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

Newborn Screening
    Newborn screening is a vital public health activity used to 
identify and treat genetic, metabolic, hormonal and functional 
conditions in newborns. Screening detects disorders in newborns that, 
if left untreated, can cause death, disability, mental retardation and 
other serious illnesses. Parents are often unaware that while nearly 
all babies born in the United States undergo newborn screening for 
genetic birth defects, the number and quality of these tests vary from 
State to State. The March of Dimes, the American Academy of Pediatrics 
and the American College of Medical Genetics recommend that at a 
minimum, every baby born in the United States be screened for a core 
group of 29 treatable conditions regardless of the State in which the 
infant is born. Only 11 States and the District of Columbia currently 
screen for all 29 of these conditions.
    Currently, Federal support for State newborn screening activities 
is provided through the Maternal and Child Health Block Grant, Special 
Projects of Regional and National Significance (SPRANS). The March of 
Dimes recommends full funding of the MCH Block Grant at the authorized 
level of $850 million. In addition, the Foundation urges that $9 
million of SPRANS funding be set-aside for newborn screening activities 
(an increase of $3 million over fiscal year 2007). In the March of 
Dimes professional judgment, this funding will allow for the 
continuation of the Regional Genetic Service and Newborn Screening 
Collaboratives that focus on the maldistribution of genetic services 
and resources and bring services closer to local communities. It would 
also enable HRSA to improve the capacity of States to: (1) provide 
screening, counseling, testing, and special services for newborns and 
children at risk for heritable disorders; (2) educate health 
professionals and parents on the availability and importance of newborn 
screening; and (3) support States with technical assistance on the 
acquisition and use of new technologies and newborn screening services.

            FISCAL YEAR 2008 FEDERAL FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                          March of Dimes
                                             Fiscal year    fiscal year
                  Program                        2007          2008
                                               funding    recommendation
------------------------------------------------------------------------
National Institutes of Health (Total)......       28,879       30,813
National Children's Study..................           69          111
National Institute of Child Health & Human         1,253        1,337
 Development...............................
National Human Genome Research Institute...          486          519
National Center on Minority Health and               199          212
 Disparities...............................
Center for Disease Control and Prevention          6,095        7,800
 (CDC).....................................
Save Motherhood/Infant Health (NCCDPHP)....           44           52
Birth Defects Research & Surveillance......           15           25
Folic Acid Education Campaign..............            2            4
Immunization...............................          520          802.4
Polio Eradication..........................          101          101
National Center for Health Statistics......          109          117
Health Resources and Services                      6,884        7,500
 Administration (Total)....................
Maternal and Child Health Block Grant......          693          850
Newborn Screening..........................            6            9
Newborn Hearing Screening..................           10           10
Consolidated (Community) Health Centers....        1,988        2,188
Healthy Start..............................          102          102
Agency for Healthcare Research and Quality.          319          350
------------------------------------------------------------------------

                                 ______
                                 
             Prepared Statement of Meharry Medical College

              SUMMARY OF FISCAL YEAR 2008 RECOMMENDATIONS

    $300 million for the Title VII Health Professions Training 
programs, including:
  --$33.6 million for the Minority Centers of Excellence.
  --$35.6 million for the Health Careers Opportunity program.
    $250 million for the National Institutes of Health's National 
Center on Minority Health and Health Disparities.
    $169 million for the National Center for Research Resources 
Extramural Facilities Construction program.
  --$6.7 percent increase for Research Centers for Minority 
        Institutions.
  --$119 million for Extramural Facilities construction.
    $65 million for the Department of Health and Human Services' Office 
of Minority Health.
    $65 million for the Department of Education's Strengthening 
Historically Black Graduate Institutions program.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Wayne J. 
Riley, president and CEO of Meharry Medical College in Nashville, 
Tennessee. I have previously served as vice-president and vice dean for 
health affairs and governmental relations and associate professor of 
medicine at Baylor College of Medicine in Houston, Texas and as 
assistant chief of medicine and a practicing general internist at 
Houston's Ben Taub General Hospital. In all of these roles, I have seen 
firsthand the importance of minority health professions institutions 
and the Title VII Health Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I want to say that minority health 
professional institutions and the Title VII Health Professionals 
Training programs address a critical national need. Persistent and 
sever staffing shortages exist in a number of the health professions, 
and chronic shortages exist for all of the health professions in our 
Nation's most medically underserved communities. Furthermore, our 
Nation's health professions workforce does not accurately reflect the 
racial composition of our population. For example while blacks 
represent approximately 15 percent of the U.S. population, only 2-3 
percent of the Nation's health professions workforce is black. If you 
take minorities as a whole, Minority health professional institutions 
and the Title VII Health Professions Training programs address this 
critical national need. Persistent and severe staffing shortages exist 
in a number of the health professions, and chronic shortages exist for 
all of the health professions in our Nation's most medically 
underserved communities. Our Nation's health professions workforce does 
not accurately reflect the racial composition of our population. For 
example, African Americans represent approximately 15 percent of the 
U.S. population while only 2-3 percent of the Nation's healthcare 
workforce is African American.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Institutions that cultivate minority health professionals have been 
particularly hard-hit as a result of the cuts to the Title VII Health 
Profession Training programs in fiscal year 2006 and fiscal year 2007 
Funding Resolution passed earlier this Congress. Given their historic 
mission to provide academic opportunities for minority and financially 
disadvantaged students, and healthcare to minority and financially 
disadvantaged patients, minority health professions institutions 
operate on narrow margins. The cuts to the Title VII Health Professions 
Training programs amount to a loss of core funding at these 
institutions and have been financially devastating.
    Mr. Chairman, I feel like I can speak authoritatively on this issue 
because I received my medical degree from Morehouse School of Medicine, 
a historically black medical school in Atlanta. I give credit to my 
career in academia, and my being here today, to Title VII Health 
Profession Training programs' Faculty Loan Repayment Program. Without 
that program, I would not be the president of my father's alma mater, 
Meharry Medical College, another historically black medical school 
dedicated to eliminating healthcare disparities through education, 
research and culturally relevant patient care.
    In fiscal year 2008, funding for the Title VII Health Professions 
Training programs must be restored to the fiscal year 2005 level of 
$300 million, with two programs--the Minority Centers of Excellence 
(COEs) and Health Careers Opportunity Program (HCOPs)--in particular 
need of a funding restoration. In addition, the National Institutes of 
Health (NIH)'s National Center on Minority Health and Health 
Disparities (NCMHD), as well as the Department of Health and Human 
Services (HHS)'s Office of Minority Health (OMH), are both in need of a 
funding increase.

                     MINORITY CENTERS OF EXCELLENCE

    COEs focus on improving student recruitment and performance, 
improving curricula in cultural competence, facilitating research on 
minority health issues and training students to provide health services 
to minority individuals. COEs were first established in recognition of 
the contribution made by four historically black health professions 
institutions (the Medical and Dental Institutions at Meharry Medical 
College; The College of Pharmacy at Xavier University; and the School 
of Veterinary Medicine at Tuskegee University) to the training of 
minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs.
    Presently the statute is configured in such a way that the 
``original four'' institutions compete for the first $12 million in 
funding, ``Hispanic and Native American'' institutions compete for the 
next $12 million, and ``Other'' institutions can compete for grants 
when the overall funding is above $24 million. For funding above $30 
million all eligible institutions can compete for funding.
    However, as a consequence of limited funding for COEs in fiscal 
year 2006 and fiscal year 2007, ``Hispanic and Native American'' and 
``Other'' COEs have lost their support. Out of 34 total COEs in fiscal 
year 2005, only 4 now remain due to the cuts in funding.
    For fiscal year 2008, I recommend a funding level of $33.6 million 
for COEs.

               HEALTH CAREERS OPPORTUNITY PROGRAM (HCOP)

    HCOPs provide grants for minority and non-minority health 
profession institutions to support pipeline, preparatory and recruiting 
activities that encourage minority and economically disadvantaged 
students to pursue careers in the health professions. Many HCOPs 
partner with colleges, high schools, and even elementary schools in 
order to identify and nurture promising students who demonstrate that 
they have the talent and potential to become a health professional.
    Collectively, the absence of HCOPs will substantially erode the 
number of minority students who enter the health professions. Over the 
last three decades, HCOPs have trained approximately 30,000 health 
professionals including 20,000 doctors, 5,000 dentists and 3,000 public 
health workers. If HCOPs continue to lose Federal support, then these 
numbers will drastically decrease. It is estimated that the number of 
minority students admitted to health professional schools will drop by 
25-50 percent without HCOPs. A reduction of just 25 percent in the 
number of minority students admitted to medical school will produce 
approximately 600 fewer minority medical students nationwide.
    As a result of cuts in the fiscal year 2006 and fiscal year 2007 
Labor-HHS Appropriations process, only 4 out of 74 total HCOPs 
currently receive Federal funding. As president of Meharry, I feel this 
loss as we were one of the 70 institutions who lost their HCOP grants.
    For fiscal year 2008, I recommend a funding level of $35.6 million 
for HCOPs.
national institutes of health (nih): extramural facilities construction
    Mr. Chairman, if we are to take full advantage of the recent 
funding increases for biomedical research that Congress has provided to 
NIH over the past decade, it is critical that our Nation's research 
infrastructure remain strong. The current authorization level for the 
Extramural Facility Construction program at the National Center for 
Research Resources is $250 million. The law also includes a 25 percent 
set-aside for ``Institutions of Emerging Excellence'' (many of which 
are minority institutions) for funding up to $50 million. Finally, the 
law allows the NCRR Director to waive the matching requirement for 
institutions participating in the program. We strongly support all of 
these provisions of the authorizing legislation because they are 
necessary for our minority health professions training schools.
    Unfortunately, funding for NCRR's Extramural Facility Construction 
program was completely eliminated in the fiscal year 2006 Labor-HHS 
bill, and no funding was restored in the funding resolution for fiscal 
year 2007. In fiscal year 2008, please restore funding for this program 
to its fiscal year 2004 level of $119 million, or at a minimum, provide 
funding equal to the fiscal year 2005 appropriation of $40 million.

               RESEARCH CENTERS IN MINORITY INSTITUTIONS

    The Research Centers at Minority Institutions program (RCMI) at the 
National Center for Research Resources has a long and distinguished 
record of helping our institutions develop the research infrastructure 
necessary to be leaders in the area of health disparities research. 
Although NIH has received unprecedented budget increases in recent 
years, funding for the RCMI program has not increased by the same rate. 
Therefore, the funding for this important program grow at the same rate 
as NIH overall in fiscal year 2008.

 STRENGTHENING HISTORICALLY BLACK GRADUATE INSTITUTIONS--DEPARTMENT OF 
                               EDUCATION

    The Department of Education's Strengthening Historically Black 
Graduate Institutions program (Title III, Part B, section 326) is 
extremely important to MMC and other minority serving health 
professions institutions. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2008, an 
appropriation of $65 million (an increase of $7 million over fiscal 
year 2007) is suggested to continue the vital support that this program 
provides to historically black graduate institutions.
National Center on Minority Health and Health Disparities
    The National Center on Minority Health and Health Disparities 
(NCMHD) is charged with addressing the longstanding health status gap 
between minority and nonminority populations. The NCMHD helps health 
professional institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NCMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NCMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through the Minority Centers of 
Excellence program.
    For fiscal year 2008, I recommend a funding level of $250 million 
for the NCMHD.
Department of Health and Human Services' Office of Minority Health 
        (OMH)
    Specific programs at OMH include:
    (1) Assisting medically underserved communities with the greatest 
need in solving health disparities and attracting and retaining health 
professionals,
    (2) Assisting minority institutions in acquiring real property to 
expand their campuses and increase their capacity to train minorities 
for medical careers,
    (3) Supporting conferences for high school and undergraduate 
students to interest them in health careers, and
    (4) Supporting cooperative agreements with minority institutions 
for the purpose of strengthening their capacity to train more 
minorities in the health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. Unfortunately, the OMH does not yet have the 
authority or resources necessary to support activities that will truly 
make a difference in closing the health gap between minority and 
majority populations.
    For fiscal year 2008, I recommend a funding level of $65 million 
for the OMH.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
Meharry Medical College along with other minority health professions 
institutions and the Title VII Health Professions Training programs can 
help this country to overcome health and healthcare disparities. 
Congress must be careful not to eliminate, paralyze or stifle the 
institutions and programs that have been proven to work. Meharry and 
other minority health professions schools seek to close the ever 
widening health disparity gap. If this subcommittee will give us the 
tools, we will continue to work towards the goal of eliminating that 
disparity as we have done for 1,876.
    Thank you, Mr. Chairman, for this opportunity.
                                 ______
                                 
         Prepared Statement of the Morehouse School of Medicine

              SUMMARY OF FISCAL YEAR 2008 RECOMMENDATIONS

    $300 million for the Title VII Health Professions Training 
programs, including:
  --$33.6 million for the Minority Centers of Excellence.
  --$35.6 million for the Health Careers Opportunity program.
    $250 million for the National Institutes of Health's National 
Center on Minority Health and Health Disparities.
    Support for the National Center for Research Resources Extramural 
Facilities Construction program.
  --$6.7 percent increase for Research Centers for Minority 
        Institutions.
  --$119 million for Extramural Facilities Construction.
    $65 million for the Department of Health and Human Services' Office 
of Minority Health.
    $65 million for the Department of Education's Strengthening 
Historically Black Graduate Institutions program.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. John E. 
Maupin, president of Morehouse School of Medicine (MSM) in Atlanta, 
Georgia. I have previously served as President of Meharry Medical 
College, executive vice-president at Morehouse School of Medicine, as 
director of a community health center in Atlanta, and deputy director 
of health in Baltimore, Maryland. In all of these roles, I have seen 
firsthand the importance of minority health professions institutions 
and the Title VII Health Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I want to say that minority health 
professional institutions and the Title VII Health Professionals 
Training programs address a critical national need. Persistent and 
sever staffing shortages exist in a number of the health professions, 
and chronic shortages exist for all of the health professions in our 
Nation's most medically underserved communities. Furthermore, our 
Nation's health professions workforce does not accurately reflect the 
racial composition of our population. For example while blacks 
represent approximately 15 percent of the U.S. population, only 2-3 
percent of the Nation's health professions workforce is black. 
Morehouse is a private school with a very public mission of educating 
students from traditionally underserved communities so that they will 
care for the underserved. Mr. Chairman, I would like to share with you 
how your committee can help us continue our efforts to help provide 
quality health professionals and close our Nation's health disparity 
gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Institutions that cultivate minority health professionals, like 
MSM, have been particularly hard-hit as a result of the cuts to the 
Title VII Health Profession Training programs in fiscal year 2006 and 
fiscal year 2007 Funding Resolution passed earlier this Congress. Given 
their historic mission to provide academic opportunities for minority 
and financially disadvantaged students, and healthcare to minority and 
financially disadvantaged patients, minority health professions 
institutions operate on narrow margins. The cuts to the Title VII 
Health Professions Training programs amount to a loss of core funding 
at these institutions and have been financially devastating.
    Mr. Chairman, I feel like I can speak authoritatively on this issue 
because I received my medical degree from Meharry Medical College, a 
historically black medical and dental school in Nashville, Tennessee. I 
have seen first hand what Title VII funds have done to minority serving 
institutions like Morehouse and Meharry. I compare my days as a student 
to my days as president, without that Title VII, our institutions would 
not be here today. However, Mr. Chairman, since those funds have been 
cut in the last 2 fiscal years, we are standing at a cross roads. This 
committee has the power to decide if our institutions will go forward 
and thrive, or if we will continue to try to just survive. We want to 
work with you to eliminate health disparities and produce world class 
professionals, but we need your assistance.
    In fiscal year 2008, funding for the Title VII Health Professions 
Training programs must be restored to the fiscal year 2005 level of 
$300 million, with two programs--the Minority Centers of Excellence 
(COEs) and Health Careers Opportunity Program (HCOPs)--in particular 
need of a funding restoration. In addition, the National Institutes of 
Health (NIH)'s National Center on Minority Health and Health 
Disparities (NCMHD), as well as the Department of Health and Human 
Services (HHS)'s Office of Minority Health (OMH), are both in need of a 
funding increase.

                     MINORITY CENTERS OF EXCELLENCE

    COEs focus on improving student recruitment and performance, 
improving curricula in cultural competence, facilitating research on 
minority health issues and training students to provide health services 
to minority individuals. COEs were first established in recognition of 
the contribution made by four historically black health professions 
institutions (the Medical and Dental Institutions at Meharry Medical 
College; The College of Pharmacy at Xavier University; and the School 
of Veterinary Medicine at Tuskegee University) to the training of 
minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs.
    Presently the statute is configured in such a way that the 
``original four'' institutions compete for the first $12 million in 
funding, ``Hispanic and Native American'' institutions compete for the 
next $12 million, and ``Other'' institutions can compete for grants 
when the overall funding is above $24 million. For funding above $30 
million all eligible institutions can compete for funding.
    However, as a consequence of limited funding for COEs in fiscal 
year 2006 and fiscal year 2007, ``Hispanic and Native American'' and 
``Other'' COEs have lost their support. Out of 34 total COEs in fiscal 
year 2005, only 4 now remain due to the cuts in funding. MSM lost its 
COE funding as well, which was a devastating blow to our School.
    For fiscal year 2008, I recommend a funding level of $33.6 million 
for COEs.

               HEALTH CAREERS OPPORTUNITY PROGRAM (HCOP)

    HCOPs provide grants for minority and non-minority health 
profession institutions to support pipeline, preparatory and recruiting 
activities that encourage minority and economically disadvantaged 
students to pursue careers in the health professions. Many HCOPs 
partner with colleges, high schools, and even elementary schools in 
order to identify and nurture promising students who demonstrate that 
they have the talent and potential to become a health professional.
    Collectively, the absence of HCOPs will substantially erode the 
number of minority students who enter the health professions. Over the 
last three decades, HCOPs have trained approximately 30,000 health 
professionals including 20,000 doctors, 5,000 dentists and 3,000 public 
health workers. If HCOPs continue to lose Federal support, then these 
numbers will drastically decrease. It is estimated that the number of 
minority students admitted to health professional schools will drop by 
25-50 percent without HCOPs. A reduction of just 25 percent in the 
number of minority students admitted to medical school will produce 
approximately 600 fewer minority medical students nationwide.
    As a result of cuts in the fiscal year 2006 and fiscal year 2007 
Labor-HHS Appropriations process, only 4 out of 74 total HCOPs 
currently receive Federal funding. As president of MSM, I am proud to 
say we competed well enough to be one of those four; however, those who 
have the same mission as ours must have this funding as well.
    For fiscal year 2008, I recommend a funding level of $35.6 million 
for HCOPs.
national institutes of health (nih): extramural facilities construction
    Mr. Chairman, if we are to take full advantage of the recent 
funding increases for biomedical research that Congress has provided to 
NIH over the past decade, it is critical that our Nation's research 
infrastructure remain strong. The current authorization level for the 
Extramural Facility Construction program at the National Center for 
Research Resources is $250 million. The law also includes a 25 percent 
set-aside for ``Institutions of Emerging Excellence'' (many of which 
are minority institutions) for funding up to $50 million. Finally, the 
law allows the NCRR Director to waive the matching requirement for 
institutions participating in the program. We strongly support all of 
these provisions of the authorizing legislation because they are 
necessary for our minority health professions training schools.
    Unfortunately, funding for NCRR's Extramural Facility Construction 
program was completely eliminated in the fiscal year 2006 Labor-HHS 
bill, and no funding was restored in the funding resolution for fiscal 
year 2007. In fiscal year 2008, please restore funding for this program 
to its fiscal year 2004 level of $119 million, or at a minimum, provide 
funding equal to the fiscal year 2005 appropriation of $40 million.

               RESEARCH CENTERS IN MINORITY INSTITUTIONS

    The Research Centers at Minority Institutions program (RCMI) at the 
National Center for Research Resources has a long and distinguished 
record of helping our institutions develop the research infrastructure 
necessary to be leaders in the area of health disparities research. 
Although NIH has received unprecedented budget increases in recent 
years, funding for the RCMI program has not increased by the same rate. 
Therefore, the funding for this important program grow at the same rate 
as NIH overall in fiscal year 2008.

 STRENGTHENING HISTORICALLY BLACK GRADUATE INSTITUTIONS--DEPARTMENT OF 
                               EDUCATION

    The Department of Education's Strengthening Historically Black 
Graduate Institutions program (Title III, Part B, Section 326) is 
extremely important to MMC and other minority serving health 
professions institutions. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2008, an 
appropriation of $65 million (an increase of $7 million over fiscal 
year 2007) is suggested to continue the vital support that this program 
provides to historically black graduate institutions.
National Center on Minority Health and Health Disparities
    The National Center on Minority Health and Health Disparities 
(NCMHD) is charged with addressing the longstanding health status gap 
between minority and nonminority populations. The NCMHD helps health 
professional institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NCMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NCMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through the Minority Centers of 
Excellence program.
    For fiscal year 2008, I recommend a funding level of $250 million 
for the NCMHD.
Department of Health and Human Services' Office of Minority Health 
        (OMH)
    Specific programs at OMH include:
    (1) Assisting medically underserved communities with the greatest 
need in solving health disparities and attracting and retaining health 
professionals,
    (2) Assisting minority institutions in acquiring real property to 
expand their campuses and increase their capacity to train minorities 
for medical careers,
    (3) Supporting conferences for high school and undergraduate 
students to interest them in health careers, and
    (4) Supporting cooperative agreements with minority institutions 
for the purpose of strengthening their capacity to train more 
minorities in the health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. Unfortunately, the OMH does not yet have the 
authority or resources necessary to support activities that will truly 
make a difference in closing the health gap between minority and 
majority populations.
    For fiscal year 2008, I recommend a funding level of $65 million 
for the OMH.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
Morehouse School of Medicine along with other minority health 
professions institutions and the Title VII Health Professions Training 
programs can help this country to overcome health and healthcare 
disparities. Congress must be careful not to eliminate, paralyze or 
stifle the institutions and programs that have been proven to work. MSM 
and other minority health professions schools seek to close the ever 
widening health disparity gap. If this subcommittee will give us the 
tools, we will continue to work towards the goal of eliminating that 
disparity as we have since our founding day.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
    Prepared Statement of the National Alliance to End Homelessness

    The National Alliance to End Homelessness (the Alliance) is a 
nonpartisan, nonprofit organization that has several thousand partner 
agencies and organizations across the country. These partners are local 
faith-based and community-based nonprofit organizations and public 
sector agencies that provide homeless people with shelter, transitional 
and permanent housing, and services such as substance abuse treatment, 
job training, and physical health and mental health care. In addition, 
we have supported over 160 State and local entities who have completed 
10 year plans to end homelessness. The Alliance represents a united 
effort to address the root causes of homelessness and challenge 
society's acceptance of homelessness as an inevitable by-product of 
American life.
    Overview--Our recent research report, Homelessness Counts, 
estimates that 744,313 people are homeless on any given night. This 
includes 98,452 families. Fifty-six percent of the total were living in 
shelters or transitional housing and 44 percent were unsheltered. This 
report illustrates that far too many people are homeless and many are 
not being reached by existing programs. This is inexcusable given that 
we know what interventions work and several communities are making 
progress toward ending homelessness. These interventions, such as 
housing first for families and permanent supportive housing, couple 
housing with an appropriate level of services for the family or 
individual. Therefore, not only does the Department of Housing and 
Urban Development play a role in ending homelessness, so do the 
Departments of Labor, Health and Human Services, and Education. We call 
on Congress and all Federal agencies to adequately fund the programs 
that assist States and local entities in developing permanent housing 
and the necessary social services to once and for all end homelessness 
for all Americans.

                                 GOALS

    1. Moving Forward to End Homelessness.--Communities across America 
are working toward ending homelessness. Communities are using Federal, 
State, and local funds to help homeless persons maintain housing. It is 
important that this progress not be undermined. To this end, the 
Alliance recommends the following:
  --Allocate an additional $80 million for services in permanent 
        supportive housing within SAMHSA's Center for Mental Health 
        Services.
  --Increase funding to Projects for Assistance in Transition from 
        Homelessness (PATH) to $58.3 million.
  --Increase the Runaway and Homeless Youth Act Programs to $140 
        million.
  --Provide a $200 million increase in the Community Health Center 
        program within Health Resource Services Administration. This 
        would result in the Health Care for the Homeless programs 
        receiving $190 million.
  --Fund Education for Homeless Children and Youth services at its full 
        authorized level of $70 million.
  --Increase funding for the Homeless Veterans Reintegration Program to 
        $50 million.
    2. Connecting Homeless Families, Individuals, and Youth to 
Mainstream Services.--People experiencing homelessness also depend on 
mainstream programs such as the ones below to live day to day and once 
housed, remain housed. The Alliance recommends the following to meet 
this goal:
  --Fund the Social Services Block Grant at $1.7 billion, the same 
        funding level as fiscal year 2006.
  --Reject cuts and fund the Community Services Block Grant at $700 
        million
  --Appropriate $60 million in education and training vouchers for 
        youth exiting foster care under the Safe and Stable Families 
        Program.

               GOAL 1--MOVING FORWARD TO END HOMELESSNESS

Support Services for Permanent Supportive Housing Projects
    The Alliance recommends allocating an additional $80 million for 
services in permanent supportive housing within SAMHSA's Center for 
Mental Health Services. The administration has set a goal of ending 
chronic homelessness by 2012 and joined with Congress to set a goal of 
creating 150,000 additional units of permanent supportive housing. 
According to the Alliance's report, Homelessness Counts, 23 percent of 
those who are homeless on any given night meet the chronic homelessness 
definition of being homeless for long periods of time or repeatedly. 
These people need access to housing and support services. The Alliance 
and our partners believe the Department of Health and Human Services 
needs to raise its commitment to provide the services necessary to end 
homelessness. Therefore, we are proposing this increase in SAMHSA 
funding to help communities provide services to 16,000 new units of 
permanent supportive housing.

      PROJECTS FOR TRANSITION ASSISTANCE FROM HOMELESSNESS (PATH)

    The Alliance recommends that Congress increase PATH funding to 
$58.3 million and adjust the funding formula to increase allocation for 
small States and territories.
    The PATH program provides access to mental health services for 
homeless people with serious mental illnesses. PATH focuses on outreach 
to eligible consumers, followed by help in ensuring that those 
consumers are connected with mainstream services, such as Supplemental 
Security Income (SSI), Medicaid and welfare programs. Under the PATH 
formula grant, approximately 30 States share in the program's annual 
appropriations increases. The remaining States and territories receive 
the minimum grant of $300,000 for States and $50,000 for territories. 
These amounts have not been raised since the program was authorized in 
1991. To account for inflation, the minimum allocation should be raised 
to $600,000 for States and $100,000 for territories. Amending the 
minimum allocation requires a legislative change. If the authorizing 
committees do not address this issue, we hope that appropriators will 
explore ways to make the change through appropriations bill language.

                  RUNAWAY AND HOMELESS YOUTH PROGRAMS

    The Alliance recommends funding the Runaway and Homeless Youth Act 
(RHYA) programs at $140 million. RHYA programs support cost-effective, 
community and faith-based organizations that protect youth from the 
harms of life on the streets. The problems of homeless and runaway 
youth are addressed by the Administration for Children and Families 
within HHS, which operates coordinated competitive grant programs like 
RHYA. The RHYA programs can either reunify youth safely with family or 
find alternative living arrangements. RHYA programs end homelessness 
by: engaging youth living on the street with Street Outreach Programs, 
quickly providing emergency shelter and family crisis counseling 
through the Basic Centers, or providing supportive housing that helps 
young people develop lifelong independent living skills through 
Transitional Living Programs. Recently, the Congressional Research 
Service issued a report complimenting the good work of RHYA programs 
but detailing the gaps in services due to limited funding. It is 
essential that Congress increase this program.

    COMMUNITY HEALTH CENTERS AND HEALTH CARE FOR THE HOMELESS (HCH) 
                                PROGRAMS

    The Alliance recommends a $200 million increase to the Community 
Health Centers Program which would result in funding the HCH programs 
at $190 million.
    Persons living on the street suffer from health problems resulting 
from or exacerbated by the condition of being homeless, such as 
hypothermia, frostbite, and heatstroke. In addition, they often have 
infections of the respiratory and gastrointestinal systems, 
tuberculosis, vascular diseases such as leg ulcers, and 
hypertension.\1\ Health care for the homeless programs are vital to 
prevent these conditions from becoming fatal. Congress allocates 8.7 
percent of the Consolidated Health Centers account for Health Care for 
the Homeless (HCH) projects. The HCH program has achieved significant 
success since its inception in 1987, but the health care needs of 
Americans experiencing homelessness each year far exceed the service 
capacity of Health Care for the Homeless grantees.
---------------------------------------------------------------------------
    \1\ Harris, Shirley N, Carol T. Mowbray and Andrea Solarz. Physical 
Health, Mental Health and Substance Abuse Problems of Shelter Users. 
Health and Social Work, Vol. 19, 1994.
---------------------------------------------------------------------------
               EDUCATION FOR HOMELESS CHILDREN AND YOUTH

    The Alliance recommends funding Education for Homeless Children and 
Youth (EHCY) at its full authorized level of $70 million. The most 
important potential source of stability for homeless children is 
school. The mission of the Education for Homeless Children and Youth 
program is to ensure that these children can continue to attend school 
and thrive. The Education for Homeless Children and Youth program, 
within the Department of Education's Office of Elementary and Secondary 
Education, removes obstacles to enrollment and retention by 
establishing liaisons between schools and shelters and providing 
funding for transportation, tutoring, school supplies, and the 
coordination of statewide efforts to remove barriers.

             HOMELESS VETERANS REINTEGRATION PROGRAM (HVRP)

    The Alliance recommends that Congress increase HVRP funding to $50 
million.
    HVRP, within the Department of Labor's Veterans Employment and 
Training Service (VETS), provides competitive grants to community-
based, faith-based, and public organizations to offer outreach, job 
placement, and supportive services to homeless veterans. HVRP is the 
primary employment services program accessible by homeless veterans and 
the only targeted employment program for any homeless subpopulation. It 
is estimated that this program only reaches about two percent of the 
overall homeless veteran population. An appropriation at the authorized 
level of $50 million would enable HVRP grantees to reach approximately 
19,866 homeless veterans.

    GOAL 2--CONNECTING HOMELESS FAMILIES, INDIVIDUALS AND YOUTH TO 
                          MAINSTREAM SERVICES

Social Services Block Grant (SSBG)
    The Alliance recommends that Congress fully restore SSBG funding to 
its fiscal year 2006 level of $1.7 billion. SSBG funds are essential 
for programs dedicated to ending homelessness. In particular, youth 
housing programs and permanent supportive housing providers often 
receive State, county, and local funds which originate from the SSBG. 
As the U.S. Department of Housing and Urban Development has focused its 
funding on housing, programs that provide both housing and social 
services have struggled to fund the service component of their 
programs. This gap is often closed using Federal programs such as SSBG.
Community Services Block Grant (CSBG)
    The Alliance recommends that Congress fully restore CSBG funding to 
its fiscal year 2006 level of $630 million. Funding cuts for the CSBG 
will destabilize the progress communities have made toward ending 
homelessness by not only ending services directly provided by CSBG 
funds but limiting a community's ability to access other Federal 
dollars such as those provided by HUD. Community Action Agencies (CAAs) 
are directly involved in housing and homelessness services. In several 
communities, CAAs lead the Continuum of Care (CoC). CoCs coordinate 
local homeless service providers and the community's McKinney-Vento 
Homeless Assistance Grant application process with the Department of 
Housing and Urban Development.
    In the fiscal year 2004 Community Services Block Grant Information 
Systems report published by the U.S. Department of Health and Human 
Services, CAAs reported administering $207.4 million in section 8 
vouchers, $30 million in section 202 services \2\ and $271.1 million in 
other Department of Housing and Urban Development (HUD) programs which 
includes homeless program funding.\3\
---------------------------------------------------------------------------
    \2\ Section 202 is dedicated to housing from elderly and disabled 
individuals and families.
    \3\ U.S. Department of Health and Human Services, Administration of 
Children and Families. The Community Services Block Grant fiscal year 
2004 Statistical Report. Prepared by the National Association for State 
Community Services Programs.
---------------------------------------------------------------------------
Foster Youth Education and Training Vouchers
    The Alliance recommends that Congress appropriate $60 million in 
education and training vouchers for youth exiting foster care under the 
Safe and Stable Families Program. The Education and Training Voucher 
Program offers funds to foster youth and former foster youth to enable 
them to attend colleges, universities and vocational training 
institutions. Students may receive up to $5,000 a year for college or 
vocational training education. The funds may be used for tuition, 
books, housing, or other qualified living expenses. Given the large 
number of people experiencing homelessness who have a foster care 
history, it is important to provide assistance such as these education 
and training vouchers to stabilize youth, prevent economic crisis, and 
prevent possible homelessness.

                               CONCLUSION

    Homelessness is not inevitable. As communities implement plans to 
end homelessness, they are struggling to find funding for the services 
homeless and formerly homeless clients need to maintain housing. The 
Federal investments in mental health services, substance abuse 
treatment, employment training, youth housing, and case management 
discussed above will help communities create stable housing programs 
and change social systems which will end homelessness for millions of 
Americans.
                                 ______
                                 
Prepared Statement of the National Alliance for Eye and Vision Research 
                                (NAEVR)

                           EXECUTIVE SUMMARY

    NAEVR requests fiscal year 2008 NIH funding at $31 billion, or a 
6.7 percent increase over fiscal year 2007, to balance the biomedical 
inflation rate of 3.7 percent and to maintain the momentum of 
discovery. Although NAEVR commends the leadership's actions in the 
110th Congress to increase fiscal year 2007 NIH funding by $620 
million, this was just an initial step in restoring the NIH's 
purchasing power, which has declined by more than 13 percent since 
fiscal year 2005. That power would be eroded even further under the 
President's proposed fiscal year 2008 budget. NAEVR commends NIH 
Director Dr. Zerhouni who has articulately described his agenda to 
foster collaborative, cost-effective research and to transform the 
healthcare research and delivery paradigm into one that is predictive, 
preemptive, preventive, and personalized. NIH is the world's premier 
institution and must be adequately funded so that its research can 
reduce healthcare costs, increase productivity, improve quality of 
life, and ensure our Nation's global competitiveness.
    NAEVR requests that Congress make vision health a top priority by 
funding the NEI at $711 million in fiscal year 2008, or a 6.7 percent 
increase over fiscal year 2007. This level is necessary to fully 
advance the breakthroughs resulting from NEI's basic and clinical 
research that are resulting in treatments and therapies to prevent eye 
disease and restore vision. Vision impairment/eye disease is a major 
public health problem that is growing and which disproportionately 
affects the aging and minority populations, costing the United States 
$68 billion annually in direct and societal costs, let alone reduced 
independence and quality of life. Adequately funding the NEI is a cost-
effective investment in our Nation's health, as it can delay, save, and 
prevent expenditures, especially to the Medicare and Medicaid programs.

FUNDING THE NEI AT $711 MILLION IN FISCAL YEAR 2008 ENABLES IT TO LEAD 
 TRANS-INSTITUTE VISION RESEARCH THAT MEETS NIH'S GOAL OF PREEMPTIVE, 
          PREDICTIVE, PREVENTIVE, AND PERSONALIZED HEALTHCARE

    Funding NEI at $711 million in fiscal year 2008 represents the eye 
and vision research community's judgment as that necessary to fully 
advance breakthroughs resulting from NEI's basic and clinical research 
that are resulting in treatments and therapies to prevent eye disease 
and restore vision.
    NEI research responds to the NIH's overall major health challenges, 
as set forth by Dr. Zerhouni: an aging population; health disparities; 
the shift from acute to chronic diseases; and the co-morbid conditions 
associated with chronic diseases (e.g., diabetic retinopathy as a 
result of the epidemic of diabetes). In describing the predictive, 
preemptive, preventive, and personalized approach to healthcare 
research, Dr. Zerhouni has frequently cited NEI-funded research as 
tangible examples of the value of our Nation's past and future 
investment in the NIH. These include:
  --Dr. Zerhouni has cited as a breakthrough the collaborative Human 
        Genome Project/NEI-funded discovery of gene variants strongly 
        associated with an individual's risk of developing age-related 
        macular degeneration (AMD), the leading cause of blindness 
        (affecting more than 10 million Americans) which increasingly 
        robs seniors of their independence and quality of life. These 
        variants, which are responsible for about 60 percent of the 
        cases of AMD, are associated with the body's inflammatory 
        response and may relate to other inflammation-associated 
        diseases, such as Alzheimer's and Parkinson's disease. As NEI 
        Director Dr. Paul Sieving has stated, ``One of the important 
        stories during the next decade will be how Alzheimer's disease 
        and macular degeneration fit together.''
  --Dr. Zerhouni has cited the NEI-funded Age-Related Eye Disease Study 
        (AREDS) as a cost-effective preventive measure. In 2006, NEI 
        began the second phase of the AREDS study, which will follow up 
        on initial study findings that high levels of dietary zinc and 
        antioxidant vitamins (Vitamins C, E and beta-carotene) are 
        effective in reducing vision loss in people at high risk for 
        developing advanced AMD--by a magnitude of 25 percent.
  --NEI has funded research, along with the National Cancer Institute 
        (NCI) and the National Heart, Lung, and Blood Institute 
        (NHLBI), into factors that promote new blood vessel growth 
        (such as Vascular Endothelial Growth Factor, or VEGF). This has 
        resulted in anti-VEGF factors that have been translated into 
        the first generation of ophthalmic drugs approved by the Food 
        and Drug Administration (FDA) to inhibit abnormal blood vessel 
        growth in ``wet'' AMD, thereby stabilizing vision loss. Current 
        research is focused on using treatments singly and in 
        combination to improve vision or prevent further vision loss 
        due to AMD. As part of its Diabetic Retinopathy Clinical 
        Research Network, NEI is also evaluating these drugs for 
        treatment of macular edema associated with diabetic 
        retinopathy.
    Although these breakthroughs came directly from the past doubling 
of the NIH budget, their long-term potential to preempt, predict, 
prevent, and treat disease relies on adequately funding NEI's follow-up 
research. Unless its funding is increased, the NEI's ability to 
capitalize on the findings cited above will be seriously jeopardized, 
resulting in ``missed opportunities'' that could include:
  --Following up on the AMD gene discovery by developing diagnostics 
        for early detection and promising therapies, as well as to 
        further study the impact of the body's inflammatory response on 
        other degenerative eye diseases.
  --Fully investigating the impact of additional, cost-effective 
        dietary supplements in the AREDS study, singly and in 
        combination, to determine if they can demonstrate enhanced 
        protective effects against progression to advanced AMD.
  --Following up with further clinical trials on patients with the 
        ``wet'' form of AMD, as well as patients with diabetic 
        retinopathy, using the new anti-angiogenic ophthalmic drugs 
        singly and in combination to halt disease progression and 
        potentially restore vision.
    In addition, NEI research into other significant eye disease 
programs, such as glaucoma and cataract, will be threatened, along with 
quality of life research programs into low vision and chronic dry eye. 
This comes at a time when the U.S. Census and NEI-funded 
epidemiological research (also threatened without adequate funding) 
both cite significant demographic trends that will increase the public 
health problem of vision impairment and eye disease.

VISION IMPAIRMENT/EYE DISEASE IS A MAJOR PUBLIC HEALTH PROBLEM THAT IS 
  INCREASING HEALTHCARE COSTS, REDUCING PRODUCTIVITY, AND DIMINISHING 
                            QUALITY OF LIFE

    The 2000 U.S. Census reported that more than 119 million people in 
the United States were age 40 or older, which is the population most at 
risk for an age-related eye disease. The NEI estimates that, currently, 
more than 38 million Americans age 40 and older experience blindness, 
low vision or an age-related eye disease such as AMD, glaucoma, 
diabetic retinopathy, or cataracts. This is expected to grow to more 
than 50 million Americans by year 2020. The economic and societal 
impact of eye disease is increasing not only due to the aging 
population, but to its disproportionate incidence in minority 
populations and as a co-morbid condition of other chronic disease, such 
as diabetes.
    Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of direct healthcare costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. The continuum of 
vision loss presents a major public health problem and financial 
challenge to both the public and private sectors.
    In public opinion polls over the past 40 years, Americans have 
consistently identified fear of vision loss as second only to fear of 
cancer. As a result, Federal funding for the NEI is a vital investment 
in the health, and vision health, of our Nation, especially our 
seniors, as the treatments and therapies emerging from research can 
preserve and restore vision. Adequately funding the NEI can delay, 
save, and prevent expenditures, especially those associated with the 
Medicare and Medicaid programs, and is, therefore, a cost-effective 
investment.
    NAEVR urges fiscal year 2008 NIH and NEI funding at $31 billion and 
$711 million, respectively.

                              ABOUT NAEVR

    Founded in 1997, NAEVR is a non-profit advocacy organization 
comprised of a coalition of 55 professional, consumer, and industry 
organizations (see list below) involved in eye and vision research. 
NAEVR's goal is to achieve the best vision for all Americans through 
advocacy and public education about the value and cost-effectiveness of 
eye and vision research sponsored by the NIH, NEI, and other Federal 
research entities.
  Advanced Medical Optics; Alcon Laboratories, Inc.; Allergan, Inc.; 
        AMD Alliance International; American Academy of Ophthalmology; 
        American Academy of Optometry; American Association for 
        Pediatric Ophthalmology and Strabismus; American Assoc. of 
        Ophthalmic Pathologists; American Diabetes Association; 
        American Glaucoma Society; American Ophthalmological Society; 
        American Society of Retina Specialists; American Optometric 
        Association; American Society of Cataract and Refractive 
        Surgery; American Uveitis Society; Association for Research in 
        Vision and Ophthalmology; Association of Schools and Colleges 
        of Optometry; Association of University Professors of 
        Ophthalmology; Association of Vision Science Librarians; Bausch 
        & Lomb; Blinded Veterans Association; Discovery Eye Foundation; 
        Eli Lilly & Company; Eye Bank Association of America; EyeSight 
        Foundation of Alabama; Fight for Sight; Foundation Fighting 
        Blindness; Genentech, Inc.; Glaucoma Research Foundation; 
        Inspire Pharmaceuticals, Inc.; ISTA Pharmaceuticals, Inc.; 
        Juvenile Diabetes Research Foundation Intl.; Lighthouse 
        International; Lions Clubs Intl. Foundation; Macular 
        Degeneration Partnership; Natl. Vision Rehabilitation Assoc.; 
        Novartis; Ocular Microbiology and Immunology Group; Pfizer 
        Inc.; Prevent Blindness America; Prevention of Blindness 
        Society of Metropolitan Washington; Research to Prevent 
        Blindness; Santen, Inc.; Second Sight; Sjogren's Syndrome 
        Foundation; Tear Film and Ocular Surface Society; The Cornea 
        Society; The Glaucoma Foundation; The Macula Society; The 
        Retina Society; Vision Council of America; Vision Share, The 
        Consortium of Eye Banks; Vistakon, Johnson & Johnson Vision 
        Care, Inc.; Women in Ophthalmology; and Women's Eye Health Task 
        Force.
                                 ______
                                 
   Prepared Statement of the National Area Health Education Centers 
                              Organization

              SUMMARY OF FISCAL YEAR 2008 RECOMMENDATIONS

    $300 million for the Title VII Health Professions Training 
programs.
    $33 million for area Health Education Centers.
    $4.371 million for Health Education and Training Centers.
    The National Area Health Education Centers Organization (NAO) is 
the professional organization representing Area Health Education 
Centers (AHECs) and Health Education and Training Centers (HETCs).
    AHECs and HETCs are two of the Title VII Health Professions 
Training programs. The Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce and eliminating the disparities 
in our Nation's healthcare system. These programs help address 
healthcare disparities by employing strategies such as providing 
training for students in rural and underserved areas, interaction with 
faculty role models who serve in rural and underserved areas and 
placement services to foster and encourage students to work in these 
areas.
    AHECs develop and support the community based training of health 
professions students, particularly in rural and underserved areas. They 
also provide continuing education and other services that improve the 
quality of community-based healthcare. HETCs use the infrastructure of 
AHECs to address the needs of diverse populations with persistent and 
severe unmet health needs. In 5 border and 6 non-border States, HETCs 
train and support Community Health Workers (CHWs) to provide healthcare 
services and information to their communities.
    Nationwide, AHECs and HETCs support health professional training in 
almost 25,000 community based practice settings, and over 47,000 health 
professional students receive training at these sites. Furthermore, 
over 339,000 health professionals receive continuing education through 
AHECs and HETCs. AHECs and HETCs perform these education and training 
services through collaborative partnerships with Community Health 
Centers (CHCs) and the National Health Service Corps (NHSC).

     COMMUNITY HEALTH CENTERS AND THE NATIONAL HEALTH SERVICE CORPS

    CHCs are dedicated to providing preventative and ambulatory 
healthcare to uninsured and underinsured populations. A March 2006 
study published in the Journal of the American Medical Association 
(JAMA) found that CHCs report high percentages of provider vacancies, 
including an insufficient supply of dentists, pharmacists, 
pediatricians, family physicians and registered nurses. These shortages 
are particularly pronounced in CHCs that serve rural areas. Because the 
Title VII Health Professions Training programs (including AHECs and 
HETCs) have a successful record of training providers to work in 
underserved areas, the study recommends increased support for the Title 
VII Health Professions Training programs as the primary means of 
alleviating the health professions shortage in rural CHCs. The study 
serves as an important reminder that the success of CHCs is highly 
dependent upon a well-trained clinical staff to provide care. Thirty-
eight percent of AHEC training sites are CHCs, and 26 percent of the 
health professionals who receive continuing education through HETCs are 
employed at CHCs. Another 36 percent are employed at NHSC sites.
    AHECs and HETCs also undertake a variety of programs related to the 
placement and support of NHSC scholars and loan repayment recipients. 
NHSC scholars and loan repayment recipients commit to practicing in an 
underserved area, and are focused on improving health by providing 
comprehensive team-based healthcare that bridges geographic, financial 
and cultural barriers. As contractors of the NHSC Student/Resident 
Experiences and Rotations in Community Health (SEARCH) program, AHECs 
and HETCs help to expand the NHSC by placing students and residents in 
rotations in rural areas. These students and residents are then far 
more likely to return to the rural area as a NHSC scholar or loan 
repayment recipient. This is because health professionals who spend 
part of their training providing care for rural and underserved 
populations are 3 to 10 times more likely to practice in rural and 
underserved areas after graduation or program completion.

                        COMMUNITY HEALTH WORKERS

    Like NHSC scholars and loan repayment recipients, CHWs aim to 
respond to local health problems with effective and culturally 
sensitive strategies. They provide health services in their communities 
and specifically address healthcare disparities by working to improve 
health literacy. CHWs are uniquely suited to these tasks because they 
come from, and live in, the same communities as their patients. They 
also speak the same language as their non-English speaking patients.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA) entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' shows the importance of 
the CHWs. This study found that minority health professionals 
disproportionately serve minority and other medically underserved 
populations, minority populations tend to receive better care from 
practitioners of their own race or ethnicity, and non-English speaking 
patients experience better care, greater comprehension and greater 
likelihood of keeping follow-up appointments when they see a 
practitioner who speaks their own language.
    HETCs are the only Federal program mandated to recruit, train and 
support CHWs. In 2004-2005 HETCs provided the initial training and 
continuing education for over 5,000 CHWs. But the Fiscal Year 2006 and 
Fiscal Year 2007 Labor-Health and Human Services (HHS)-Education 
Appropriations bills zeroed out the funding for HETCs. Unless funding 
is restored, HETCs will no longer be able to recruit, train or support 
CHWs.

               JUSTIFICATION FOR FUNDING RECOMMENDATIONS

    By improving the quality, geographic diversity and diversity of the 
healthcare workforce, the United States can eliminate healthcare 
disparities. In order to continue the progress that the Title VII 
Health Professions Training programs (including AHECs and HETCs) have 
already made towards this goal, an additional Federal investment is 
required. NAO recommends that the Title VII Health Professions Training 
programs are funded at $300 million in fiscal year 2008, including $33 
million for AHECs and $4.371 million for HETCs.
                                 ______
                                 
 Prepared Statement of the National Association of Children's Hospitals

    The National Association of Children's Hospitals thanks the 
subcommittee for the opportunity to submit a statement for the hearing 
record in support of the Children's Hospitals' Graduate Medical 
Education (CHGME) Program in the Health Resources and Services 
Administration.
    On behalf of the Nation's 60 independent children's teaching 
hospitals, N.A.C.H. very much appreciates the subcommittee's early 
commitment to provide Federal GME funding for these hospitals. In 1999, 
2000, and 2006, Congress authorized and reauthorized the CHGME program 
to give independent children's teaching hospitals a level of Federal 
support for their teaching programs, which seeks to be comparable to 
what adult teaching hospitals receive from Medicare.
    We appreciate very much the continuation of $297 million for CHGME 
in the final Fiscal Year 2007 Continuing Resolution, the same level as 
Congress appropriated for fiscal year 2006. The fiscal year 2007 
appropriation marks the first time since Congress first agreed to 
appropriate $305 million for CHGME in fiscal year 2004 that the 
program's funding has not been reduced due to across-the-board spending 
cuts in health and human services.
    CHGME has Been a Success.--CHGME support to children's hospitals 
now approaches about 80 percent of the level of Medicare GME support to 
adult hospitals. CHGME has made it possible for children's hospitals to 
strengthen their training of pediatric physicians at a time of national 
shortages, without having to sacrifice the hospitals' clinical or 
research programs. And it has enabled the hospitals to achieve strong 
financial positions, which are essential to their ability to fulfill 
their capital intensive missions.
    For fiscal year 2008, we respectfully request $330 million, the 
annual authorization level that Congress enacted and the president 
signed into law last year. It would make up for the erosion in funding 
for the CHGME program over the last 4 years and address the cost of 
inflation. It is important in a program with both wage-related and 
medical teaching costs. Full funding would ensure the hospitals will 
have the resources necessary to train and educate the Nation's 
pediatric workforce.

                   N.A.C.H. AND CHILDREN'S HOSPITALS

    N.A.C.H. is a not-for-profit trade association, representing more 
than 135 children's hospitals. They include independent acute care 
children's hospitals, children's hospitals within larger medical 
centers, and independent children's specialty and hospitals. N.A.C.H. 
helps its members fulfill their missions of clinical care, education, 
research and advocacy for all children.
    Children's hospitals are regional and national centers of 
excellence for children with serious and complex conditions. They are 
centers of biomedical and health services research for children and are 
the major training centers for pediatric researchers, as well as a 
significant number of children's doctors. They also are major safety 
net providers, serving a disproportionate share of children from low-
income families, and they are advocates for the public health of all 
children.
    Although they represent less than 5 percent of all hospitals in the 
country, the three major types of children's hospitals provide 41 
percent of the inpatient care for all children, 42 percent of the 
inpatient care for children assisted by Medicaid, and most hospital 
care for children with serious conditions.

                     BACKGROUND: THE NEED FOR CHGME

    While they account for less than 1 percent of all hospitals, 
independent children's teaching hospitals alone train 35 percent of all 
pediatricians, half of all pediatric specialists and the majority of 
pediatric researchers. They provide required pediatric rotations for 
many other residents and train more than 4,800 resident FTEs annually. 
Shortages of pediatric specialists across the Nation only heighten the 
importance of these hospitals.
    Prior to initial funding of the CHGME program for fiscal year 2000, 
the eligible hospitals were facing enormous challenges to their ability 
to maintain their training programs. The increasingly price competitive 
medical marketplace was resulting in more and more payers failing to 
cover the costs of care, including the costs associated with teaching.
    Because they see few if any Medicare patients, independent 
children's hospitals were essentially left out of Medicare GME, which 
had become the one major source of GME financing for other teaching 
hospitals. They received only 1/200th (or less than 0.5 percent) of the 
Federal GME support that all other teaching hospitals received under 
Medicare. This lack of GME financing, combined with financial 
challenges stemming from their other missions, threatened their 
teaching programs, as well as other services.
    Safety Net Institutions.--Independent children's hospitals are a 
significant part of the health care safety net for low-income children, 
which puts them at financial risk. In fiscal year 2005 children 
assisted by Medicaid were, on average, 55 percent of all inpatient days 
of care. Yet, Medicaid average, paid only 78 percent of costs. Without 
disproportionate share hospital payments, Medicaid would pay even less. 
Medicaid payment shortfalls for outpatient and physician care are even 
greater.
    The independent children's hospitals also are essential providers 
of care for seriously and chronically ill children. They devote more 
than 75 percent of their care to children with one or more chronic or 
congenital conditions. They provide the majority of inpatient care to 
children with many serious illnesses--from children with cancer or 
cerebral palsy, for example, to children needing heart surgery or organ 
transplants. In some regions, they are the only source of pediatric 
specialty care. The severity and complexity of illness and the services 
these institutions must maintain to assure access to this quality care 
for all children are often poorly reimbursed.
    Lastly, many of the independent children's hospitals are a vital 
part of the emergency and critical care services in their regions. They 
are part of the emergency response system that must be in place for 
public health emergencies. Expenses associated with disaster 
preparedness add to their continuing costs in meeting children's needs.
    Mounting Financial Pressures.--The CHGME program, and its 
relatively quick progress to full funding in fiscal year 2002, came at 
a critical time. In 1997, when Congress first considered establishing 
CHGME, a growing number of independent children's hospitals had 
financial losses; many more faced mounting financial pressures. More 
than 10 percent had negative total margins, more than 20 percent had 
negative operating margins, and nearly 60 percent had negative patient 
care margins. Some of the Nation's most prominent children's hospitals 
were at financial risk. Thanks to CHGME, these hospitals have been able 
to maintain and strengthen their training programs.
    Pediatric Workforce.--The important role CHGME plays in the 
continual development of our Nation's pediatric workforce is not lost 
on the larger pediatric community, including the American Academy of 
Pediatrics and Association of Medical School Pediatric Department 
Chairs. They support CHGME and recognize it is critical not only to the 
future of the individual hospitals but also to provision of children's 
health care and advancements in pediatric medicine. This year, the 
chairs of more than 40 medical school pediatric departments have 
endorsed full funding for the program, regardless of whether they are 
affiliated with a CHGME hospital. For example, the pediatric leadership 
of Iowa has endorsed full funding for CHGME, even though Iowa's own 
children's hospitals do not receive CHGME funding, because it is so 
important to the institutions around the country from which Iowa 
recruits pediatric subspecialists.

                         CONGRESSIONAL RESPONSE

    In the absence of movement toward broader GME financing reform, 
Congress in 1999 authorized the Children's Hospitals' GME discretionary 
grant program to address the existing inequity in GME financing for the 
independent children's hospitals. The legislation was reauthorized in 
2000 through fiscal year 2005 and provided $285 million for fiscal year 
2001 and such sums as necessary in the years beyond. Congress passed 
the initial authorization as part of the ``Healthcare Research and 
Quality Act of 1999.'' It passed the first 5-year reauthorization as 
part of the ``Children's Health Act of 2000.'' Last year, it passed the 
second 5-year reauthorization as part of the ``Children's Hospital GME 
Support Reauthorization Act of 2007,'' which authorized $330 million 
for each of the 5 years, through fiscal year 2011.
    With this subcommittee's support, Congress appropriated initial 
funding for CHGME in fiscal year 2000, before the enactment of its 
authorization. Following enactment, Congress moved substantially toward 
full funding for the program in fiscal year 2001 and completed that 
goal, providing $285 million in fiscal year 2002, $290 million in 
fiscal year 2003, $303 million in fiscal year 2004, $301 million in 
fiscal year 2005, $297 million in fiscal year 2006, and $297 million in 
fiscal year 2007. (In the fiscal year 2004, 2005, 2006, the funding 
levels are net of across-the-board cuts in discretionary funding. For 
example, Congress appropriated $305 million for fiscal year 2004; the 
net appropriation, after cut, was $303 million.)
    Health Resources and Services Administration.--The CHGME funding is 
distributed through HRSA to 60 children's hospitals according to a 
formula based on the number and type of full-time equivalent residents 
trained, in accordance with Medicare rules, as well as the complexity 
of care and intensity of teaching the hospitals provide. Consistent 
with the authorization, HRSA allocates the annual appropriation in 
monthly payments to eligible hospitals.

                            CHGME'S SUCCESS

    The annual CHGME appropriations represent an extraordinary 
achievement for the future of children's health and the Nation's 
independent children's teaching hospitals:
  --Thanks to CHGME, the Federal Government has made substantial 
        progress in providing more equitable Federal GME support to 
        independent children's hospitals. They now receive about 80 
        percent of the level of Federal GME support that Medicare 
        provides to other teaching hospitals. It is still not equity, 
        but it is dramatic improvement from the 0.5 percent of 1998.
  --Thanks to CHGME, children's hospitals have been able to make a 
        substantial improvement in their contribution to the Nation's 
        pediatric workforce, without having to sacrifice their clinical 
        or research missions. Between 2000 and 2004, without the CHGME 
        hospitals being able to increase the numbers of general 
        pediatric residents they trained, the Nation would have 
        experienced a net decline in the number of new pediatricians. 
        During the same period, CHGME hospitals also accounted for more 
        than 80 percent of the new pediatric subspecialty programs and 
        more than 60 percent of the new pediatric subspecialists 
        trained.
  --Thanks to CHGME, children's hospitals have been able to achieve 
        strong, financial positions. According to Moody's Investor 
        Services, before 2000, children's hospitals tended to have 
        negative to break-even financial margins. Since then, they have 
        improved their margins and CHGME is one of the major reasons.

                        FISCAL YEAR 2008 REQUEST

    N.A.C.H. respectfully requests that the subcommittee provide 
equitable GME funding for independent children's hospitals by providing 
$330 million in fiscal year 2008, the full authorization level. Such 
funding is vital for a program that has wage-related and medical 
teaching costs and experienced 3 years of reductions due to across-the-
board cuts before fiscal year 2007.
    Adequate, equitable funding for CHGME is an ongoing need. 
Children's hospitals train new pediatric residents and researchers 
every year. Children's hospitals have appreciated very much the support 
they have received, including the attainment of the program's 
authorized full funding level in fiscal year 2002 and continuation of 
full funding with an inflation adjustment in fiscal year 2003 and 
fiscal year 2004. Congress can restore this progress by providing $330 
million in fiscal year 2008.
    Continuing equitable CHGME funding is more important than ever in 
light of continued budget pressures in many States for reductions in 
Medicaid spending. Because children's hospitals devote a substantial 
portion of their care to children from low-income families, they are 
especially affected by Medicaid. Support for a strong investment in GME 
at children's hospitals is also consistent with the concern Congress 
has expressed for the health and well-being of children--through 
education, health and social welfare programs. And it is consistent 
with the subcommittee's emphasis on the importance of investment in the 
National Institutes of Health for which we are grateful.
    The CHGME funding has been essential to the ability of the 
independent children's hospitals to sustain their GME programs. At the 
same time, it has enabled them to do so without sacrificing support for 
other critically important services that also rely on hospital subsidy, 
such as many specialty and critical care services, child abuse 
prevention and treatment services, services to low-income children with 
inadequate or no coverage, mental health and dental services, and 
community advocacy, such as immunization and motor vehicle safety 
campaigns.
    In conclusion, CHGME is a success. It is an invaluable investment 
in children's health. The future of pediatric medicine and children's 
access to pediatric care depends on it. N.A.C.H. is joined by the 
American Academy of Pediatrics, American Hospital Association and 
others in recommending $330 million for fiscal year 2008.
                                 ______
                                 
  Prepared Statement of the National Association of Community Health 
                                Centers

    On behalf of more than 1,000 Health Center organizations across the 
country serving more than 16 million patients, the National Association 
of Community Health Centers (NACHC) is pleased to submit this statement 
for the record, and to thank the subcommittee for its continued support 
and investment in the Health Centers program.

                          ABOUT HEALTH CENTERS

    Over more than 40 years, the Health Centers program has grown from 
a small demonstration project providing desperately needed primary care 
services in underserved communities to one of the fundamental elements 
of our Nation's health care safety net. Funding was approved in 1965 
for the first two Neighborhood Health Center demonstration projects, 
one in Boston, Massachusetts, and the other in Mound Bayou, 
Mississippi.
    Today, Health Centers serve as the primary health care safety net 
for many communities across the country and the Federal grant program 
enables more low-income and uninsured patients to receive care each 
year. Health Centers currently serve as the family doctor for one in 
eight uninsured individuals, and one in every five low-income children. 
Health Centers are helping thousands of communities address a range of 
increasing (and costly) health problems, including prenatal and infant 
health development, chronic illnesses including diabetes and asthma, 
mental health, substance addiction, domestic violence and HIV/AIDS.
    Federal law requires that every Health Center be governed by a 
community board with a patient majority--a true patient democracy. 
Health Centers are required to be located in a federally designated 
Medically Underserved Area (MUA), and must provide a package of 
comprehensive primary care services to anyone who comes in the door, 
regardless of their ability to pay. Because of these characteristics, 
the insurance status of Health Center patients differs dramatically 
from other primary care providers. As a result, the role of public 
dollars is substantial. Federal grant dollars, which make up roughly 
one-quarter of Health Centers' operating revenues, are intended to 
cover the costs of serving uninsured patients; just over 40 percent of 
revenues are from reimbursement through Federal insurance programs, 
principally Medicare and Medicaid. The balance of the revenues are from 
State and community partnerships, privately insured individuals, and 
patient's ability to pay.
    The Health Centers program is administered by the Bureau of Primary 
Health Care (BPHC) at the Health Resources and Services Administration 
(HRSA), within the U.S. Department of Health and Human Services (HHS).

                           FUNDING BACKGROUND

    We greatly appreciate that the subcommittee has approved 
substantial funding increases for the Health Centers program over the 
past several years, the result of which has been a broad expansion 
effort enabling Health Centers to serve many of those that remain 
underserved in our country. Since 2001, in addition to the overall 
funding increase, the subcommittee has provided specific increases in 
funding to stabilize existing centers, as well as to meet the goals of 
the President's initiative--to significantly impact health care 
delivery in 1,200 communities through new or expanded Health Centers. 
With the funding provided in fiscal year 2007, that goal will be met 
this year.
    The Health Centers program has succeeded in expanding access to 
primary and preventive care services in underserved communities across 
the country. The Office of Management and Budget rated the Health 
Centers program as one of the top 10 Federal programs, and the best 
competitive grant program within all of HHS.
    Yet despite this record expansion, hundreds of communities have 
submitted applications since fiscal year 2002 that received high 
ratings, but could not be funded due to lack of funds. There is clearly 
a tremendous need and a tremendous desire to expand Health Center 
services to new communities. With additional resources, Health Centers 
stand ready to provide low-cost, highly effective care to millions more 
uninsured and underserved individuals and families.

    FISCAL YEAR 2008 AND BEYOND: TOWARD 30 MILLION PATIENTS BY 2015

    In his fiscal year 2008 budget proposal, President Bush requested a 
total funding level of $1.988 billion for the Health Centers program. 
While this represents a slight increase over the President's request in 
fiscal year 2007, it is essentially the same as the enacted level for 
fiscal year 2007, as Congress funded the program above the President's 
request last year. NACHC is requesting an increase of $200 million for 
fiscal year 2008, for a total funding level of $2.188 billion.
    In order to truly serve those in need across the country, Health 
Centers must expand their operations and develop new centers in areas 
of need. This request represents the next step, an investment in a 
longer-term plan to provide a health care home in a Health Center to 30 
million Americans by 2015, and to eventually bring access to care in a 
Health Center to every American who needs it within 15 years. We hope 
to work with the subcommittee to guide this investment around several 
priorities. First, in the face of rising costs of care and a rising 
percentage of new patients without insurance coverage, a significant 
and strategic investment in existing Health Centers is needed to allow 
them to meet the demand for their services in the communities they 
serve today. Second, new and expanded Health Centers should be brought 
to communities with little or no access to care through planning grants 
and new access point funding targeted to those communities most in 
need. Lastly, in order to make a comprehensive range of necessary 
services available at every Health Center, funding should be made 
available to add mental health, oral health and pharmacy services in 
high need communities.
    In 2005, President Bush called for ``a Community Health Center in 
every poor county'' in America. NACHC supports the goal of bringing 
care to those areas of the country with high poverty and no current 
access to a Health Center. However, NACHC has expressed the preference 
that such an expansion address the lack of access in the neediest 
communities of the country, and that eligibility for new funding not be 
limited to certain geographic areas such as counties. Further, the 
President's budget includes proposed legislative language waiving the 
statutorily designated proportionality requirements for Migrant, Public 
Housing and Homeless Health Centers in order to implement this second 
expansion initiative. NACHC strongly opposes this change.
    In addition to the expansion efforts, it is critical that Federal 
funding for Health Centers keep pace with the growing cost of 
delivering care. NACHC requests that the subcommittee designate $59 
million of any increase in funding to be used to make base grant 
adjustments for existing centers, allowing an average increase of 3 
percent in current Health Center grants. Under the subcommittee's 
leadership, Congress has provided base grant adjustments for existing 
centers in 6 out of the 8 previous fiscal years, including $25 million 
in fiscal year 2007. A recent study by NACHC found that in the 2 years 
that these adjustments were not included in the Health Centers 
appropriation, the number of patient visits per grantee actually 
decreased.
    NACHC appreciates the subcommittee's leadership in stabilizing the 
Federal Tort Claims Act (FTCA) judgment fund for Health Centers in past 
years. For fiscal year 2008, the President has requested that 
$44,000,000 be appropriated for this purpose. This is $500,000 below 
last year's level. NACHC supports maintaining the judgment fund at a 
total funding level of $44,500,000.
    In 1997, Congress authorized and began funding the HRSA Loan 
Guarantee Program (LGP) for the construction, renovation, and 
modernization of Health Centers. Demand for this guarantee program has 
accelerated significantly in the last several years. NACHC expects that 
at the current rate of usage, the remaining credit subsidy will be 
entirely used during calendar year 2008. In response that the success 
of this program, NACHC is requesting an additional $5 million be 
provided until expended for additional loan guarantees. The LGP has 
proven to be a vital resource for Health Centers across the country--in 
particular, those on the Gulf Coast--as they seek financing to fund the 
facilities necessary to accommodate the growth in patient visits 
resulting from recent expansion efforts.
    Finally, in addition to increased funding for the Health Centers 
program, expanding access to vital preventive and primary health care 
in underserved communities will also depend on commensurate growth in a 
number of high-priority programs, including:
  --$150 million for the National Health Service Corps, the largest 
        single source of health professionals for Health Centers. Such 
        an increase will enable the NHSC to place an additional 800 
        medical professionals;
  --$450 million for Health Professions Training Programs under Title 
        VII/VIII, including $30 million for Area Health Education 
        Centers (AHECs); and
  --$250 million for Title III of the Ryan White AIDS Program, which 
        provides grants to Health Centers and other primary care 
        providers for outpatient early intervention services.

                               CONCLUSION

    America's Health Centers are grateful to the subcommittee for its 
ongoing efforts to support and stabilize the Health Centers program and 
to expand health centers' reach into more than 5,000 communities 
nationwide. As a result of those efforts, more than 16 million people 
have access to the affordable, effective primary care services that our 
Nation's Health Centers provide.
    We respectfully ask that the subcommittee continue that investment, 
as the work of caring for our uninsured and medically underserved is 
far from complete. A recent NACHC study found that some 56 million 
Americans are still without regular access to primary care. America's 
Health Centers look forward to meeting that need and rising to the 
challenge of providing a health care system that works for all 
Americans. We look forward to working with you over the coming year to 
move toward that goal.
    If you need any additional information or have any questions 
related to Health Centers or NACHC, please do not hesitate to contact 
me or John Sawyer, Assistant Director of Federal Affairs, at (202) 331-
4603, or via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fde4f6e0eef2e5d7f9f6f4fff4b9f4f8fab9">[email&#160;protected]</a>
                                 ______
                                 
     Prepared Statement of the National Center for Victims of Crime

    The National Center for Victims of Crime submits this testimony to 
urge members of the Subcommittee on Labor, Health and Human Services, 
Education, and Related Agencies to fully fund the Rape Prevention and 
Education (RPE) Grant program at $80 million. Rape crisis centers rely 
on this money to educate their communities about the prevention of 
sexual abuse and assault. RPE Grant funds provide the foundation for 
crucial efforts to end sexual violence.
    As the leading national resource and advocacy organization for 
victims of crime, the National Center understands the vital necessity 
of sexual assault education and outreach programs for victims and their 
communities. Every day, our Helpline staff speaks to sexual assault 
victims and connects them with local services. We also work with rape 
crisis centers and State sexual assault coalitions across the country 
who have all described to us their desperate struggles to meet their 
communities' needs. They report that without greater RPE Grant program 
funding, they cannot continue their education and prevention efforts.

                 PREVALENCE OF RAPE AND SEXUAL ASSAULT

    The incidence of sexual assault in this country remains 
unconscionably high. The latest National Crime Victimization Survey 
reports that 191,670 people were raped or sexually assaulted in 
2005.\1\ The crime of sexual violence affects people of all backgrounds 
and ages--children and adults, males and females. Approximately 1 in 6 
women and 1 in 33 men in America have experienced an attempted or 
completed rape as a child or adult.\2\ Young adults and teens are 
particularly at risk, with people aged 16 to 24 being raped at 
significantly higher rates than any other age group,\3\ and nearly 5 
percent of college women being sexually assaulted during any given 
calendar year.\4\
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics, U.S. Dept. of Justice, Criminal 
Victimization 2005 (Sept. 2006).
    \2\ Id.
    \3\ Id.
    \4\ Fisher, Cullen, & Turner, Nat'l Inst. of Justice & Bureau of 
Justice Statistics, the Sexual Victimization of College Women (2000).
---------------------------------------------------------------------------
              IMPACT ON VICTIMS, FAMILIES, AND COMMUNITIES

    Sexual assault exacts a terrible cost on individual victims, their 
families, and our Nation. The annual cost of sexual assault to victims 
is approximately $26 million.\5\ Moreover, victims of sexual violence 
experience higher rates of depression, anxiety disorders, mental 
illness, addiction, eating disorders, and self-esteem problems than 
non-victims. Rape survivors are six times more likely to commit suicide 
than victims of other crimes.\6\
---------------------------------------------------------------------------
    \5\ Bureau of Justice Statistics, U.S. Dept. of Justice, Criminal 
Victimization 2005 (Sept. 2006).
    \6\ Arthur H. Green, M.D., Sexual Abuse: Immediate and Long-Term 
Effects and Intervention, 32 J. AM. ACAD. Child Adolescent Psychiatry. 
5, (Sept. 1993).
---------------------------------------------------------------------------
    Workplaces and communities are also affected when victims suffer. 
Rape victims face a loss of economic productivity through unemployment, 
underemployment, and absence from work. According to the Centers for 
Disease Control and Prevention (CDC), 21 percent of victims who have 
been raped by an intimate partner report losing time from work as a 
result of their victimization.\7\
---------------------------------------------------------------------------
    \7\ Nat'l Ctr. for Injury Prevention and Control, Costs of Intimate 
Partner Violence Against Women in the United States (Atlanta, Ga., 
2003).
---------------------------------------------------------------------------
      PURPOSES OF THE RAPE PREVENTION AND EDUCATION GRANT PROGRAM

    Understanding the far-reaching impact of sexual violence and the 
importance of prevention, Congress established the CDC's Rape 
Prevention and Education Program through the Violence Against Women Act 
of 1994. RPE funding provides formula grants to States and territories 
to support rape prevention and education programs conducted by rape 
crisis centers, State sexual assault coalitions, and other public and 
private nonprofit entities. Funding is used for:
  --Educational seminars for professionals, the public, schools, 
        colleges, and universities;
  --Hotline operations;
  --Education and training programs aimed at preventing sexual violence 
        at colleges and universities; and,
  --Education about date rape drugs.
    These education and outreach activities are crucial not only to 
help change public attitudes and behaviors, but also to train allied 
professionals on issues related to sexual violence so they can better 
understand victims and make appropriate referrals.
    RPE funding also supports the National Sexual Violence Resource 
Center (NSVRC), a project operated by the Pennsylvania Coalition 
Against Rape (PCAR). NSVRC provides information, materials, and 
resources on sexual violence to policy makers, Federal, and State 
agencies, college campuses, State, territory and tribal sexual assault 
coalitions, the media, and the public.

                   EDUCATIONAL SEMINARS AND TRAININGS

    Rape prevention and education efforts make crucial contributions to 
ending sexual violence by helping to change attitudes about rape and 
reduce the isolation of victims. Educational efforts around the country 
include:
  --Kansas: During the 2005 fiscal year, RPE Grant-funded projects 
        provided 2,212 educational sessions to 15,010 students and 267 
        professionals.
  --Mississippi: Over the past 5 years, RPE projects conducted a total 
        of 1,923 community education sessions with 66,422 participants. 
        In addition, the Mississippi Coalition Against Sexual Assault 
        offered a training program for home health workers, nursing 
        home employees, and others in contact with the elderly 
        population to help them identify and respond to signs of abuse 
        and assault.
  --Pennsylvania: During the 2006 fiscal year, the PCAR provided 24,213 
        sexual assault education programs to students and 3,469 
        prevention education programs to the community.
    Many of these educational sessions and trainings, like those 
conducted in Mississippi, focused on increasing awareness of sexual 
violence in underserved and at-risk communities. Such outreach also 
consistently results in an increased number of victims contacting local 
rape crisis centers for services and support. However, as operation 
costs increase and funding levels have stagnated, such remarkable 
efforts cannot expand and grow to reach these vulnerable populations.

                           HOTLINE OPERATIONS

    The RPE Grant program also provides crucial support for State and 
local hotlines, which offer 24-hour crisis intervention, referrals, and 
information about sexual violence. Importantly, hotline operations 
allow trained advocates and rape crisis counselors to reach more 
physically or culturally isolated communities. Recent successes 
include:
  --Massachusetts: Funds from the RPE Grant program permit rape crisis 
        centers across Massachusetts to provide 24-hour hotline 
        services for victims of sexual assault and their families. The 
        program also supports Llamanos, a Spanish-language, toll-free, 
        sexual assault hotline for Latino survivors and their families. 
        Llamanos also provides training for 13 rape crisis centers, 
        five community health organizations, and eight additional 
        community-based agencies serving the Latino population. 
        Together, these hotline services received more than 12,000 
        calls in the past fiscal year.
  --Louisiana: Since Hurricane Katrina struck in 2005, the RPE Grant-
        funded Louisiana Foundation Against Sexual Assault (LaFASA) has 
        provided hotline services specifically for hurricane victims 
        who were sexually assaulted in the aftermath of the storm. 
        Witnesses, survivors, and their families can call and receive 
        support, counseling, and referral information.

     PREVENTING SEXUAL VIOLENCE IN SCHOOLS AND ON COLLEGE CAMPUSES

    Recognizing that attitudes and beliefs regarding sexual violence 
are formed early in life, many RPE grantees emphasize education and 
prevention programs for young people. As youths become aware of the 
frequency of acquaintance rape, they can and do broaden their efforts 
to protect themselves, from merely locking doors against strangers to 
taking precautions with those they know. RPE-funded programs, in 
collaboration with students and campus personnel, have developed and 
continue to implement sexual violence prevention programs for schools 
across the Nation. These programs aim to reduce first-time male 
perpetration of sexual violence, address norms and beliefs that support 
or condone sexual violence, and empower bystanders to respond 
constructively when they recognize abusive relationships. Examples of 
these programs include:
  --Iowa.--During the 2006 fiscal year, community prevention 
        specialists conducted 4,599 educational sessions for a total of 
        71,521 students in grades pre-K through 12. In addition, 244 
        sexual violence prevention sessions were offered to 14,128 
        students at Iowa colleges and State universities. After one 
        Iowa event, some female students who had repeatedly endured 
        degrading harassment from fellow classmates came forward to 
        report the incidents to campus authorities, who intervened.
  --California.--The RPE Grant program funds MyStrength, California's 
        innovative statewide social marketing campaign. This program, 
        which follows a national evidence-based model targeting 14- to 
        18-year-old males, aims to help prevent first-time perpetration 
        of sexual violence.\8\
---------------------------------------------------------------------------
    \8\ Learn more about the MyStrength campaign at http://
www.mystrength.org (accessed March 28, 2007).
---------------------------------------------------------------------------
  --Indiana.--The Communities Against Rape Initiative (CARe) is a 
        statewide collaboration supported by the RPE Grant program that 
        helps develop and implement rape prevention curricula for 
        rural, urban, and suburban schools. Since its founding in 1997, 
        CARe has trained more than 1,000 Indiana teachers to use the 
        curricula. Pre- and post-test results from more than 4,600 
        students show positive changes in students' knowledge and 
        attitudes about rape.\9\
---------------------------------------------------------------------------
    \9\ For more information about the CARe initiative, visit http://
www.four-h.purdue.edu/care/main.html (accessed March 28, 2007).
---------------------------------------------------------------------------
    All these remarkable programs and initiatives report that even with 
such successes, much more could be done to raise awareness about sexual 
violence in local communities if RPE funding were increased. For 
instance, the California Coalition Against Sexual Assault (CALCASA) 
reports that if the national RPE Program were fully funded, the 
MyStrength campaign could saturate the State with marketing materials, 
and MyStrength clubs could be sustained in hundreds of high schools 
throughout California. Such efforts would advance our fight to end 
sexual violence against men, women, and children.

                    DRUG-FACILITATED SEXUAL VIOLENCE

    Drug-facilitated rape is staggeringly pervasive in this country. A 
recent report from the National Institute on Alcohol Abuse and 
Alcoholism (NIAAA) shows that more than 70,000 students between the 
ages of 18 and 24 survive an alcohol or drug-related sexual assault 
each year.\10\ Drugs are used to render victims incapable of providing 
consent for sexual activity or defending themselves against rape. 
Because detection and prosecution remain difficult, the best means to 
prevent these crimes is education. The RPE Grant program funds efforts 
to raise public awareness of the risk and symptoms associated with 
Rohypnol, gamma-hydroxybutyrate (GHB), and other common date rape 
drugs.
---------------------------------------------------------------------------
    \10\ Task Force of the Nat'l Advisory Council on Alcohol Abuse and 
Alcoholism, National Institutes of Health, A Call to Action: Changing 
the Culture of Drinking at U.S. Colleges (2002).
---------------------------------------------------------------------------
        RAPE PREVENTION AND EDUCATION FUNDING MUST BE INCREASED

    Program after program has told the National Center that due to lack 
of funding they are unable to expand their outreach efforts, staff and 
volunteers have been taxed to the limit, and they are unable to reprint 
popular educational materials. Without full funding, these programs 
cannot make continued progress against sexual violence. Although the 
Violence Against Women Act of 2005 (VAWA) reauthorized the Rape 
Prevention and Education Grant program at $80 million, funding for the 
past several years has remained at approximately $42 million.\11\
---------------------------------------------------------------------------
    \11\ Passed as part of the Violence Against Women Act 2005 
Reauthorization, Public Law 109-162.
---------------------------------------------------------------------------
    When Congress reauthorized the Rape Prevention and Education Grant 
program as part of VAWA, it recognized the importance of this program 
in reducing sexual victimization. The National Center calls on Congress 
to honor its commitment to preventing rape by providing full funding 
for the Rape Prevention and Education Grant program for the 2008 fiscal 
year.
                                 ______
                                 
        Prepared Statement of the National Child Abuse Coalition

    The National Child Abuse Coalition, committed to strengthening the 
Federal response to the protection of children and the prevention child 
abuse and neglect, urges fiscal year 2008 funding for the Child Abuse 
Prevention and Treatment Act (CAPTA) programs at the authorized level 
of $200 million:
  --CAPTA basic State grants at $84 million;
  --CAPTA community-based prevention grants at $80 million; and
  --CAPTA research and demonstration grants at $36 million.
    Basic State Grants.--At current funding, child protection agencies 
are unable to serve close to half the abused and neglected children in 
their caseloads.
    CAPTA funds programs have not kept pace with the needs of 
communities for supporting families and protecting children. States are 
hard pressed to treat children or protect them from further harm. In 
2004, according to the most recent HHS data, an estimated 3 million 
reports of possible abuse and neglect were made to States, and almost 
900,000 of these reports were substantiated. In 2004, just over 40 
percent of the child victims received no services following a 
substantiated report of maltreatment: suspected abuse reported, report 
investigated, report substantiated, case closed. Almost 1,500 children 
died as a result of abuse or neglect. The most endangered are the 
youngest: more than 80 percent of children who were killed were under 
age 4.
    CAPTA's Basic State Grants help States protect children. The 
Nation's child welfare system has long been stretched beyond capacity. 
No State passed the test when measured against the HHS Child and Family 
Service Reviews to evaluate a State's performance in protecting 
children. Federal officials repeatedly cited States for certain 
deficiencies: significant numbers of children suffering abuse or 
neglect more than once in a 6-month period; caseworkers not visiting 
children often enough to assess needs; and not providing promised 
medical and mental health services.
    Funding CAPTA State grants at $84 million would enable State child 
protective services to expand post-investigative services for child 
victims, shorten the time to the delivery of services, and increase 
services to other at-risk families.
    Community-Based Prevention Grants.--For every Federal dollar spent 
on foster care and adoption subsidies, we spend less than 13 cents in 
Federal child welfare funding on preventing and treating child abuse 
and neglect.
    Annual direct costs of child abuse and neglect in the United States 
total over $24 billion in hospitalizations, chronic health and mental 
health care, child welfare services, law enforcement, and courts. 
Indirect costs from special education, other health and mental health 
care, crime, and lost productivity, total more than $94 billion 
annually.\1\ Community services to prevent child abuse are far less 
costly than the damage inflicted on children from abuse and neglect. A 
GAO evaluation of child abuse prevention efforts found ``total Federal 
costs of providing prevention programs for low-income populations were 
nearly offset after 4 years.'' \2\
---------------------------------------------------------------------------
    \1\ Fromm, S. (2001). Total Estimated Cost of Child Abuse and 
Neglect in the United States. Prevent Child Abuse America.
    \2\ U.S. General Accounting Office (1992). Child Abuse: Prevention 
Programs Need Greater Emphasis (GAO/HRD-92-99).
---------------------------------------------------------------------------
    CAPTA's Prevention Grants help States to develop community-based 
prevention services, including parenting education, home visiting 
services, and respite care. We spend billions of dollars every year on 
foster care to protect the children who have been the most seriously 
injured; we can do a much better job at protecting children before the 
damage is so bad that we have no other choice than to remove them from 
their homes. Funding CAPTA prevention grants at $80 million would help 
communities support proven, cost-effective approaches to preventing 
child abuse and neglect.
    Discretionary Research and Demonstration Grants.--Current funding 
levels short-change community efforts to develop innovative programs to 
serve children and families and to improve our knowledge about child 
maltreatment.
    We urge Congress to approve the President's proposed increase of 
$10 million to support home visitation programs, with funds available 
to promote an array of research- and evidence-based home visitation 
models that enable communities to provide the most appropriate services 
suited to the families needing them.
    The U.S. Advisory Board on Child Abuse and Neglect recommended as 
the highlight of its 1991 report, Creating Caring Communities, the 
establishment of universal voluntary home visitor services. The Centers 
for Disease Control (CDC) Task Force on Community Preventive Services 
in its 2003 report evaluating the effectiveness of strategies for 
preventing child maltreatment ``recommends early childhood home 
visitation for prevention of child abuse and neglect in families at 
risk for maltreatment, including disadvantaged populations and families 
with low-birth weight infants.'' \3\
---------------------------------------------------------------------------
    \3\ Hahn, R.A., Bilukha, O.O., Crosby, A., Fullilove, M.T., 
Liberman, A., Moscicki, E.K., et al. (2003). First reports evaluating 
the effectiveness of strategies for preventing violence: Early 
childhood home visitation. Center for Disease Control, Morbidity and 
Mortality Weekly Report, 52, 109.
---------------------------------------------------------------------------
    Research evidence supports the value of a range of early childhood 
home visitation models using professionals, nurses, paraprofessionals, 
and trained volunteers from the community in improving parenting and 
family health and preventing child maltreatment.
    For example, results from the randomized trial of the Healthy 
Families New York program based on the Healthy Families America model 
using Family Support Workers (specially trained paraprofessionals who 
live in the target community and share the same language and cultural 
background as program participants) showed that the program had 
positive effects in the areas of parenting and child abuse and neglect, 
birth outcomes, and health care. According to the research team 
analyzing the Healthy Families program in New York, the results for the 
subgroup of participants who resemble the clients typically served by 
the Nurse Family Partnership (NFP) model of home visiting by nurses are 
similar to those found in randomized trials of NFP.\4\
---------------------------------------------------------------------------
    \4\ DuMont, K., et al. (2006). Healthy Families New York Randomized 
Trial: Impacts on Parenting After the First Two Years. New York State 
Office of Children and Families. Working Paper Series.
---------------------------------------------------------------------------
    In another randomized trial, adolescent mothers who received case 
management services and Parents as Teachers (PAT) home visitors were 
significantly less likely to be subjected to child abuse investigations 
than control group mothers who received neither case management nor PAT 
home visitation.\5\ Randomized trials of the Parent-Child Home Program, 
a home visitation early literacy and parenting program model, show 
significant ongoing positive effects on parents' interaction with their 
children, in contrast to control group families examined before and 
after completion of the program.\6\
---------------------------------------------------------------------------
    \5\ Wagner, M.M. & Clayton, S.L. (1999). The Parents as Teachers 
Program: Results from Two Demonstrations. The Future of Children: Home 
Visiting: Recent Program Evaluations, 9(1), 91-115.
    \6\ Joint Dissemination Review Panel of U.S. Department of 
Education. (1978). Unanimous Approval of Research Findings, 1967-1978, 
Mother-Child Home Program of Verbal Interaction Project. Freeport, NY: 
Verbal Interaction Project.
    O'Hara, J.M. & Levenstein, P. (1981). Second Year Progress Report: 
9/15/80-9/14/81: Tracing the Parent-Child Network. Final Report, Grant 
No. NIEG 800042, National Institute of Education, U.S. Department of 
Education.
    Levenstein, P., O'Hara, J.M., & Madden, J. (1983) , ``The Mother-
Child Home Program of the Verbal Interaction Project'', in Consortium 
for Longitudinal Studies, ed., As the Twig is Bent Hillsdale, NJ: 
Lawrence Erlbaum Associates.
    Levenstein, P. & O'Hara, J.M., (1993) ``The necessary lightness of 
mother-child play'', in K.B. MacDonald, eds., Parents and Children 
Playing Albany, NY: State University of New York Press.
---------------------------------------------------------------------------
    In another study of home visiting models funded by CDC, researchers 
concluded from a literature review of evaluations of home visitation 
programs that where randomized trials might not always be feasible, 
non-randomized studies are important to validate research or provide 
stronger evidence when the randomized trial is compromised. In its 
review of evaluations of various models, the report found that the 
evaluated programs reduced child maltreatment by approximately 39 
percent, overall.\7\
---------------------------------------------------------------------------
    \7\ Hahn, R., et al. (2005). Home Visiting Programs to Prevent 
Child Abuse: Taking Silver and Bronze Along With Gold. U.S. Centers for 
Disease Control and Prevention. Child Abuse and Neglect: The 
International Journal. Vol. 29, p. 215-218.
---------------------------------------------------------------------------
    Funding research and program innovations at $36 million, as the 
President requests, would provide support for a diversity of home 
visitation models, as well as the field-initiated research, training, 
technical assistance, and data collection also authorized by CAPTA out 
of this money.

              CHILD WELFARE SPENDING: A FAILURE TO INVEST

    Our failure to invest in our child protective service system and 
community-based programs for preventing child maltreatment has created 
a spending gap of almost $17 billion in services to intervene on behalf 
of children. Current available data peg Federal, State, and local 
dollars for child protective services and preventive services at only 
about $3.1 billion of the estimated $20.2 billion total cost of what we 
ought to be spending.
    According to the Urban Institute, States reported spending $22 
billion on child welfare in 2002, and they could categorize how $17.4 
billion of the funds were used.\8\ Of that amount, $10 billion was 
spent for out-of-home placements, $1.7 billion on administration, $2.6 
billion on adoption, and $3.1 billion (about 18 percent) on all other 
services, including prevention, family preservation and support 
services, and child protective services.
---------------------------------------------------------------------------
    \8\ Scarcella, C.A. (2004). The Cost of Protecting Vulnerable 
Children IV: How Child Welfare Funding Fared during the Recession, 
Washington, DC. Urban Institute.
---------------------------------------------------------------------------
    Failure to invest in a working child protection system results in a 
national failure to keep children free from harm. The cost to child 
protective services in 2002 of investigating the 1.745 million children 
who were screened in for investigations, plus the expense that would 
have been incurred if services had been provided to all of the 896,000 
substantiated child victims (as well as to the 708,000 children in 
unsubstantiated reports who also received some services), totals $7.2 
billion. Second, consider the cost of preventive services--$13 billion 
if offered to the 3 million child maltreatment victims identified in 
the HHS National Incidence Study III. That's a total cost of $18.4 
billion. Yet, in 2002, States spent only $3.1 billion in Federal, 
State, and local funds on protective and preventive services for 
children. Our national child welfare policy represents a morally 
unacceptable failure to invest in this system.
    These are conservative cost figures. When adjusted to account for 
inflation, data indicate that investigations by child protective 
service agencies cost approximately $1,011 per case. The cost per case 
to provide basic in-home services such as homemaker assistance or 
family counseling is $3,360.\9\ These costs are low to start with. Pay 
scales in child welfare are generally low and noncompetitive--
significantly lower, for example, than salaries for teachers, school 
counselors, nurses and public-health social workers \10\--which brings 
these costs in at a low level.
---------------------------------------------------------------------------
    \9\ Courtney, M.E. (1998). ``The Costs of Child Protection in the 
Context of Welfare Reform''. The Future of Children, Vol. 8, No. 1.
    \10\ U.S. General Accounting Office (2003). HHS Could Play a 
Greater Role in Helping Child Welfare Agencies Recruit and Retain Staff 
(GAO-03-357).
---------------------------------------------------------------------------
    What does the spending gap mean? States report having difficulty in 
recruiting and retaining child welfare workers,\11\ because of issues 
like low salaries, high caseloads, insufficient training and limited 
supervision, and the turnover of child welfare workers--estimated to be 
between 30 and 40 percent annually nationwide.\12\ The average caseload 
for child welfare workers is double the recommended level, and 
obviously much higher in many jurisdictions.\13\ Because our system is 
weighted toward protecting the most seriously injured children, we wait 
until it gets so bad that we have to step in. Far less attention in 
policy or funding is directed at preventing harm to children from ever 
happening in the first place or providing the appropriate services and 
treatment needed by families and children victimized by abuse or 
neglect.
---------------------------------------------------------------------------
    \11\ U.S. General Accounting Office (1995). Child Welfare: Complex 
Needs Strain Capacity to Provide Services (GAO/HEHS-95-208).
    \12\ U.S. General Accounting Office (2003). HHS Could Play a 
Greater Role in Helping Child Welfare Agencies Recruit and Retain Staff 
(GAO-03-357).
    \13\ Alliance for Children and Families, American Public Human 
Services Association, Child Welfare League of America (2001). The child 
welfare workforce challenge: Results from a preliminary study. Dallas.
---------------------------------------------------------------------------
    Increasing funding for CAPTA's basic State grants and community-
based prevention grants will help to begin to address the current 
imbalance. It is time to invest additional resources to work in 
partnership with the States to help families and prevent children from 
being abused and neglected.

                        THE CASE FOR PREVENTION

    Our present system of treating abused and neglected children and 
offering some help to troubled families is overworked and inadequate to 
the task. Hundreds of thousands of children are currently identified as 
having been abused, but receive no services to prevent further abuse. 
We must focus attention on children and families known to the system in 
order to prevent reoccurrence of abuse, as well as provide services to 
families earlier, before problems become severe. Putting dollars aside 
for prevention is sound investing, not luxury spending.
    We know that child abuse prevention fights crime, because research 
has shown us that victims of child abuse are more likely to engage in 
criminality later in life, and that childhood abuse increases the odds 
of future delinquency and adult criminality overall by 40 percent.\14\ 
We know that preventing child maltreatment helps to prevent failure in 
school. Typically abused and neglected children suffer poor prospects 
for success in school, exhibiting poor initiative, language and other 
developmental delays, and a disproportionate amount of incompetence and 
failure.\15\ Ensuring that children are ready to learn means ensuring 
that children are safe at home. We know that preventing child abuse can 
help to prevent disabling conditions in children. Physical abuse of 
children can result in brain damage, mental retardation, cerebral 
palsy, and learning disorders.\16\
---------------------------------------------------------------------------
    \14\ C.S. Widom (1992). The Cycle of Violence. Washington, DC: 
National Institute of Justice.
    \15\ S.R. Morgan (1976). The Battered Child in the Classroom. 
Journal of Pediatric Psychology.
    \16\ H.P. Martin & M.A. Rodeheffer (1980). The Psychological Impact 
of Abuse in Children. In: G.J. Williams. Traumatic Abuse and Neglect of 
Children at Home. Baltimore, MD: Johns Hopkins University Press.
---------------------------------------------------------------------------
    Research conducted by CDC in collaboration with Kaiser Permanente 
shows us that childhood abuse is linked with behaviors later in life 
which result in the development of chronic diseases that cause death 
and disability, such as heart disease, cancer, chronic lung and liver 
diseases, and skeletal fracture, and that the adult victims of child 
maltreatment are more likely suffer from depression and suicide 
attempts.\17\
---------------------------------------------------------------------------
    \17\ V.J. Felitti, R.F. Anda, et al. (1998). Relationship of 
Childhood Abuse and Household Dysfunction to Many of the Leading Causes 
of Death in Adults. The Adverse Childhood Experiences (ACE) Study. 
American Journal of Preventive Medicine.
---------------------------------------------------------------------------
    Community-based services to overburdened families are far less 
costly than the damage inflicted on children that leads to outlays for 
child protective services, law enforcement, courts, foster care, health 
care and the treatment of adults recovering from child abuse. A range 
of services, such as voluntary home-visiting, family support services, 
parent mutual support programs, parenting education, and respite care 
contribute to a community's successful strategy to prevent child abuse 
and neglect.
    National Child Abuse Coalition Member Organizations: Alliance for 
Children and Families, American Academy of Pediatrics, American Bar 
Association, American Humane Association, American Professional Society 
on the Abuse of Children, American Psychological Association, 
Association of University Centers on Disabilities, Boys and Girls Clubs 
of America, CHILD Inc., Child Welfare League of America, Children's 
Defense Fund, First Star, General Federation of Women's Clubs, National 
Alliance of Children's Trust and Prevention Funds, National Association 
of Children's Hospitals, National Association of Counsel for Children, 
National Association of Social Workers, Nat'l. Center for Child 
Traumatic Stress, National Center for State Courts, National CASA 
Association, National Education Association, National Exchange Club 
Foundation, National PTA, National Respite Coalition, Parents 
Anonymous, Prevent Child Abuse America, Voices for America's Children.
                                 ______
                                 
   Prepared Statement of the National Coalition for Osteoporosis and 
                         Related Bone Diseases

    Mr. Chairman and members of the committee: The National Coalition 
for Osteoporosis and Related Bone Diseases (Bone Coalition) is pleased 
to have the opportunity to present our views on the fiscal year 2008 
budget for the National Institutes of Health (NIH). We are appreciative 
of your continued support of the NIH. The Federal investment made to 
date has allowed for new research opportunities to be pursued that hold 
the potential to prevent and one day possibly cure diseases such as 
osteoporosis, osteogenesis imperfecta and Paget's disease of bone.
    The leaders of the Coalition are the National Osteoporosis 
Foundation, the Amerian Society for Bone and Mineral Research, the 
Osteogenesis Imperfecta Foundation and the Paget Foundation for Paget's 
Disease of Bone and Related Disorders. Throughout our existence, the 
Coalition has remained committed to reducing the impact of bone disease 
through expanded biomedical, clinical, epidemiological and behavioral 
research.
    Bone health is integral to the overall health and well being of the 
Nation's population. The bony skeleton is a remarkable organ that not 
only serves a structural function, providing mobility, support, and 
protection for the soft tissues, but also functions as a reservoir or 
storehouse for essential minerals and growth factors. It may even 
potentially act as an endocrine organ.
    The 2004 Surgeon General's Report on Bone Health and Osteoporosis 
calls bone health an ``often overlooked aspect of physical health'' and 
further States that ``[a] healthy skeletal system with strong bones is 
essential to overall health and quality of life. Yet, today, far too 
many Americans suffer from bone diseases and fractures.''
    Bone diseases such as osteoporosis, osteogenesis imperfecta, and 
Paget's disease of bone remain a major public health problem in this 
country and the financial, physical and psychosocial consequences of 
bone diseases significantly diminish quality of life and burden 
society.
    Osteoporosis.--Is a disease characterized by low bone mass and 
structural deterioration of bone tissue, leading to bone fragility and 
an increased susceptibility to fractures, particularly of the hip, 
spine, and wrist. This is due to several factors such as the aging of 
our population, increased use of steroids and other drugs that have 
deleterious affects on bone, and increased immobilized patients and 
nursing home populations. Over 10 million Americans have osteoporosis, 
the majority of whom (80 percent) are women; 34 million more have low 
bone mass and are at increased risk for the disease. The estimated 
national direct expenditures for osteoporosis and related fractures 
total $18 billion each year in 2002 dollars.
    Paget's Disease of Bone.--The second most prevalent bone disease 
after osteoporosis--is a chronic skeletal disorder that may result in 
enlarged or deformed bones in one or more regions of the skeleton. 
Excessive bone breakdown and formation can result in bone that is 
dense, but fragile. Complications may include arthritis, fractures, 
bowing of limbs, neurological complications, and hearing loss if the 
disease affects the skull. Prevalence in the population ranges from 1.5 
percent to 8 percent depending on the person's age and geographical 
location. Paget's disease primarily affects people over 50.
    Osteogenesis Imperfecta.--Causes brittle bones that break easily 
due to a problem with collagen production. For example, a cough or 
sneeze can break a rib, rolling over can break a leg. Besides fragile 
bones, people with OI may have hearing loss, brittle teeth, short 
stature, skeletal deformities, and respiratory difficulties. OI affects 
between 20,000 to 50,000 Americans. In severe cases fractures occur 
before and during birth. In some cases, an affected child can suffer 
repeated fractures before a diagnosis can be made. Undiagnosed OI may 
result in accusations of child abuse.
    Cancer Metastasis to Bone.--A frequent complication of cancer is 
its spread to bone (bone metastasis) that occurs in up to 80 percent of 
patients with myeloma and 70 percent of patients with either breast or 
prostate cancer--causing severe bone pain and pathologic fractures. 
Only 20 percent of breast cancer patients and 5 percent of lung cancer 
patients survive more than 5 years after discovery of bone metastasis.
    Musculoskeletal Trauma and Skeletal Pain.--Of the 60 million 
Americans injured annually, more than one-half incur injuries to the 
musculoskeletal system. In the United States, back pain is a major 
reason listed for lost time from work and sports injuries are 
increasing in ``weekend warriors'' of both sexes. In our military, bone 
trauma is now accounting for over 50 percent of all combat injuries.

                  HOW HAS BONE RESEARCH HELPED PEOPLE?

    NIH-supported research in bone health has led to important 
discoveries and has generated new treatments and pharmaceutical 
products.
  --Research has taught us that those with low bone mass are at risk 
        for osteoporosis. These individuals can then address their risk 
        with exercise, diet, other behavioral and lifestyle changes, 
        and medication.
  --Research has decreased fracture risk and extended the lifespan to 
        normal for people with OI.
  --Research has identified drugs which improve the quality of life of 
        people whose cancer has metastasized to bone.
  --Research has led us to develop simple, non-invasive and accurate 
        tests that can determine bone mass and help predict fracture 
        risk.
  --Research has identified and demonstrated a variety of drugs that 
        can reduce bone loss and fractures, and even build new bone. 
        Thirty years ago, there was no treatment for osteoporosis.
  --Research has helped us to understand the need for weight-bearing 
        exercise to build and maintain bone in order to reduce fracture 
        risk. Falling can be reduced by strength-building exercise that 
        increases balance and flexibility.
  --Research has led to the discovery of a recessive form of 
        osteogenesis imperfecta, providing new possibilities for 
        prevention, treatment and a cure. But much remains to be done.

                 FUTURE OPPORTUNITIES FOR BONE RESEARCH

    Osteoporosis.--Research has the potential to add important new 
information to our understanding of osteoporosis.
  --Therapies such as calcium supplementation and physical activity 
        need to be explored to help chronically ill children reach and 
        maintain peak bone mass.
  --Data on the beneficial and/or adverse effects of bone therapies 
        such as bisphosphonates in children as well as adults with many 
        chronic diseases such as diabetes, inflammatory arthritis and 
        osteogenesis imperfecta are almost non-existent and are sorely 
        needed.
  --The pathophysiology of bone loss in diverse populations needs to be 
        studied in order to develop targeted therapies to improve bone 
        density and bone quality.
  --Racial differences in bone and the origin of racial differences in 
        fracture patterns need to be identified to understand important 
        determinants of fracture and their underlying biology.
  --Patients at risk for fracture who do not meet current criteria for 
        osteoporosis need to be identified. In addition, the effects of 
        current and developing osteoporosis treatments on these 
        patients need to be studied.
  --Research into gene targeting which could cure osteogenesis 
        imperfecta is a few short years away from human trials. 
        Continued research into drug therapies is needed to improve 
        bone quality, allowing people with osteogenesis imperfecta to 
        live independently.
    Congenic and Genetic Disease of Bone.--Thousands of children and 
adolescents nationwide suffer from musculoskeletal disorders and 
malformations, many of which have devastating effects on mortality and 
disability. Diseases such as osteogenesis imperfecta, fibrous 
dysplasia, osteopetrosis, and Paget's disease are caused by poorly 
understood genetic mutations. In Paget's disease, underlying genetic 
defects can also be exacerbated by environmental factors. Increased 
research on the role of the environmental and genetic factors in the 
development of Paget's disease could lead to the identification of new 
therapeutic targets for the disease. The science of genetics has led to 
tremendous advances in our understanding of numerous systems that 
affect bone health, but little of this technology is being applied to 
bone research. Knowledge of complex gene pathways must be used to 
deepen our understanding of bone biology to gain better insight into 
the causes of these debilitating diseases. Research is needed that:
  --Focuses on mechanisms of preventing fractures and improving bone 
        quality and correcting malformations, on innovations in 
        surgical and non-surgical approaches to treatment, on physical 
        factors that affect growth, and on genetic defects that cause 
        bone disease.
  --Expands research on skeletal stem cell biology and the genetics and 
        pathophysiology of rare disorders such as fibrous dysplasia, 
        melhoreostosis, XLinked hypophosphatemic rickets and 
        fibrodysplasia ossificans progressiva.
    Cancer Metastasis to Bone.--Immune response plays a role in cancer 
metastasis. Osteoimmunology--the study of the relationships between the 
immune system and bone homeostasis--is an emerging area of research and 
may help scientists prevent and treat the spread of cancer to bone. 
Research is needed to:
  --Determine mechanisms and to identify, block and treat cancer 
        metastasis to bone.
  --Expand research on osteosarcoma to improve survival and quality of 
        life and to prevent metastatic osteosarcoma in children and 
        teenagers who develop this cancer.
  --Expand research on tumor dormancy as it relates to bone metastasis.
    Musculoskeletal Trauma and Skeletal Pain.--Research is needed to 
better understand the epidemiology of back pain, improve on existing 
diagnostic techniques for back pain, as well as to develop new ones. 
Furthermore, expanded research is needed to improve diagnostic and 
therapeutic approaches to significantly lower the impact of 
musculoskeletal traumas, and on research on accelerated fracture 
healing, the use of biochemical or physical bone stimulation, the role 
of hematopoietic niches to preserve bone stem cells, the use of 
mesenchymal bone stem cells, and biomaterials and biologicals in bone 
repair and regeneration, and research into repair of nonunion fractures 
in osteogenesis imperfecta.
    Bone Strength.--Research is also needed in the area of bone 
strength. Although bone mineral density has been a useful predictor of 
susceptibility to fracture, other properties of the skeleton contribute 
to bone strength, such as geometry and composition. At this time, 
little is understood as to how these properties influence bone 
strength. However, research clearly indicates that exercise that causes 
mechanotransduction plays a key role in the maintenance of bone; and 
loss of bone due to immobilization as occurs in patients in hospitals 
and nursing homes may be preventable with therapies that mimic 
mechanotransduction. Bone strength is also influenced by the amount of 
mineral, however, how the bone becomes mineralized is not well 
understood. Understanding this process should assist in prevention of 
pathologic mineralization as occurs in hardening of the arteries that 
causes heart attacks. Research, including research on bone structure 
and periosteal biology, is needed which will achieve identification of 
the parameters that influence bone strength and lead to better 
prediction for prevention and treatment of bone diseases such as 
osteoporosis, osteogenesis imperfecta, bone loss due to kidney disease, 
and hardening of the arteries.
    To move this research forward, Congress must provide sufficient 
funding to the National Institutes of Health to sustain the robust 
research atmosphere in which to address the challenges in the bone 
field. Research must continue to be accelerated in order to improve the 
health of the Nation.

                             RECOMMENDATION

    The National Coalition for Osteoporosis and Related Bone Diseases 
supports:
  --a 6.7 percent increase in funding for the National Institutes of 
        Health as recommended by the Ad Hoc Group for Medical Research, 
        the Campaign for Medical Research, the Federation of American 
        Societies for Experimental Biology, the National Health 
        Council, and Research!America.
  --a 6.7 percent increase for the National Institute of Arthritis and 
        Musculoskeletal and Skin Diseases, the lead institute for bone 
        research.
  --increased funding for NIA, NIDCR, NIDDK, NCI and NICHD, other 
        Institutes that also fund bone-related research, as well as 
        additional support for bone programs at NIBIB and NCAM.
    Thank you for the opportunity to submit our statement regarding the 
fiscal year 2008 budget for the National Institutes of Health.
                                 ______
                                 
Prepared Statement of the National Consumer Law Center on Behalf of Our 
                         Low-Income Clients \1\
---------------------------------------------------------------------------
    \1\ Mass Union of Public Housing Tenants and Pennsylvania Utility 
Law Project.
---------------------------------------------------------------------------
    The Federal Low Income Home Energy Assistance Program (LIHEAP) \2\ 
is the cornerstone of government efforts to help needy seniors and 
families avoid hypothermia in the winter and heat stress (even death) 
in the summer. We are in a sustained period of much higher household 
energy prices and expenditures and the demand for this program is 
growing as increases in energy prices far outstrip the ability of low 
income households to pay. In light of the crucial safety net function 
of this program in protecting the health and well-being of low-income 
seniors, the disabled and families with very young children, we 
respectfully request that LIHEAP be fully funded at its authorized 
level of $5.1 billion for fiscal year 2008 and that advance funding of 
$5.1 billion be provided for the program in fiscal year 2009.
---------------------------------------------------------------------------
    \2\ 42 U.S.C. Sec. Sec. 8621 et seq.
---------------------------------------------------------------------------
           COST OF HOME ENERGY REMAINS AT RECORD HIGH LEVELS

    Residential heating expenditures remain at record high levels. 
According to the Department of Energy's Energy Information 
Administration's March 2007 Short-Term Energy Outlook, this winter's 
average residential heating expenditures are projected to be 53 percent 
higher for heating oil, 29.6 percent higher for natural gas, 39.4 
percent higher for propane, and 18.6 percent higher for electricity 
than the averaged expenditures for 2000-2005. This U.S. Department of 
Energy short-term forecast of residential heating expenditures shows 
that, on average, residential bills are still among the highest on 
record. The cost of electricity, used for both heating and cooling, has 
been increasing rapidly due, in part, to increases in the price of 
natural gas used to generate electricity in many power plants and the 
lifting of price caps in States that restructured their electric 
markets.
    In a brief span of time, energy bills have walloped low-income 
households. In 2008, LIHEAP eligible households are predicted to spend, 
depending on the type of heating fuel used, 63 percent more on their 
total residential energy bills than in 2001 if they used heating oil, 
36 percent more if they used natural gas, 47 percent more if they used 
propane and 34 percent more if they use electricity. The effect of 
these continually rising prices on low-income households is 
devastating.

STATES' DATA ON ELECTRIC AND NATURAL GAS DISCONNECTIONS AND ARREARAGES 
              SHOW THAT MORE HOUSEHOLDS ARE FALLING BEHIND

    Not surprisingly, the steady and dramatic rise in residential 
energy costs has resulted in increases in electric and natural gas 
arrearages and disconnections. For example, utility service 
disconnections in Rhode Island increased by over 92 percent between the 
years 2000 and 2006. Similarly, the gap between service disconnections 
and reconnections increased, suggesting increased durations of service 
loss and greater numbers of households that do not regain access to 
service under their own accounts.\3\
---------------------------------------------------------------------------
    \3\ Calculated from data provided by the Rhode Island Public 
Utilities Commission.
---------------------------------------------------------------------------
    Although there are winter utility shut-off moratoria in place for 
many States, not every home is protected against energy shut-offs in 
the middle of winter. As we approach the lifting of winter shut-off 
moratoria, we expect to see a wave of disconnections as households are 
unable to afford the cost of the energy bills.
    Iowa.--Despite milder winter temperatures this winter, the 
continued high cost of natural gas has set back a record number of low-
income households in Iowa. In February 2007, the number of low-income 
households with past due energy accounts was the second highest on 
record for this time of year since these data have been tracked. As an 
indication of the effect of long term effect of rising home energy 
prices, the total number of LIHEAP households in arrears in February 
2007 was 80 percent higher than 5 years ago at this point in time and 
151 percent higher than in February 1999. The total amount of 
arrearages of LIHEAP households has also grown sharply due to the 
increase in prices. By February 2007, the total amount of LIHEAP 
household arrears had increased 42 percent from the same period 5 years 
ago and 163 percent compared to arrears in February 1999. The total 
number of LIHEAP households served in fiscal year 2007 is expected to 
remain at the record high level of fiscal year 2006, yet the program 
received $16 million less under the fiscal year 2007 appropriations. In 
order to serve the increased demand for LIHEAP this heating season the 
program reduced benefits by 30 percent and redirected LIHEAP funds 
normally dedicated to the summer pre-purchase of deliverable fuels (a 
program component that maximizes purchasing power).\4\
---------------------------------------------------------------------------
    \4\ Iowa Bureau of Energy Assistance, National Energy Assistance 
Directors' Association's ``LIHEAP Survey Results--Status of fiscal year 
2007 Program Funding (March 7, 2007) and the National Energy Assistance 
Directors' Association, ``The Low Income Home Energy Assistance 
Program: Providing Heating and Cooling Assistance to Low-Income 
Families During a Period of High Energy Prices (February 9, 2007). 
NEADA documents are available at www.neada.org.
---------------------------------------------------------------------------
    Ohio.--In Ohio, the number of households entering into the State's 
low-income energy affordability program, the Percentage of Income 
Payment Program (PIPP), increased 13 percent from January 2006 to 
January 2007. The increase is an even more dramatic 64 percent between 
January 2002 and January 2007. The total dollar amount owed (arrearage) 
by low-income PIPP customers increased 8 percent from January 2006 to 
January 2007 and 62 percent when comparing PIPP customer arrears from 
January 2002 to January 2007. The National Energy Assistance Directors 
Association estimates that the number of households applying for energy 
assistance in fiscal year 2007 is likely to remain at fiscal year 2006 
levels, for Ohio that would mean an estimated 30 percent more 
households when compared to Ohio households that received heating 
assistance in fiscal year 2002.\5\
---------------------------------------------------------------------------
    \5\ Public Utilities Commission of Ohio, National Energy Assistance 
Directors' Association's ``LIHEAP Survey Results--Status of Fiscal Year 
2007 Program Funding (March 7, 2007), the National Energy Assistance 
Directors, ``Est. Total Households Receiving LIHEAP Heating Assistance 
by State--Projected Applications for Fiscal Year 2006 (2/13/06) and 
``Estimated Total Households Receiving LIHEAP Heating Assistance by 
State Actuals in 2002, 2003; Projected in 2004.'' NEADA documents are 
available at www.neada.org.
---------------------------------------------------------------------------
    Pennsylvania.--Utilities in Pennsylvania that are regulated by the 
Pennsylvania Public Utility Commission (PA PUC) have established 
universal service programs that assist utility customers in paying 
bills and reducing energy usage. Even with these programs, electric and 
natural gas utility customers find it difficult to keep pace with their 
energy burdens. The PA PUC estimates that more than 19,700 households 
entered the current heating season without heat-related utility 
service--this number includes about 3,700 households who are heating 
with potentially unsafe heating sources such as kerosene or electric 
space heaters and kitchen ovens. In mid-December 2006 an additional 
9,000 residences where electric service was previously terminated were 
vacant and over 7,500 residences where natural gas service was 
terminated were vacant. In 2006, the number of terminations increased 
32 percent compared with terminations in 2004. As of February 2007, 
18.9 percent of residential electric customers and 16.3 percent of 
natural gas customers were overdue on their energy bills. The National 
Energy Assistance Directors Association estimates that the number of 
households applying for energy assistance in fiscal year 2007 is likely 
to remain at fiscal year 2006 levels, for Pennsylvania that would mean 
an estimated increase of over 354,065 LIHEAP households from in fiscal 
year 2005 levels. However, in fiscal year 2007 Pennsylvania is 
experiencing a 34 percent reduction in LIHEAP funding compared to 
levels in fiscal year 2006. This reduction in funding has resulted in a 
32 percent cut to the average LIHEAP crisis benefit from $422 in fiscal 
year 2006 to $285 in fiscal year 2007 (year to date).\6\
---------------------------------------------------------------------------
    \6\ Pennsylvania Public Utility Commission Bureau of Consumer 
Services, National Energy Assistance Directors' Association's ``LIHEAP 
Survey Results--Status of Fiscal Year 2007 Program Funding (March 7, 
2007) and National Energy Assistance Directors' Association, ``The Low 
Income Home Energy Assistance Program: Providing Heating and Cooling 
Assistance to Low-Income Families During a Period of High Energy Prices 
(February 9, 2007). NEADA documents are available at http://
www.neada.org.
---------------------------------------------------------------------------
 LIHEAP IS A CRITICAL SAFETY NET PROGRAM FOR THE ELDERLY, THE DISABLED 
                   AND HOUSEHOLDS WITH YOUNG CHILDREN

    In fiscal year 2006, 5.7 million households received LIHEAP heating 
assistance, the highest number of households served in 13 years. 
Preliminary estimates by the National Energy Assistance Directors' 
Association are that fiscal year 2007 participation rates will remain 
near the same record levels as in fiscal year 2006.\7\ Yet, energy 
prices have been on a continued upward climb. These two trends cut into 
the ability of the LIHEAP program to help protect our most vulnerable 
citizens from extreme weather conditions that cause illness, physical 
harm and even death.
---------------------------------------------------------------------------
    \7\ National Energy Assistance Directors' Association, Talking 
Points in Support of Additional Federal and State Grant Funding for 
Energy Assistance (Jan. 19, 2007) available at www.NEADA.org.
---------------------------------------------------------------------------
    Recent national studies have documented the dire choices low-income 
households are faced with when energy bills are unaffordable. Because 
adequate heating and cooling are tied to the habitability of the home, 
low-income families will go to great lengths to pay their energy bills. 
Low-income households faced with unaffordable energy bills cut back on 
necessities such as food, medicine and medical care.\8\ The U.S. 
Department of Agriculture recently released a study that shows the 
connection between low-income households, especially those with elderly 
persons, experiencing very low food security and heating and cooling 
seasons when energy bills are high.\9\  A pediatric study in Boston 
documented an increase in the number of extremely low weight children, 
age 6 to 24 months, in the 3 months following the coldest months, when 
compared to the rest of the year.\10\  Clearly, families are going 
without food during the winter to pay their heating bills, and their 
children fail to thrive and grow.
---------------------------------------------------------------------------
    \8\ See e.g., National Energy Assistance Directors' Association, 
2005 National Energy Assistance Survey, Tables in section IV,G 
(September 2005) (To pay their energy bills, 20 percent of LIHEAP 
recipients went without food, 35 percent went without medical or dental 
care, 32 percent did not fill or took less than the full dose of a 
prescribed medicine). Available at http://www.neada.org/comm/surveys/
NEADA_2005_National_Energy_Assistance_Survey.pdf.
    \9\ Mark Nord and Linda S. Kantor, Seasonal Variation in Food 
Insecurity Is Associated with Heating and Cooling Costs Among Low-
Income Elderly Americans, The Journal of Nutrition, 136 (Nov. 2006) 
2939-2944.
    \10\ Deborah A. Frank, MD et al., Heat or Eat: The Low Income Home 
Energy Assistance Program and Nutritional and Health Risks Among 
Children Less Than 3 years of Age, AAP Pediatrics v.118, no.5 (Nov. 
2006) e1293-e1302. See also, Child Health Impact Working Group, 
Unhealthy Consequences: Energy Costs and Child Health: A Child Health 
Impact Assessment Of Energy Costs And The Low Income Home Energy 
Assistance Program (Boston: Nov. 2006).
---------------------------------------------------------------------------
    When people are unable to afford paying their home energy bills, 
dangerous and even fatal results occur. Families resort to using unsafe 
heating sources, such as space heaters, ovens and burners, all of which 
are fire hazards.\11\  In the summer, the inability to afford cooling 
bills can result in heat-related deaths and illness. The loss of 
essential utility services can be devastating, especially for poor 
families that can find themselves facing hypothermia in the winter, 
hyperthermia in the summer, eviction, property damage from frozen 
pipes, the use of dangerous alternative sources of heat.
---------------------------------------------------------------------------
    \11\ John R. Hall, Jr., Home Heating Fire Patterns and Trends (In 
2003 there were over 53,000 heating-equipment related home fires 
resulting in 260 deaths (73 percent of the deaths involved portable 
space heaters) and 1,260 injuries and $494 million in property damage), 
National Fire Protection Association (Nov. 2006).
---------------------------------------------------------------------------
    LIHEAP is an administratively efficient and effective targeted 
health and safety program that works to bring fuel costs within a 
manageable range for vulnerable low-income seniors, the disabled and 
families with young children. LIHEAP must be fully funded at its 
authorized level of $5.1 billion in fiscal year 2008 in light of the 
steady increase in home energy costs and the increased need for 
assistance to protect the health and safety of low income families by 
making their energy bills more affordable. In addition, fiscal year 
2009 advance funding would facilitate the efficient administration of 
the State LIHEAP programs. Advanced funding provided certainty of 
funding levels to States to set income guidelines and benefit levels 
before the start of the heating season. States can also plan the 
components of their program year (e.g., amounts set aside for heating, 
cooling and emergency assistance, weatherization, self-sufficiency and 
leveraging activities).
                                 ______
                                 
     Prepared Statement of the National Council of Social Security 
                        Management Associations

    Chairman Harkin, Senator Specter and members of the subcommittee, 
my name is Richard Warsinskey and I represent the National Council of 
Social Security Management Associations (NCSSMA). I have been the 
manager of the Social Security office in Downtown Cleveland, Ohio for 
nearly 12 years and have worked for the Social Security Administration 
for 31 years. On behalf of our membership, I am pleased to have the 
opportunity to submit this written testimony to the subcommittee.
    The NCSSMA is a membership organization of nearly 3,400 Social 
Security Administration (SSA) managers and supervisors who provide 
leadership in over 1,300 Field Offices and Teleservice Centers 
throughout the country. We are the front-line service providers for SSA 
in communities all over the Nation. We are also the Federal employees 
with whom many of your staff members work to resolve problems and 
issues for your constituents who receive Social Security retirement 
benefits, survivors or disability benefits, or Supplemental Security 
Income. From the time our organization was founded over 36 years ago, 
the NCSSMA has been a strong advocate of efficient and prompt locally 
delivered services nationwide to meet the variety of needs of 
beneficiaries, claimants, and the general public. We consider our top 
priority to be a strong and stable Social Security Administration, one 
that delivers quality and prompt community based service to the people 
we serve--your constituents.

   IMPACT OF SSA'S APPROPRIATED FUNDING LEVEL ON SSA FIELD OFFICES & 
                          TELESERVICE CENTERS

    For fiscal year 2008, the President has proposed an increase for 
SSA of approximately $304 million over the final level of funding for 
fiscal year 2007. And yet, staffing levels in offices across the 
country are being cut. In fact, SSA will lose about 4,000 positions 
from the beginning of fiscal year 2006 to fiscal year 2008. The most 
significant staffing losses in SSA have occurred in the agency's Field 
Offices. Field Offices have lost about 2,300 positions in the past 18 
months and about 1,200 positions since September 2006. The vast 
majority of these losses have been in the most critical positions in 
the Field: Claims Representatives and Service Representatives. All of 
this comes after 5 years of reductions to the President's Budget 
Requests, which total $720.0 million, and about 8,000 work years. It is 
interesting to note that while total Executive Branch Employment is 
expected to increase 2.1 percent from fiscal year 2006 to fiscal year 
2008, SSA's employment is expected to decrease by 6.2 percent.
    In 2007, an average of 858,000 people are visiting Social Security 
Administration Field Offices every week. At the same time, Field 
Offices are also being overwhelmed by business-related telephone calls. 
SSA Field Offices are receiving approximately 68 million business 
related phone calls a year. This is in addition to the 44 million phone 
calls handled by live agents that are received by SSA's 1-800 number on 
an annual basis. The fact that the public can't get through to SSA on 
the telephone is creating an overwhelming amount of walk-in traffic in 
many Field Offices. Waiting times in many Field Offices are running 2 
to 3 hours long. Some visitors are even experiencing wait times of over 
4 hours.
    SSA is also facing a retirement wave as many of its employees were 
hired around the time SSA took over the Supplemental Security Income 
(SSI) program in 1974. It is important for the agency to be able to 
replace this wealth of experience. It can take up to 4 years before 
newly hired Claims Representatives become fully proficient in the very 
complicated programs SSA administers.
    The impact of inadequate resources in recent years is apparent in 
the severe cutbacks in processing Continuing Disability Review cases 
and SSI Redeterminations. For every $1 spent on a Continuing Disability 
Review, $10 is saved. SSA currently has a backlog of 1.3 million 
Continuing Disability Review cases. The agency also saves $7 for every 
$1 spent on an SSI redetermination. SSA was unable to process over 2.0 
million of these cases in the past few years due to the lack of 
resources.
    In recent months I have received hundreds of messages from SSA 
Field Office management describing how the stress in their offices is 
incredible. Health problems are growing. It truly is a dire situation. 
I would like to share with you part of a communication I received from 
a member of Field Office management:
    ``We have lost five employees recently. Two had strokes in the 
office in the last month and it may have been due to all the stress. 
Another employee is retiring next month. We are simply being hammered 
with work. The number of people visiting our office is well beyond our 
capacity to handle them. About 30.0 percent of our visitors live 
outside our service area. We don't receive staff for these extra 
visitors and the loss of staff has made it an impossible situation.
    ``We really have a very dedicated and wonderful staff. But so many 
are about to have a breakdown. We are just desperate to get help.''
    Even if SSA receives the funding increase recommended by the 
President for fiscal year 2008, staffing will be cut because SSA's 
expenditures continue to increase in several areas. Salaries and 
benefit costs, including those for the Disability Determination 
Services, rent, and security costs, are totaling more than the annual 
increases in appropriated funds. And for fiscal year 2007, SSA's final 
level of funding was just enough to avoid an agency-wide furlough. 
Although a furlough was avoided, the agency will be faced with limited 
hiring for the entire year after only being able to replace one out of 
three staffing losses last year.
    As a result, the fiscal year 2008 President's budget request will 
provide fewer, not additional, resources for SSA. Therefore, we are in 
strong support of the additional funding recommended in the Fiscal Year 
2008 Senate Budget Resolution. These additional funds would be a major 
step in restoring SSA's service to appropriate levels.

                         SURVEY OF OUR MEMBERS

    Our association just completed a survey of our members. Over 2,000 
responded. The gravity of the losses in the Field Offices can be seen 
in an answer to one question. The question was: `` Do you have enough 
staff to keep workloads current?'' Only 3.2 percent answered ``yes'' to 
this question.
    The losses in staff in Field Offices are having a significant 
impact on our ability to provide good service. In answer to the 
question: ``What percent of the time are Field Offices able to provide 
prompt telephone service?'' nearly 63 percent said they can only do 
this 50 percent or less of the time. Nearly a third said they can 
provide prompt telephone service less than 25 percent of the time. The 
impact of these staffing losses can also be seen in the increased 
waiting times for the public. In answer to the question as to whether 
waiting times had increased in the past 2 years, 80 percent said 
``yes'' and nearly a third said the waiting times were significantly 
longer.

                          DISABILITY BACKLOGS

    It is also important to note that receiving prompt service is not 
the case for hundreds of thousands of claimants that have filed for 
Social Security and SSI Disability benefits. There are currently over 
three quarter of a million hearings pending. And at the moment, it is 
taking 510 days, on average, for a hearings decision. Nearly 300,000 
hearings have been pending over a year. SSA estimates that the hearings 
backlog could grow to 1 million cases by 2010 if additional resources 
are not provided for SSA.
    SSA also has a total of about 1.4 million disability cases pending 
at the initial claims, reconsideration, and hearings levels. We 
estimate about 125,000 of these cases belong to veterans and about half 
of these are pending at the hearings level.
    Every day SSA Field Offices and Teleservice Centers throughout the 
country are being contacted by people regarding the status of their 
hearings as I am sure most congressional offices are. Many of these 
people are desperate and have insufficient funds to live on and the 
delays only add to their sense of hopelessness.
    At the beginning of this decade there were only about 311,000 
hearings pending, and the average time for processing was just 274 
days. So the pending cases have grown 130.0 percent in 6 years, and the 
average time to process a case has increased by 234 days. These long 
waits occur after most claimants have passed the first two stages of 
their claim, having received an initial decision and a reconsideration. 
By this point, over 200 days on average have already passed by.

                THE IMPACT OF THE BABY BOOMERS RETIRING

    Next year, in 2008, the first of 78 million baby boomers will be 
eligible for Social Security retirement. So there will be a steady rise 
in retirement claims with SSA--along with an increasing number of 
contacts by these retirees with SSA once they start receiving benefits.
    At the end of 2006, there were 40.3 million people receiving 
retirement and survivor benefits. This figure is expected to rise by 
about 1 million a year over the next 10 years and accelerate after 
this. SSA took about 3.3 million retirement and survivor claims last 
year. So we are looking at a significant increase in work for SSA 
offices.

                       THE COMMISSIONER'S BUDGET

    Because SSA is an independent agency, the Commissioner is required 
by law to prepare an annual budget request for SSA, which is submitted 
by the President to Congress without revision, together with the 
President's budget request for SSA. This budget request reflects what 
the Commissioner has evaluated as the level of funding necessary to 
meet the agency's service delivery improvements and fiscal stewardship 
responsibilities through 2012. The Commissioner's budget request also 
factors in that SSA has received less than the President's recommended 
level of funding in recent years, thus leading to the need for 
additional resources in the future to meet the full service delivery 
plan. The budget amount submitted by the Commissioner of Social 
Security for fiscal year 2008 is $10.44 billion. This $10.44 billion is 
$843 million more than what the President requested. The difference 
between these proposed funding levels is significant. Of more 
significance is the difference between the final funding levels 
approved by Congress for SSA in comparison to the budget requests 
submitted in recent years by the Commissioner. Inadequate levels of 
resources have contributed to the growing inability of SSA to provide 
adequate levels of service.

                       SOCIAL SECURITY TRUST FUND

    The Social Security Trust Fund currently totals approximately $2.0 
trillion. The Social Security Trust Fund is intended to pay benefits to 
future beneficiaries and finance the operations of the Social Security 
Administration. The additional funding for SSA proposed in the fiscal 
year 2008 Senate Budget Resolution represents about 1/65th of 1 percent 
of $2 trillion. Don't the workers who have paid into this trust fund 
with their taxes deserve to receive due consideration and the very 
benefits they have paid for in a timely manner?
    The Social Security Trust Fund contains the necessary resources to 
make up the difference between the level requested by SSA's 
Commissioner and the President. Yet, because of the levels of service 
that SSA and its various components that process disability claims are 
currently able to provide, many of these taxpayers must wait so long 
for service that they die before a decision is made on their case. They 
never receive the benefits that they have paid for. This also applies 
to receiving good service in Social Security Administration Field 
Offices--it currently is not at the level it ought to be and people are 
not receiving what they have paid for and what they deserve.

                               CONCLUSION

    The NCSSMA believes that the American public wants and deserves to 
receive good and timely service for the tax dollars they have paid to 
receive Social Security. We urge approval of at least the amount 
included in the Fiscal Year 2008 Senate Budget Resolution, and 
encourage you to consider providing the level of funding requested by 
the Commissioner of Social Security. This additional funding would 
certainly begin the necessary process to restore the levels of service 
that the public deserves from SSA.
    On behalf of the members of the NCSSMA, I thank you again for the 
opportunity to submit this written testimony to the subcommittee. Our 
members are not only dedicated SSA employees, but they are also 
personally committed to the mission of the agency and to providing the 
best service possible to the American public. We respectfully ask that 
you consider our comments and would appreciate any assistance you can 
provide in ensuring that the American public receives the necessary 
service that they deserve from the Social Security Administration.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
subcommittee regarding the appropriation for the Corporation for Public 
Broadcasting (CPB). As the president and CEO of the National Federation 
of Community Broadcasters, I speak on behalf of 250 community radio 
stations and related organizations across the country. Nearly half our 
members are rural stations and half are controlled by people of color. 
In addition, our members include many of the new Low Power FM stations 
that are putting new local voices on the airwaves. NFCB is the sole 
national organization representing this group of stations which provide 
service in the smallest communities of this country as well as the 
largest metropolitan areas.
    In summary, the points we wish to make to this subcommittee are 
that NFCB:
  --Requests $440 million in funding for CPB for fiscal year 2010;
  --Requests $40 million in fiscal year 2008 for conversion of public 
        radio and television to digital broadcasting;
  --Requests $27 million in fiscal year 2008 for replacement of the 
        radio interconnection system;
  --Requests that advance funding for CPB is maintained to preserve 
        journalistic integrity and facilitate planning and local 
        fundraising by public broadcasters;
  --Reject the administration's proposal to rescind $107.35 million of 
        already-appropriated 2008 CPB funds;
  --Supports CPB activities in facilitating programming and services to 
        Native American, African American and Latino radio stations;
  --Supports CPB's efforts to help public radio stations utilize new 
        distribution technologies and requests that the subcommittee 
        ensure that these technologies are available to all public 
        radio services and not just the ones with the greatest 
        resources.
    Community Radio fully supports $440 million in Federal funding for 
the Corporation for Public Broadcasting in fiscal year 2010. Federal 
support distributed through CPB is an essential resource for rural 
stations and for those stations serving communities of color. These 
stations provide critical, life-saving information to their listeners 
and are often in communities with very small populations and limited 
economic bases, thus the community is unable to financially support the 
station without Federal funds.
    In larger towns and cities, sustaining grants from CPB enable 
Community Radio stations to provide a reliable source of noncommercial 
programming about the communities themselves. Local programming is an 
increasingly rare commodity in a Nation that is dominated by national 
program services and concentrated ownership of the media.
    For over 30 years, CPB appropriations have been enacted 2 years in 
advance. This insulation has allowed pubic broadcasting to grow into a 
respected, independent, national resource that leverages its Federal 
support with significant local funds. Knowing what funding will be 
available in advance has allowed local stations to plan for programming 
and community service and to explore additional non-governmental 
support to augment the Federal funds. Most importantly, the insulation 
that advance funding provides ``go[es] a long way toward eliminating 
both the risk of and the appearance of undue interference with and 
control of public broadcasting.'' (House Report 94-245.)
    For the last few years, CPB has increased support to rural stations 
and committed resources to help public radio take advantage of new 
technologies such as the Internet, satellite radio and digital 
broadcasting. We commend these activities which we feel provide better 
service to the American people but want to be sure that the smaller 
stations with more limited resources are not left out of this 
technological transition. We ask that the subcommittee include language 
in the appropriation that will ensure that funds are available to help 
the entire public radio system utilize the new technologies, 
particularly rural and minority stations.
    NFCB commends CPB for the leadership it has shown in supporting and 
fostering the programming services to Latino stations and to Native 
American stations. For example, Satelite Radio Bilingue provides 24 
hours of programming to stations across the United States and Puerto 
Rico addressing issues in Spanish of particular interest to the Latino 
population. At the same time, Native Voice One (NV1) is distributing 
programming for the Native American stations. There are now over 33 
stations controlled by and serving Native Americans.
    Two years ago CPB funded the establishment of the Center for Native 
American Public Radio (CNAPR). After 2 years in operation, CNAPR has 
helped with the renewal of licenses and expansion of the 
interconnection system to all Native stations and has raised the 
possibility of Native Nations owning their own, locally controlled 
station. In the process of this work, it was recognized that radio 
would not be available to all Native Nations and broadband and other 
new technologies would be necessary. CNAPR has been repositioned as 
Native Public Media and is working hard to double the number of Native 
stations within the next 3 years. These stations are critical in 
serving local isolated communities (all but one are on Indian 
Reservations) and in preserving cultures that are in danger of being 
lost. CPB's 2003 assessment recognized that ``. . . Native Radio faces 
enormous challenges and operates in very difficult environments.'' CPB 
funding is critical to these rural, minority stations. CPB's funding of 
the Intertribal Native Radio Summit in 2001 helped to pull these 
isolated stations together into a system of stations that can support 
each other. The CPB assessment goes on to say ``Nevertheless, the 
Native Radio system is relatively new, fragile and still needs help 
building its capacity at this time in its development.'' Native Public 
Media promises to leverage additional, new funding to ensure that these 
stations can continue to provide essential services to their 
communities.
    CPB also funded a Summit for Latino Public Radio which took place 
in September 2002 in Rohnert Park, California, home of the first Latino 
Public Radio station. These Summits have expanded the circle of support 
for Native and Latino Public Radio and identified projects that will 
improve efficiency among the stations through collaborations and 
explore new ways of reaching the target audiences.
    CPB plays a very important role for the public and Community Radio 
system; they are the convener of discussions on critical issues facing 
us as a system. They support research so that we have a better 
understanding of how we are serving listeners, and they provide funding 
for programming, new ventures, expansion to new listeners, and projects 
that improve the efficiency of the system. This is particularly 
important at a time when there are so many changes in the radio and 
media environment with new distribution technologies and media 
consolidation. An example of this support is the grant that NFCB 
received to update and publish our Public Radio Legal Handbook online. 
This provides easy-to-read information to stations about complying with 
governmental regulations so that stations can function legally and use 
their precious resources for programming instead of legal fees.
    Finally, Community Radio supports $40 million in fiscal year 2008 
for conversion to digital broadcasting by public radio and television. 
It is critical that this digital funding be in addition to the on-going 
operational support that CPB provides. The President's proposal that 
digital money should be taken from the fiscal year 2008 CPB 
appropriation would effectively cut stations' grants by over 25 
percent. This would have a devastating impact on stations trying to 
recover from hard economic times. And it would come at a time when the 
local voices of community and public radio are especially important to 
notify and support people during emergency situations and to help 
communities deal with the loss of loved ones--things that commercial 
radio is no longer able to do because of media consolidation.
    While public television's digital conversion needs are mandated by 
the FCC, public radio is converting to digital to provide more public 
service and to keep up with commercial radio. The Federal 
Communications Commission has approved a standard for digital radio 
transmission and to allow multicasting. CPB has provided funding for 
554 transmitters to convert to digital and is working with radio 
transmitter and receiver manufacturers to build in the capacity to 
provide a second channel of programming. Most exciting to public and 
community radio is the encouraging results of tests that National 
Public Radio has conducted, with funding from CPB, that indicate that 
stations can broadcast at least three high-quality signals, even while 
they continue to provide the analog signal. The development of second 
and third audio channels will potentially double or triple the service 
that public radio can provide, particularly in service to unserved and 
underserved communities. This initial funding still leaves nearly 250 
radio transmitters that will ultimately need to convert to digital or 
be left behind.
    Federal funds distributed by the CPB should be available to all 
public radio stations eligible for Federal equipment support through 
the Public Telecommunications Facilities Program (PTFP) of the National 
Telecommunications and Information Agency of the Department of 
Commerce. In previous years, Federal support for public radio has been 
distributed through the PTFP grant program. The PTFP criteria for 
funding are exacting, but allow for wider participation among public 
stations. Stations eligible for PTFP funding and not for CPB funding 
include small-budget, rural and minority controlled stations and the 
new Low Power FM service.
    Community Radio strongly supports funding for the public radio 
interconnection system. Public Radio pioneered the use of satellite 
technology to distribute programming. The new ContentDepot system that 
the Public Radio Satellite System is launching continues this tradition 
of cutting edge technology. The satellite capacity that supports this 
system must be renewed and upgrades are necessary at the stations and 
the network operations level. Interconnection is vital to the delivery 
of the high quality programming that public broadcasting provides to 
the American people.
    This is a period of tremendous change. Digital is transforming the 
way we do things; new distribution avenues like digital satellite 
broadcasting and the Internet are changing how we define the business 
we are in; and, the concentration of ownership in commercial radio 
makes public radio in general, and Community Radio in particular, more 
important as a local voice than we have ever been. New Low Power FM 
stations are providing new local voices in their communities. Community 
radio is providing essential local emergency information, programming 
about the local impact of the major global events taking place, 
culturally appropriate information and entertainment in the language of 
the native culture, as well as helping to preserve cultures that are in 
danger of dying out. During the natural disasters of the last couple of 
years, radio proved once again to be the most dependable and available 
medium to get emergency information to the public.
    During these challenging times, the role of CPB as a convener of 
the system becomes even more important. The funding that it provides 
will allow the smaller stations to participate along with the larger 
stations which have more resources, as we move into a new era of 
communications.
    Thank you for your consideration of our testimony.
                                 ______
                                 
Prepared Statement of the NIH Task Force of the Bioengineering Division

    The NIH Task Force of the Bioengineering Division of the Basic 
Engineering Group of the Council on Engineering of ASME (``Task 
Force''), is pleased to provide comments on the bioengineering-related 
programs in the National Institutes of Health (NIH) fiscal year 2008 
budget request. The ASME Bioengineering Division is focused on the 
application of mechanical engineering knowledge, skills and principles 
to the conception, design, development, analysis and operation of 
biomechanical systems.

                      IMPORTANCE OF BIOENGINEERING

    Bioengineering is an interdisciplinary field that applies physical, 
chemical and mathematical sciences and engineering principles to the 
study of biology, medicine, behavior, and health. It advances knowledge 
from the molecular to the organ systems level, and develops new and 
novel biologics, materials processes, implants, devices, and 
informatics approaches for the prevention, diagnosis, and treatment of 
disease, for patient rehabilitation, and for improving health. 
Bioengineers have employed mechanical engineering principles in the 
development of many life-saving and life-improving technologies, such 
as the artificial heart, prosthetic joints and numerous rehabilitation 
technologies.

                               BACKGROUND

    The NIH is the world's largest and most eminent organization 
dedicated to improving health through medical science. During the last 
50 years, NIH has played a leading role in the major breakthroughs that 
have increased average life expectancy by 15 to 20 years.
    The NIH is comprised of different Institutes and Centers that 
support a wide spectrum of research activities including basic 
research, disease- and treatment-related studies, and epidemiological 
analyses. The missions of individual Institutes and Centers focus on 
either a particular organ (e.g. heart, kidney, eye), a given disease 
(e.g. cancer, infectious diseases, mental illness), or a stage of life 
(e.g. childhood, old age), or may encompass crosscutting needs (e.g., 
sequencing of the human genome and the National Institute of Biomedical 
Imaging and Bioengineering (NIBIB)).
    The total fiscal year 2008 NIH budget request is $28.85 billion, 
which represents a $330 million (1.1 percent) reduction from the $29.18 
billion approved in the fiscal year 2007 continuing joint resolution. 
While the Task Force is grateful to Congress for the unexpected $600 
million boost to NIH as it wrapped up the fiscal year 2007 
appropriations, we are greatly concerned about the decrease in funding 
for fiscal year 2008. Research and development is expected to account 
for 97 percent of the total fiscal year 2008 NIH budget, or $28.3 
billion. With this, the administration estimates that a total of 10,188 
new, competing research project grants (RPGs) could be supported, which 
is an increase of 566 RPGs over fiscal year 2007. While the overall 
fiscal year 2008 budget decreased compared to fiscal year 2007, the 
budgets allotted to some institutes and centers actually increased, 
while all others decreased. The largest increase went to the National 
Institute of Allergy and Infectious Disease (NIAID), which will receive 
$4.59 billion, a total that includes a $200 million contribution to the 
Global Fund for HIV/AIDS.
    The NIH Roadmap for biomedical research will receive $486 million 
in fiscal year 2008, which is an increase of $3 million from fiscal 
year 2007. Each institute and center will be required to contribute 1.3 
percent of its fiscal year 2008 budget to the NIH Roadmap initiative. 
Since all institutes and centers were freed of their obligation to 
transfer 1.2 percent of their budgets to this initiative in fiscal year 
2007, an effective 2.5 percent reduction in the budget of each will 
hence result.

                         NIBIB RESEARCH FUNDING

    The administration's fiscal year 2008 budget requests $300 million 
for the NIBIB, an increase of $4 million or 1.3 percent from the fiscal 
year 2007 continuing joint resolution. Taking into account the 3.7 
percent inflation rate (as estimated by the Bureau of Economic 
Analysis) this effectively amounts to a decrease in funding by 2.4 
percent. However, the number of research project applications to NIBIB 
continues to grow (a 5 percent increase was noted in fiscal year 2006 
over fiscal year 2005, for example). The decrease in the NIBIB budget 
combined with the increase in the number of NIBIB extramural research 
grant applications will result in a sharp decrease in the success rate 
for bioengineering-related grants. In fact, the success rate for 
applications to the NIBIB is already one of the lowest among all NIH 
institutes and centers (17 percent in fiscal year 2006 versus 20 
percent in fiscal year 2005).

                       TASK FORCE RECOMMENDATIONS

    The Task Force is concerned that bioengineering-based research 
continues to constitute a small portion of the total NIH budget. Yet 
there is an increasing need for advanced engineering concepts to be 
applied to basic and translational biomedical problems for the 
potential of recent biological advances to be realized. Moreover, the 
United States is rapidly falling behind our counterparts in the 
European Union and Pacific Rim with regards to bioengineering advances. 
Our request for increased bioengineering funding addresses these 
critical issues. The Task Force wishes to emphasize that, in many 
cases, bioengineering-based solutions to health care problems result in 
a reduction in health care costs. Therefore, we strongly urge Congress 
to provide increased funding for bioengineering within the NIBIB and 
across NIH.
    The NIBIB requires exceptional and urgent consideration for funding 
increases in the coming years due to its fiscal year 2006 application 
success rate of only 17 percent, which is sure to decrease even further 
for fiscal year 2007 and fiscal year 2008 given the proposed budget 
estimates. This rate is below average with respect to the NIH as a 
whole and is a direct manifestation of the continued growth of the 
bioengineering field outpacing funding increases to the NIBIB.
    While the Task Force supports new Federal proposals that seek to 
double Federal research and development in the physical sciences over 
the next decade, we believe that strong Federal support for 
bioengineering and the life sciences is especially essential to the 
health and competitiveness of the United States. The disturbing trend 
in the inflation rate outpacing the NIBIB budget increase rate will 
begin to reverse the tremendous gains the United States has made in the 
bioengineering field over the last decade. Four years of falling 
budgets are a sharp contrast from the 15 percent annual increases 
during the NIH doubling period and will have a long-lasting, 
deleterious impact.
    ASME International is a non-profit technical and educational 
organization with 125,000 members worldwide. The Society's members work 
in all sectors of the economy, including industry, academic, and 
government. This statement represents the views of the ASME NIH Task 
Force of the Bioengineering Division and is not necessarily a position 
of ASME as a whole.
                                 ______
                                 
         Prepared Statement of the National League for Nursing

    The National League for Nursing is the sole organization 
representing leaders in nursing education and nurse faculty across all 
the types of nursing programs in the United States. With more than 
1,100 nursing schools and health care agencies, some 20,000 individual 
members comprising nurses, educators, administrators, public members, 
and 18 constituent leagues, the National League for Nursing is the 
premier organization--established 114 years ago--dedicated to 
excellence in nursing education that prepares the nursing workforce to 
meet the needs of our diverse populations in an ever-changing health 
care environment. The NLN appreciates this opportunity to discuss the 
status of nursing education and the damage that could ensue to patients 
and our Nation's health care by the ill-considered cuts aimed at Title 
VIII.
    The NLN endorses the subcommittee's past policy strategies for 
health care capacity-building through nursing education. We likewise 
respect your recognition of the requisite role nurses play in the 
delivery of cost-efficient health care services and the generation of 
quality health outcomes.
    We are disturbed, however, that the 7-year and counting nursing 
shortage is outpacing the level of Federal resources and investments 
that have been expended by Congress to help alleviate the nationwide 
nursing scarcity. The NLN is gravely concerned that the 
administration's proposed fiscal year 2008 appropriations for nursing 
education are inconsistent with the health care reality facing our 
Nation. The President's budget proposes a decrease of funding of $44 
million (or 29 percent) for the Title VIII--Nursing Workforce 
Development Programs. This budget cut will diminish training and 
development, a shortsighted and hazardous course of action that 
potentially further jeopardizes the delivery of health care for the 
people in the United States.
    As the nursing community has pointed out many times before, more 
than three decades ago during another less serious nursing shortage, 
Congress appropriated $153 million for nurse education programs. In 
today's dollars, that amount would be worth more than $615 million--
four times the amount the Federal Government currently is spending on 
Title VIII programs.
    The National League for Nursing contends that the Federal strategy 
should be to broaden, not curtail, Title VIII initiatives by increasing 
investments to be consistent with national demand. We urge the 
subcommittee to fund the Title VIII programs at a minimum level of $200 
million for fiscal year 2008. The NLN also advocates that section 811 
of Title VIII--Advanced Education Nursing Program--be restored and 
funded at an augmented level equal to the other Title VIII programs.

              NURSE SHORTAGE AFFECTED BY FACULTY SHORTAGE

    The subcommittee is well aware that today's nursing shortage is 
real and unique from any experienced in the past with an aging 
workforce and too few people entering the profession at the rate 
necessary to meet growing health care requirements. NLN research 
provides evidence of a strong correlation between the shortage of nurse 
faculty and the inability of nursing programs to keep pace with the 
demand for new registered nurses (RNs). Without faculty to educate our 
future nurses, the shortage cannot be resolved.
    The NLN's Nursing Data Review 2004-2005.--Baccalaureate, Associate 
Degree, and Diploma Program revealed that graduations from RN programs 
contributed an estimated 84,878 additional prospective nurses to the RN 
labor supply falling far short of the Nation's demands. In its biennial 
10-year employment projections for 2004-2014, the U.S. Department of 
Labor's Bureau of Labor Statistics (BLS) reported that over the next 10 
years, about 70,000 new RN jobs and 50,000 replacement jobs will accrue 
each year, for a total of 120,000 RN job openings per year. Multiply 
that annual sum by 10 years, and BLS's model-based findings estimate 
that 1.2 million new RN workers will be needed from 2004-2014. This 
growth represents a 29 percent projected change over the next 10 years.
    The NLN's 2004-2005 data review shows that nursing school 
applications surged in recent years, rising more than 59 percent over 
the past decade. The 2004-2005 academic year was no exception as almost 
25,000 additional applications were submitted to nursing schools at all 
degree levels. Nonetheless, an estimated 147,000 qualified applications 
were turned away owing in large part to the lack of faculty necessary 
to teach additional students. Alarmingly too, this NLN review 
determined that new admissions fell by more than 27 percent in 2004-
2005 after 2 years of reported increases. The significant dip in 
admissions seems to mark a turning point, reinforcing that a key 
priority in tackling the nurse shortage has to be scaling up the 
capacity to accept qualified applicants.

                   TRENDS STRESSING FACULTY SHORTAGE

    It is not surprising that the problem of nurse faculty vacancies 
often is described as acute and as exacerbating the national nurse-
workforce shortfall. The NLN's research, reported in its Nurse 
Educators 2006: A Report of the Faculty Census Survey of RN and 
Graduate Programs, indicated that the nurse faculty vacancies in the 
United States continued to grow even as the numbers of full- and part-
time educators increased. The estimated number of budgeted, unfilled, 
full-time positions countrywide in 2006 was 1,390. This number 
represents a 7.9 percent vacancy rate in baccalaureate and higher 
degree programs, which is an increase of 32 percent since 2002; and a 
5.6 percent vacancy rate in associate degree programs, which translates 
to a 10 percent rise in the same period.
    The data in the 2006 faculty census survey describe several trends, 
of which the following three are critical:

                    AGING OF THE FACULTY POPULATION

    Nursing programs responding to the survey indicated that almost 
two-thirds of all full-time nurse faculty members were 45- to 60-years 
old and likely to retire in the next 5 to 15 years. A mean of 1.4 full-
time faculty members per program left their positions in 2006, with 24 
percent of these departures due to retirement. It is an open question 
where schools of nursing will find replacements for these experienced 
individuals.

                DECREASE IN DOCTORALLY PREPARED FACULTY

    Data show that nurse faculty are less well-credentialed in 2006 
than they were 4 years earlier when the last NLN faculty census was 
conducted. A little over 43 percent of full-time baccalaureate and 
higher degree program faculty hold earned doctorates; whereas only 6.6 
percent of associate degree program full-time faculty and 0.7 percent 
of diploma program full-time faculty are doctorally prepared. The 
overwhelming majority of the full-time faculty in associate degree (83 
percent) and diploma (92.6 percent) programs hold the master's degree 
as their highest earned credential. The master's degree was the most 
common credential among part-time faculty members.

                     INCREASE IN PART-TIME FACULTY

    Nearly 45 percent of the estimated mean number of faculty full-time 
equivalents are part-time faculty. Nationwide, the mean number of 
faculty members per institution had grown to 14.9 full-time and 12.1 
part-time faculty in 2006, compared to 12.3 full-time and 7.4 part-time 
in 2002. The estimated number of part-time baccalaureate faculty has 
grown 72.5 percent since 2002. Over 58 percent of baccalaureate and 
higher degree programs and almost half of associate degree programs 
(47.5 percent) reported hiring part-time faculty as their primary 
strategy to compensate for unfilled, budgeted, full-time positions. 
While the use of part-time faculty allows for greater flexibility, 
often they are not an integral part of the design, implementation, and 
evaluation of the overall nursing program.

                      THE FEDERAL FUNDING REALITY

    Today's undersized supply of appropriately prepared nurses and 
nursing faculty does not bode well for our Nation, where the shortages 
are deepening health disparities, inflated costs, and poor quality of 
health care outcomes. Congress moved in the right policy direction in 
passing the Nurse Reinvestment Act in 2002. That act made Title VIII 
programs a comprehensive system of capacity-building strategies to 
develop nurses by providing schools of nursing with grants to 
strengthen programs, through such activities as faculty recruitment and 
retention efforts, facility and equipment acquisition, clinical lab 
enhancements, and loans, scholarships and services that enable students 
to overcome obstacles to completing their nursing education programs. 
Yet, as the HRSA Title VIII data show, it is abundantly clear that 
Congress must step up in providing critical attention and significantly 
more funding to this ongoing systemic problem.
    Nursing Education Loan Repayment Program.--In fiscal year 2005, 
with 4,465 applicants to the Title VIII Nursing Education Loan 
Repayment Program, 803 awards were made (599 initial 2-year awards and 
204 amendment awards), or 18 percent of applicants received awards. In 
fiscal year 2006, there were 4,222 applicants to the program; 615 
awards were made (373 initial 2-year awards and 242 amendment awards) 
with 14.6 percent of applicants receiving awards.
    Nursing Scholarship Program.--In fiscal year 2005, 3,482 
applications were submitted to the Nursing Scholarship Program, and 212 
awards, or 6.1 percent of the applicants received scholarships. In 
fiscal year 2006, there were 3,320 applicants to the same program and 
218, or 6.6 percent, awards were.
    Advanced Education Nursing (AEN) Program.--This program supports 
the graduate education that is the foundation to professional 
development of advanced practice nurses, whether with clinical 
specialties or with a specialty in teaching. In fiscal year 2005, AEN 
supported 11,949 graduate nursing students across the specialties. The 
President's proposed fiscal year 2008 budget eliminates this program, 
which is fundamental to appropriately preparing future nursing faculty, 
the engine of the workforce pipeline. AEN must be restored and fully 
funded in order to prevent the Nation from losing ground in the effort 
to remedy the nurse and nurse faculty shortages.

             NATIONAL INSTITUTE OF NURSING RESEARCH (NINR)

    We would be remiss in not acknowledging that nursing research is an 
integral part of the effectiveness of nursing care. NINR provides the 
knowledge base for improving the quality of patient care and reducing 
health care costs and demands. Critical to enhancing research within 
the nursing profession is the infrastructure development that increases 
the pool of nurse investigators and nurse educators, expands programs 
to develop partnerships between research-intensive environments and 
smaller colleges and universities, and promotes career development for 
minority researchers. Yet, as noted by the expanding list of non-
nursing journals that publish the investigator findings of NINR-
sponsored research, an investment in NINR goes far beyond just the 
nursing community and produces research results for all health care 
providers.
    The relatively small investment made by the Federal Government in 
NINR is well justified for the outcomes received. For example, NINR has 
supported research that:
  --Led to nursing intervention enabling excellent metabolic control in 
        diabetic adolescents;
  --Devised ways to sustain reduced high blood pressure in young 
        African-American men;
  --Reduced the burdens of caregivers of persons with dementia or other 
        chronic care needs; and
  --Developed a successful, national model for Spanish speakers in a 
        community-based Arthritis Self-Management Program.
    As the only organization that collects data across all levels of 
the nursing education pipeline, the NLN can state with authority that 
the nursing shortage in this country will not be reversed until the 
concurrent shortage of qualified nurse educators is addressed. Without 
adequate faculty, there are simply too few spots in nursing education 
programs to train all the qualified applicants out there. This 
challenge requires millions of dollars of increased funding for the 
professional development of nurses. The NLN urges Congress to 
strengthen existing Title VIII nurse education programs by funding them 
at a minimum level of $200 million for fiscal year 2008.
    Your support will help ensure that nurses exist in the future who 
are prepared and qualified to take care of you, your family, and all 
those in this country who will need our care.
                                 ______
                                 
          Prepared Statement of the National Marfan Foundation

    Chairman Harkin, ranking member Specter, and members of the 
subcommittee, the National Marfan Foundation thanks you for the 
opportunity to submit testimony regarding the fiscal year 2008 budget 
for the National Heart, Lung and Blood Institute, the National 
Institute of Arthritis, Musculoskeletal and Skin Diseases, and the 
Centers for Disease Control and Prevention. We are extremely grateful 
for the subcommittee's strong support of the NIH and CDC, particularly 
as it relates to life threatening genetic disorders such as Marfan 
syndrome. Thanks to your leadership, we are at a time of unprecedented 
hope for Marfan syndrome patients and their families.
    It is estimated that 200,000 people in the United States are 
affected by the Marfan syndrome or a related disorder. Marfan syndrome 
is a genetic disorder of the connective tissue that manifests itself in 
many areas of body, including the heart, eyes, skeleton, lungs and 
blood vessels. It is a progressive condition that can cause 
deterioration in each of these body systems. The most serious and life-
threatening aspect of the syndrome however, is a weakening of the 
aorta. The aorta is the largest artery that takes oxygenated blood to 
the body from the heart. Over time, many Marfan syndrome patients 
experience a dramatic weakening of the aorta which can cause the vessel 
to dissect and tear.
    Fortunately, early surgical intervention can prevent a dissection 
and strengthen the aorta and the aortic valves. If preventive surgery 
is performed before a dissection occurs, the success rate of the 
procedure is over 95 percent. Unfortunately, if surgery is initiated 
after a dissection has occurred, the success rate drops below 50 
percent. Aortic dissection is a leading killer in the United States, 
and 20 percent of the people it affects have a genetic predisposition, 
like Marfan syndrome, to developing the complication.
    Fortunately, new research offers hope that a commonly prescribed 
blood pressure medication, losartan, might be effective in preventing 
this frequent and devastating event.

                NATIONAL HEART LUNG AND BLOOD INSTITUTE

    As NHLBI Director Dr. Elizabeth Nabel told the subcommittee during 
her appearance at the April 20th hearing on the ``Burden of Chronic 
Disease'' there is landmark clinical trial underway sponsored by 
NHLBI's Pediatric Heart Network to determine the effects of losartan on 
aortic growth:

    ``After the discovery that Marfan syndrome is associated with the 
mutation in the gene encoding a protein called fibrillin-1, researchers 
tried for many years, without success, to develop treatment strategies 
that involved repair of replacement of fibrillin-1. Recently, a major 
breakthrough occurred with the discovery that one of the functions of 
fibrillin-1 is to bind to another protein, TGF-beta, and regulate its 
effects. After careful analysis revealed aberrant TGF-beta activity in 
patients with Marfan syndrome, researchers began to concentrate on 
treating Marfan syndrome by normalizing the activity of TGF-beta. 
Losartan, which is known to affect TGF-beta activity, was tested in a 
mouse model of Marfan syndrome. The results, published only last April, 
showed that drug was remarkably effective in blocking the development 
of aortic aneurysms, as well as lung defects associated with the 
syndrome.
    Based on this promising finding, the NHLBI Pediatric Heart Network, 
is now undertaking a clinical trial of losartan in patients with Marfan 
syndrome. About 600 patients aged 6 months to 25 years will be enrolled 
and followed for 3 years. This development illustrates the outstanding 
value of basic science discoveries, and identifying new directions for 
clinical applications. Moreover, the ability to organize and initiate a 
clinical trial within months of such a discovery is testimony to 
effectiveness of the NHLBI Network in providing the infrastructure and 
expertise to capitalize on new findings as they emerge.''

    Dr. Hal Dietz, the Victor A. McKusick professor of genetics in the 
McKusick-Nathans Institute of Genetic Medicine at the Johns Hopkins 
University School of Medicine, and the director of the William S. 
Smilow Center for Marfan Syndrome Research, is the driving force behind 
this groundbreaking research. Dr. Dietz uncovered the role that 
fibrillin-1 and TGF-beta play in aortic enlargement, and demonstrated 
the benefits of losartan in halting aortic growth in mice. He is the 
reason we have reached this time of such promise, and we are proud to 
have supported his cutting-edge research for many years.
    We are also extremely grateful to Dr. Nabel and her colleagues at 
NHLBI for their leadership in advancing the losartan clinical trial. 
The Pediatric Heart Network, lead by Dr. Lynn Mahony and Dr. Gail 
Pearson, has demonstrated tremendous skill and dedication in 
facilitating this complex trial in a very short time-frame. We deeply 
value their hard work and commitment. NMF is a proud partner with NHLBI 
in supporting this promising research. The Foundation is actively 
supporting patient travel costs, and funding ancillary studies to the 
trial focused on additional manifestations of the Marfan syndrome that 
might be impacted losartan.
    Finally, we are excited that NHLBI has formed a ``Working Group on 
Research in Marfan Syndrome and Related Conditions'' jointly sponsored 
by the NMF. The panel is chaired by Dr. Dietz and comprised of experts 
in all aspects of basic and clinical science related to the syndrome. 
The mission of the Working Group is to identify current research 
opportunities and challenges with a 5-10 year horizon, and to make 
recommendations for areas that require leadership by the NHLBI in order 
to move forward. We look forward to partnering with NHLBI to advance 
the goals outlined by the Working Group.
    In order to support the important mission of the NHLBI, and its 
activities related to Marfan syndrome, NMF joins with the Ad Hoc Group 
for Medical Research, the Campaign for Medical Research, the Federation 
of American Societies for Experimental Biology, the National Health 
Council, and Research!America in recommending a 6.7 percent for NIH 
overall and NHLBI specifically in fiscal year 2008.
 national institute of arthritis and musckuloskeletal and skin diseases
    NMF is proud of its longstanding partnership with the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases. Dr. 
Steven Katz has been a strong proponent of basic research on Marfan 
syndrome during his tenure as NIAMS director and has generously 
supported several ``Conferences on Heritable Disorders of Connective 
Tissue.'' Moreover, the Institute has provided invaluable support for 
Dr. Dietz's mouse model studies. The discoveries of fibrillin-1, TGF-
beta, and their role in muscle regeneration and connective tissue 
function were made possible in part through collaboration with NIAMS.
    As the losartan clinical trail moves forward, we hope to expand our 
partnership with NIAMS to support ancillary studies that fall under the 
mission and jurisdiction of the Institute. One of the areas of great 
interest to researchers and patients, is the role that losartan may 
play in strengthening muscle tissue in Marfan patients. In response to 
our request for proposals for ancillary studies grants, NMF received 
applications focused on this area that scored extremely well under the 
peer review of our Scientific Advisory Board. We appreciate the 
subcommittee's ongoing support of NIAMS and our collaboration with the 
Institute on these emerging research opportunities.
    To support the mission of the Institute in fiscal year 2008, NMF 
recommends a 6.7 percent increase for NIAMS.

               CENTERS FOR DISEASE CONTROL AND PREVENTION

    We are grateful for the subcommittee's encouragement last year of 
collaborations between the CDC and the Marfan syndrome community. One 
of the most important things we can do to prevent untimely deaths from 
aortic aneurysms is to increase awareness of Marfan syndrome and 
related connective tissue disorders. Education and prevention are two 
of the cornerstone missions of the Foundation. However, despite our 
efforts to raise awareness among the general public and the health care 
community, we know of too many families who have lost a loved one 
because they did not know that they were affected.
    Recently, the NMF leadership traveled to Atlanta to visit with the 
Centers for Disease Control and Prevention to explore potential 
partnerships in the area of awareness and prevention of aortic 
dissections. We look forward to working with the National Center on 
Birth Defects and Developmental Disabilities (NCBDD) to prevent 
needless loss of life from the cardiovascular complications associated 
with Marfan syndrome. We applaud the leadership of the NCBDD's Division 
of Human Development and Disability for their interest in this area and 
appreciate the subcommittee's support of this partnership. We have 
discussed a number of potential collaborations with the CDC focused on 
the need for early diagnosis and treatment of Marfan syndrome, in order 
to enhance the quality and length of life for patients.
    In order to support the important work of the CDC, NMF joins with 
the ``CDC Coalition'' in recommending an appropriation of $10.7 billion 
for the agency in fiscal year 2008. We would also encourage a 
corresponding percentage increase for the NCBDD and its Division of 
Human Development and Disability.

                  ABOUT THE NATIONAL MARFAN FOUNDATION

    The NMF is a non-profit voluntary health organization founded in 
1981. NMF is dedicated to saving lives and improving the quality of 
life for individuals and families affected by the Marfan syndrome and 
related disorders. The Foundation has three major goals: (i) to provide 
accurate and timely information about the Marfan syndrome to affected 
individuals, family members, physicians and other health professionals; 
(ii) to provide a means for those with Marfan syndrome and their 
relatives to share in experiences, to support one another and to 
improve their medical care and (iii) to support and foster research.
                                 ______
                                 
       Prepared Statement of the ARCH National Respite Coalition

    Mr. Chairman, I am Jill Kagan, Chair of the ARCH National Respite 
Coalition, a network of respite providers, family caregivers, State and 
local agencies and organizations across the United States who support 
respite. This statement is presented on behalf of the undersigned 
organizations, many of which are members of the Lifespan Respite Task 
Force, a coalition of over 80 national and more than 100 State and 
local groups who supported the passage of the Lifespan Respite Care Act 
(Public Law 109-442). Together, we are requesting that the subcommittee 
include funding for the newly enacted Lifespan Respite Care Act in the 
fiscal year 2008 Labor, HHS and Education Appropriations bill at its 
modestly authorized level of $40,000,000. We join the 17 Members of the 
Senate who, along with Senator Hillary Rodham Clinton (D-NY) and 
Senator John Warner (R-VA), are sending a letter to the subcommittee 
making this same request.

                           WHO NEEDS RESPITE?

    A national survey found that 44 million family caregivers are 
providing care to individuals over age 18 with disabilities or chronic 
conditions (National Alliance for Caregiving [NAC] and AARP, 2004). In 
2001, the last year Federal data were collected, 9,400,000 children 
under age 18 were identified with chronic or disabling conditions 
(National Survey of Children with Special Health Care Needs, U.S. 
Health Resources and Services Administration, 2001). These surveys 
suggest that a conservative estimate of the Nation's family caregivers 
probably exceeds 50 million.
    Compound this picture with the growing number of caregivers known 
as the ``sandwich generation'' caring for young children as well as an 
aging family member. It is estimated that between 20 and 40 percent of 
caregivers have children under the age of 18 to care for in addition to 
a parent or other relative with a disability. And in the United States, 
6,700,000 children, with and without disabilities, are in the primary 
custody of an aging grandparent or other relative other than their 
parents.
    These family caregivers are providing about 80 percent of all long-
term care in the United States. It has been estimated that in the 
United States these family caregivers provide $306,000,000,000 in 
uncompensated care, an amount comparable to Medicare spending in 2004 
and more than twice what is spent nationwide on nursing homes and paid 
home care combined (Presentation by P.S Arno, PhD, Albert Einstein 
College of Medicine, January 2006).

                         WHAT IS RESPITE NEED?

    State and local surveys have shown respite to be the most 
frequently requested service of the Nation's family caregivers, 
including the most recent study, ``Evercare Study of Caregivers in 
Decline'' (Evercare and NAC, 2006). Yet respite is unused, in short 
supply, inaccessible, or unaffordable to a majority of the Nation's 
family caregivers. The 2004 survey of caregivers found that despite the 
fact that the most frequently reported unmet needs were ``finding time 
for myself,'' (35 percent), ``managing emotional and physical stress'' 
(29 percent), and ``balancing work and family responsibilities'' (29 
percent), only 5 percent of family caregivers were receiving respite 
(NAC and AARP, 2004).
    Barriers to accessing respite include reluctance to ask for help, 
fragmented and narrowly targeted services, cost, and the lack of 
information about how to find or choose a provider. Even when respite 
is an allowable funded service, a critically short supply of well 
trained respite providers may prohibit a family from making use of a 
service they so desperately need.
    Twenty of 35 state-sponsored respite programs surveyed in 1991 
reported that they were unable to meet the demand for respite services. 
In the last 15 years, we suspect that not too much has changed. A 
recent study conducted by the Family Caregiver Alliance identified 150 
family caregiver support programs in all 50 States and Washington, DC 
funded with State-only or State/Federal dollars. Most of the funding 
comes through the Federal National Family Caregiver Support Program. As 
a result, programs are administered by local area agencies on aging and 
primarily serve the elderly. And again, some programs provide only 
limited respite, if at all. Only about one-third of these 150 
identified programs serve caregivers who provide care to adults age 18-
60 who must meet stringent eligibility criteria. As the report 
concluded, ``State program administrators see the lack of resources to 
meet caregiver needs in general and limited respite care options as the 
top unmet needs of family caregivers in the States.''
    The 25 State respite coalitions and other National Respite Network 
members confirm that long waiting lists or turning away of clients 
because of lack of resources is still the norm.
    While most families take great joy in helping their family members 
to live at home, it has been well documented that family caregivers 
experience physical and emotional problems directly related to their 
caregiving responsibilities. Three-fifths of family caregivers age 19-
64 surveyed recently by the Commonwealth Fund reported fair or poor 
health, one or more chronic conditions, or a disability, compared with 
only one-third of non-caregivers (Ho, Collins, Davis and Doty, 2005). A 
study of elderly spousal caregivers (aged 66-96) found that caregivers 
who experience caregiving-related stress have a 63 percent higher 
mortality rate than noncaregivers of the same age (Schulz and Beach, 
December 1999).
    Supports that would ease their burden, most importantly respite 
care, are too often out of reach or completely unavailable. Even the 
simple things we take for granted, like getting enough rest or going 
shopping, become rare and precious events. One Massachusetts mother of 
a seriously ill child spoke to the demands of constant caregiving: ``I 
recall begging for some type of in-home support. It was during this 
period when I fell asleep twice while driving on the Massachusetts 
Turnpike on the way to appointments at Children's Hospital. The lack of 
respite put our lives and the lives of everyone driving near me at 
risk.''
    Restrictive eligibility criteria also preclude many families from 
receiving services or continuing to receive services they once were 
eligible for. A mother of a 12-year-old with autism was denied 
additional respite by her State DD (Developmental Disability) agency 
because she was not a single mother, was not at poverty level, wasn't 
exhibiting any emotional or physical conditions herself, and had only 
one child with a disability. As she told us, ``Do I have to endure a 
failed marriage or serious health consequences for myself or my family 
before I can qualify for respite? Respite is supposed to be a 
preventive service.''
    For the millions of families of children with disabilities, respite 
has been an actual lifesaver. However, for many of these families, 
their children will age out of the system when they turn 21 and they 
will lose many of the services, such as respite, that they currently 
receive. In fact, 46 percent of U.S. State units on aging identified 
respite as the greatest unmet need of older families caring for adults 
with lifelong disabilities. An Alabama mom of a 19-year-old-daughter 
with multiple disabilities who requires constant care recently told us 
about her fears at a respite summit in Alabama. ``My daughter Casey has 
cerebral palsy, she does not communicate, she is incontinent she eats a 
pureed diet, she utilizes a wheelchair, she is unable to bathe or dress 
herself. At 5 feet 5 inches and 87 pounds I carry her from her bedroom 
to the bathroom to bathe her, and back again to dress her. Without 
respite services, I do not think I could continue to provide the 
necessary long-term care that is required for my daughter. As I age, I 
do wonder how much longer I will be able to maintain my daily ritual as 
my daughter's primary caregiver.''
    Disparate and inadequate funding streams exist for respite in many 
States. But even under the Medicaid program, respite is allowable only 
through State waivers for home and community-based care. Under these 
waivers, respite services are capped and limited to narrow eligibility 
categories. Long waiting lists are the norm.
    Respite may not exist at all in some States for adult children with 
disabilities still living at home, or individuals under age 60 with 
conditions such as ALS, MS, spinal cord or traumatic brain injuries, or 
children with serious emotional conditions. In Tennessee, a young woman 
in her twenties gave up school, career and a relationship to move in 
and take care of her 53 year-old mom with MS when her dad left because 
of the strain of caregiving. She went for years providing constant care 
to her mom with almost no support. Now 31, she wrote, ``And I was 
young--I still am--and I have the energy, but--it starts to weigh. 
Because we've been able to have respite care, we've developed a small 
pool of people and friends that will also come and stand in. And it has 
made all the difference.''

              RESPITE BENEFITS FAMILIES AND IS COST SAVING

    Respite has been shown to improve the health and well-being of 
family caregivers that in turn helps avoid or delay out-of-home 
placements, such as nursing homes or foster care, minimizes the 
precursors that can lead to abuse and neglect, and strengthens 
marriages and family stability.
    The budgetary benefits that accrue because of respite are just as 
compelling, especially in the policy arena. Delaying a nursing home 
placement for just one individual with Alzheimer's or other chronic 
condition for several months can save government long-term care 
programs thousands of dollars. Moreover, data from an ongoing research 
project of the Oklahoma State University on the effects of respite care 
found that the number of hospitalizations, as well as the number of 
medical care claims decreased as the number of respite care days 
increased (fiscal year 1998 Oklahoma Maternal and Child Health Block 
Grant Annual Report, July 1999). A Massachusetts social services 
program designed to provide cost-effective family-centered respite care 
for children with complex medical needs found that for families 
participating for more than 1 year, the number of hospitalizations 
decreased by 75 percent, physician visits decreased by 64 percent, and 
antibiotics use decreased by 71 percent (Mausner, S., 1995).
    In the private sector, a study by Metropolitan Life Insurance 
Company and the National Alliance for Caregivers found that U.S. 
businesses lose from $17,100,000,000 to $33,600,000,000 per year in 
lost productivity of family caregivers (MetLife and National Alliance 
for Caregiving, 2006). In an Iowa survey of parents of children with 
disabilities, a significant relationship was demonstrated between the 
severity of a child's disability and their parents missing more work 
hours than other employees. They also found that the lack of available 
respite care appeared to interfere with parents accepting job 
opportunities. (Abelson, A.G., 1999) Offering respite to working family 
caregivers could help improve job performance and employers could 
potentially save billions.

                LIFESPAN RESPITE CARE PROGRAM WILL HELP

    The Lifespan Respite Care Act is based on the success of statewide 
Lifespan Respite programs in four States: Oregon, Nebraska, Wisconsin 
and Oklahoma. Michigan passed State Lifespan Respite legislation in 
2004 but has not provided the funding to implement the program, and a 
State Lifespan Respite bill is currently pending in the Arizona State 
legislature.
    Lifespan Respite, which is a coordinated system of community-based 
respite services, helps States use limited resources across age and 
disability groups more effectively, instead of each separate State 
agency or community-based organization being forced to constantly 
reinvent the wheel or beg for small pots of money. Pools of providers 
can be recruited, trained and shared, administrative burdens can be 
reduced by coordinating resources, and the savings used to fund new 
respite services for families who may not currently qualify for any 
existing Federal or State program.
    The State Lifespan Respite programs provide best practices on which 
to build a national respite policy. The programs have been recognized 
by prominent policy organizations, including the National Conference of 
State Legislatures, which recommended the Nebraska program as a model 
for State solutions to community-based long-term care. The National 
Governors Association and the President's Committee for People with 
Intellectual Disabilities also have highlighted lifespan respite 
systems as viable solutions. And most recently, the White House 
Conference on Aging recommended enactment of the Lifespan Respite Care 
Act to Congress.
    The purpose of the new law is to expand and enhance respite 
services, improve coordination, and improve respite access and quality. 
Under a competitive grant program, States would be required to 
establish State and local coordinated Lifespan Respite care systems to 
serve families regardless of age or special need, provide new planned 
and emergency respite services, train and recruit respite workers and 
volunteers and assist caregivers in gaining access to services. Those 
eligible would include family members, foster parents or other adults 
providing unpaid care to adults who require care to meet basic needs or 
prevent injury and to children who require care beyond that required by 
children generally to meet basic needs.
    The Federal Lifespan Respite program would be administered by the 
U.S. Department of Health and Human Services [HHS], which would provide 
competitive grants to statewide agencies through Aging and Disability 
Resource Centers working in collaboration with State respite coalitions 
or other State respite organizations. The program is authorized at 
$40,000,000 in fiscal year 2008 rising to $95,000,000 in fiscal year 
2011.
    No other Federal program mandates respite as its sole focus. No 
other Federal program would help ensure respite quality or choice, and 
no current Federal program allows funds for respite start-up, training 
or coordination or to address basic accessibility and affordability 
issues for families. We urge you to include $40,000,000 in the fiscal 
year 2008 Labor, HHS, Education appropriations bill so that Lifespan 
Respite Programs can be replicated in the States and more families, 
with access to respite, will be able to continue to play the 
significant role in long-term care that they are fulfilling today.

                         NATIONAL ORGANIZATIONS

    American Association of People with Disabilities; American 
Association on Intellectual and Developmental Disabilities; American 
Dance Therapy Association;American Network of Community Options and 
Resources; American Psychological Association; Association of 
University Centers on Disabilities; Autism Society of America; Bazelon 
Center for Mental Health Law; Christopher and Dana Reeve Foundation; 
Chronic Illness Coalition; Easter Seals; Epilepsy Foundation; Family 
Voices; Generations United; National Association of Councils on 
Developmental Disabilities; National Association for Home Care and 
Hospice; National Association of Social Workers; National Association 
of State Head Injury Administrators; National Council on Aging; 
National Down Syndrome Congress; National Down Syndrome Society; 
National Family Caregivers Association; National Gerontological Nursing 
Association; National Multiple Sclerosis Society; National Organization 
For Empowering Caregivers; National Rehabilitation Association; 
National Respite Coalition; National Spinal Cord Injury Association; 
Older Women's League; Paralyzed Veterans of America; The ALS 
Association; The Arc of the United States; United Cerebral Palsy; Well 
Spouse Association; Wilson's Disease Association.

                     STATE AND LOCAL ORGANIZATIONS

    Alabama Lifespan Respite Resource Network; Allegheny County Respite 
Care Coalition, Pittsburgh, PA; Arizona Lifespan Respite Coalition (in 
formation); Catholic Family and Child Services, Yakima, WA; East 
Central Alabama United Cerebral Palsy; Easter Seals of Southern 
Georgia; Families Together, Inc., Wichita, Kansas; Family Voices 
Vermont; Illinois Respite Coalition; Iowa Respite and Crisis Care 
Coalition; Kansas Respite Coalition; Louisiana Developmental 
Disabilities Council; Maryland Respite Care Coalition; Michigan Respite 
Resource Network; Nebraska Respite Coalition; New Jersey Family Support 
Center; New Jersey Lifespan Respite Task Force; North Carolina Respite 
and Crisis Care Coalition; Oklahoma Respite Resource Network; Parent to 
Parent of Vermont; Partnership for People with Disabilities, Virginia 
Commonwealth University; Pennsylvania Respite Coalition; Respite and 
Crisis Care Coalition of Washington; Respite Care Association of 
Wisconsin; South Carolina Respite Coalition; Tennessee Respite 
Coalition; Tennessee Voices for Children; The Arc of King County, WA; 
United Cerebral Palsy of Huntsville and Tennessee Valley, Huntsville, 
AL; United Cerebral Palsy of Pennsylvanial; and Virginia Respite 
Resource Project.
                                 ______
                                 
          Prepared Statement of the National Sleep Foundation

              SUMMARY OF FISCAL YEAR 2008 RECOMMENDATIONS

    Provide a $10,000,000 increase in funding in fiscal year 2008 to 
the Centers for Disease Control and Prevention (CDC) to undertake data 
collection activities and create awareness and training programs 
related to sleep, sleep disorders and the consequences of sleep 
deprivation to improve public health and safety.
    Encourage CDC to continue to take a leadership role in partnering 
with other Federal agencies and voluntary health organizations in the 
National Sleep Awareness Roundtable to create collaborative sleep 
education and public awareness initiatives. In view of CDC's success 
with similar initiatives, encourage the CDC to financially support the 
Roundtable and its initiatives.
    Provide direction and funding of $1,000,000 to United States 
Surgeon General to develop and implement steps leading to the 
development of a report on sleep and sleep disorders in order to call 
attention to the public health impact of inadequate and disorder sleep 
in order to protect and advance the health and safety of the Nation.
    Mr. Chairman and members of the subcommittee, thank you for 
allowing me to submit testimony on behalf of the National Sleep 
Foundation (NSF). I am Dr. Barbara Phillips, Chair of the NSF Board of 
Directors and professor at the University of Kentucky College of 
Health, Department of Preventive Medicine. NSF is an independent, non-
profit organization that is dedicated to improving public health and 
safety by achieving understanding of sleep and sleep disorders, and by 
supporting sleep-related education, research, and advocacy. We work 
with sleep specialists and other health care professionals, 
researchers, patients and drowsy driving victims throughout the country 
as well as collaborate with many government, voluntary organizations 
and corporations to prevent health and safety problems related to sleep 
deprivation and untreated sleep disorders.
    Sleep problems, whether in the form of medical disorders or related 
to work schedules and a 24/7 lifestyle, are ubiquitous in our society. 
It is estimated that sleep-related problems affect 50 to 70 million 
Americans of all ages and socioeconomic classes. Sleep disorders are 
common in both men and women; however, important disparities in 
prevalence and severity of certain sleep disorders have been identified 
in minorities and underserved populations. Despite the high prevalence 
of sleep disorders, the overwhelming majority of sufferers remain 
undiagnosed and untreated, creating unnecessary public health and 
safety problems, as well as increased health care expenses. Surveys 
conducted by the National Sleep Foundation show that more than 60 
percent of adults have never been asked about the quality of their 
sleep by a physician, and fewer than 20 percent have ever initiated 
such a discussion.
    Additionally, Americans are chronically sleep deprived as a result 
of demanding lifestyles and a lack of education about the impact of 
sleep loss. Sleepiness affects vigilance, reaction times, learning 
abilities, alertness, mood, hand-eye coordination, and the accuracy of 
short-term memory. Sleepiness, as a result of untreated disorders or 
sleep deprivation, has been identified as the cause of a growing number 
of on-the-job accidents and automobile crashes.
    According to the National Highway Traffic Safety Administration's 
2002 National Survey of Distracted and Drowsy Driving Attitudes and 
Behaviors, an estimated 1.35 million drivers have been involved in a 
drowsy driving crash in the past 5 years. According to NSF's 2006 Sleep 
in America poll, 51 percent of all adolescents who drive report that 
they have driven drowsy at least once in the past year. In fact, 15 
percent of drivers in 10th to 12th grades say they drive drowsy once a 
week or more! A large number of academic studies have linked work 
accidents, absenteeism, and poor school performance to sleep 
deprivation and circadian effects.
    The recent Institute of Medicine (IOM) report, Sleep Disorders and 
Sleep Deprivation: An Unmet Public Health Problem, found the cumulative 
effects of sleep loss and sleep disorders represent an under-recognized 
public health problem and have been associated with a wide range of 
negative health consequences, including hypertension, diabetes, 
depression, heart attack, stroke, and at-risk behaviors--all of which 
represent long-term targets of the Department of Health and Human 
Services (HHS). Moreover, the personal and national economic impact is 
staggering. The IOM estimates that the direct and indirect costs 
associated with sleep disorders and sleep deprivation total hundreds of 
billions of dollars annually.
    Sleep science and government reports have clearly demonstrated the 
importance of sleep to health, safety, productivity and well-being, yet 
studies continue to show that millions of Americans are at risk for 
serious health and safety consequences of untreated sleep disorders and 
inadequate sleep. Unfortunately, despite recommendations in numerous 
Federal reports, there are no on-going national educational programs 
regarding sleep and fatigue issues aimed at the general public, health 
care professional, underserved communities or at-risk groups.
    NSF believes that every American needs to understand that good 
health includes healthy sleep, just as it includes regular exercise and 
balanced nutrition. We must elevate sleep to the top of the national 
health agenda. We need your help to make this happen.
    Our biggest challenge is bridging the gap between the outstanding 
scientific advances we have seen in recent years and the level of 
knowledge about sleep held by health care practitioners, educators, 
employers, and the general public. Because resources are limited and 
the challenges great, we think creative and new partnerships are needed 
to fully develop sleep awareness, education, and training initiatives. 
Consequently, the NSF is spearheading two important initiatives to 
raise public and physician awareness of the importance of sleep to the 
health, safety and well-being of the Nation.
    First, for the last 3 years, Congress has recommended that the CDC 
support activities related to sleep and sleep disorders. As a result, 
CDC's National Center for Chronic Disease Prevention and Health 
Promotion has been collaborating with more than twenty voluntary 
organizations and Federal agencies to form the National Sleep Awareness 
Roundtable (NSART), which was officially launched in March of this 
year. NSART is currently working through four task forces--public 
awareness, research, patient access to care, and public policy--to 
develop a National Action Plan. This document will address what is 
required to organize a successful collaboration to implement effective 
public and professional awareness and education initiatives to improve 
sleep literacy and healthy sleep behaviors. NSART is seeking to expand 
its membership by reaching out to new organizations and State and 
Federal agencies that are interested in raising awareness of sleep 
issues and implementing NSART's National Action Plan.
    The CDC has taken initial steps to begin to consider how sleep 
affects public health issues, but it needs appropriate resources to 
take additional actions, as recommended by the IOM and other 
governmental reports. Currently, the CDC budget does not include a line 
item for sleep-related activities.
    With adequate resources, the CDC could:
  --Add sleep-related items to established surveillance systems to 
        build the evidence base for the prevalence of sleep disorders 
        and their co-morbidities in order to increase awareness of 
        these issues on the national, State, and local levels.
  --Support the development of targeted approaches for delivering 
        messages to promote sleep, along with exercise and nutrition, 
        as a healthy behavior, and for increasing public and 
        professional education and awareness regarding the public 
        health impact of untreated sleep disorders and chronic sleep 
        loss.
  --Develop training materials for health care professionals regarding 
        the signs and symptoms of sleep disorders, as well as 
        countermeasures for drowsy driving and workplace accidents 
        related to sleep loss, shift work, and long work hours.
  --Increase and enhance fellowship opportunities to attract promising 
        researchers at universities and colleges across the country to 
        conduct epidemiological activities and health cost assessments 
        regarding sleep.
    NSF and members of the National Sleep Awareness Roundtable believe 
that a partnership with CDC is critical to address the public health 
impact of sleep and sleep disorders. We hope that the committee will 
provide funding of $10,000,000 to the CDC to begin programs as outlined 
here and to support efforts developed by NSART through a cooperative 
agreement similar to other roundtables in which CDC participates.
    Second, at the National Institutes of Health's Frontiers of 
Knowledge in Sleep and Sleep Disorders conference in 2004, the U.S. 
Surgeon General acknowledged widespread illiteracy in our country 
regarding sleep loss and untreated sleep disorders. He emphasized that 
sleep problems are easily related to the three top areas of the 
national health agenda: prevention, preparedness, and health 
disparities. Prevention of some of our Nation's most pressing health 
problems would be fostered by attending to sleep disorders. Sleep 
deprivation and fatigue are major barriers to maximizing preparedness 
and response in times of crisis. Finally, like many health and safety 
concerns, access to knowledge and medical care for sleep problems is 
beyond the reach of many Americans.
    For the last 2 years, Congress has directed the Office of the 
Surgeon General to help promote sleep as a public health concern 
through the development of a Surgeon General's Report on Sleep and 
Sleep Disorders, in order to call attention to the importance of sleep 
and develop strategies to protect and advance the health and safety of 
the Nation. The Surgeon General has expressed interest in addressing 
this issue through the development of a conference or workshop on how 
sleep impacts public health, but currently lacks the funding to 
proceed.
    Therefore, NSF respectfully requests that the committee provide 
direction and $1,000,000 in funding to the Office of the Surgeon 
General to develop a workshop and a call to action related to sleep and 
public health, in preparation for a Report on Sleep and Sleep 
Disorders.
    The IOM report includes important recommendations that support the 
sprit of these efforts and other specific actions to be taken by the 
CDC and the Office of the Surgeon General to raise awareness of sleep 
health and sleep disorders and to collect surveillance data to evaluate 
future education and intervention initiatives. CDC and the Surgeon 
General must receive direction and appropriate funding in order to 
continue partnering with voluntary health organizations and State and 
Federal agencies to increase support for initiatives that help ensure 
the health and safety of all Americans.
    Thank you again for the opportunity to present you with this 
testimony.
                                 ______
                                 
  Prepared Statement of the National Technical Institute for the Deaf

    Mr. Chairman and members of the committee: I am pleased to present 
the fiscal year 2008 budget request for the National Technical 
Institute for the Deaf, one of eight colleges of the RIT, in Rochester, 
NY. We serve the university needs of approximately 1,100 deaf/hard-of-
hearing students from across the nation and 150 hearing students, on a 
campus of over 14,000 students. Created by Congress, we provide 
postsecondary technical education to prepare deaf/hard-of-hearing 
students for successful employment.
    NTID has fulfilled this mandate with distinction for 39 years.

                             BUDGET REQUEST

    NTID's fiscal year 2008 request is $60,757,000. This consists of 
$59,052,000 for continuing operations and $1,705,000 for construction 
projects initiating replacement of aging mechanical systems. The NTID 
request and the President's are shown below.

----------------------------------------------------------------------------------------------------------------
                                                             Operations        Construction          Total
----------------------------------------------------------------------------------------------------------------
NTID request...........................................        $59,052,000         $1,705,000        $60,757,000
President's Request....................................         55,349,000            913,000         56,262,000
                                                        --------------------------------------------------------
      Difference.......................................          3,703,000            792,000          4,495,000
----------------------------------------------------------------------------------------------------------------

    We are respectfully requesting that the committee restore the 
appropriation to the NTID requested level. Our operations request does 
not include additional funding for new academic programs or headcount. 
Instead, we are committed to fund all program improvements and 
increases in headcount, if any, through the reallocation of existing 
resources.
    We commit because we have consistently minimized requests. From 
fiscal year 2003 to fiscal year 2007 we saved of $6.2 million by 
increasing revenues and reducing/reallocating headcounts. These 
difficult savings controlled budget requests while allowing expansion 
in areas such as speech-to-test services for deaf/hard-of-hearing 
students who do not know sign language.
    We are proud of those accomplishments; however, those actions leave 
limited flexibility regarding what we respectfully submit is inadequate 
funding proposed in the President's budget. Significant reductions 
threaten our vitality, and leave us with options such as the following:
    1. Not Funding Technology Needs.--Student curricula demand state-
of-the-art technology updates to prepare students for jobs. For deaf/
hard-of-hearing students, technology to support the delivery of 
instruction is critical. We spend $1,000,000/year for technology; 
eliminating that would reduce programming development and quality.
    2. Not Supporting Endowment Allocations.--The Education of the Deaf 
Act authorizes matching private donations from appropriations, to 
reduce dependence on Federal funds. In fiscal year 2006, NTID matched 
over $900,000; we do not want to stop this practice.
    3. Not Supporting Outreach Efforts, Which Impact Future 
Enrollment.--Approximately $542,000 supports six programs designed to: 
attract junior/senior high school students to NTID; create a Community 
College Referral Program; and establish a Summer English Institute. All 
are designed to increase future enrollments.
    4. It Does Not Include a Fair Labor Standards Act (FLSA) Lawsuit 
Against RIT With a $2.5 Million Settlement Proposal Announced in March, 
2007.--It affects 170 current RIT employees including about 140 NTID 
employees (mostly sign language interpreters), and others who have 
worked for NTID within the last 6 years. A proportion of the settlement 
may be paid by NTID in fiscal year 2008; the exact amount is to be 
determined.
    With the reclassification of positions from exempt-from-overtime to 
non-exempt-from-overtime, we expect an increase in our compensation 
expenses. The financial impact is to be determined; however, its impact 
is immediate, beginning April 16, 2007.
    5. It Does Not Recognize the Effect of Inflation and the Impact of 
Freezing Positions.--NTID budgeted a 3 percent salary increase in 
fiscal year 2007, but the RIT increase was 3.5 percent; we follow RIT 
per our Department of Education agreements. At level fiscal year 2008 
funding we will consider freezing open positions, including those we 
have aggressively filled such as speech-to-text services which expanded 
in response to an Office of Civil Rights ruling.
    NTID expenses are driven by inflationary pressures. We must fund 
salary, health care, and energy costs increases, and the rising costs 
of RIT services, which are subject to the same pressures. Taken 
together, these costs represent over 80 percent of NTID's total 
expenditures.
    The President's request for fiscal year 2008 ignores inflationary 
increases and returns to fiscal year 2006 levels. Our requested 
increase of $3,703,000 in fiscal year 2008 operations over that fiscal 
year 2006 level is the equivalent of having obtained an increase of 3.3 
percent both from fiscal year 2006 to fiscal year 2007 (which we did 
not receive) and from fiscal year 2007 to fiscal year 2008. We believe 
these requests are supported by the rationale above on the negative 
impact of various potential reductions.
    Regarding construction, the President's request partially funds the 
$1.7 million needed to replace mechanical heating, ventilation, and 
air-conditioning systems (well past their expected lives in 40 year old 
buildings) and the delivery of energy to NTID buildings. The systems 
have been well maintained but on-going maintenance difficulties dictate 
replacement at this time.

                               ENROLLMENT

    Total enrollment is at 1,250 for school year 2006-2007 (fiscal year 
2007), and was 1,256 students last year. NTID anticipates maintaining 
or increasing enrollment for school year 2007-2008 (fiscal year 2008). 
A 5-year summary of student enrollment follows.

                                                            NTID ENROLLMENTS--5 YEAR NUMBERS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                      Deaf/Hard-of-Hearing Students                 Hearing Students
                                                              --------------------------------------------------------------------------------   Grand
                         School Year                                                                       Interpreting                          Total
                                                               Undergrad   Grad RIT     MSSE     Subtotal     Program       MSSE     Subtotal
--------------------------------------------------------------------------------------------------------------------------------------------------------
2002-3.......................................................      1,093         29         16      1,138           65          28         93      1,231
2003-4.......................................................      1,064         45         41      1,150           92          28        120      1,270
2004-5.......................................................      1,055         42         49      1,146          100          35        135      1,281
2005-6.......................................................      1,013         53         38      1,104          116          36        152      1,256
2006-7.......................................................      1,017         47         31      1,095          130          25        155      1,250
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The number of students studying in our interpreting program has 
grown substantially, the number in our graduate secondary teacher 
preparation program--MSSE--has fluctuated (totaling both MSSE columns 
above), and the sub-total of deaf/hard-of-hearing students has declined 
from 1,138 in 2002-2003 to 1,095 in 2006-2007, a decline of 43 
students. However, the decline in enrollment of deaf/hard-of-hearing 
students parallels almost one-for-one the drop in international 
students from 90 enrolled in 2002-2003 to 42 enrolled in 2006-2007, a 
decline of 48 students. A change in the Education of the Deaf Act 
increased the surcharge on tuition for international students from 50 
percent to 100 percent, resulting in the significant decline.

       INCREASING NUMBERS OF STUDENTS WITH SECONDARY DISABILITIES

    NTID is working with significantly increased numbers of students 
with disabilities in addition to deafness. The table shows the number 
and percent of students receiving services from the RIT Disability 
Services Office, which serves students with physical or mental 
impairments that limit one or more major life activities. Their 
services assure equal access to education based upon legal foundations 
established by Federal law--the Rehabilitation Act of 1973 including 
section 504, and the Americans with Disabilities Act of 1990.

 NUMBER AND PERCENT OF STUDENTS RECEIVING SECONDARY DISABILITY SERVICES
------------------------------------------------------------------------
                     Year                          Number      Percent
------------------------------------------------------------------------
1998-1999.....................................           33          3.0
1999-2000.....................................           57          5.0
2000-2001.....................................           82          7.6
2001-2002.....................................           78          7.2
2002-2003.....................................           97          8.6
2003-2004.....................................           95          8.7
2004-2005.....................................          110         10.3
2005-2006.....................................          129         12.7
------------------------------------------------------------------------

    While we are unable to calculate the additional budgetary costs, it 
is clear that services are increasing significantly year-by-year, with 
associated increased costs.

                        STUDENT ACCOMPLISHMENTS

    Our recently reported placement rate indicates that 95 percent of 
NTID's fiscal year 2005 graduates in the labor force were employed 
(using the methodology of the Bureau of Labor Statistics) in jobs 
commensurate with the level of their academic training. Over the last 5 
years, a large proportion (83 percent) were employed in science, 
engineering, business, and visual communications.
    In fiscal year 2005, new research conducted with the Social 
Security Administration and Cornell University examined 10,196 
graduates and withdrawals spanning 25 years. It shows that graduation 
from NTID has significant economic benefits over a lifetime of work. 
Baccalaureate graduates earn, on average during their peak earning 
years, $12,020 more per year than students who attend, but withdraw 
without a degree; sub-baccalaureate graduates earn $4,762 more. 
Students who withdraw experience twice the rate of unemployment as 
graduates.
    NTID clearly makes a significant, positive difference in the 
earnings, and in turn in the lives of those who graduate.
    While 60 percent of students attending NTID receive benefits 
through the Supplemental Security Income program (SSI), by the time 
they are at age 50, less than 3 percent of graduates continue to draw 
SSI benefits. Graduates also access Social Security Disability 
Insurance (SSDI), fundamentally an unemployment benefit, at far lesser 
rates than withdrawals. By age 50, withdrawals were twice as likely to 
be receiving SSDI as degree graduates.
    A large percentage of non-graduates will continue to depend heavily 
on Federal income support throughout their lives. But NTID graduation 
significantly reduces dependence on welfare programs. Considering the 
added taxes graduates pay as a result of their increased earnings, and 
the savings derived from reduced dependency on the Federal income 
support programs, the Federal investment in NTID returns significant 
societal dividends.

                            NTID BACKGROUND

    Academic Programs.--NTID offers high quality, career-focused, 
associate degree programs that lead to placement in well-paying 
technical careers. A cooperative education component ties closely to 
high demand employment opportunities. We are expanding transfer 
associate degree programs to better serve the higher achieving segment 
of our student population who seek bachelors and masters degrees in an 
increasingly demanding marketplace. These transfer programs provide for 
seamless transition to baccalaureate studies. Finally, we support 
students in RIT baccalaureate programs. One of NTID's greatest 
strengths is its outstanding track record of assisting high-potential 
students to gain admission to and to graduate from the other colleges 
of RIT at rates that are better than their hearing peers.
    Research.--The research program and agenda are guided and organized 
according to these general research areas: Language and Literacy, 
Teaching and Learning, Socio-cultural Influences, Career Development, 
Technology Integration, and Institutional Research. All benefit 
enrolled students as well as deaf/hard-of-hearing adults throughout the 
country.
    Outreach.--Extended outreach activities to junior and senior high 
school students, expand their horizons regarding a college education.
    Student Life.--The new Student Development Center, funded by a $2.0 
million gift from a private individual and $1.5 million fiscal year 
2005 Federal appropriations has been occupied. Our activities foster 
student leadership and community service, and providing opportunities 
to explore other educational interests.

                                SUMMARY

    The fiscal year 2008 request will allow NTID to continue its 
mission of preparing deaf/hard-of-hearing people to enter the workplace 
and society and compete with their hearing peers. Our alumni have 
demonstrated that they can achieve full independence and become 
contributing members of society; they can earn a living and live a 
satisfying life as a result of the postsecondary education received at 
NTID. Collaborative research between NTID and the Social Security 
Administration shows that NTID graduates over their lifetimes are 
employed at a much higher rates, earn substantially more (therefore 
paying significantly more in taxes), and participate at a much lower 
rate in Federal welfare programs.
    We are hopeful that the members of the committee will agree that 
NTID, with its outstanding record of service to deaf/hard-of-hearing 
people, remains deserving of their support and confidence.
                                 ______
                                 
Prepared Statement of the National Tuberculosis Controllers Association

    The National Tuberculosis Controllers Association (NTCA) is pleased 
to submit our recommendations for TB control programs in the Labor 
Health and Human Services and Education Appropriations subcommittee 
purview.
    The National Tuberculosis Controllers Association (NTCA) is a 
membership organization composed of persons who are working, or have 
worked in Tuberculosis Control programs in the United States and it's 
Pacific Affiliated Islands. Membership is also extended to our partners 
in other TB-related organizations and to any other persons who have 
interest in Tuberculosis control issues.
    The United States is now facing unprecedented threats in our 
progress towards the goal of eliminating TB and even our fundamental 
responsibility to control TB, due to regressive cuts to programs that 
are essential to contain the disease and prevent the creation of new 
highly dangerous strains of drug resistance.

                 PREVALENCE OF TB IN THE UNITED STATES

    Tuberculosis (TB) is a disease caused by a bacterium that is spread 
through the air--that is, it is spread from person-to-person by sharing 
the air that we breathe. Infection affects some people immediately, but 
for many, it becomes ``dormant,'' to become active at a later time. It 
is estimated that one-third of the world's population is infected with 
TB in this latent form, and indeed, these people form a reservoir of a 
disease that kills more than 2 million adults and children each year 
(1 every 15 seconds) and remains the leading cause of human death from 
an infectious disease today.
    In the United States, efforts to control the disease following its 
resurgence in the early 1990's have created a public health 
infrastructure that has been able to achieve that goal in many sectors. 
At the heart of this endeavor is the Centers for Disease and Control's 
(CDC) Division of TB Elimination (DTBE), which coordinates prevention 
and control activities to States through cooperative agreement awards 
to support categorical infrastructure. Following interim analyses, the 
Institute of Medicine (IOM) declared in its 2000 report, Ending 
Neglect, the Elimination of Tuberculosis in the United States, that TB 
could be eliminated as a public health problem in the United States by 
2010. The 13,767 cases reported in 2006 represent the lowest absolute 
number of cases ever recorded in our country. But we are far from TB 
elimination. The lower numbers have again lulled us into a false sense 
of security, and as Federal support once again is being withdrawn, we 
are facing another potential and more dangerous challenge to our 
public's health.
    The majority of U.S. TB cases come from outside U.S. borders. 
Fifty-five percent of 2006 TB cases were non-U.S. born, but the 
majority of these individuals have resided in the United States for 
more than 5 years and are citizens. Twenty States reported increases in 
TB cases in 2006 over 2005, with the District of Columbia recording the 
highest TB case rate (12.6/100,000) in the Nation.
    White, U.S.-born people no longer make up the majority of TB cases 
in the United States--TB now embraces racial and ethnic minorities as 
never before. African Americans have 8 times the risk of developing TB 
as whites; Hispanics and Asians have 8 and 21 times the risk, 
respectively. Our health systems have been slow to adapt to the needs 
of these populations.

                        CHALLENGES TO TB CONTROL

    In its November 2005 statement, CDC recognized 5 critical 
challenges to controlling TB in the United States. Addressing each 
challenge requires intact and fully functional local public health 
systems that are able to reach people at-risk, unique to populations in 
individual States and to the disease. Our State and local TB programs 
are losing the front-line, experienced staff that provide adequate case 
management to persons with active (and infectious) TB and ensure safe 
completion of treatment (at least 6-9 months of multiple medications), 
preventing the emergence of drug resistance among those who do not take 
medications appropriately. As programs lose funding, it is these 
essential, ``core'' services that are being compromised, or even 
eliminated entirely.
    The Division of TB Elimination has been level-funded for at least 
12 years; in 2006, our State and local programs were asked to absorb a 
real cut of 4.8 percent in Federal funding. The impact has been 
stealthy, but clear. These are examples:
    In Massachusetts, 77 percent of reported TB cases are foreign-born, 
and among this group, about 95 percent are drug-resistant. The State 
also has fewer staff resources to handle these cases since nine field 
staff positions (21 percent of the work force) have been lost since 
2002.
    In New York City, 1,185 patients had to be managed by 26 fewer 
nurses and field staff (an 18 percent cut).
    California has more than 20 percent of our national cases, 2,800, 
of whom 78 percent are foreign-born. California reports an 11 percent 
rate of drug resistance and yet had to deal with a 9 percent reduction 
in its Federal support versus 2005.
    California and New York both reported cases of the new Extensively 
Drug-Resistant (XDR)-TB strain in 2006. These strains are virtually 
resistant to current treatment regimens and are associated high levels 
of mortality.
    In December, Dr. Michael Fleenor, Chair of the National Advisory 
Committee on the Elimination of Tuberculosis, wrote to Secretary 
Leavitt and to CDC Director Gerberding to express concerns of the 
Council concerning the current negative impact of these funding 
reductions and to point out the urgent need to address these concerns 
in light of the new strains of XDR-TB. XDR-TB is produced by the 
failure to effectively treat individuals with other multidrug resistant 
TB (MDR TB) strains. Each of the 118 MDR TB cases reported in the 
United States in 2005 has the potential to become XDR TB without the 
expertise and infrastructure to cure the disease through directly 
observed treatment. Make no mistake--XDRTB is already in the United 
States and only our public health infrastructure prevents the 
production of more cases!
    The resurgence of tuberculosis and the emergence of Multi-Drug 
Resistant TB (MDRTB), organisms resistant to the two most effective 
drugs in the 1990's resulted from a collapse of the same infrastructure 
that we have since struggled to re-create, and are in the process of 
disassembling once again at this very moment. In short, we are being 
set up to fail. Earlier this year, U.S. Assistant Surgeon General and 
DTBE Director, Dr. Kenneth Castro warned the TB control community to 
anticipate a further reduction of 25 percent in Federal support for TB 
control over the next 5 years. Such a reduction bodes poorly for 
sustained efforts to control the disease, and, in the face of emerging 
XDR-TB, is a potential disaster.
    There is another lethal disease, to which governmental response 
was, on balance, both swift and appropriate, and from which we can 
learn: SARS. XDR-TB is, in many ways imminently more dangerous than 
SARS. While both are virtually untreatable, have extremely high death 
rates and are transmissible from person to person, TB unlike SARS, has 
both a human reservoir and a state of Latent Infection. TB, both 
regular and XDR, can lie dormant, only to emerge months or years later 
and spread person to person. Yet today we are facing funding cutbacks 
rather than vitally needed increases to keep our defensive 
infrastructure intact against TB.
    In order to put our domestic situation in proper context. Basic and 
applied research is sorely needed to help us understand the complex 
interactions between the TB organism and human beings which gives rise 
to latent and active disease. Research will provide insights as to how 
we might reduce the length, complexity, and toxicity of our currently 
limited drugs; it will provide us with tools to diagnose TB disease and 
dormant infection quickly; and it will help us understand how to reach 
people at-risk to prevent TB from developing. Laboratories must have 
better tools to identify and report drug resistance cheaply and 
quickly. And we must use our understanding and our resources to assist 
other countries in controlling the disease and preventing the emergence 
of active disease in those with dormant infection--for the world's 
problem truly is our problem too.
    The CDC DTBE clearly has demonstrated its ability to work closely 
with State and local public health TB programs to address issues of TB 
control. This association and cooperative partnership is responsible 
for the successes we have achieved over the past 15 years and it should 
be reinforced by assuring adequate support for the unprecedented 
challenges we are now facing. The current funding level of $137.4 
million for DTBE actually represents a 23 percent decrease over the 
past decade, adjusted for inflation. The NTCA recommends that the 
committee adopt the National Coalition for the Elimination of 
Tuberculosis's recommendation of an increase of $390.6 million in 
project funding for the CDC's Division of Tuberculosis Elimination for 
a total of $528 million in fiscal year 2008. This includes:
  --To Maintain Control of Core Activities and Regional Medical 
        Training and Consultation Centers (RTMCC's)--$185 million
  --Preparedness & Outbreak Response Capacity for XDR TB--$45 million.
  --Accelerating the Decline--$75 million.
  --For Research and Development of New Tools, Drugs and Diagnostics--
        $110 million.
  --For Intensified Support for Action to Accelerate Control (ISAAC). 
        Includes Enhancements to Surveillance, Laboratory, Border 
        Health, Health Disparities, Evaluation, and Research 
        Translation (Turning Research Into Practice)--$113 million.

                               CONCLUSION

    Clearly, the responsibility for TB control is a shared one. The CDC 
DTBE has an excellent track record of working closely with State and 
local health departments, providers and communities; the successful 
control of TB among residents of New Orleans during the hurricane is a 
recent example. Without the expertise and public health infrastructure 
that was in place, the 130 TB cases that were distributed from New 
Orleans to emergency shelters across the United States would have led 
to multiple outbreaks of TB. However, the ongoing budget cuts at the 
CDC directly impair TB prevention and control core activities within 
the States and seriously compromise a remarkable successful 
relationship. We have seen this pattern before. We know this will leave 
us once again at risk of an even more deadly epidemic of tuberculosis. 
The NCTA appreciates the opportunity to submit this statement to the 
subcommittee.
                                 ______
                                 
             Prepared Statement of the NephCure Foundation

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2008

    A 6.7 percent increase for the National Institutes of Health (NIH) 
and the National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK).
    Continue to expand the NIDDK's Nephrotic Syndrome (NS) and Focal 
Segmental Glomerularsclerosis (FSGS) research portfolios by 
aggressively supporting grant proposals in this area and creating a 
Glomerular Diesease Registry.
    Encourage the National Center for Minority Health and Health 
Disparities (NCMHD) to initiate studies into the incidence and cause of 
NS and FSGS in minority populations.
    Mr. Chairman and members of the subcommittee, the NephCure 
Foundation (NCF) is grateful for the opportunity to present testimony 
before you. NCF is a non-profit organization that is driven by a panel 
of respected medical experts and a dedicated band of patients and 
families that work together to save kidneys and also lives. NCF is the 
only non-profit organization exclusively devoted to fighting idiopathic 
nephrotic syndrome (NS) and focal segmental glomerulosclerosis (FSGS). 
Now in our sixth year, the NephCure Foundation continues to work 
tirelessly to support glomerular disease research.

                        FSGS: ONE FAMILY'S STORY

    Bradly Grizzard, was diagnosed with focal segmental 
glomerulosclerosis (FSGS) in 2002. In May of 2005, his mother donated 
one of her kidneys to him.
    FSGS is one of a cluster of glomerular diseases that attack the 
tiny filtering units contained in each human kidney, known as nephrons. 
Glomerular disease attacks the portion of the nephron called the 
glomerulus, scarring and often destroying these filters. Currently, 
scientists do not know why glomerular injury occurs, and there is no 
known cure for these diseases.
    Upon diagnosis, an FSGS patient's health often takes a rapid 
downward plunge at and it is extremely difficult to make a comeback. 
Bradly was a star football player at his high school and was being 
recruited by college football coaches before FSGS attacked his body. 
When his kidneys failed, he was forced to give up football, as well as 
juggle college classes with several hours of dialysis a day. He was 
lucky that his mother's kidney was a match, but even so, the first few 
hospitals that they approached refused to perform the transplant. They 
were eventually able to find a doctor and a hospital that was willing 
to perform the operation, and the transplanted kidney is now working 
well. Even though Bradly is now feeling much stronger, he must remain 
on costly immunosuppressant drugs for the rest of his life. These drugs 
cause many unpleasant side effects and medical complications.
    Sadly, Bradly's story is far from unique. There are thousands of 
people in this country who have had their lives disrupted due to the 
sudden onset of FSGS. Furthermore, although kidney transplants have 
been very successful for thousands of FSGS patients, many patients end 
up rejecting the transplanted kidney. A large percentage of patients 
even see the FSGS comes back and attacks the transplanted kidney. In 
either case, the patient must then again rely on daily dialysis as a 
means of survival. There are thousands of young people who are in a 
race against time, hoping for a treatment that will save their lives. 
The NephCure Foundation today raises its voice to speak for them all, 
asking you to take specific actions that will aid our mission to find 
the cause and cure of NS/FSGS.
    First and foremost, we join the Ad Hoc Group for Medical Research 
Funding in asking for a 6.7 percent increase for the National 
Institutes of Health (NIH) and the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK).

                        MORE RESEARCH IS NEEDED

    Little progress has been made on finding the cause of or the cure 
for FSGS. Scientists tell NCF that much more research needs to be done 
on the basic science behind the disease.
    NCF is thankful that the NIDDK is continuing to work with us on the 
FSGS clinical trial. Currently, 150-175 patients nationwide are 
enrolled in the trial. Recently, the steering committee charged with 
providing programmatic direction to the trial decided on several 
changes which would accelerate progress. NCF is also working with the 
NIDDK to cosponsor ancillary basic biological material studies of the 
enrolled patients.
    NCF is pleased to learn that the NIDDK is intending to re-release 
the program announcement (PA) entitled, ``Exploratory Basic Research in 
Glomerular Disease'' (PA-06-228). After being originally introduced as 
a R21 PA in March of 2006, PA-06-228 was rescinded along with all other 
non-clinical R21 programs when they were folded into the general NIH 
wide solicitation. NCF is optimistic that re-issuing this PA under the 
RO1 mechanism, as intended, will stimulate significant research into 
glomerular diseases.
    As health information technology continues to advance, disease 
registries and databases are fast becoming a crucial resource and vital 
source of information. The basic understanding of numerous conditions 
has been greatly improved by compiling patient information and disease 
data. At this time, no such registry exists for glomerular diseases. 
NCF has been informed by researchers and scientists that such a 
registry would greatly increase the clinical knowledge of NS and FSGS.
    We ask the committee to encourage the NIDDK to help find the cause 
and the cure for glomerular disease by continuing its support for the 
FSGS clinical trial and the ancillary basic biological material 
studies. We also ask the NIDDK to continue to add glomerular disease to 
program announcements. Additionally, we would like the committee to 
recommend that the NIDDK place a high priority on any initiatives that 
seek to establish a glomerular disease registry.

              TOO LITTLE EDUCATION ABOUT A GROWING PROBLEM

    When glomerular disease strikes, the resulting nephrotic syndrome 
causes a loss of protein in the urine and edema. The edema often 
manifests itself as puffy eyelids, a symptom that many parents and 
physicians mistake as allergies. With experts projecting a substantial 
increase in nephrotic syndrome in the coming years, there is a clear 
need to educate pediatricians and family physicians about glomerular 
disease and its symptoms.
    NCF has conducted numerous education programs. A national FSGS 
conference was held in Philadelphia from June 3-4, 2006. This 
conference sought to provide attendees with the most up to date 
information on this disease. Through speakers, information sessions, 
and informal conversations with other patient families, attendees 
realized that they are not alone and will be further energized for the 
effort to find a cause and a cure for FSGS.
    Also, last summer, the NIDDK sponsored a working group scientific 
conference. This working group advised NIDDK on animal models, 
reagents, and other resources for the study of glomerular disease.
    NCF also applaud the work of the NIDDK in establishing the National 
Kidney Disease Education Program (NKDEP), and we seek your support in 
urging the NIDDK to make sure that glomerular disease remains a focus 
of the NKDEP.
    We ask the committee to encourage the NIDDK to have glomerular 
disease receive high visibility in its education and outreach efforts, 
and to continue these efforts in conjunction with the NephCure 
Foundation's work. These efforts should be targeted towards both 
physicians and patients.

            GLOMERULAR DISEASE STRIKES MINORITY POPULATIONS

    Nephrologists tell NCF that glomerular disease strikes a 
disproportionate number of African-Americans. No one knows why this is, 
but some studies have suggested that a genetic sensitivity to sodium 
may be partly responsible. DNA studies of African Americans who suffer 
from FSGS may lead to insights that would benefit the thousands of 
African Americans who suffer from kidney disease.
    NCF asks that the NIH pay special attention to why this disease 
affects minority populations to such a large degree. NCF wishes to work 
with the NIDDK and the National Center for Minority Health and Health 
Disparities (NCMHD) to encourage the creation of programs to study the 
high incidence of glomerular disease within the African-American 
population.
    There is also evidence to suggest that the incidence of glomerular 
disease is higher among Hispanic-Americans than in the general 
population. An article in the February 2006 edition of the NIDDK 
publication Recent Advances and Emerging Opportunities, discussed the 
case of Frankie Cervantes, a 6 year old boy of Mexican and Panamian 
descent. Frankie has FSGS, and like Bradly, received a transplanted 
kidney from his mother. We applaud the NIDDK for highlighting FSGS in 
their publication, and for translating the article about Frankie into 
both English and Spanish. Only through similar efforts at cross-
cultural education can the African-American and Hispanic-American 
communities learn more about glomerular disease.
    We ask the committee to join with us in urging the NIDDK and the 
National Center for Minority Health and Health Disparities (NCMHD) to 
collaborate on research that studies the incidence and cause of this 
disease among minority populations. We also ask that the NIDDK and the 
NCMHD undertake culturally appropriate efforts aimed at educating 
minority populations about glomerular disease.
    Thank you again for this opportunity and please contact us if you 
have any questions or require additional information.
                                 ______
                                 
              Prepared Statement of NTM Info and Research

                         AGENCY RECOMMENDATIONS

    CDC: NTMIR requests a $7,000,000 allocation in the budget to enable 
CDC, Infectious Diseases HIV/AIDS, STD and TB Prevention Program to 
launch an external partnership to develop and implement a public health 
education and outreach initiative to promote NTM education for health 
care providers and the general public. Further NTMIR requests that CDC 
develop specific epidemiology studies regarding prevalence, geographic, 
demographic and host specific data regarding NTM infection in the 
population.
    NIH: NTMIR requests an allocation in the budget to enable NIH, 
NHLBI to advance diagnostics and treatments for patients suffering from 
pulmonary Nontuberculous Mycobacteria (NTM) disease. NTMIR further 
requests that NHLBI issue a program announcement or other appropriate 
mechanism to ensure the initiation of grant proposals
    NIH: NTMIR requests an allocation in the budget to enable NIH, 
NIAID to collaborate further with NHLBI, the advocacy community and 
other Federal agencies to advance the understanding of NTM by 
establishing a national registry of patients and to issue a program 
announcement, an NIH partnership funding program or other appropriate 
mechanism to ensure the initiation of grant proposals and other 
activities in NTM.
    Thank you for the opportunity to submit a statement on behalf of 
NTM Info & Research and all the patients suffering with pulmonary NTM 
disease.

     WHAT IS PULMONARY NONTUBERCULOUS MYCOBACTERIAL DISEASE (NTM)?

    NTM is an infectious disease considered to be of environmental 
origin as these bacteria are ubiquitous in the water and soil that 
surround us. Although NTM is diagnosed by the same basic test used to 
diagnose traditional tuberculosis (TB), it is significantly more 
difficult to treat. NTM progressively diminishes lung capacity, with 
all the attendant negative consequences in life.
    Unfortunately, even though TB has a significantly high profile, NTM 
does not because education and awareness have been lacking. 
Furthermore, there is growing evidence that NTM is many times more 
prevalent than TB in the United States. For example, the State of 
Florida Infectious Disease Laboratory reports receiving over twice as 
many specimens that are NTM positive for every one that is positive for 
TB. Even more startling, the Agency for Health Care Administration for 
Florida hospital patient discharges shows almost 9 times the number of 
patients with the primary diagnosis of NTM versus those with TB.
    Doctors in leading treating facilities are reporting that even 
though NTM is not reportable, they are seeing more NTM patients than TB 
patients. A current report from Toronto, Ontario indicates that the 
prevalence may be six times higher than the older data we have in the 
United States.
    NTM is not limited to one strain and has certain strains that are 
inherently resistant to drug therapy, and in all cases multiple drugs 
are required on a lengthy to permanent basis. A significant number of 
patients require short- to long-term intravenous medication and this is 
a particular hardship for the elderly because Medicare does not cover 
in-home therapy. Medicare recipients must be hospitalized one to three 
times a week driving treatment costs significantly higher than in 
alternate settings.

                      NTM INFO & RESEARCH (NTMIR)

    NTMIR was founded through a partnership of concerned patients and 
interested physicians who see increasing numbers of people affected by 
this devastating disease. NTMIR was created to expand professional 
awareness, diagnosis and treatment, facilitate research and provide 
patient support. Our mission is a public/private partnership to advance 
the science and the outcomes for countless patients with NTM disease.
    NTMIR has already demonstrated a track record of success since it 
commenced its activities just 3 years ago. These include, successful 
implementation of the NTMInfo.org website and online support group, 
patient education throughout the country through the replication of an 
NTM information pamphlet, initiating professional education and Grand 
Round lectures to increase professional education both for specialists 
and family physicians, establishment of a partnership of cooperation 
with public health in the State of Florida and with the American Lung 
Association of Florida. NTMIR negotiated an agreement between a major 
pharmaceutical company, the FDA and a division of HRSA to provide an 
urgently needed drug for patients who could not otherwise obtain it, 
some of whom might have died without it.
Fern Leitman's Story
    In September 1996, shortly after lung surgery, Fern's health 
deteriorated to the point where her doctors suggested that her children 
be called. Fern was rushed to a procedure room to put a bronchoscope 
into her lungs to see what was happening.
    NTM can affect any one of us . . . but for some unknown reason it 
affects more women than men.
    Fern's normal morning routine starts with pulmonary therapy to 
clear her airways. Then there is a sinus wash. With breakfast, Fern 
takes five different oral drugs and IV medicines. In addition, there 
are inhaled medicines. The total time from awakening to being able to 
leave the house is usually 4 hours.

    THE NEEDS OF NTM PATIENTS HAVE GONE UNMET--MORE CAN BE DONE NOW!

    While tuberculosis is often known to appear in inner cities and 
immigrant populations, NTM knows no such boundaries. However, current 
epidemiologic data is not available. The latest data that we have from 
the Centers for Disease Control was collected in the 1980's and we 
urgently need newer data. Current data from the University of Toronto 
suggests that the prevalence may be six times higher than our older 
information. We have no reason to believe that Toronto is any different 
than Chicago, Miami or any other major U.S. city.
                                 ______
                                 
           Prepared Statement of the Oncology Nursing Society

                                OVERVIEW

    The Oncology Nursing Society (ONS) appreciates the opportunity to 
submit written comments for the record regarding fiscal year 2008 
funding for cancer and nursing related programs. ONS, the largest 
professional oncology group in the United States, composed of more than 
35,000 nurses and other health professionals, exists to promote 
excellence in oncology nursing and the provision of quality care to 
those individuals affected by cancer.
    This year more than 1,444,920 Americans will be diagnosed with 
cancer, and more than 565,000 will lose their battle with this terrible 
disease. Despite these grim statistics, significant gains in the War 
Against Cancer have been made through our Nation's investment in cancer 
research and its application. Research holds the key to improved cancer 
prevention, early detection, diagnosis, and treatment, but such 
breakthroughs are meaningless, unless we can deliver them to all 
Americans in need. Moreover, a recent survey of ONS members found that 
the nursing shortage is having an adverse impact in oncology physician 
offices and hospital outpatient departments. Some respondents indicated 
that when a nurse leaves their practice, they are unable to hire a 
replacement due to the shortage--leaving them short-staffed and posing 
scheduling challenges for the practice and the patients.
    To ensure that all people with cancer have access to the 
comprehensive, quality care they need and deserve, ONS advocates 
ongoing and significant Federal funding for cancer research and 
application, as well as funding for programs that help ensure an 
adequate oncology nursing workforce to care for people with cancer. The 
Society stands ready to work with policymakers at the local, State, and 
Federal levels to advance policies and programs that will reduce and 
prevent suffering from cancer and sustain and strengthen the Nation's 
nursing workforce. We thank the subcommittee for its consideration of 
our fiscal year 2008 funding request detailed below.

    SECURING AND MAINTAINING AN ADEQUATE ONCOLOGY NURSING WORKFORCE

    Oncology nurses are on the front lines in the provision of quality 
cancer care for individuals with cancer--administering chemotherapy, 
managing patient therapies and side-effects, working with insurance 
companies to ensure that patients receive the appropriate treatment, 
providing counseling to patients and family members, and engaging in 
myriad other activities on behalf of people with cancer and their 
families. Cancer is a complex, multifaceted chronic disease, and people 
with cancer require specialty-nursing interventions at every step of 
the cancer experience. People with cancer are best served by nurses 
specialized in oncology care, who are certified in that specialty. 
Overall, age is the number one risk factor for developing cancer. 
Approximately 77 percent of all cancers are diagnosed at age 55 and 
older.
    As the overall number of nurses will drop precipitously in the 
coming years, we likely will experience a commensurate decrease in the 
number of nurses trained in the specialty of oncology. With an 
increasing number of people with cancer needing high-quality health 
care, coupled with an inadequate nursing workforce, our Nation could 
quickly face a cancer care crisis of serious proportion, with limited 
access to quality cancer care, particularly in traditionally 
underserved areas. A study in the New England Journal of Medicine found 
that nursing shortages in hospitals are associated with a higher risk 
of complications--such as urinary tract infections and pneumonia, 
longer hospital stays, and even patient death. Without an adequate 
supply of nurses, there will not be enough qualified oncology nurses to 
provide the quality cancer care to a growing population of people in 
need, and patient health and well-being could suffer.
    Further, of additional concern is that our Nation also will face a 
shortage of nurses available and able to conduct cancer research and 
clinical trials. With a shortage of cancer research nurses, progress 
against cancer will take longer because of scarce human resources 
coupled with the reality that some practices and cancer centers 
resources could be funneled away from cancer research to pay for the 
hiring and retention of oncology nurses to provide direct patient care. 
Without a sufficient supply of trained, educated, and experienced 
oncology nurses, we are concerned that our Nation may falter in its 
delivery and application of the benefits from our Federal investment in 
research.
    ONS has joined with others in the nursing community in advocating 
$200 million as the fiscal year 2008 funding level necessary to support 
implementation of the Nurse Reinvestment Act and the range of nursing 
workforce development programs housed at the U.S. Health Resources and 
Services Administration (HRSA). Enacted in 2002, the Nurse Reinvestment 
Act (Public Law 107-205) included new and expanded initiatives, 
including loan forgiveness, scholarships, career ladder opportunities, 
and public service announcements to advance nursing as a career. 
Despite the enactment of this critical measure, HRSA fails to have the 
resources necessary to meet the current and growing demands for our 
Nation's nursing workforce. For example, in fiscal year 2006 HRSA 
received 4,222 applications for the Nurse Education Loan Repayment 
Program, but only had the funds to award 615 of those applications. 
Also, in fiscal year 2006 HRSA received 3,320 applications for the 
Nursing Scholarship Program, but only had funding to support 218 
awards.
    While a number of years ago one of the biggest factors associated 
with the shortage was a lack of interested and qualified applicants, 
due to the efforts of the nursing community and other interested 
stakeholders, the number of applicants is growing. As such, now one of 
the greatest factors contributing to the shortage is that nursing 
programs are turning away qualified applicants to entry-level 
baccalaureate programs, due to a shortage of nursing faculty. According 
to the American Association of Colleges of Nursing (AACN), U.S. nursing 
schools turned away 42,866 qualified applicants from baccalaureate and 
graduate nursing programs in 2006, due to insufficient number of 
faculty. The nurse faculty shortage is only expected to worsen with 
time, as half of the RN workforce is expected to reach retirement age 
with in the next 10 to 15 years. At the same time, significant numbers 
of faculty are expected to retire in the coming years, with 
insufficient numbers of candidates in the pipeline to take their 
places. If funded sufficiently, the components and programs of the 
Nurse Reinvestment Act will help address the multiple factors 
contributing to the nursing shortage.
    The nursing community opposes the President's fiscal year 2008 
budget proposal that decreases nursing workforce funding by $44 
million--a cut which eliminates all funding for advanced nursing 
education programs. With additional funding in fiscal year 2008, these 
important programs will have much-needed resources to address the 
multiple factors contributing to the nationwide nursing shortage, 
including the shortage of faculty--a principal factor contributing to 
the current shortage. Advanced nursing education programs play an 
integral role in supporting registered nurses interested in advancing 
in their practice and becoming faculty. As such, these programs must be 
adequately funded in the coming year.
    ONS strongly urges Congress to provide HRSA with a minimum of $200 
million in fiscal year 2008 to ensure that the agency has the resources 
necessary to fund a higher rate of nursing scholarships and loan 
repayment applications and support other essential endeavors to sustain 
and boost our Nation's nursing workforce. Nurses--along with patients, 
family members, hospitals, and others--have joined together in calling 
upon Congress to provide this essential level of funding. One Voice 
Against Cancer (OVAC), a collaboration of more than 45 national 
nonprofit organizations representing millions of Americans, and the 
National Coalition for Cancer Research (NCCR), is a non-profit 
organization comprised of 26 national organization, also advocate $200 
million for the Nurse Reinvestment Act in fiscal year 2008. ONS and its 
allies have serious concerns that without full funding, the Nurse 
Reinvestment Act will prove an empty promise, and the current and 
expected nursing shortage will worsen, and people will not have access 
to the quality care they need and deserve.

            SUSTAIN AND SEIZE CANCER RESEARCH OPPORTUNITIES

    Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH). ONS has 
joined with the broader health community in advocating a 6.7 percent 
increase ($32.831 billion) for NIH in fiscal year 2008. This will allow 
NIH to sustain and build on its research progress, resulting from the 
recent doubling of its budget, while avoiding the severe disruption to 
that progress that would result from a minimal increase. Cancer 
research is producing extraordinary breakthroughs--leading to new 
therapies that translate into longer survival and improved quality of 
life for cancer patients. We have seen extraordinary advances in cancer 
research, resulting from our national investment, which have produced 
effective prevention, early detection and treatment methods for many 
cancers. To that end, ONS calls upon Congress to allocate $5.131 
billion to the National Cancer Institute (NCI) in fiscal year 2008 to 
support the battle against cancer.
    The National Institute of Nursing Research (NINR) supports basic 
and clinical research to establish a scientific basis for the care of 
individuals across the life span--from management of patients during 
illness and recovery, to the reduction of risks for disease and 
disability and the promotion of healthy lifestyles. These efforts are 
crucial in translating scientific advances into cost-effective health 
care that does not compromise quality of care for patients. 
Additionally, NINR fosters collaborations with many other disciplines 
in areas of mutual interest, such as long-term care for older people, 
the special needs of women across the life span, bioethical issues 
associated with genetic testing and counseling, and the impact of 
environmental influences on risk factors for chronic illnesses, such as 
cancer. ONS joins with others in the nursing community in advocating a 
fiscal year 2008 allocation of $150 million for NINR.

 BOOST OUR NATION'S INVESTMENT IN CANCER PREVENTION, EARLY DETECTION, 
                             AND AWARENESS

    Approximately two-thirds of cancer cases are preventable through 
lifestyle and behavioral factors and improved practice of cancer 
screening. Although the potential for reducing the human, economic, and 
social costs of cancer by focusing on prevention and early detection 
efforts remains great, our Nation does not invest sufficiently in these 
strategies. In 2005, the United States spend over $2.0 trillion in 
healthcare--$6,683 for every man, woman, and child; however we only 
allocate approximately 1 percent of that amount for population-based 
prevention efforts. The Nation must make significant and unprecedented 
Federal investments today to address the burden of cancer and other 
chronic diseases, and to reduce the demand on the healthcare system and 
diminish suffering in our Nation both for today and tomorrow.
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering, at the community level, what is learned from research. 
Therefore, ONS joins with our partners in the cancer community--
including OVAC--in calling on Congress to provide additional resources 
for the CDC to support and expand much-needed and proven effective 
cancer prevention, early detection, and risk reduction efforts. 
Specifically, ONS advocates the following fiscal year 2008 funding 
levels for the following CDC programs: $250 million for the National 
Breast and Cervical Cancer Early Detection Program; $65 million for the 
National Cancer Registries Program; $25 million for the Colorectal 
Cancer Prevention and Control Initiative; $50 million for the 
Comprehensive Cancer Control Initiative; $25 million for the Prostate 
Cancer Control Initiative; $5 million for the National Skin Cancer 
Prevention Education Program; $10 million for the Ovarian Cancer 
Control Initiative; $6 million for the Geraldine Ferraro Blood Cancer 
Program; $145 million for the National Tobacco Control Program; and $65 
million for the Nutrition, Physical Activity, and Obesity Program.

                               CONCLUSION

    ONS maintains a strong commitment to working with Members of 
Congress, other nursing societies, patient organizations, and other 
stakeholders to ensure that the oncology nurses of today continue to 
practice tomorrow, and that we recruit and retain new oncology nurses 
to meet the unfortunate growing demand that we will face in the coming 
years. By providing the fiscal year 2008 funding levels detailed above, 
we believe the subcommittee will be taking the steps necessary to 
ensure that our Nation has a sufficient nursing workforce to care for 
the patients of today and tomorrow and that our Nation continues to 
make gains in our fight against cancer.
                                 ______
                                 
        Prepared Statement of Parent Project Muscular Dystrophy

    Chairman Harkin, ranking member Specter, and members of the 
committee: I want to thank you for this opportunity to submit testimony 
for the written record. My name is Pat Furlong, Co-Founder and CEO of 
Parent Project Muscular Dystrophy (PPMD) and the mother of two sons who 
battled Duchenne Muscular Dystrophy (DMD).
    The past year has been historical for PPMD and the entire Duchenne 
and Becker Muscular Dystrophy (DBMD) Community. Right now, a drug that 
holds tremendous potential for a percentage of patients suffering not 
only from Duchenne but from other neurological conditions, like Cystic 
Fibrosis, is in a Phase 2 clinical trial, and has received Fast Track 
designation from the Food and Drug Administration (FDA). We all waited 
anxiously and were relieved when PTC Therapeutics reported an increase 
presence of dystrophin in Duchenne patients involved in the initial 
Phase 2 clinical trial, and we are very hopeful more good news will be 
on the way. While the drug in question--PTC 124--is being developed by 
a private entity, I can say with confidence that we would not have 
reached this milestone if not for the significant investments made into 
DMD research by the National Institutes of Health (NIH).
    It is for this very reason that NIH's investments into Duchenne and 
Becker research must not only be sustained but strengthened. All six 
Senator Paul Wellstone MD Research Centers of Excellence are in 
operation, and the Muscular Dystrophy Coordinating Committee (MDCC) is 
working to advance the government-wide MD agenda.
    At the Centers for Disease Control and Prevention (CDC), active 
surveillance of Duchenne is taking place in five States, and we are 
making progress toward developing a DMD Patient Registry, replete with 
evidence-based care considerations, In addition, PPMD has partnered 
with the CDC on an education and outreach initiative that has produced 
materials that help explain Duchenne to children, enable doctors to 
offer accurate and timely diagnoses, and help parents ensure their 
children get the care they need and deserve. Through the pilot work in 
Mississippi, CDC and PPMD have taken concrete steps to educate people 
on the early warning signs of DBMD so patients get the earliest 
diagnosis possible.
    I want to continue to urge the committee to support Federal funding 
for DBMD. Specifically, we are seeking:
  --A $2.5 million increase in MD activities at the CDC. Of this 
        increase:
    --$2.25 million should be dedicated to advancing efforts to develop 
            and launch an International DBMD Patient Registry.
    --$250,000 should be used to continue the successful joint CDC/PPMD 
            Education & Outreach initiative, bringing the total for 
            this project to $1 million.
  --Increased funding at the NIH to ensure the continued support of the 
        six MD Centers of Excellence and other research initiatives 
        focused on DBMD.
    We are very well aware of the significant budgetary pressures--both 
internal and external--that you will be dealing with this year. That's 
why we believe we have put forth a reasonable request that seeks the 
funding necessary to sustain and advance the successes attained to 
date. Without such an investment, we fear we will lose ground and not 
receive the greatest return on investment possible.
    On behalf of all families impacted by Duchenne and Becker MD, I 
thank you for your past support. I urge your panel and the entire 
Senate to continue to lead the way in providing critically needed 
dollars to support DBMD research at the NIH and patient support and 
related initiatives at the CDC.
                                 ______
                                 
 Prepared Statement of the People for the Ethical Treatment of Animals

    Chairman Harkin, ranking member Specter, and members of the 
subcommittee: People for the Ethical Treatment of Animals (PETA) is the 
world's largest animal rights organization, with 1.6 million members 
and supporters. We greatly appreciate the opportunity to submit 
testimony regarding the fiscal year 2008 appropriations for the 
Interagency Coordinating Committee on the Validation of Alternative 
Methods (ICCVAM). The following national animal and health protection 
organizations support these comments: The American Anti-Vivisection 
Society, the Alternatives Research and Development Foundation, In 
Defense of Animals, and the Physicians Committee for Responsible 
Medicine.
    As you are aware, Federal regulatory agencies require most 
chemicals and many other products to undergo tests that measure their 
toxicity levels. Unfortunately, most of these tests involve the 
suffering and death of animals. Other problems include agencies 
needlessly duplicating each other's tests, lack of innovation (e.g., 
relying on outdated and flawed test methods developed decades ago), and 
underutilization of scientific expertise outside of the U.S. Government 
(e.g., ignoring better methods used in other countries).
    ICCVAM was created in 1997 to solve the three regulatory testing 
problems of animal suffering, wasteful duplication, and lack of 
innovation. It was made a permanent committee under the National 
Institute of Environmental Health Sciences in 2000.
    Contrary to its ostensible purpose, however, ICCVAM has become a 
major obstacle to the adoption of more sophisticated and accurate test 
methods--in many cases, methods that have been widely adopted by the 
rest of the industrialized world. Instead, ICCVAM is clinging to 
decades-old animal-poisoning tests that were never proven relevant to 
humans to begin with.
    This causes two major problems. First, animals are being harmed 
needlessly when non-animal tests could be adopted instead. Second, 
public health is being undermined, as non-animal test methods have been 
demonstrated to be more accurate, more sensitive, and more protective 
of public health.\1\
---------------------------------------------------------------------------
    \1\ For example, in 1971, scientists Weil and Scala examined the 
reliability of data from eye irritancy tests--in which chemicals are 
dripped into rabbits' eyes--and concluded that, because of significant 
variability in test results from day to day and lab to lab, this test 
should not be used as a standard regulatory toxicity study (Weil CS and 
Scala RA. 1971. Toxicol. Appl. Pharmacol. 17: 276-360). In 1986, 
Freeberg and colleagues studied 281 cases of accidental human eye 
exposure to 14 household products and compared the outcome with the 
results of rabbit eye irritation tests. They found that the animal test 
failed to correctly predict the human eye response more than half (52 
percent) of the time (Freeberg FE and others. 1986. J. Toxicol. 
Cutaneous & Ocular Toxicol. 5: 115-23). A few years later, Koch and 
colleagues at the U.S. Food and Drug Administration stated that there 
was no clear relationship between the rabbit eye response and the 
exposure of the human eye to chemicals or products and that the Draize 
test is ``plagued'' with a lack of reproducibility. (Koch WH. 1989. 
Cutaneous & Ocular Toxicol. 8: 17-22). The Multicenter Evaluation of In 
Vitro Cytotoxicity (MEIC) study examined the results of rat and mouse 
``lethal dose'' toxicity studies--in which groups of animals are force-
fed massive doses of a chemical until half of them convulse and die. 
The researchers found that rodent lethal dose tests were, at best, 65 
percent predictive of acute toxicity in humans. By contrast, the MEIC 
study found that a ``battery'' of four non-animal tests using human 
cells was able to predict human toxicity with 84 percent accuracy (U.S. 
National Toxicology Program Interagency Centre for the Evaluation of 
Alternative Toxicological Methods. 2000 Sep. The Multicenter Evaluation 
of In Vitro Cytotoxicity (MEIC)--Summary).
---------------------------------------------------------------------------
    In addition, test methods that use animals render our Federal 
agencies impotent in their efforts to regulate health and environmental 
hazards because the fact that these methods are not human-relevant 
leads to continual--and successful--court challenges on the part of 
industry.
    ICCVAM's counterpart in Europe--the European Centre for the 
Validation of Alternative Methods (ECVAM)--has developed and validated 
a number of non-animal methods. Yet ICCVAM fails to even adopt the 
ECVAM-validated methods, becoming a bottleneck for the adoption of new 
methods in the United States.\2\
---------------------------------------------------------------------------
    \2\ In its 10-year history, it has validated only one non-animal 
test method that originated in the United States.
---------------------------------------------------------------------------
    Worse, ICCVAM and its lead agency, the U.S. Environmental 
Protection Agency (EPA), have repeatedly and blatantly violated both 
the letter and the spirit of a major tenet of the Organization for 
Economic Cooperation and Development (OECD) Council Decision, of which 
the United States is a member. The OECD's 1981 Mutual Acceptance of 
Data in the Assessment of Chemicals provides that: ``[D]ata generated 
in the testing of chemicals in an OECD Member country in accordance 
with OECD Test Guidelines and OECD Principles of Good Laboratory 
Practice shall be accepted in other Member countries for purposes of 
assessment and other uses relating to the protection of man and the 
environment.''
    Presented below are five specific recent examples:
    1. Skin Corrosion Testing.--Two types of non-animal tests for skin 
corrosion, the Transcutaneous Electrical Resistance method (OECD 430) 
and human skin model studies (OECD 431), were successfully validated in 
partnership with ECVAM and endorsed by ECVAM's Scientific Advisory 
Committee (ESAC) in 1998, accepted by EU regulators in June 2000, and 
published as OECD Test Guidelines in April 2004. The OECD specifically 
accepts the tests as part of a strictly non-animal weight-of-evidence 
assessment of skin corrosion. Yet ICCVAM arbitrarily insists on 
confirmatory testing in rabbits of any negative results.
    2. Phototoxicity Testing.--The cell-based 3T3 Neutral Red Uptake 
Phototoxicity Test is also ECVAM validated, ESAC endorsed, and codified 
in both EU regulations and as an OECD Test Guideline (OECD 432). 
However, the regulatory acceptance of this method in the United States 
remains uncertain.
    3. Ocular Testing.--In 2005, ICCVAM reviewed several non-animal 
methods to replace the infamous Draize test, in which chemicals are 
dripped into the eyes of restrained (though not anesthetized) rabbits. 
These methods (which use actual animal eyes from slaughterhouses) have 
been accepted by some countries for more than a decade and are 
currently accepted throughout the EU through mutual acceptance of data. 
Nevertheless, ICCVAM has placed severe restrictions on their use.
    4. Acute toxicity testing.--ICCVAM convened an international 
workshop in 2000 to discuss a non-animal (cell-based) method that had 
the potential to replace acute toxicity testing in animals. Acute 
toxicity testing, otherwise known as lethal poisoning, means taking a 
group of animals and forcing them to ingest or inhale a toxic substance 
in increasing amounts until half of the animals die. Although this 
method is almost universally recognized as an extremely cruel, crude, 
and imprecise test method that causes a tremendous amount of animal 
suffering, it remains the backbone of regulatory testing.
    The workshop resulted in a report stating that that the cell-based 
methods could be used immediately to reduce the numbers of animals 
killed and that, within 3 years--given the proper funding and effort--
the method could be validated as a full replacement measure. It is now 
7 years later, and ICCVAM has made no progress in implementing the 
cell-based methods even as a reduction measure and has cynically 
ignored its potential as a replacement measure.
    5. Pyrogenicity (Fever-Inducing) Testing.--According to a March 
2006 European Union press release, ECVAM ``approved six new alternative 
testing methods that will reduce the need for certain drugs and 
chemicals to be tested on animals. The new tests use cell cultures 
rather than animals to establish the toxicity of cancer drugs and 
identify contaminated drugs.'' Five of the tests replace the use of 
animals in pyrogenicity testing (for fever-inducing bacteria) for which 
hundreds of thousands of rabbits are currently used every year.
    Despite the fact that these methods were less expensive than animal 
tests and that, as stated in the news release, ``the tests approved . . 
. will not only reduce the number of animals needed for testing, but 
will also increase the accuracy of the tests, thereby making the 
products concerned safer'' (emphasis added), ICCVAM's peer review panel 
concluded that the methods were not valid as replacements for the 
rabbit test.

                            RECOMMENDATIONS

    ICCVAM follows a double standard that sets ever-increasing hurdles 
for every non-animal method while accepting every animal test as the 
unquestioned gold standard. Companies are now attempting to circumvent 
ICCVAM, submitting their data from non-animal test methods directly to 
the relevant agency to consider, knowing that it is pointless to send a 
non-animal method to ICCVAM for review.
    If Congress is to continue funding ICCVAM, the agency must be held 
accountable for its failures to date and be required to fulfill its 
mandate ``to establish, wherever feasible, guidelines, recommendations, 
and regulations that promote the regulatory acceptance of new or 
revised scientifically valid toxicological tests that protect human and 
animal health and the environment while reducing, refining, or 
replacing animal tests and ensuring human safety and product 
effectiveness'' (Public Law 106-545). At the very least, there should 
be reciprocity between ECVAM and ICCVAM and ICCVAM should be required 
to expeditiously adopt non-animal test methods developed and validated 
in Europe.
    In its 2007 appropriations, Congress included report language that 
required ICCVAM to develop a 5-year plan to ``identify areas of high 
priority for new and revised non-animal and alternative assays or 
batteries of those assays to create a path forward for the replacement, 
reduction and refinement of animal tests'' by November 15, 2007 (House 
Report 109-15). In December 2006, PETA, The Humane Society of the 
United States, and other national animal protection organizations 
submitted extensive comments to NIEHS regarding essential components of 
this plan.
    We respectfully request that the committee include the following 
report language for fiscal year 2008: ``The committee understands that 
the American animal protection community has submitted recommendations 
for items to be included in ICCVAM's 5-year plan to identify areas of 
high priority for new and revised non-animal and alternative assays or 
batteries of those assays to create a path forward for the replacement, 
reduction and refinement of animal tests. The committee requests that 
these recommendations be adopted by ICCVAM or, upon presentation of the 
plan to the committee by November 15, 2007, an explanation of any 
exclusions of the aforementioned recommendations be included.''
    Thank you for your consideration of our request.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers

                              INTRODUCTION

    Thank you, Chairman Harkin, ranking member Specter, and other 
distinguished members of the subcommittee, for this opportunity to 
express support for the National Institutes of Health (NIH) and the 
National Center for Health Statistics (NCHS)--two agencies important to 
our organizations.

           BACKGROUND ON THE PAA/APC AND DEMOGRAPHIC RESEARCH

    The PAA is a scientific organization comprised of over 3,000 
population research professionals, including demographers, 
sociologists, statisticians, and economists. The APC is a similar 
organization comprised of over 30 universities and research groups that 
foster collaborative demographic research and data sharing, translate 
basic population research for policy makers, and provide educational 
and training opportunities in population studies.
    Demography is the study of populations and how or why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, and disabilities as well as 
racial, ethnic, and socioeconomic changes in populations. Major policy 
issues population researchers are studying include the demographic 
causes and consequences of population aging, trends in fertility, 
marriage, and divorce and their effects on the health and well being of 
children, and immigration and migration and how changes in these 
patterns affect the ethnic and cultural diversity of our population and 
the Nation's health and environment.
    The NIH mission is to support research that will improve the health 
of our population. The health of our population is fundamentally 
intertwined with the demography of our population. Recognizing the 
connection between health and demography, the NIH supports population 
research programs primarily through the National Institute on Aging 
(NIA) and the National Institute of Child Health and Human Development 
(NICHD).

                      NATIONAL INSTITUTE ON AGING

    According to the Census Bureau, by 2029, all of the baby boomers 
(those born between 1946 and 1964) will be age 65 years and over. As a 
result, the population age 65-74 years will increase from 6 percent to 
10 percent of the total population between 2005 and 2030. This 
substantial growth in the older population is driving policymakers to 
consider dramatic changes in Federal entitlement programs, such as 
Medicare and Social Security, and other budgetary changes that could 
affect programs serving the elderly. Further, the macroeconomic and 
global impact of population aging on competitiveness in the world 
economy is becoming a bigger issue--as illustrated during the recent 
Global Summit on Aging sponsored by NIA and the State Department. To 
inform this debate, policymakers need objective, reliable data about 
the antecedents and impact of changing social, demographic, economic, 
and health characteristics of the older population. The NIA Behavioral 
and Social Research (BSR) program is the primary source of Federal 
support for research on these topics.
    In addition to supporting an impressive research portfolio, that 
includes the prestigious Centers of Demography of Aging Program, the 
NIA BSR program also supports several large, accessible data surveys. 
Two such surveys, the National Long-Term Care Survey (NLTCS) and the 
Health and Retirement Study (HRS) have become seminal sources of 
information to assess the health and socioeconomic status of older 
people in the United States.
    By using NLTCS data, investigators identified the declining rate of 
disability in older Americans first observed in the mid-1990s. In 2006, 
an analysis of the latest data found the prevalence of chronic 
disability among people 65 and older fell from 26.5 percent in 1982 to 
19 percent in 2004/2005. The findings suggest that older Americans' 
health and function continue to improve at a critical time in the aging 
of the population. If it continues, this trend could have momentous 
impact on reducing the need for costly long-term care.
    In 2006, NIA announced a 6-year renewal of the HRS. The HRS, now 
entering its 15th year, has tracked 27,000 people, and has provided 
data on a number of issues, including the role families play in the 
provision of resources to needy elderly and the economic and health 
consequences of a spouse's death. The Social Security Administration 
recognizes and funds the HRS as one of its ``Research Partners'' and 
posts the study on its home page to improve its availability to the 
public and policymakers. HRS is particularly valuable because its 
longitudinal design allows researchers: (1) the ability to immediately 
study the impact of important policy changes such as Medicare Part D; 
and (2) the opportunity to gain insight into future health-related 
policy issues that may be on the horizon, such as recent HRS data 
indicating an increase in pre-retirees self-reported rates of 
disability.
    With additional support in fiscal year 2008, the NIA BSR program 
could fully fund its existing centers and support its ongoing surveys. 
Additional support would allow NIA to expand the centers' role in 
understanding the domestic macroeconomic as well as the global 
competitiveness impact of population aging and fully fund initiatives 
in fiscal year 2008 addressing financial challenges faced by older 
Americans.
    NIA could also use additional resources to support individual 
investigator awards by precluding an 18 percent cut in competing 
awards, improving its funding payline, and sustaining training and 
research opportunities for new investigators.

        NATIONAL INSTITUTE ON CHILD HEALTH AND HUMAN DEVELOPMENT

    Since its establishment in 1968, the NICHD Center for Population 
Research has supported research on population processes and change. 
Today, this research is housed in the Center's Demographic and 
Behavioral Sciences Branch (DBSB). The Branch encompasses research in 
four broad areas: family and fertility, mortality and health, migration 
and population distribution, and population composition. In addition to 
funding research projects in these areas, DBSB also supports a highly 
regarded population research infrastructure program and a number of 
large database studies, including the Fragile Families and Child Well 
Being Study and National Longitudinal Study of Adolescent Health.
    NICHD-funded demographic research has consistently provided 
critical scientific knowledge on issues of greatest consequence for 
American families: work-family conflicts, marriage and child bearing, 
childcare, and family and household behavior. However, in the realm of 
public health, demographic research is having an even larger impact, 
particularly on issues regarding adolescent and minority health. For 
example, in 2006, researchers with the National Longitudinal Study of 
Adolescent Health, reported findings illustrating that by the time they 
reach early adulthood (age 19-24), a large proportion of American youth 
have begun the poor practices contributing to three leading causes of 
preventable death in the United States: smoking, poor diet and physical 
inactivity, and alcohol abuse. This study is striking in that it found 
the health situation of young people--in terms of behavior, health 
conditions, and access to and use of care--deteriorates markedly 
between the teen and young adult years. The study reinforces the 
importance of educating young people about adopting healthy lifestyles 
after they leave high school and the parental home.
    Understanding the role of marriage and stable families in the 
health and development of children is another major focus of the NICHD 
DBSB. Consistently, research has shown children raised in stable family 
environments have positive health and development outcomes. Therefore, 
NICHD supports research to elucidate factors that contribute to family 
formation and strong partnerships. Recent findings have identified 
factors that can destabilize relationships between new parents. These 
factors include serious health or developmental problems of the 
parents' child, lower earnings, less education, and a father who has 
other children with different mothers. A new study published in 2006 
produced the first measures of multi-partnered fertility (having 
children by more than one partner) in U.S. urban areas. The study found 
that in 59 percent of unmarried couples with a new baby, at least one 
parent had a child from another relationship. Previous research 
demonstrates multi-partnered fertility has potentially serious 
implications for both child well-being and marriage promotion efforts 
because of the demands of existing commitments and relationships. 
Policymakers and community programs can use these findings to support 
unstable families and improve the health and well being of children.
    With additional support in fiscal year 2008, NICHD could restore 
full funding to its large-scale surveys, which serve as a resource for 
researchers nationwide. Furthermore, the Institute could apply 
additional resources toward improving its funding payline, which has 
gone from the 20th percentile range in 2003 to the 15th percentile in 
January 2007. Additional support could be used to preclude cuts of 17 
percent to 22 percent in applications approved for funding and to 
support and stabilize essential training and career development 
programs necessary to prepare the next generation of researchers.

                 NATIONAL CENTER FOR HEALTH STATISTICS

    Located within the Centers for Disease Control (CDC), the National 
Center for Health Statistics (NCHS) is the Nation's principal health 
statistics agency, providing data on the health of the U.S. population 
and backing essential data collection activities. Most notably, NCHS 
funds and manages the National Vital Statistics System, which contracts 
with the States to collect birth and death certificate information. 
NCHS also funds a number of complex large surveys to help policy 
makers, public health officials, and researchers understand the 
population's health, influences on health, and health outcomes. These 
surveys include the National Health and Nutrition Examination Survey, 
National Health Interview Survey, and National Survey of Family Growth. 
Together, NCHS programs provide credible data necessary to answer basic 
questions about the State of our Nation's health.
    The President's fiscal year 2008 budget requests $109.9 million in 
program funds for National Center for Health Statistics. This 
recommendation represents an increase of $900,000 over the fiscal year 
2007. Despite this modest increase, if enacted, the President's request 
would only allow NCHS to purchase 10 months of vital statistics data. 
Recently, PAA and APC joined 150 other organizations in sending a 
letter (http://www.chsr.org/nchsletterhouse031507.pdf) to the House and 
Senate Appropriations Committees expressing concern about this matter 
and asking that NCHS receive $117 million in fiscal year 2008, an $8 
million increase over its fiscal year 2007 level. Without at least $3 
million in additional funding, the United States will become the first 
industrialized Nation unable to continuously collect birth, death, and 
other vital information. The full $8 million increase is necessary to 
not only restore integrity and stability to the vital statistics 
program, but also to restore other important data collection and 
analysis initiatives and to modernize systems NCHS uses to manage and 
protect its data.

                            RECOMMENDATIONS

    PAA and APC join the Ad Hoc Group for Medical Research in 
supporting an fiscal year 2008 appropriation of $30.8 billion, a 6.7 
percent increase over the fiscal year 2007 appropriation, for the NIH. 
We also urge the subcommittee to include language in the fiscal year 
2008 bill allowing the National Children's Study to continue and to 
appropriate $111 million for NCS in fiscal year 2008 through the NIH 
Office of the Director.
    PAA and APC, as members of the Friends of NCHS, support a fiscal 
year 2008 appropriation of $117 million, a 7 percent increase over the 
fiscal year 2007 appropriation, for the NCHS. This funding is needed to 
maintain the Nation's vital statistics system and to sustain and update 
the agency's major survey operations.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the field of demographic research.
                                 ______
                                 
    Prepared Statement of Project R&R: Release and Restitution for 
                    Chimpanzees in U.S. Laboratories

    Project R&R, whose advisory board of chimpanzee experts includes 12 
organizations with a combined membership of 500,000, respectfully 
submits testimony on our funding priority.
    We request that Federal funding for breeding chimpanzees for 
research, or for projects that require breeding, be terminated. We do 
so for the following reasons:
  --A ``surplus'' of chimpanzees has resulted from over-breeding in the 
        1980s for HIV/AIDS research and later findings that they are a 
        poor HIV/AIDS model.\1\
---------------------------------------------------------------------------
    \1\ National Research Council (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
---------------------------------------------------------------------------
  --There are enough chimpanzees to address existing federally funded 
        research.\2\
---------------------------------------------------------------------------
    \2\ Report of the Chimpanzee Management Plan Working Group to the 
National Advisory Research Resources Council; May 18, 2005.
---------------------------------------------------------------------------
  --As a result of the ``surplus,'' the government funds a national 
        sanctuary system.\3\
---------------------------------------------------------------------------
    \3\ http://www.ncrr.nih.gov/compmed/cm_chimp.asp
---------------------------------------------------------------------------
  --The current population costs in excess of about $11 million Federal 
        per year.
  --Breeding more chimpanzees increases taxpayers' financial burden.
  --Expansion of the population compounds existing concerns about their 
        quality of care.
  --While there is a breeding moratorium, NIH still funds research 
        projects requiring breeding.\4\ 
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
  --The public is concerned about the use of chimpanzees in research.

                               BACKGROUND

    Of an estimated 1,300 chimpanzees in laboratories in the United 
States today, approximately 850 are federally owned or supported. In 
the mid-1990s, the National Research Council (NRC) made recommendations 
to address the ``surplus'' that included a moratorium on breeding 
federally-owned or supported chimpanzees for at least 5 years \5\ 
(implemented in 1995). The National Advisory Research Resources 
Council, which advises NCRR on funding activities, policies, and 
program, met on 09/15/05 and recommended that NCRR extend the 
moratorium to 12/07. The recommendation was accepted \6\--reasons 
included the high costs associated with care and the fact that 
chimpanzees are a poor model for human HIV research.\7\ \8\
---------------------------------------------------------------------------
    \5\ National Research Council (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
    \6\ http://www.ncrr.nih.gov/compmed/cm_chimp.asp
    \7\ Muchmore, E., (2001) Chimpanzee models for human disease and 
immunobiology, Immunological Reviews, 183, 86-93.
    \8\ Reynolds, V., (1995) Moral issues in relation to chimpanzee 
field studies and experiments, Alternatives to Laboratory Animals, 23, 
621-625.
---------------------------------------------------------------------------
                      CIRCUMVENTING THE MORATORIUM

    Despite the moratorium, NIH funds research projects requiring 
breeding. For example, the National Institute of Allergy and Infectious 
Diseases (NIAID) maintains a contract with the New Iberia Research 
Center (NIRC) to provide 10 to 12 infants annually for research. The 10 
year contract entitled ``Leasing of chimpanzees for the conduct of 
research'' was allotted over $22 million (some $3.9 million plus has 
been spent since 2002).\9\
---------------------------------------------------------------------------
    \9\ Source: http://dcis.hhs.gov/nih/nih_daily_active_web.html (See 
contract No. 272022754)
---------------------------------------------------------------------------
    NIRC has also received $5.47 million from 09/00 to 08/05 for a 
grant from NCRR to maintain 138 chimpanzees for breeding. NIH/NCRR 
spends more than $1 million annually to maintain the NIRC breeding 
colony.\10\  These grants result in $9 million going to breeding-
related activities at NIRC alone since 2000.
---------------------------------------------------------------------------
    \10\ http://nirc.louisiana.edu/divisions/nihgrants.html
---------------------------------------------------------------------------
    Such expenditures circumvent the intent of the breeding moratorium, 
compelling the need to prevent the growing financial burden of 
increasing numbers of chimpanzees, particularly since, by the 
government's own admission, a ``surplus'' already exists.

                    COSTS FOR CHIMPANZEE MAINTENANCE

    The cost of care for chimpanzees is a major concern, particularly 
with NIH's tightening budget. In 1995, the Institute for Laboratory 
Animal Research (ILAR) published a study that projected the future 
costs of maintaining chimpanzees in U.S. research.\11\ ILAR, a division 
of the National Academies of Science, functions as ``an advisor to the 
Federal Government, the biomedical research community, and the 
public.'' \12\
---------------------------------------------------------------------------
    \11\ Dyke, B., Williams-Blangero, S. et al, 1995 ``Future costs of 
chimpanzees in U.S. research institutions,'' ILAR Journal V37(4) http:/
/dels.nas.edu/ilar_n/ilarjournal/37_4/37_4Future.shtml
    \12\ Institute for Laboratory Animal Research, website at http://
dels.nas.edu/ilar_n/ilarhome/about.shtml
---------------------------------------------------------------------------
    The ILAR study examined the per diem costs of the existing 
population of chimpanzees at six facilities. Taking into account a 
variety of factors such as longevity, distribution of sex, and 
complexity of care, it projected costs of maintaining the present 
colony over the next 60 years. To account for inflation, an annual 4 
percent increase was incorporated, corresponding approximately to the 
Biomedical Research and Development Price Index.
    The results of the study indicated that the lifetime cost of 
maintaining chimpanzees over the next 60 years--the approximate 
lifespan of chimpanzees in captivity--will exceed $3.14 billion. The 
1995 projection, however, was based on a population of 1,447 
chimpanzees. The present population of federally owned or supported 
chimpanzees in 2007, due to factors such as the implementation of the 
partial breeding moratorium in 1995, the end of the Air Force's use of 
chimpanzees and the close of the Coulston Foundation in 2002 (to which 
the majority of Air Force chimpanzees were sent), stands closer to 850. 
This represents approximately 59 percent of the 1,447 number used in 
ILAR's projection. Thus we can estimate the Federal cost of the 
existing colony to be $1.85 billion. The remainder of the original 
estimated $3.14 billion figure will now be carried by the U.S. public 
which contributes to the private sanctuaries caring for formerly 
federally owned or supported chimpanzees (minus a slight decrease in 
this estimate due to mortality). Thus, the caring American public has 
been burdened with the ethical obligation of some estimated $1.29 
billion to care for chimpanzees from laboratories, without any further 
obligation for this care placed on the laboratories themselves and with 
none of these privately funded sanctuaries having, at this time, access 
to Federal dollars for their chimpanzee care. Given the American 
public's deep and growing concern over the use of chimpanzees in 
research, the NIH's history of breeding has created a hidden, even if 
self-assumed, ``tax'' for that faction of the public concerned about 
the humane and ethical treatment of chimpanzees from research for which 
NIH no longer assumes any financial responsibility.
    The ILAR projection also concluded that the 2006 annual costs would 
be approximately $18.8 million. Adjusting this number by 59 percent 
results in $11 million spent in 2006 alone to maintain chimpanzees for 
research.
    It is important to note that $11 million represents only a partial 
estimate of the entire Federal expenditure for chimpanzee research. The 
total population of U.S. chimpanzees available for research is 
estimated at 1,300. Approximately 500 of these chimpanzees are 
privately owned. Privately owned chimpanzees are also partially funded 
by Federal research dollars. Therefore, the 2006 estimate of annual 
expenditure actually exceeds $11 million by an undetermined amount.

                            DELIVERY OF CARE

    USDA inspection reports indicate that facilities housing 
chimpanzees for research are not adequately meeting basic housing 
needs. Inspection reports for the NIRC 2004 showed some chimpanzees 
being housed in less than the minimal space requirements. The facility 
was given 1 year to correct the non-compliance, which needed to be 
further extended as construction of new housing facilities was still 
not completed. NIRC was also cited 7 times during its 12/04 inspection 
for improperly sanitizing cages and living quarters, as well as for 
failing to provide adequate environment enhancement.
    Inspection reports filed on the Southwest Foundation for Biomedical 
Research and the Yerkes Primate Facility, both National Primate 
Research Centers, also demonstrate multiple non-compliant items for 
failing to keep chimpanzee areas in well-maintained condition, and 
failing to maintain safe facilities free of dangers due to disrepair.

                              A POOR MODEL

    It is widely agreed within the scientific community that 
chimpanzees are a poor model for HIV. Years of research demonstrated 
that HIV-infected chimpanzees do not develop AIDS. Similarly, while 
chimpanzees are used in current hepatitis C research, they do not model 
the course of the human disease. The decoding of the chimpanzee genome 
pointed out similarities as well as differences between humans and 
chimpanzees. Some of those greatest differences relate to the immune 
system.\13\ Such differences question the validity of using chimpanzees 
in infectious disease research, further arguing the need to curb 
populations and costs.
---------------------------------------------------------------------------
    \13\ The Chimpanzee Sequencing and Analysis Consortium/Mikkelsen, 
TS, et al., (1 September 2005) Initial sequence of the chimpanzee 
genome and comparison with the human genome, Nature 437, 69-87.
---------------------------------------------------------------------------
                            ETHICAL CONCERNS

    The U.S. public is concerned about the use of chimpanzees in 
research because of their intellectual, emotional and social 
similarities to humans. A 2005 poll conducted by the Humane Research 
Council revealed that 4 out of 5 (83 percent) of the U.S. public 
recognize chimpanzees as highly intelligent, social individuals who 
have an extensive capacity to communicate. A full 71 percent of 
Americans support the release of chimpanzees if they have been used in 
research for more than 10 years.\14\ A 2001 poll conducted by Zogby 
International showed that 90 percent of Americans believe it is 
unacceptable to confine chimpanzees in government-approved cages.\15\
---------------------------------------------------------------------------
    \14\ U.S. Public Opinion of Chimpanzee Research, Support for a Ban, 
and Related Issues, Prepared for the New England Anti-Vivisection 
Society, by the Humane Research Council, 2005.
    \15\ Public Opinion Poll, Prepared for the Chimpanzee 
Collaboratory, by Zogby International, 2001.
---------------------------------------------------------------------------
                               CONCLUSION

    We respectfully request that the following language appear in the 
Senate Labor, Health and Human Services, Education and Related Agencies 
Appropriations Subcommittee Report for fiscal year 2008:
    ``None of these funds shall be used for the breeding of chimpanzees 
or research projects that require the breeding of chimpanzees.''
    We hope the committee will accommodate this modest request that 
will save the government substantial money, benefit chimpanzees, and 
allay some concerns and financial responsibilities of the public at 
large. Thank you for your consideration.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association

    Mr. Chairman, thank you for the opportunity to submit testimony on 
behalf of the Pulmonary Hypertension Association (PHA).
    I am honored today to represent the hundreds of thousands of 
Americans who are fighting a courageous battle against a devastating 
disease. Pulmonary hypertension (PH) is a serious and often fatal 
condition where the blood pressure in the lungs rises to dangerously 
high levels. In PH patients, the walls of the arteries that take blood 
from the right side of the heart to the lungs thicken and constrict. As 
a result, the right side of the heart has to pump harder to move blood 
into the lungs, causing it to enlarge and ultimately fail.
    PH can occur without a known cause or be secondary to other 
conditions such as: collagen vascular diseases (i.e., scleroderma and 
lupus), blood clots, HIV, sickle cell, or liver disease. PH does not 
discriminate based on race, gender, or age. Patients develop symptoms 
that include shortness of breath, fatigue, chest pain, dizziness, and 
fainting. Unfortunately, these symptoms are frequently misdiagnosed, 
leaving patients with the false impression that they have a minor 
pulmonary or cardiovascular condition. By the time many patients 
receive an accurate diagnosis, the disease has progressed to a late 
stage, making it impossible to receive a necessary heart or lung 
transplant.
    PH is chronic and incurable with a poor survival rate. Fortunately, 
new treatments are providing a significantly improved quality of life 
for patients. Recent data indicates that the length of survival is 
continuing to improve, with some patients managing the disorder for 20 
years or longer.
    Seventeen years ago, when three patients who were searching to end 
their own isolation founded the Pulmonary Hypertension Association, 
there were less than 200 diagnosed cases of this disease. It was 
virtually unknown among the general population and not well known in 
the medical community. They soon realized that this was unacceptable, 
and formally established PHA, which is headquartered in Silver Spring, 
Maryland.
    Today, PHA includes:
  --Over 7,000 patients, family members, and medical professionals as 
        members and an additional 28,000 supporters and friends.
  --A network of over 140 patient support groups.
  --An active and growing patient-to-patient telephone helpline.
  --Three research programs that, through partnerships with the 
        National Heart, Lung and Blood Institute and the American 
        Thoracic Society, will have directed more than $6 million 
        toward PH research as of December, 2007.
  --Numerous electronic and print publications, including the first 
        medical journal devoted to pulmonary hypertension--published 
        quarterly and distributed to all cardiologists, pulmonologists, 
        and rheumatologists in the United States.
  --A website dedicated to providing educational and support resources 
        to patients, medical professionals, and the public that, over 
        the past 9 years, has grown from receiving 600 visitors a month 
        to 220,000 visitors a month.

                  THE PULMONARY HYPERTENSION COMMUNITY

    Mr. Chairman, I am privileged to serve as the president of the 
Pulmonary Hypertension Association and to interact daily with the 
patients and family members who are seeking to live their lives to the 
fullest in the face of this deadly, incurable disease. I would like to 
share with you the stories of two remarkable PH patients, Emily Stibbs 
and Charity Tillemann-Dick. Emily's and Charity's stories illustrate 
the impact of pulmonary hypertension not only on PH patients, but also 
on everyone who care about them.
    When their daughter Emily was 5, Jack and Marcia Stibbs noticed 
that she could not keep up with the other children in the neighborhood. 
She seemed to lack the energy and strength to run and play. This 
condition worsened to the point where she would have to stop and rest 
after coming down the steps in the morning. Jack and Marcia noticed 
that when she was sitting on the bottom step in the morning, Emily's 
lips appeared to have a bluish color.
    Jack and Marcia pressed for an answer to these problems for several 
months, and Emily was finally diagnosed with pulmonary hypertension. 
Doctors told the Stibbs family that Emily's probable remaining lifespan 
was 3 years.
    Charity Tillemann-Dick's diagnosis with pulmonary hypertension took 
not months, but years. When Charity was in her late-teens, she had the 
opportunity to travel abroad and share her considerable talents as a 
budding opera singer at her grandfather's 75th birthday party in 
Budapest. Just before the performance, Charity collapsed, but the 
episode was explained away as a case of nerves.
    Over the next few years, Charity continued to have occasional 
fainting spells as well as a progressive loss in energy. She was 
diagnosed as being everything from out of shape to anemic. When Charity 
finally received an accurate diagnosis, her PH had progressed further, 
and was therefore more difficult to treat, than it would have been if 
she had been diagnosed while the disease was in its early stages.
    I am happy to report that, with treatment, Charity has continued to 
live a full and accomplished life, including performances at several 
world capitals. Emily, too, has outlived her 3-year prognosis by 7 
years and continues to thrive. There is, however, no cure for pulmonary 
hypertension. Each day, courageous patients of every age lose their 
battle with PH.
    Thanks to congressional action, and to advances in medical research 
largely supported by the NHLBI and other government agencies, Emily and 
Charity have an increased chance of living with their pulmonary 
hypertension for many more years. However, additional support is needed 
for research and related activities to continue to develop treatments 
that will extend the life expectancy of PH patients beyond the NIH 
estimate of 2.8 years after diagnosis.

            FISCAL YEAR 2008 APPROPRIATIONS RECOMMENDATIONS

National Heart, Lung and Blood Institute
    Mr. Chairman, PHA commends the National Heart, Lung and Blood 
Institute for its strong support of PH research, particularly through 
the creation of the Specialized Centers of Clinically Oriented Research 
in PH. We are very excited about the promise these Centers hold for the 
development of new treatments and for progress on the road to a cure. 
In addition, we applaud the NHLBI and the National Institutes of Health 
Office of Rare Diseases for their co-sponsorship a two-day scientific 
conference on pulmonary hypertension in December 2006. This important 
event provided an opportunity for leading PH researchers from the 
United States and abroad to discuss the State of the science in 
pulmonary hypertension and future research directions.
    According to these leading researchers, we are on the verge of 
significant breakthroughs in our understanding of PH and the 
development of new and advanced treatments. Twelve years ago, a 
diagnosis of PH was essentially a death sentence, with only one 
approved treatment for the disease. Thanks to advancements made through 
the public and private sector, patients today are living longer and 
better lives with a choice of five FDA approved therapies. Recognizing 
that we have made tremendous progress, we are also mindful that we are 
a long way from where we want to be in (1) the management of PH as a 
treatable chronic disease, and (2) a cure.
    One crucial step in continuing the progress we have made in the 
treatment of PH is the creation of a pulmonary hypertension research 
network. Such a network would link leading researchers around the 
United States, providing them with access to a wider pool of shared 
patient data. In addition, the network would provide researchers with 
the opportunities to collaborate on studies and to strengthen the 
interconnections between basic and clinical science in the field of 
pulmonary hypertension research. Such a network is in the tradition of 
the NHLBI, which, to its credit and to the benefit of the American 
public, has supported numerous similar networks including the Acute 
Respiratory Distress Syndrome Network and the Idiopathic Pulmonary 
Fibrosis Clinical Research Network.
    In order to maintain the important momentum in pulmonary 
hypertension research that has developed over the past few years, and 
to create a much needed pulmonary hypertension research network, the 
Pulmonary Hypertension Association encourages the subcommittee to 
provide the National Institutes of Health, particularly the NHLBI, with 
a 6.7 percent increase in funding in fiscal year 2008.
Centers for Disease Control and Prevention
    PHA applauds the subcommittee for its leadership over the years in 
encouraging the Centers for Disease Control and Prevention to initiate 
a Pulmonary Hypertension Education and Awareness Program. We know for a 
fact that Americans are dying due to a lack of awareness of PH, and a 
lack of understanding about the many new treatment options. This 
unfortunate reality is particularly true among minority and underserved 
populations. However Mr. Chairman, you don't have to rely solely on our 
word regarding the need for additional education and awareness 
activities. On November 11, 2005 the CDC released a long-awaited 
Morbidity and Mortality Report on pulmonary hypertension. In that 
report, the CDC states:
    (1) ``More research is needed concerning the cause, prevention, and 
treatment of pulmonary hypertension. Public health initiatives should 
include increasing physician awareness that early detection is needed 
to initiate prompt, effective disease management. Additional 
epidemiologic initiatives also are needed to ascertain prevalence and 
incidence of various pulmonary hypertension disease entities.'' (Page 
1, MMWR Surveillance Summary--Vol. 54 No. SS-5)
    (2) ``Prevention efforts, including broad based public health 
efforts to increase awareness of pulmonary hypertension and to foster 
appropriate diagnostic evaluation and timely treatment from health care 
providers, should be considered. The science base for the etiology, 
pathogenesis, and complications of pulmonary hypertension disease 
entities must be further investigated to improve prevention, treatment, 
and case management. Additional epidemiologic activities also are 
needed to ascertain the prevalence and incidence of various disease 
entities.'' (Page 7, MMWR Surveillance Summary--Vol. 54 No. SS-5)
    Mr. Chairman, we are grateful to the CDC for their recent support 
of a DVD highlighting the proper diagnosis of PH. However, despite 
repeated encouragement from the subcommittee over the past 5 years, CDC 
has not taken any steps to establish an education and awareness program 
on PH. Therefore, we respectfully request that you provide $250,000 in 
fiscal year 2008 for the establishment of a PH awareness initiative 
through the Pulmonary Hypertension Association.
``Gift of Life'' Donation Initiative at HRSA
    Mr. Chairman, PHA applauds the success of the Health Resources and 
Services Administration's ``Gift of Life'' Donation Initiative. This 
important program is working to increase organ donation rates across 
the country. Unfortunately, the only ``treatment'' option available to 
many late-stage PH patients is a lung, or heart and lung, 
transplantation. This grim reality is why PHA established ``Bonnie's 
Gift Project.''
    ``Bonnie's Gift'' was started in memory of Bonnie Dukart, one of 
PHA's most active and respected leaders. Bonnie battled with PH for 
almost 20 years until her death in 2001 following a double lung 
transplant. Prior to her death, Bonnie expressed an interest in the 
development of a program within PHA related to transplant information 
and awareness. PHA will use ``Bonnie's Gift'' as a way to disseminate 
information about PH, transplantation, and the importance of organ 
donation, as well as organ donation cards, to our community.
    PHA has had a very successful partnership with HRSA's ``Gift of 
Life'' Donation Program in recent years. Collectively, we have worked 
to increase organ donation rates and raise awareness about the need for 
PH patients to ``early list'' on transplantation waiting lists. For 
fiscal year 2008, PHA recommends an appropriation of $25 million (an 
increase of $2 million) for this important program.
    Mr. Chairman, once again thank you for the opportunity to present 
the views of the Pulmonary Hypertension Association. We look forward to 
continuing to work with you and the subcommittee to improve the lives 
of pulmonary hypertension patients.
                                 ______
                                 
   Prepared Statement of the Ryan White Title III Medical Providers 
                               Coalition

    The members of the Ryan White Title III Medical Providers Coalition 
are pleased to submit this statement for the record in strong support 
of a $35 million increase to Title III (Part C) of the Ryan White 
Program for the fiscal year 2008 appropriations cycle. The Title III 
Coalition was founded to ensure that the voices of the HIV clinicians 
working on the frontlines of the AIDS epidemic in rural and urban 
communities across the Nation are represented in policy and program 
discussions that affect their ability to meet the medical needs of 
their patients with HIV/AIDS, including the national debate over the 
appropriate funding levels for the Ryan White CARE Act programs.
    We formed our coalition in part to garner attention to the daily 
challenges we face in finding the necessary resources to ensure that 
our patients receive the comprehensive and complex medical care and 
services needed to sustain their health.
    Title III of the Ryan White CARE Act provides grants to support 
outpatient medical services to HIV-positive individuals in underserved 
communities with no other source of care and treatment. Many Title III 
grants are in communities in which they are the only service providers 
accessible to un- and under-insured individuals. Our clinics use Title 
III funds to provide the range of services required to effectively 
manage and treat HIV disease, including physician care, medications, 
adherence counseling, laboratory testing, nutrition counseling and in 
some cases, mental health and substance abuse treatment.
    Our clinical programs are seeing increasing numbers of patients 
with HIV/AIDS, with many of them presenting with serious, complex 
conditions in addition to HIV disease, such as hepatitis C. We expect 
this trend to increase as States implement the Centers for Disease 
Control and Prevention's (CDC) recommendations for making HIV testing a 
more routine component of medical care. Additional resources for 
medical care, drug treatments and critical enabling services are 
essential if we are to continue providing state-of-the-art HIV care to 
our current patients and those newly identified with HIV disease.
    As you finalize the funding recommendations for fiscal year 2008, 
we urge you to provide an urgently needed increase in funding for Title 
III (Part C) medical programs. After years of flat funding or decreases 
in grant awards, we estimate that the true need for these programs is 
an increase of at least $83.3 million over fiscal year 2007. This 
amount is based on the estimated annual cost of delivering HIV-related 
outpatient care ($2,414) multiplied by the current Title III caseload 
(191,229) plus the number of new patients that the Health Resources and 
Services Administration (HRSA) estimates will enter Title III programs 
in 2008 (36,333).
    We appreciate the funding constraints that the committee is facing 
in determining fiscal year 2008 funding levels for a whole range of 
critical health programs. Therefore, at a minimum, we urge you to 
include a nominal $35 million increase for Title III housed under the 
Ryan White Program, with a prioritization of increases within that $35 
million to current programs with the highest increases of patient 
burden. This proposed $35 million increase, albeit inadequate to 
respond to the flat funding and growing caseloads that have 
characterized our programs for a number of years, will help us to 
continue to provide our patients with the essential medical care 
necessary to preserve health and prevent disease progression.
    While Title III (Part C) funds are critical to our ability to meet 
the medical needs of low-income people with HIV/AIDS in our 
communities, the other Titles now referred to as Parts of the Ryan 
White CARE Act also are vital to supporting our HIV care systems. Many 
of us receive funding from multiple parts of the Ryan White CARE Act 
and use these resources to patch together a comprehensive system of 
care for our patients. We strongly support the Ryan White funding 
requests put forward by organizations representing other members of the 
HIVAIDS community.
    The HIV Medicine Association (HIVMA) and the American Academy of 
HIV Medicine (AAHIVM)--together representing most HIV clinical 
providers in the country--have joined forces to help assemble the Title 
III Coalition. Leadership of the Coalition includes providers from a 
wide range of settings, from New York City to New Orleans to Oakland, 
California.
    If you have questions about the coalition, please contact Andrea 
Weddle at 703-299-1215 or Greg Smiley at 202-659-0699.
                                 ______
                                 
    Prepared Statement of the Society for Investigative Dermatology

SUMMARY OF THE SOCIETY FOR INVESTIGATIVE DERMATOLOGY'S FISCAL YEAR 2008 
                            RECOMMENDATIONS

    A 6.7 percent increase for all of the National Institutes of Health 
(NIH) and for the National Institute of Arthritis and Musculoskeletal 
and Skin Diseases (NIAMS).
    Establish a skin disease clinical trials network that will collect 
baseline data for specific orphan diseases and facilitate the exchange 
of scientific data across disciplines and institutes.
    Encourage NIAMS to develop collaborative funding mechanisms with 
other NIH institutes and private foundations that leverage skin biology 
studies as a developmental model that will serve for the advancement of 
research across a multitude of diseases and specialties.
    Encourage NIAMS to sponsor studies that capture general and skin-
disease specific measures in order to generate incidence, prevalence 
and quality of life data attributable to skin diseases.
    Increase the number of training awards through the NIH designed to 
facilitate the entry of more individuals into careers in skin disease 
research.

                               BACKGROUND

    The Society for Investigative Dermatology (SID) was founded in 
1938. Its 2,000 members represent over 40 countries worldwide, 
including scientists and physician researchers working in universities, 
hospitals and industry.
    Along with our colleagues from the American Academy of Dermatology 
Association (AADA), members of the SID are dedicated to the advancement 
and promotion of the sciences relevant to skin health and disease 
through education, advocacy and the scholarly exchange of scientific 
information.
    This collective commitment to research is evidenced in the 
scientific journal published by the SID, the Journal of Investigative 
Dermatology (JID). The JID is a catalyst for the exchange of scientific 
information pertaining to the 3,000 skin diseases that afflict nearly 
80 million Americans annually.
    The purpose of submitting testimony is to increase awareness of the 
need for more skin research, based on the burden attributable to skin 
disease. It will also highlight some of the advancements that past 
support has enabled.
    We join with the Ad Hoc Group for Medical Research Funding in 
asking for a 6.7 percent increase for the National Institutes of Health 
(NIH) and the National Institute of Arthritis and Musculoskeletal and 
Skin Diseases (NIAMS).

                         BURDEN OF SKIN DISEASE

    Prior bill report language directed NIAMS to ``consider supporting 
the development of new tools to measure the burden of skin diseases, 
and the training of researchers in this important area''. There are 
only a handful of researchers working on NIH-sponsored research that 
will provide such measures.
    Skin disease impacts our citizens more than previously estimated. A 
report released in 2004 by the SID and the AADA, ``The Burden of Skin 
Disease'', compiled data from only 21 of the known 3,000 skin diseases 
and disorders. The estimated economic costs to society each year from 
those 21 diseases totaled nearly $39 billion.
    The true impact extends far beyond mere economics. These patients 
encounter discomfort and pain, physical disfigurement, disability, 
dependency and death. Skin conditions affect an individual's ability to 
interact with others and compromise the self-confidence of those 
inflicted.
    One of the most striking findings in the study was the lack of 
general and skin-disease specific measures that are needed to generate 
data surrounding the incidence, prevalence, economic burden, quality of 
life and handicaps attributable to these diseases.
    We ask the committee to devote the resources needed to develop 
components of national health surveys that capture dermatological data 
above and beyond skin cancer incidence and prevalence.

                           RESEARCH ADVANCES

    Skin is the body's largest organ and serves as the primary barrier 
to external pathogens and toxins. Researchers at the NIH campus and 
institutions around the country are working diligently to define how 
the skin functions to protect us, how this fails in disease, and how 
compromised functions in disease can be restored.
    Cell biology allows scientists to understand the life cycle of skin 
and hair-producing cells and identify the causes of disease, leading to 
better treatments and preventative measures. Advances in wound healing 
and skin ulcers are helping the elderly, veterans and patients with 
diabetes and burns. Lasers continue to provide less invasive options 
for patients requiring surgery.
    Fundamental discoveries resulting from skin biology and 
translational research have yielded advances that are broadly 
applicable to human development and disease. Continued investment is 
required to fully capitalize on these ground-breaking advances.
    Important new research findings include the following:
  --The genes responsible for skin cancer and inherited skin diseases 
        have been identified, making targeted therapy possible.
  --The molecular mechanisms of auto-immune and inflammatory skin 
        diseases are better understood, allowing for the use of 
        focused, selective immunosuppressive therapy with greater 
        safety and efficacy.
  --Oral medications to treat and prevent viral and fungal diseases 
        have become available.
  --Lasers have made possible the removal of disfiguring skin 
        malformations.
  --Modern phototherapy and photochemotherapy allow for more effective 
        treatment of inflammatory skin disease, lymphoma, depigmenting 
        disorders and auto-immune diseases.
  --Retinoids and sunscreens have reduced the risk of skin cancer in 
        the elderly, in transplant patients, and in other populations.
  --Painless transdermal drug delivery has become available.
    Recent developments in the areas of clinical epidemiology, 
biostatistics, economics and the quantitative social sciences have 
begun to provide objective evaluation measures, although additional and 
improved measures are still desperately needed. These measures will 
help to identify effective interventions and allow us to better 
quantify contributions to the quality of life and health of Americans.
    We ask the NIH to work to identify additional biomarkers in order 
to better understand skin disease pathways and interaction with other 
diseases and environmental factors.

           TRANSLATING DISCOVERY TO TREATMENTS FOR AMERICANS

    The goal of skin disease research is to improve the quality of life 
for the one in three Americans that suffer from skin disease. That goal 
is embedded in the collective missions of the SID and the intramural 
and extramural scientists funded through the skin portfolios of many of 
the 27 institutes and centers of the NIH.
    Medical research organizations such as the SID are the direct 
recipients of the awards made possible through the rigorous peer-
reviewed grant system in place at the NIH. The ultimate beneficiaries 
are the nearly 80 million Americans that stand to benefit from the 
discoveries resulting from research grants.
    Inadequate levels of Federal funding have forced the institute 
administrators to reduce certain types of the available funding 
mechanisms currently in place at the NIH, to decrease success rates, to 
increase administrative cost reductions, to consider decreasing the 
number of awards and to cut award levels in existing programs.
    Unfortunately, this reality impairs the ability of hypothesis-
driven research to drive the research system. Adequate funding levels 
will allow the peer-review system to work at full potential, leading to 
findings that translate into better care for those suffering from 
debilitating diseases. Without sufficient funding provided specifically 
for skin research, nearly one third of the Nation would be denied any 
hope for a better quality of life.
    We are grateful for the past support that has been given to the NIH 
and ask you to look for innovative ways to avoid flat or decreased 
funding levels for the institutes that are charged with improving the 
health of all Americans.
                                 ______
                                 
     Prepared Statement of the Society for Maternal-Fetal Medicine

    Mr. Chairman and members of the committee: The Society for 
Maternal-Fetal Medicine is pleased to have the opportunity to testify 
on behalf of the fiscal year 2008 budget for the National Institute of 
Child Health and Human Development and to extend to the committee our 
appreciation for the support you have provided over the years to the 
National Institutes of Health, and in particular the National Institute 
of Child Health and Human Development.
    Established in 1977, the Society for Maternal-Fetal Medicine (SMFM) 
is a not-for-profit organization of over 2,000 members that are 
dedicated to improving perinatal care through research and education. 
Maternal-fetal medicine doctors have advanced knowledge of the 
obstetrical, medical, genetic and surgical complications of pregnancy 
and their effects on both the mother and fetus. The many advances in 
research have allowed the maternal-fetal medicine physician to provide 
the direct care needed to treat the special problems that high risk 
mothers and fetuses face.
    Having a high-risk pregnancy means that a woman has a greater 
chance of complications because of conditions in her pregnancy, her own 
medical status or lifestyle, or due to external factors. Many times, 
complications are unexpected and may occur without warning. Other 
times, there are certain risk factors that make problems more likely. 
For example:
  --Preterm Birth.--Preterm birth is defined as births occurring before 
        37 weeks of gestation. Prematurity is the leading cause of 
        newborn death and an estimated 20 percent of infants who 
        survive suffer long term consequences, including cerebral 
        palsy, mental retardation, and developmental delays that affect 
        the child's ability to do well in school. The rate of preterm 
        births has increased 30 percent since 1981 and in 2004, 508,000 
        babies were born prematurely.
      Due to the growing problem of preterm birth, expanded research is 
        needed on the underlying causes of preterm delivery and the 
        development of treatments for the prevention of premature 
        birth. SMFM recommends that the NIH Common Fund be utilized as 
        a mechanism to fund research on preterm birth. As reported in 
        the 2006 Institute of Medicine report, ``Preterm Birth: Causes, 
        Consequences, and Prevention,'' a multidisciplinary research 
        approach is needed to better understand premature birth.
  --Adverse Pregnancy Outcome in Nulliparous Women.--A recent national 
        study showed that the rate of preterm births among first 
        pregnancies has increased over 50 percent over the past decade 
        and comprise about 40 percent of pregnant women in the United 
        States. The rate of adverse pregnancy outcomes is unpredictable 
        and substantial. For example, at least 12 percent of these 
        women will have a preterm delivery, with associated high rate 
        of neonatal mortality and long term morbidity. The data also 
        revealed that women in their first pregnancy are at highest 
        risk for developing pre-eclampsia, which puts them at risk for 
        devastating maternal complications, fetal death, and preterm 
        delivery. Once one of these adverse outcomes has occurred, 
        these women are considered at increased risk in their next 
        pregnancy. In addition, the study also showed a racial 
        disparity with Black women at a two-fold higher risk than white 
        women. The prediction and prevention of the first adverse 
        outcome is problematic and there is a paucity of research on 
        the etiology, mechanism, and potential preventive interventions 
        for poor pregnancy outcomes in this population.
      SMFM recommends that NICHD launch an intensive research study of 
        first pregnancy women in order to fill the major gap in our 
        knowledge for the prevention of these complications.
  --Outcomes of Assisted Reproductive Technology.--The increasing use 
        of assisted reproductive technology (ART) over the past two 
        decades has allowed thousands of infertile couples to have 
        children, currently accounting for 1.1 percent of the total 
        U.S. births and 17.1 percent of U.S. multiple births (CDC, 
        2002). ART includes all fertility treatments in which both eggs 
        and sperm are handled in vitro such as in vitro fertilization 
        with transcervical embryo transfer, gamete and zygote 
        intrafallopian transfer, frozen-embryo transfer, and donor 
        embryo transfer. Between 1996 and 2002, the number of births 
        after ART treatment in the United States increased by 120 
        percent. ART is a significant contributor to preterm delivery 
        and associated risks of prematurity. There is recent evidence 
        of higher rates of adverse pregnancy outcomes even in singleton 
        pregnancies associated with ART including increased preterm and 
        term low birth weight, very low birth weight, preterm delivery, 
        fetal growth restriction, genetic disorders, and congenital 
        anomalies. The risks of birth defects are two times higher in 
        ART babies as compared with naturally conceived singleton 
        babies.
      There is a lack of research on the mechanism for this increase in 
        the adverse pregnancy outcomes. There is also insufficient 
        research to date concerning the prevalence of adult chronic 
        conditions, learning and behavioral disorders, and other 
        reproductive effects in ART babies. Given the data for more 
        proximal outcomes, these long-term outcomes should also receive 
        further study. Preliminary results indicate that there may be 
        an increase incidence of autism in ART offspring.
      SMFM recommends a multi-center observational prospective cohort 
        study on ART be conducted that would emphasize pregnancy 
        outcomes--short- and long-term effects on children--to 
        determine if the increase in adverse pregnancy outcomes are 
        specifically related to the ART procedures versus underlying 
        factors within the couple, such as coexisting maternal disease, 
        the causes of infertility, or differences in behavioral risk 
        and examine each step in the ART process to understand the 
        mechanism for increased adverse pregnancy outcomes.
    The National Institute of Child Health and Human Development is to 
be congratulated for its efforts to advance our understanding of the 
magnitude of complications related to pregnancy and for its efforts to 
sustain the investment in research during this time of tight budget 
constraints.
  --A recent study found that molecules in blood can foretell the 
        development of preeclampsia, a life-threatening complication of 
        pregnancy. This finding appears to be an important step in 
        developing a cure for preeclampsia.
  --Researchers have developed an experimental vaccine that reduces 
        stillbirths among rodents born to mothers infected with 
        cytomegalovirus (CMV)--a common virus that can also cause 
        mental retardation and hearing loss in newborn children who 
        were infected in early fetal life.
    According to NIH Director Elias Zerhouni, ``medical science has 
dramatically improved our ability to help very small and premature 
babies survive. But as the rate of premature births continue to rise, 
it is even more critical that we develop ways to prevent many of the 
complications related to prematurity so that these children can lead 
healthy, robust lives.''

                            RECOMMENDATIONS

    SMFM urges this committee to continue to provide NICHD with 
sufficient funds so that the Institute can continue to make momentous 
advances in research that will result in improved health of mothers and 
children. We recommend:
  --Fund NIH at the amount authorized for fiscal year 2008 in the NIH 
        Reform Act of 2006.
  --Provide $1,448,544,000 for NICHD in fiscal year 2008.
  --Full funding for the--
    --Maternal Fetal Medicine Units Network so that it can continue to 
            address issues pertaining to preterm births and low birth-
            weight deliveries.
    --Genomics and Proteomics Network for Premature Birth, which will 
            hasten a better understanding behind the pathophysiology of 
            premature birth, discover novel diagnostic biomarkers and 
            ultimately aid in formulating more effective interventional 
            strategies to prevent premature birth.
    --Stillbirth Collaborative Research Network which is addressing 
            stillbirth, a major public health issue with morbidity 
            equality to that of all infant deaths.
    Thank you for allowing SMFM the opportunity to present our views to 
the committee.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, I am David Van Essen, 
PhD, president of the Society for Neuroscience (SfN) and the Edison 
Professor of Neurobiology and Head of the Department of Anatomy and 
Neurobiology at Washington University in St. Louis, MO. I also 
currently serve on the Advisory Council of the National Institute of 
Neurological Disorders and Stroke.
    I am writing in my capacity as SfN president to request your 
support for biomedical research funding at the National Institutes of 
Health (NIH). During the past several decades, NIH funding has allowed 
the neuroscience community to improve health outcomes and the quality 
of life for millions of Americans.

                 WHAT IS THE SOCIETY FOR NEUROSCIENCE?

    SfN is a nonprofit membership organization made up of more than 
36,500 basic scientists and physicians who study the brain and nervous 
system. Recognizing the tremendous potential for the study of the brain 
and nervous system as a separate field, the Society was formed in 1969. 
Since then, SfN has grown from 500 members to the world's largest 
organization of scientists devoted to the study of the brain. Today, 
there are more than 300 training programs in neuroscience in the United 
States alone.
    Neuroscience includes the study of how the brain senses and 
perceives our world, how it learns and remembers, how it controls our 
movements and our emotions, how it regulates sleep and responds to 
stress, how it develops and ages, and how it malfunctions in countless 
neurological and psychological disorders. Neuroscience also involves 
studies of the molecules, cells and genes responsible for proper 
nervous system functioning.
    SfN's primary goal is to advance the understanding of the brain and 
the nervous system in health and disease. As such, each fall, some 
30,000 scientists from around the world gather to exchange ideas about 
cutting-edge research on the brain, spinal cord, and nervous system at 
the Society's annual meeting.

                       THANK YOU FOR PAST SUPPORT

    SfN would like to thank the members of this subcommittee for their 
past support, which resulted in the doubling of NIH budget between 1998 
and 2003. In particular, we are extremely grateful that the fiscal year 
2007 Joint Resolution included an additional $620 million for NIH above 
the fiscal year 2006 funding level. This additional money will allow 
NIH to award an extra 500 research grants. It will also create a new 
$40 million program to support innovative, outside-the-box research, as 
well as $91 million for grants to first-time investigators.

                              MY RESEARCH

    Currently, my research focuses on the structure and function of the 
cerebral cortex in humans and nonhuman primates. The cerebral cortex is 
the dominant structure of the human brain. It plays a key role in 
mediating our perceptions of the world around us, our cognitive 
capabilities, our emotions, and the control of our movements. It is 
highly variable from one individual to the next and is largely 
responsible for our unique personalities. Many neurological and 
psychiatric disorders arise from abnormalities of the cerebral cortex 
that are caused by hereditary or developmental factors or by injuries 
to cortical gray matter or to the underlying white matter.
    My laboratory has developed novel methods of computerized brain 
mapping that allow accurate mapping of the complex convolutions of the 
cerebral cortex and accurate comparisons between individuals. Using 
these methods, we have worked with many collaborators to characterize 
patterns of cortical development in prematurely born human infants and 
abnormalities of cortical folding in specific disorders, including 
William's Syndrome, autism, and schizophrenia. We have compared humans 
and in macaque monkeys (an intensively studied nonhuman primate), in 
order to better understand the differences that reflect the dramatic 
evolution of the human brain as well as the similarities that reflect 
common principles of cortical structure and function. In addition, my 
laboratory is active in the newly emerging field of neuroinformatics; 
we have developed a database and related tools to help neuroscientists 
communicate their discoveries and share their experimental data more 
effectively, thereby accelerating the pace of discovery and the 
efficiency of the neuroscience research enterprise.

                     NIH-FUNDED RESEARCH SUCCESSES

    Today, scientists have a greatly improved understanding of how the 
brain functions thanks to NIH-funded research. To illustrate this 
progress SfN has created a 36-part series, called Brain Research 
Success Stories, which discuss some of the progress that has resulted 
from Federal funding for biomedical research. The following are just a 
few areas where our research efforts have helped the American public:
    (1) Down Syndrome.--About one out of every 800 babies is born with 
Down Syndrome (DS) a disorder that includes a combination of birth 
defects such as mental retardation, certain physical distinctions, and 
an increased risk of several medical conditions, including heart 
problems, intestinal malformations, and visual or hearing impairments.
    DS often results in high medical and non-medical costs, such as 
special education, rehabilitation, and other services. Data from 1992 
suggests that each new case of DS costs over $450,000 each year.
    NIH-funded research has led to the development of several medical 
tests that help identify whether a pregnant woman is carrying a baby 
with DS. These tests allow parents to prepare themselves mentally and 
financially, and give them time to secure intervention programs that 
can aid in their child's development.
    Once a child is born, research shows that early intervention 
programs can benefit those with DS. For example, adolescents with DS 
who received intervention programs early in life had significantly 
higher scores on measures of intellectual functioning than a comparison 
group. Such improvements might help those with DS live more 
independently and maintain a job later in life.
    (2) Schizophrenia.--This disease affects nearly 2 million 
Americans, and costs the United States over $32 billion a year in lost 
productivity and treatment. This devastating brain disorder torments 
sufferers with hallucinations, delusions, disordered thinking patterns, 
and memory deficits.
    In the past, many individuals with schizophrenia became permanently 
lost to the social withdrawal and other behavioral problems 
characteristic of this disease, which is rooted in abnormal biology of 
the brain. However, thanks to NIH-funded research, new treatments, such 
as clozapine, have been developed.
    Today's medications have fewer side effects and are more effective 
than older treatments. They help to quell the psychotic symptoms of 
schizophrenia, allowing patients to function more effectively in 
society. The medications also appear to cut the financial burden of the 
disease, decreasing hospital stays and treatment costs.
    (3) Amyotrophic Lateral Sclerosis.--Each year, 5,000 Americans are 
diagnosed with the progressive neurological disease, called amyotrophic 
lateral sclerosis (ALS), also known as Lou Gehrig's disease. The cost 
of treating these people is $300 million annually. ALS takes a quick 
toll on sufferers. Affected individuals may first notice muscle 
weakness, twitching, or cramping. The disease then progressively 
disables a person's ability to walk, talk, or swallow and, ultimately, 
to breathe. Many spend their last days completely unable to move, while 
their minds remain alert. ALS usually occurs in midlife and kills 
patients within 3 to 5 years of occurrence.
    Government-funded ALS research produced a number of important 
findings in the early 1990s. First, researchers were able to start 
pinning down how the disease progresses by identifying the role of the 
potentially toxic amino acid glutamate. ALS sufferers tend to have 
higher levels of this chemical messenger in certain parts of their 
body, and scientists have noted that nerve cells exposed to high 
concentrations of glutamate over a long time start to die.
    Researchers were able to use this basic research discovery to 
develop riuzole, an anti-glutamate drug that extends the lives of ALS 
patients. The first drug shown to change the course of ALS, it was 
approved by the Food and Drug Administration in 1995. In 1993, 
researchers supported by NIH identified a genetic component of the 
hereditary form of ALS and subsequently developed an animal model for 
ALS. This has allowed researchers to advance their study of the disease 
and to test dozens of potential treatments.

             RESEARCH IMPROVES HEALTH AND FUELS THE ECONOMY

    Diseases of the nervous system pose an enormous public health and 
economic challenge, as they directly affect nearly one in three 
Americans at some point in life, and indirectly affect nearly everyone 
by the adverse impact on family and friends. Understanding how the 
brain and nervous system develops, works, and ages--in health and 
disease--is the goal of neuroscientists. Improved health outcomes and 
positive economic data support the assertion that biomedical research 
is needed today to improve public health and save money tomorrow. 
Research drives innovation and productivity, creates jobs, and fuels 
local and regional economies.
    Not only does research save lives and fuel today's economy, it is 
also a wise investment in the future. For example, 5 million Americans 
suffer from Alzheimer's disease today, and the cost of caring for these 
people is staggering. Medicare expenditures are $91 billion each year, 
and the cost to American businesses exceeds $60 billion annually, 
including lost productivity of employees who are caregivers. As the 
baby boom generation ages and the cost of medical services increases, 
these figures will only grow. Treatments that could delay the onset and 
progression of the disease by 5 years could save $50 billion in 
healthcare costs each year. Research funded by the NIH is critical for 
the development of such treatments. The cost of investing in NIH today 
is minor compared to both current and future healthcare costs.

             PRESIDENT'S BUDGET NEGATIVELY IMPACTS RESEARCH

    SfN is disappointed that the Bush administration's fiscal year 2008 
budget proposes to cut funding for the National Institutes of Health by 
more than a half billion dollars in fiscal year 2008.
    Mr. Chairman, inflation has eaten into the NIH budget. The NIH now 
projects the Biomedical Research and Development Price Index (BRDPI) 
may increase by 3.7 percent for both fiscal year 2007 and fiscal year 
2008; 3.6 percent for fiscal year 2009 and 2010; and 3.5 percent for 
fiscal year 2011 and fiscal year 2012. Unfortunately, the President's 
budget for NIH did not factor in the increases in biomedical research 
inflation.
    Several years of funding for NIH that are well below inflation 
rates has made efficient research planning difficult, led to a slower 
rate of research progress, and delayed the payoffs from recent 
scientific advances. As you know, basic research projects take years 
from conception to completion. Many excellent research projects have 
been curtailed in recent years because of the low percent age of grants 
receiving funding. In order to have maximum impact in our search to 
understand and treat disorders, we need a consistent, adequate level of 
funding. Without such a strategy, the Federal Government runs the great 
risk of spending many more dollars later on in medical costs and time 
lost from work. In recent months, we have been speaking with leaders in 
the biotechnology and pharmaceutical industries, who depend on NIH-
funded discoveries a vital prelude to and driver of their product 
development efforts. They agree that rather than considering funding 
for NIH an expense, it should be considered an investment to address 
problems our country will face tomorrow.
    We need a funding stream that keeps pace with the potential for 
advances that will help people lead healthier, more productive lives. 
NIH became the premier biomedical research institution it is today only 
through sustained support from congressional leaders, like you, to 
invest in the best facilities, research, and projects selected through 
a non-political, rigorous, and competitive peer review system that is 
envied and is now being emulated around the world.

                    FISCAL YEAR 2008 BUDGET REQUEST

    NIH funded research saves lives and fuels the U.S. economy. 
Further, sustained investment in the NIH will lead to more effective 
treatments that will lessen future healthcare costs for the baby boom 
generation. Unfortunately, inflation and relatively flat funding have 
eaten into the NIH budget.
    The Society for Neuroscience supports a 6.7 percent increase in 
funding for NIH per year for each of the next 3 fiscal years. This 
increase translates to an additional $1.9 billion for NIH in fiscal 
years 2008, 2009, and 2010.
    This sustained increase is necessary to make-up for lost purchasing 
power that has occurred in the past 3 years. In addition, increased 
funding will help NIH to achieve future research goals by, among other 
things, helping to ensure that our best and brightest young people will 
enter the field and continue to make neuroscience research advances 
that are so vital to achieving a healthier Nation and a robust economy.
    Mr. Chairman, thank you for the opportunity to submit testimony 
before this subcommittee.
                                 ______
                                 
   Prepared Statement of the Society of Teachers of Family Medicine; 
 Association of Departments of Family Medicine; Association of Family 
Medicine Residency Directors; and North American Primary Care Research 
                                 Group

  HEALTH PROFESSIONS: PRIMARY CARE MEDICINE AND DENTISTRY (TITLE VII, 
                              SECTION 747)

    We request that this committee fund the Primary Care Medicine and 
Dentistry Cluster (section 747 of Title VII) at no less than the fiscal 
year 2005 level of $88.8 million. This cluster received $48.9 million 
in the final fiscal year 2007 spending resolution, but the President's 
budget for fiscal year 2008 eliminates Title VII Health Professions 
Grants, except for $10 million in Scholarships for Disadvantaged 
Students.
    In fiscal year 2006, funding for the health professions programs 
was cut dramatically. The primary care medicine and dentistry cluster 
was cut by 54 percent. The effect was to prevent any new competitive 
grant applications for that year and to cut the funding of those grants 
that were continuing in their second or third year. This year, instead 
of providing the committee with national studies regarding the 
effectiveness of these programs, we would like to put a human face to 
the impact of the cuts in fiscal year 2006. Below are anecdotes 
received from across the country showing, in their own words, how the 
institutions that apply for and receive these grants were affected by 
the loss of almost $50 million of Federal funding.
    University of Iowa, Department of Family Medicine.--At Iowa, we 
furloughed 5 individuals (that means let them go) related to our 
educational and academic mission. We have had to shift funding from 
other core areas and reduce or eliminate programs that focused mostly 
on primary care fellowship training, academic development, preceptor 
education development and travel support to rural Iowa communities. Our 
department had consistently received about $800,000 to $1,000,000 a 
year over the last 30 years and now we have none of that support. Paul 
James, MD, Chair, Department of Family Medicine
    University of Buffalo, Department of Family Medicine.--Here at the 
University at Buffalo we have laid off a PhD Clinical Psychologist who 
had been with the Department for 9 years. He participated actively in 
our clerkship training and in our residency training. He taught both 
students and residents about helping patients change behaviors (quit 
smoking, etc) and trained residents in dealing with difficult or non-
compliant patients as well as the more difficult and time consuming 
issues of long term family therapy. We also laid off a master degree 
medical education specialist. We are the only medical school department 
to have had a person like this on our staff but she assured that our 
exams measured the goals of our training and our curriculum taught to 
these goals. Tom Rosenthal, MD, Chair, Department of Family Medicine
    Tufts University, Division of Family Medicine.--At Tufts, we hired 
three minority faculty to increase the diversity of our faculty and now 
we will have to let go of one of them and reduce the time significantly 
of the other two because of our loss of funding. We also have an 
educational program that teaches students how to interview patients who 
do not speak English through a medical interpreter. We will have to cut 
that program as well. Wayne Altman, MD FAAFP
    Montana Family Medicine Residency.--Many of our successes, 
including the integration of a top notch primary care mental illness 
management and collaborative program and a Northern Plains Indian 
cultural education program, have been possible only through Title VII 
funding. Our growth as a rather isolated residency--the only one in the 
State in any specialty, and remote from our affiliated University--is 
dependent on grant programs that are specifically designed for family 
medicine resident training . . . Geographically isolated programs like 
ours in Montana and also Alaska, and Wyoming also need to develop their 
own infra-
structure . . . Roxanne Fahrenwald MD, Director, Montana Family 
Medicine Residency.
    University of North Carolina, Department of Family Practice.--We 
cut one of our objectives [in our continuation grant] because there was 
not enough money to pay for it. It was a session on health disparities 
that we intended to introduce to all of our clerkship students, and 
then have them look at the issue during their clinical experience in a 
practice. The money we had intended to pay for the faculty involved was 
eliminated and she had to make it up from patient care time. Bob 
Gwyther, MD
    Thomas Jefferson University, Department of Family and Community 
Medicine.--. . . . Predoctoral--Unable to expand our rural Physician 
Shortage Area Program (which has successfully increased the rural 
physician supply in Pennsylvania) to the State of Delaware; and unable 
to develop and implement new curricula focusing on vulnerable 
populations in the areas of health literacy, oral health, domestic 
violence, and medical professionalism. Howard Rabinowitz, MD [This 
entry was extracted from a longer list of six program areas that were 
deeply affected by these cuts]
    WWAMI (a Partnership Between the University of Washington School of 
Medicine and the States of Wyoming, Alaska, Montana, and Idaho).--We 
have had some programmatic impacts on the faculty development 
fellowship program across the five WWAMI States. For us the impact of 
the funding cut was having to eliminate the support for a second year 
of training that would have exported fellows' projects to other 
programs and nationally. This was the opportunity to make use of what 
they had gained in the fellowship year in a way that solidified their 
learning and spread that learning to others. These changes meant the 
discipline, the region, and BHP [Bureau of Health Professions] didn't 
get to reap the benefit of these physicians' activities. In a sense 
they lost the public good beyond the training of the individual 
faculty. [emphasis added] Finally we lost the chance to see if that new 
model worked. Ardis Davis, MSW

         THE AGENCY FOR HEALTH CARE RESEARCH AND QUALITY (AHRQ)

    We request funding of $350 million for AHRQ in fiscal year 2008. 
This is an increase of $31 million over fiscal year 2007, and $20 
million more than the President's fiscal year 2008 budget request. It 
should be noted however that a much larger investment should be made, 
as recommended by The Institute of Medicine's report, Crossing the 
Quality Chasm: A New Health System for the 21st Century (2001). It 
recommended $1 billion a year for AHRQ to ``develop strategies, goals, 
and actions plans for achieving substantial improvements in quality in 
the next 5 years . . .'' The report looked at redesigning health care 
delivery in the United States. AHRQ is a linchpin in retooling the 
American health care system.
    For the last several years, funding for AHRQ has remained 
relatively stagnant, while it's portfolio of work has increased 
dramatically. Our researchers are finding that investigator-initiated 
grants are very difficult to obtain. In their own words, this is the 
status of AHRQ funding:
    Brown University, Department of Family Medicine.--AHRQ funds so 
little new research we discourage people from applying to them. They 
could fund practice innovation; networks; new models of care; guideline 
research; doctor-patient communication research; electronic health 
record research. Jeffrey Borkan, MD, Chair
    University of Connecticut, Department of Family Medicine.--A 
general plea for more ``investigator initiated'' research at AHRQ is 
very important. Most of their funds recently have been targeted to 
special initiatives and the new or experienced health services 
researcher is getting discouraged because there is no money to fund 
good ideas that develop a line of research. When I was on the study 
section I saw a lot of good, fundable research go unfunded because of 
pay lines. This will dry up the pipeline of HSR researchers. The 
agency's funding level needs to be re-expanded . . . to enable the REAL 
health services research and quality-of-care/outcomes research to 
proceed (especially as there is, more than ever, a huge need to 
restructure the delivery of healthcare, and a need to measure the 
outcomes of those changes) Rob Cushman, MD Chair, and Judith Fifield, 
PhD
    Oregon Health and Sciences University, Department of Family 
Medicine.--Lately, I know AHRQ has had a difficult time funding K-award 
for junior researchers. Last year, they went three cycles without 
funding anyone. This lack of funding will have a grave affect on 
building the research infrastructure for primary care and health 
services research. Specific to R03 and R01 awards, they have been 
unable to fund countless worthy projects. In Oregon, we've had a lot of 
State policy experiments that desperately need further study, but 
applications to AHRQ have been rejected. Jennifer E. DeVoe, MD, DPhil

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    This is the first time that our organizations have made a request 
for funding for the NIH. Historically, much of the work that has been 
done at NIH hasn't been open to the kinds of questions that family 
medicine researchers have been concerned about. We are encouraged by 
the development of the NIH Roadmap and the Clinical and Translational 
Science Awards (CTSA), along with the establishment, in statute, of a 
funding stream for the common fund that NIH is moving to becoming a 
more fertile arena for family medicine and other primary care research. 
Hence, we support the Ad Hoc Group for Medical Research and others' 
call for an increase in NIH funding by 6.7 percent in each of the next 
3 years. However, there are major strides we believe NIH needs to make 
to ensure that the promise of bench to bedside research truly becomes 
bench to bedside to community--and back. What do we mean by that? In 
their own words:
    University of Connecticut, Department of Family Medicine.--Adding 
more ``action research'', in which the community (including, but not 
exclusively, the community clinicians) participates more in the 
definition of the problem, the design of the solution, and the 
dissemination and management of the results as they evolve, could 
augment the impactfulness of the eventual findings. Rob Cushman, MD, 
Chair
    University of Buffalo, Department of Family Medicine.--I think 
Family Medicine would like to see more opportunities for PBRN and 
community based participatory research approaches to further the 
translation of research from bedside to patient. In parallel, current 
study sections are heavily weighted with bench and clinical trial 
researchers. Having more family medicine researchers participate on 
review boards will help get more of these types of grants funded. Tom 
Rosenthal, MD, Chair
    University of Massachusetts, Department of Family Medicine and 
Community Health.--As for NIH, trying to sell real-world interventions 
that may not be scientifically pure but answer relevant questions for 
improving care to study sections remains a challenge. Many editorials 
have been written about the lack of applicability of much RCT evidence 
to real-world practice situations because the populations have been so 
carefully selected that they are not remotely representative of primary 
care patients. Furthermore, for primary care researchers, the need to 
choose a disease or organ and focus narrowly to succeed at NIH is quite 
problematic--research affecting primary care needs to focus on 
patients, providers, and processes . . . Barry Saver, MD, MPH

                               CONCLUSION

    We hope that the committee will be able, with the more generous 
figures included in the fiscal year 2008 House and Senate Budget 
Resolutions this year, to fund increases in these three important 
programs: health professions primary care medicine and dentistry 
training, AHRQ, and NIH. Certainly, at a minimum, we request that 
funding cuts to the health professions primary care medicine and 
dentistry training program be restored to at least fiscal year 2005 
levels of $88.8 million. As a reminder however, these programs were 
funded at a historic high of $93 million in fiscal year 2002, and we 
support a return to that figure.
                                 ______
                                 
   Prepared Statement of the Society for Women's Health Research and 
                   Women's Health Research Coalition

    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit the 
following testimony in support of Federal funding of biomedical 
research at NIH and, more specifically, an investment into women's 
health research.
    The Society for Women's Health Research is the only national non-
profit women's health organization whose mission is to improve the 
health of women through research, education, and advocacy. Founded in 
1990, the Society brought to national attention the need for the 
appropriate inclusion of women in major medical research studies and 
the need for more information about conditions affecting women 
disproportionately, predominately, or differently than men. In 1999, 
the Women's Health Research Coalition was created by the Society as a 
grassroots advocacy effort consisting of scientists, researchers, and 
clinicians from across the country that are concerned and committed to 
improving women's health research.
    The Society and Coalition are committed to advancing the health of 
women through the discovery of new and useful scientific knowledge. We 
believe that sustained funding for biomedical and women's health 
research programs conducted and supported across the Federal agencies 
is absolutely essential if we are to meet the health needs of the 
population and advance the Nation's research capability.

                     NATIONAL INSTITUTES OF HEALTH

    From decoding the human genome to elucidating the scientific 
components of human physiology, behavior, and disease, scientists are 
unearthing exciting new discoveries which have the potential to make 
our lives and the lives of our families longer and healthier. The 
National Institutes of Health (NIH) has facilitated these advances by 
conducting and supporting our Nation's biomedical research. 
Congressional investment and support for NIH has made the United States 
the world leader in medical research and has provided a direct and 
significant impact on women's health research and the careers of women 
scientists over the last decade.
    Great strides and advancements have been made since the doubling of 
the NIH budget from $13.7 billion in 1998 to $27 billion in 2003. 
However, we are concerned that the momentum driving new research has 
been eroded under the current budgetary constraints. Medical research 
must be considered an essential investment--an investment in thousands 
of newly trained and aspiring scientists; an investment to remain 
competitive in the global marketplace; and an investment in our 
Nation's health. A large majority of Americans believe they are 
receiving the highest quality and latest advancements in health care 
and they depend upon Congress to make a strong investment in biomedical 
research at NIH to continue that expectation.
    Unfortunately, the administration's fiscal year 2008 budget request 
of $28.6 billion for NIH is unraveling the successes gained from the 
doubling of NIH's budget. NIH only truly receives $28.3 billion in the 
proposed budget due to the transfer of $300 million to the Global Fund 
to Fight HIV/AIDS. Further, the proposed budget actually represents a 
decrease of $511 million when compared to the amount provided for NIH 
research activities in the fiscal year 2007 continuing resolution. Not 
only does the proposed decrease not keep pace with the inflation rate, 
but it is lower than that of the Biomedical Research and Development 
Price Index.
    Without a robust budget, NIH will be forced to reduce the number of 
grants it is able to fund. In this current fiscal year, 500 fewer 
grants would have been funded by NIH had it not received additional 
funding under the fiscal year 2007 continuing resolution. The number of 
new grants funded by NIH has already been dropping steadily since 
fiscal year 2003 and this trend must stop. This shrinking pool of 
available grants has a significant impact on scientists who depend upon 
NIH support to cover their salaries and laboratory expenses to conduct 
high quality biomedical research. Failure to obtain a grant results in 
reduced likelihood of achieving tenure. This means that new and less 
established researchers will be forced to consider other careers, with 
the end result being the loss of the critical workforce so desperately 
needed to sustain America's cutting edge in biomedical research.
    In order to continue the momentum of scientific advancement and 
expedite the translation of research from the laboratory to the 
patient, the Society calls for a 6.7 percent increase over fiscal year 
2007 actual budget for the NIH for fiscal year 2008. In addition, we 
request that Congress strongly encourage the NIH to assure that women's 
health research receives resources sufficient to meet the health needs 
of all women.
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes. Sex differences play an important role in disease 
susceptibility, prevalence, time of onset and severity and are evident 
in cancer, obesity, coronary heart disease, immune dysfunction, mental 
health disorders, and other illnesses. Congress recognizes the 
importance of this research and should support NIH at an appropriate 
level of funding and direct NIH to continue expanding research into 
sex-based biology.

                  OFFICE OF RESEARCH ON WOMEN'S HEALTH

    The NIH Office of Research on Women's Health (ORWH) has a 
fundamental role in coordinating women's health research at NIH, 
advising the NIH Director on matters relating to research on women's 
health; strengthening and enhancing research related to diseases, 
disorders, and conditions that affect women; working to ensure that 
women are appropriately represented in research studies supported by 
NIH; and developing opportunities for and support of recruitment, 
retention, re-entry and advancement of women in biomedical careers. 
ORWH has a pivotal role within the NIH structure and beyond to maintain 
and advance not only biomedical research in women's health but also 
careers of women in science and medicine. ORWH co-chaired a task force 
with the Director of NIH examining a report by the National Academies 
of Science regarding women in medicine and science. It is through ORWH 
that many initiatives can be achieved to strengthen the position of 
women scientists. Further, ORWH strives to address sex and gender 
perspectives of women's health and women's health research, as well as 
differences among special populations of women across the entire life 
span, from birth through adolescence, reproductive years, menopausal 
years and elderly years.
    Two highly successful programs supported by ORWH that are critical 
to furthering the advancement of women's health research are Building 
Interdisciplinary Research Careers in Women's Health (BIRCWH) and 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health (SCOR). These programs benefit the health of both women 
and men through sex and gender research, interdisciplinary scientific 
collaboration, and provide tremendously important support for young 
investigators in a mentored environment.
    The BIRCWH program is an innovative, trans-NIH career development 
program that provides protected research time for junior faculty by 
pairing them with senior investigators in an interdisciplinary mentored 
environment. What makes BIRCWH so unique is that it bridges advanced 
training with research independence across scientific disciplines. It 
is expected that each scholar's BIRCWH experience will culminate in the 
development of an established independent researcher in women's health. 
The BIRCWH has released four RFAs (1999, 2001, 2004, and 2006). Since 
2000, 287 scholars have been trained (76 percent women) in the 24 
centers resulting in over 882 publications, 750 abstracts, 83 NIH 
grants and 85 awards from industry and institutional sources. Each 
BIRCWH receives approximately $500,000 a year, most of which comes from 
the ORWH budget.
    The SCOR program, administered by the National Institute of 
Arthritis and Musculoskeletal and Skin Diseases, was developed by ORWH 
in 2000 through an initial RFA that resulted in 11 SCOR Centers out of 
36 applications. SCORs are designed to increase the transfer of basic 
research findings into clinical practice by housing laboratory and 
clinical studies under one roof. The program was designed to complement 
other federally supported programs addressing women's health issues 
such as BIRCWH. The eleven SCOR programs are conducting 
interdisciplinary research focused on major medical problems affecting 
women and comparing gender difference to health and disease. Each SCOR 
works hard to transfer their basic research findings into the clinical 
practice setting. A second RFA is due to be funded in 2007 with 
virtually no hope of expanding or matching the number of current SCOR 
programs, due to anticipated budget shortfalls. Each program costs 
approximately $1 million per year.
    Despite the advancement of women's health research and ORWH's 
innovative programs to advance women scientists, it received a $15,000 
decrease for fiscal year 2007 after having also received a cut of 
$249,000 for fiscal year 2006 from the Office of the Director. It is 
unconscionable to cut the funds from this critical program at NIH. This 
research is vital to women and men and we implore Congress to direct 
NIH to continue its support of ORWH and its programs.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

    The Department of Health and Human Services (HHS) has several 
offices that enhance the focus of the government on women's health 
research. Agencies with offices, advisors or coordinators for women's 
health or women's health research are the Department of HHS, the Food 
and Drug Administration, the Centers for Disease Control and 
Prevention, the Agency for Healthcare Quality and Research, the Indian 
Health Service, the Substance Abuse and Mental Health Services 
Administration, the Health Resources and Services Administration, and 
the Centers for Medicare and Medicaid Services. These agencies need to 
be funded at levels adequate for them to perform their assigned 
missions. We ask that the committee report clarify that Congress 
supports the permanent existence of these various offices and would 
like to see them appropriately funded to insure that their programs can 
continue and be strengthened in the coming fiscal year.

                      HHS OFFICE OF WOMEN'S HEALTH

    The HHS Office of Women's Health (OWH) is the Government's champion 
and focal point for women's health issues. It works to redress 
inequities in research, health care services, and education that have 
historically placed the health of women at risk. The OWH coordinates 
women's health efforts in HHS to eliminate disparities in health status 
and supports culturally sensitive educational programs that encourage 
women to take personal responsibility for their own health and 
wellness. An extraordinary program initiated by the OWH is the National 
Centers of Excellence in Women's Health (CoEs).
    Developed in 1996, the CoE's offer a new model for university-based 
women's health care. Selected on a competitive basis, the current 
twenty CoEs throughout the country seek to improve the health of all 
women across the lifespan through the integration of comprehensive 
clinical health care, research, medical training, community outreach 
and public education, and medical school faculty leadership 
development. The CoEs are able to reach a more diverse population of 
women, including more women of color and women beyond their 
reproductive years. However, CoEs are vulnerable to pressures of 
obtaining adequate funding and having to compete for scarce resources. 
A CoE designation by the OWH is critical not only to patients and 
surrounding communities but also to establishing foundation and other 
non-government funding. The CoEs must continue to exist and must have 
their funding assured if women are to be able to continue to access 
quality care through the life cycle. It is our understanding that the 
funding for CoEs is being cut in fiscal year 2007 and 2008. This must 
not happen.
    In fiscal year 2006, OWH received a $1 million decrease in its 
budget, bringing it to $28 million, and in fiscal year 2007 under the 
continuing resolution it was flat funded at the fiscal year 2006 level. 
The President's proposed fiscal year 2008 budget decreases OWH funding 
by $1 million again, bringing the budget down to $27 million. We urge 
Congress to provide an increase of $2 million for the HHS OWH, to bring 
funding back up to the fiscal year 2005 level. This will allow OWH to 
continue and to sustain and expand the National Centers of Excellence 
in Women's Health.

               AGENCY FOR HEALTHCARE AND RESEARCH QUALITY

    The Agency for Healthcare Research and Quality (AHRQ) is the lead 
Public Health Service Agency focused on health care quality, including 
coordination of all Federal quality improvement efforts and health 
services research. AHRQ's work serves as a catalyst for change by 
promoting the results of research findings and incorporating those 
findings into improvements in the delivery and financing of health 
care. This important information provided by AHRQ is brought to the 
attention of policymakers, health care providers, and consumers who can 
make a difference in the quality of health care that women receive.
    AHRQ has a valuable role in improving health care for women. 
Through AHRQ's research projects and findings, lives have been saved 
and underserved populations have been treated. For example, women 
treated in emergency rooms are less likely to receive life-saving 
medication for a heart attack. AHRQ funded the development of two 
software tools, now standard features on hospital electrocardiograph 
machines that have improved diagnostic accuracy and dramatically 
increased the timely use of ``clot-dissolving'' medications in women 
having heart attacks.
    While AHRQ has made great strides in women's health research, the 
administration's budget for fiscal year 2008 could threaten such life-
saving research. Even with the administration's proposed budget for 
fiscal year 2008, which includes an $11 million increase, this does not 
address the major shortfall which this Agency has been operating under 
for years. Furthermore, this budget increase is targeted for a specific 
program and does not help to address the lack of funding that the 
women's health office has experienced for years. If instead a budget of 
$319 million were enacted, AHRQ would be virtually flat funded for the 
fifth year in a row at fiscal year 2007 levels. Flat funding seriously 
jeopardizes the research and quality improvement programs that Congress 
demands or mandates from AHRQ.
    We encourage Congress to fund AHRQ at $443 million for fiscal year 
2008. This will ensure that adequate resources are available for high 
priority research, including women's health care, gender-based 
analyses, Medicare, and health disparities.
    In conclusion, Mr. Chairman, we thank you and this committee for 
its strong record of support for medical and health services research 
and its unwavering commitment to the health of the Nation through its 
support of peer-reviewed research. We look forward to continuing to 
work with you to build a healthier future for all Americans.
                                 ______
                                 
           Prepared Statement of the Spina Bifida Association

                                SUMMARY

    On behalf of the more than 70,000 individuals and their families 
who are affected by Spina Bifida--the Nation's most common, permanently 
disabling birth defect--the Spina Bifida Association (SBA) appreciates 
the opportunity to submit written testimony for the record regarding 
fiscal year 2008 funding for the National Spina Bifida Program and 
other related Spina Bifida initiatives.
    SBA respectfully requests that the subcommittee provide the 
following allocations in fiscal year 2008 to help improve quality-of-
life for people with Spina Bifida:
    (1) $7 million to the National Spina Bifida Program at the National 
Center on Birth Defects and Developmental Disabilities at the Centers 
for Disease Control and Prevention (CDC) to support existing program 
initiatives and allow for the further development of the National Spina 
Bifida Patient Registry; and
    (2) $200,000 to the Agency for Healthcare and Quality to support 
its validation of quality patient treatment data measures for the 
National Spina Bifida Patient Registry.
    As you may know, these funding requests are supported by a broad 
bipartisan group of Members of Congress, including congressional Spina 
Bifida caucus leaders, Representatives Bart Stupak, Chris Smith, Ileana 
Ros-Lehtinen, and Dan Burton, among many others.

                          COST OF SPINA BIFIDA

    It is important to note that the lifetime costs associated with a 
typical case of Spina Bifida--including medical care, special 
education, therapy services, and loss of earnings--are as much as $1 
million. The total societal cost of Spina Bifida is estimated to exceed 
$750 million per year, with just the Social Security Administration 
payments to individuals with Spina Bifida exceeding $82 million per 
year. Moreover, tens of millions of dollars are spent on medical care 
paid for by the Medicaid and Medicare Programs. Our Nation must do more 
to help reduce the emotional, financial, and physical toll of Spina 
Bifida on the individuals and families affected. Efforts to reduce and 
prevent suffering from Spina Bifida help to save money and save lives.

  IMPROVING QUALITY-OF-LIFE THROUGH THE NATIONAL SPINA BIFIDA PROGRAM

    SBA has worked with Members of Congress to ensure that our Nation 
is taking all the steps possible to prevent Spina Bifida and diminish 
suffering for those currently living with this condition. With 
appropriate, affordable, and high-quality medical, physical, and 
emotional care, most people born with Spina Bifida likely will have a 
normal or near normal life expectancy. The National Spina Bifida 
Program at the CDC works on two critical levels--to reduce and prevent 
Spina Bifida incidence and morbidity and to improve quality-of-life for 
those living with Spina Bifida. The program seeks to ensure that what 
is known by scientists is practiced and experienced by the 70,000 
individuals and families affected by Spina Bifida. Moreover, the 
National Spina Bifida Program works to improve the outlook for a life 
challenged by this complicated birth defect--principally identifying 
valuable therapies from in-utero throughout the lifespan and making 
them available and accessible to those in need.
    The National Spina Bifida Program serves as a national center for 
information and support to help ensure that individuals, families, and 
other caregivers, such as health professionals, have the most up-to-
date information about effective interventions for the myriad primary 
and secondary conditions associated with Spina Bifida. Among many other 
activities, the program helps individuals with Spina Bifida and their 
families learn how to treat and prevent secondary health problems, such 
as bladder and bowel control difficulties, learning disabilities, 
depression, latex allergy, obesity, skin breakdown and social and 
sexual issues. Children with Spina Bifida often have learning 
disabilities and may have difficulty with paying attention, expressing 
or understanding language, and grasping reading and math. All of these 
problems can be treated or prevented, but only if those affected by 
Spina Bifida--and their caregivers--are properly educated and taught 
what they need to know to maintain the highest level of health and 
well-being possible. The National Spina Bifida Program's secondary 
prevention activities represent a tangible quality-of-life difference 
to the 70,000 individuals living with Spina Bifida with the goal being 
living well with Spina Bifida.
    One way to increase research in Spina Bifida, improve quality and 
save precious resources is to establish a patient registry for Spina 
Bifida. Plans are underway to create the National Spina Bifida Patient 
Registry intended to determine both the best practices clinically and 
the cost effectiveness of treatment of Spina Bifida and the support the 
creation of quality measures to improve care overall. It is only 
through research towards improved care that we can truly save lives 
while realizing a significant cost savings.
    In fiscal year 2007, SBA requested $6 million be allocated to the 
National Spina Bifida Program to support and expand the National Spina 
Bifida Program. Although the House version o the fiscal year 2007 LHHS 
appropriations bill provided the $6 million request; the fiscal year 
2007 Continuing Appropriations Resolution provided $5.025 million 
(level funding) for this program. SBA understands and appreciates that 
the Congress and the Nation face difficult budgetary challenges. 
However, the progress being made by the National Spina Bifida Program 
must be sustained and expanded to ensure that people with Spina 
Bifida--over the course of their lifespan--have the support and access 
to quality care they need and deserve. To that end, SBA advocates that 
Congress allocate $7 million in fiscal year 2008 to the National Spina 
Bifida Program it can continue its current scope of the work and 
increase its folic acid awareness and Spina Bifida prevention efforts, 
further develop the National Spina Bifida Patient Registry, and sustain 
the National Spina Bifida Clearinghouse and Resource Center. Increasing 
funding for the National Spina Bifida Program will help ensure that our 
Nation continues to mount a comprehensive effort to prevent and reduce 
suffering from Spina Bifida.

                        PREVENTING SPINA BIFIDA

    While the exact cause of Spina Bifida is unknown, over the last 
decade, medical research has confirmed a link between a woman's folate 
level before pregnancy and the occurrence of Spina Bifida. Sixty-five 
million women are at-risk of having a child born with Spina Bifida and 
each year approximately 3,000 pregnancies in this country are affected 
by Spina Bifida, resulting in 1,500 births. The consumption of 400 
micrograms of folic acid daily prior to becoming pregnant and 
throughout the first trimester of pregnancy can help reduce incidence 
of Spina Bifida up to 75 percent. There are few public health 
challenges that our Nation can tackle and conquer by three-fourths in 
such a straightforward fashion. However, we must still be concerned 
with addressing the 25 percent of Spina Bifida cases that cannot be 
prevented by folic acid consumption, as well as ensuring that all women 
of childbearing age--particularly those most at-risk for a Spina Bifida 
pregnancy--consume adequate amounts of folic acid prior to becoming 
pregnant.
    The good news is that progress has been made in convincing women of 
the importance of folic acid consumption and the need to maintain diet 
rich in folic acid. Since 1968, the CDC has led the Nation in 
monitoring birth defects and developmental disabilities, linking these 
health outcomes with maternal and/or environmental factors that 
increase risk, and identifying effective means of reducing such risks. 
This public health success should be celebrated, but it is only half of 
the equation as approximately 3,000 pregnancies still are affected by 
this devastating birth defect. The Nation's public education campaign 
around folic acid consumption must be enhanced and broadened to reach 
segments of the population that have yet to heed this call--such an 
investment will help ensure that as many cases of Spina Bifida can be 
prevented as possible.
    SBA works collaboratively with CDC, the March of Dimes and the 
National Council on Folic Acid to increase awareness of the benefits of 
folic acid, particular for those at elevated risk of having a baby with 
neural tube defects (those who have Spina Bifida themselves or those 
who have already conceived a baby with Spina Bifida). With additional 
funding in fiscal year 2008 these activities could be expanded to reach 
the broader population in need of these public health education, health 
promotion, and disease prevention messages. SBA advocates that Congress 
provide additional funding to CDC to allow for a particular public 
health education and awareness focus on at-risk populations (e.g. 
Hispanic-Latino communities) and health professionals who can help 
disseminate information about the importance of folic acid consumption 
among women of childbearing age.
    In addition to a $7 million fiscal year 2008 allocation for the 
National Spina Bifida Program, SBA supports a fiscal year 2008 
allocation of $137.6 million for the NCBDDD so the agency can enhance 
its programs and initiatives to prevent birth defects and developmental 
disabilities and promote health and wellness among people with 
disabilities.

        IMPROVING HEALTH CARE FOR INDIVIDUALS WITH SPINA BIFIDA

    The mission of the Agency for Healthcare Research and Quality 
(AHRQ) is to improve the outcomes and quality of health care; reduce 
its costs; improve patient safety; decrease medical errors; and broaden 
access to essential health services. The work conducted by the agency 
is vital to the evaluation of new treatments in order to ensure that 
individuals and their families living with Spina Bifida continue to 
receive the high quality health care that they need and deserve--SBA 
urges the subcommittee to allocate $200,000 in fiscal year 2008 to AHRQ 
so the agency can continue to support and expand the development of a 
National Spina Bifida Patient Registry. This funding will allow AHRQ to 
direct and lead the effort to validate quality patient treatment data 
measures for the National Spina Bifida Patient Registry, which will 
help improve the quality of care provided throughout the Nation's 
system of Spina Bifida Clinics. In addition, SBA recommends that AHRQ 
receive an overall funding allocation of $350 million in fiscal year 
2008 so that it can continue to conduct follow-up efforts to evaluate 
Spina Bifida treatments and sustain and expand its myriad initiatives 
to improve quality of health care throughout the Nation.

         SUSTAIN AND SEIZE SPINA BIFIDA RESEARCH OPPORTUNITIES

    Our Nation has benefited immensely from our past Federal investment 
in biomedical research at the National Institutes of Health (NIH). SBA 
joins with the rest of the public health and research community in 
advocating that NIH receive a 6.7 percent increase ($30.869 billion) in 
fiscal year 2008. This funding will support applied and basic 
biomedical, psychosocial, educational, and rehabilitative research to 
improve the understanding of the etiology, prevention, cure and 
treatment of Spina Bifida and its related conditions. In addition, SBA 
requests that the subcommittee include language in the report 
accompanying the fiscal year 2008 LHHS measure to:
  --Urge the National Institute of Child Health and Human Development 
        (NICHD)--expansion of its role--and support of--a more 
        comprehensive Spina Bifida research portfolio;
  --Commend the National Institute of Diabetes and Digestive and Kidney 
        Diseases (NIDDK) for its interest in exploring issues related 
        to the neurogenic bladder and to encourage the institute to 
        forge ahead with its work in this important topic area; and
  --Encourage the National Institute of Neurological Diseases and 
        Stroke (NINDS) to continue and expand its research related to 
        the treatment and management of hydrocephalus.

                               CONCLUSION

    SBA stands ready to work with the subcommittee and other Members of 
Congress to advance policies that will reduce and prevent suffering 
from Spina Bifida. Again, we thank you for the opportunity to present 
our views on funding for programs that will improve the quality-of-life 
for the 70,000 Americans and their families living with Spina Bifida 
and stand ready to answer any questions you may have.
                                 ______
                                 
                Prepared Statement of The AIDS Institute

    The AIDS Institute, a national public policy research, advocacy, 
and education organization, is pleased to comment in support of 
critical HIV/AIDS and Hepatitis programs as part of the fiscal year 
2008 Labor, Health, and Education and Related Services appropriation 
measure. We thank you for your consistent support of these programs 
over the years, and trust you will do your best to adequately fund them 
in the future in order to provide for, and protect the health of many 
Americans.

                                HIV/AIDS

    HIV/AIDS remains one of the world's worst health pandemics in 
history. In the United States, according to the CDC, an estimated 1.2 
million people have been infected, 40,000 new infections each occur 
each year, and 531,000 people have died.
    Persons of minority races and ethnicities are disproportionately 
affected by HIV/AIDS. African Americans, who make up approximately 13 
percent of the United States population, account for half of the HIV/
AIDS cases. HIV/AIDS also disproportionately affects the poor, and 
about 70 percent of those infected rely on public health care 
financing.
    The U.S. Government has played a leading role in fighting AIDS, 
both here and abroad. The vast majority of the discretionary programs 
supporting HIV/AIDS efforts domestically and a portion of our Nation's 
contribution to the global AIDS effort are funded through your 
subcommittee. The AIDS Institute, working in coalition with other AIDS 
organizations, have developed funding request numbers for each of these 
domestic and global AIDS programs. The AIDS Institute asks that you do 
your best to adequately fund these programs at the requested level.
    We are keenly aware of budget constraints and competing interests 
for limited dollars. Unfortunately, despite the growing need, almost 
all domestic HIV/AIDS programs in recent years have experienced funding 
decreases, and in fiscal year 2007 all programs except one part of the 
Ryan White program were flat funded by the Joint Resolution.
    This year, the President has proposed increases to three new 
domestic HIV/AIDS programs: $25 million for the AIDS Drug Assistance 
Program (ADAP); $6.3 million for early treatment Ryan White programs; 
and $63 million for HIV testing. The AIDS Institute applauds this and 
encourages the committee to fund them. The President has proposed a $6 
million decrease for Ryan White AIDS Education and Treatment Centers 
(AETCs) and $30 million to implement the Early Diagnosis Grant Program. 
The AIDS Institute opposes these proposals and asks you to as well.

                           RYAN WHITE CARE ACT
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year:
    2007................................................           2,112
    2008 President's Request............................           2,133
    2008 Community Request..............................           2,794
------------------------------------------------------------------------

    The centerpiece of the government's response to caring and treating 
low-income individuals with HIV/AIDS are those programs funded under 
the Ryan White CARE Act. CARE Act programs currently reach over 571,000 
low-income, uninsured, and underinsured people each year. Providing 
care and treatment for those who have HIV/AIDS is not only 
compassionate, but is cost-effective in the long run, and serves as a 
tool in prevention of HIV/AIDS.
    In fiscal year 2007, all programs except Part B base funding, were 
flat funded. This is on top of many years of funding decreases, except 
for minor increases for ADAP. It is now time to reverse these funding 
decreases and provide these vitally important programs with the 
community requested level of funding. Consider the following:
    (1) Caseload levels are increasing. People are living longer due to 
lifesaving medications; there are 40,000 new infections each year; and 
the CDC has recommended routine voluntary HIV testing in all healthcare 
settings for everyone from the ages of 13 to 64. CDC estimates its 
proposed $63 million testing initiative will result in 31,000 new 
infections being diagnosed. All of this will necessitate the need for 
more CARE Act services and medications.
    (2) The price of healthcare, including medications, is increasing 
and Medicaid benefits are being scaled-back at both the State and 
Federal levels.
    (3) Funding under the recently reauthorized CARE Act is being 
distributed through a different formula which, without additional 
funding, will result in many cities and States losing funding. While 
some jurisdictions are experiencing increases, others are receiving 
decreases. Congress can help limit the drastic funding losses caused by 
formula changes by increasing the overall funding levels.
    (4) ADAP funding shortfalls are causing States to place clients on 
waiting lists, limiting drug formularies, and increasing eligibility 
requirements. In January 2007, four States reported having waiting 
lists, totaling 558 people. In the State of South Carolina there are 
540 people on its waiting list. Six other ADAPs reported other cost 
containment measures, including three with capped enrollment and others 
with formulary reductions, eligibility restrictions and limiting annual 
client expenditures. Since ADAP received no increase last year and a 
mere $2.2 million the year before, severe restrictions are anticipated 
in many States across the country.
    (5) Two reports conclude there are a staggering number of people in 
the United States who are not receiving life-saving AIDS medications. 
The Institute of Medicine report ``Public Financing and Delivery of 
HIV/AIDS Care, Securing the Legacy of Ryan White'' concluded that 
233,069 people in the United States who know their HIV status do not 
have continuous access to antiretrovirals. A study by the CDC titled, 
``Estimated number of HIV-infected persons eligible for and receiving 
antiretroviral therapy, 2003 United States'', reached similar 
conclusions. According to the CDC, 212,000, or 44 percent of eligible 
people living with HIV/AIDS, aged 15-49 in the United States, are not 
receiving antiretroviral therapy.
    Fiscal Year 2007 Administration Proposals.--While we appreciate the 
$25 million increase for ADAP proposed by the administration, it is far 
from the $233 million that is truly needed. As we seek to provide 
lifesaving medications to those abroad, we must ensure we are providing 
medications to our own in the United States. The administration has 
also proposed to increase funding for Part C (Title III) early 
treatment programs by $6.3 million. Again, while this increase is 
appreciated, it is far short of the increased need of $88 million for 
funding over 360 community-based primary health clinics and public 
health providers.
    The President has proposed an unprecedented decrease of $6 million 
for AIDS Education and Treatment Centers (AETCs), which train more than 
100,000 people per year. The new CARE Act now requires them to add 
trainings on Hepatitis B and C and culturally competent training for 
Native American and Alaska Native populations. To meet current needs, 
AETCs require a $15.3 million increase.
    Funding increases for other Ryan White CARE Act programs are also 
urgently needed. While patient caseloads increase, over the past 5 
years, Part A (Title I) has been cut by $15 million, over the past 4 
years Part C (Title III) has been cut by $5 million, and Part D (Title 
IV) by $2 million.
    Part A, which used to cover 51 urban areas most affected by HIV/
AIDS, now includes 56 areas, but received no increased funds, meaning 
there will be less money to go around. They are requesting an increase 
of $236 million. Part B Base, which provides funds to the States 
received an increase of $70 million in fiscal year 2007, but still 
lacks the adequate levels and is requesting an increase of $57 million.
    Title IV, which funds HIV care, psychosocial and other essential 
services to women, infants, children and youth, is requesting an 
increase of $46 million. The AIDS Institute also supports an increase 
of $6 million to Dental Reimbursement and Partnerships Programs.
    The AIDS Institute supports continued and increased funding for the 
Minority AIDS Initiative (MAI). MAI funds services nationwide that 
address the disproportionate impact that HIV has on communities of 
color.

     CENTERS FOR DISEASE CONTROL AND PREVENTION--HIV PREVENTION AND
                              SURVEILLANCE
                        [In millions of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Fiscal year:
    2007...................................................          652
    2008 President's Request...............................          745
    2008 Community Request.................................        1,049
------------------------------------------------------------------------

    While the number of new HIV infections in the United States has 
greatly decreased since the 1980's, there are still an estimated 40,000 
new infections each year. As with other domestic AIDS programs, 
prevention funding is severely lagging and CDC's AIDS funding has 
declined in the last 5 years. It is not surprising given the budget 
decreases, the goal of reducing the infection rate in half by 2005 was 
not reached.
    Fiscal Year 2008 Administration Proposals.--The AIDS Institute is 
in strong support of the President's proposed increase of $63 million 
to support HIV testing of more than 2 million people, mostly African-
Americans, in 10 jurisdictions with the highest rates of new 
infections, as well as the incarcerated and injecting drug users. 
Knowledge of one's HIV status, particularly for high risk individuals, 
is an effective prevention tool. Approximately one-quarter of the over 
1 million people living with HIV in the United States (252,000 to 
312,000 persons) are unaware of their HIV status. This initiative 
should help prevent future infections and bring more people into 
lifesaving treatment and care. The AIDS Institute urges the committee 
to fund this extremely worthy program.
    The administration is also proposing $30 million to implement the 
Early Diagnosis Grant Program, as called for by the new CARE Act. No 
State currently meets the grant conditions, which go beyond current CDC 
testing recommendations. We recommend that this funding be spent on 
other CDC HIV/AIDS prevention programs.
    While The AIDS Institute supports increased testing programs, we do 
not support funding these efforts at the expense of prevention 
intervention programs, which are already under funded.
    Efforts to improve prevention methods and weed out non-effective 
programs should be a constant undertaking and be guided by science and 
fact based decision-making. It is for these reasons The AIDS Institute 
opposes abstinence-only until marriage programs, for which the 
President requested a $28 million increase. While we support 
abstinence-based prevention programs as part of a comprehensive 
prevention message, there is no scientific proof that abstinence-only 
programs are effective. On the contrary, they reject proven prevention 
tools, such as condoms, and fail to address the needs of homosexuals, 
who can not marry, and who remain greatly impacted by HIV/AIDS.

              NATIONAL INSTITUTES OF HEALTH--AIDS RESEARCH
                        [In millions of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Fiscal year:
    2007...................................................        2,903
    2008 President's Request...............................        2,905
    2008 Community Request.................................        3,200
------------------------------------------------------------------------

    Through the NIH, research is conducted to understand the AIDS virus 
and its complicated mutations; discover new drug treatments; develop a 
vaccine and other prevention programs such as microbicides; and 
ultimately, a cure. Much of this work at the NIH is done in cooperation 
with private funding. The critically important work performed by the 
NIH not only benefits those in the United States, but the entire world.
    This research has already helped in the development of many highly 
effective new drug treatments, prolonging the lives of millions of 
people. As neither a cure nor a vaccine exists, and patients continue 
to build resistance to existing medications, additional research must 
continue. We ask the committee to fund critical AIDS research at the 
community requested level of $3.2 billion.

       SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION

    Many persons infected with HIV also experience drug abuse and/or 
mental health problems, and require the programs funded by SAMHSA. 
Given the growing need for services, we are disappointed by proposed 
funding cuts at SAMHSA, including $47 million for the Center for 
Substance Abuse Treatment, $36 million for the Center for Substance 
Abuse Prevention, and $76 million for the Center for Mental Health 
Services. We ask the committee to reject these cuts, and adequately 
fund these programs

                            VIRAL HEPATITIS

    Viral Hepatitis, whether A, B, or C, is an infectious disease that 
also deserve increased attention by the Federal Government. According 
to the CDC, there are an estimated 1.25 million Americans chronically 
infected with Hepatitis B, and 60,000 new infections each year. 
Although there is no cure, a vaccine is available, and a few treatment 
options are available. An estimated 4.1 million (1.6 percent) Americans 
have been infected with Hepatitis C, of whom 3.2 million are 
chronically infected. Currently, there is no vaccine and very few 
treatment options. It is believed that one-third of those infected with 
HIV are co-infected with Hepatitis C.
    Given these numbers, we are disappointed the administration is 
calling for continued level funding of $17.5 million for Viral 
Hepatitis at the CDC. This amount is less than what was funded in 
fiscal year 2003 and falls short of the $50 million that is needed. 
These funds are needed to establish a program to lower the incidence of 
Hepatitis through education, outreach, and surveillance, and to support 
such initiatives as the CDC National Hepatitis C Prevention Strategy 
and the 2002 NIH Consensus Statement on the Management of Hepatitis C 
and accompanying recommendations.
    The administration is proposing to cut the 317 Immunization Grant 
Program funds that serve as the major source in the public sector for 
at-risk adult immunizations. Instead of facing cuts, this cost-
effective program should be significantly enhanced in order to protect 
people from Hepatitis A and B. We recommend funding the 317 Program at 
$802 million for fiscal year 2008 in order to fully realize the public 
health benefits of immunization.
    The AIDS Institute asks that you give great weight to our testimony 
and remember it as you deliberate over the fiscal year 2008 
appropriation bill. Should you have any questions or comments, feel 
free to contact Carl Schmid, Director of Federal Affairs, The AIDS 
Institute, 1705 DeSales Street, NW, Washington, DC 20036; (202) 462-
3042; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aecdddcdc6c3c7caeedac6cbcfc7caddc7c0dddac7dadbdacb80c1dcc980">[email&#160;protected]</a> Thank you very much.
                                 ______
                                 
       Prepared Statement of The Humane Society Legislative Fund

    The Humane Society Legislative Fund (HSLF) supports a strong 
commitment by the Federal Government to research, development, 
standardization, validation and acceptance of non-animal and other 
alternative test methods. We are also submitting our testimony on 
behalf of The Humane Society of the United States and The Procter & 
Gamble Company. Thank you for the opportunity to present testimony 
relevant for the fiscal year 2008 budget request for the National 
Institute of Environmental Health Sciences (NIEHS) for the fiscal year 
2008 activities of the National Toxicology Program Center for the 
Evaluation of Alternative Toxicological Test Methods (NICEATM), the 
support center for the Interagency Coordinating Committee for the 
Validation of Alternative Test Methods (ICCVAM).
    In 2000, the passage of the ICCVAM Authorization Act into Public 
Law 106-545, created a new paradigm for the field of toxicology. It 
requires Federal regulatory agencies to ensure that new and revised 
animal and alternative test methods be scientifically validated prior 
to recommending or requiring use by industry. An internationally agreed 
upon definition of validation is supported by the 15 Federal regulatory 
and research agencies that compose the ICCVAM, including the EPA. The 
definition is: ``the process by which the reliability and relevance of 
a procedure are established for a specific use.''

                         FUNCTION OF THE ICCVAM

    The ICCVAM performs an invaluable function for regulatory agencies, 
industry, public health and animal protection organizations by 
assessing the validation of new, revised and alternative toxicological 
test methods that have interagency application. After appropriate 
independent peer review of the test method, the ICCVAM recommends the 
test to the Federal regulatory agencies that regulate the particular 
endpoint the test measures. In turn, the Federal agencies maintain 
their authority to incorporate the validated test methods as 
appropriate for the agencies' regulatory mandates. This streamlined 
approach to assessment of validation of new, revised and alternative 
test methods has reduced the regulator burden of individual agencies, 
provided a ``one-stop shop'' for industry, animal protection, public 
health and environmental advocates for consideration of methods and set 
uniform criteria for what constitutes a validated test methods. In 
addition, from the perspective of animal protection advocates, ICCVAM 
can serve to appropriately assess test methods that can refine, reduce 
and replace the use of animals in toxicological testing. This function 
will provide credibility to the argument that scientifically validated 
alternative test methods, which refine, reduce or replace animals, 
should be expeditiously integrated into Federal toxicological 
regulations, requirements and recommendations.

                         HISTORY OF THE ICCVAM

    The ICCVAM is currently composed of representatives from the 
relevant Federal regulatory and research agencies. It was created from 
an initial mandate in the NIH Revitalization Act of 1993 for NIEHS to 
``(a) establish criteria for the validation and regulatory acceptance 
of alternative testing methods, and (b) recommend a process through 
which scientifically validated alternative methods can be accepted for 
regulatory use.'' In 1994, NIEHS established the ad hoc ICCVAM to write 
a report that would recommend criteria and processes for validation and 
regulatory acceptance of toxicological testing methods that would be 
useful to Federal agencies and the scientific community. Through a 
series of public meetings, interested stakeholders and agency 
representatives from all 14 regulatory and research agencies, developed 
the NIH Publication No. 97-3981, ``Validation and Regulatory Acceptance 
of Toxicological Test Methods.'' This report, and subsequent revisions, 
has become the sound science guide for consideration of new, revised 
and alternative test methods by the Federal agencies and interested 
stakeholders.
    After publication of the report, the ad hoc ICCVAM moved to 
standing status under the NIEHS' NICEATM. Representatives from Federal 
regulatory and research agencies and their programs have continued to 
meet, with advice from the NICEATM's Advisory Committee and independent 
peer review committees, to assess the validation of new, revised and 
alternative toxicological methods. Since then, several methods have 
undergone rigorous assessment and are deemed scientifically valid and 
acceptable. In addition, the ICCVAM is working to streamline assessment 
of methods from the European Union (EU) that have already been 
validated for use within the EU. The open public comment process, input 
by interested stakeholders and the continued commitment by the Federal 
agencies has led to ICCVAM's success. It has resulted in a more 
coordinated review process for rigorous scientific assessment of the 
validation of new, revised and alternative test methods.

                 REQUEST FOR COMMITTEE REPORT LANGUAGE

    In 2006, the NICEATM/ICCVAM at the request of the U.S. Congress 
began a process of developing a 5-year roadmap for assertively setting 
goals to prioritize ending the use of antiquated animal tests for 
specific endpoints. The HSLF and other national animal protection 
organizations provided extensive comments on the process and priorities 
for the roadmap.
    While the stream of methods forwarded to the ICCVAM for assessment 
has remained relatively steady, it is imperative that the ICCVAM take a 
more proactive role in isolating areas where new methods development is 
on the verge of replacing animal tests. These areas should form a 
collective call by the Federal agencies that compose ICCVAM to fund any 
necessary additional research, development, validation and validation 
assessment that is required to eliminate the animal methods. We also 
strongly urge the NICEATM/ICCVAM to closely coordinate research, 
development and validation efforts with its European counterpart, the 
European Centre for the Validation of Alternative Methods (ECVAM) to 
ensure the best use of available funds and sound science. This 
coordination should also reflect a willingness by the Federal agencies 
comprising ICCVAM to more readily accept validated test methods 
proposed by the ECVAM to ensure industry has a uniform approach to 
worldwide chemical safety evaluation.
    We respectfully request the subcommittee consider the following 
report language for the Senate Labor, Health and Human Services, 
Education and Related Agencies Appropriations bill to ensure that the 
5-year roadmap is completed in a timely manner:

    ``The committee commends the National Interagency Center for the 
Evaluation of Alternative Methods/Interagency Coordinating Committee on 
the Validation of Alternative Methods (NICEATM/ICCVAM) for commencing a 
process for developing a 5-year plan to research, develop, translate 
and validate new and revised non-animal and other alternative assays 
for integration of relevant and reliable methods into the Federal 
agency testing programs. The 5-year plan shall be used to prioritize 
areas, including tiered testing and evaluation frameworks, which have 
the potential to most significantly and rapidly reduce, refine or 
replace laboratory animal methods. The committee directs a transparent, 
public process for developing this plan and recommends the plan be 
presented to the committee by November 15, 2007. Funding for completing 
the 5-year plan shall not reduce the NICEATM/ICCVAM appropriation.''
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States

    On behalf of The Humane Society of the United States (SUS) and our 
more than 10 million supporters nationwide, we appreciate the 
opportunity to provide testimony on our top funding priority for the 
Labor, Health and Human Services, Education and Related Agencies 
Subcommittee in fiscal year 2008. We are also submitting our testimony 
on behalf of The Humane Society Legislative Fund (HSLF). Thank you for 
the opportunity to present testimony relevant for the fiscal year 2008 
budget request.

                  BREEDING OF CHIMPANZEES FOR RESEARCH

    The HSUS requests that no Federal funding be appropriated for 
breeding of chimpanzees for research, or for research that requires 
breeding of chimpanzees, for the following reasons:
  --The National Center for Research Resources has a publicly-declared 
        moratorium (extended until December 2007) on breeding 
        chimpanzees which prohibits breeding of federally owned or 
        supported chimpanzees or NIH funding of projects that require 
        chimpanzee breeding (NCRR written communication, February 28, 
        2006).
  --The United States currently has a surplus of chimpanzees available 
        for use in research due to overzealous breeding for HIV 
        research and subsequent findings that they are a poor HIV 
        model.\1\
---------------------------------------------------------------------------
    \1\ NRC (National Research Council) (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
---------------------------------------------------------------------------
  --The cost of maintaining chimpanzees in laboratories is exorbitant, 
        totaling between $4.7 and $9.3 million each year for the 
        current population of approximately 800 federally owned or 
        supported chimpanzees ($15-39 per day per chimpanzee; $500,000 
        per chimpanzee's 50-year lifetime). Breeding of additional 
        chimpanzees into laboratories will only perpetuate a number of 
        burdens on the government--up to 60 years per chimpanzee born 
        into the system.
  --Expansion of the chimpanzee population in laboratories only creates 
        more concerns than presently exist about their quality of care.
  --Use of chimpanzees in research raises strong public concerns.

                         BACKGROUND AND HISTORY

    Beginning in 1995, the National Research Council (NRC) confirmed a 
chimpanzee surplus and recommended a moratorium on breeding of 
federally owned or supported chimpanzees,\1\ who now number 
approximately 800 of the 1,300 total chimpanzees available for research 
in the United States. According to a National Research Resources 
Advisory Council September 15, 2005 meeting, the National Center for 
Research Resources (NCRR) of NIH extended the moratorium until December 
2007 because of high costs of chimpanzee care, lack of existing colony 
information, and failure of chimpanzees as a model, such as for HIV. 
Further, it has also been noted that ``a huge number'' of chimpanzees 
were not being used in active research protocols and were therefore 
``just sitting there.'' \2\ NCRR will be making a decision this year as 
to whether the breeding moratorium should continue. There is no 
justification for breeding of additional chimpanzees for research; 
therefore The HSUS hopes that NCRR will continue the moratorium into 
the future. Importantly, however, lack of Federal funding for breeding 
will ensure that no breeding of federally owned or supported 
chimpanzees for research will occur in fiscal year 2008.
---------------------------------------------------------------------------
    \2\ Cohen, J. (2007) Biomedical Research: The Endangered Lab Chimp. 
Science. 315:450-452.
---------------------------------------------------------------------------
    Furthermore, despite the moratorium on breeding, there are cases in 
which the moratorium is not being obeyed, further prompting the need 
for congressional action.

                     DEVIATIONS FROM THE MORATORIUM

    Despite the NCRR breeding moratorium, which prohibits breeding of 
federally owned or supported chimpanzees or NIH funding of projects 
that require chimpanzee breeding (NCRR written communication, February 
28, 2006), chimpanzee breeding is still being funded by NIH. For 
example, the National Institute of Allergy and Infectious Diseases 
maintains a contract with New Iberia Research Center in Louisiana to 
provide 10 to 12 infant chimpanzees annually for research projects. The 
10-year contract entitled ``Leasing of chimpanzees for the conduct of 
research'' has been allotted over $22 million, with $3.9 million 
awarded since its inception in September 2002.

           CONCERNS REGARDING CHIMPANZEE CARE IN LABORATORIES

    Inspections conducted by the U.S. Department of Agriculture 
demonstrate that basic chimpanzee housing requirements are often not 
being met. Inspection reports for three federally funded chimpanzee 
facilities reported housing of chimpanzees in less than minimal space 
requirements, inadequate environmental enhancement for primates, and/or 
general disrepair of facilities. Problems at three major chimpanzee 
research facilities add further argument against the breeding of even 
more chimpanzees.

   CHIMPANZEES HAVE OFTEN BEEN A POOR MODEL FOR HUMAN HEALTH RESEARCH

    The scientific community recognizes that chimpanzees are poor 
models for HIV because chimpanzees do not develop AIDS. Similarly, 
though chimpanzees do not model the course of the human Hepatitis C 
virus, they continue to be widely used for this research. According to 
the chimpanzee genome, some of the greatest differences between 
chimpanzees and humans relate to the immune system,\3\ calling into 
question the validity of infectious disease research using chimpanzees.
---------------------------------------------------------------------------
    \3\ The Chimpanzee Sequencing and Analysis Consortium/Mikkelsen, 
TS, et al., (1 September 2005) Initial sequence of the chimpanzee 
genome and comparison with the human genome, Nature 437, 69-87.
---------------------------------------------------------------------------
         ETHICAL AND PUBLIC CONCERNS ABOUT CHIMPANZEE RESEARCH

    Chimpanzee research raises serious ethical issues, particularly 
because of their extremely close similarities to humans in terms of 
intelligence and emotions. Americans are clearly concerned about these 
issues: 90 percent believe it is unacceptable to confine chimpanzees 
individually in government-approved cages; 71 percent believe that 
chimpanzees who have been in the laboratory for over 10 years should be 
sent to sanctuary for retirement (chimpanzees can live to be 60 years 
old); \4\ and 54 percent believe that it is unacceptable for 
chimpanzees to ``undergo research which causes them to suffer for human 
benefit.'' \5\
---------------------------------------------------------------------------
    \4\ 2006 poll conducted by the Humane Research Council for Project 
Release & Restitution for Chimpanzees in laboratories.
    \5\ 2001 poll conducted by Zogby International for the Chimpanzee 
Collaboratory.
---------------------------------------------------------------------------
    We respectfully request the following committee bill or report 
language: ``The committee directs that no funds provided in this act be 
used to support the breeding of chimpanzees for research or to support 
research that requires breeding of chimpanzees.''
    We appreciate the opportunity to share our views for the Labor, 
Health and Human Services, Education and Related Agencies 
Appropriations Act for fiscal year 2008. We hope the committee will be 
able to accommodate this modest request that will save the government a 
substantial sum of money, benefit chimpanzees, and allay some concerns 
of the public at large. Thank you for your consideration.
                                 ______
                                 
          Prepared Statement of the Trust for America's Health

    Trust for America's Health (TFAH), a national non-profit, 
nonpartisan organization dedicated to saving lives by protecting the 
health of every community and working to make disease prevention a 
national priority, is pleased to provide the subcommittee with the 
following testimony. In order to provide the resources to build a 21st 
century public health system that gives all communities a strong 
defense against today's health threats, TFAH identifies a number of 
programs essential to achieving this goal.

   BOLSTERING THE NATION'S ABILITY TO DETECT AND CONTROL INFECTIOUS 
                  DISEASES SUCH AS PANDEMIC INFLUENZA

    Pandemic Preparedness ($1.542 billion, $350 million over the 
President's request).--In November 2005, the President requested a 
total of $7.1 billion to respond to an influenza pandemic. To date, 
Congress has appropriated just over $6 billion of that request. We were 
pleased that the fiscal year 2008 budget proposal would honor that 
commitment with an additional $1.2 billion for pandemic preparedness 
activities, including making improvements in vaccine technology and 
manufacturing; stockpiling antivirals, diagnostics and medical 
supplies; developing contingency planning; enhancing risk 
communication; and enhancing global and domestic health surveillance.
    The emergency supplemental passed by the House and Senate contains 
$625 million of the $870 in one-time pandemic flu funding recommended 
in the President's fiscal year 2008 budget proposal, primarily for 
purchasing antiviral medications and medical supplies. In addition, 
there is a need for an ongoing annual investment, particularly at the 
CDC, to ensure that preparedness efforts are sustained and effective. 
These activities require funding beyond the life cycle of the 
supplemental appropriations vehicles. TFAH supports the remaining $245 
million in one-time pandemic flu funding not included in the emergency 
supplemental; and $322 million for ongoing pandemic preparedness 
activities in the Department of Health and Human Services, which 
includes $158 million at the CDC.
    Further, we support $350 million in annual recurring funding for 
State and local pandemic preparedness activities. States would use this 
funding to exercise response plans, make revisions and updates to 
plans, and build medical surge capacity. In the midst of a pandemic, it 
could be difficult to shift resources from one part of the country to 
another, so every jurisdiction must be prepared. In fiscal year 2006, 
Congress provided $600 million in one-time funding for State and local 
pandemic preparedness, but this funding will expire at the end of 
fiscal year 2007, and no such funds have been requested for fiscal year 
2008.

                        GLOBAL DISEASE DETECTION

    Global surveillance for infectious disease outbreaks is also 
critical. The CDC's Global Disease Detection initiative aims to 
recognize infectious disease outbreaks faster, improve the ability to 
control and prevent outbreaks, and detect emerging microbial threats. 
In fiscal year 2006, Global Disease Detection centers across the globe 
help countries investigate numerous outbreaks, including avian 
influenza, hemorrhagic fever, meningitis, cholera and unexplained 
sudden death. TFAH recommends funding the Global Disease Detection 
initiative at $45 million, which is an increase of $12.5 million over 
the President's requested level.

          UPGRADING STATE AND LOCAL BIOTERRORISM PREPAREDNESS

    The terrorism events of 2001 and the subsequent anthrax and ricin 
attacks illustrated the need for a responsive public health system and 
demonstrated that the existing structure has enormous gaps. The Federal 
Government took unprecedented first steps towards improved preparedness 
by providing funding to State and local public health departments to 
better respond to terrorism. These funds have allowed States and 
localities to conduct needs assessments, develop terrorism response 
plans and training activities, strengthen epidemiology and surveillance 
capabilities, and upgrade lab capacity and communications systems. Yet 
a great deal of work remains to be done.
    The December 2006 TFAH Report, Ready or Not?--Protecting the 
Public's Health from Diseases, Disasters and Bioterrorism, examined 10 
key indicators to assess areas of both improvement and ongoing 
vulnerability in our Nation's effort to protect against bioterrorism. 
The report found that 5 years after the September 11th and anthrax 
tragedies, emergency health preparedness is still inadequate in 
America. To address these shortcomings, we recommend the following:
  --State and Local Capacity ($919 million, $221 million over the 
        President's request).--CDC distributes grants to 50 States and 
        four metropolitan areas for public health infrastructure 
        upgrades to respond to acts of terrorism or infectious disease 
        outbreaks. In fiscal year 2008, the President proposes to cut 
        funding for this program by $125.4 million, a nearly 25 percent 
        cut since fiscal year 2005. This would force health departments 
        to cut staff dedicated to preparedness; laboratories would lose 
        trained personnel and the ability to purchase new technology; 
        and disease surveillance and response efforts would be 
        hindered.
  --Hospital Preparedness Grants ($650 million, $236 million over the 
        President's request).--The primary focus of the National 
        Bioterrorism Hospital Preparedness Program is to improve the 
        capacity of the Nation's hospitals and other supporting 
        healthcare entities to respond to bioterrorist attacks, 
        infectious disease epidemics, and other large-scale emergencies 
        by enabling hospitals, EMS, and health centers to plan a 
        coordinated response. The President proposes to cut funding for 
        hospital preparedness grants by $60 million in fiscal year 
        2008.

                CHRONIC DISEASES CONTINUE TO TAKE A TOLL

    Chronic diseases account for 70 percent of all deaths in the United 
States and untold disability and suffering. In fact, five of our top 
six causes of death--heart disease, cancer, stroke, chronic obstructive 
pulmonary disease, and diabetes--are chronic diseases. The treatment of 
chronic diseases consumes three-quarters of the $1.7 trillion the 
United States spends annually on health care.
    Smoking, for example, is the single most preventable cause of death 
and disease in the United States, causing 440,000 premature deaths 
annually. And increasingly, obesity is a significant risk factor in 
such major chronic disease killers as heart disease, stroke and 
diabetes.

                 FIGHTING THE EMERGING OBESITY EPIDEMIC

    The number of overweight and obese individuals has reached epidemic 
proportions in the United States with 64.5 percent of the adult 
population being diagnosed as obese (119 million). In the United 
States, the percentage of young people who are overweight has tripled 
in the last 20 years. Despite this troubling trend, the President's 
proposed fiscal year 2008 budget provides no increases for existing 
obesity-related programs.
  --Division of Nutrition and Physical Activity (DNPA) ($65 million, 
        $23.6 million over the President's request).--CDC's grant 
        funding allows State health departments to develop a nutrition 
        and physical activity infrastructure; develop a primary 
        prevention plan for nutrition and physical activity to 
        coordinate and link partners in and out of State government; 
        identify and assess data sources to monitor the burden of 
        obesity; and evaluate the progress and impact of the State 
        plans and intervention projects. Currently, only 28 States 
        receive DNPA grants, 7 at basic implementation, and 21 at 
        capacity-building levels. An increase to $65 million would fund 
        all 50 States and provide $5 million for the National Fresh 
        Fruit and Vegetable Nutrition Program.
  --School Health Programs ($75.8 million, $20 million over the 
        President's request).--CDC's grant funding assists States in 
        improving the health of children through a school level program 
        that engages families and communities and develops health 
        education, physical education, school meals, health services, 
        healthy school environments, and staff health promotion. 
        Currently, school health programs are funded in only 23 States. 
        The recommended increase of $20 million would expand the number 
        of States to 40.
  --STEPS to a Healthier United States ($43.6 million, $17.3 million 
        over the President's request).--STEPS grants support 
        communities, cities and tribal entities to implement health 
        promotion programs and community initiatives. STEPS works with 
        health care and insurance systems to combat obesity in over 40 
        communities, cities, and tribal entities. The President's 
        budget proposes to cut funding for STEPS by $17.2 million.
  --Adolescent Health Promotion Initiative ($17.3 million, equal to the 
        President's request).--This new initiative aims to help schools 
        encourage regular physical activity, healthy eating, and injury 
        prevention. Schools will have access to the Department of 
        Health and Human Services' (HHS) School Health Index, which 
        they can use to make self-assessments and develop action plans. 
        Schools can apply for one of CDC's approximately 3,600 School 
        Culture of Wellness Grants to help implement their action 
        plans.

                              IMMUNIZATION

    Immunization through vaccination of children and adults is proven 
effective as a means to prevent some of the most important infectious 
diseases. Immunization should remain a high public health priority, 
and, to ensure that its benefits are fully realized, the Federal 
Government should increase its commitment to these life saving public 
health interventions.
    National Immunization Program ($802.5 million, $257.5 million over 
the President's request).--This program provides for childhood and 
adult operations/infrastructure grants, the purchase of childhood and 
adult vaccines, and related prevention activities. Each day, 11,000 
babies are born in the United States who will need up to 28 
vaccinations before they are 2 years old. Even so, nearly 1 million 2-
year-olds do not receive all the recommended doses. Every dollar spent 
on vaccines saves an extraordinary amount downstream: $27 with DTaP 
(Diphtheria, Tetanus and Pertussis), $26 with MMR (Measles, Mumps and 
Rubella), and $15 with Hepatitis B. However, the vaccine cost to fully 
immunize one child has risen in the past 6 years alone from $186 to 
$570.
    Currently, the CDC provides grants to all 50 States, six cities and 
eight current or former territories to carry out immunization 
activities. TFAH recommends providing $802.5 million for the National 
Immunization Program at CDC. This includes $720 million for the 317 
Immunization Program ($245 million for State operations/infrastructure 
grants, and $475 million for the purchase of childhood vaccines); and 
$82.543 million for program operations ($4.887 million for vaccine 
tracking and $77.656 million for prevention activities).

                  SUPPORTING OTHER PUBLIC HEALTH TOOLS

    TFAH supports additional funding for disease detection and 
surveillance activities which are vital to stemming an infectious 
disease outbreak, tracking rises in chronic diseases, or responding to 
a bioterror event.
    Federal and State public health laboratory capabilities ($47 
million, $20 million over the President's request).--Additional funds 
are needed to upgrade facilities and equipment and to bolster the 
workforce. This funding is essential if scientists are to have the 
capability to conduct clinical testing for potentially dangerous 
chemicals, such as ricin, cyanide, nerve agents, and pesticide exposure 
or test for novel strains of influenza. Of the suggested $20 million 
increase, TFAH recommends that $10 million be used to enhance State 
public health laboratory biomonitoring capabilities, with $10 million 
used to bolster the intramural CDC lab program.
    Environment and Health Outcome Tracking ($50 million, $26 million 
over the President's request).--The program links environmental and 
health data in order to identify problems and effective solutions to 
reduce the burden of chronic disease. Additional funds would enable the 
program to fund additional States and local health departments, or 
order to systematically and comprehensively track respiratory diseases, 
developmental disorders, birth defects, cancers and environmental 
exposures to help scientists find answers about causes and cures of 
these diseases. Further, the program plans to issue a major national 
report on the environment and health in 2008, and expects to make 
operational its Web-based environmental tracking system and roll out a 
report reflecting data from funded States within 2 years.
    Mr. Chairman, thank you again for the opportunity to submit 
testimony on the urgent need to enhance Federal funding for core public 
health programs.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College

    For 38 years, United Tribes Technical College (UTTC) has been 
providing postsecondary vocational education, job training and family 
services to Indian students from throughout the Nation. We are governed 
by the five tribes located wholly or in part in North Dakota. We are an 
educational institution that consistently has excellent results, 
placing Indian people in good jobs and reducing welfare rolls. The 
Perkins funds constitute about half of our operating budget. We do not 
have a tax base or State appropriated funds on which to rely.
    The request of the United Tribes Technical College Board for the 
section 117 of the Perkins Act, Tribally Controlled Postsecondary 
Career and Technical Institutions Program is:
  --$8.5 million or $1.1 million above the administration's request and 
        the fiscal year 2007 enacted level. Funding under section 117 
        of the Perkins Act has in recent years it has been distributed 
        on a formula basis.
    UTTC Performance Indicators. UTTC has:
  --An 87 percent retention rate,
  --A placement rate of 95 percent (job placement and going on to 4-
        year institutions),
  --A projected return on Federal investment of 1 to 20 (2005 study 
        comparing the projected earnings generated over a 28-year 
        period of UTTC Associate of Applied Science and Bachelor degree 
        graduates of June 2005 with the cost of educating them.), and
  --The highest level of accreditation. The North Central Association 
        of Colleges and Schools has accredited UTTC again in 2001 for 
        the longest period of time allowable--10 years or until 2011--
        and with no stipulations. We are also the only tribal college 
        accredited to offer on-line associate degrees.
    The Demand for our Services is Growing and we are Serving More 
Students.--For the 2006-2007 school year we enrolled 1,018 students (an 
unduplicated count). The majority of our students are from the Great 
Plains States, an area that, according to the 2003 BIA Labor Force 
Report, has an Indian reservation jobless rate of 76 percent. UTTC is 
proud that we have an annual placement rate of 95 percent.
    In addition, we have served 254 students during school year 2005-
2006 in our Theodore Jamerson Elementary school, and 350 children, 
birth to 5, were served in the child developments centers for 2005-
2006.
    UTTC Course Offerings and Partnerships With Other Educational 
Institutions.--We offer 15 vocational/technical programs and award a 
total of 24 2-year degree and 1-year certificates. We are accredited by 
the North Central Association of Colleges and Schools.
    Licensed Practical Nursing.--This is our program with the highest 
number of students. We have an agreement with the University of North 
Dakota system that allows our students to transfer their credits to 
these 4-year nursing programs.
    Medical Transcription and Coding Certificate Program.--Our newest 
academic endeavor is our Medical Transcription and Coding Certificate 
Program which is offered through the college's Exact Med Training 
program and supported by Department of Labor funds.
    Tribal Environmental Science.--Our Tribal Environmental Science 
program is being offered through a National Science Foundation Tribal 
College and Universities Program grant. The 5-year project supports 
UTTC in implementing a program that leads to a 2-year Associate of 
Applied Science degree in Tribal Environmental Science.
    Injury Prevention.--Through our Injury Prevention Program we are 
addressing the injury death rate among Indians, which is 2.8 times that 
of the U.S. population We received assistance through Indian Health 
Service to offer the only degree-granting Injury Prevention program in 
the Nation. Injuries are the number one cause of mortality among Native 
people for ages 1-44 and the third for overall death rates.
    Online Education.--We are working to bridge the ``digital divide'' 
by providing web-based education and Interactive Video Network courses 
from our North Dakota campus to American Indians residing at other 
remote sites and as well as to students on our campus. This spring 
semester 2007, we have 61 students registered in online courses, of 
which 48 students are studying exclusively online (approximately 34 
FTE) and 13 are campus-based students. These online students come from 
the following States: Colorado, Georgia, Hawaii, Idaho, Kentucky, 
Nebraska, North Dakota, Oklahoma, Oregon, South Dakota, West Virginia, 
and Wisconsin.
    Online courses provide the scheduling flexibility students need, 
especially those students with young children. We offer online full 
degree programs in the areas of Early Childhood Education, Injury 
Prevention, Health Information Technology, Nutrition and Food Service 
and Elementary Education. All totaled, 156 online course seats are 
filled by students this semester. Over 50 courses are currently offered 
online, including those in the Medical Transcription and Coding program 
and those offered through an MOU with Owens Valley Career Development 
Center.
    Our newest online course is suicidology--the study of suicide, its 
causes, and its prevention and of the behavior of those to threaten or 
attempt suicide--and we expect that with additional outreach that there 
will be a significant demand for this course. We also offer a training 
program through the Environmental Protection Agency to train 
environmental professionals in Indian Country. The Indian Country 
Environmental Hazard Assessment Program is a training course designed 
to help mitigate environmental hazards in reservation communities.
    United Tribes Technical College is accredited by the Higher 
Learning Commission of the North Central Association of Colleges and 
Schools to provide associate degrees online. This approval is required 
in order for us to offer Federal financial aid to students enrolled in 
these online courses. We are the only tribal college accredited to 
offer associate degrees online.
    Computer Information and Technology.--The Computer Support 
Technician program is at maximum student capacity because of 
limitations on learning resources for computer instruction. In order to 
keep up with student demand and the latest technology, we will need 
more classrooms, equipment and instructors. Our program includes all of 
the Microsoft Systems certifications that translate into higher income 
earning potential for graduates.
    Nutrition and Food Services.--UTTC will meet the challenge of 
fighting diabetes in Indian Country through education. Indians and 
Alaska Natives have a disproportionately high rate of type 2 diabetes, 
and have a diabetes mortality rate that is three times higher than the 
general U.S. population. The increase in diabetes among Indians and 
Alaska Natives is most prevalent among young adults aged 25-34, with a 
160 percent increase from 1990-2004. Diabetes mortality is 3.1 times 
higher in the Indian/Alaska Native population than in the general U.S. 
population (Source: fiscal year 2008 Indian Health Service Budget 
Justification).
    As a 1994 Tribal Land Grant institution, we offer a Nutrition and 
Food Services Associate of Applied Science degree in an effort to 
increase the number of Indians with expertise in nutrition and 
dietetics. Currently, there are only a handful of Indian professionals 
in the country with training in these areas. Among our offerings is a 
Nutrition and Food Services degree with a strong emphasis on diabetes 
education, traditional food preparation, and food safety.
    We have also established the United Tribes Diabetes Education 
Center to assist local tribal communities and our students and staff in 
decreasing the prevalence of diabetes by providing diabetes educational 
programs, materials and training. We publish and make available tribal 
food guides to our on-campus community and to tribes.
    Business Management/Tribal Management.--Another of our newer 
programs is business and tribal management designed to help tribal 
leaders be more effective administrators. We continue to refine our 
curricula for this program.
    Job Training and Economic Development.--UTTC is a designated 
Minority Business Development Center serving Montana, South Dakota and 
North Dakota. We also administer a Workforce Investment Act program and 
an internship program with private employers in the region.
    Economic Development Administration funding was made available to 
open a ``University Center.'' The Center is used to help create 
economic development opportunities in tribal communities. While most 
States have such centers, this center is the first-ever tribal center.
    Upcoming Endeavors.--We continue to seek a Memorandum of 
Understanding with the BIA's Police Academy in New Mexico that would 
allow our criminal justice program to be recognized for the purpose of 
BIA and Tribal police certification, so that Tribal members from the 
BIA regions in the Northern Plains, Northwest, Rocky Mountain, and 
Midwest areas would not have to travel so far from their families to 
receive training. Our criminal justice program is accredited and 
recognized as meeting the requirements of most police departments in 
our region. We also anticipate providing similar training for 
correctional officers, a vital need in Indian country.
    Additionally, we are interested in developing training programs 
that would assist the BIA in the area of provision of trust services. 
We have several technology disciplines and instructors that are capable 
of providing those kinds of services with minimum of additional 
training.
    Department of Education Study Documents our Facility/Housing 
Needs.--The 1998 Carl Perkins Vocational Education and Applied 
Technology Act required the Department of Education to study the 
facilities, housing and training needs of our institution. That report 
was published in November 2000 (``Assessment of Training and Housing 
Needs within Tribally Controlled Postsecondary Vocational Institutions, 
November 2000, American Institute of Research''). The report identified 
the need for $17 million for the renovation of existing housing and 
instructional buildings and $30 million for the construction of housing 
and instructional facilities. These figures do not take into account 
the costs of inflation since the study was completed in 2000.
    We continue to identify housing as our greatest need. Some families 
must wait from 1 to 3 years for admittance due to lack of available 
housing. Since 2005 we have assisted 311 families with off campus 
housing, a very expensive proposition. In order to accommodate the 
enrollment increase, UTTC partners with local renters and two county 
housing authorities (Burleigh, Morton).
    UTTC has worked hard to combine sources of funding for desperately 
needed new facilities--within the past few years we have built a 86-bed 
single-student dormitory on campus, a family student apartment complex, 
and a Wellness Center. Sources of funds included the U.S. Department of 
Education, the U.S. Department of Agriculture, the American Indian 
College Fund, the Shakopee-Mdewakanton Sioux Tribe, among others. We 
still have a critical housing shortage and more housing must be built 
to accommodate those on the waiting list and to meet expected increased 
enrollment. We also have housing which needs renovation to meet safety 
codes.
    UTTC has acquired an additional 132 acres of land. We have also 
developed a master facility plan. This plan includes the development of 
a new campus on which would be single-student and family housing, 
classrooms, recreational facilities, offices and related 
infrastructure. A new campus will address our need for expanded 
facilities to accommodate our growing student population. It will also 
enable us to effectively address safety code requirements, Americans 
with Disabilities Act requirements, and to become more efficient in 
facility management.
    Thank you for your consideration of our request. We cannot survive 
without the basic core vocational/technical education funds that come 
through the Department of Education. They are essential to the 
operation of our campus and to the welfare of Indian people throughout 
the Great Plains region and beyond.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
